<html>
<title> - DEPARTMENTS OF LABOR, HEALTH AND HUMAN SERVICES, AND EDUCATION, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2010</title>
<body><pre>[Senate Hearing 111-]
[From the U.S. Government Publishing Office]



 
  DEPARTMENTS OF LABOR, HEALTH AND HUMAN SERVICES, AND EDUCATION, AND 
          RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2010

                              ----------                              

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.

                       NONDEPARTMENTAL WITNESSES

    [Clerk's note.--The subcommittee was unable to hold 
hearings on nondepartmental witnesses. The statements and 
letters of those submitting written testimony are as follows:]

                   Prepared Statement of AIDS Action

    I am pleased to submit this testimony to the members of this 
subcommittee on the importance of increased funding for the fiscal year 
2010 HIV/AIDS portfolio. Since 1984, AIDS Action Council, through its 
member organizations and the greater HIV/AIDS and public health 
communities, has worked to enhance HIV prevention programs, research 
protocols, and care and treatment services at the community, State and 
Federal level. AIDS Action represents many AIDS service organizations 
located in the Nation's HIV epicenters, local health departments, 
smaller service providers, faith-based organizations, substance abuse 
treatment centers, and education and advocacy organizations from all 
over the country. AIDS Action's goals are to ensure effective, 
evidence-based HIV care, treatment, and prevention services; to 
encourage the continuing pursuit of a cure and a vaccine for HIV 
infection; and to support the development of a public health system 
which ensures that its services are available to all those in need. On 
behalf of AIDS Action Council's diverse membership I bring your 
attention to issues impacting funding for fiscal year 2010.
    Nearly 30 years since it was first identified, the HIV/AIDS 
epidemic in the United States is characterized by needless mortality, 
inadequate access to care, persistent levels of new infection, and 
stark racial inequalities. Despite the good news of improved 
treatments, which have made it possible for people with HIV disease to 
lead longer and healthier lives, stark realities remain. Consider that 
in the United States:
  --Every year, 56,300 people are newly infected with HIV--one new 
        infection every 9\1/2\ minutes. According to the Centers for 
        Disease Control and Prevention (CDC) the HIV infection rate has 
        not fallen in 15 years and the new incidence figure represent a 
        40 percent increase from previous estimates
  --CDC stated that the HIV incidence rate increased by 15 percent from 
        2006 to 2007.
  --More than 1 million people are living with HIV or AIDS; an 
        estimated half of people living with HIV/AIDS are not in care.
  --Of those people living with HIV/AIDS 21 percent are unaware of 
        their HIV status.
  --CDC estimates in 2007, 14,561 people died from AIDS-related causes.
  --African Americans represent 13 percent of the population but nearly 
        half of all newly reported HIV infections.
  --Hispanics/Latinos represent 13 percent of the population, but 
        account for 18 percent of newly reported cases of HIV.
  --The percentage of newly reported HIV/AIDS cases in the United 
        States. among women tripled from 8 percent to 27 percent 
        between 1985 and 2007.
  --AIDS is the leading cause of death among Black women aged 25-34
  --HIV is the No. 1 healthcare risk for gay men and men who have sex 
        with men, especially in communities of color.
  --More than half of all newly diagnosed individuals are identified 
        with full-blown AIDS in less than 12 months of their initial 
        diagnosis.
  --There is neither a cure nor a vaccine for HIV and current 
        treatments do not work for everyone.
    The Federal Government's commitment to funding prevention, 
research, and care and treatment for those living with HIV is critical. 
We would be unable to respond to this epidemic without the Federal 
Government's increased commitment to funding HIV programs at home. 
However, we are not doing enough. The unsatisfactory outcomes from our 
country's response to AIDS have serious human and economic costs. A 
study published in 2003 found that failure to meet the Government's 
then goal of reducing HIV infections by half would lead to $18 billion 
in excess expenses through 2010. We need more prevention, more 
treatment and care and more research if we are ever to slow and 
eventually reverse the HIV epidemic.
    It is AIDS Action's expectation that the Congress, through the good 
work of this subcommittee, will recognize and address the true funding 
needs of the programs in the HIV/AIDS portfolio. HIV is a 100 percent 
preventable disease that can be lessened with a focused, concentrated 
effort and increased funding. The community has come together under the 
umbrella of the AIDS Budget and Appropriations Coalition with the 
community funding request for the HIV/AIDS domestic portfolio for 
fiscal year 2010. The numbers requested represent that community work. 
These requests have been submitted to the subcommittee.
    CDC estimate that approximately 13 percent of all HIV cases and 
approximately 60 percent of all hepatitis C cases in the United States 
are directly or indirectly related to intravenous drug use. One of the 
most important ways to reduce these epidemics is through the use of 
syringe exchange. More than eight Federal studies along with numerous 
scientific peer-reviewed papers published more than 15 years have 
conclusively established that syringe exchange programs reduce the 
incidence of HIV among people who inject drugs and their sexual 
partners. Such studies have all concluded that syringe exchange does 
not increase drug abuse. Instead, syringe exchange programs connect 
people who use drugs to healthcare services including addiction 
treatment, HIV and viral hepatitis prevention services and testing, 
counseling, education, and support.
    The ban on Federal funding for syringe exchange is 
counterproductive and limits the ability of local and State 
jurisdictions to respond effectively to the twin HIV and hepatitis 
epidemics. AIDS Action and the HIV community recommends that the 
subcommittee remove any language prohibiting the use of Federal funds 
to establish or carry out a program of distributing sterile syringes to 
reduce the transmission of blood borne pathogens, including the human 
immunodeficiency virus (HIV) and viral hepatitis.
    According to CDC estimates contained in the agency's March 2006 
HIV/AIDS Surveillance Report, 1,014,797 cumulative cases of AIDS have 
been diagnosed in the United States, with a total of 565,927 deaths 
since the beginning of the epidemic. As noted above, the CDC estimates 
that between 1.1 and 1.2 million people are living with HIV/AIDS and 
that 250,000-350,000 people are unaware of their status and could 
unknowingly transmit the virus to another person. As funding has 
remained essentially flat for more than 8 years, money has shifted to 
new and needed HIV testing efforts and initiatives. As a result, grants 
to States and local communities have significantly decreased and new 
infections have increased to an estimated 56,300 per year, according to 
a CDC report released in August 2008. Therefore, AIDS Action Council, 
the HIV community, and the CDC in their budget justification before 
Congress September 2008, estimates that the CDC HIV Prevention and 
Surveillance programs will need $1.5 billion, an increase of $878 
million, in fiscal year 2010 to address the true unmet needs of 
preventing HIV in the United States. In the United States, HIV is 
transmitted primarily through sex. In order to combat the rising rates 
of transmission, we must ensure that sexuality education programs are 
medically sound and effective in fostering healthy behavior over the 
long-term. Abstinence is an important component of comprehensive 
sexuality education and HIV prevention programs; however, when it is 
advocated as the only option for young people, research has shown that 
it is ineffective, unrealistic, and potentially harmful. We believe the 
Federal Government should only support those sexuality education and 
HIV-prevention programs that are evidence-based. For that reason we 
support the elimination of all funding for the Community-Based 
Abstinence Education (CBAE) programs. All such funds should be re-
directed to evidence-based prevention and educational programs. This 
past World AIDS Day, President Obama affirmed that, ``My administration 
will .work with Congress to enact an extensive program of prevention, 
including access to comprehensive age-appropriate sex education for all 
school age children.'' We request that at least $50 million be 
allocated to promote comprehensive sex education in our schools and 
communities nationwide.
    Now in its 19th year, The Ryan White Comprehensive AIDS Resources 
Emergency (CARE) Act, administered by the Health Resources and Services 
Administration (HRSA) and funded by this subcommittee, provides 
services to more than 533,000 people living with and affected by HIV 
throughout the United States and its territories. It is the single 
largest source of Federal funding solely focused on the delivery of HIV 
services; it provides the framework for our national response to the 
HIV epidemic. CARE Act programs have been critical to reducing the 
impact of the domestic HIV epidemic. Yet in recent years, CARE Act 
funding has not kept pace with the epidemic and has decreased through 
across-the-board rescissions. It is important to remember that CARE Act 
programs are designed to compliment each other. It is necessary that 
all parts of the CARE Act receive substantial increased funding to 
ensure the success of the total program. AIDS Action and the HIV/AIDS 
community estimate that the entire Ryan White CARE Act portfolio needs 
$2.816 million in fiscal year 2010, an increase of $577.8 million to 
address the true needs of the hundreds of thousands of people living 
with HIV who are uninsured, underinsured, or who lack financial 
resource for healthcare.
    Part A of The Ryan White CARE Act now includes five additional 
Transitional Grant Areas (TGAs). Some of the services provided under 
part A include physician visits, laboratory services, case management, 
home-based and hospice care, and substance abuse and mental health 
services. Under the most recent reauthorization these services are even 
more dedicated towards funding core medical services and to ensuring 
the ability of patients to adhere to treatment. These services are 
critical to ensuring patients have access to, and can effectively 
utilize, life-saving therapies. AIDS Action along with the HIV/AIDS 
community recommends funding part A at $766.1 million, an increase of 
$103 million.
    Part B of the CARE Act ensures a foundation for HIV related 
healthcare services in each State and territory, including the 
critically important AIDS Drug Assistance Program (ADAP). Part B base 
grants (excluding ADAP) received a decrease of $28.5 million in fiscal 
year 2009. AIDS Action along with the HIV/AIDS community recommends 
funding for part B base grants at $514.2 million, an increase of $105.4 
million.
    The AIDS Drug Assistance Program (ADAP) provides medications for 
the treatment of individuals with HIV who do not have access to 
Medicaid or other health insurance. According to the 2009 National ADAP 
Monitoring Project, ADAP provided medications to approximately 183,299 
clients in fiscal year 2007, including 36,354 new clients. AIDS Action 
along with the HIV/AIDS community recommends $1,083 million, an 
increase of $268.6 million, for ADAP for fiscal year 2010. This 
``community need'' number is derived from a pharmacoeconomic model to 
estimate the amount of funding needed to treat ADAP eligible 
individuals in upcoming Federal and State fiscal years. The need number 
represents the amount of new funding required to allow State ADAPs to 
provide a minimum clinical standard formulary of HIV/AIDS medications 
to ADAP clients under the current eligibility rules for each State.
    Part C of the Ryan White CARE Act awards grants to community-based 
clinics and medical centers, hospitals, public health departments, and 
universities in 22 States and the District of Columbia under the Early 
Intervention Services program. These grants are targeted toward new and 
emerging sub-populations impacted by the HIV epidemic. Part C funds are 
particularly needed in rural areas where the availability of HIV care 
and treatment is still relatively new. Urban areas continue to require 
part C funds as emerging populations as grantees struggle to meet the 
needs of previously identified HIV positive populations. AIDS Action, 
along with the HIV/AIDS community, requests $268.3 million, an increase 
of $66.4 million, for part C.
    Part D of the Ryan White CARE Act awards grants under the 
Comprehensive Family Services Program to provide comprehensive care for 
HIV positive women, infants, children, and youth, as well as their 
affected families. These grants fund the planning of services that 
provide comprehensive HIV care and treatment and the strengthening of 
the safety net for HIV positive individuals and their families. AIDS 
Action and the HIV/AIDS community request $134.6 million, an increase 
of $57.7 million, for Part D.
    Under Part F, the AIDS Education and Training Centers (AETCs) is 
the training arm of the Ryan White CARE Act; they train the healthcare 
providers, including the doctors, advanced practice nurses, physicians' 
assistants, nurses, oral health professionals, and pharmacists. The 
role of the AETCs is invaluable in ensuring that such education is 
available to healthcare providers who are being asked to treat the 
increasing numbers of HIV positive patients who depend on them for 
care. Additionally, the AETCs have been tasked with providing training 
on Hepatitis B and C to CARE Act grantees and to ensure inclusion of 
culturally competent programs for and about HIV and Native Americans 
and Alaska natives. However no funding has been added for additional 
materials, training of staff, or programs. The AETCs received a modest 
increase of $0.3 million in fiscal year 2009. AIDS Action and the HIV/
AIDS community request $50 million, a $15.6 million increase, for this 
program. Also under part F, Dental care is another crucial part of the 
spectrum of services needed by people living with HIV disease. Oral 
health problems are often one of the first manifestations of HIV 
disease. Unfortunately oral health is one of the first aspects of 
healthcare to be neglected by those who cannot afford, or do not have 
access to, proper medical care removing an opportunity to catch early 
infections of HIV. AIDS Action and the HIV/AIDS community request $19 
million, a $5.6 million increase, for this program. Finally under part 
F, rising infections and strapped care systems necessitate the research 
and development of innovative models of care. The SPNS program is 
designed for this purpose and must continue to receive sufficient 
funding.
    The Minority AIDS Initiative directly benefits racial and ethnic 
minority communities with grants to provide technical assistance and 
infrastructure support and strengthen the capacity of minority 
community based organizations to deliver high-quality HIV healthcare 
and supportive services to historically underserved groups. HIV/AIDS in 
the United States continues to disproportionately affect communities of 
color. According to the CDC in 2006, the overall rate of HIV diagnosis 
(the number of diagnoses per 100,000 population) in the 33 States (that 
currently report HIV data) was 18.5 per 100,000. The rate for blacks 
was roughly 8 times the rate for whites (67.7 per 100,000 vs 8.2 per 
100,000). The Minority AIDS Initiative provides services across every 
service category in the CARE Act and was authorized for inclusion 
within the CARE Act for the first time in the 2006 CARE Act 
reauthorization. It additionally funds other programs throughout HHS 
agencies. AIDS Action and the HIV/AIDS community request a total of 
$610 million for the Minority AIDS Initiative.
    Research on preventing, treating, and ultimately curing HIV is 
vital to the domestic and global control of the disease. It is 
essential that Office of AIDS Research continue its groundbreaking 
research in both basic and clinical science to develop a preventative 
vaccine, microbicides, and other scientific, behavioral, and structural 
HIV prevention interventions. The United States must continue to take 
the lead in the research and development of new medicines to treat 
current and future strains of HIV. NIH's Office of AIDS Research is 
critical in supporting all of these research arenas. Commitment in 
research will ultimately decrease the care and treatment dollars needed 
if HIV continues to spread at the current rate. AIDS Action requests 
that the NIH be funded at $34 billion in fiscal year 2010 and that the 
AIDS portfolio must be funded at $3.4 billion a $500 million increase.
    HIV is a continuing health crisis in the United States. We must 
continue to work to fully fund our domestic prevention, treatment and 
care, and research efforts. On behalf of all HIV positive Americans, 
and those affected by the disease, AIDS Action Council urges you to 
increase funding in each of these areas of the domestic HIV/AIDS 
portfolio. Help us save lives by allocating increased funds to address 
the HIV epidemic in the United States.
                                 ______
                                 
           Prepared Statement of the Alzheimer's Association

    Mr. Chairman and members of the subcommittee: As President and CEO 
of the Alzheimer's Association, I want to take this opportunity to 
thank you for the leadership role this subcommittee has played over the 
years in the fight to conquer Alzheimer's disease.
    Indeed, it was this subcommittee that first drew attention to 
Alzheimer's disease in its fiscal year 1982 appropriations report. At 
the time, an estimated 2.5 million people were thought to be suffering 
with Alzheimer's disease, their families quietly bearing most of the 
financial, physical, and emotional burden of care giving. Even if they 
were personally affected, relatively few Americans had even heard of 
Alzheimer's disease because so many went undiagnosed or were 
inaccurately diagnosed; far fewer were aware of the crisis just 
beginning to unfold. All this is still too true today.
    Alzheimer's disease now is now estimated to afflict more than 5 
million Americans. It is in a virtual tie as the Nation's sixth leading 
cause of death, while significantly underreported and growing. It is 
already the third most expensive disease, draining billions of dollars 
from our economy every year. But the story does not end with those grim 
statistics because this problem is not going to age itself away. On the 
contrary, as Baby Boomers shoulder their way into the age of highest 
risk, we will see 10 million members of this generation fall victim to 
Alzheimer's disease.
    At times called the quiet epidemic, the great unlearning or the 
long dying, year by year Alzheimer's disease strips away memory, 
personality and independence, leaving its victims unable to handle the 
most basic functions of daily living. For those who do not succumb to 
pneumonia or other complications of Alzheimer's, there is the final act 
of forgetting--when the brain forgets to breathe.
    But make no mistake the effects of Alzheimer's extend well beyond 
the human suffering and the physical and emotional strain it puts on 
families. Indeed, despite all that is challenging America today, 
Alzheimer's disease represents a grave threat to our Nation's social 
and economic well-being.
    This year, Medicare and Medicaid will spend more than $100 billion 
to finance care for those struggling with Alzheimer's disease. Over the 
next 40 years, those two programs alone will spend almost $20 trillion 
on the care of Alzheimer patients.
    Unless we find a way to prevent or slow its progression, by the 
year 2050 the annual cost of this disease to Medicare and Medicaid 
programs alone will be equal to one-tenth of our entire current 
domestic economy.
    Alzheimer's disease is so expensive because, in addition to its 
direct costs, it greatly increases the use and costs of Medicare to 
treat other serious medical conditions. Ninety-five percent of Medicare 
beneficiaries with Alzheimer's disease have at least one co-morbid 
condition. Tasks such as medication management become extremely 
difficult and time-consuming. As a result, the health and long-term 
care costs of treating these individuals is more than three times that 
of a Medicare beneficiary without Alzheimer's disease.

                       BOLD ACTION IS NEEDED NOW

    Over the years this body has exercised its prerogative to channel 
funds to the Nation's most pressing public health problems. Added funds 
provided by this subcommittee led to cancer patients living longer, 
with many beating the disease. Thanks to those investments, survival 
rates have steadily improved for breast, prostate, colorectal and some 
other types of cancer, so that today, the 5-year relative survival rate 
is 66 percent across all cancers. According to the most recent 
estimates, 10.8 million Americans with a history of cancer are alive 
today. As a result of this subcommittee's strong and sustained 
investment in cardiovascular disease research, death rates from heart 
disease and stroke fell by 40 percent and 51 percent, respectively, 
since 1975. And when challenged by the HIV/AIDS epidemic, this 
subcommittee responded quickly and decisively--providing a research 
investment that yielded vastly improved treatments and prevention 
strategies and a two-thirds reduction in annual deaths.
    Mr. Chairman, unlike cancer, cardiovascular disease and so many 
other chronic conditions that have dramatically improved with 
significant investments in research, there are no Alzheimer's disease 
survivors. None. We cannot prevent, halt or reverse it. Every day some 
of the 5 million who have it die of this fatal disease, only to be 
replaced by even more who will progressively decline and die, as more 
replace them. Indeed, the only way to avert this rapidly developing 
social and economic catastrophe is if this subcommittee, once again, 
leads the way.
    Past investments in Alzheimer's research have helped bring us to a 
point no one would have dreamed possible when this subcommittee first 
called attention to this disease. Scientists now have a much clearer, 
but still incomplete picture of the basic mechanisms of Alzheimer's; 
epidemiological research is shedding light on new targets for 
intervention that now must be tested in large-scale clinical trials. 
And work is underway to help identify potential uses of imaging and 
other surrogate markers to follow the progression of cognitive decline, 
and to assess the effectiveness of drug interventions. But we still 
have so much to accomplish.
    Much of what we have learned came about because Congress invested 
in Alzheimer research throughout the 1980s and 1990s. But even those 
investments were not commensurate with the impact of the disease. The 
evidence from cancer and cardiovascular disease illustrates the returns 
that can be derived from additional investments in Alzheimer's research 
now. As the mortality rates for cancer and heart disease decline, 
Alzheimer's is still rising at a steady and rapid pace.
    In fact, during the past 6 years we have seen a dramatic slowdown 
in overall research investments, signaling a slowdown in advances to 
come, but the effects on Alzheimer research are potentially greater as 
the funding stalled at such a comparatively low level. Today, the 
National Institutes of Health (NIH) devotes only $412 million a year 
for research on Alzheimer's disease--far short of the $1 billion that 
leading scientific minds estimate as the minimum required investment to 
uncover ways to prevent, slow and more effectively treat this disease. 
That $412 million is also considerably less than what is spent for 
research on other major threats to society, such as cancer, 
cardiovascular disease, and AIDS. All of these problems merit 
significant investments, but Alzheimer's research is underfunded when 
measured against the suffering inflicted by the disease or by the 
potential cost savings in care that could be gained by investing in 
research today--before it's too late.
    What can the subcommittee do to help stop this serious threat to 
America's future?
    First and foremost, the Alzheimer's Association recommends that you 
appropriate an additional $250 million this year and next to raise the 
total NIH investment in Alzheimer's research up to $1 billion. These 
added funds will be put to use in three crucial areas:
  --Clinical Trials.--The funding of clinical trials and 
        epidemiological studies, particularly through the Alzheimer's 
        Disease Cooperative Study (ADCS) national research consortium 
        funded by the NIH, are identifying new targets for 
        interventions, including compounds that are already widely 
        available such as over-the-counter medications. Time is not on 
        our side. If we hope to forestall this looming crisis, large-
        scale clinical trials must be undertaken soon and must be 
        launched simultaneously, not sequentially.
  --Early Markers of Disease.--Earlier diagnosis is critical if we hope 
        to stop the disease before it ravages brain cells beyond 
        repair. Additional resources are sorely needed to fully fund 
        the next phase of a neuro-imaging initiative currently being 
        supported at the National Institute on Aging.
  --Basic Science Research.--Science must find new answers and ask 
        better questions. While significant progress has been made, 
        scientists are still searching for definitive answers to 
        questions about the basic mechanisms of Alzheimer's disease. 
        Congress must maintain the pipeline of basic scientific 
        discovery to develop additional targets for treatment. At 
        current funding levels, work on promising avenues of research 
        is either delayed or never started. Young investigators--and 
        their fresh new ideas--are discouraged from entering this field 
        of study.
    While research holds the answers, there are other steps we 
recommend you take to help forestall or lessen the impact of 
Alzheimer's.

           EXPAND THE HEALTHY BRAIN INITIATIVE TO $5 MILLION

    Four years ago, this subcommittee launched the first single-focused 
effort on brain health promotion at the Centers for Disease Control and 
Prevention (CDC). As a result of the investment that has been made in 
the Healthy Brain Initiative, the CDC, in partnership with the 
Alzheimer's Association, has developed a public health roadmap for 
maintaining cognitive health, implemented community education programs 
targeting African-American baby boomers, and developed modules for 
enhancing the surveillance system for cognitive decline.
    The impetus for this program was the mounting scientific evidence 
suggesting that brain health may be maintained by preventing or 
controlling cardiovascular risk factors, such as high blood pressure, 
high cholesterol and diabetes, and by engaging in regular physical 
activity. In light of the dramatic aging of the population, scientific 
advancements in risk behaviors, and the growing awareness of the 
significant health, social and economic burdens associated with 
cognitive decline, the Federal investment in a public health response 
must be expanded. We recommend that this program be increased to $5 
million to focus on the following activities:
  --Healthy Brain Engagement Initiative.--The promising approaches that 
        have been identified through the community education programs 
        need to be expanded to additional locations and new target 
        audiences to impact attitudes and behaviors related to 
        cognitive health. Particularly, we must focus on other high-
        risk and underserved populations, specifically the Hispanic/
        Latino population.
  --Tracking Cognitive Impairment as America Ages.--In order to 
        accelerate the availability of data to clarify the burden of 
        Alzheimer's, an enhanced surveillance system for cognitive 
        health is required. This can be achieved through implementation 
        of appropriate Behavioral Risk Factor Surveillance System 
        (BRFSS) modules in as many States as possible. The development 
        and testing of BRFSS modules is currently underway and will be 
        available for use in 2010.
  --Tools for Care Coordination in the Face of Cognitive Impairment.--
        Cognitive health challenges--from mild cognitive decline to 
        dementia--can have profound implications on an individual's 
        ability to self-manage other coexisting conditions. In order to 
        effectively address this challenge, interventions that target 
        the coordination of care for those with cognitive impairment 
        and coexisting chronic diseases will be adapted or developed.
  --Early Detection.--Early recognition of Alzheimer's, an accurate 
        diagnosis, and early intervention, including medication, can 
        significantly improve the quality of life and mental function 
        of people with the disease. Communications strategies that 
        provide information on the signs and symptoms of the disease 
        and options for maintaining brain health will be developed and 
        disseminated, targeting consumers and providers.

 CONTINUE ALZHEIMER'S DISEASE DEMONSTRATION GRANTS AND THE ALZHEIMER'S 
                             CONTACT CENTER

    The Administration on Aging (AoA) operates two Alzheimer-related 
programs that warrant continuation. The first is a program of matching 
grants to States for the development of innovative, community-based 
services for Alzheimer patients and caregivers, especially hard-to-
reach and underserved populations. For this program, we recommend an 
appropriation of $11.6 million.
    In 2003, this subcommittee launched the Alzheimer's Contact Center, 
a nationwide call-in program that provides families in crisis with 
around-the-clock support and assistance. Services include access to 
professional clinicians who provide decision-making support, crisis 
assistance and referrals. In 2008, the center fielded more than 106,000 
calls from families. The Alzheimer's Association recommends you 
appropriate $1 million to continue this valuable service.
    Each of the recommendations I have outlined fall within the purview 
of this subcommittee. But I would also like to call your attention to a 
report issued recently, called A National Alzheimer's Strategic Plan: 
The Report of the Alzheimer's Study Group.
    This landmark report was the culmination of nearly 2 years of work 
by an independent task force of prominent national leaders. It was co-
chaired by former Speaker of the House Newt Gingrich and former U.S. 
Senator Bob Kerrey, and included other distinguished individuals such 
as former Supreme Court Justice Sandra Day O'Connor and Drs. Harold 
Varmus, David Satcher, and Mark McClellan. The Alzheimer's Study Group 
also drew on the knowledge and expertise of more than 100 experts in 
various facets of this disease.
    Mr. Chairman, in a word, the Alzheimer's Study Group concluded that 
to achieve a world without Alzheimer's disease we do not need to re-
invent the wheel; but we have to make it work more efficiently.
    This report contains many important recommendations, including 
developing the capability to prevent Alzheimer's disease in 90 percent 
of individuals by 2020. But one that warrants special attention within 
the context of this subcommittee's deliberations is the creation of an 
outcomes-oriented, objective-driven Alzheimer's Solutions Project 
Office within the Federal Government. With support from the president 
and Congress, this effort would oversee a decade-long mission to 
undertake a coordinated and sustained attack on Alzheimer's disease.
    Mr. Chairman, thank you for your time and attention. Should you 
have any questions or require additional information, please feel free 
to call on me.
                                 ______
                                 
  Prepared Statement of the Association of American Cancer Institutes

    The Association of American Cancer Institutes (AACI), representing 
95 of the Nation's premier academic and free-standing cancer centers, 
appreciates the opportunity to submit this statement for consideration 
as the Labor, Health and Human Services, and Education, and Related 
Agencies subcommittee plans the fiscal year 2010 appropriations for the 
National Institutes of Health (NIH) and the National Cancer Institute 
(NCI).
    AACI applauds recent budgetary commitments--notably, increased 
funding for NIH and support from the Obama administration through the 
American Recovery and Reinvestment Act of 2009--that have created a 
more encouraging landscape for cancer research compared to the last 5 
years. While AACI understands and appreciates the budgetary constraints 
currently facing our Nation, we also believe that advances in cancer 
and biomedical research must remain a very high national priority. 
Therefore, we hope that high levels of support will continue in the 
years ahead, to ensure that this recognition of the importance of 
biomedical research is sustained.
    For fiscal year 2010, AACI joined its colleagues in the biomedical 
research community in supporting the request in the President's initial 
budget proposal for $6 billion in funding for cancer research in fiscal 
year 2010, and his commitment to double funding for cancer research 
over the next 5 years.
    AACI also requests that total funding to NIH be increased by 10 
percent, including a 20 percent increase for NCI and a 7 percent 
increase for the other Institutes and Centers within NIH. The Nation's 
investment in the NIH and NCI helps lead to scientific advances that 
can save lives and improve the health of Americans. Early funding 
increases helped speed the pace of cancer research, and this investment 
can be leveraged significantly with a renewed commitment to strong, 
sustained Federal funding of medical research and, in particular, 
cancer research. AACI will work to ensure that Congress approves the 
maximum possible appropriations for NIH and NCI.

                       THE GROWING CANCER BURDEN

    In 2008, there were approximately 1.44 million new cases of cancer 
in the United States and approximately 565,650 deaths due to the 
disease.\1\ About 150,090 new cancer cases were expected to be 
diagnosed among African Americans in 2009, with about 63,360 expected 
to die from the disease. In men, the death rate for all cancers 
combined continued to be substantially higher among African Americans 
than whites during 1975-2005. Similar trends were seen among women, 
although the gap is much smaller.\2\
---------------------------------------------------------------------------
    \1\ Cancer Facts and Figures 2008. American Cancer Society; 2008. 
(The publication of Cancer Facts & Figures 2009 has been delayed due to 
the late release of the US final mortality data by the National Center 
for Health Statistics.)
    \2\ American Cancer Society. Cancer Facts & Figures for African 
Americans 2009-2010. Atlanta: American Cancer Society, 2009.
---------------------------------------------------------------------------
    Looking further into the future, the need for cancer care will 
expand dramatically. From 2010 to 2030, the total projected cancer 
incidence will increase by approximately 45 percent, from 1.6 million 
in 2010 to 2.3 million in 2030. This increase is driven by cancer 
diagnosed in older adults and minorities. A 67 percent increase in 
cancer incidence is anticipated for older adults, compared with an 11 
percent increase for younger adults. A 99 percent increase is 
anticipated for minorities, compared with a 31 percent increase for 
whites. From 2010 to 2030, the percentage of all cancers diagnosed in 
older adults will increase from 61 percent to 70 percent, and the 
percentage of all cancers diagnosed in minorities will increase from 21 
percent to 28 percent.\3\
---------------------------------------------------------------------------
    \3\ Smith et al., ``Future of Cancer Incidence in the United 
States: Burdens Upon an Aging, Changing Nation'', J Clin Oncol 2009; 27
---------------------------------------------------------------------------
    The human toll of cancer is staggering, as is its financial toll; 
the NCI reports that in 2006, $206.3 billion was spent on healthcare 
costs for cancer alone. Additionally, NCI acknowledges that the burdens 
of cancer--physical, emotional, and financial--are ``unfairly 
shouldered by the poor, the elderly, and minority populations.'' The 
number of cancer diagnoses will only continue to climb as our 
population ages, with an estimated 18.2 million cancer survivors (those 
undergoing treatment, as well as those who have completed treatment) 
alive in 2020.

               CANCER RESEARCH: BENEFITING ALL AMERICANS

    Cancer research, conducted in academic laboratories across the 
country saves money by reducing healthcare costs associated with the 
disease, enhances the United States' global competitiveness, and has a 
positive economic impact on localities that house a major research 
center. While these aspects of cancer research are important, what 
cannot be overstated is the impact cancer research has had on 
individuals' lives--lives that have been lengthened and even saved by 
virtue of discoveries made in cancer research laboratories at cancer 
centers across the United States.
    Though more than a half-million Americans will die this year from 
the many diseases defined as cancer, progress is being made. Because of 
continued progress made by the Nation's researchers, cancer death rates 
have continued to decline; between 1991 and 2004, the death rates for 
cancer in men and women declined 18.4 percent and 10.5 percent, 
respectively.\4\ Similarly, death rates among African Americans for all 
cancers combined have been decreasing since 1991 after increasing from 
1975 to 1991. The decline was larger in men (2.5 percent per year since 
1995) than in women (1.3 percent per year since 1997). Similar trends 
were observed among whites from 1991-2005, with a greater reduction in 
the rate among men than women.
---------------------------------------------------------------------------
    \4\ Cancer Statistics, 2008. CA: Cancer Journal for Clinicians 
2008; 58(2): 71-96.
---------------------------------------------------------------------------
    Biomedical research has provided Americans with better cancer 
treatments, as well as enhanced cancer screening and prevention 
efforts. Some of the most exciting breakthroughs in current cancer 
research are those in the field of personalized medicine. In 
personalized medicine for cancer, not only is the disease itself 
considered when determining treatments, but so is the individual's 
unique genetic code. This combination allows physicians to better 
identify those at risk for cancer, detect the disease, and treat the 
cancer in a targeted fashion that minimizes side effects and refines 
treatment in a way to provide the maximum benefit to the patient.
    In the laboratory setting, multi-disciplinary teams of scientists 
are working together to understand the significance of the human genome 
in cancer. For instance, the Cancer Genetic Markers of Susceptibility 
initiative is comparing the DNA of men and women with breast or 
prostate cancer with that of men and women without the diseases to 
better understand the diseases. The Cancer Genome Atlas is in 
development as a comprehensive catalog of genetic changes that occur in 
cancer. Another initiative, the Childhood Cancer Therapeutically 
Applicable Research to Generate Effective Treatments Initiative, is 
identifying targets that can lead to better treatments for young people 
with cancer.
    These projects--along with the work being performed by dedicated 
physicians and researchers at cancer centers across the United States 
every day--have the potential to radically change the way cancer, as a 
collection of diseases, affects the people who live with it every day. 
Every discovery contributes to a future without cancer as we know it 
today.

                      THE NATION'S CANCER CENTERS

    The nexus of cancer research in the United States is the Nation's 
network of cancer centers that are represented by AACI. These cancer 
centers conduct the highest-quality cancer research anywhere in the 
world and provide exceptional patient care. The Nation's research 
institutions, which house AACI's member cancer centers, receive an 
estimated $3.17 billion \5\ from NCI to conduct cancer research; this 
represents 66 percent of NCI's total budget. In fact, 85 percent of 
NCI's budget supports research at nearly 650 universities, hospitals, 
cancer centers, and other institutions in all 50 States. Because these 
centers are networked nationally, opportunities for collaborations are 
many--assuring wise and nonduplicative investment of scarce Federal 
dollars.
---------------------------------------------------------------------------
    \5\ National Cancer Institute 2007 Fact Book. U.S. Department of 
Health and Human Services, U.S. National Institutes of Health, 2007.
---------------------------------------------------------------------------
    In addition to conducting basic, clinical, and population research, 
the cancer centers are largely responsible for training the cancer 
workforce that will practice in the United States in the years to come. 
Much of this training is dependent on Federal dollars, via training 
grants and other funding from NCI. Sustained Federal support will 
significantly enhance the centers' ability to continue to train the 
next generation of cancer specialists--both researchers and providers 
of cancer care.
    By providing access to a wide array of expertise and programs 
specializing in prevention, diagnosis, and treatment of cancer, cancer 
centers play an important role in reducing the burden of cancer in 
their communities. The majority of the clinical trials of new 
interventions for cancer are carried out at the Nation's network of 
cancer centers.
    Beyond their healthcare and research roles, cancer centers are also 
reliable engines of economic activity for the Nation as a whole, and 
for the communities and regions that they serve. For every $1 spent on 
biomedical research, a national average of $2.21 in economic benefit 
results.\6\
---------------------------------------------------------------------------
    \6\ In Your Own Backyard: How NIH Funding Helps Your State's 
Economy, Families USA, June 2008
---------------------------------------------------------------------------
            ENSURING THE FUTURE OF CANCER CARE AND RESEARCH

    Because of an aging population, an increasing number of cancer 
survivors require ongoing monitoring and care from oncologists, and new 
therapies that tend to be complex and often extend life.
    Demand for oncology services is projected to increase 48 percent by 
2020. However, the supply of oncologists expected to increase by only 
20 percent and 54 percent of currently practicing oncologists will be 
of retirement age within that timeframe. Also, alarmingly, there has 
been essentially no growth over the past decade in the number of 
medical residents electing to train on a path toward oncology as a 
specialty.\7\
---------------------------------------------------------------------------
    \7\ Forecasting the Supply of and Demand for Oncologists: A Report 
to the American Society of Clinical Oncology (ASCO) from the AAMC 
Center for Workforce Studies. American Society of Clinical Oncology, 
2007.
---------------------------------------------------------------------------
    Cancer physicians--while essential--are only one part of the 
oncology workforce that is in danger of being stretched to the breaking 
point. The Health Resources and Services Administration predicted that 
by 2020, more than 1 million nursing positions will go unfilled, and a 
2002 survey by the Southern Regional Board of Education projected a 12 
percent shortage of nurse educators by last year.\8\
---------------------------------------------------------------------------
    \8\ ONS: Ready to Collaborate with Other Policymakers to Ensure 
Future of Quality Cancer Care, Oncology Times, August 25, 2007; (29): 
8-9.
---------------------------------------------------------------------------
    Without immediate action, these predicted shortages will prove 
disastrous for the state of cancer care in the United States. The 
discrepancy between supply and demand for oncologists will amount to a 
shortage of 9.4 to 15.1 million visits, or a shortage of 2,550 to 4,080 
oncologists. The Department of Health and Human Services projects that 
today's 10-percent vacancy rate in registered nursing positions will 
grow to 36 percent, representing more than 1 million unfilled jobs by 
2020.
    Greater Federal support for training oncology physicians, nurses, 
and other professionals who treat cancer must be enacted to prevent a 
disaster within our healthcare system when demand for oncology services 
far outstrips the system's ability to provide adequate care for all.

             AMERICANS SUPPORT FEDERAL FUNDING FOR RESEARCH

    The research community has long understood the obstacles that are 
facing cancer research. Though the nuances of R01 grants and oncology 
workforce training may not be well understood by the average American, 
the people of the United States believe in supporting the disparate 
activities that make up America's biomedical research infrastructure.
    In a 2007 Research!America poll, 91 percent of those surveyed 
believed it was somewhat or very important for policymakers to create 
more incentives to encourage individuals to pursue careers as nurses, 
while 89 percent believed the same for encouraging careers as 
physicians. Forty-seven percent of those surveyed agreed that he United 
States must increase investment in NIH to ensure our future health and 
economic security, and 54 percent favored annual 6.7 percent increases 
in funding for NIH in 2008, 2009, and 2010. An overwhelming majority--
70 percent--agreed that the United States is losing its global 
competitive edge in science, technology, and innovation.
    We encourage our Members of Congress to respond to the concerns of 
the American people by enhancing support for biomedical research that 
will lead to improved health for everyone in the United States and 
around the world.

                               CONCLUSION

    These are exciting times in science and, particularly, in cancer 
research. The AACI cancer center network is unrivaled in its pursuit of 
excellence, and place the highest priority on affording all Americans 
access to that care, including novel treatments and clinical trials. It 
is through the power of collaborative innovation that we will 
accelerate progress toward a future without cancer, and research 
funding through the NIH and NCI is essential to achieving our goals.
                                 ______
                                 
 Prepared Statement of the American Association of Colleges of Nursing

    The American Association of Colleges of Nursing (AACN) respectfully 
submits this statement highlighting funding priorities for nursing 
education and research programs in fiscal year 2010. AACN represents 
more than 640 schools of nursing at public and private institutions 
with baccalaureate and graduate nursing programs that include more than 
270,000 students and 13,000 faculty members. These institutions educate 
almost half of our Nation's Registered Nurses (RNs) and all of the 
nurse faculty and researchers. Many of these nursing schools sponsor 
intensive research programs and training activities that are funded by 
the National Institute of Nursing Research (NINR).

                    THE NATIONWIDE NURSING SHORTAGE

    The United States is in the midst of a nursing shortage that has 
expanded over the last decade. The current economic downturn has led to 
a false impression that the nursing shortage is ``easing'' in some 
parts of the country because hospitals are enacting hiring freezes and 
nurses are choosing to delay retirement. However, this trend is only 
temporary. More positions continue to open for RNs across the country, 
and the shortage is projected to intensify as the baby-boomer 
population ages and the need for healthcare grows. The U.S. Bureau of 
Labor Statistics (BLS) recently reported that the healthcare sector of 
the economy is continuing to expand, despite significant job losses in 
nearly all other major industries. Hospitals, long-term care 
facilities, and other ambulatory care settings added 27,000 new jobs in 
February 2009, a month when 681,000 jobs were eliminated across the 
country. As the largest segment of the healthcare workforce, RNs likely 
will be recruited to fill many of these new positions. Moreover, 
according to the latest projections from the BLS, more than 1 million 
new and replacement nurses will be needed by 2016. Unless we act now, 
this shortage will further jeopardize patient access to quality care.
    Nursing and economic research clearly indicate that today's 
shortage is far worse than those of the past. The current supply and 
demand for nurses demonstrates two distinct challenges. First, due to 
the present and looming demand for healthcare by American consumers, 
the supply is not growing at a pace that will adequately meet long-term 
needs, including the demand for primary care, which is often provided 
by Advanced Practice Registered Nurses (APRNs). This is further 
compounded by the number of nurses who will retire or leave the 
profession in the near future, ultimately reducing the nursing 
workforce. Second, the supply of nurses nationwide is stressed due to 
an ongoing shortage of nurse faculty. The nurse faculty shortage 
continues to inhibit nursing schools from educating the number of 
nurses needed to meet the demand. According to AACN, 49,948 qualified 
applicants were turned away from baccalaureate and graduate nursing 
programs in 2008 primarily due to a lack of faculty. Of those potential 
students, nearly 7,000 were students pursuing a master's or doctoral 
degree in nursing, which is the education level required to teach.

       NURSING WORKFORCE DEVELOPMENT PROGRAMS: A PROVEN SOLUTION

    For nearly five decades, the Nursing Workforce Development Programs 
have supported hundreds of thousands of nurses and nursing students. 
The title VIII programs award grants to nursing education programs, as 
well as provide direct support to nurses and nursing students through 
loans, scholarships, traineeships, and programmatic grants.
    The Nursing Workforce Development Programs are effective and meet 
their authorized mission. In a 2009 survey by AACN, 1,501 title VIII 
student recipients reported that these programs played a critical role 
in funding their nursing education. An overwhelming number of 
respondents (92.7 percent), reported that title VIII paid for a portion 
of their tuition and, of those students, approximately 11 percent 
reported their tuition was paid in full. While millions of Americans 
are struggling during this economic downturn and thousands of students 
need to obtain student loans for their education, Federal support is 
greatly appreciated and needed. The nursing students responding to this 
study expressed overwhelming gratitude for the funding they receive 
through title VIII. Nursing remains an attractive and rewarding career 
with more than 135,000 current vacant positions, and according to the 
BLS, more than 587,000 new nursing positions will be needed by 2016. 
Providing support for title VIII is the key to filling these vacant 
positions and, in turn, improving healthcare quality.
    Over the last 45 years, Congress has used the title VIII 
authorities as a mechanism to address nursing shortages. When the need 
for nurses was great, higher funding levels were appropriated. During 
the nursing shortage of the 1970s, Congress provided $160.61 million to 
the title VIII programs in fiscal year 1973. Adjusting for inflation to 
address the 36-year difference, the fiscal year 2009 funding level of 
$171.03 million in 1973 dollars would be approximately $820 million 
today (see Figure 1). More recently, slow rising funding levels between 
fiscal year 2006 and fiscal year 2008 for title VIII, coupled with 
inflation and rising educational costs, have greatly decreased the 
purchasing power of these programs, resulting in a 43 percent decrease 
in the number of nurses supported by the programs (see Figure 2).

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    AACN is delighted that President Obama has noted the need for 
increased title VIII funding in his fiscal year 2010 budget proposal. 
Therefore, AACN respectfully requests the subcommittee's support for 
the President's proposal of $263.4 million for title VIII Nursing 
Workforce Development Programs in fiscal year 2010, an additional $92 
million more than the fiscal year 2009 level. New monies would expand 
nursing education, recruitment, and retention efforts to help resolve 
all aspects contributing to the shortage.

        NINR: SUPPORTING HEALTH PROMOTION AND DISEASE PREVENTION

    As the scientific and research nucleus for nursing science, the 
NINR funds research that establishes the scientific basis for health 
promotion, disease prevention, and high-quality nursing care services 
to individuals, families, and populations. NINR is one of the 27 
Institutes and Centers at the National Institutes of Health (NIH). 
Often working collaboratively with physicians and other researchers, 
nurse scientists are vital in setting the national research agenda. 
While medical research focuses on curing diseases, nursing research is 
conducted to prevent disease. The four strategic areas of emphasis for 
research at NINR are:
  --Promoting health and preventing disease;
  --Improving quality of life;
  --Eliminating health disparities; and
  --Setting directions for end-of-life research.
    The science advanced at NINR is integral to the future of the 
Nation's healthcare system. With a renewed national priority on 
utilizing cost-effective treatment modalities and preventive 
interventions, NINR has developed research programs in these areas:
    Comparative Effectiveness Research.--Has been an NINR funding 
priority for many years. Comparative effectiveness research 
demonstrates how prevention strategies or interventions can impact 
system-wide savings. At a time when healthcare consumers and reformers 
are seeking quality care focused on prevention that is affordable and 
accessible by all, comparative effectiveness research is a critical 
area of inquiry.
    Promoting Health and Preventing Disease.--Is vital considering that 
more than 1.7 million Americans die each year from chronic diseases. 
Nurse researchers focus on investigating wellness strategies to prevent 
these chronic diseases. A healthcare system which promotes prevention 
promises to be a major focus of health reform, and NINR is a leader in 
funding scientific research to discover optimal prevention methods.
    NINR's fiscal year 2009 funding level of $141.88 million is 
approximately 0.47 percent of the overall $30.03 billion NIH budget 
(see Figure 3). Spending for nursing research is a modest amount 
relative to the allocations for other health science institutes and for 
major disease category funding. For NINR to adequately continue and 
further its mission, the Institute must receive additional funding. 
Cuts in funding have impeded the Institute from supporting larger 
comprehensive studies needed to advance nursing science and improve the 
quality of patient care. 

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Therefore, AACN respectfully requests $178 million for NINR, an 
additional $36.12 million more than the fiscal year 2009 level. 
Considering that NINR presently allocates 7 percent of its budget to 
training that helps develop the pool of nurse researchers, additional 
funding would support NINR's efforts to prepare faculty researchers 
needed to educate new nurses.

 THE CAPACITY FOR NURSING STUDENTS AND FACULTY PROGRAM, SECTION 804 OF 
   THE HIGHER EDUCATION OPPORTUNITY ACT OF 2008 (PUBLIC LAW 110-315)

    According to AACN (2009), the major barriers to increasing student 
capacity in nursing schools are insufficient numbers of faculty, 
admission seats, clinical sites, classroom space, clinical preceptors, 
and budget constraints. The Capacity for Nursing Students and Faculty 
Program, a recently passed section of the Higher Education Opportunity 
Act of 2008, offers capitation grants (formula grants based on the 
number of students enrolled/or matriculated) to nursing schools 
allowing them to increase the number of students. AACN respectfully 
requests $50 million for this program in fiscal year 2010.

                               CONCLUSION

    AACN acknowledges the fiscal challenges within which the 
subcommittee and the entire Congress must work. However, the title VIII 
authorities provide a dedicated, long-term vision for educating the new 
nursing workforce and the next cadre of nurse faculty. NINR invests in 
developing the scientific basis for quality nursing care. The Capacity 
for Nursing Students and Faculty Program will allow schools to increase 
student capacity. To be effective these programs must receive 
additional funding. AACN respectfully requests $263.4 million for title 
VIII programs, $178 million for NINR, and $50 million for the Capacity 
for Nursing Students and Faculty Program in fiscal year 2010. 
Additional funding for these programs will assist schools of nursing to 
expand their educational and research programs, educate more nurse 
faculty, increase the number of practicing RNs, and ultimately improve 
the patient care provided in our healthcare system.
                                 ______
                                 
     Prepared Statement of the American Association of Colleges of 
                          Osteopathic Medicine

    On behalf of the American Association of Colleges of Osteopathic 
Medicine (AACOM), I am submitting this testimony in support of 
increased funding in fiscal year 2010 for the title VII health 
professions education programs, the National Health Service Corps 
(NHSC), the National Institutes of Health (NIH), and the Agency for 
Healthcare Research and Quality (AHRQ). AACOM represents the 
administrations, faculty, and students of the Nation's 25 colleges of 
osteopathic medicine and three branch campuses that offer the doctor of 
osteopathic medicine degree. Today, more than 15,500 students are 
enrolled in osteopathic medical schools. Nearly 1 in 5 U.S. medical 
students is training to be an osteopathic physician, a ratio that is 
expected to grow to 1 in 4 by 2019.

                               TITLE VII

    The health professions education programs, authorized under title 
VII of the Public Health Service Act and administered through the 
Health Resources and Services Administration (HRSA), support the 
training and education of health practitioners to enhance the supply, 
diversity, and distribution of the healthcare workforce, filling the 
gaps in the supply of health professionals not met by traditional 
market forces. Title VII and title VIII nurse education programs are 
the only Federal programs designed to train clinicians in 
interdisciplinary settings to meet the needs of special and underserved 
populations, as well as increase minority representation in the 
healthcare workforce.
    According to HRSA, an additional 30,000 health practitioners are 
needed to alleviate existing health professional shortages. Combined 
with faculty shortages across health professions disciplines, racial 
and ethnic disparities in healthcare, and a growing, aging population, 
these needs strain an already fragile healthcare system. AACOM 
recommends $330 million in fiscal year 2010 for the title VII programs. 
Investment in these programs, including the Training in Primary Care 
Medicine and Dentistry Program, the Health Careers Opportunity Program, 
and the Centers of Excellence, is necessary to address the primary care 
workforce shortage. Such an investment will help sustain the health 
workforce expansion supported by the American Recovery and Reinvestment 
Act (ARRA) and restore funding to critical programs that suffered 
drastic funding reductions in fiscal year 2006 and remain well below 
fiscal year 2005 levels.
    AACOM is pleased that President Obama requested considerable 
increases in the following title VII programs: Training in Primary Care 
Medicine and Dentistry ($56.4 million requested/16.5 percent increase); 
Centers of Excellence ($24.6 million requested/19.4 percent increase); 
and Health Careers Opportunity Program ($22.1 million requested/15.7 
percent increase).

                                  NHSC

    Approximately 50 million Americans live in communities with a 
shortage of health professionals, lacking adequate access to primary 
care. Through scholarships and loan repayment, HRSA's NHSC supports the 
recruitment and retention of primary care clinicians to practice in 
underserved communities. The NHSC is comprised of more than 4,000 
clinicians, with more than half working in community health centers. 
Growth in HRSA's Health Center Program must be complemented with 
increases in the recruitment and retention of primary care clinicians 
to ensure adequate staffing. ARRA funding for the NHSC is vital in this 
regard, and additional investment will be necessary to sustain the 
progress once the ARRA funding period ends. AACOM recommends $235 
million in fiscal year 2010 for NHSC, the amount authorized under the 
Health Care Safety Net Amendments of 2002.
    AACOM notes that President Obama requested significant increases 
for NHSC field placement ($46 million requested/6 percent increase) and 
recruitment ($123 million requested/29.5 percent increase).

                                  NIH

    Research funded by the NIH leads to important medical discoveries 
regarding the causes, treatments, and cures for common and rare 
diseases as well as disease prevention. These efforts improve our 
Nation's health and save lives. The NIH funding under the ARRA will 
produce more high-quality research. To seize the momentum created by 
the ARRA and maintain a robust research agenda, further investment will 
be needed. AACOM recommends $33.35 billion in fiscal year 2010 for the 
NIH.
    In today's increasingly demanding and evolving medical curriculum, 
there is a critical need for more research geared toward evidence-based 
osteopathic medicine. AACOM believes that it is vitally important to 
maintain and increase funding for biomedical and clinical research in a 
variety of areas related to osteopathic principles and practice, 
including osteopathic manipulative medicine and comparative 
effectiveness. In this regard, AACOM encourages support for the NIH's 
National Center for Complementary and Alternative Medicine (NCCAM) to 
continue fulfilling this essential research role.
    AACOM appreciates President Obama requesting increases for NIH ($31 
billion requested/1.45 percent increase) and NCCAM ($127 million 
requested/1.6 percent increase).

                                  AHRQ

    AHRQ supports research to improve healthcare quality, reduce costs, 
advance patient safety, decrease medical errors, and broaden access to 
essential services. AHRQ plays an important role in producing the 
evidence base needed to improve our Nation's health and healthcare. The 
incremental increases for AHRQ's Effective Health Care Program in 
recent years, as well as the funding provided to AHRQ in the ARRA, will 
help AHRQ generate more comparative effectiveness research and expand 
the infrastructure needed to increase capacity to produce this 
evidence. More investment is needed, however, to fulfill AHRQ's mission 
and broader research agenda. AACOM recommends $405 million in fiscal 
year 2010 for AHRQ. This investment will preserve AHRQ's current 
programs while helping to restore its critical healthcare safety, 
quality, and efficiency initiatives.
    AACOM greatly appreciates the support of the subcommittee for these 
funding priorities in an ever increasing competitive environment and is 
grateful for the opportunity to submit its views. AACOM looks forward 
to continuing to work with the subcommittee on these important matters.
                                 ______
                                 
 Prepared Statement of the American Association of Colleges of Pharmacy

    The American Association of Colleges of Pharmacy (AACP) and its 
member colleges and schools of pharmacy appreciate the continued 
support of the Senate Appropriations Subcommittee on Labor, Health and 
Human Services, and Education, and Related Agencies. Our Nation's 111 
accredited colleges and schools of pharmacy are engaged in a wide-range 
of programs supported by grants and funding administered through the 
agencies of the Department of Health and Human Services (HHS) and the 
Department of Education. We also understand the difficult task you face 
annually in your deliberations to do the most good for the nation and 
remain fiscally responsible to the same. AACP respectfully offers the 
following recommendations for your consideration as you undertake your 
deliberations.

DEPARTMENT OF HEALTH AND HUMAN SERVICES SUPPORTED PROGRAMS AT COLLEGES 
                        AND SCHOOLS OF PHARMACY

Agency for Healthcare Research and Quality (AHRQ)
    AACP supports the Friends of AHRQ recommendation of $405 million 
for AHRQ programs in fiscal year 2010.
    Pharmacy faculty are strong partners with AHRQ. Academic pharmacy 
researchers are working to develop a sustainable health services 
research effort among faculty with AHRQ grant support. As partners in 
the AHRQ Effective Healthcare programs (CERTs, DeCIDE), pharmacy 
faculty researchers improve the effectiveness of healthcare services. 
Some of this research will take place through the development of 
practice-based research networks focused on improving the medication 
use process.
  --Last fall, AHRQ expanded its Centers for Education and Research on 
        Therapeutics (CERTs) program by awarding $41.6 million over the 
        next 4 years for a new coordinating center, 10 research centers 
        and four new centers receiving first-time funding. The 
        University of Illinois at Chicago College of Pharmacy joins the 
        13 CERTs program centers in efforts to conduct research and 
        provide education that advances the optimal use of 
        therapeutics.
    http://www.aacp.org/news/academicpharmnow/Documents/
        MarApr%202008%20APN.pdf
  --Pharmacy faculty researchers, supported by AHRQ grant HS016097, 
        determined that children who are prescribed medications related 
        to their diagnosis of attention deficit/hyperactivity disorder 
        were not at increased risk for hospitalization for cardiac 
        events. The results of this research will be presented in a web 
        conference sponsored by AHRQ and APhA on May 1, 2009.
Centers for Disease Control and Prevention (CDC)
    AACP supports the CDC Coalition recommendation of $8.6 billion for 
CDC core programs in fiscal year 2010.
    The educational outcomes of a pharmacist's education include those 
related to public health. When in community-based positions, 
pharmacists are frequently providers of first contact. The opportunity 
to identify potential public health threats through regular interaction 
with patients provides public health agencies such as the CDC with on-
the-ground epidemiologists. Pharmacists support the public health 
system through the risk identification of patients seeking medications 
associated with preventing and treating travel-related illnesses. 
Pharmacy faculty are engaged in CDC-supported research in areas such as 
immunization delivery, integration of pharmacogenetics in the pharmacy 
curriculum and inclusion of pharmacists in emergency preparedness. 
Information from the National Center for Health Statistics (NCHS) is 
essential for faculty engaged in health services research and for the 
professional education of the pharmacist.
  --Grace Kuo, CDC-supported member of the faculty at the University of 
        California, San Diego, is engaged in research aimed at 
        improving the safety of medication use in primary care 
        settings.
  --Jeanine Mount, CDC-supported member of the faculty at the 
        University of Wisconsin, is engaged in research to determine 
        how pharmacists can be better utilized in increase the 
        vaccination rates across our Nation.
Health Resources and Services Administration (HRSA)
    AACP supports the Friends of HRSA recommendation of $8.5 billion.
    HRSA is a Federal agency with a wide-range of policy and service 
components. Faculty at colleges and schools of pharmacy are integral to 
the success of many of these. Colleges and schools of pharmacy are the 
administrative units for interprofessional and community-based linkages 
programs including geriatric education centers and area health 
education centers. Pharmacy faculty are supported in their research 
efforts regarding rural health issues through the Office of Rural 
Health Policy. Pharmacy students benefit from diversity program funding 
including Scholarships for Disadvantaged Students.

                    OFFICE OF PHARMACY AFFAIRS (OPA)

    AACP recommends a program funding of $5 million for fiscal year 
2010 for OPA.
    AACP member institutions are actively engaged in OPA efforts to 
improve the quality of care for patients in federally qualified health 
centers and entities eligible to participate in the 340B drug discount 
program. The success of the HRSA Patient Safety and Clinical Pharmacy 
Collaborative is a direct result of past OPA actions linking colleges 
and schools of pharmacy with federally qualified health centers 
(www.hrsa.gov/patientsafety). The result of these links has been the 
establishment of medical homes that improve health outcomes for 
underserved and disadvantaged patients through the integration of 
clinical pharmacy services. The Office of Pharmacy Affairs would 
benefit from a direct line-item appropriation so that public-private 
partnerships aimed at improving the quality of care provided at 
federally qualified health centers can be sustained and expanded.

                         POISON CONTROL CENTERS

    Colleges and schools of pharmacy are supported by HRSA grant 
funding for the operation of 9 of the 42 poison control centers 
administered by HRSA.
  --Jill E. Michels, faculty member from the University of South 
        Carolina--South Carolina College of Pharmacy (USC), and the 
        Palmetto Poison Center (PPC) were awarded a $310,000 grant from 
        HRSA. The PPC is housed at the College of Pharmacy and serves 
        all 46 counties in South Carolina receiving more than 37,000 
        calls per year for information and advice. A recent USC study 
        found that for every $1 spent on the Palmetto Poison Center, 
        more than $7 was saved in unnecessary healthcare costs, 
        including emergency room and physician visits, ambulance 
        services, and unnecessary medical treatments. http://
        poison.sc.edu/about.html

                  BUREAU OF HEALTH PROFESSIONS (BHPR)

    AACP supports the Health Professions and Nursing Education 
Coalition (HPNEC) recommendation of $550 million for title VII and VIII 
programs in fiscal year 2010.
    AACP member institutions are active participants in BHPr programs. 
Two colleges of pharmacy are current grantees in the Centers of 
Excellence program (Xavier University--Louisiana and the University of 
Montana) which focuses on increasing the number of underserved 
individuals attending health professions institutions. Colleges and 
schools of pharmacy are also part of title VII interprofessional and 
community-based linkages programs including Geriatric Education Centers 
and Area Health Education Centers. These programs are essential for 
creating the educational approaches that align with the Institute of 
Medicine's recommendations for improving quality through team-based, 
patient-centered care.

                    OFFICE OF TELEHEALTH ADVANCEMENT

    Technology is an important component for improving healthcare 
quality and maintaining or increasing access to care. Colleges and 
schools of pharmacy utilize technology to increase the reach of 
education to aspiring and current professionals.
  --Massachusetts College of Pharmacy and Health Sciences--Worcester 
        Campus Distance Learning Initiative--Phase II.--Grant support 
        for this program will allow the expansion of health profession 
        education programs throughout Massachusetts and New Hampshire. 
        http://hrsa.gov/telehealth/granteedirectory/overview_ma.htm
  --North Dakota State University College of Pharmacy, Nursing, and 
        Allied Sciences uses grant funding to maintain access to 
        pharmacy services in rural, underserved areas of North Dakota. 
        This program helps more than 40,000 rural citizens maintain 
        access to pharmacy services and also supports rural hospital 
        pharmacies. http://hrsa.gov/telehealth/granteedirectory/
        overview_nd.htm

                   FOOD AND DRUG ADMINISTRATION (FDA)

    AACP recommends a funding level of $3 billion for FDA programs in 
fiscal year 2010.
    Academic pharmacy is working with the FDA to fulfill its strategic 
goals and the responsibilities assigned to the agency through the Food 
and Drug Administration Amendments Act. The FDA sees the colleges and 
schools of pharmacy as essential partners in assuring the public has 
access to a healthcare professional well versed in the science of 
safety.
  --Carole L. Kimberlin, a professor, and Almut G. Winterstein, an 
        assistant professor at the University of Florida College of 
        Pharmacy Department of Pharmaceutical Outcomes and Policy, 
        received a 1-year $184,229 award from the FDA to conduct an 
        evaluation of Consumer Medication Information leaflets on 
        selected prescription medications from community pharmacies 
        throughout the United States.
  --Thomas C. Dowling's research, ``Evaluation of Biopharmaceutics 
        Classification System Class 3 Drugs for Possible Biowaivers,'' 
        is supported by an FDA grant.
  --The FDA-supported National Institute of Pharmaceutical Technology 
        and Education is funding research at the University of 
        Connecticut focused on the development of freeze-dried 
        products.

                  NATIONAL INSTITUTES OF HEALTH (NIH)

    AACP supports the Ad Hoc Group for Medical Research recommendation 
of $32.4 billion for fiscal year 2010.
    Pharmacy faculty are supported in their research by nearly every 
Institute at the NIH. The NIH-supported research at AACP member 
institutions spans theresearch spectrum from the creation of new 
knowledge through the translation of that new knowledge to providers 
and patients. In 2008, pharmacy faculty researchers received more than 
$260 million in grant support from the NIH.
  --Researchers at the University of Illinois at Chicago College of 
        pharmacy have received a $1.7 million 5-year Federal grant to 
        develop a new approach to treat brain tumors. The novel 
        approach stabilizes the drug and provides better control of the 
        time and location of its activity, thereby reducing its side 
        effects.
  --University of Nebraska Medical Center (UNMC) received $10.6 million 
        from the National Center for Research Resources (NCRR) to 
        research nanomedicine, drug delivery, therapeutics, and 
        diagnostics. UNMC researcher, Dr. Alexander V. Kabanov, is the 
        principal investigator on the $10.6 million COBRE (Centers for 
        Biomedical Research Excellence) grant, which will be awarded by 
        the NIH/NCRR over the next 5 years.
  --Dr. Maria Croyle, associate professor of pharmaceutics at The 
        University of Texas at Austin College of Pharmacy, has received 
        $2.6 million from NIH to develop a vaccine against Ebola virus 
        infection.
  --As part of NIH funding for the new NIH Roadmap Epigenomics Program, 
        Dr. Rihe Liu, associate professor at the University of North 
        Carolina at Chapel Hill Eshelman School of Pharmacy, received a 
        technology development grant to support the advancement of 
        innovative technologies that have the potential to transform 
        the way that epigenomics research can be performed in the 
        future.
  --A project funded by the National Institute of General Medical 
        Sciences takes computer-aided drug design to the next level 
        with the help of a University of Michigan College of Pharmacy 
        professor.
  --Fourteen additional universities were awarded the Clinical and 
        Translational Science Award in May 2008. Five colleges of 
        pharmacy are included in this group and will play significant 
        collaborative roles with the new consortium members as the NIH 
        provides $533 million over 5 years to help enable researchers 
        to provide new treatments more efficiently and effectively to 
        patients.
  --Dr. Laurence H. Hurley, professor of pharmaceutical sciences at The 
        University of Arizona College of Pharmacy, is 1 of 38 
        scientists to receive the 2009 NIH EUREKA grant.

 DEPARTMENT OF EDUCATION SUPPORTED PROGRAMS AT COLLEGES AND SCHOOLS OF 
                                PHARMACY

    AACP supports the recommendation of the Student Aid Alliance that 
the:
  --Perkins Loan Program Federal Capital Contribution should be 
        increased to the newly reauthorized level of $300 million and 
        loan cancellations should be increased to $125 million.
  --Pell Grant maximum be increased to $5,500.
  --Gaining Early Awareness and Readiness for Undergraduate Programs 
        (GEAR UP) should be increased to the authorized level of $400 
        million.
  --Graduate level programs should be increased to $77 million.
    AACP recommends a funding level of $140 million for the Fund for 
the Improvement of Post Secondary Education (FIPSE).
    The Department of Education supports the education of healthcare 
professionals by:
  --assuring access to education through student financial aid 
        programs;
  --supporting educational research allows faculty to determine 
        improvements in educational approaches; and
  --maintaining the quality of higher education through the approval of 
        accrediting agencies.
    AACP actively supports increased funding for undergraduate student 
financial assistance programs. Admission to into the pharmacy 
professional degree program requires at least 2 years of undergraduate 
preparation. Student financial assistance programs are essential to 
assuring colleges and schools of pharmacy are accessible to qualified 
students. Likewise, financial assistance programs that support graduate 
education are an important component of creating the next generation of 
scientists and educators that both our Nation and higher education 
depend on.
                                 ______
                                 
   Prepared Statement of the American Association for Cancer Research

    The American Association for Cancer Research (AACR) recognizes and 
expresses its thanks to the United States Congress for its longstanding 
support and commitment to funding cancer research. The recent large-
scale investment in research through the American Recovery and 
Reinvestment Act (ARRA) and the fiscal year 2009 budget will support 
current projects and provide for new efforts in the fight against 
cancer. These new efforts promise to yield innovative and potentially 
breakthrough approaches to understanding, preventing, treating, and 
ultimately curing cancer. The full potential, however, will not be 
fully realized in a short 1- or 2-year period. Sustained, stable 
funding through regular appropriations will be necessary to allow 
researchers to make the key investments that will leverage the ARRA 
funds so that they both create jobs today and save lives tomorrow.
    Unquestionably, the Nation's investment in cancer research is 
having a remarkable impact. Cancer deaths in the United States have 
declined in recent years. This progress occurred in spite of an aging 
population and the fact that more than three-quarters of all cancers 
are diagnosed in individuals aged 55 and older. Yet this good news will 
not continue without stable and sustained Federal funding for critical 
cancer research priorities.
    AACR urges the United States House of Representatives to support 
President Obama's vision for doubling cancer research funding over the 
next 5 years and strongly support other biomedical research funding at 
the National Institutes of Health (NIH). AACR supports the $6 billion 
for cancer research highlighted in the President's fiscal year 2010 
budget outline, which would be best allocated to the National Cancer 
Institute (NCI). The AACR also supports the biomedical community's 
recommendation of a 7 percent increase for the NIH, which, when 
combined with President Obama's vision for cancer research, would fund 
NIH at a level of $33.3 billion in fiscal year 2010.

             AACR: FOSTERING A CENTURY OF RESEARCH PROGRESS

    The American Association for Cancer Research has been moving cancer 
research forward since its founding in 1907. Celebrating its 100th 
annual meeting, the AACR and its more than 28,000 members worldwide 
strive tirelessly to carry out its important mission to prevent and 
cure cancer through research, education, and communication. It does so 
by:
  --fostering research in cancer and related biomedical science;
  --accelerating the dissemination of new research findings among 
        scientists and others dedicated to the conquest of cancer;
  --promoting science education and training; and
  --advancing the understanding of cancer etiology, prevention, 
        diagnosis, and treatment throughout the world.

                 FACING AN IMPENDING CANCER ``TSUNAMI''

    Over the past 100 years, enormous progress has been made toward the 
conquest of the Nation's second most lethal disease (after heart 
disease). Thanks to discoveries and developments in prevention, early 
detection, and more effective treatments, many of the more than 200 
diseases called cancer have been cured or converted into manageable 
chronic conditions while preserving quality of life. The 5-year 
survival rate for all cancers has improved over the past 30 years to 
more than 65 percent. The completion of the doubling of the NIH budget 
in 2003 is bearing fruit as many new and promising discoveries are 
unearthed and their potential realized. However, there is much left to 
be done, especially for the most lethal and rarer forms of the disease.
    We recognize that the underlying causes of the disease and its 
incidence have not been significantly altered. The fact remains that 
men have a 1 in 2 lifetime risk of developing cancer, while women have 
a 1 in 3 lifetime risk. The leading cancer sites in men are the 
prostate, lung and bronchus, and colon and rectum. For women, the 
leading cancer sites are breast, lung and bronchus, and colon and 
rectum. And cancer still accounts for 1 in 4 deaths, with more than 
half a million people expected to die from their cancer in 2009. Age is 
a major risk factor--this Nation faces a virtual ``cancer tsunami'' as 
the baby boomer generation reaches age 65 in 2011. A renewed commitment 
to progress in cancer research through leadership and resources will be 
essential to avoid this cancer crisis.

           BLUEPRINT FOR PROGRESS: NCI'S STRATEGIC OBJECTIVES

    Basic, translational, and clinical cancer research in this country 
is conducted primarily through three venues--Government, academia and 
the nonprofit sector, and the pharmaceutical/biotechnology industry. 
The Congress provides the appropriations for the National Institutes of 
Health and the NCI through which most of the Government's research on 
cancer is conducted. The NCI has developed documents and processes that 
describe and guide its priorities--established with extensive community 
input--for the use of these finite resources. ``The NCI Strategic Plan 
for Leading the Nation'' and ``The Nation's Investment in Cancer 
Research: An Annual Plan and Budget Proposal fiscal year 2010'' are the 
recognized professional blueprints for what needs to be done to 
accelerate progress against cancer.
    AACR and many in the cancer research community concur that if the 
NCI receives the increased investment of $2.1 billion as proposed for 
fiscal year 2010, the Director's proposed budget will enable the NCI to 
rebuild America's research infrastructure capacity and accelerate 
research progress in critical priority areas.

                  FEDERAL INVESTMENT FOR LOCAL BENEFIT

    More than half of the NCI budget is allocated to research project 
grants that are awarded to outside scientists who work at local 
hospitals and universities throughout the country. More than 6,500 
research grants are funded at more than 150 cancer centers and 
specialized research facilities located in 49 States. More than half 
the States receive more than $15 million in grants and contracts to 
institutions located within their borders. This Federal investment 
provides needed economic stimulus to local economies: on average, each 
dollar of NIH funding generated more than twice as much in State 
economic output in fiscal year 2007. Many AACR member scientists across 
the Nation are engaged in this rewarding work, and many have had their 
long-term research jeopardized by grant reductions caused by the flat 
and declining overall funding for the NCI since 2003. The recent 
increase in fiscal year 2009 appropriations and the funds from the 
American Recovery and Reinvestment Act of 2009 will help to revitalize 
America's research infrastructure; however, sustained and stable 
funding is critical to reap the benefits of this investment. Thus, the 
AACR supports the request in the President's budget proposal for $6 
billion in funding for cancer research in fiscal year 2010 and his 
commitment to double funding for cancer research over the next 5 years 
and, thus, recommends a 20 percent increase in funding for the NCI to 
enable it to continue and expand its important work.

           UNDERSTANDING THE CAUSES AND MECHANISMS OF CANCER

    Basic research into the causes and mechanisms of cancer is at the 
heart of what the NCI and many of AACR's member scientists do. The 
focus of this research includes: investigating the underlying basis of 
the full spectrum of genetic susceptibility to cancer; identifying the 
influence of the macroenvironment (tumor level) and microenvironment 
(tissue level) on cancer initiation and progression; understanding the 
behavioral, environmental, genetic, and epigenetic causes of cancer and 
their interactions; developing and applying emerging technologies to 
expand our knowledge of risk factors and biologic mechanisms of cancer; 
and elucidating the relationship between cancer and other human 
diseases.
    Basic research is the engine that drives scientific progress. The 
outcomes from this fundamental basic research--including laboratory and 
animal research in addition to population studies and the deployment of 
state-of-the-art technologies--will inform and drive the cancer 
research enterprise in ways and directions that will lead to 
unparalleled progress in the search for cures.

             DEVELOPING EFFECTIVE AND EFFICIENT TREATMENTS

    The future of cancer care is all about developing individualized 
therapies tailored to the specific characteristics of a patient's 
cancer. The NCI research in this area concentrates on: identifying the 
determinants of metastatic behavior; validating cancer biomarkers for 
prognosis, metastasis, treatment response, and progression; 
accelerating the identification and validation of potential cancer 
molecular targets; minimizing the toxicities of cancer therapy; and 
integrating the clinical trial infrastructure for speed and efficiency. 
The completion of the Human Genome Project has opened the door to the 
promise of personalized medicine.

 TRAINING AND CAREER DEVELOPMENT FOR THE NEXT GENERATION OF RESEARCHERS

    Of critical importance to the viability of the long-term cancer 
research enterprise is supporting, fostering, and mentoring the next 
generation of investigators. The NCI historically devotes approximately 
4 percent of its budget to multiple strategies to training and career 
development, including sponsored traineeships, a Medical Scientist 
Training Program, special set-aside grant programs and bridge grants 
for early career cancer investigators. Increased funding for these 
foundational opportunities is essential to retain the scientific 
workforce that is needed to continue the fight against cancer.

             AACR'S INITIATIVES AUGMENT SUPPORT FOR THE NCI

    The NCI is not working alone or in isolation in any of these key 
areas. NCI research scientists reach out to other organizations to 
further their work. The AACR is engaged in scores of initiatives that 
strengthen, support, and facilitate the work of the NCI. Just a few of 
AACR's contributions include:
  --sponsoring the largest meeting of cancer researchers in the world, 
        with more than 14,000 scientists, where 6,000 scientific 
        abstracts featuring the latest basic, translational, and 
        clinical scientific advances are presented;
  --publishing more than 3,400 original research articles each year in 
        six prestigious peer-reviewed scientific journals, including 
        cancer research, the most frequently cited cancer journal;
  --sponsoring the annual International Conference on Frontiers of 
        Cancer Prevention Research, the largest such prevention meeting 
        of its kind in the world;
  --supporting the work of its Chemistry in Cancer Research Working 
        Group;
  --convening an AACR-FDA-NCI Think Tank on Clinical Biomarkers;
  --hosting, with NCI, the Molecular Targets and Cancer Therapeutics 
        Conference;
  --sponsoring and supporting a Minorities in Cancer Research Council 
        and a Women in Cancer Research Council;
  --Conducting the scientific review and grants administration for the 
        more than $100 million donated to Stand Up To Cancer;
  --raising and distributing more than $5 million in awards and 
        research grants.

            STABLE, SUSTAINED INCREASES IN RESEARCH FUNDING

    Remarkable progress is being made in cancer research, but much more 
remains to be done. Cancer costs the Nation more than $219 billion in 
direct medical costs and lost productivity due to illness and premature 
death. Respected University of Chicago economists Kevin Murphy and 
Robert Topel have estimated that even a modest one percent reduction in 
mortality from cancer would be worth nearly $500 billion in social 
value. Investments in cancer research stimulate the local economy today 
have huge potential returns in the future. Thanks to successful past 
investments, promising research opportunities abound and must not be 
lost. To maintain our research momentum, the AACR urges the United 
States House of Representatives to support a budget of $33.3 billion 
for the NIH, including $6 billion for the NCI.
                                 ______
                                 
 Letter From the American Association of Colleges for Teacher Education
                                                    April 30, 2009.
Hon. Tom Harkin,
Chairman, Subcommittee on Labor, Health and Human Services, and 
        Education, and Related Agencies, Washington, DC.
    Dear Chairman Harkin: I want to extend my appreciation to you and 
your colleagues in Congress for your support of Federal education 
programs. Your commitment makes a significant difference for the 
education of our millions of PK-12 and postsecondary students.
    As you and your colleagues begin the fiscal year 2010 
appropriations process, the American Association of Colleges for 
Teacher Education (AACTE) urges you to increase the Federal 
Government's investment in the preparation of professional educators. 
While there are significant funds behind title II of the No Child Left 
Behind Act in the Improving Teacher Quality State Grants, the vast 
majority of these funds, and other funds in title II, go towards class 
size reduction and the professional development of practicing teachers. 
Equally important, though, is the initial preparation of teachers and 
other school personnel. And, in this respect, the Federal Government's 
investment, until very recently, has declined over the years. As this 
Nation is in the midst of teacher retention and shortage crises, it is 
critical that the Government responds with a plan that provides for 
systemic change.
    There are several programs within the Department of Education 
intended to strengthen and improve educator recruitment and preparation 
efforts. We are working with program authorizers in Congress and staff 
within the agencies to ensure that these programs work in concert with 
each other. However, one of the key factors that prevents these 
programs from becoming levers for systemic change is their consistent 
underfunding. The cost of preparing school personnel is significant.
    The primary Federal program in this area is the Teacher Quality 
Partnership (TQP) Grants (title II, Higher Education Opportunity Act). 
During the reauthorization of the Higher Education Act we supported 
several changes to title II of the bill that have resulted in a much 
stronger TQP program. Under this program, these grants go to 
partnerships of institutions of higher education, high-need local 
educational agencies, and high-need K-12 schools to prepare teachers 
and other school personnel to effectively serve in the schools. The 
grants are particularly focused on strengthening the clinical component 
of preparation programs--research has shown that preservice clinical 
experiences are essential to preparing effective teachers and to 
teacher retention.
    Grants can be used to strengthen prebaccalaureate preparation 
programs and/or to develop 1-year master's degree level teaching 
residency programs. In exchange for receiving a living stipend during 
the residency, teachers would commit to teaching for at least 3 years 
in a shortage field in a high-need school. The residency programs are 
targeted to recruiting career-changers and recent college graduates. In 
these times of rising unemployment, these programs are ideal for those 
who have been laid off and are seeking a stable and rewarding new 
career. President Obama wrote the legislation for the teaching 
residency programs when he was a Senator on the HELP Committee. During 
his Presidential campaign and since his election he has stated that he 
wants to prepare 30,000 new educators through the residency programs.
    In order to meet that goal, and to provide sufficient support to 
the partnerships that carry out TQP Grants, we ask that you fund the 
TQP program at the $150 million level in fiscal year 2010. The TQP 
program received $50 million in fiscal year 2009, and $100 million in 
the stimulus package. This is a significant boost to the program which 
was funded in fiscal year 2008 at $33 million. The $150 million in 
fiscal year 2010 appropriations will maintain the current level of 
funding when the stimulus funding concludes.
    Below you will find AACTE's recommendations for funding additional 
programs in fiscal year 2010.
  --Fund Teachers for a Competitive Tomorrow at the $60 Million 
        Level.--This program was authorized in the America Competes 
        Act, and it is currently funded at $2.18 million. This program 
        and the TQP program are the only two Federal education program 
        directed targeted to higher-education-based educator 
        preparation programs. With the teacher shortage and retention 
        crisis acutely felt in the math and science teaching fields, 
        this program is a crucial piece of the response to ameliorate 
        the teacher shortage challenges. This competitive grant program 
        helps higher education institutions build baccalaureate and 
        master's degree programs that allow students to major in STEM 
        fields while working toward teacher certification.
  --Fund the Transition to Teaching program at the $60 Million Level.--
        This program, authorized in title II of the No Child Left 
        Behind Act at the $150 million level and currently funded at 
        $43.7 million, supports the development of teacher preparation 
        programs suited for career-changers and others who enter 
        teaching through nontraditional routes. Higher education 
        institutions and other entities have used funds from this 
        program to develop innovative preparation programs that 
        accommodate the needs of a diverse educator candidate pool 
        while ensuring that candidates are prepared to teach in today's 
        K-12 classrooms.
  --Fund the Troops-to-Teachers program at the $25 Million Level.--Like 
        Transition to Teaching, this program aims to attract teachers 
        from another profession into the classroom. Troops-to-Teachers 
        has been very successful at recruiting retired military into 
        the teaching profession. By funding the program at $25 million, 
        this would almost double the Government's investment in the 
        program (currently at $14.4 million) during a time in which 
        there is higher military interest in entering the K-12 teaching 
        ranks.
  --Fund the IDEA Personnel Preparation Program at the $120 Million 
        Level.--Currently funded at $90.65 million, this program 
        provides essential funds to prepare and develop special 
        educators. Special education teachers, much like math and 
        science teachers, are in high demand in the K-12 schools with 
        the shortage being significant. With the wide breadth and 
        increasing number of special need students there needs to be an 
        adequate supply of teachers who can work with them to ensure 
        student learning.
  --Fund the Centers for Excellence Program at the $20 Million Level.--
        This new program was authorized in title II of the Higher 
        Education Opportunity Act and is currently unfunded. Grants 
        would support the strengthening of educator preparation 
        programs at institutions that serve historically under-
        represented populations.
  --Fund the Teach to Reach Grant Program at the $15 Million Level.--
        This new program was authorized in title II of the Higher 
        Education Opportunity Act and is currently unfunded. 
        Institutions of higher education would use grants to ensure 
        that all of their teacher candidates were prepared to teach 
        children with disabilities. Almost every K-12 classroom has 
        students with learning, intellectual, and/or physical 
        disabilities. It is critical that every teacher is prepared 
        with instructional skills that will assure that every child has 
        the opportunity to learn.
  --Fund the Graduate Fellowships To Prepare Faculty at Colleges of 
        Education Program at the $15 Million Level.--This new program 
        was authorized in title II of the Higher Education Opportunity 
        Act and is currently unfunded. The current shortage of K-12 
        teachers in the math, science, special education, and English 
        language learners fields is directly correlated with the 
        shortage of faculty at institutions of higher education who 
        prepare teachers in these fields. This program would support 
        doctoral students who intend to become faculty who prepare 
        teachers in these shortage areas.
    The AACTE is a national voluntary association of higher education 
institutions and other organizations and is dedicated to ensuring the 
highest-quality preparation and continuing professional development for 
teachers and school leaders. Our overarching mission is to enhance PK-
12 student learning. Collectively, the AACTE membership prepares more 
than two-thirds of the new teachers entering schools each year in the 
United States.
    Thank you for your consideration of the perspective of AACTE and 
its membership of close to 800 private, State, and municipal colleges 
and universities--large and small--located in every State, the District 
of Columbia, the Virgin Islands, Puerto Rico, and Guam.
            Sincerely,
                                 Sharon P. Robinson, Ed.D.,
                                                 President and CEO.
                                 ______
                                 
   Prepared Statement of the American Association for Dental Research

    The American Association for Dental Research (AADR) is a nonprofit 
organization with more than 4,000 individual members and 100 
institutional members within the United States. The AADR's mission is 
to advance research and increase knowledge for the improvement of oral 
health for all Americans.
    The AADR thanks the subcommittee for this opportunity to testify 
about the exciting advances in oral health science. Americans are 
living better and healthier lives into old age due to recent advances 
in healthcare, including dental care and oral health research, thanks 
to the efforts of the National Institute of Dental and Craniofacial 
Research (NIDCR). NIDCR was formed in 1948 by the National Institutes 
of Health (NIH). Its staff has conducted research, trained researchers, 
and disseminated health information to improve the health of Americans 
and make it possible for them to live longer and healthier lives.
    On February 17 of this year, President Barack Obama signed into law 
the $787 billion stimulus package known as the American Recovery and 
Reinvestment Act (ARRA). This legislation will provide NIH with $8.2 
billion to conduct additional scientific research. AADR members, 
researchers across the country, would like to thank the committee for 
its past support and in particular for the funds contained in the 
stimulus package. The past investment in NIH has paid a dividend to 
taxpayers in the form of improved oral health.

                           HEALTH DISPARITIES

    One very challenging issue we face in this country is health 
disparities. We must learn more about the causes of cultural inequality 
among individual members of society if we are to conduct more effective 
research.
    The NIDCR's mission is to train and engage as many young 
investigators as possible in oral health disparities research to 
develop various methods of research to eliminate these disparities. 
They hope that this will improve the oral, dental, and craniofacial 
health of diverse populations.
    Health disparities are the persistent gaps between the health 
status of minorities and nonminorities in the United States. Despite 
continued advances in healthcare and technology, racial and ethnic 
minorities continue to have higher rates of disease, disabilities, and 
premature death than nonminorities. African Americans, Hispanics/
Latinos, American Indians and Alaska natives, Asian Americans, Native 
Hawaiians, and Pacific Islanders have higher rates of infant mortality, 
cardiovascular disease, diabetes, AIDS, and cancer, and lower rates of 
immunizations and cancer screening.
    There is debate about what causes health disparities between ethnic 
and racial groups. However, it is generally accepted that disparities 
can result from three main areas:
  --from the personal, socioeconomic, and environmental characteristics 
        of different ethnic and racial groups;
  --from the barriers certain racial and ethnic groups encounter when 
        trying to enter into the healthcare delivery system; and
  --from the quality of healthcare different ethnic and racial groups 
        receive.
    These are all considered possible causes for disparities between 
racial and ethnic groups. However, most attention on the issue has been 
given to the health outcomes that result from differences in access to 
medical care among groups and the quality of care that various groups 
receive. Since many scientific discoveries do not reach all people, 
there are disparities in the health and healthcare among various groups 
in the United States. Even though data on racial and ethnic disparities 
are relatively widely available, data on socioeconomic healthcare 
disparities are collected less often.
    The Health Disparities Research Program responds to the growing 
awareness that, despite improvements in some oral health status 
indicators, the burden of disease is not evenly distributed across all 
segments of our society. The program supports research that explores 
the multiple and complex factors that may determine oral and 
craniofacial health, diseases, and conditions in disadvantaged and 
underserved populations. Funds go to a wide variety of different 
scientific approaches designed to reduce and eventually eliminate oral 
and craniofacial diseases and conditions in disadvantaged and 
underserved populations. The program supports both qualitative and 
quantitative approaches.
    The NIDCR will support interventional research that will have a 
meaningful impact on caries, oral and pharyngeal cancer, and 
periodontal disease, and that will influence clinical practice, health 
policy, community and individual action, ultimately eliminating 
disparities in vulnerable people. NIDCR will also fund health 
disparities interventional research beyond that conducted through the 
Centers for Research to Reduce Disparities in Oral Health program.

                          SALIVARY DIAGNOSTICS

    For many oral and systemic diseases, early detection offers the 
best hope for successful treatment. Oral and systemic diseases can be 
difficult to diagnose, involving complex clinical evaluation and/or 
blood and urine tests that are labor-intensive, expensive, and 
invasive. Now, after many years of research, saliva is poised to be 
used as a noninvasive diagnostic fluid for a number of oral and 
systemic conditions. Saliva, a protective fluid of the oral cavity, 
combats bacteria and viruses that enter the mouth and serves as a first 
line of defense in oral and systemic diseases. It contains many 
compounds indicating a person's overall health and disease status, and, 
like blood or urine, its composition may be affected by a disease--
therefore, saliva is a mirror of the body. Since saliva is easy to 
collect, it is a good alternative to using blood or urine for 
diagnostic tests.
    The year 2008 was exciting in the incremental development of 
salivary diagnostics. A consortium of NIDCR-supported scientists 
completed the first catalogue of the human salivary proteome, or the 
full set of 1,166 proteins present in saliva. This will help facilitate 
the future testing of saliva as a standard body fluid to detect early 
signs of disease. A team of NIDCR grantees also assembled the first 
panel of salivary protein biomarkers to detect oral squamous cell 
carcinoma (OSCC). This is the most common form of the oral cancers.
    Salivary diagnostic techniques have already been developed for and 
are being used to detect HIV. Saliva could be used as a potential 
monitor of disease progression in systemic disorders, including 
Alzheimer's disease, cystic fibrosis, and diabetes. Specific protein 
markers in human saliva are being investigated that can be identified 
and quantified to provide an early, noninvasive diagnosis for even 
cancers distant from the oral cavity, such as pancreatic and breast 
cancer. Getting a diagnosis used to entail making a trip to the 
doctor's office. The doctor's examination often required the patient 
providing a blood and/or urine sample. Even though getting a diagnosis 
still requires a trip to the doctor's office, scientists are now 
identifying the genes and proteins that are expressed in the salivary 
glands that will help define the patterns and certain conditions under 
which these genes and proteins are expressed in the salivary glands. 
Building on this research, saliva will become a more commonly used 
diagnostic fluid.

                              ORAL CANCER

    Oral cancer affects 38,000 Americans each year and 350,000 people 
worldwide. The death rate associated with this cancer is especially 
high, due to delayed diagnosis. Oral cancer is any cancerous tissue 
growth located in the mouth. About two-thirds of oral cancers occur in 
the mouth, and about one-third are found in the pharynx. On average, 
only 60 percent of people with the disease will survive more than 5 
years. However, here again, disparities play a role, and only 35 
percent of black men will survive 5 years. Oral cancer occurs most in 
people over the age of 40 and affects more than twice as many men as 
women. Researchers are developing a Point of Care diagnostic system 
(real-time) for rapid on-site detection of saliva-based tumor markers. 
Early detection of oral cancer will increase survival rates, improve 
the quality of life of cancer patients, and result in a significant 
reduction in healthcare costs.
    Oral cancer forms in tissues of the lip or mouth. In 2008, 
approximately 22,900 new cases of oral cancer occurred in the United 
States. Oral cancer claimed roughly 5,390 deaths that year. It 
represents approximately 3 percent of all cancers. This, however, 
translates to 30,000 new cases every year in the United States. More 
than 34,000 Americans will be diagnosed with oral or pharyngeal cancer 
this year. It will cause more than 8,000 deaths, killing roughly 1 
person per hour, 24 hours per day. Of those 34,000 newly diagnosed 
individuals, only half will be alive in 5 years. The death rate for 
oral cancer is higher than that of cancers such as cervical cancer, 
laryngeal cancer, thyroid cancer, or skin cancer. Worldwide, the 
problem is much greater, with more than 400,000 new cases being found 
each year.
    Survival rates can be calculated by different methods for different 
purposes. If oral cancer is caught when the disease has not spread 
beyond the original tumor site, the 5-year relative survival rate is 82 
percent. However, half of oral cancers are not diagnosed until the 
cancer has spread to nearby tissues. At this stage, the 5-year relative 
survival rate drops to 53 percent. Those diagnosed when the cancer has 
spread further, to distant organs, have only a 28 percent 5-year 
relative survival rate. It's important to detect oral cancer early, 
when it can be treated more successfully. Typically, the earlier cancer 
is detected and diagnosed, the more successful the treatment, thus 
enhancing the survival rate.

                               CONCLUSION

    There are many research opportunities with an immediate impact on 
patient care that need to be pursued. A consistent and reliable funding 
stream for NIH overall, and for NIDCR in particular, is essential for 
continued improvement in the oral health of Americans. Oral cancer is 
one of the most expensive cancers to treat--the average cost for 
treating an advanced case is $200,000. Overcoming cancer health 
disparities is one of the best opportunities we have for lessening the 
burden of cancer. But the burden of cancer is too often greater for the 
poor, for ethnic minorities, and for the uninsured than for the general 
population.
    A great amount of promising research is under way, and the 
potential to improve oral health specifically, and overall health in 
general, is significant. Therefore, we are requesting that NIDCR 
receive a fiscal year 2010 appropriation of $442 million, not including 
the ARRA funding, to help sustain and build upon the discoveries and 
employment opportunities that were created using stimulus funding. 
Thank you for the subcommittee's support of NIH programs in the past, 
and we are grateful for this opportunity to present our views.
                                 ______
                                 
    Prepared Statement of the American Academy of Family Physicians

    On behalf of the American Academy of Family Physicians (AAFP), I 
commend President Barack Obama for demonstrating a commitment to a 
strong primary care workforce by seeking to increase training under 
title VII, section 747 of the Public Health Services Act in his fiscal 
year 2010 budget. As one of the largest national medical organizations, 
representing family physicians, residents, and medical students, the 
AAFP recommends that the Senate Appropriations Subcommittee on Labor, 
Health and Human Services, and Education, and Related Agencies build on 
that commitment to title VII section 747 in fiscal year 2010 and 
increase funding for other key HHS programs to allow healthcare reform 
to succeed and support better healthcare all.

          HEALTH RESOURCES AND SERVICES ADMINISTRATION (HRSA)

    HRSA is charged with improving access to healthcare services for 
people who are uninsured, isolated, or medically vulnerable. One of the 
most critical aspects of this mission is ensuring a healthcare 
workforce which is sufficient to meet the needs of patients and 
communities.

                        HRSA--HEALTH PROFESSIONS

    For 40 years, the training programs authorized by title VII of the 
Public Health Services Act evolved to meet our Nation's healthcare 
workforce needs. While it is increasingly clear that our Nation has a 
worsening shortage of primary care physicians, many ``studies have 
found a strong, sometimes dose-dependent associations between title VII 
funding and increased production of primary care graduates, and 
physicians who eventually practice in rural areas and federally 
designated physician shortage areas.'' \1\
---------------------------------------------------------------------------
    \1\ Robert Graham Center. Specialty and Geographic Distribution of 
Physician Workforce: What Influences Medical Student & Resident 
Choices? 2009 Washington, DC.
---------------------------------------------------------------------------
    The sixth report of the HRSA Advisory Committee on Training in 
Primary Care Medicine and Dentistry recommended an annual minimum level 
of $215 million for the title VII section 747 grant program. The 
subcommittee reasoned that:

    Title VII funds are essential to support major primary care 
training programs that train the providers who work with vulnerable 
populations. It is critical that funds not only be restored to 2005 
levels, but that funding be increased, as the need for healthcare of 
the public, including those high-risk groups identified in this report, 
increases. It is critical that funds offset the acknowledged rate of 
inflation. This additional funding is also necessary to prepare current 
and future primary care providers for their critical role in responding 
to healthcare challenges including demographic changes in the 
population, increased prevalence of chronic conditions, decreased 
access to care, and a need for effective first-response strategies in 
instances of acts of terrorism or natural disasters.

    Healthcare reform demands that we must modernize workforce and 
education policies to ensure an adequate number of primary care 
physicians trained to serve in the new healthcare delivery model. The 
patient centered medical home will give patients access to preventive 
care and coordination of the care needed to manage chronic diseases as 
well as appropriate care for acute illness. The medical home practice 
model provides improved efficiency and better health because it serves 
as a principal source of access and care. As a result, duplication of 
tests and procedures and unnecessary emergency department visits and 
hospitalizations can be avoided
    Section 747 of title VII, the Primary Care Medicine and Dentistry 
Cluster, is aimed at increasing the number of primary care physicians 
(family physicians, general internists and pediatricians). Section 747 
offers competitive grants for family medicine training programs in 
medical schools and in residency programs. Section 747 is vital to 
stimulate medical education, residency programs, as well as academic 
and faculty development in primary care to prepare physicians to 
support the patient centered medical home.
    The value of title VII grants extends far beyond the medical 
schools that receive them. The United States lags behind other 
countries in its focus on primary care. However, the evidence shows 
that countries with primary care-based health systems have population 
health outcomes that are better than those of the United States at 
lower costs.\2\ Health Professions Grants are one important tool to 
help refocus the Nation's health system on primary care.
---------------------------------------------------------------------------
    \2\  Starfield B, et al. The effects of specialist supply on 
populations' health: assessing the evidence. Health Affairs. 15 March 
2005
---------------------------------------------------------------------------
    Although HRSA has not released the spending plan for the American 
Recovery and Reinvestment Act (ARRA) health professions training funds 
for fiscal year 2009-2010, the omnibus appropriation increased section 
747 by less than 1 percent more than the final fiscal year 2008 amount 
to $48,425,000 for fiscal year 2009. It remains well below the $92 
million provided for Primary Care Medicine and Dentistry Training in 
fiscal year 2003. The Nation needs significant additional support from 
section 747 because it is the only national federally funded program 
that provides resources for important innovations necessary to increase 
the number of physicians who will lead the primary care teams providing 
care in patient-centered medical homes.
    AAFP recommends a substantial increase in the fiscal year 2010 
appropriation bill for the Health Professions Training Programs 
authorized under title VII of the Public Health Services Act. We 
respectfully request that the subcommittee provide $215 million for the 
section 747, the Primary Care Medicine and Dentistry Cluster, which 
will signal the commitment of Congress to reform healthcare delivery in 
this Nation.

               HRSA--NATIONAL HEALTH SERVICE CORPS (NHSC)

    NHSC offers scholarship and loan repayment awards to primary care 
physicians, nurse practitioners, dentists, mental and behavioral health 
professionals, physician assistants, certified nurse-midwives, and 
dental hygienists serving in underserved communities. Research has 
shown that debt plays a complex yet important role in shaping career 
choices for medical students. The NHSC offers financial incentives for 
the recruitment and retention of family physicians to practice in 
underserved communities without adequate access to primary care. The 
AAFP supports the work of the NHSC toward the goal of full funding for 
the training of the health workforce and zero disparities in 
healthcare.
    AAFP respectfully requests that the subcommittee fully fund these 
important scholarship and loan repayment programs by providing the 
authorized amount of $235 million for NHSC in fiscal year 2010.

                           HRSA--RURAL HEALTH

    Americans in rural areas face more barriers to care than those in 
urban and suburban areas. Rural residents also struggle with the higher 
rates of illness associated with lower socioeconomic status.
    Family physicians provide the majority of care for America's 
underserved and rural populations.\3\ Despite efforts to meet 
scarcities in rural areas, the shortage of primary care physicians 
continues. Studies, whether they be based on the demand to hire 
physicians by hospitals and physician groups or based on the number of 
individuals per physician in a rural area, all indicate a need for 
additional physicians in rural areas.
---------------------------------------------------------------------------
    \3\  Hing E, Burt CW. Characteristics of office-based physicians 
and their practices: United States, 2003-04. Series 13, No. 164. 
Hyattsville, MD: National Center for Health Statistics. 2007.
---------------------------------------------------------------------------
    HRSA's Office of Rural Health administers a number of programs to 
improve healthcare services to the quarter of our population residing 
in rural communities. Rural Health Policy Development and Outreach 
Grants fund innovative programs to provide healthcare in rural areas. 
State rural health offices, funded through the NHSC budget, help States 
implement these programs so that rural residents benefit as much as 
urban patients.
    AAFP encourages the subcommittee to provide adequate funding in the 
fiscal year 2010 appropriation bill for the important programs 
administered by HRSA's Office of Rural Health to address the many 
unique health service needs of rural communities.

           AGENCY FOR HEALTHCARE RESEARCH AND QUALITY (AHRQ)

    The mission of AHRQ--to improve the quality, safety, efficiency, 
and effectiveness of health care for all Americans--closely mirrors 
AAFP's own mission. AHRQ is a small agency with a huge responsibility 
for research to support clinical decisionmaking, reduce costs, advance 
patient safety, decrease medical errors, and improve healthcare 
quality, and access. Family physicians recognize that AHRQ has a 
critical role to play in promoting healthcare safety, quality, and 
efficiency initiatives.

                AHRQ--COMPARATIVE EFFECTIVENSS RESEARCH

    One of the hallmarks of the patient centered medical home is 
evidence-based medicine. Comparative effectiveness research, which 
compares the impact of different options for treating a given medical 
condition, is vital to quality care. Studies comparing various 
treatments (e.g., competing drugs) or differing approaches (e.g., 
surgery and drug therapy) can inform clinical decisions by analyzing 
not only costs but the relative medical benefits and risks for 
particular patient populations.
    AAFP commends the Congress for including $1.1 billion in ARRA for 
comparative effectiveness research which holds out the promise of 
reducing healthcare costs while improving medical outcomes.
    AAFP respectfully suggests that the subcommittee provide at least 
$405 million for AHRQ in the fiscal year 2010 appropriations bill, an 
increase of $32 million above the fiscal year 2009 level.
                                 ______
                                 
Prepared Statement of the American Association for Geriatric Psychiatry

    The American Association for Geriatric Psychiatry (AAGP) 
appreciates this opportunity to comment on issues related to fiscal 
year 2010 appropriations for mental health research and services. AAGP 
is a professional membership organization dedicated to promoting the 
mental health and well being of older Americans and improving the care 
of those with late-life mental disorders. AAGP's membership consists of 
approximately 2,000 geriatric psychiatrists as well as other health 
professionals who focus on the mental health problems faced by aging 
adults. Although we generally agree with others in the mental health 
community about the importance of sustained and adequate Federal 
funding for mental health research and treatment, AAGP brings a unique 
perspective to these issues because of the elderly patient population 
served by our members.

   A NATIONAL HEALTH CRISIS: DEMOGRAPHIC PROJECTIONS AND THE MENTAL 
                           DISORDERS OF AGING

    With the baby boom generation nearing retirement, the number of 
older Americans with mental disorders is certain to increase in the 
future. By the year 2010, there will be approximately 40 million people 
in the United States older than the age of 65. More than 20 percent of 
those people will experience mental health problems.
    The cost of treating mental disorders can be staggering. For 
example, it is estimated that total costs associated with the care of 
patients with Alzheimer's disease is more than $100 billion per year in 
the United States. Psychiatric symptoms (including depression, 
agitation, and psychotic symptoms) affect 30 to 40 percent of people 
with Alzheimer's and are associated with increased hospitalization, 
nursing home placement, and crippling family burden. These psychiatric 
symptoms, associated with Alzheimer's disease, can increase the cost of 
treating these patients by more than 20 percent. However, these costs 
pale when compared to the costs of not treating mental disorders 
including lost work time, co-morbid illness, and increased nursing home 
utilization. It is also important to note the added burden, financial 
and emotional, on family caregivers, as the Nation's informal 
caregiving system is already under tremendous strain and will require 
more support in the years to come.

  PREPARING A WORKFORCE TO MEET THE MENTAL HEALTH NEEDS OF THE AGING 
                               POPULATION

    In 2008, the Institute of Medicine (IOM) released a study of the 
readiness of the Nation's healthcare workforce to meet the needs of its 
aging population. The Re-tooling for an Aging America: Building the 
Health Care Workforce called for immediate investments in preparing our 
healthcare system to care for older Americans and their families. 
Virtually all healthcare providers need to be fully prepared to manage 
the common medical and mental health problems of old age. In addition, 
the number of geriatric health specialists, including mental health 
providers, needs to be increased both to provide care for those older 
adults with the most complex issues and to train the rest of the 
workforce in the common medical and mental health problems of old age. 
The small numbers of specialists in geriatric mental health, combined 
with increases in life expectancy and the growing population of the 
nation's elderly, foretells a crisis in healthcare that will impact 
older adults and their families nationwide. Unless changes are made 
now, older Americans will face long waits, decreased choice, and 
suboptimal care.
    In order to implement the IOM report, AAGP believes that there are 
several critical issues that this subcommittee should address:
IOM Study on Geriatric Mental Health Workforce
    AAGP believes that the broad scope of the 2008 IOM study, while 
meeting a crucial need for information on the many issues regarding the 
health workforce for older adults, precluded the in-depth consideration 
of the workforce needed for treating mental illness. The study should 
be followed by a complementary study focused on the specific challenges 
in the geriatric mental health field. This study should follow up the 
general IOM study in two specific ways: it should examine the access 
and workforce barriers unique to geriatric mental healthcare services; 
and, in discussing possible alternative models of geriatric service 
delivery (such as medical homes, PACE programs, collaborative care 
models like those demonstrated in the IMPACT and PROSPECT studies), it 
should articulate the importance of integrating geriatric mental health 
services as intrinsic components. ``The Retooling the Health Care 
Workforce for an Aging America Act,'' S. 245/H.R. 46, contains a 
provision mandating this additional study.
    In discussions with AAGP, the senior staff of IOM suggested the 
following language for inclusion in the Labor, Health and Human 
Services, and Education, and Related Agencies appropriations bill:
    The subcommittee provides $1,000,000 for a study by the Institute 
of Medicine of the National Academy of Sciences to determine the multi-
disciplinary mental health workforce needed to serve older adults. The 
initiation of this study should be not later than 60 days after the 
date of enactment of this act, whereby the Secretary of Health and 
Human Services shall enter into a contract with the IOM to conduct a 
thorough analysis of the forces that shape the mental healthcare 
workforce for older adults, including education, training, modes of 
practice, and reimbursement.
Title VII Geriatric Health Professions Education Programs
    The Bureau of Health Professions in the HHS Health Resources and 
Services Administration (HRSA) administers programs aimed to help to 
assure adequate numbers of healthcare practitioners for the Nation's 
geriatric population, especially in underserved areas.
    The geriatric health professions program supports three important 
initiatives. The Geriatric Education Center (GEC) Program, within 
defined geographic areas, provides interdisciplinary training for 
healthcare professionals in assessment, chronic disease syndromes, care 
planning, emergency preparedness, and cultural competence unique to 
older Americans. The Geriatric Training for Physicians, Dentists, and 
Behavioral and Mental Health Professionals (GTPD Program) provides 
fellows with exposure to older adult patients in various levels of 
wellness and functioning and from a range of socioeconomic and racial/
ethnic backgrounds. The Geriatric Academic Career Awards (GACA) support 
the academic career development of geriatricians in junior faculty 
positions who are committed to teaching geriatrics in medical schools 
across the country. GACA recipients are required to provide training in 
clinical geriatrics, including the training of interdisciplinary teams 
of healthcare professionals. AAGP supports increased funding for these 
programs as a means to increase geriatric specialist healthcare 
providers.
    Specifically, AAGP supports expanding the number of GECs across the 
Nation; expanding GEC grants to offer mini-fellowships in geriatrics to 
faculty members of health professions schools in all disciplines; 
enhancing GACA awards to support and retain clinician educators from a 
variety of disciplines as they advance in their careers; and providing 
full funding for the National Center for Workforce Analysis to analyze 
current and projected needs for healthcare professionals and 
paraprofessionals in the long-term care sector.

 NATIONAL INSTITUTES OF HEALTH (NIH) AND NATIONAL INSTITUTE OF MENTAL 
                             HEALTH (NIMH)

    With the graying of the population, mental disorders of aging 
represent a growing crisis that will require a greater investment in 
research to understand age-related brain disorders and to develop new 
approaches to prevention and treatment. Even in the years in which 
funding was increased for NIH and the NIMH, these increases did not 
always translate into comparable increases in funding that specifically 
address problems of older adults. For instance, according to figures 
provided by NIMH, NIMH total aging research amounts decreased from 
$106,090,000 in 2002 to $85,164,000 in 2006 (dollars in thousands: 
$106,090 in 2002; $100,055 in 2003; $97,418 in 2004; $91,686 in 2005; 
and $85,164 in 2006).
    The critical disparity between federally funded research on mental 
health and aging and the projected mental health needs of older adults 
is continuing. If the mental health research budget for older adults is 
not substantially increased immediately, progress to reduce mental 
illness among the growing elderly population will be severely 
compromised. While many different types of mental and behavioral 
disorders occur in late life, they are not an inevitable part of the 
aging process, and continued and expanded research holds the promise of 
improving the mental health and quality of life for older Americans. 
This trend must be immediately reversed to ensure that our next 
generation of elders is able to access effective treatment for mental 
illness. Federal funding of research must be broad-based and should 
include basic, translational, clinical, and health services research on 
mental disorders in late life.
    As the NIMH utilizes the new funding from ``The American Recovery 
and Reinvestment Act of 2009,'' it is necessary that a portion of those 
funds be used to invest in the future evidence-based treatments for our 
Nation's elders. Beginning in fiscal year 2010, annual increases of 
funds targeted for geriatric mental health research at NIH should be 
used to: (1) identify the causes of age-related brain and mental 
disorders to prevent mental disorders before they devastate lives; (2) 
speed the search for effective treatments and efficient methods of 
treatment delivery; and (3) improve the quality of life for older 
adults with mental disorders.
Participation of Older Adults in Clinical Trials
    Federal approval for most new drugs is based on research 
demonstrating safety and efficacy in young and middle-aged adults. 
These studies typically exclude people who are old, who have more than 
one health problem, or who take multiple medications. As the population 
ages, that is the very profile of many people who seek treatment. Thus, 
there is little available scientific information on the safety of drugs 
approved by the Food and Drug Administration (FDA) in substantial 
numbers of older adults who are likely to take those drugs. Pivotal 
regulatory trials never address the special efficacy and safety 
concerns that arise specifically in the care of the nation's mentally 
ill elderly. This is a critical public health obligation of the 
nation's health agencies. Just as the FDA has begun to require 
inclusion of children in appropriate studies, the agency should work 
closely with the geriatric research community, healthcare consumers, 
pharmaceutical manufacturers, and other stakeholders to develop 
innovative, fair mechanisms to encourage the inclusion of older adults 
in clinical trials. Clinical research must also include elders from 
diverse ethnic and cultural groups. In addition, AAGP urges that 
Federal funds be made available each year for support of clinical 
trials involving older adults.
    As little emphasis has been placed on the development of new 
treatments for geriatric mental disorders, AAGP would encourage the NIH 
to promote the development of new medications specifically targeted at 
brain-based mental disorders of the elderly. AAGP urges this 
subcommittee to request a Government Accountability Office (GAO) study 
on spending by NIH on conditions and illnesses related to the mental 
health of older individuals. The NIH has already undertaken, in its 
Blueprint for Neuroscience Research, an endeavor to enhance cooperative 
activities among NIH Institutes and Centers that support research on 
the nervous system. A GAO study of the work being done by these 16 
Institutes in areas that predominately involve older adults could 
provide crucial insights into possible new areas of cooperative 
research, which in turn will lead to advances in prevention and 
treatment for these devastating illnesses.

                CENTER FOR MENTAL HEALTH SERVICES (CMHS)

    It is critical that there be adequate funding for the mental health 
initiatives under the jurisdiction of the CMHS within the Substance 
Abuse and Mental Health Services Administration (SAMHSA). While 
research is of critical importance to a better future, the patients of 
today must also receive appropriate treatment for their mental health 
problems. The final SAMHSA budgets for the last 8 years have included 
$5 million for evidence-based mental health outreach and treatment to 
the elderly. AAGP urges an increase in funding from $5 million to $20 
million for this essential program to disseminate and implement 
evidence-based practices in routine clinical settings across the 
States. Of that $20 million appropriation, AAGP believes that $10 
million should be allocated to a National Evidence-Based Practices 
Program, which will disseminate and implement evidence-based mental 
health practices for older persons in usual care settings in the 
community. This program will provide the foundation for a longer-term 
national effort that will have a direct effect on the well-being and 
mental health of older Americans.

                               CONCLUSION

    AAGP recommends:
  --An IOM study on the geriatric mental health workforce to examine 
        the access and workforce barriers unique to geriatric mental 
        healthcare services and, to articulate the importance of 
        integrating geriatric mental health services as intrinsic 
        components;
  --Increased funding for the geriatric health professions education 
        programs under title VII of the Public Health Service Act;
  --A GAO study on spending by NIH on conditions and illnesses related 
        to the mental health of older individuals.
  --Increased funding for evidence-based geriatric mental health 
        outreach and treatment programs at CMHS.
                                 ______
                                 
    Prepared Statement of the American Association of Immunologists

    The American Association of Immunologists (AAI), a not-for-profit 
professional society representing more than 6,000 of the world's 
leading experts on the immune system, appreciates having this 
opportunity to submit testimony regarding fiscal year 2010 
appropriations for the National Institutes of Health (NIH). The vast 
majority of AAI members--research scientists and physicians who work in 
academia, Government, and industry--depend on NIH funding to advance 
their work and the field of immunology.\1\ With approximately 83 
percent of NIH's approximately $29 billion budget awarded to scientists 
throughout the United States and around the world, NIH funding advances 
not only immunological and biomedical research, but also regional and 
national economies.\2\
---------------------------------------------------------------------------
    \1\ The majority of AAI members receive grants from the National 
Institute of Allergy and Infectious Diseases or the National Cancer 
Institute; some receive grants from the National Institute on Aging, 
the National Institute of Arthritis and Musculoskeletal and Skin 
Diseases, or other Institutes or Centers.
    \2\ NIH funding supports ``almost 50,000 competitive grants to more 
than 325,000 researchers at over 3,000 universities, medical schools, 
and other research institutions in every state and around the world.'' 
NIH Website: http://www.nih.gov/about/NIHoverview.html (April 28, 2009)
---------------------------------------------------------------------------
                 THE SCOPE AND IMPORTANCE OF IMMUNOLOGY

    From infectious diseases including influenza, HIV/AIDS, malaria, 
smallpox, and the common cold, to chronic diseases like cancer, 
diabetes, rheumatoid arthritis, asthma, and lupus, the immune system 
plays a central role in human and animal health.\3\ Whether protecting 
the body from disease--or causing it (as in the case of autoimmune 
disease or the rejection of transplanted organs) \4\--the immune system 
is critical to maintaining individual human life and pivotal to 
community and global public health.\5\ Prevention, treatments, and 
cures depend on our understanding of a scientific field that is 
relatively new: although the first vaccine was developed in 1798 (to 
protect against smallpox), most of our basic understanding of the 
immune system has developed in the past 30-40 years, making immunology 
ripe for the many new discoveries that are unfolding every day. 
Emerging areas in immunology involve understanding the immune response 
to environmental threats, to pathogens that threaten to become the next 
pandemic, and to manmade and natural infectious organisms that are 
potential agents of bioterrorism (including plague, smallpox, and 
anthrax). For all of these urgent needs, basic research on the immune 
system provides a crucial foundation for the development of 
diagnostics, vaccines, and therapeutics.
---------------------------------------------------------------------------
    \3\ Research on the immune system is also of enormous benefit to 
pets and livestock.
    \4\ The immune system works by recognizing and attacking ``foreign 
invaders'' (e.g., bacteria and viruses) inside the body and by 
controlling the growth of tumor cells. A healthy immune system can 
protect its human or animal host from illness or disease either 
entirely--by attacking and destroying the virus, bacterium, or tumor 
cell--or partially, resulting in a less serious illness. It is also 
responsible for the rejection responses observed following 
transplantation of organs or bone marrow. The immune system can 
malfunction, causing the body to attack itself, resulting in an 
``autoimmune'' disease, such as Type 1 diabetes, multiple sclerosis, or 
rheumatoid arthritis.
    \5\ NIH funds research ``on `neglected infectious diseases' such as 
malaria, tuberculosis, and a host of tropical diseases--diseases that 
are most prevalent in low-income countries, and that are insufficiently 
researched by the drug industry.'' Testimony of Ron Pollack, Executive 
Director, Families USA, before the House Energy and Commerce 
Subcommittee on Health, hearing on ``Treatments for an Ailing Economy: 
Protecting Health Care Coverage and Investing in Biomedical Research,'' 
November 13, 2008, page 4.
---------------------------------------------------------------------------
                    RECENT IMMUNOLOGICAL DISCOVERIES

    Immunologists are making significant advances in the development of 
treatments and vaccines against pernicious viruses such as influenza 
strains and HIV. Recently, commonalities were identified among the 
viruses causing seasonal flu, avian flu, and the 1918 pandemic flu, 
indicating that some of the antibodies will react against all these 
strains. Such antibodies could be developed for therapeutic use in the 
case of a flu outbreak. In studies on HIV, immunologists have also 
identified a unique small antibody fragment that is able to stop a 
broad range of HIV strains from entering their target cells. This 
offers hope for a therapy against HIV, which mutates too quickly to be 
responsive to most traditional vaccine strategies.
    An explosion of research has followed the major recent discovery of 
the central role of the inflammasome in immunity. Inflammasomes are 
broadly important molecular complexes within cells that sense 
infections, environmental pollutants, and other ``danger'' signals and 
control the activation of the pro-inflammatory, hormone-like molecules 
interleukin-1 and interleukin-18. Although it may help protect against 
infection, inflammasome-induced interleukin-1 has also been found to be 
a key ``offender'' in many inflammatory and autoimmune diseases. 
Inhibitors of these inflammatory molecules have already demonstrated 
significant clinical efficacy in autoimmune diseases, gout, and 
inherited periodic fever syndromes and are being investigated in other 
illnesses given the potential of the inflammasome to be relevant to 
almost any type of disease.
    Immunologists have made important progress against the increasing 
prevalence of childhood peanut allergies by developing a mouse model 
that is being used to study the basis of this allergy. They have also 
identified a possible treatment course that might reverse the resulting 
potentially life-threatening anaphylaxis.
    Immunologists are also focusing research efforts in the area of 
cancer vaccines. Novel delivery strategies, to effectively present 
tumor antigens or portions of the tumors themselves, have allowed the 
redirection of the immune system to attack cancerous cells within the 
body. Other strategies that manipulate molecules (including the 
inhibitory receptor CTLA4) on immune cells have shown remarkable 
clinical promise for melanoma and prostate cancer. In addition, our 
understanding of how tumors evade and suppress immunity is evolving, 
providing new options for therapy, such as altering the function of T-
regulatory cells, which normally suppress immunity and thereby promote 
tumor growth.
    Immunologists have also made significant progress in understanding 
autoimmune disease by discovering that furin, a catalytic enzyme, 
prevents some forms of systemic autoimmunity. Scientists have found 
that mice lacking this enzyme had overactive effector T cells as well 
as suppressive T cells with impaired activity, a key finding which may 
lead to treatment of autoimmune disease without suppressing basic 
immunity.

            THE NIH BUDGET: GREAT PROMISE--AND GRAVE DANGER

    AAI is very grateful to this subcommittee and the Congress for 
doubling the NIH budget from fiscal year 1999 to fiscal year 2003 and 
for addressing the extremely serious problem caused by post-doubling 
subinflationary budget increases through passage of both The American 
Recovery and Reinvestment Act of 2009 (ARRA), which provided $10.4 
billion to NIH, and the fiscal year 2009 Appropriations Act, which 
provided a 3.2 percent ($938 million) budget increase more than fiscal 
year 2008. NIH is now in the extraordinary position of being able to 
fund many worthy projects that had been denied funding, to invest in 
modernizing and enhancing the Nation's research infrastructure, and to 
support scientific and administrative jobs that are crucial to the 
scientific enterprise. This infusion of funds, together with the 
exceptional commitment to advancing scientific research articulated by 
President Obama, is also giving our brightest young students the 
confidence and desire to pursue careers in biomedical research, a 
crucial factor in helping research advances today become cures 
tomorrow.
    Passage of ARRA acknowledged the multi-faceted impact of investing 
in biomedical research and the NIH: improving individual and global 
health, and stimulating local and national economic activity and job 
creation. NIH has estimated that each NIH grant supports on average, 
``6 to 7 in-part or full scientific jobs.'' \6\ Families USA, a not-
for-profit consumer advocacy organization, has reported that (1) on 
average, each $1 of NIH funding going into a State generates more than 
twice as much in State economic output, and (2) in fiscal year 2007, 
NIH funding created and supported more than 350,000 jobs that generated 
wages in excess of $18 billion, with an average wage of $52,000 (nearly 
25 percent higher than the average U.S. wage).\7\
---------------------------------------------------------------------------
    \6\ Testimony of Raynard S. Kington, M.D., Ph.D., Acting Director, 
National Institutes of Health, Witness appearing before the House 
Subcommittee on Labor, Health and Human Services, and Education, and 
Related Agencies Appropriations Subcommittee, March 26, 2009. Dr. 
Kington was citing the NIH report: ``Estimating the Number of Senior/
Key Personnel Engaged in NIH Supported Research,'' study issued October 
2008.
    \7\ ``In Your Own Backyard: How NIH Funding Helps Your State's 
Economy,'' Families USA, (June 2008). The report cited numerous 
economic benefits of NIH funding, including: (1) The amount of new 
business activity generated ranged from $8.39 billion in California to 
$13 million in Wyoming; (2) In 14 States, NIH funding generated more 
than $1 billion in new business activity; 3) In 10 States, each $1 of 
NIH funding generated at least $2.26 in economic activity; and (4) In 6 
States, more than 20,000 new jobs were created.
---------------------------------------------------------------------------
    While AAI--and the entire biomedical research community--is deeply 
grateful for ARRA's tremendous influx of funds and support, some of the 
constraints accompanying the ARRA funding (i.e., that the funds must be 
obligated by the end of fiscal year 2010 and must be used for immediate 
economic impact, including creating jobs) are somewhat inconsistent 
with the longer view and nature of science and the strong need for 
reliable, sustained funding. Although significant advances can be made 
in 2 years, few projects can be completed in that time. As such, AAI 
looks ahead with concern to future years, when advances poised to be 
made may not come to fruition should ARRA funds end without adequate 
regular appropriations to cushion the reduction. AAI's appropriations 
recommendations for fiscal year 2010 (and ultimately for 2011, though 
not offered here), are premised on that concern and designed to address 
that future.

    AAI RECOMMENDS A 7 PERCENT BUDGET INCREASE FOR FISCAL YEAR 2010

    AAI urges the subcommittee to increase the NIH budget by 7 percent 
in fiscal year 2010. Such an increase would help ensure that research 
and jobs supported by ARRA funds are not lost, and that ongoing 
research would be on track to reach its full potential even after the 
ARRA funding is spent. A 7 percent budget increase would also put NIH 
on the path that most scientists have long sought and urgently need: a 
path of predictable, sustained funding that stabilizes ongoing research 
projects and the overall research enterprise.
    AAI also supports President Obama's request for an additional $1.5 
billion to specifically address recent developments regarding the 
emergent H1N1 (swine) influenza virus. This is an important investment 
in pandemic preparedness, whether that pandemic proves to be influenza 
or a pathogen not yet predicted.

                            OTHER KEY ISSUES

    Seasonal Influenza and Pandemics.--Seasonal influenza leads to an 
average of more than 200,000 hospitalizations and about 36,000 deaths 
nationwide annually. An influenza pandemic could occur at any time; a 
pandemic as serious as the 1918 pandemic could result in the illness of 
almost 90 million Americans and the death of more than 2 million.\8\ 
While researchers and public health professionals must respond to 
emergent threats (such as the current concern related to the H1/N1 flu 
virus), AAI believes that the best preparation for a pandemic is to 
focus on basic research to combat seasonal flu, including building 
capacity, pursuing new production methods (cell based), and seeking 
optimized flu vaccines and delivery methods.
---------------------------------------------------------------------------
    \8\ A report issued by Trust for America's Health (``Pandemic Flu 
and the Potential for U.S. Economic Recession'') predicted that a 
severe pandemic flu outbreak could result in the second worst recession 
in the United States since World War II, resulting in a projected cost 
of $683 billion. (March 2007)
---------------------------------------------------------------------------
    Bioterrorism.--To best protect against bioterrorism, scientists 
should focus on basic research, including working to understand the 
immune response, identifying new and potentially modified pathogens, 
and developing tools (including new and more potent vaccines) to 
protect against these pathogens.
    The NIH ``Common Fund''.--The NIH Reform Act of 2006 established 
within NIH a ``Common Fund'' (CF) to support trans-NIH initiatives. 
Although AAI recognizes the value of interdisciplinary research, the 
existence of the CF should not permit the funding of lesser quality 
research. Instead, all CF applications should be subject to a 
transparent and rigorous peer-review process like all other funded 
research grant applications. In addition, AAI recommends that the CF 
not grow faster than the overall NIH budget.
    The NIH Public Access Policy (``Policy'').--AAI continues to 
believe that the Policy will duplicate, at great cost to NIH and to 
taxpayers, publications and services which are already provided cost-
effectively and well by the private sector. Therefore, AAI respectfully 
requests that the subcommittee require that NIH publicly report on the 
cost to date of implementing the Policy (both voluntary and mandatory), 
and projected future costs (including all personnel, administrative, 
infrastructure and enforcement costs) incurred by the various NIH 
Institutes, Centers, and Offices involved.
    Preserving High-quality Peer Review.--NIH's recent completion of 
its ``Peer Review Self-Study'' has resulted in the adoption and 
implementation of numerous changes to its internationally respected and 
highly successful peer review system. While AAI applauds this effort to 
address some legitimate problems with the system, AAI urges that NIH be 
required to conduct timely and transparent evaluation of all pilot 
projects and permanent changes, and provide ample opportunity for 
public comment.
    Ensuring NIH Operations and Oversight.--AAI urges the subcommittee 
to ensure adequate funding for the NIH Research, Management, and 
Services (RM&S) account, which supports the management, monitoring, and 
oversight of all research activities. Particularly with the infusion 
and rapid dissemination of ARRA funds, NIH must be able to properly 
supervise and oversee its increasingly large and complex portfolio.

                               CONCLUSION

    AAI greatly appreciates this opportunity to submit testimony and 
thanks the Chairman and members of the subcommittee for their strong 
support for biomedical research, the NIH, and the scientists who devote 
their lives to preventing, treating, and curing disease.
                                 ______
                                 
  Prepared Statement of the American Association of Nurse Anesthetists

                                 FISCAL YEAR 2010 APPROPRIATIONS REQUEST SUMMARY
                                             [Dollars in thousands]
----------------------------------------------------------------------------------------------------------------
                                                                                          AANA fiscal year 2010
                                       Fiscal year 2009 actual  Fiscal year 2010 budget          request
----------------------------------------------------------------------------------------------------------------
HHS /HRSA /BHPr Title VIII Advanced    Awaiting grant           Grant allocations not    $4,000 for nurse
 Education Nursing, Nurse Anesthetist   allocations--in fiscal   specified.               anesthesia education
 Education Reserve.                     year 2008 awards
                                        amounted to
                                        approximately $3,500.
Total for Advanced Education Nursing,  $64.44 for Advanced      $64.44 for Advanced      $79.55 for Advanced
 from Title VIII.                       Education Nursing.       Education Nursing.       Education Nursing
Title VIII HRSA BHPr Nursing           $171,031...............  $263,403...............  $263,403
 Education Programs.
----------------------------------------------------------------------------------------------------------------

    The AANA is the professional association for more than 40,000 
Certified Registered Nurse Anesthetists (CRNAs) and student nurse 
anesthetists, representing more than 90 percent of the nurse 
anesthetists in the United States. Today, CRNAs are directly involved 
in delivering 30 million anesthetics given to patients each year in the 
United States. CRNA services include administering the anesthetic, 
monitoring the patient's vital signs, staying with the patient 
throughout the surgery, and providing acute and chronic pain management 
services. CRNAs provide anesthesia for a wide variety of surgical 
cases, and in some States are the sole anesthesia providers in almost 
100 percent of rural hospitals, affording these medical facilities 
obstetrical, surgical, and trauma stabilization, and pain management 
capabilities. CRNAs work in every setting in which anesthesia is 
delivered, including hospital surgical suites and obstetrical delivery 
rooms, ambulatory surgical centers (ASCs), pain management units, and 
the offices of dentists, podiatrists and plastic surgeons.
    Nurse anesthetists are experienced and highly trained anesthesia 
professionals whose record of patient safety in the field of anesthesia 
was bolstered by the Institute of Medicine report in 2000, which found 
that anesthesia is 50 times safer than 20 years previous. (Kohn L, 
Corrigan J, Donaldson M, Ed. To Err is Human. Institute of Medicine, 
National Academy Press, Washington DC, 2000.) Nurse anesthetists 
continue to set for themselves the most rigorous continuing education 
and re-certification requirements in the field of anesthesia. Relative 
anesthesia patient safety outcomes are comparable among nurse 
anesthetists and anesthesiologists, with Pine having concluded, ``the 
type of anesthesia provider does not affect inpatient surgical 
mortality.'' (Pine, Michael MD et al. ``Surgical mortality and type of 
anesthesia provider.'' Journal of American Association of Nurse 
Anesthetists. Vol. 71, No. 2, p. 109-116. April 2003.)
    Even more recently, a study published in Nursing Research indicates 
that obstetrical anesthesia, whether provided by Certified Registered 
Nurse Anesthetists (CRNAs) or anesthesiologists, is extremely safe, and 
there is no difference in safety between hospitals that use only CRNAs 
compared with those that use only anesthesiologists. (Simonson, Daniel 
C et al. ``Anesthesia Staffing and Anesthetic Complications During 
Cesarean Delivery: A Retrospective Analysis.'' Nursing Research, Vol. 
56, No. 1, pp. 9-17. January/February 2007). In addition, a recent AANA 
workforce study showed that CRNAs and anesthesiologists are substitutes 
in the production of surgeries, and it is important to note that 
through continual improvements in research, education, and practice, 
nurse anesthetists are vigilant in their efforts to ensure patient 
safety.
    CRNAs provide the lion's share of anesthesia care required by our 
U.S. Armed Forces through active duty and the reserves. In May 2003 at 
the beginning of ``Operation Iraqi Freedom,'' 364 CRNAs were deployed 
to the Middle East to ensure military medical readiness capabilities. 
For decades, CRNAs have staffed ships, remote U.S. military bases, and 
forward surgical teams without physician anesthesiologist support. In 
addition, CRNAs predominate in rural and medically underserved areas 
and areas where more Medicare patients live. A recent analysis of the 
nurse anesthesia workforce, indicates that in 2006, 38 percent of nurse 
anesthesia graduates went to work in a Medically Underserved Area or 
for a Medically Underserved Population.

      IMPORTANCE OF TITLE VIII NURSE ANESTHESIA EDUCATION FUNDING

    The nurse anesthesia profession's chief request of the subcommittee 
is for $4 million to be reserved for nurse anesthesia education and 
$79.55 million for advanced education nursing from the title VIII 
program. We feel that this funding request is well justified, as we are 
seeing a vacancy rate of nurse anesthetists in the United States that 
is impacting the public's access to healthcare. The title VIII program, 
which has been strongly supported by members of this subcommittee in 
the past, is an effective means to help address the nurse anesthesia 
workforce demand.
    Increasing funding for advanced education nursing from $64.44 
million to $79.55 million is necessary to meet the continuing demand 
for nursing faculty and other advanced education nursing services 
throughout the United States. The program provides for competitive 
grants that help enhance advanced nursing education and practice and 
traineeships for individuals in advanced nursing education programs. 
This funding is critical to meet the nursing workforce needs of 
Americans who require healthcare. In fact, this funding not only seeks 
to increase the number of providers in rural and underserved America 
but also prepares providers at the master's and doctoral levels, 
increasing the number of clinicians who are eligible to serve as 
faculty.
    The CRNA workforce is seeing a shortage in the clinical and 
educational setting. In 2007, an AANA nurse anesthesia workforce study 
found a 12.6 percent vacancy rate in hospitals for CRNAs, and a 12.5 
percent faculty vacancy rate. The supply of clinical providers has 
increased in recent years, stimulated by increases in the number of 
CRNAs trained. Between 2000-2008, the number of nurse anesthesia 
educational program graduates doubled, with the Council on 
Certification of Nurse Anesthetists (CCNA) reporting 1,075 graduates in 
2000 and 2,158 graduates in 2008. This growth is expected to continue. 
However, it is important to note that even though the number of 
graduates has doubled in 8 years, the nurse anesthetist vacancy rate 
remained steady at around 12 percent, which is likely due to increased 
demand for anesthesia services as the population ages, growth in the 
number of clinical sites requiring anesthesia services, and CRNA 
retirements.
    The problem is not that our 108 accredited programs of nurse 
anesthesia are failing to attract qualified applicants. It is that they 
have to turn them away by the hundreds. The capacity of nurse 
anesthesia educational programs to educate qualified applicants is 
limited by the number of faculty, the number and characteristics of 
clinical practice educational sites, and other factors. A qualified 
applicant to a CRNA program is a bachelor's educated registered nurse 
who has spent at least 1 year serving in an acute care healthcare 
practice environment. Nurse anesthesia educational programs are located 
all across the country, including Alabama, Arkansas, Iowa, Illinois, 
Louisiana, Pennsylvania, Rhode Island, Tennessee, Texas, Washington, 
and Wisconsin.
    Recognizing the important role nurse anesthetists play in providing 
quality healthcare, the AANA has been working with the 108 accredited 
nurse anesthesia educational programs to increase the number of 
qualified graduates. In addition, the AANA has worked with nursing and 
allied health deans to develop new CRNA programs.
    To truly meet the nurse anesthesia workforce challenge, the 
capacity and number of CRNA schools must continue to grow. With the 
help of competitively awarded grants supported by title VIII funding, 
the nurse anesthesia profession is making significant progress, 
expanding both the number of clinical practice sites and the number of 
graduates.
    The AANA is pleased to report that this progress is extremely cost-
effective from the standpoint of Federal funding. Anesthesia can be 
provided by nurse anesthetists, physician anesthesiologists, or by 
CRNAs and anesthesiologists working together. As mentioned earlier, the 
study by Pine et al confirms, ``the type of anesthesia provider does 
not affect inpatient surgical mortality.'' Yet, for what it costs to 
educate one anesthesiologist, several CRNAs may be educated to provide 
the same service with the same optimum level of safety. Nurse 
anesthesia education represents a significant educational cost-benefit 
for supporting CRNA educational programs with Federal dollars vs. 
supporting other, more costly, models of anesthesia education.
    To further demonstrate the effectiveness of the title VIII 
investment in nurse anesthesia education, the AANA surveyed its CRNA 
program directors in 2003 to gauge the impact of the title VIII 
funding. Of the 11 schools that had reported receiving competitive 
Title VIII Nurse Education and Practice Grants funding from 1998 to 
2003, the programs indicated an average increase of at least 15 CRNAs 
graduated per year. They also reported on average more than doubling 
their number of graduates. Moreover, they reported producing additional 
CRNAs that went to serve in rural or medically underserved areas.
    We believe it is important for the subcommittee to allocate $4 
million for nurse anesthesia education for several reasons. First, as 
this testimony has documented, the funding is cost-effective and 
needed. Second, the title VIII authorization previously providing such 
a reserve expired in September 2002. Third, this particular funding is 
important because nurse anesthesia for rural and medically underserved 
America is not affected by increases in the budget for the National 
Health Service Corps and community health centers, since those 
initiatives are for delivering primary and not surgical healthcare. 
Lastly, this funding meets an overall objective to increase access to 
quality healthcare in medically underserved America.

       TITLE VIII FUNDING FOR STRENGTHENING THE NURSING WORKFORCE

    The AANA joins a growing coalition of nursing organizations, 
including the Americans for Nursing Shortage Relief (ANSR) Alliance and 
representatives of the nursing community, and others in support of the 
subcommittee providing a total of $263 million in fiscal year 2010 for 
nursing shortage relief through title VIII. This amount is the same as 
the President's request for 2010. However, AANA asks that of the $263 
million, $79.55 million go to Advanced Education Nursing to help 
increase clinicians in underserved communities and those eligible to 
serve as faculty. The AANA appreciates the support for nurse education 
funding in fiscal year 2009 and past fiscal years from this 
subcommittee and from the Congress.
    In the interest of patients past and present, particularly those in 
rural and medically underserved parts of this country, we ask Congress 
to invest in CRNA and nursing educational funding programs and to 
provide these programs the sustained increases required to help ensure 
Americans get the healthcare that they need and deserve. Quality 
anesthesia care provided by CRNAs saves lives, promotes quality of 
life, and makes fiscal sense. This Federal support for title VIII and 
advanced education nurses will improve patient access to quality 
services and strengthen the Nation's healthcare delivery system.

                        SAFE INJECTION PRACTICES

    Last, as a leader in patient safety, the AANA has been playing a 
vigorous role in the development and projects of the Safe Injection 
Practices Coalition, intended to reduce and eventually eliminate the 
incidence of healthcare facility acquired infections. In the interest 
of promoting safe injection practice, and reducing the incidence of 
healthcare facility acquired infections, we recommend the subcommittee 
provide the following appropriations for fiscal year 2010:
  --Centers for Disease Control and Prevention.--$9 million for 
        provider education and patient awareness activities; $8 million 
        to promote private-sector healthcare solutions to injection 
        safety and infection control problems; $9 million for detection 
        and tracking in order to enable States to investigate outbreaks 
        of hepatitis and other potential pathogens related to injection 
        safety.
  --Agency for Healthcare Research and Quality (AHRQ).--$10 million in 
        general patient safety funds for the AHRQ's Ambulatory Patient 
        Safety Program.
  --Department of Health and Human Services.--$1 million to expand its 
        current focus for reducing HAIs from hospitals to all 
        healthcare settings, including outpatient facilities.
                                 ______
                                 
      Prepared Statement of the American Academy of Ophthalmology

                           EXECUTIVE SUMMARY

    The American Academy of Ophthalmology (AAO) requests a fiscal year 
2010 National Institutes of Health (NIH) funding increase of at least 7 
percent, to a level of $32.4 billion, which represents a modest 3 
percent increase plus the biomedical inflation rate, estimated at 3.8 
percent in fiscal year 2009. This increase is necessary to keep pace 
with inflation and rebuild the base, since NIH has lost 14 percent of 
its purchasing power during the past six funding cycles. AAO commends 
the congressional leadership's actions in fiscal year 2008 and 2009 to 
increase NIH funding, including the $150 million in the fiscal year 
2008 supplemental dedicated to investigator-initiated grants, the $10.4 
billion in 2-year stimulus NIH funding within the American Recovery and 
Reinvestment Act (ARRA), and the final fiscal year 2009 appropriations 
inflationary increase of 3.2 percent. However, NIH needs sustained and 
predictable funding to rebuild its base and support multi-year, 
investigator-initiated research, which is the cornerstone of the 
biomedical enterprise. Annual increases of at least 7 percent put NIH 
on a pathway to budget-doubling within the next 10 years. Secure and 
consistent funding for biomedical research is integral to the Nation's 
economic and global competitiveness. NIH is a world-leading institution 
that must be adequately funded so that its research can reduce 
healthcare costs, increase productivity, and save and improve the 
quality of lives.
    AAO requests that Congress make vision health a top priority by 
increasing National Eye Institute (NEI) funding by at least 7 percent, 
to a level of $736 million, in this year that NEI celebrates its 40th 
anniversary. Over the past 6 funding cycles, NEI lost 18 percent of its 
purchasing power. Despite funding challenges, NEI has maintained its 
impressive record of breakthroughs in basic and clinical research that 
have resulted in treatments and therapies to save and restore vision 
and prevent eye disease. NEI will be challenged further, as 2010 begins 
the decade in which more than half of the 78 million Baby Boomers will 
turn 65 and be at greatest risk for aging eye disease. Adequately 
funding the NEI is a cost-effective investment in our Nation's health, 
as it can delay, save, and prevent expenditures, especially to the 
Medicare and Medicaid programs.
    Fiscal year 2010 funding at $736 million enables NEI to expand its 
impressive record of basic and clinical collaborative research that has 
resulted in treatments and therapies to save and restore vision.
    NEI continues to be a leader in basic research--especially that 
which elucidates the genetic basis of ocular disease--and in 
translational research, as those gene discoveries can lead to 
development of diagnostics and treatments. NEI Director Paul Sieving, 
M.D., Ph.D., has reported that one-quarter of all genes identified to 
date through NEI's collaboration with the National Human Genome 
Research Institute (NHGRI) are associated with eye disease/visual 
impairment. Recent examples include:
  --In 2005, NEI reported that gene variants of Complement Factor H 
        (CFH), the protein product of which is engaged in the control 
        of the body's immune response, are associated with increased 
        risk of developing age-related macular degeneration (AMD), the 
        leading cause of vision loss. NEI-funded researchers are now 
        working on potential therapies, including the manufacture and 
        use of a protective version of the CFH protein in an 
        augmentation strategy similar to that of treating diabetes with 
        insulin. This therapy is under development and expected to 
        enter Phase I clinical safety trials in summer 2009.
  --In March 2008, NEI-funded researchers announced that damage from 
        both AMD and diabetic retinopathy was prevented and even 
        reversed when the protein Robo4 was activated in mouse models 
        that simulate the two diseases. Robo4 treated and prevented the 
        diseases by inhibiting abnormal blood vessel growth and by 
        stabilizing blood vessels to prevent leakage. Since this 
        research into the ``Robo4 Pathway'' used animal models 
        associated with these diseases that are already used in drug 
        development, the time required to test this approach in humans 
        could be shortened, expediting approvals for new therapies
  --In late April 2008, researchers funded by the NEI and private 
        funding organization Foundation Fighting Blindness reported on 
        their use of gene therapy to restore vision in young adults who 
        were virtually blind from a severe form of the 
        neurodegenerative disease Retinitis Pigmentosa, known as Leber 
        Congenital Amaurosis (LCA). Seven years earlier, the 
        researchers shared on Capitol Hill results of a preclinical 
        study of the same gene therapy, which at the time was 
        successfully giving vision to dogs born blind with LCA. The 
        subsequent human gene therapy trial validated the process of 
        putting genes in the body to restore vision. Although the 
        primary goal of the Phase I study was to ensure patient safety, 
        the researchers reported through both objective and subjective 
        testing that the patients were able to read several additional 
        lines on an eye chart, had better peripheral vision, and better 
        eyesight in dimly lit settings. In further research, the 
        investigators will treat LCA patients as young as 8 years old, 
        since they believe the most dramatic results will be seen in 
        young children.
  --In late 2008, NEI initiated its new NEI Glaucoma Human genetics 
        collaBORation, known as NEIGHBOR, through which seven U.S. 
        research teams will lead genetic studies of the disease. 
        Glaucoma is called the ``stealth robber of vision'' as it often 
        has no symptoms until vision is lost, and anywhere from 50-75 
        percent of individuals with it are undiagnosed. It is also the 
        leading cause of preventable vision loss in African American 
        and Hispanic populations, which emphasizes the vital nature of 
        determining the genetic basis of this disease.
    Fiscal year 2010 funding at $736 million enables NEI to fully fund 
new initiatives that more fully characterize eye disease.
    NEI has been a leader in collaborative research, the use of 
networks to study diagnostics and treatments and their use in clinical 
settings, and in ocular epidemiology to characterize the nature and 
frequency of eye disease in diverse populations to better manage public 
health. In fiscal year 2008, NEI reported on/launched the initial phase 
of three important new programs to characterize eye disease requiring 
adequate future funding.
  --In early 2009, the NEI and the National Aeronautics and Space 
        Administration (NASA) reported on the use of a compact fiber 
        optic probe developed for the space program that has proven 
        valuable as the first non-invasive early detection device for 
        cataracts, the leading cause of vision loss worldwide. Using a 
        laser light technique called dynamic light scattering (DLS), 
        which was developed to analyze the growth of protein crystals 
        in a zero-gravity environment, the probe measures the amount of 
        light scattering by an anti-cataract protein called alpha-
        crystallin. The probe senses protein damage due to oxidative 
        stress, a key process involved in many medical conditions 
        including age-related cataract and diabetes, as well as 
        Alzheimer's and Parkinson's disease.
  --In late 2008, NEI launched a new research network, the Neuro-
        Ophthalmology Research Disease Investigator Consortium, or 
        NORDIC. It will initially lead multi-site observational and 
        treatment trials, involving nearly 200 community and academic 
        practitioners, to address the risks, diagnosis, and treatment 
        of two ``rare'' diseases: idiopathic intracranial hypertension 
        (visual dysfunction due to increased intracranial pressure) and 
        thyroid eye disease (also called Graves' disease, in which 
        muscles of the eye enlarge and cause bulging of the eyes, 
        retraction of the lids, double vision, decreased vision, and 
        irritation). The NEI and NORDIC's Principal Investigator have 
        already begun coordinating with the Department of Defense's 
        (DOD) newly established Vision Center of Excellence (VCE) about 
        the applicability of NORDIC research to combat-related eye 
        injuries, especially those associated with Traumatic Brain 
        Injury (TBI).
  --There is currently almost no information on the prevalence, risk 
        factors, and genetic determinants in Asian Americans--one of 
        the fastest growing racial groups in the United States. Studies 
        from East Asia have suggested that Asians have a spectrum of 
        eye diseases different from that of White Americans, African 
        Americans, and Hispanics. In late 2008, NEI launched the 
        Chinese American Eye Study to characterize the extent of eye 
        disease in Chinese Americans, the largest Asian subgroup in the 
        United States. Participants 50 years and older will be 
        evaluated for blindness, visual impairment, and eye disease. 
        These results will add to the expanding body of knowledge about 
        vision health disparities already characterized by NEI in the 
        African-American and Hispanic populations.
    Vision impairment/eye disease is a major public health problem that 
increases healthcare costs, reduces productivity, and diminishes 
quality of life.
    The NEI estimates that more than 38 million Americans age 40 and 
older experience blindness, low vision, or an age-related eye disease 
such as AMD, glaucoma, diabetic retinopathy, or cataracts. This is 
expected to grow to more than 50 million Americans by year 2020. The 
economic and societal impact of eye disease is increasing not only due 
to the aging population, but to its disproportionate incidence in 
minority populations and as a co-morbid condition of chronic disease, 
such as diabetes.
    Although the NEI estimates that the current annual cost of vision 
impairment and eye disease to the United States is $68 billion, this 
number does not fully quantify the impact of direct healthcare costs, 
lost productivity, reduced independence, diminished quality of life, 
increased depression, and accelerated mortality. The continuum of 
vision loss presents a major public health problem and financial 
challenge to the public and private sectors.
  --In public opinion polls over the past 40 years, Americans have 
        consistently identified fear of vision loss as second only to 
        fear of cancer. As recently as March 2008, the NEI's Survey of 
        Public Knowledge, Attitudes, and Practices Related to Eye 
        Health and Disease reported that 71 percent of respondents 
        indicated that a loss of their eyesight would rate as a ``10'' 
        on a scale of 1 to 10, meaning that it would have the greatest 
        impact on their day-to-day life.
    In 2009, the NEI will celebrate its 40th anniversary as the NIH 
Institute that leads the Nation's commitment to save and restore 
vision. During the next decade, more than half of the 78 million Baby 
Boomers will celebrate their 65th birthday and be at greatest risk for 
developing aging eye disease. As a result, sustained, adequate Federal 
funding for the NEI is an especially vital investment in the health, 
and vision health, of our Nation as the treatments and therapies 
emerging from research can preserve and restore vision. Adequately 
funding the NEI can also delay, save, and prevent health expenditures, 
especially those associated with the Medicare and Medicaid programs, 
and is, therefore, a cost-effective investment.
    AAO urges fiscal year 2010 NIH and NEI funding at $32.4 billion and 
$736 million, respectively, reflecting an at-least 7 percent increase 
more than fiscal year 2009.

                               ABOUT AAO

    The American Academy of Ophthalmology is a 501c(6) educational 
membership association. AAO is the largest national membership 
association of eye M.D.s with more than 27,000 members, more than 
17,000 of which are in active practice in the United States. Eye M.D.s 
are ophthalmologists, medical, and osteopathic doctors who provide 
comprehensive eye care, including medical, surgical and optical care. 
More than 90 percent of practicing U.S. eye M.D.s are AAO members.
                                 ______
                                 
   Prepared Statement of the American Academy of Physician Assistants

    On behalf of the more than 75,000 clinically practicing physician 
assistants in the United States, the American Academy of Physician 
Assistants is pleased to submit comments on fiscal year 2010 
appropriations for Physician Assistant (PA) educational programs that 
are authorized through title VII of the Public Health Service Act.
    A member of the Health Professions and Nursing Education Coalition 
(HPNEC), the Academy supports the HPNEC recommendation to provide at 
least $300 million for title VII programs in fiscal year 2010, 
including a minimum of $7 million to support PA educational programs. 
This would fund the programs at the 2005 funding level, not accounting 
for inflation.
    AAPA recommends that Congress provide additional support to grow 
the PA primary care workforce through healthcare reform initiatives. A 
reformed healthcare system will require a much-expanded primary 
healthcare workforce, both in the private and public healthcare 
markets. For example, the National Association of Community Health 
Centers' March 2009 report, Primary Care Access: An Essential Building 
Block of Health Reform, predicts that in order to reach 30 million 
patients by 2015, health centers will need at least an additional 
15,585 primary care providers, just more than one-third of whom are 
nonphysician primary care professionals.
    The Academy believes that the recommended restoration in funding 
for title VII health professions programs is well justified.
    A review of PA graduates from 1990-2006 demonstrates that PAs who 
have graduated from PA educational programs supported by title VII are 
59 percent more likely to be from underrepresented minority populations 
and 46 percent more likely to work in a rural health clinic than 
graduates of programs that were not supported by title VII.
    A study by the UCSF Center for California Health Workforce Studies 
found a strong association between physician assistants exposed to 
title VII during their PA educational preparation and those who ever 
reported working in a federally qualified health center or other 
community health center.
    Title VII safety net programs are essential to the development and 
training of primary healthcare professionals and, in turn, provide 
increased access to care by promoting healthcare delivery in medically 
underserved communities. Title VII funding is especially important for 
PA programs as it is the only Federal funding available on a 
competitive application basis to these programs.
    The AAPA is very appreciative of the recent funding increases, for 
the title VII Health Professions Programs, in the fiscal year 2009 
omnibus appropriations bill (Public Law 111-8), which appropriated 
$221.7 million, a 14.3 percent increase, more than fiscal year 2008 and 
the American Recovery and Reinvestment Act (Public Law 111-5), which 
invested $200 million in expanding title VII Health Professions 
Programs. However, the AAPA believes that these recent investments only 
begin to rectify the chronic underfunding of these programs and address 
existing and looming shortages of health professionals, especially 
physician assistants. According to HRSA, an additional 30,000 health 
practitioners are needed to alleviate existing health professional 
shortages.
    We wish to thank the members of this subcommittee for your 
historical role in supporting funding for the health professions 
programs, and we hope that we can count on your support to restore 
funding to these important programs in fiscal year 2010 to the fiscal 
year 2005 funding level.

               OVERVIEW OF PHYSICIAN ASSISTANT EDUCATION

    Physician assistant programs train students to practice medicine 
with physician supervision. PA programs are located within schools of 
medicine or health sciences, universities, teaching hospitals, and the 
Armed Services. All PA educational programs are accredited by the 
Accreditation Review Commission on Education for the Physician 
Assistant.
    The typical PA program consists of 26 months of instruction, and 
the typical student has a bachelor's degree and about 4 years of prior 
healthcare experience. The first phase of the program consists of 
intensive classroom and laboratory study. More than 400 hours in 
classroom and laboratory instruction are devoted to the basic sciences, 
with more than 75 hours in pharmacology, approximately 175 hours in 
behavioral sciences, and almost 580 hours of clinical medicine.
    The second year of PA education consists of clinical rotations. On 
average, students devote more than 2,000 hours, or 50-55 weeks, to 
clinical education, divided between primary care medicine--family 
medicine, internal medicine, pediatrics, and obstetrics and 
gynecology--and various specialties, including surgery and surgical 
specialties, internal medicine subspecialties, emergency medicine, and 
psychiatry. During clinical rotations, PA students work directly under 
the supervision of physician preceptors, participating in the full 
range of patient care activities, including patient assessment and 
diagnosis, development of treatment plans, patient education, and 
counseling.
    After graduation from an accredited PA program, physician 
assistants must pass a national certifying examination developed by the 
National Commission on Certification of Physician Assistants. To 
maintain certification, PAs must log 100 continuing medical education 
hours every 2 years, and they must take a recertification exam every 6 
years.

                      PHYSICIAN ASSISTANT PRACTICE

    Physician assistants are licensed healthcare professionals educated 
to practice medicine as delegated by and with the supervision of a 
physician. In all States, physicians may delegate to PAs those medical 
duties that are allowed by law and are within the physician's scope of 
practice and the PA's training and experience. All States, the District 
of Columbia, and Guam authorize physicians to delegate prescriptive 
privileges to the PAs they supervise. Nineteen percent of all PAs 
practice in nonmetropolitan areas where they may be the only full-time 
providers of care (State laws stipulate the conditions for remote 
supervision by a physician). Approximately 41 percent of PAs work in 
urban and inner city areas. Approximately 40 percent of PAs are in 
primary care. Roughly 80 percent of PAs practice in outpatient 
settings.
    AAPA estimates that in 2008, more than 257 million patient visits 
were made to PAs and approximately 332 million medications were written 
by PAs.

     CRITICAL ROLE OF TITLE VII PUBLIC HEALTH SERVICE ACT PROGRAMS

    Title VII programs promote access to healthcare in rural and urban 
underserved communities by supporting educational programs that train 
health professionals in fields experiencing shortages, improve the 
geographic distribution of health professionals, increase access to 
care in underserved communities, and increase minority representation 
in the healthcare workforce.
    Title VII programs are the only Federal educational programs that 
are designed to address the supply and distribution imbalances in the 
health professions. Since the establishment of Medicare, the costs of 
physician residencies, nurse training, and some allied health 
professions training have been paid through Graduate Medical Education 
(GME) funding. However, GME has never been available to support PA 
education. More importantly, GME was not intended to generate a supply 
of providers who are willing to work in the Nation's medically 
underserved communities--the purpose of title VII.
    Furthermore, title VII programs seek to recruit students who are 
from underserved minority and disadvantaged populations, which is a 
critical step towards reducing persistent health disparities among 
certain racial and ethnic U.S. populations. Studies have found that 
health professionals from disadvantaged regions of the country are 3 to 
5 times more likely to return to underserved areas to provide care.
    It is also important to note that a December 2008 Institute of 
Medicine report characterized HRSA's health professions programs as 
``an undervalued asset.''

              TITLE VII SUPPORT OF PA EDUCATIONAL PROGRAMS

    Targeted Federal support for PA educational programs is authorized 
through section 747 of the Public Health Service Act. The program was 
reauthorized in the 105th Congress through the Health Professions 
Education Partnerships Act of 1998, Public Law 105-392, which 
streamlined and consolidated the Federal health professions education 
programs. Support for PA education is now considered within the broader 
context of training in primary care medicine and dentistry.
    Public Law 105-392 reauthorized awards and grants to schools of 
medicine and osteopathic medicine, as well as colleges and 
universities, to plan, develop, and operate accredited programs for the 
education of physician assistants, with priority given to training 
individuals from disadvantaged communities. The funds ensure that PA 
students from all backgrounds have continued access to an affordable 
education and encourage PAs, upon graduation, to practice in 
underserved communities. These goals are accomplished by funding PA 
educational programs that have a demonstrated track record of: (1) 
placing PA students in health professional shortage areas; (2) exposing 
PA students to medically underserved communities during the clinical 
rotation portion of their training; and (3) recruiting and retaining 
students who are indigenous to communities with unmet healthcare needs.
    The PA programs' success in recruiting and retaining 
underrepresented minority and disadvantaged students is linked to their 
ability to creatively use title VII funds to enhance existing 
educational programs. For example, PA programs in Texas use title VII 
funds to create new clinical rotation sites in rural and underserved 
areas, including new sites in border communities, and to establish 
nonclinical rural rotations to help students understand the challenges 
faced by rural communities. One Texas program uses title VII funds for 
the development of Web based and distant learning technology and 
methodologies so students can remain at clinical practice sites. In New 
York, a PA program with a 90 percent ethnic minority student population 
uses title VII funding to focus on primary care training for 
underserved urban populations by linking with community health centers, 
which expands the pool of qualified minority role models that engage in 
clinical teaching, mentoring, and preceptorship for PA students. 
Several other PA programs have been able to use title VII grants to 
leverage additional resources to assist students with the added costs 
of housing and travel that occur during relocation to rural areas for 
clinical training.
    Without title VII funding, many of these special PA training 
initiatives would not be possible. Institutional budgets and student 
tuition fees simply do not provide sufficient funding to meet the needs 
of medically underserved areas or disadvantaged students. The need is 
very real, and title VII is critical in meeting that need.

    NEED FOR INCREASED TITLE VII SUPPORT FOR PA EDUCATIONAL PROGRAMS

    Increased title VII support for educating PAs to practice in 
underserved communities is particularly important given the market 
demand for physician assistants. Without title VII funding to expose 
students to underserved sites during their training, PA students are 
far more likely to practice in the communities where they were raised 
or attended school. Title VII funding is a critical link in addressing 
the natural geographic maldistribution of healthcare providers by 
exposing students to underserved sites during their training, where 
they frequently choose to practice following graduation. Currently, 36 
percent of PAs met their first clinical employer through their clinical 
rotations.
    Changes in the healthcare marketplace reflect a growing reliance on 
PAs as part of the healthcare team. Currently, the supply of physician 
assistants is inadequate to meet the needs of society, and the demand 
for PAs is expected to increase. A 2006 article in the Journal of the 
American Medical Association (JAMA) concluded that the Federal 
Government should augment the use of physician assistants as physician 
substitutes, particularly in urban CHCs where the proportional use of 
physicians is higher. The article suggested that this could be 
accomplished by adequately funding title VII programs. Additionally, 
the Bureau of Labor Statistics projects that the number of available PA 
jobs will increase 49 percent between 2004 and 2014. Title VII funding 
has provided a crucial pipeline of trained PAs to underserved areas. 
One way to assure an adequate supply of physician assistants practicing 
in underserved areas is to continue offering financial incentives to PA 
programs that emphasize recruitment and placement of PAs interested in 
primary care in medically underserved communities.
    Despite the increased demand for PAs, funding has not 
proportionately increased for title VII programs that educate and place 
physician assistants in underserved communities. Nor has title VII 
support for PA education kept pace with increases in the cost of 
educating PAs. A review of PA program budgets from 1984 through 2004 
indicates an average annual increase of 7 percent, a total increase of 
256 percent over the past 20 years, as Federal support has decreased.

              RECOMMENDATIONS ON FISCAL YEAR 2010 FUNDING

    The American Academy of Physician Assistants urges members of the 
Appropriations Committee to consider the inter-dependency of all public 
health agencies and programs when determining funding for fiscal year 
2010. For instance, while it is critical, now more than ever, to fund 
clinical research at the National Institutes of Health (NIH) and to 
have an infrastructure at the Centers for Disease Control and 
Prevention (CDC) that ensures a prompt response to an infectious 
disease outbreak or bioterrorist attack, the good work of both of these 
agencies will go unrealized if the Health Resources and Services 
Administration (HRSA) is inadequately funded. HRSA administers the 
``people'' programs, such as title VII, that bring the results of 
cutting edge research at NIH to patients through providers such as PAs 
who have been educated in title VII-funded programs. Likewise, CDC is 
heavily dependent upon an adequate supply of healthcare providers to be 
sure that disease outbreaks are reported, tracked, and contained.
    The Academy respectfully requests that title VII health professions 
programs receive $300 million in funding for fiscal year 2010, 
including a minimum of $7 million to support PA educational programs. 
Thank you for the opportunity to present the American Academy of 
Physician Assistants' views on fiscal year 2010 appropriations.
                                 ______
                                 
         Prepared Statement of the Alliance for Aging Research

    Chairman Harkin and members of the subcommittee, for more than two 
decades the not-for-profit Alliance for Aging Research has advocated 
for research to improve the experience of aging for all Americans. Our 
efforts have included supporting Federal funding of aging research by 
the National Institutes of Health (NIH), through the National Institute 
on Aging (NIA) and other Institutes and Centers that work with the NIA 
on cross-cutting initiatives. To this end, the Alliance appreciates the 
opportunity to submit testimony highlighting the important role that 
the NIH plays in facilitating aging research activities and the ever 
more urgent need for increased appropriations to advance scientific 
discoveries to keep individuals healthier longer.
    Many challenges will arise as Americans age in increasing numbers. 
There are approximately 36 million Americans aged 65 and older. That 
group is expected to double in size within the next 20 years, at which 
time at least 20 percent of the U.S. population will be older than 65. 
Of particular concern is the dramatic growth that is anticipated among 
those aged 85 and older. By 2050, 19.4 million Americans will be older 
than the age of 85.
    Late-in-life diseases such as type 2 diabetes, cancer, neurological 
diseases, heart disease, and osteoporosis are increasingly driving the 
need for healthcare services in this country. If rapid discoveries are 
not made now to reduce the prevalence of age-related diseases and 
conditions like these, the costs associated with caring for the oldest 
and sickest Americans will place an unmanageable burden on patients, 
their families, and our healthcare system. The Alliance strongly 
believes that with a relatively modest investment, further advances in 
the area of longevity science could yield tremendous health and 
economic benefits by shortening the period during which humans suffer 
from costly, debilitating diseases.
    Within the NIH, the NIA leads research efforts to better understand 
the nature of aging and to maintain the health and independence of 
Americans as they grow older. The NIA supports a range of genetic, 
biological, clinical, social, and economic research related to aging 
and the diseases of the elderly. Through the Division of Aging Biology, 
the NIA funds research focused on understanding and exploiting the 
mechanisms underlying the aging process. Research supported by the 
Division of Aging Biology program is critically important in that much 
of it is centered around how changes in function considered to be 
``normal aging'' become risk factors for many age-associated 
infirmities. Other noteworthy NIA-supported projects focus on 
increasing healthspan. These include studies to assess the beneficial 
effects of reducing caloric intake in animals, as well as those to test 
compounds that mimic this process in subjects with the potential to 
extend the years of disease-free life. Both approaches have produced 
promising results that may lead to insights into human applications. By 
capitalizing on these and other successful studies to identify genes 
that influence longevity, investigators hope to delay the onset of 
disease and disability associated with human aging in the future.
    The NIA also participates in multi-Institute collaborations on 
disease-specific research aimed at preventing, diagnosing, and more 
effectively treating age-related illnesses. Action to Control 
Cardiovascular Disease, led by the National, Heart, Lung, and Blood 
Institute in partnership with the NIA and three other NIH Institutes, 
is a large clinical trial of adults with type 2 diabetes who are at 
high risk for cardiovascular disease. The trial involves the aggressive 
testing of interventions to reduce the burden of cardiovascular disease 
in high-risk patients, many of whom are elderly. Major cardiovascular 
disease events result in death for 65 percent of diabetic patients and 
no effective preventative strategies currently exist for this 
vulnerable population. The Alzheimer's Disease Neuroimaging Initiative 
(ADNI) is a major public-private partnership led by the NIA to evaluate 
imaging technologies, biological markers, and other tests to improve 
knowledge surrounding the progression of Alzheimer's disease. ADNI has 
produced a wealth of data that is accessible to researchers worldwide. 
It is believed that ADNI findings could lead to shorter and less costly 
trials for Alzheimer's therapies. As many as 5.3 million people have 
Alzheimer's disease and it drains more than $148 billion from the 
Nation's economy each year. Streamlined clinical trials could 
accelerate the development and approval of more effective AD treatments 
to the benefit of those who are yet to be diagnosed. The Diabetes 
Prevention Program, which was an NIH-supported clinical trial involving 
the NIA, continues to reveal information about diabetes onset, 
prevention an outcomes. It was initially intended to examine the 
effects of multiple interventions for adults at risk of type 2 
diabetes. While it succeeded in identifying lifestyle changes that were 
particularly effective in the 60 and older population, it is the 
analysis of the long-term effects of these interventions on diabetes 
onset that could have the most impact on the 57 million adults who are 
at risk for developing the disease.
    In general, the NIH is the primary funder of biomedical research in 
this country. Eighty percent of all the nonprofit medical research in 
the United States is funded by the NIH. But the unfortunate reality is 
that shrinking budgets have impeded progress. In part the scarcity of 
resources has resulted in a decline of the overall success rate for NIH 
research grant applications. At its lowest point only 1 in 4 research 
proposals could be funded by the NIH. The effect of this has been 
reluctance on behalf of new investigators to submit truly ground-
breaking research proposals for consideration. While we recognize that 
there is enormous competition for congressional appropriations each 
year, a lack of sustained funding for the NIH will have a devastating 
impact on the rate of basic discovery and the development of 
interventions that could have the significant public health benefits 
for our aging population.
    Until recent actions taken by Congress and the President to provide 
a short-term resource infusion through passage of the American 
Reinvestment and Recovery Act, funding for the NIH had been on a 
downward trajectory. In the 6 years through 2008, a series of nominal 
increases and cuts has amounted to flat funding for the NIH, and as a 
result it has lost as much as 17 percent of its purchasing power. Aging 
in particular is a field of research that had been hampered by this 
stagnant funding. To operate in this environment the NIA and other 
Institutes involved in aging-related research have not been able to 
fund increasing numbers of high-quality research grants each year.
    The Alliance for Aging Research applauds Congress and the Obama 
administration's renewed focus on the importance of medical research in 
improving the overall health of the country. In order to demonstrate a 
strong commitment to bolstering science, we would recommend an increase 
in funding for the NIH of at least 7 percent in fiscal year 2010. This 
increase would begin to restore the NIH's ability to pursue new basic, 
translational, and clinical research opportunities. A $32.4 billion 
budget for the NIH in fiscal year 2010 would allow the NIA specifically 
to increase support of new and existing investigator initiated research 
projects and better facilitate the acceleration of discoveries for a 
wide range debilitating age-related diseases and conditions among our 
growing population of older Americans.
    Mr. Chairman, the Alliance for Aging Research thanks you for the 
opportunity to outline the challenges posed by the aging population 
that lie ahead as you consider the fiscal year 2010 appropriations for 
the NIH and we would be happy to furnish additional information upon 
request.
                                 ______
                                 
    Prepared Statement of the American College of Obstetricians and 
                             Gynecologists

    The American College of Obstetricians and Gynecologists (ACOG), 
representing 53,000 physicians and partners in women's healthcare, is 
pleased to offer this statement to the Senate Committee on 
Appropriations, Subcommittee on Labor, Health and Human Services, and 
Education, and Related Agencies. We thank Chairman Harkin, and the 
entire subcommittee for their leadership to continually address women's 
health research at the National Institutes of Health (NIH). The Nation 
has made important strides to improve women's health over the past 
several years, and ACOG is grateful to this subcommittee for its 
commitment to ensure that vital research continues to eliminate disease 
and to ensure valuable new treatment discoveries are implemented.
    The American Recovery and Reinvestment Act (ARRA) made a sizeable 
down payment on healthcare programs that have been underfunded in 
recent years. The $10.4 billion for the National Institutes of Health 
(NIH) and the commitment to comparative effectiveness research will 
help to foster innovation and convey best practices to physicians. 
While ACOG is thankful for the generous funding from the stimulus 
package, funds for NIH must be used within 2 years, limiting the 
ability of programs to be carried out to their completion.
    An increase in funds through the regular appropriations process 
will help supplement programs supported by the stimulus package beyond 
the 2-year mark. The President's budget provides a modest increase of 
1.4 percent, not enough to sustain the 19,000 grant applications that 
have been submitted in the wake of the stimulus, which will result in 
lower pay lines. Therefore, we urge the subcommittee to support an 
appropriation of at least $32.4 billion for NIH, a $2.1 billion 
increase (7 percent) for fiscal year 2010.

                   WOMEN'S HEALTH RESEARCH AT THE NIH

    NIH Institutes work collaboratively to conduct women's health 
research. The Eunice Kennedy Shriver National Institute of Child Health 
and Human Development (NICHD) conducts the majority of women's health 
research, and has made critical accomplishments in preterm birth, 
contraceptive research, and infertility. The National Cancer Institute 
(NCI) has made monumental discoveries on gynecologic cancers, and the 
National Institute of Diabetes and Digestive and Kidney Diseases 
(NIDDK) works with the NICHD to discover treatments for urinary 
incontinence. The Office of Research on Women's Health (ORWH) in the 
NIH Office of the Director coordinates women's health research projects 
and manages mentoring programs for new investigators.
    Despite the NIH's critical advancements, reduced funding levels 
have made it difficult for research to continue, largely due to the 
lack of new investigators. The NIH advanced women's health research 
during the congressional doubling between fiscal year 1998 and fiscal 
year 2003, but funding increases have been so low since fiscal year 
2003, the NIH budget is almost the same as it was before the doubling.
  office of the director--office of research on women's health (orwh)
Coordinating and Promoting Women's Health Research Throughout NIH
    Established in September 1990, the Office of Research on Women's 
Health (ORWH) is a focal point for women's health research at the NIH.
    The Building Interdisciplinary Research Careers in Women's Health 
(BIRCWH) is operated by the ORWH, and the Women's Reproductive Health 
Research (WRHR) Career Development Program at the NICHD. BIRCWH 
programs are expanding women's health research through career 
development, increasing diversity in the field of women's health, 
promoting interdisciplinary research training and developing 
independent researchers with backgrounds in high-priority women's 
health research areas. These programs attract new researchers, but low 
pay lines make it difficult for the NIH to maintain them.
    The ORWH recently launched the NIH Women's Health Fellowships in 
Intramural Women's Health Research. This intramural program is funded 
through the Foundation of the NIH, which was established by Congress to 
maximize the resources at the NIH and support medical research through 
public-private partnerships. The fellowships are supported by donations 
from Battelle and AstraZeneca.
    An ob-gyn resident at Loyola University, Chicago, Illinois, is one 
of the first recipients of the fellowship. She is studying the 
difference in severity and prevalence of fibroids in African American 
and white women. The Women's Health Fellowship helps new investigators 
enhance their research skills, and mentor women to senior positions in 
science.
    ACOG urges Congress to increase funding for the ORWH to help 
prepare the next generation of women's health researchers and to 
maintain a high level of research innovation and excellence, in turn 
reducing the incidence of maternal morbidity and mortality and 
discovering cures for other chronic conditions.

                                 NICHD

    ACOG supports a $90.6 million increase (7 percent) in funds more 
than fiscal year 2009 for NICHD at NIH. These funds will assist 
research into the following areas:
Expanding Maternal Health Research
    The Maternal Fetal Medicine Units (MFMU) Network investigates 
clinical questions in maternal fetal medicine and obstetrics, with a 
focus on preterm birth, and has advanced women's health research by 
making several monumental discoveries including using progesterone 
treatments to reduce preterm birth. The MFMU is working at 14 sites 
across the United States to reduce the risks of preterm birth, cerebral 
palsy, and pre-eclampsia (high blood pressure).
Reducing the Prevalence of Premature Births
    NICHD is helping our Nation understand how adverse conditions and 
health disparities increase the risks of premature birth in high-risk 
racial groups, and how to reduce these risks. Prematurity rates have 
increased almost 35 percent since 1981, accounting for 12.5 percent of 
all births, yet the causes are unknown in 25 percent of cases. Preterm 
births cost the Nation $26 billion annually, $51,600 for every infant 
born prematurely. Direct healthcare costs to employers for a premature 
baby average $41,610, 15 times higher than the $2,830 for a healthy, 
full-term delivery.
    The 2008 Surgeon General's Conference on the prevention of preterm 
birth brought together experts from the public and private sectors to 
discuss key research findings and to develop an agenda to mitigate the 
problem of prematurity. The conference concluded by calling on the 
surgeon general to make the prevention of preterm birth a national 
public health priority. ACOG supports this effort and urges Congress to 
recognize the importance of new research to identify the causes and 
effective interventions for preterm births.
Improving Contraceptive Research
    The United States has one of the highest unintended pregnancy rates 
of the industrialized nations. Of the approximately 6 million 
pregnancies each year, an estimated one-half is unintended. 
Contraceptive use saves as much as $19 billion in healthcare costs 
annually. Research has found that oral contraceptives are less 
effective in overweight and obese women, yet the causes are unknown. It 
is critical that Congress continue to invest in contraceptive research, 
ensuring that women have access to safe and effective contraceptives to 
help them time and space their pregnancies. The NICHD's research on 
male and female contraceptives can help reduce the number of unintended 
pregnancies and abortions, and improve women's health.
National Cancer Institute (NCI)
            Developing Gynecologic Cancer Research, Prevention, and 
                    Education
  --Effects of Cervical Procedure on Pregnancy.--At the Washington 
        University School of Medicine, St. Louis, Missouri, researchers 
        are studying the impact of the Loop Electrosurgical Excision 
        Procedure (LEEP), which is a common treatment for abnormal 
        cells on the cervix, on subsequent pregnancy. This study may 
        determine whether LEEP increases the risk of preterm birth and 
        other adverse pregnancy outcomes.
  --Stress and Ovarian Cancer.--At the University of Texas, MD Anderson 
        Cancer Center, Houston, Texas, researchers are examining the 
        effects of chronic stress on growth and progression of ovarian 
        cancer along with underlying mechanisms. Based on these 
        results, researchers hope to gain a better understanding of the 
        adverse effects of chronic stress and discover new strategies 
        for blocking its harmful effects on cancer patients.
  --Pediatric Cancer Survivor Fertility.--There are currently more than 
        250,000 childhood cancer survivors in the United States, and 
        while cancer therapies improve long-term survival, such 
        treatments may impair fertility potential and cause premature 
        ovarian failure. Research at the University of Pennsylvania--
        Philadelphia, Philadelphia, will provide preliminary data for 
        the establishment of a long-term study of pediatric cancer 
        survivors and their pregnancy rates, pregnancy outcomes and the 
        occurrence of premature menopause.
Expanding Ovarian Cancer Research
    Despite the women's health research advancements at the NCI, much 
more needs to be done. According to the NCI, there will be 22,430 new 
cases of ovarian cancer and 15,280 deaths from ovarian cancer in the 
United States in 2007. With more ovarian cancer biomarker research, we 
may reduce ovarian cancer. ACOG urges Congress to pass the Ovarian 
Cancer Biomarker Act, S. 2569/H.R. 3689, which would increase funding 
for research and clinical centers at the NCI for risk stratification, 
early detection, and screening of ovarian cancer.

                INCREASING GYNECOLOGIC CANCER EDUCATION

    Public and provider education on gynecologic cancers is critical to 
early detection. When women and their doctors understand the symptoms 
and risk factors of gynecologic cancers they can find appropriate 
medical help quickly, increasing the potential for earlier detection. 
ACOG urges Congress to fully fund Johanna's Law, Public Law 109-475, at 
$10 million in fiscal year 2009, which would increase provider and 
public education on gynecologic cancers, saving thousands of lives.

                                 NIDDK

Exploring Treatments for Urinary Incontinence
    The Urinary Incontinence Treatment Network (UITN) at the NIDDK and 
the NICHD, researches urinary incontinence treatments. The UITN 
clinical trials compare the outcomes of commonly used surgical 
procedures, drug therapies, and behavioral treatments for incontinence.
  --The Trial of Mid-urethral Slings.--Researches the outcomes of 
        surgical procedures to treat stress urinary incontinence. 
        Although these surgical procedures are approved by the Food and 
        Drug Administration, researchers are investigating which are 
        more effective.
  --The Stress Incontinence Surgical Treatment Efficacy Trial.--Studies 
        the long-term outcomes of commonly performed stress urinary 
        incontinence treatment surgeries. The Burch procedure and the 
        sling produce have estimated cure rates of 60 percent -90 
        percent, and researchers are determining which produces the 
        best long-term outcome.
  --The Behavior Enhances Drug Reduction of Incontinence.--Studies 
        whether adding behavioral treatment to drug therapy makes it 
        possible to discontinue drug treatment, and still maintain a 
        reduced number of incontinence accidents.
    ACOG urges Congress to increase funding for critical women's health 
research at the NIDDK.
    Again, we would like to thank the subcommittee for its continued 
support of programs to improve women's health, and urge Congress to 
increase funding for the NIH and its Institutes 7 percent more than 
fiscal year 2009 levels in fiscal year 2010.
                                 ______
                                 
        Prepared Statement of the American College of Physicians

    Chairman Harkin and Ranking Member Cochran, thank you for allowing 
the American College of Physicians (ACP) to share our views on the 
Department of Health and Human Services budget for fiscal year 2010.
    ACP represents 126,000 internal medicine physicians, residents, and 
medical students. ACP is also the Nation's largest medical specialty 
society and its second largest physician membership organization.
    Today, ACP is urging the following funding levels:
  --Title VII and title VIII programs, under the Public Health Service 
        Act, $550 million;
  --National Health Service Corps (NHSC), $235 million;
  --Agency for Healthcare Research and Quality (AHRQ), $405 million; 
        and
  --National Institutes of Health (NIH), at minimum a 7 percent 
        increase more than the fiscal year 2009 baseline.

                         PRIMARY CARE WORKFORCE

    We are experiencing a primary care shortage in this country, the 
likes of which we have not seen. The expected demand for primary care 
in the United States continues to grow exponentially while the Nation's 
supply of primary care physicians dwindles and interest by U.S. medical 
graduates in primary care specialties steadily declines. The reasons 
behind this decline in primary care physician supply are multi-faceted 
and complex. Key factors include the rapid rise in medical education 
debt, decreased income potential for primary care physicians, failed 
payment policies, and increased burdens associated with the practice of 
primary care.
    A strong primary care infrastructure is an essential part of any 
high-functioning healthcare system. In this country, primary care 
physicians provide 52 percent of all ambulatory care visits, 80 percent 
of patient visits for hypertension, and 69 percent of visits for both 
chronic obstructive pulmonary disease and diabetes, yet they comprise 
only one-third of the U.S. physician workforce. Those numbers are 
compelling, considering the fact that primary care is known to improve 
health outcomes, increase quality, and reduce healthcare costs.
    There are many regions of the country that are currently 
experiencing shortages in primary care physicians. The Institute of 
Medicine reports that it would take 16,261 additional primary care 
physicians to meet the need in currently underserved areas alone. To 
help alleviate the shortage of primary care physicians, we believe 
sufficient funding should be provided for title VII and title VIII 
programs, as well as NHSC.

                   TITLE VII AND TITLE VIII PROGRAMS

    The health professions education programs, authorized under titles 
VII and VIII of the Public Health Service Act and administered through 
the Health Resources and Services Administration, support the training 
and education of healthcare providers to enhance the supply, diversity, 
and distribution of the healthcare workforce, filling the gaps in the 
supply of health professionals not met by traditional market forces. 
ACP was pleased that the American Recovery and Reinvestment Act (ARRA, 
Public Law 111-5) provided a down payment of $200 million for title VII 
and title VIII programs.
    NHSC, along with the Health Professions and Nursing Education 
Coalition, is recommending that these programs require at least $550 
million to adequately educate and train a healthcare workforce that 
meets the public's healthcare needs. This amount includes restoration 
of title VII to at least the fiscal year 2005 level (close to $300 
million).
    Lower funding or elimination of title VII programs will have an 
immediate impact on the training and recruitment of health professions 
students and the educational infrastructures developed and supported by 
title VII. It is important to note that these programs are unique in 
that they are the only federal investment in interdisciplinary 
training, which is vitally important as care is often provided in 
interdisciplinary settings. These programs are also designed to enhance 
minority representation in the healthcare workforce, which is essential 
when it comes to providing access to care as minority providers are 
more likely than others to care for underserved populations and help 
reduce the shortages in these specific areas. Moreover, not only does 
this funding support essential training programs, it also facilitates 
the delivery of care to the underserved areas of the country through 
the Area Health Education Centers and Health Education and Training 
Centers.
    As the Nation's healthcare delivery system undergoes rapid and 
dramatic changes, an appropriate supply and distribution of health 
professionals has never been more essential to the public's health. The 
title VII and title VIII programs are critical to help institutions and 
programs respond to these current and emerging challenges and ensure 
that all Americans have access to appropriate and timely health 
services.

                                  NHSC

    In conjunction with other stakeholders, ACP is recommending a 
combined appropriation of $235 million for NHSC. We are pleased the 
ARRA provided an additional $300 million, which will enable 4,200 more 
clinicians to access the scholarship and loan repayment programs.
    The NHSC scholarship and loan repayment programs provide payment 
toward tuition/fees or student loans in exchange for service in an 
underserved area. The programs are available for primary medical, oral, 
dental, and mental and behavioral professionals. Participation in the 
NHSC for 4 years or more greatly increases the likelihood that a 
physician will continue to work in an underserved area after leaving 
the program. Over the years, the number of clinicians in those programs 
has grown from 180 to more than 4,000. In 2000, the NHSC conducted a 
large study of NHSC clinicians who had completed their service 
obligation up to 15 years before and found that 52 percent of those 
clinicians continued to serve the underserved in their practice. The 
programs under NHSC have proven to make an impact in meeting the 
healthcare needs of the underserved, and with more appropriations, they 
can do more.
    The NHSC estimates that nearly 50 million Americans currently live 
in health professions shortage areas (HPSAs)--underserved communities 
which lack adequate access to primary care services--and that 27,000 
primary care professionals are needed to adequately serve the people 
living in HPSAs. Currently, more than 4,000 NHSC clinicians are caring 
for nearly 4 million people. The outstanding need remains unmet.
    Limited funding has reduced new NHSC awards from 1,570 in fiscal 
year 2003 to an estimated 947 in fiscal year 2008, a nearly 40 percent 
decrease. The NHSC scholarship program already receives 7 to 15 
applicants for every award available. The National Advisory Council on 
the NHSC has recommended that Congress double the appropriations for 
the NHSC to more than double its field strength to 10,000 primary care 
clinicians in underserved areas.

                                  AHRQ

    AHRQ is the leading public health service agency focused on 
healthcare quality. AHRQ's research provides the evidence-based 
information needed by consumers, providers, health plans, purchasers, 
and policymakers to make informed healthcare decisions.
    ACP is dedicated to ensuring AHRQ's vital role in improving the 
quality of our Nation's health and supports a fiscal year 2010 budget 
allocation of $405 million for AHRQ. This amount will allow AHRQ to 
carry out its congressional mandate to improve healthcare quality and 
reduce costs by identifying which treatments work best and at what 
cost. ACP's request of an additional $32 million more than the fiscal 
year 2009 funding level would be designated for increased research in 
patient safety, health information technology, resources for research 
into the causes of and solutions to raising healthcare costs, chronic 
care management, and strategies to translate research into practice.
    The additional $32 million will allow AHRQ to expand its 
investigator-initiated research program, a critically important element 
of our Nation's healthcare research effort. This funding stream 
provides for many clinical innovations--innovations that improve 
patient outcomes. It will also facilitate the translation of research 
into clinical practice and disease management strategies, and address 
the healthcare needs of vulnerable populations. Investment in AHRQ's 
investigator-initiated research is an investment in America's health. 
Additionally, investment in investigator-initiated research represents 
a cost-effective and efficient use of our Federal health research 
dollars. The relatively modest investment provided to clinical 
investigators in the form of grants often result in advancements with 
positive economic implications far outweighing the original investment.
    ACP was pleased that the ARRA provided AHRQ with $300 million for 
comparative clinical effectiveness research. This funding, along with 
an additional $400 million for the Office of the Director of the NIH 
and $400 million to the Secretary of Health and Human Services, will 
stimulate the development of comparative effectiveness research and 
provide a good foundation for the establishment of the recommended, 
national comparative effectiveness entity. Furthermore, the act 
prohibits the Government from using the research for making any 
coverage or payment decisions or issuing clinical guidelines. The sole 
purpose is to develop this research and disseminate the results to all 
stakeholders.

                                  NIH

    Together, the fiscal year 2009 omnibus and the ARRA provided $38.5 
billion to NIH, which will fund more than 16,000 new research grants 
for live-saving research into diseases such as cancer, diabetes, and 
Alzheimer's.
    In his budget, the President envisions doubling our investment in 
basic research. Consistent with his proposal, we respectfully urge the 
subcommittee to increase funding for NIH by at least 7 percent more 
than the fiscal year 2009 baseline.

                               CONCLUSION

    Mr. Chairman and Ranking Member Cochran, thank you for the 
opportunity to offer testimony on the importance of the Department of 
Health and Human Services budget for fiscal year 2010.
    In conclusion, ACP would like to reiterate ACP's recommended 
funding levels:
  --Title VII and title VIII programs, under the Public Health Service 
        Act, $550 million;
  --NHSC, $235 million;
  --AHRQ, $405 million; and
  --NIH, at minimum a 7 percent increase more than the fiscal year 2009 
        baseline.
    The United States must invest in these programs in order to achieve 
a high-performance healthcare system. ACP greatly appreciates the 
support of the subcommittee on these issues and looks forward to 
working with Congress as you being to work on the fiscal year 2010 
appropriations process.
                                 ______
                                 
   Prepared Statement of the American College of Preventive Medicine

    Each year, 50,000 Americans die violent deaths. Homicide and 
suicide are, respectively, the third and fourth leading causes of death 
for people aged 1-39 years. An average of 80 people take their own 
lives every day.
    Before the National Violent Death Reporting System (NVDRS) was 
created, Federal and State public health and law enforcement officials 
collected valuable information about violent deaths, but lacked the 
ability to combine it into one comprehensive reporting system. Instead, 
data was held in a variety of different systems, and policymakers 
lacked the clear picture necessary to develop effective violence 
prevention policies.
    When it was created in 2002, NVDRS promised to capture data that is 
critical to identifying patterns and developing strategies to save 
lives. With a clearer picture of why violent deaths occurs, law 
enforcement and public health officials can work together more 
effectively to identify those at risk and provide effective preventive 
services.
    Currently, NVDRS funding levels only allow the program to operate 
in the following 17 States: Alaska, California, Colorado, Georgia, 
Kentucky, Maryland, Massachusetts, New Jersey, New Mexico, North 
Carolina, Oklahoma, Oregon, Rhode Island, South Carolina, Utah, 
Virginia, and Wisconsin. Nine additional States, plus the District of 
Columbia were previously approved for participation in the NVDRS, but 
were unable to join due to funding shortfalls: Connecticut, Illinois, 
Maine, Michigan, Minnesota, New York, Ohio, and Texas. Several other 
States have expressed an interest in joining once new funding becomes 
available.
    While NVDRS is beginning to strengthen violence and suicide 
prevention efforts in the 17 participating States, many other States 
have been forced to sit idle until additional funding is allocated. 
With the inclusion of $7.5 million for NVDRS in fiscal year 2010, NVDRS 
will be able to expand to additional States and continue its 
incremental growth toward national implementation.

          NVDRS PROVIDES CRITICAL DATA FOR SUICIDE PREVENTION

    Although it is preventable, more than 30,000 Americans die by 
suicide each year, and another 1.8 million Americans attempt it, 
costing more than $3.8 billion in hospital expenses and $13 billion in 
lost earnings.
    In the United States today, there is no comprehensive national 
system to track suicides. However, because NVDRS includes information 
on all violent deaths--include deaths by suicide--information from the 
system can be used to develop effective suicide prevention plans at the 
community, State, and national level.
    Among the ways NVDRS data is being used to inform suicide 
prevention programs: NVDRS data from 13 States uncovered significant 
racially and ethnically based differences in mental illness diagnoses 
and treatment among those who died by suicide. Specifically, whites 
were more likely to have been diagnosed with depression or bipolar 
disorder, while blacks were more likely than other groups to have been 
diagnosed with schizophrenia. Hispanics were less likely to have been 
diagnosed with a mental illness or to have received treatment at all, 
although the family reports of depression were comparable to other 
racial groups. Additionally, NVDRS data from all 17 States show that 
veterans accounted for 26 percent of males who died by suicide in 2004. 
While veterans also accounted for 26 percent of the male U.S. 
population, this finding points to the importance of veterans' services 
to potentially identify and treat at-risk individuals.
    With such information available for the first time, officials in 
participating States are using NVDRS data in myriad ways. For example,
  --With the sixth-highest rate of elder suicide in the Nation, Oregon 
        tailored its NVDRS data to develop an epidemiological profile 
        of victims and establish an elder suicide prevention plan. 
        NVDRS data indicated that most victims of elder suicide in 
        Oregon had been suffering from physical illness, and that 37 
        percent had visited a doctor in the 30 days prior to their 
        death. As a result of this NVDRS data, the State developed an 
        elder suicide prevention plan that calls for better integration 
        of primary care and mental health services, so that potential 
        suicide victims can be better identified and treated. The plan 
        also calls for training primary healthcare providers, 
        integrating mental healthcare into primary care, and educating 
        family members about the risks of suicide and warning signs of 
        depression.
  --NVDRS data found that 1 in 4 of Virginia's suicide victims had 
        served in the military. Among male victims older than 65, more 
        than 60 percent were veterans. These findings indicate that the 
        State's suicide prevention and education efforts must extend to 
        veterans' hospitals and service providers.
  --NVDRS data provides State health officials in South Carolina with 
        vital information that indicates behavior patterns, enables 
        health officials to identify individuals at risk, and to 
        intervene early with appropriate preventive measures. After 
        NVDRS data showed that more than 40 percent of suicide victims 
        were currently or formerly receiving mental health treatment or 
        tested positive for psychiatric medication, the State 
        established its first ever suicide prevention plan, which also 
        included the formation of a Suicide Prevention Task Force.

    NVDRS PROVIDES CRITICAL DATA TO PROTECT CHILDREN AND ADOLESCENTS

    Child abuse and other violence involving children and adolescents 
remains a problem in America, and it is only through a comprehensive 
understanding of its root causes that many needless deaths can be 
prevented. Studies suggest that between 3.3 and 10 million children 
witness some form of domestic violence annually. Additionally, 1,387 
children died as a result of abuse or neglect in 2004, according to the 
Federal Administration on Children, Youth, and Families, part of the 
Department of Health and Human Services.
    Children are most vulnerable and most dependent on their caregivers 
during infancy and early childhood. Sadly, NVDRS data has shown that 
young children are at the greatest risk of homicide in their primary 
care environments. Combined NVDRS data from Alaska, Maryland, 
Massachusetts, New Jersey, Oregon, South Carolina, and Virginia 
determined that African American children 4 years old and younger are 
more than four times more likely to be victims of homicide than 
Caucasian children, and that homicides of children 4 and under are most 
often committed by a parent or caregiver in the home. The data also 
shows that household items, or ``weapons of opportunity,'' were most 
commonly used, suggesting that poor stress responses may be factors in 
these deaths. Knowing the demographics and methods of abusers can lead 
to more effective, targeted prevention programs.
    Other examples of how NVDRS data is informing programs to protect 
children and adolescents from violence, include the following:
  --Data from NVDRS pilot sites in Connecticut, Maine, Utah, Wisconsin, 
        Pennsylvania, and California found that almost 30 percent of 
        suicide victims age 17 and under told someone they felt 
        suicidal. Many teen suicides also appear to be linked to recent 
        events in their lives, with nearly one-third of suicides taking 
        place on the same day as a crisis and almost half within the 
        same week. This data underscores the importance of developing 
        community-based programs to rapidly respond to the warning 
        signs of suicide.
  --With data generated by NVDRS, State health officials in 
        Massachusetts have been able to monitor suicides and homicides 
        more accurately among specific populations, such as foster 
        children and youths in custody. The NVDRS data has been used to 
        secure grants for violence prevention programs for these 
        special populations, about whom data had previously been 
        impossible to obtain.

   NVDRS PROVIDES CRITICAL DATA TO PREVENT INTIMATE PARTNER VIOLENCE

    While intimate partner violence has declined along with other 
trends in crime over the past decade, thousands of Americans still fall 
victim to it every year. Women are much more likely than men to be 
killed by an intimate partner. Intimate partner homicides accounted for 
33.5 percent of the murders of women and less than four percent of the 
murders of men in 2000, according to the Bureau of Justice Statistics.
    Although the program is still in its early stages, NVDRS is 
providing critical information that is helping law enforcement and 
health and human service officials allocate resources and develop 
programs in ways that target those most at risk for intimate partner 
violence, thereby preventing needless deaths. For example, NVDRS data 
shows that while occurrences are rare, most murder-suicide victims are 
current or former intimate partners of the suspect, and a substantial 
number of victims were the suspect's children. In addition, NVDRS 
indicates that women are about seven times more likely than men to be 
killed by a spouse, ex-spouse, lover, or former lover, and the majority 
of these incidents occurred in the women's homes
    Examples of how State officials are using NVDRS data to better 
understand and prevent intimate partner violence include:
  --Based on an analysis of NVDRS data, the Kentucky Injury Prevention 
        Research Center concluded that among women killed by an 
        intimate partner, only 39 percent had had filed for a 
        restraining order or been seen by or reported to Adult 
        Protective Services. This finding underscored a perceived need 
        in the community to improve outreach linking potential victims 
        to local protective services.
  --Working with the State's NVDRS program, the Alaska Department of 
        Law and Public Safety found there is a high risk for intimate 
        partner violence, both homicide and suicide, when one partner 
        is attempting to leave the relationship. Findings such as this 
        one are molding the State's strategy for domestic violence 
        prevention.

         STRENGTHENING AND EXPANDING NVDRS IN FISCAL YEAR 2010

    At an estimated annual cost of $20 million for full implentation, 
NVDRS is a relatively low-cost program that yields high-quality 
results. While State-specific information provides enormous value to 
local public health and law enforcement officials, national data from 
all 50 States, the U.S. territories and the District of Columbia must 
be obtained to complete the picture and establish effective national 
violence prevention policies and programs.
    That is why the National Violence Prevention Network, a coalition 
of national organizations who advocate for health and welfare, violence 
and suicide prevention, and law enforcement, is calling on Congress to 
provide no less than $7.5 million for NVDRS for fiscal year 2010. The 
cost of not implementing the program is much greater: without national 
participation in the program, thousands of American lives remain at 
risk.
                                 ______
                                 
   Prepared Statement of the American College of Preventive Medicine

                             RECOMMENDATION

    The American College of Preventive Medicine (ACPM) urges the Labor, 
Health and Human Services, and Education, and Related Agencies 
Appropriations Subcommittee to reaffirm its support for training 
preventive medicine physicians and other public health professionals by 
providing $10.1 million in fiscal year 2010 for preventive medicine 
residency training under the public health, dentistry, and preventive 
medicine line item in title VII of the Public Health Service Act. ACPM 
also supports the recommendation of the Health Professions and Nursing 
Education Coalition that $550 million be appropriated in fiscal year 
2010 to support all health professions and nursing education and 
training programs authorized under titles VII and VIII of the Public 
Health Service Act.

              THE NEED FOR PREVENTIVE MEDICINE IS GROWING

    In today's healthcare environment, the tools and expertise provided 
by preventive medicine physicians are integral to the effective 
functioning of our Nation's public health system. These tools and 
skills include the ability to deliver evidence-based clinical 
preventive services, expertise in population-based health sciences, and 
knowledge of the social and behavioral aspects of health and disease. 
These are the tools employed by preventive medicine physicians who 
practice in public health agencies and in other healthcare settings 
where improving the health of populations, enhancing access to quality 
care, and reducing the costs of medical care are paramount. As the body 
of evidence supporting the effectiveness of clinical and population-
based interventions continues to expand, so does the need for 
specialists trained in preventive medicine.\1\ \2\ \3\
---------------------------------------------------------------------------
    \1\ Berrino, F. Role of Prevention: Cost Effectiveness of 
Prevention. Annals of Oncology 2004; 15:iv245-iv248.
    \2\ Eikjemans G, Takala J. Moving Knowledge of Global Burden into 
Preventive Action. American Journal of Industrial Medicine 2005; 
48:395-399.
    \3\ Ortegon M, Redekop W, Niesen L. Cost-Effectiveness of 
Prevention and Treatment of the Diabetic Foot. Diabetes Care 2004; 
27:901-907.
---------------------------------------------------------------------------
    Organizations across the spectrum have recognized the growing 
demand for public health and preventive medicine professionals. The 
Institute of Medicine released a report in 2007 calling for an 
expansion of preventive medicine training programs by an ``additional 
400 residents per year''.\15\ The Health Resources and Services 
Administration's (HRSA) Bureau of Health Professions, using data 
extracted from the Department of Labor, reports that the demand for 
public health professionals will grow at twice the rate of all 
occupations between 2000 and 2010.\4\ The Council on Graduate Medical 
Education recommends increased funding for training physicians in 
preventive medicine.\5\ In addition, the Nation's medical schools are 
devoting more time and effort to population health topics.\6\ These are 
just a few of the examples demonstrating the growing demand for 
preventive medicine.
---------------------------------------------------------------------------
    \15\ Training Physicians for Public Health Careers. Institute of 
Medicine. National Academies Press, June 2007.
    \4\ Biviano M. Public Health and Preventive Medicine: What the Data 
Shows. Presented at the 9th Annual Preventive Medicine Residency 
Program Directors Workshop, San Antonio, Texas. HRSA. 2002.
    \5\ Glass JK. Physicians in the Public Health Workforce. In Update 
on the Physician Workforce. Council on Graduate Medical Education. 
2000.
    \6\ Sabharwal R. Trends in Medical School Graduates' Perceptions of 
Instruction in Population-Based Medicine. In Analysis in Brief. 
American Association of Medical Colleges. Vol. 2, No. 1. January 2002.
---------------------------------------------------------------------------
    In fact, preventive medicine is the only 1 of the 24 medical 
specialties recognized by the American Board of Medical Specialties 
that requires and provides training in both clinical medicine and 
public health. Preventive medicine physicians possess critical 
knowledge in population and community health issues, disease and injury 
prevention, disease surveillance and outbreak investigation, and public 
health research. Preventive medicine physicians are employed in 
hospitals, State and local health departments, Health Maintenance 
Organizations (HMOs), community and migrant health centers, industrial 
sites, occupational health centers, academic centers, private practice, 
the military, and Federal Government agencies.
    The recent focus on emergency preparedness is also driving the 
demand for these skills. Unfortunately, many experts have expressed 
concerns about the preparedness level of our public heath workforce and 
its ability to respond to emergencies. The nonpartisan, not-for-profit 
Trust for America's Health has published annual reports assessing 
America's pubic health emergency response capabilities. The most recent 
report, released in December 2008, found that neither State nor Federal 
Governments are adequately prepared to manage a public health 
emergency. One reason for this is a significant shortfall in funding 
needed to improve the Nation's public health systems.\7\ Furthermore, 
the Centers for Disease Control and Prevention recently affirmed that 
there are significant holes in U.S. hospital emergency planning efforts 
for bioterrorism and mass casualty management.\8\ These include varying 
levels of training among hospital staff for treating exposures to 
chemical, biological or radiological agents; lack of memoranda of 
understanding with supporting local healthcare facilities; and lack of 
preparedness training for explosive incidents.
---------------------------------------------------------------------------
    \7\ Hearne S, Chrissie J, Segal L, Stephens T, Earls M. Ready or 
Not? Protecting the Public's Health from Diseases, Disasters, and 
Bioterrorism 2008; Trust for America's Health. 
www.healthyamericans.org.
    \8\ Niska R, Burt C. Bioterrorism and mass casualty preparedness in 
hospitals: United States, 2003. Advance data from vital and health 
statistics; no 364. Hyattsville, MD: National Center for Health 
Statistics. 2005.
---------------------------------------------------------------------------
       THE SUPPLY OF PREVENTIVE MEDICINE SPECIALISTS IS SHRINKING

    According to HRSA and health workforce experts, there are personnel 
shortages in many public health occupations, including among others, 
preventive medicine physicians, epidemiologists, biostatisticians, and 
environmental health workers.\9\
---------------------------------------------------------------------------
    \9\ Health Professions and Nursing Education Coalition. 
Recommendation for Fiscal Year 2007. March 2006.
---------------------------------------------------------------------------
    Exacerbating these shortages is a shrinking supply of physicians 
trained in preventive medicine:
  --In 2002, only 6,893 physicians self-designated as specialists in 
        preventive medicine in the United States, down from 7,734 in 
        1970. The percentage of total U.S. physicians self-designating 
        as preventive medicine physicians decreased from 2.3 percent to 
        0.8 percent over that time period.\10\
---------------------------------------------------------------------------
    \10\ American Medical Association (AMA). Physician Characteristics 
and Distribution in the U.S. 2004, Table 5.2, p. 323.
---------------------------------------------------------------------------
  --Between 1999 and 2006, the number of residents enrolled in 
        preventive medicine training programs declined nearly 20 
        percent.\11\
---------------------------------------------------------------------------
    \11\ AMA. Graduate Medical Education Database. Copyright 1994-2005, 
Chicago, IL.
---------------------------------------------------------------------------
  --The number of preventive medicine residency programs decreased from 
        90 in 1999 to 71 in 2008-2009.\12\
---------------------------------------------------------------------------
    \12\ Magee JH. Analysis of Program Data for Preventive Medicine 
Residencies in the United States: Report to the Bureau of Health 
Resources & Services Administration. Washington, DC: American College 
of Preventive Medicine, 1997.
---------------------------------------------------------------------------
    ACPM is deeply concerned about the shortage of preventive medicine-
trained physicians and the ominous trend of even fewer training 
opportunities. The decline in numbers is dramatic considering the 
existing critical shortage of physicians trained to carry out core 
public health activities. This deficiency will lead to major gaps in 
the expertise needed to deliver clinical prevention and community 
public health. The impact on the health of those populations served by 
HRSA may be profound.

               FUNDING FOR RESIDENCY TRAINING IS ERODING

    Physicians training in the specialty of preventive medicine, 
despite being recognized as an underdeveloped national resource and in 
shortage for many years, are the only medical residents whose graduate 
medical education (GME) costs are not supported by Medicare, Medicaid 
or other third-party insurers. Training occurs outside hospital-based 
settings and therefore is not financed by GME payments to hospitals. 
Both training programs and residency graduates are rapidly declining at 
a time of unprecedented national, State, and community need for 
properly trained physicians in public health and disaster preparedness, 
prevention-oriented practices, quality improvement and patient safety. 
Both the Council on Graduate Medical Education and Institute of 
Medicine have called for enhanced training support.
    Currently, residency programs scramble to patch together funding 
packages for their residents. Limited stipend support has made it 
difficult for programs to attract and retain high-quality applicants; 
faculty and tuition support has been almost nonexistent.\12\ Directors 
of residency programs note that they receive many inquiries about and 
applications for training in preventive medicine; however, training 
slots often are not available for those highly qualified physicians who 
are not directly sponsored by an outside agency (such as the Armed 
Services) or who do not have specific interests in areas for which 
limited stipends are available (such as research in cancer prevention).
---------------------------------------------------------------------------
    \12\ Magee JH. Analysis of Program Data for Preventive Medicine 
Residencies in the United States: Report to the Bureau of Health 
Resources & Services Administration. Washington, DC: American College 
of Preventive Medicine, 1997.
---------------------------------------------------------------------------
    HRSA--as authorized in title VII of the Public Health Service Act--
is a critical funding source for several preventive medicine residency 
programs. HRSA funding ($1.1 million in fiscal year 2008) currently 
supports only about 20 physicians in 5 preventive medicine training 
programs,\13\ yet it represents the largest Federal funding source for 
public health and general preventive medicine (PH/GPM) programs. 
Funding is in steady decline; in fiscal year 2002 the level was $1.9 
million.
---------------------------------------------------------------------------
    \13\ http://bhpr.hrsa.gov/publichealth/preventive/index.htm. 
Preventive Medicine Residency Training Grants.
---------------------------------------------------------------------------
    These programs directly support the mission of the HRSA health 
professions programs by facilitating practice in underserved 
communities and promoting training opportunities for underrepresented 
minorities:
  --Forty percent of HRSA-supported preventive medicine graduates 
        practice in medically underserved communities, a rate four 
        times the average for all health professionals.\4\ These 
        physicians are meeting a critical need in these underserved 
        communities.
---------------------------------------------------------------------------
    \4\ Biviano M. Public Health and Preventive Medicine: What the Data 
Shows. Presented at the 9th Annual Preventive Medicine Residency 
Program Directors Workshop, San Antonio, Texas. HRSA. 2002.
---------------------------------------------------------------------------
  --One-third of preventive medicine residents funded through HRSA 
        programs are under-represented minorities, which is three times 
        the average of minority representation among all health 
        professionals.\4\ Increased representation of minorities is 
        critical because (1) under-represented minorities tend to 
        practice in medically underserved areas at a higher rate than 
        nonminority physicians, and (2) a higher proportion of 
        minorities contributes to high-quality, culturally competent 
        care.
  --Fourteen percent of all preventive medicine residents are under-
        represented minorities, the largest proportion of any medical 
        specialty.\16\
---------------------------------------------------------------------------
    \16\ Percentage of ACGME Residents/Fellows Who are Black, Native 
American or Native Hawaiian by Speciality. AAMC/AMA National GME 
census, October 2008.
---------------------------------------------------------------------------
 THE BOTTOM LINE: A STRONG, PREPARED, PUBLIC HEALTH SYSTEM REQUIRES A 
                  STRONG PREVENTIVE MEDICINE WORKFORCE

    The growing threats of a flu pandemic, disasters, and terrorism has 
thrust public health into the forefront of the Nation's consciousness. 
ACPM applauds recent investments in disaster planning, information 
technology, laboratory capacity, and drug and vaccine stockpiles. 
However, any efforts to strengthen the public health infrastructure and 
disaster response capability must include measures to strengthen the 
existing training programs that help produce public health leaders.
    Many of the public health leaders who guide the Nation's public 
health response in the aftermath of the September 11 attacks and the 
recent hurricane disasters were physicians trained in preventive 
medicine. According to William L. Roper, MD, MPH, Dean of the School of 
Public Health, The University of North Carolina at Chapel Hill, 
``Investing in public health preparedness and response without 
supporting public health and preventive medicine training programs is 
like building a sophisticated fleet of fighter jets without training 
the pilots to fly them.''
                                 ______
                                 
  Prepared Statement of the Association for Clinical Research Training

            SUMMARY OF RECOMMENDATIONS FOR FISCAL YEAR 2010

    Works towards fully funding the emerging Clinical and Translational 
Science Awards (CTSA) program by a providing $532 million of support. 
Continued support for the NIH K-awards for the training of research 
scientists. Continued emphasis on the importance of Comparative 
Effectiveness Research (CER).
    Association for Clinical Research Training (ACRT) is committed to 
improving the Nation's health by increasing the amount and quality of 
clinical research through the expansion and improvement of clinical 
research training. This training is funded by both the National 
Institutes of Health (NIH) and the Agency for Healthcare Research and 
Quality (AHRQ).
    The National Alliance of Socieities for Clinical Research Resources 
(NASCRR) is comprised of the national organizations that provide 
leadership in the field of clinical and translational medical research. 
NASCRR coalesces around areas of common concern for the entire 
community and works in support of the mission of the National Center 
for Research Resources (NCRR).
    Let me begin by thanking the subcommittee for showing a strong 
commitment to improving public health through the recently passed 
fiscal year 2009 omnibus appropriations package. The legislation 
included $938 million for NIH; the first meaningful funding increase to 
the agency's baseline budget in many years. ACRT applauds the 
subcommittee for its role in securing this funding, and we hope that 
significant funding increases for NIH and other public health programs 
will continue in subsequent fiscal years.
    Clinical research is an increasingly important component of medical 
research. A large, well-trained workforce is required to ensure that 
breakthroughs in bioscience are translated into improved treatment 
options for patients. Currently, the field of clinical research is 
facing the same work-force shortage and retention issues felt 
throughout the medical research community. Additionally, clinical 
investigators undertake comparative effectiveness research activities 
and as investment in this area is increased, it stands to reason that 
the present pressures on the clinical research community will be 
exacerbated. Commitments to increase funding for clinical research 
training activities and programs must be made to ensure that in the 
future, the workforce is robust and capable of improving the public 
health in an effective and expeditious manner.

           THE IMPORTANCE OF FULLY FUNDING THE CTSA PROGRAM.

    The CTSA program is a critical effort to modernize this Nation's 
clinical and translational research infrastructure, and bring the 
entire field of medical research into the 21st century. To accomplish 
this task, the program has identified four important goals; improving 
the way biomedical research is conducted across the country, reducing 
the time it takes for laboratory discoveries to become treatments for 
patients, engaging communities in clinical research efforts, and 
training the next generation of clinical and translational researchers.
    The CTSA program is intended to assist institutions in creating a 
home for clinical and translational science. The program started with 
12 academic health centers located throughout the Nation, and the NIH's 
plan for the CTSAs will ultimately link 60 institutions together to 
energize the discipline of clinical and translational science. 
Currently, there are 38 CTSA sites.
    Recent years of near-level funding for NIH have hampered NCRR's 
budget and drained the pool of resources that could be committed to 
supporting the growing CTSA network.
    NCRR has to reduce the size of awards by about half in some 
instances. NCRR does not have the funds necessary to support 60 sites.
    When applying to be part of the CTSA network, institutions had to 
identify the types of programs and research they would be conducting. 
The proposals that were deemed meritorious were subsequently funded, 
but in most cases at a reduced level.
    While we applaud the funding for NCRR that was provided through the 
economic stimulus package, this additional money has created a 
frustrating situation for CTSA-recipients. Presently, NCRR and other 
NIH Institutes, Centers, and Offices are holding competitions and 
accepting proposals to allocate the stimulus funds. Many of the 
research activities which are being proposed are very similar to 
activities the CTSA's already outlined in their initial peer-reviewed 
applications, but have been unable to undertake due to a lack of 
funding. In fact, many CTSA's are simply peeling off the programs which 
have been approved, but unfunded and redundantly competing for stimulus 
funds. Trying to fully fund CTSA activities in this manner is overly 
complicated and inefficient.
    The CTSA program is currently funded at just under $475 million. 
You will note from the attached professional judgment provided by NCRR 
that to facilitate appropriate implementation, the program requires a 
funding level of $532 million in fiscal year 2010. Additionally, this 
document states that to fully implement the program and support a 
network of 60 centers by 2011, a funding level of $669 million is 
required.
    It is our recommendation that the subcommittee work towards full 
implementation of the CTSA program by providing $532 million in support 
for fiscal year 2010.

     THE IMPORTANCE OF CONTINUING TO SUPPORT THE K-AWARDS PROGRAM.

    As the CTSA program is rolled out, it is meant to subsume the 
activities of other NCRR programs, such as the K-30 Clinical Research 
Curriculum Awards (CRCA). However, while flat budgets slowed 
implementation of the CTSA network, the phasing out of K-30 awards 
continued on unimpeded. Last year the subcommittee showed strong 
leadership and urged NCRR to continue the CRCA program for those 
institutions that had not yet received a CTSA. I am pleased to inform 
you that the NCRR has complied with this request, and recently the 
Center issued the K-30 recompetition notice. Thank you for taking an 
interest in clinical research training and please continue to do so 
moving forward.
    K-30 awards remain an exceedingly cost-effective approach to 
improving the quality of training in clinical research. This efficiency 
is seen throughout the larger K-award program which has many mechanisms 
that go beyond the scope of the K-30's to provide support for career 
development for individual researchers. Highly trained clinical 
researchers are needed in order to capitalize on the many profound 
developments and discoveries in basic science and to translate them to 
clinical settings at all research institutions.
    While the K-30 awards are primarily funded by NCRR, these 
individualized K-awards, like the K-23 Mentored Patient-Oriented 
Research Career Development Awards and the K-24 Midcareer Investigator 
Awards in Patient-Oriented Research are administered by many NIH 
Institutes and Centers. K-23 awards support the career development of 
investigators who have made a commitment to focus their research 
endeavors on patient-oriented research. The purpose of K-24 awards is 
to provide support to mid-career health-professional doctorates that 
are typically at the Associate Professor level for protected time to 
devote to patient-oriented research and to act as research mentors 
primarily for clinical residents, clinical fellows and/or junior 
clinical faculty.
    The universe of K-awards is vast and also includes K-01 Mentored 
Research Scientist Development Awards and K-08 Mentored Clinical 
Scientist Development Awards, amongst others. All of these awards 
mechanism fill a critical research training niche. As the role of the 
clinical investigator gains prominence, it is important to begin 
raising awareness of these mechanisms and to bolstering their support.
    We ask the subcommittee to emphasize its interest in the K-award 
programs and to urge NIH to continue to provide adequate support for K-
awards moving forward.

              THE IMPORTANCE OF CONTINUING TO SUPPORT CER

    The American Recovery and Reinvestment Act of 2009 contained $1.1 
billion for CER activities at NIH and AHRQ. NIH has been conducting 
critical CER for some time and we are pleased that Congress is 
beginning to appreciate the importance of these activities.
    Within the $1.1 billion allocation for CER, $400 million was 
provided to NIH. CTSA program recipients should compete well for a 
portion of these funds as many sites consider CER a crucial component 
of clinical and translational research. Additionally, the CTSA network 
is intended to be a collaborative endeavor capable of leveraging great 
resources to maximize productivity. As CER gains prominence, we hope 
the Subcommittee will recognize the CTSA network as an ideal home for 
comparative effectiveness research activities.
    CER is just one example of how the role of the clinical 
investigator is becoming more critical in a modern healthcare system. 
However, without bolstering clinical research training opportunities we 
will not be able to properly prepare the next generation of clinical 
researchers. This will slow hinder our Nation's capability to stay on 
the cutting edge of medical research and slow the development of new 
treatment options for patients.
    We ask the subcommittee to continue to appreciate and support CER 
activities at NIH and AHRQ. We also ask that concurrently the 
subcommittee express its interest in expanding clinical research 
training opportunities at both NIH and AHRQ.
    Thank you for this opportunity to present the views and 
recommendations of the clinical research training community.

                                ADDENDUM

 National Institutes of Health--National Center for Research Resources 
                                 (NCRR)

                                      CTSA/GCRC ESTIMATE PER CURRENT MODEL
                                              [Dollars in millions]
----------------------------------------------------------------------------------------------------------------
                                                                    Fiscal year     Fiscal year     Fiscal year
                     Cohort                             No.            2009            2010            2011
----------------------------------------------------------------------------------------------------------------
Fiscal year 2006 Grants \1\.....................              12            $140            $140            $116
Fiscal year 2007 Grants \1\.....................              12             120             121             121
Fiscal year 2008 Grants \1\.....................              14             107             107             107
Fiscal year 2009 Grants \1\.....................               5              36              36              36
Fiscal year 2010 Grants \1\.....................               2  ..............              14              14
Fiscal year 2011 Grants \1\.....................              15  ..............  ..............             100
                                                 ---------------------------------------------------------------
      Total, CTSA Grants........................              60             403             418             494

CTSA Support Contract...........................  ..............               3               3               3
K30 Recompetition...............................  ..............  ..............               5               1
                                                 ---------------------------------------------------------------
      Total, CTSAs..............................  ..............             406             426             497

GCRCs...........................................  ..............              69              41               3

      Total, CTSAs/IGCRCs.......................  ..............             475             467             500
----------------------------------------------------------------------------------------------------------------
\1\ UL1, KL2, TL1 awards.


                                 CTSAI/GCRC ESTIMATE IF REQUESTED AMOUNT AWARDED
                                              [Dollars in millions]
----------------------------------------------------------------------------------------------------------------
                                                                    Fiscal year     Fiscal year     Fiscal year
                     Cohort                             No.            2009            2010            2011
----------------------------------------------------------------------------------------------------------------
Fiscal year 2006 Grants \1\.....................              12            $140            $140            $140
Fiscal year 2007 Grants \1\.....................              12             158             158             158
Fiscal year 2008 Grants \1\.....................              14             155             155             155
Fiscal year 2009 Grants \1\.....................               5              50              50              50
Fiscal year 2010 Grants \1\.....................               2  ..............              21              21
Fiscal year 2011 Grants \1\.....................              15  ..............  ..............             142
                                                 ---------------------------------------------------------------
      Total, CTSA Grants........................              60             503             524         \2\ 666

CTSA Support Contract...........................  ..............               3               3               3
K30 Recompetition...............................  ..............  ..............               5               1
                                                 ---------------------------------------------------------------
      Total, CTSAs..............................  ..............             506             532             669

GCRCs...........................................  ..............              69              41               3
                                                 ---------------------------------------------------------------
      Total, CTSAs/IGCRCs.......................  ..............             575             573             672
----------------------------------------------------------------------------------------------------------------
\1\ UL1, KL2, TL1 awards.
\2\ It would cost $666 million to fund 60 CTSAs at the amounts requested by the institutions, which is $166
  million more than the $500 million budget.


                                                   DIFFERENCE
                                              [Dollars in millions]
----------------------------------------------------------------------------------------------------------------
                                                                    Fiscal year     Fiscal year     Fiscal year
                     Cohort                             No.            2009            2010            2011
----------------------------------------------------------------------------------------------------------------
Fiscal year 2006 Grants \1\.....................              12  ..............  ..............         \2\ $24
Fiscal year 2007 Grants \1\.....................              12              38             $37              37
Fiscal year 2009 Grants \1\.....................              14             $48              48              48
Fiscal year 2009 Grants \1\.....................               5              14              14              14
Fiscal year 2010 Grants \1\.....................               2  ..............               7               7
Fiscal year 2011 Grants \1\.....................              15  ..............  ..............              42
                                                 ---------------------------------------------------------------
      Total, CTSA Grants........................              60             100             106             172

CTSA Support Contract...........................  ..............  ..............  ..............  ..............
K30 Recompetition...............................  ..............  ..............  ..............  ..............
                                                 ---------------------------------------------------------------
      Total, CTSAs..............................  ..............             100             106             172

GCRCs...........................................  ..............  ..............  ..............  ..............
                                                 ---------------------------------------------------------------
      Total, CTSAs/IGCDCs.......................  ..............             100             106             172
----------------------------------------------------------------------------------------------------------------
\1\ UL1, KL2, TL1 awards.
\2\ It would cost an additional $100 million in fiscal year 2009, $106 million in fiscal year 2010, and $172
  million in fiscal year 2011 to fund the CTSAs at the amounts requested by the institutions.

                                 ______
                                 
          Prepared Statement of The American Heart Association

    Despite considerable progress, heart disease, stroke, and other 
forms of cardiovascular disease remain major causes of permanent 
disability and our Nation's No. 1 and most costly killer, with a death 
every 37 seconds. Cardiovascular disease will cost our country a 
projected $475 billion in medical costs and lost productivity this 
year. Heart disease, alone, is our leading cause of death and stroke is 
our No. 3 killer.
    In the face of these staggering statistics, heart disease and 
stroke research, treatment and prevention programs remain woefully 
underfunded. For example, National Institutes of Health (NIH) invests 
only 4 percent of its budget on heart research and a mere 1 percent on 
stroke research. This level of funding is not commensurate with 
scientific opportunities, the number afflicted and the economic toll 
exacted on our Nation.
    Cardiovascular disease remains the No. 1 killer in every State and 
many preventable and treatable risk factors continue to escalate. 
Unfortunately, the Centers for Disease Control and Prevention (CDC) has 
been able to provide basic implementation awards to only 14 States 
through its Heart Disease and Stroke Prevention Program and only 20 
States are funded for CDC's WISEWOMAN, a heart disease and stroke 
screening program for low-income uninsured and underinsured females. 
Moreover, where you live could affect whether you survive a 
particularly deadly form of heart disease, sudden cardiac arrest. At 
present, only 12 States receive funding for the Health Resources and 
Services Administration's (HRSA) Rural and Community Access to 
Emergency Devices Program designed to save lives from sudden cardiac 
death.
    The American Heart Association (AHA) appreciates Congress providing 
hope to the 1 in 3 adults in the United States who live with the 
consequences of cardiovascular disease, with the enactment of the 
American Recovery and Reinvestment Act (ARRA) and the fiscal year 2009 
Omnibus Appropriations Act. The Association commends Congress for 
including $10 billion for the NIH and $1 billion for a Prevention and 
Wellness Fund in the ARRA. These are wise and prudent investments that 
will provide both a much needed boost to our Nation's economy and 
enhance health. Yet these funds represent a one-time infusion of 
resources. Stable and sustained funding is imperative to boost heart 
disease and stroke prevention and treatment.

     FUNDING RECOMMENDATIONS: INVESTING IN THE HEALTH OF OUR NATION

    With numerous new and promising research opportunities on the 
horizon and with cardiovascular disease risk factors on the rise, now 
is the time to make a wise enhanced investment to prevent and treat 
America's No. 1 and most costly killer. If Congress fails to capitalize 
on progress against cardiovascular disease now, Americans will pay more 
in the future in lost lives and higher healthcare costs. Our 
recommendations listed below address these issues in a comprehensive 
but fiscally responsible way follow.

                        FUNDING GAP FOR THE NIH

    NIH research has revolutionized patient care and holds the key to 
finding new ways to prevent, treat, and cure cardiovascular disease, 
resulting in longer, healthier lives and reduced healthcare costs. NIH 
invests resources in every State and in 90 percent of congressional 
districts.
    The AHA Recommends.--AHA supports the President's campaign pledge 
to double the NIH budget over the next decade. We advocate for a fiscal 
year 2010 appropriation of $32.4 billion for NIH, a 7 percent increase 
over the fiscal year 2009 appropriation, representing the first 
installment to double the NIH budget by fiscal year 2020. Stable and 
sustained funding is needed to help secure a solid return on Congress' 
investment that has saved millions of lives. NIH supported research 
prevents and cures disease and generates economic growth, creates jobs 
and preserves the U.S. role as the world leader in pharmaceuticals and 
biotechnology. Each NIH grant is associated with approximately seven 
jobs.

 ENHANCE FUNDING FOR NIH HEART AND STROKE RESEARCH: A PROVEN AND WISE 
                               INVESTMENT

    Death rates from coronary heart disease and stroke have each fallen 
by almost 30 percent since 1999. This decline is directly related to 
NIH heart and stroke research, with scientists on the verge of new and 
exciting discoveries that could lead to innovative treatments and even 
cures for heart disease and stroke. For instance, recent NIH research 
has shown that postmenopausal hormone therapy does not prevent heart 
disease and stroke, has defined the genetic basis of dangerous 
responses to vital blood-thinners, and funded early work of the 2007 
Nobel Prize winners in Physiology or Medicine for development of gene 
targeting technology.
    In addition to saving lives, NIH-supported research can cut 
healthcare costs. For example, the original NIH tPA drug trial resulted 
in a 10-year net $6.47 billion reduction in stroke healthcare costs. 
The Stroke Prevention in Atrial Fibrillation Trial 1 produced a 10-year 
net saving of $1.27 billion. But, despite such concrete returns on 
investments and other successes, NIH heart and stroke research 
continues to be disproportionately underfunded, with NIH spending only 
4 percent of its budget on heart research, and a mere 1 percent on 
stroke research. NIH funding for these diseases are not commensurate 
with scientific opportunities, the number afflicted, the increasing 
prevalence, and the economic toll exacted on our Nation.

   CARDIOVASCULAR DISEASE RESEARCH: NATIONAL HEART, LUNG, AND BLOOD 
                           INSTITUTE (NHLBI)

    Cardiovascular disease research funding fails to keep pace with 
medical research inflation and cannot sufficiently support existing 
studies or permit investment in promising research opportunities. The 
sustained loss of purchasing power has reduced NHLBI's ability to 
support investigator-initiated research and has forced cuts in 
Institute programs. Cutbacks will limit the implementation of both the 
NHLBI general and cardiovascular-specific strategic plans. Studies that 
could be scaled back include, the translation of basic research on 
human behavior into real world ways to reduce obesity and promote 
cardiovascular health; research on genetic susceptibility to heart 
disease in the Framingham population followed for three generations, 
and additional research into the best methods for saving lives of 
sudden cardiac arrest sufferers.

   STROKE RESEARCH: NATIONAL INSTITUTE OF NEUROLOGICAL DISORDERS AND 
                             STROKE (NINDS)

    An estimated 795,000 Americans will suffer a stroke this year, and 
more than 137,000 will die. Many of the 6.5 million stroke survivors 
face physical and mental disabilities, emotional distress and huge 
costs--a projected $69 billion in medical expenses and lost 
productivity in 2009.
    The NINDS-sponsored Stroke Progress Review Group has issued a long-
term, stroke research strategic plan. A variety of research initiatives 
have since been undertaken, but more funding is needed to fully 
implement the plan. The fiscal year 2009 estimate for NINDS stroke 
research falls about 60 percent short of the plan's target and 
additional funding is needed for programs such as:
  --Stroke Translational Research.--Translational studies are essential 
        to providing cutting-edge stroke treatment, patient care and 
        prevention. However, due to budget shortfalls, NINDS has been 
        forced to scale back by 30 percent its Specialized Programs of 
        Translational Research in Acute Stroke from a planned 10 
        centers to only 7.
  --Genetic Repository.--NINDS could better understand genetic risk 
        factors associated with stroke by helping more researchers 
        contribute data and findings to an NIH-funded genetic 
        repository and to study available samples.
  --Neurological Emergencies Treatment Trials Network.--NINDS has 
        established a clinical research network of emergency medicine 
        physicians, neurologists and neurosurgeons to develop more and 
        improved treatments for acute neurological emergencies, such as 
        strokes. However, the number of trials will be limited by 
        available funding.
    The AHA Recommends.--AHA supports an fiscal year 2010 appropriation 
of $3.227 billion for the NHLBI; and $1.705 billion for the NINDS. 
These represent a 7 percent increase more than fiscal year 2009--
comparable to the Association's recommended percentage increase for the 
NIH.

                      INCREASE FUNDING FOR THE CDC

    Prevention is the best way to protect the health of Americans and 
reduce the economic burden of heart disease and stroke. However, 
effective prevention strategies and programs are not being implemented 
due to insufficient Federal resources.
    For example, despite the fact that cardiovascular disease remains 
the No. 1 killer in every State, CDC's Division for Heart Disease and 
Stroke Prevention funds only 14 States to implement programs to reduce 
risk factors for heart disease and stroke, improve emergency response 
and quality care, and end treatment disparities. Another 27 States 
receive funds for capacity building (planning); but, there are no funds 
for actual implementation and many of these States have been stalled in 
the planning phase for years--some for a decade.
    This division also administers the WISEWOMAN program that screens 
uninsured and underinsured low-income women ages 40 to 64 in 20 States 
for heart disease and stroke risk. They receive counseling, education, 
referral, and followup as needed. Since January 2000, more than 84,000 
women have been screened and more than 210,000 lifestyle interventions 
have been conducted. An estimated 94 percent of these women were found 
to have at least one risk factor or pre-condition for heart disease, 
stroke, or other forms of cardiovascular disease. This program should 
be expanded to the other 30 States and to screen more eligible women in 
currently funded States.
    The AHA Recommends.--AHA joins with the CDC Coalition in support of 
an appropriation of $8.6 billion for CDC core programs, including 
increases for the Heart Disease and Stroke Prevention and WISEWOMAN 
programs. Within that total, we recommend $74 million for the Heart 
Disease and Stroke Prevention Program, allowing CDC to: (1) add the 
nine unfunded States; (2) elevate up to 18 States with capacity 
building awards to basic program implementation; (3) continue to 
support the remaining funded States; (4) maintain the Paul Coverdell 
National Acute Stroke Registry; (5) increase the capacity for heart 
disease and stroke surveillance; and (6) provide additional support for 
prevention research and program evaluation. We advocates $37 million to 
expand WISEWOMAN to more States. During last year's national 
competition, 10 States received approved applications but were denied 
funding due to insufficient resources. And, we join with the Friends of 
the NCHS in recommending $137.5 million for NCHS and one-time funding 
of $15 million to modernize the vital statistics system.

  RESTORE FUNDING FOR RURAL AND COMMUNITY ACCESS TO EMERGENCY DEVICES 
                             (AED) PROGRAM

    About 92 percent of cardiac arrest victims die outside of a 
hospital. Receiving immediate CPR and the use of an AED can more than 
double your chance of survival. Communities with comprehensive AED 
programs have achieved survival rates of 40 percent or higher. The 
Rural and Community AED Program provides grants to States to buy and 
place AEDs and train lay rescuers and first responders to use them. 
During its first year, 6,400 AEDs were purchased, and placed and 38,800 
individuals were trained. Due to budget cuts, only 12 States receive 
resources for this program.
    The AHA Recommends.--For fiscal year 2010, AHA advocates restoring 
the Rural and Community AED Program to its fiscal year 2005 level of 
$8.927 million.

  INCREASE FUNDING FOR THE AGENCY FOR HEALTHCARE RESEARCH AND QUALITY 
                                 (AHRQ)

    AHRQ develops scientific evidence to improve health and healthcare. 
Through its Effective Health Care Program, AHRQ supports research 
focused on outcomes, comparative effectiveness, and the appropriateness 
of pharmaceuticals, devices and healthcare services for conditions such 
as heart disease, stroke, and high blood pressure.
    On another front, AHRQ's health information technology (HIT) plan 
will help bring healthcare into the 21st century through more than $260 
million invested in more than 200 projects and demonstrations since 
2004. AHRQ and its partners identify challenges to HIT adoption and 
use; develop solutions and best practices; and produce tools that help 
hospitals and clinicians successfully integrate HIT. This work must 
continue as a key component to health reform.
    The AHA Recommends.--AHA joins with Friends of AHRQ in advocating 
for a $405 million in base funding for AHRQ. It will preserve AHRQ's 
current initiatives and get the agency on track to a base budget of 
$500 million by 2013.

                               CONCLUSION

    Cardiovascular disease continues to impose a deadly, disabling and 
costly burden on Americans. However, a robust funding increase for NIH, 
CDC and HRSA research, treatment, and prevention programs will continue 
to save lives and reduce rising healthcare costs. The AHA urges 
Congress to give serious consideration to our recommendations during 
the fiscal year 2010 congressional appropriations process. They are a 
wise investment for our Nation and the health and well-being of all 
Americans now and in future generations.
                                 ______
                                 
               Prepared Statement of Advocate Health Care

                       INTRODUCTION AND OVERVIEW

    Advocate Health Care (Advocate)--the largest integrated healthcare 
provider in Illinois--very much appreciates the opportunity to submit 
written testimony for the record regarding Federal funding for the 
title VII and title VIII programs of the Public Health Service Act. 
Advocate serves 3.1 million patients annually and has a presence in 
virtually every Illinois congressional district through the operation 
of more than 200 sites of care. Specifically, 9 acute care hospitals, 2 
children's hospitals, 4 Level I trauma centers (the State's highest 
designation in trauma care), a home healthcare company, and the 
region's largest medical group--in Illinois' 1st, 2nd, 3rd, 4th, 5th, 
6th, 7th, 8th, 9th, 10th, 13th and 14th Congressional Districts. 
Advocate also serves patients from--and employs people in the 11th and 
16th Congressional Districts of Illinois. As the second largest 
employer in the Chicagoland area, Advocate employs 28,000 individuals, 
including 7,000 nurses. More than 5,000 physicians are also affiliated 
with Advocate.
    Advocate maintains a long-standing commitment to supporting the 
nurses who work within the Advocate system and to increasing resources 
at the State and Federal level to bolster and expand Illinois' and the 
Nation's nursing workforce. High-quality, compassionate health 
professionals are critical to the delivery of care in the Advocate 
system. Without our 7,000 nurses--who work hard every day on behalf of 
patients and their families, our standard of care could not be achieved 
for the millions of people we serve throughout Illinois each year.
    Advocate joins with Members of Congress, national nursing 
organizations, health professional societies and coalitions, and the 
general public in being deeply concerned about the current and 
anticipated national shortages of nurses and other health professionals 
and their potential adverse impact on patient access to quality care. 
To that end, Advocate respectfully urges the House Labor, Health and 
Human Services, and Education, and Related Agencies Appropriations 
Subcommittee to provide $550 million in fiscal year 2010 funding for 
the title VII and title VIII programs of the Public Health Service Act 
to support and expand diversity within the Nation's healthcare 
workforce, and ensure that the Nation has the nurses and other health 
professionals it needs to provide quality care to the patients of today 
and tomorrow.

        THE NURSING SHORTAGE AND THE NEED FOR TITLE VIII FUNDING

    According to an April 13, 2009 Wall Street Journal article, last 
summer, the nation was short approximately 125,000 nurses. The nurse 
faculty shortage is of serious concern, since it is widely recognized 
as a principal cause of the nursing shortage. The American Association 
of Colleges of Nursing reports that in 2008, nearly 50,000 qualified 
applicants were not able to matriculate in nursing school, ``due 
primarily to a shortage of faculty shortage and resource constraints.'' 
Although the recent economic downturn has prompted some nurses, who 
were retired or otherwise not working, to return to the workforce, many 
communities across the nation still do not have enough nurses to work 
in their hospitals and nursing homes, or to provide care in home or 
ambulatory settings.
    The Health Resources and Services Administration (HRSA) estimates 
that, due to a combination of increased demand and the anticipated 
insufficient supply of registered nurses, the Nation will face a 
growing shortage in the years ahead. Specifically, the Nation will be 
short an estimated 275,215 nurses in 2015--a deficit that will grow to 
approximately 808,416 by 2020. Within Illinois, HRSA predicts that the 
State will be short an estimated 9,300 nurses in 2010 and 31,900 in 
2020. Since nearly 60 percent of all nurses are employed by hospitals, 
the national and State level nursing shortages will have a significant 
and disproportionate impact on hospitals and hospital systems, 
including Advocate.
    The Title VIII Nursing Workforce Development Programs, housed at 
HRSA, provide resources to support the education and training for 
entry-level and advanced practice nurses. Specifically, title VIII 
programs offer loans, scholarships, traineeships, and other support to 
tens of thousands of individuals each year. According to the Health 
Professions and Nursing Education Coalition (HPNEC), more than 50,000 
nursing students and nurses received support from title VIII in fiscal 
year 2008. However, it is important to note that the demand for such 
financial support far exceeds current resources. In fiscal year 2008, 
HRSA received 6,078 applications for the Nurse Education Loan Repayment 
Program, but only had the funds to award 435 of those applications. 
Also, in fiscal year 2008, HRSA received 4,894 applications for the 
Nursing Scholarship Program, but only had funding to support 172 
awards. As such, to ensure that the nation can educate, train, and 
deploy enough nurses to the communities most in need, Advocate urges 
the subcommittee to provide a significant increase to title VIII 
programs in fiscal year 2010.

         PHYSICIAN SHORTAGES AND THE NEED FOR TITLE VII FUNDING

    The title VII health professions programs, housed within HRSA, 
provide: loans, loan guarantees and repayments, and scholarships to 
students; and contracts and grants to nonprofit organizations and 
entities, as well as academic institutions. Program funding supports: 
(1) health professional training--with a focus on increasing minority 
representation in the healthcare workforce, and (2) myriad community-
based programs, which seek to increase access to care for underserved 
individuals and communities in Illinois and across the nation. As the 
nation currently faces shortages of primary care and specialty 
physicians--shortfalls that are expected to worsen in the coming 
years--these programs play a critical role in bolstering the nation's 
health workforce and helping to ensure its diversity.
    Advocate is proud that from fiscal year 2003 to fiscal year 2006, 
Advocate Illinois Masonic Medical Center (AIMMC)--an urban, Level I 
trauma center serving primarily high-risk populations in medically 
underserved and ethnically diverse Chicago northside communities--
received a total of more than $600,000 in funding from HRSA for its two 
residency programs--in family practice and dentistry. HRSA funding 
helped support the training of 23 primary care/family practice 
residents, approximately 40 percent of whom were ethnic minorities. 
This Federal funding of the AIMMC residency program helped develop 
dozens of physicians who chose to practice in primary care, many of 
whom specifically work in underserved communities. For example, 
graduates of the AIMMC family residency program have gone on to 
practice in rural health clinics, Federally Qualified Health Centers, 
Federal and State Health Professional Shortage Areas, the Indian Health 
Service, and HIV/AIDS primary care clinics. In addition, past HRSA 
funding also supported the AIMMC dental residency program, allowing the 
staffing of a mobile dental van that provides care to approximately 600 
individuals--primarily uninsured--who have limited access to dental 
providers and care.
    As you know, funding for the title VII programs was reduced by more 
than 50 percent from fiscal year 2005 to fiscal year 2006, and funding 
for the title VIII program was decreased by nearly 34 percent during 
the same period. Due to these significant cuts--coupled with modest 
increases in the subsequent years--there have not been adequate 
resources to continue to fund Advocate's residency programs. The lack 
of title VII and title VIII funding has had a significant impact on 
our--and other hospitals'--ability to train the next generation of 
physicians and dentists. Moreover, we are concerned that the Nation is 
not investing adequately in health professionals who have an interest 
in--and commitment to--working in underserved communities. Increased 
fiscal year 2010 funding for title VII will help ensure that our nation 
is making the investment necessary to have the educated, well-trained, 
and diverse health professional workforce to care for a growing 
population in need.

            FISCAL YEAR 2010 FUNDING REQUEST AND CONCLUSION

    As the Congress works to increase access to healthcare for all 
Americans--a critical action we support--the number of individuals 
seeking care is anticipated to grow significantly. At the exact same 
time that demand for healthcare likely will rise, the Nation is facing 
a significant shortage of nurses, physicians, and other health 
professionals. Therefore, we urge the subcommittee to provide $550 
million to the title VII and title VIII programs of the Public Health 
Service Act to bolster the Nation's health workforce and ensure access 
to care for all in need. We thank the subcommittee for its 
consideration of our views and stand ready to be a resource to you on 
health workforce and other matters.
                                 ______
                                 
      Prepared Statement of The Ad Hoc Group for Medical Research

    The Ad Hoc Group for Medical Research, which is a coalition of more 
than 300 patient and voluntary health groups, medical and scientific 
societies, academic and research organizations, and industry, thanks 
and commends Congress for including the extraordinary investment in 
medical research through the National Institutes of Health (NIH) that 
was included as part of in the American Recovery and Reinvestment Act 
(ARRA, Public Law 111-5) as well as the $938 million increase in NIH 
funding in the Omnibus Appropriations Act for fiscal year 2009 (Public 
Law 111-8). In particular, we are deeply grateful to the subcommittee 
for its long-standing support of NIH. These are difficult times for our 
Nation and for people all around the globe, but the affirmation of 
science is the key to a better future is a strategic step forward.
    The partnership between NIH and America's scientists, medical 
schools, teaching hospitals, universities, and research institutions 
continues to serve as the driving force in this Nation's search for 
ever-greater understanding of the mechanisms of human health and 
disease, from which arise new diagnostics and treatments, and cures, 
and better ways to improve the health and quality of life for all 
Americans. These advances also contribute to the Nation's economic 
strength by creating skilled, high-paying jobs; new products and 
industries; and improved technologies.
    The recent history of the NIH budget has hindered scientific 
discovery and limited the capacity of a key engine for today's 
innovation-based economy. The additional funding in the ARRA and the 
fiscal year 2009 omnibus are critical first steps to returning the NIH 
to a course for even greater discovery. These investments give 
patients, their families and researchers renewed hope for the future, 
and will help ensure the success of America's medical research 
enterprise and leadership.
    The funding increases in the ARRA and the fiscal year 2009 omnibus 
will provide an immediate infusion of funds into the Nation's proven 
and highly competitive medical research enterprise to sustain the 
pursuit of improved diagnostics, better prevention strategies, and new 
treatments for many devastating and costly diseases as well as support 
innovative research ideas, state-of-the-art scientific facilities and 
instrumentation, and the scientists, technicians, laboratory personnel, 
and administrators necessary to maintain the enterprise. More 
importantly, these funds will reinvigorate this Nation's ability to 
produce the human and intellectual capital that will continue to drive 
scientific discovery, transform health, and improve the quality of life 
for all Americans.
    Moreover, we see this as the first step in renewing a national 
commitment to sustained, predictable growth in NIH funding, which we 
believe is an essential element in restoring and sustaining both 
national and local economic growth and vitality as well as maintaining 
this Nation's prominence as the world leader in medical research.
    President Obama has committed to increase Federal support for 
research, technology, and innovation so that America can lead the world 
in creating new advanced jobs and products. A key element of his 
strategy is to double Federal funding for basic research to ``foster 
home-grown innovation, help ensure the competitiveness of U.S. 
technology-based businesses, and ensure that 21st century jobs can and 
will grow in America.'' If America is to succeed in the information-
based, innovation driven world-wide economy of the 21st century, we 
must recommit to long-term sustained and predictable growth in medical 
research funding.
    As a result of this subcommittee's prior investment in NIH, we have 
made critical advances in several key areas including:
  --Stem Cells.--Reprogramming skin cells from a patient with 
        Parkinson's Disease into normal neurons that could be used to 
        fight this degenerative disease.
  --Infectious Diseases.--Developing more effective antibodies, and 
        ultimately vaccines, to fight lethal flu viruses before they 
        become pandemic.
  --Cancer.--Launching the Cancer Genome Atlas as a partnership between 
        the National Cancer Institute and the National Human Genome 
        Research Institute to discover the genetic basis for various 
        cancers.
    In addition, as a consequence of the investment over the past two 
decades in the human genome project and other areas of genetics, we are 
now entering an era of personalized medicine, which has the potential 
to transform healthcare through earlier diagnosis, more effective 
prevention and treatment of disease, and avoidance of drug side 
effects. For example, the same medication can help one patient and be 
ineffective for, or toxic to, another. By applying our greater 
understanding of how an individual's genetic make-up affects a response 
to specific drugs, we will increasingly know which patients will likely 
benefit from treatment and which will not benefit, or worse, be harmed. 
Cancer chemotherapy and the use of the anticoagulant Coumadin are good 
examples of how this might be applied.
    However, the discovery process--while it produces tremendous 
value--often takes a lengthy and unpredictable path. The talent base 
and infrastructure that we are creating needs to be maintained. Large 
fluctuations in funding will be disruptive to training, to careers, 
long range projects and ultimately to progress. The research engine 
needs a predictable, sustained investment in science to maximize our 
return.
    We must ensure that after the stimulus money is spent we do not 
have to dismantle our newly built capacity and terminate valuable, on-
going research. In 2011 and beyond we need to be able to continue to 
advance the new directions initiated with ARRA support.
    The fiscal year 2009 omnibus and the ARRA provided $38.5 billion 
for NIH to provide more than 16,000 new research grants for live-saving 
research into diseases such as cancer, diabetes, and Alzheimer's. 
Keeping up with the rising cost of medical research in the 2010 
appropriations will help NIH begin to prepare for the ``post-stimulus'' 
era. In 2011 and beyond we need to make sure that the total funding 
available to NIH does not decline and that we can resume a steady, 
sustainable growth that will enable us to achieve the President's goal 
of doubling our investment in basic research. Consistent with the 
President's vision, we respectfully urge this subcommittee to increase 
funding for NIH in fiscal year 2010 by at least 7 percent.
    The ravages of disease are many, and the opportunities for progress 
across all fields of medical science to address these needs are 
profound. The community appreciates that this subcommittee has always 
recognized that science is unpredictable and that it is difficult to 
know exactly which discoveries gained through basic research will 
foster the next medical advancement. There are many examples of areas 
where important therapies for one disease have resulted from 
investments in unrelated areas of research. Investing broadly in 
biomedical research is the key to ensuring the future of America's 
medical research enterprise and the health of her citizens.
    Thank you again for your leadership in improving the health and 
quality of life for all Americans.
                                 ______
                                 
                Prepared Statement of the AIDS Institute

    Dear Chairman Harkin and members of the subcommittee: The AIDS 
Institute, a national public policy research, advocacy, and education 
organization, is pleased to comment in support of critical HIV/AIDS and 
Hepatitis programs as part of the fiscal year 2010 Labor, Health and 
Human Services, and Education, and Related Agencies appropriation 
measure. We thank you for your support of these programs over the 
years, and trust you will do your best to adequately fund them in the 
future in order to provide for and protect the health of the Nation.

                                HIV/AIDS

    HIV/AIDS remains one of the world's worst health pandemics in 
history. Worldwide, some 33 million people are infected with this 
incurable infectious disease, and 7,400 new infections occur each day. 
Tragically, AIDS has already claimed the lives of more than 25 million. 
In the United States 583,298 people have died of AIDS. Last year, the 
CDC announced that its estimate of new infections per year is now 
56,300, which is 40 percent higher than previous estimates. That 
translates into a new infection every 9\1/2\ minutes. At the end of 
2007, an estimated 1.1 million people in the United States were living 
with HIV/AIDS.
    Persons of minority races and ethnicities are disproportionately 
affected by HIV/AIDS. African Americans, who make up 12 percent of the 
U.S. population, account for half of the HIV/AIDS cases. HIV/AIDS also 
disproportionately affects the poor, and about 70 percent of those 
infected rely on public healthcare financing.
    The U.S. Government has played a leading role in fighting HIV/AIDS, 
both here and abroad. The vast majority of the discretionary programs 
supporting HIV/AIDS efforts domestically are funded through your 
subcommittee. The AIDS Institute, working in coalition with other AIDS 
organizations, has developed funding request numbers for each of these 
domestic AIDS programs. We ask that you do your best to adequately fund 
them at the requested level.
    Below are the program requests and supporting explanation:

     CENTERS FOR DISEASE CONTROL AND PREVENTION--HIV PREVENTION AND
                              SURVEILLANCE
                        [In millions of dollars]
------------------------------------------------------------------------
                                                              Amount
------------------------------------------------------------------------
Fiscal year 2009........................................             692
Fiscal year 2010 President's budget request.............             745
Fiscal year 2010 community request......................           1,570
------------------------------------------------------------------------

    As stated above, the Centers for Disease Control and Prevention 
(CDC) has increased the estimate of people infected each year by 40 
percent. New infections are particularly occurring in certain 
populations, such as the poor, African-Americans, men who have sex with 
men, Latinos, substance users, and the incarcerated. In order to 
address the specific needs of these populations and the increased 
number of people infected, CDC is going to need additional funding.
    The CDC has developed a professional judgment budget outlining what 
funding is necessary to improve HIV prevention efforts and reduce HIV 
transmission in the United States. The professional judgment budget 
called for an additional $877 million in funding over the next 5 years. 
With the additional funding the CDC estimates that by 2020 it could 
decrease the HIV transmission rate by 50 percent, reduce the number of 
people who do not know their status by 50 percent, and halve the 
disparities in the Black and Hispanic communities.
    This additional funding would be targeted toward: (1) Increasing 
HIV testing and the number of people who are reached by effective 
prevention programs; (2) developing new tools to fight HIV with 
scientifically proven interventions; and (3) improving systems to 
monitor HIV and related risk behaviors, and to evaluate prevention 
programs.
    Investing in prevention today will save money tomorrow. Every case 
of HIV that is prevented saves, on average, $1 million of lifetime 
treatment costs for HIV. The CDC estimates that the cost of treating 
the estimated 56,300 new HIV infections in 2006 will translate into 
$9.5 billion in annual future medical costs.

                      RYAN WHITE HIV/AIDS PROGRAMS
                       [In millions of dollars]
------------------------------------------------------------------------
                                                              Amount
------------------------------------------------------------------------
Fiscal year 2009........................................           2,238
President's budget request..............................           2,292
Community request.......................................           2,816
------------------------------------------------------------------------

    The centerpiece of the Government's response to caring and treating 
low-income people with HIV/AIDS is the Ryan White HIV/AIDS Program. 
Ryan White currently serves more than half and million low-income, 
uninsured, and underinsured people each year.
    In fiscal year 2009, the Program received an increase of $72 
million, or just 3.3 percent. This increase does not even cover the 
rate of inflation. In his fiscal year 2010 budget the President is 
proposing an increase of $54 million, or just 2.2 percent. This 
includes a $20 million increase, or only 2.5 percent, to the AIDS Drug 
Assistance Program. The AIDS Institute urges you to provide substantial 
funding increases to all parts of the Ryan White Program. Consider the 
following:
  --Caseload Levels are Increasing.--People are living longer due to 
        lifesaving medications; there are more than 56,000 new 
        infections each year; and increased testing programs, according 
        to the CDC, will identify 12,000 to 20,000 new people infected 
        with HIV each year. With rising unemployment, people are losing 
        their employer-sponsored health coverage. All of this will 
        necessitate the need for more Ryan White services and 
        medications.
  --The price of healthcare, including medications, is increasing and 
        State and local budgets are experiencing cutbacks due to the 
        economic downturn. A recent survey by the National Alliance of 
        State and Territorial AIDS Directors found that 50 percent of 
        ADAP programs have experienced or will experience State funding 
        decreases in fiscal year 2009.
  --There are significant numbers of people in the United States who 
        are not receiving life-saving AIDS medications. An IOM report 
        concluded that 233,069 people in the United States who know 
        their HIV status do not have continuous access to Highly Active 
        Antiretroviral Therapy.
    Specifically, The AIDS Institute requests the following funding 
levels for each part of the Program:
  --Part A provides medical care and vital support services for persons 
        living with HIV/AIDS in the metropolitan areas most affected by 
        HIV/AIDS. We request an increase of $103 million, for a total 
        of $766.1 million.
  --Part B base provides essential services including diagnostic, viral 
        load testing, and viral resistance monitoring and HIV care to 
        all 50 States, DC, Puerto Rico, and the territories. We are 
        requesting a $105.4 million increase, for a total of $514.2 
        million.
  The AIDS Drug Assistance Program (ADAP) provides life-saving HIV drug 
        treatment to more than 140,000 people. Due to a lack of 
        funding, States have not been able to include all necessary 
        drugs on their formularies, have limited eligibility and capped 
        enrollment. In order to address the 8,472 new ADAP clients and 
        drug cost increases, we are requesting an increase of $268.6 
        million for a total of $1,083.6 million.
  --Part C provides early medical intervention and other supportive 
        services to more than 248,000 people at more than 380 directly 
        funded clinics. We are requesting a $66.4 million increase, for 
        a total of $268.3 million.
  --Part D provides care to more than 84,000 women, children, youth, 
        and families living with and affected by HIV/AIDS. This family-
        centered care promotes better health, prevents mother-to-child 
        transmission, and brings hard-to-reach youth into care. We are 
        requesting a $57.7 million increase, for a total of $134.6 
        million.
  --Part F includes the AIDS Education and Training Centers (AETCs) 
        program and the Dental Reimbursement program. We are requesting 
        a $15.6 million increase for the AETC program, for a total of 
        $50 million, and a $5.6 million increase for the Dental 
        program, for a total of $19 million.
    The AIDS Institute supports increased funding for the Minority AIDS 
Initiative (MAI). MAI funds services nationwide that address the 
disproportionate impact that HIV has on communities of color. We are 
requesting a $200.5 million increase across these programs, for a total 
of $610 million.

              NATIONAL INSTITUTES OF HEALTH--AIDS RESEARCH
                        [In billions of dollars]
------------------------------------------------------------------------
                                                              Amount
------------------------------------------------------------------------
Fiscal year 2009........................................            3.01
President's budget request..............................            3.06
Community request.......................................             3.5
------------------------------------------------------------------------

    Through the National Institutes of Health (NIH), research is 
conducted to understand HIV and its complicated mutations, discover new 
drug treatments, develop a vaccine and other prevention programs such 
as microbicides, and ultimately develop a cure. Much of this work at 
the NIH is done in cooperation with private funding. The critically 
important work performed by the NIH not only benefits those in the 
United States, but the entire world.
    This research has already helped in the development of many highly 
effective new drug treatments, prolonging the lives of millions of 
people. As neither a cure nor a vaccine exists, and patients continue 
to build resistance to existing medications, additional research must 
continue. NIH also conducts the necessary behavioral research to learn 
how HIV can be prevented best in various affected communities. We ask 
the subcommittee to fund critical AIDS research at the community 
requested level of $3.5 billion.

                      COMPREHENSIVE SEX EDUCATION

    The President's proposed budget eliminates appropriated funding for 
abstinence-only until marriage programs and instead creates a Teen 
Pregnancy Prevention Program primarily for interventions that have gone 
through a rigorous evaluation to delay sexual activity, reduce teen 
pregnancy, or increase contraceptive use. We fully support the zeroing-
out of Community Based Abstinence Education programs. However, we hope 
these new programs will be used to fund efforts to protect teen sexual 
health beyond the prevention of teen pregnancy. Messages to prevent 
teen pregnancy may not speak to all youth, particularly gay youth, who 
are at a high risk of HIV infection. We request that the $110 million 
in discretionary funds in the President's budget for the Teen Pregnancy 
Prevention Initiative be maintained and that the language be broadened 
to include HIV and STD prevention.

                       SYRINGE EXCHANGE PROGRAMS

    At least one-quarter of all reported AIDS cases in our country are 
attributed to injection drug use through the sharing of needles and 
syringes. Federal scientific studies have repeatedly demonstrated that 
syringe exchange programs reduce the transmission of HIV and other 
infectious diseases without increasing or encouraging the use of 
illicit drugs, and may even help reduce drug use by creating a point of 
entry for addiction treatment. Today, there are nearly 200 such 
programs operating in 38 States, DC, and Puerto Rico. Despite their 
proven effectiveness, there is a ban on the use of Federal funds for 
these programs. We urge you to lift the Federal funding ban on syringe 
exchange programs in fiscal year 2010.

                            VIRAL HEPATITIS

    Viral Hepatitis, whether A, B, or C, is an infectious disease that 
also deserves increased attention by the Federal Government. According 
to the CDC, there are an estimated 800,000 to 1.4 million Americans 
chronically infected with Hepatitis B, and 46,000 new infections each 
year. An estimated 1.6 percent of Americans have been infected with 
Hepatitis C, of whom 3.2 million are chronically infected. It is 
believed that one quarter of those infected with HIV are co-infected 
with Hepatitis C.
    Given these numbers, we are disappointed the program is currently 
funded at a level that is substantially less than what it was funded in 
fiscal year 2003 and falls far short of what is needed. In the 
President's budget, funding for Hepatitis Prevention at the CDC is 
slated to receive a negligible increase of $51,000. Funds are needed to 
establish a program to lower the incidence of Hepatitis through 
education, outreach, and surveillance. We are requesting an increase of 
$31.7 million for the program, for a total of $50 million.
    The AIDS Institute asks that you give weight to our testimony as 
you consider the fiscal year 2010 appropriation bill.
                                 ______
                                 
 Prepared Statement of the American Indian Higher Education Consortium

    Summary of Requests.--Summarized below are the fiscal year 2010 
recommendations for the Nation's 36 Tribal Colleges and Universities 
(TCUs), covering three areas within the Department of Education and one 
in the Department of Health and Human Services (HHS), Administration 
for Children and Families' (ACF) Head Start Program.

                    DEPARTMENT OF EDUCATION PROGRAMS

Higher Education Act (HEA) Programs
    Strengthening Developing Institutions.--Section 316 of title III-A, 
specifically supports TCUs through two separate grant programs: (a) 
formula funded development grants, and (b) competitive facilities/
construction grants designed to address the critical facilities needs 
at TCUs. The TCUs request that the Subcommittee appropriate $32 million 
to support these two vital programs.
    Pell Grants.--TCUs urge the subcommittee to fund the Pell Grant 
Program at the highest possible level.
Perkins Career and Technical Education Programs
    The TCUs urge the Subcommittee to appropriate $8.5 million for 
section 117 of the Carl D. Perkins Career and Technical Education 
Improvement Act, which supports our two Tribally Controlled 
Postsecondary Vocational Institutions: United Tribes Technical College 
and Navajo Technical College. Additionally, TCUs strongly support the 
Native American Career and Technical Education Program (NACTEP) 
authorized under section 116 of the act.
Relevant Title IX Elementary and Secondary Education Act (ESEA) 
        Programs
    Adult and Basic Education.--Although Federal funding for tribal 
adult education was eliminated in fiscal year 1996, TCUs continue to 
offer much needed adult education, GED, remediation and literacy 
services for American Indians, yet their efforts cannot meet the 
demand. The TCUs request that the subcommittee direct $5 million of the 
Adult Education State Grants appropriated funds to make awards to TCUs 
to support their ongoing and essential adult and basic education 
programs.
    American Indian Teacher and Administrator Corps.--The American 
Indian Teacher Corps and the American Indian Administrator Corps offer 
professional development grants designed to increase the number of 
American Indian teachers and administrators serving their reservation 
communities. The TCUs request that the subcommittee support these 
programs at $10 million and $5 million, respectively.

                              HHS PROGRAM

TCUs Head Start Partnership Program (DHHS-ACF)
    TCUs are ideal partners to help achieve the goals of Head Start in 
Indian country. The TCUs are working to meet the mandate that Head 
Start teachers earn degrees in Early Childhood Development or a related 
discipline. The TCUs request that $5 million be designated for the TCU-
Head Start Partnership program, to ensure the continuation of current 
programs and the resources needed to support additional TCU-Head Start 
Partnership programs.

                           BACKGROUND ON TCUS

    TCUs are accredited by independent, regional accreditation agencies 
and like all institutions of higher education, must undergo stringent 
performance reviews on a periodic basis to retain their accreditation 
status. In addition to college level programming, TCUs provide 
essential high school completion (GED), basic remediation, job 
training, college preparatory courses, and adult education programs. 
TCUs fulfill additional roles within their respective reservation 
communities functioning as community centers, libraries, tribal 
archives, career and business centers, economic development centers, 
public meeting places, and child and elder care centers. Each TCU is 
committed to improving the lives of its students through higher 
education and to moving American Indians toward self-sufficiency.
    TCUs provide access to higher education for American Indians and 
others living in some of the Nation's most rural and economically 
depressed areas. According to 2000 Decennial Census data, the annual 
per capita income of the U.S. population was $21,587. In contrast, the 
annual per capita income of Native Americans was $12,893 or about 40 
percent less. In addition to serving their student populations, TCUs 
offer a variety of much needed community outreach programs.
    These institutions, chartered by their respective tribal 
governments, were established in response to the recognition by tribal 
leaders that local, culturally-based institutions are best suited to 
help American Indians succeed in higher education. TCUs effectively 
blend traditional teachings with conventional postsecondary curricula. 
They have developed innovative ways to address the needs of tribal 
populations and are overcoming long-standing barriers to success in 
higher education for American Indians. Since the first TCU was 
established on the Navajo Nation just 40 years ago, these vital 
institutions have come to represent the most significant development in 
the history of American Indian higher education, providing access to, 
and promoting achievement among, students who may otherwise never have 
known postsecondary education success.
  justifications for fiscal year 2010 appropriations requests for tcus
HEA
    The Higher Education Act Amendments Act of 1998 created a separate 
section (Sec. 316) within title III-A specifically for the Nation's 
TCUs. Programs under titles III and V of the act support institutions 
that enroll large proportions of financially disadvantaged students and 
that have low per-student expenditures. Tribal colleges, which are 
truly developing institutions, are providing access to quality higher 
education opportunities to some of the most rural, impoverished, and 
historically underserved areas of the country. A clear goal of HEA 
title III programs is ``to improve the academic quality, institutional 
management and fiscal stability of eligible institutions, in order to 
increase their self-sufficiency and strengthen their capacity to make a 
substantial contribution to the higher education resources of the 
Nation.'' The TCU title III program is specifically designed to address 
the critical, unmet needs of their American Indian students and 
communities, in order to effectively prepare them to succeed in a 
global, competitive workforce. The TCUs urge the subcommittee to 
appropriate $32 million in fiscal year 2010 for title III-A section 
316, an increase of $8.8 million more than fiscal year 2009. These 
funds will afford these developing institutions the resources necessary 
to continue their ongoing grant programs and address the needs of their 
historically underserved students and communities.
    The importance of Pell Grants to TCU students cannot be overstated. 
U.S. Department of Education figures show that the majority of TCU 
students receive Pell Grants, primarily because student income levels 
are so low and our students have far less access to other sources of 
financial aid than students at State-funded and other mainstream 
institutions. Within the TCU system, Pell Grants are doing exactly what 
they were intended to do--they are serving the needs of the lowest 
income students by helping them gain access to quality higher 
education, an essential step toward becoming active, productive members 
of the workforce. The TCUs urge the subcommittee to fund this critical 
program at the highest possible level.

           CARL D. PERKINS CAREER AND TECHNICAL EDUCATION ACT

    Tribally-controlled Postsecondary Vocational Institutions.--Section 
117 of the Perkins Act provides operating funds for two of our member 
institutions: United Tribes Technical College in Bismarck, North 
Dakota, and Navajo Technical College in Crownpoint, New Mexico. The 
TCUs urge the subcommittee to appropriate $8.5 million for section 117 
of the act.
    Native American Career and Technical Education Program.--The Native 
American Career and Technical Education Program (NACTEP) under section 
116 of the Act reserves 1.25 percent of appropriated funding to support 
Indian vocational programs. The TCUs strongly urge the subcommittee to 
continue to support NACTEP, which is vital to the continuation of much 
needed career and technical education programs being offered at TCUs.

              GREATER SUPPORT OF INDIAN EDUCATION PROGRAMS

    American Indian Adult and Basic Education (Office of Vocational and 
Adult Education).--This program supports adult basic education programs 
for American Indians offered by TCUs, State and local education 
agencies, Indian tribes, institutions, and agencies. Despite a lack of 
funding, TCUs must find a way to continue to provide basic adult 
education classes for those American Indians that the present K-12 
Indian education system has failed. Before many individuals can even 
begin the course work needed to learn a productive skill, they first 
must earn a GED or, in some cases, even learn to read. The number of 
students in need of remedial education before embarking on their degree 
programs is considerable at TCUs. There is a broad need for basic adult 
educational programs and TCUs need adequate funding to support these 
essential activities. TCUs respectfully request that the subcommittee 
direct $5 million of the Adult Education State Grants appropriated 
funds to make awards to TCUs to help meet the ever increasing demand 
for basic adult education and remediation program services that exists 
on their respective reservations.
    American Indian Teacher/Administrator Corps (Special Programs for 
Indian Children).--American Indians are severely underrepresented in 
the teaching and school administrator ranks nationally. These 
competitive programs are designed to produce new American Indian 
teachers and school administrators for schools serving American Indian 
students. These grants support recruitment, training, and in-service 
professional development programs for Indians to become effective 
teachers and school administrators and in doing so become excellent 
role models for Indian children. We believe that the TCUs are ideal 
catalysts for these two initiatives because of their current work in 
this area and the existing articulation agreements they hold with 4-
year degree awarding institutions. The TCUs request that the 
subcommittee support these two programs at $10 million and $5 million, 
respectively, to increase the number of qualified American Indian 
teachers and school administrators in Indian Country.

                           HHS/ACF/HEAD START

    TCUs Head Start Partnership Program.--The TCU-Head Start 
Partnership has made a lasting investment in our Indian communities by 
creating and enhancing associate degree programs in Early Childhood 
Development and related fields. Graduates of these programs help meet 
the degree mandate for all Head Start program teachers. More 
importantly, this program has afforded American Indian children Head 
Start programs of the highest quality. A clear impediment to the 
ongoing success of this partnership program is the erratic availability 
of discretionary funds made available for the TCU-Head Start 
Partnership. In fiscal year 1999, the first year of the program, some 
colleges were awarded 3-year grants, others 5-year grants. In fiscal 
year 2002, no new grants were awarded. In fiscal year 2003, funding for 
eight new TCU grants was made available, but in fiscal year 2004, only 
two new awards could be made because of the lack of adequate funds. The 
President's February 26, 2009 budget summary includes an additional $1 
billion to improve and expand Head Start. The TCUs request that the 
subcommittee direct the Head Start Bureau to designate $5 million, of 
the more than $7.2 billion included in the President's budget, to fund 
the TCU-Head Start Partnership program, to ensure that this critical 
program can continue and expand so that all TCUs have the opportunity 
to participate in the TCU-Head Start Partnership program.

                               CONCLUSION

    TCUs are providing access to higher education opportunities to many 
thousands of American Indians and essential community services and 
programs to many more. The modest Federal investment in TCUs has 
already paid great dividends in terms of employment, education, and 
economic development, and continuation of this investment makes sound 
moral and fiscal sense. TCUs need your help if they are to sustain and 
grow their programs and achieve their missions to serve their students 
and communities.
    Thank you again for this opportunity to present our funding 
recommendations. We respectfully ask the members of the subcommittee 
for their continued support of the Nation's TCUs and full consideration 
of our fiscal year 2010 appropriations needs and recommendations.
                                 ______
                                 
     Prepared Statement of the Association of Independent Research 
                               Institutes

    The Association of Independent Research Institutes (AIRI) 
respectfully submits this written testimony for the record to the 
Senate Appropriations Subcommittee on Labor, Health and Human Services, 
Education, and Related Agencies. AIRI appreciates the commitment that 
the members of this subcommittee have made to biomedical research 
through your strong support for the National Institutes of Health 
(NIH), and recommends that you maintain this support for NIH in fiscal 
year 2010 by providing the agency with at least a 7 percent increase 
more than fiscal year 2009.
    AIRI is a national organization of 90 independent, nonprofit 
research institutes that perform basic and clinical research in the 
biological and behavioral sciences. AIRI institutes vary in size, with 
budgets ranging from a few million to hundreds of millions of dollars. 
In addition, each AIRI member institution is governed by its own 
independent board of directors, which allows our members to focus on 
discovery based research while remaining structurally nimble and 
capable of adjusting their research programs to emerging areas of 
inquiry. Researchers at independent research institutes consistently 
exceed the success rates of the overall NIH grantee pool, and receive 
about 10 percent of NIH's peer-reviewed, competitively awarded 
extramural grants. On average, AIRI member institutes receive a total 
of $1.6 billion in extramural grants from NIH in any given year.
    Through passage of the American Recovery and Reinvestment Act 
(ARRA) and the Omnibus Appropriations Act for fiscal year 2009, the 
administration and Congress have taken critical steps to jump start the 
Nation's economy. Simultaneously, Congress is advancing and 
accelerating the biomedical research agenda in this country by focusing 
on scientific opportunities to address public health challenges. NIH 
now has the ability to fund a record number of research grants, with 
special emphasis on groundbreaking projects in areas that show the 
greatest potential for improving health, including genetic medicine, 
clinical research, and health disparities. In addition, NIH is also 
funding construction projects and providing support for equipment and 
instrumentation.
    NIH is responding to its charge of stimulating the economy through 
job creation by supporting new scientists, construction workers, and 
suppliers. NIH is also supporting the next generation of biomedical 
research through cross-cutting, interdisciplinary initiatives such as 
those supported in the NIH Roadmap, the NIH Neuroscience Blueprint, the 
Clinical and Translational Science Award program, and the Genes, 
Environment and Health Initiative. Independent research institutes are 
involved extensively in these initiatives and will be beneficiaries of 
ARRA funds, making them an important and vital component of the overall 
U.S. medical research enterprise. Therefore, independent research 
institutes are positioned to help Congress achieve its goal of 
improving the quality of life for all Americans.
    However, the discovery process--while it produces tremendous 
value--often takes a lengthy and unpredictable path. The infrastructure 
that we are creating needs to be maintained. Large fluctuations in 
funding will be disruptive to training, to careers, long-range projects 
and ultimately to progress. The research engine needs a predictable, 
sustained investment in science to maximize our return.
    We must ensure that after the stimulus money is spent we do not 
have to dismantle our newly built capacity and terminate valuable, on-
going research. In 2011 and beyond we need to be able to continue to 
advance the new directions charted with the ARRA support.
    Keeping up with the rising cost of medical research in the 2010 
appropriations will help NIH begin to prepare for the ``post-stimulus'' 
era. In 2011 and beyond we need to make sure that the total funding 
available to NIH does not decline and that we can resume a steady, 
sustainable growth that will enable us to complete the President's 
vision of doubling our investment in basic research, which is why we 
are respectfully urging this subcommittee to increase funding for NIH 
in fiscal year 2010 by at least 7 percent.

                           AIRI'S COMMITMENT

Pursuing New Knowledge
    The United States model for conducting biomedical research, which 
involves supporting scientists at universities, medical centers, and 
independent research institutes, provides an effective approach to 
making fundamental discoveries in the laboratory and translating them 
into medical advances that save lives. AIRI member institutes are 
private, stand-alone research centers that set their sights on the vast 
frontiers of medical science, specifically focused on pursuing 
knowledge about the biology and behavior of living systems and to apply 
that knowledge to extend healthy life and reduce the burdens of illness 
and disability.

Providing Efficiency and Flexibility
    AIRI member institutes' smaller size and greater flexibility 
provide an environment that is particularly conducive to creativity and 
innovation. In addition, independent research institutes possess a 
unique versatility/culture that encourages them to share expertise, 
information, and equipment across their institutes and elsewhere, which 
helps to minimize bureaucracy and increase efficiency when compared to 
larger degree-granting academic universities.
Supporting Young Researchers
    While the primary function of AIRI institutes is research, most are 
strongly involved in training the next generation of biomedical 
researchers and ensuring that a pipeline of promising researchers are 
prepared to make significant and potentially transformative discoveries 
in a variety of areas.
    AIRI would like to thank the subcommittee for its important work to 
ensure the health of the Nation, and we appreciate this opportunity to 
present funding recommendations concerning NIH in the fiscal year 2010 
appropriations bill. AIRI looks forward to working with Congress to 
carry out the research that will lead to improving the health and 
quality of life for all Americans.
                                 ______
                                 
  Prepared Statement of the Association of Maternal and Child Health 
                                Programs

    Chairman Harkin and distinguished subcommittee members: I am 
grateful for this opportunity to submit written testimony on behalf of 
the Association of Maternal & Child Health Programs (AMCHP), our 
members, and the millions of women and children that are served by the 
title V Maternal and Child Health Services Block Grant. My name is Dr. 
Phyllis Sloyer and I am the current president of AMCHP, as well a 
Division Director at the Florida Department of Health. I am asking the 
subcommittee to support full funding for the title V Maternal and Child 
Health Services Block Grant at its authorized level of $850 million for 
Federal fiscal year 2010.
    To help illustrate the importance of title V MCH funding, I want to 
begin by sharing the story of a girl from Iowa who was helped by title 
V services.
    Cora is a girl who was born 34 weeks prematurely. She was first 
seen at a Child Health Specialty Clinic when she was only 3 weeks of 
age. While at the clinic, she was diagnosed with, plagiocephaly also 
sometimes referred to a ``flat head syndrome''. This problem occurs 
when a portion of an infant's skull becomes flattened due to pressure 
from outside forces and is not uncommon in premature infants. Workers 
at the clinic provided the new family with vital information on the 
disorder and what to expect. Cora was able to be seen by a pediatrician 
via telemedicine and was able to obtain a referral to see specialists 
in the treatment of plagiocephal. Cora is now 20 months old and likes 
to go to the local park and ride the merry-go-round. This same clinic 
that helped Cora and her family is supported by the Title V MCH Block 
Grant and would not be able to remain open without the funds and 
support that title V funds offer. It is a great thing that families can 
come to a clinic close to their home, or be seen using health 
technology and be provided a complete physical, neurological, 
developmental evaluation for their kids.
    This is just one example of the literally thousand of children--
children with special healthcare needs and pregnant women that are 
served by title V programs in Chairman Harkin's State alone. The MCH 
Block Grant supports a similar network in my home State of Florida, and 
none of this could happen without the Title V MCH Block Grant funding.
    Title V of the Social Security Act was created during the Great 
Depression to ``improve the health of all women and children.'' The MCH 
Block Grant is a celebrated example of an effective Federal and State 
partnership with a common goal of improving the health of all mothers 
and children, including those children with special healthcare needs. 
It is also at the forefront of promoting family-centered care in all of 
its work. But we are losing ground fast and we believe it is time to go 
back to the roots of title V and recommit ourselves to truly improving 
the health of our Nation's women and children by fully investing in the 
MCH Block Grant.
    Despite major advances in medicine, technology, and our healthcare 
system, America still faces huge challenges to improving maternal and 
child health outcomes and addressing the needs of very vulnerable 
children.
    Reductions in maternal and infant mortality have stalled in recent 
years and rates of preterm and low-birth-weight births have increased 
over the last decade. As we sit here today, the United States ranks 
29th in infant mortality rates when compared to other nations. Every 18 
minutes a baby in America dies before his or her first birthday. Each 
day in America we lose 12 babies due to a sudden unexpected infant 
death. There are places in this country where the African American 
infant mortality rate is double, and in some places even triple, the 
rate for whites. Preventable injuries remain the leading cause of death 
for all children, we are failing to adequately screen all young 
children for developmental concerns and childhood obesity has reached 
epidemic proportions, threatening to reverse a century of progress in 
extending life expectancy.
    Sadly, there are gaps between what a family needs and actually 
receives for a child with a special need. Out of pocket healthcare 
costs are increasing and we are erasing gains we made in supporting 
effective services for children with special needs and their families. 
Currently, only 50 percent of these children receive comprehensive care 
within the context of a medical home and less than 20 percent of youth 
with special needs are able to find an adult healthcare provider who 
can appropriately care for them.
    State programs, funded through MCH Block Grant dollars, are key to 
reversing this picture. Considering these and many other urgent health 
needs, AMCHP asks for your leadership in fully funding the MCH Block 
Grant at $850 million for fiscal year 2010.
    AMCHP urges Congress to recognize the need to revitalize resources 
for States and their partners to reverse the trends and continue this 
critical work. We have a track record of demonstrating that we make a 
positive difference and are fully accountable for the funds that we 
receive. Fully funding the MCH Block Grant is an effective and 
efficient way to invest in our Nation's women, children, and families.
    The Office of Management and Budget found that MCH Block Grant-
funded programs deliver results and decrease the infant mortality rate, 
prevent disabling conditions, increase the number of children 
immunized, increase access to care for uninsured children, and improve 
the overall health of mothers and children. Close coordination with 
other health programs assures that funding is maximized and services 
are not duplicated.
    Our results are available to the public through a national Web site 
known as the Title V Information System. Such a system is remarkably 
rare for a Federal program and we are proud of the progress we have 
made.
    However, despite the increasing demand for maternal and child 
health services, reductions to the MCH Block Grant threaten the ability 
of programs to carry out their vital work. As States continue to face 
increasing economic hardship, more women and children will seek 
services through MCH Block Grant funded programs. Due to years of 
reduced investment, the MCH Block Grant is at its lowest funding level 
since 1993, $662 million, meaning States again are being asked to serve 
additional people with less. 

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Now, as economic troubles increase demand for health services, 
State MCH programs desperately need additional resources to:
  --increase outreach and screening services to identify and link women 
        and children to available healthcare services;
  --assure coordination of those services and assist new parents 
        through efforts such as expanded home visitation programs; and
  --deliver essential prevention and health promotion services to make 
        sure that every mom has a healthy pregnancy; every child has 
        the opportunity for a healthy birth and strong start in life; 
        and every child with special healthcare needs receives ongoing 
        comprehensive care within a medical home.
    Crucial MCH activities are also supported by title V under the 
Special Projects of Regional and National Significance (SPRANS) 
program, including MCH research, training, hemophilia diagnostic and 
treatment centers, and MCH improvement projects that develop and 
support a broad range of strategies. The SPRANS investment drives 
innovation for MCH programs and is an important part of the Title V MCH 
Block Grant.
    Mr. Chairman and distinguished members, in closing I ask you to 
imagine with me an America in which every child in the United States 
has the opportunity to live until his or her first birthday; a Nation 
where our Federal and State partnership has effectively moved the 
needle on our most pressing maternal and child health issues. Imagine a 
day when we are celebrating significant reductions or even the total 
elimination of health disparities by creatively solving our most urgent 
maternal and child health challenges. The MCH Block Grant aims to do 
just that--using resources effectively to improve the health of all of 
America's women and children.
    I want to close with one more story from a parent in my State that 
I think illustrates the personal impact of Title V MCH Block Grant 
funds.
    My daughter Ashley continues to be at risk for a detached retina 
with myopia of the eye. Title V Children and Youth with Special Health 
Care Needs has been instrumental in providing medically necessary 
funding for the type of eyeglasses that she needs in order to be able 
to see and have some quality of life as an adolescent. There are 
medications that she needs to be able to control her executive 
functions, her impulses and her motor coordination in order to be able 
to function in school that I would not be able to afford as a parent. 
As a parent it would be devastating if she could not go to school which 
increases her chances of being able to transition into work and/or 
higher education.
                                 ______
                                 
         Prepared Statement of the American Nurses Association

    The American Nurses Association (ANA) appreciates this opportunity 
to comment on fiscal year 2010 appropriations for nursing education, 
workforce development, and research programs. Founded in 1896, ANA is 
the only full-service national association representing registered 
nurses (RNs). Through our 51 constituent member associations, ANA 
represents RNs across the Nation in all practice settings.
    The ANA gratefully acknowledges this subcommittee's history of 
support for nursing education and research. We appreciate your 
continued recognition of the important role nurses play in the delivery 
of quality healthcare services. This testimony will give you an update 
on the status of the nursing shortage, its impact on the Nation, and 
the outlook for the future.

                       THE NURSING SHORTAGE TODAY

    The nursing shortage is far from solved. Here are a few quick 
facts:
  --The American Hospital Association reported that hospitals needed 
        116,000 more RNs to fill immediate vacancies in July 2007. 
        Hospitals report that this vacancy rate is hampering the 
        ability to provide emergency care.
  --The Bureau of Labor Statistics reports that registered nursing will 
        have remarkable job growth in the time period spanning 2006-
        2016. During this time, the healthcare system will require more 
        than 1 million new nurses.
  --The Health Resources and Services Administration (HRSA) projects 
        that the supply of nurses in America will fall 26 percent (more 
        than 1 million nurses) below requirements by the year 2020. In 
        year 2020, Wisconsin's demand for full-time RNs will outstrip 
        the supply by 20 percent (a shortage of 10,200 RNs). New York's 
        shortage will reach 39 percent (54,200 RNs) and Ohio will have 
        a 30 percent shortage (34,000 RNs). California's demand will 
        outstrip its supply by 45 percent (116,600 RNs).
    This growing nursing shortage is having a detrimental impact on the 
entire healthcare system. Numerous studies have shown that nursing 
shortages contribute to medical errors, poor patient outcomes, and 
increased mortality rates. A study published in the January/February 
2006 issue of Health Affairs showed that hospitals could avoid 6,700 
deaths per year by increasing the amount of RN care provided to their 
patients. This study, ``Nurse Staffing in Hospitals: Is There a 
Business Case for Quality?'' by Jack Needleman, Peter Buerhaus, et al. 
also revealed that hospitals are currently providing 4 million days 
worth of inpatient care annually to treat avoidable patient 
complications associated with a shortage of RN care.
    Research published in the October 23, 2002, Journal of the American 
Medical Association also demonstrated that more nurses at the bedside 
could save thousands of patient lives each year. In reviewing more than 
232,000 surgical patients at 168 hospitals, researchers from the 
University of Pennsylvania concluded that a patient's overall risk of 
death rose roughly 7 percent for each additional patient above four 
added to a nurse's workload.
    A Joint Commission on the Accreditation of Healthcare Organizations 
study published in 2002 shows that the shortage of nurses contributes 
to nearly a quarter of all unexpected incidents that kill or injure 
hospitalized patients.

                 NURSING WORKFORCE DEVELOPMENT PROGRAMS

    Federal support for the Nursing Workforce Development Programs 
contained in title VIII of the Public Health Service Act is 
unduplicated and essential. The 107th Congress recognized the 
detrimental impact of the developing nursing shortage and passed the 
Nurse Reinvestment Act (Public Law 107-205). This law improved the 
title VIII Nursing Workforce Development programs to meet the unique 
characteristics of today's shortage. This achievement holds the promise 
of recruiting new nurses into the profession, promoting career 
advancement within nursing, and improving patient care delivery. 
However, this promise cannot be met without a significant investment. 
Prior to the release of President Obama's proposed budget for fiscal 
year 2010, ANA was strongly advocating Congress to increase funding for 
title VIII programs by at least $44 million to a total of $215 million. 
Now that President Obama is requesting $263 million for title VIII 
programs, we are urging the subcommittee to support this request and 
fund title VIII programs at $263 million.
    Current funding levels are clearly failing to meet the need. In 
fiscal year 2008, the HRSA was forced to turn away 92.8 percent of the 
eligible applicants for the Nurse Education Loan Repayment Program 
(NELRP), and 53 percent of the eligible applicants for the Nursing 
Scholarship Program (NSP) due to a lack of adequate funding. These 
programs are used to direct RNs into areas with the greatest need--
including departments of public health, community health centers, and 
disproportionate share hospitals.
    In 1973, Congress appropriated $160.61 million to title VIII 
programs. Inflated to today's dollars, this appropriation would equal 
$763.52 million, more than four times the fiscal year 2009 
appropriation. Certainly, today's shortage is more dire and systemic 
than that of the 1970's; it deserves an equivalent response.
    Title VIII includes the following program areas:
    Nursing Education Loan Repayment Program and Scholarships 
(NELRP).--This line item is comprised of the NELRP and the NSP. In 
fiscal year 2009, the NELRP and the NSP received $37 million.
    The NELRP repays up to 85 percent of a RN's student loans in return 
for full-time practice in a facility with a critical nursing shortage. 
The NELRP nurse is required to work for at least 2 years in a 
designated facility, during which time the NELRP repays 60 percent of 
the RN's student loan balance. If the nurse applies and is accepted for 
an optional third year, an additional 25 percent of the loan is repaid.
    The NELRP boasts a proven track record of delivering nurses to 
facilities hardest hit by the nursing shortage. HRSA has given NELRP 
funding preference to RNs who work in departments of public health, 
disproportionate share hospitals, skilled nursing facilities, and 
federally designated health centers. However, lack of funding has 
hindered the full implementation of this program. In fiscal year 2008, 
92.8 percent of applicants willing to immediately begin practicing in 
facilities hardest hit by the shortage were turned away from this 
program due to lack of funding.
    The NSP offers funds to nursing students who, upon graduation, 
agree to work for at least 2 years in a healthcare facility with a 
critical shortage of nurses. Preference is given to students with the 
greatest financial need. Like the loan repayment program, the NSP has 
been stunted by a lack of funding. In fiscal year 2008, HRSA received 
3,039 applications for the nursing scholarship. Due to lack of funding, 
a mere 177 scholarships were awarded. Therefore, 2,862 nursing students 
(94 percent) willing to work in facilities with a critical shortage 
were denied access to this program.
    Nurse Faculty Loan Program.--This program establishes a loan 
repayment fund within schools of nursing to increase the number of 
qualified nurse faculty. Nurses may use these funds to pursue a 
master's or doctoral degree. They must agree to teach at a school of 
nursing in exchange for cancellation of up to 85 percent of their 
educational loans, plus interest, over a 4-year period. In fiscal year 
2009, this program received $11.5 million.
    This program is vital given the critical shortage of nursing 
faculty. America's schools of nursing can not increase their capacity 
without an influx of new teaching staff. Last year, schools of nursing 
were forced to turn away tens of thousands of qualified applicants due 
largely to the lack of faculty. In fiscal year 2008, HRSA funded 95 
faculty loans.
    Nurse Education, Practice, and Retention Grants.--This section is 
comprised of many programs designed to support entry-level nursing 
education and to enhance nursing practice. All together, the Nurse 
Education, Practice, and Retention Grants received $37.3 million in 
fiscal year 2009.
    The education grants are designed to expand enrollments in 
baccalaureate nursing programs; develop internship and residency 
programs to enhance mentoring and specialty training, and; provide new 
technologies in education including distance learning.
    Retention grant areas include career ladders and improved patient 
care delivery systems. The career ladders program supports education 
programs that assist individuals in obtaining the educational 
foundation required to enter the profession, and to promote career 
advancement within nursing. Enhancing patient care delivery system 
grants are designed to improve the nursing work environment. These 
grants help facilities to enhance collaboration and communication among 
nurses and other healthcare professionals, and to promote nurse 
involvement in the organizational and clinical decisionmaking processes 
of a healthcare facility. These best practices for nurse administration 
have been identified by the American Nurse Credentialing Center's 
Magnet Recognition Program. These practices have been shown to double 
nurse retention rates, increase nurse satisfaction, and improve patient 
care.
    Nursing Workforce Diversity.--This program provides funds to 
enhance diversity in nursing education and practice. It supports 
projects to increase nursing education opportunities for individuals 
from disadvantaged backgrounds--including racial and ethnic minorities, 
as well as individuals who are economically disadvantaged. In fiscal 
year 2008, 85 applications were received for workforce diversity 
grants, 51 were funded. In fiscal year 2009, these programs received 
$16 million.
    Advanced Nurse Education.--Advanced practice registered nurses 
(APRNs) are nurses who have attained advanced expertise in the clinical 
management of health conditions. Typically, an APRN holds a master's 
degree with advanced didactic and clinical preparation beyond that of 
the RN. Most have practice experience as RNs prior to entering graduate 
school. Practice areas include, but are not limited to: anesthesiology, 
family medicine, gerontology, pediatrics, psychiatry, midwifery, 
neonatology, and women's and adult health. Title VIII grants have 
supported the development of virtually all initial State and regional 
outreach models using distance learning methodologies to provide 
advanced study opportunities for nurses in rural and remote areas. In 
fiscal year 2008, 7,650 advanced education nurses were supported 
through these programs. In fiscal year 2009, these programs received 
$64.4 million.
    These grants also provide traineeships for masters and doctoral 
students. Title VIII funds more than 60 percent of U.S. nurse 
practitioner education programs and assists 83 percent of nurse 
midwifery programs. more than 45 percent of the nurse anesthesia 
graduates supported by this program go on to practice in medically 
underserved communities. A study published last year in the Journal of 
Rural Health showed that 80 percent of the nurse practitioners who 
attended a program supported by title VIII chose to work in a medically 
underserved or health profession shortage area after graduation.
    Comprehensive Geriatric Education Grants.--This authority awards 
grants to train and educate nurses in providing healthcare to the 
elderly. Funds are used to train individuals who provide direct care 
for the elderly, to develop and disseminate geriatric nursing 
curriculum, to train faculty members in geriatrics, and to provide 
continuing education to nurses who provide geriatric care. In fiscal 
year 2009, these grants received 4.5 million.
    The growing number of elderly Americans and the impending 
healthcare needs of the baby boom generation make this program 
critically important. In fiscal year 2006, HRSA continued 8 previously 
awarded grants and awarded 11 new ones.

             NATIONAL INSTITUTE OF NURSING RESEARCH (NINR)

    ANA also urges the subcommittee to increase funding for the NINR, 
one of the Institutes at the National Institutes of Health (NIH). The 
Institute's research focus transcends disciplines to address issues of 
health management, symptom management, and caregiving; health promotion 
and disease prevention; end-of-life care; technology integration; and 
research capacity development. This research is integral to improving 
the effectiveness of nursing care. Advances in nursing care arising 
from behavioral and biomedical research have shown excellent progress 
in reducing healthcare costs. Research programs supported by NINR 
address a number of critical public health and patient care questions. 
The cross-discipline research is driven by real and immediate problems 
currently facing patients and their families.
    Recent NINR funded studies have shown that inadequate nurse 
staffing increases risks for patients; coping skills training improves 
teens' self-management of diabetes; a healthcare team helps reduce high 
blood pressure among inner-city black men; a community-based program 
improves self-management of arthritis among older Hispanics; home 
nursing visits benefit low-income mothers and their children; and 
transitional care improves outcomes for elders after leaving the 
hospital. NINR is leading the NIH research on end-of-life and 
palliative care. NINR is also the lowest-funded Institute at NIH. In 
fiscal year 2009, NINR received $141.88 million. ANA recommends $178 
million, or a 25 percent increase more than fiscal year 2009, in fiscal 
year 2010 NINR funding.

                               CONCLUSION

    While ANA appreciates the continued support of this subcommittee, 
we are concerned that title VIII funding levels have not been 
sufficient to address the growing nursing shortage. The nursing 
shortage will continue to worsen if significant investments are not 
made. Recent efforts have shown that aggressive and innovative 
recruitment efforts can help avert the impending nursing shortage--if 
they are adequately funded.
    ANA asks you to meet today's shortage with a relatively modest 
investment of $263 million in title VIII programs. Additionally, an 
investment of $178 million in the NINR will help assure that nurses are 
equipped with the latest information and research needed to provide the 
best patient care possible.
                                 ______
                                 
         Prepared Statement of the American National Red Cross

    Chairman Tom Harkin, Ranking Member Thad Cochran, and members of 
the subcommittee, the American Red Cross and the United Nations 
Foundation appreciate the opportunity to submit testimony in support of 
measles control activities of the U.S. Centers for Disease Control and 
Prevention (CDC). The American Red Cross and the United Nations 
Foundation recognize the leadership that Congress has shown in funding 
CDC for these essential activities. We sincerely hope that Congress 
will continue to support the CDC during this critical period in measles 
control.
    In 2001, CDC--along with the American Red Cross, the United Nations 
Foundation, the World Health Organization (WHO), and UNICEF--became one 
of the spearheading partners of the Measles Initiative, a partnership 
committed to reducing measles deaths globally. The current U.N. goal is 
to reduce measles deaths by 90 percent by 2010 compared to 2000 
estimates. The Measles Initiative is committed to reaching this goal by 
proving technical and financial support to governments and communities 
worldwide.
    The Measles Initiative has achieved ``spectacular'' \1\ results by 
supporting the vaccination of more than 600 million children. Largely 
due to the Measles Initiative, global measles mortality dropped 74 
percent, from an estimated 750,000 deaths in 2000 to 197,000 in 2007. 
During this same period, measles deaths in Africa fell by 89 percent, 
from 395,000 to 45,000.
---------------------------------------------------------------------------
    \1\ The Lancet, Volume 8, page 13 (January 2008).

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Working closely with host governments, the Measles Initiative has 
been the main international supporter of mass measles immunization 
campaigns since 2001. The Initiative mobilized more than $670 million 
and provided technical support in more than 60 developing countries on 
vaccination campaigns, surveillance, and improving routine immunization 
services. From 2000 to 2007, an estimated 3.6 million measles deaths 
were averted as a result of accelerated measles control activities 
(increased routine immunization coverage and mass immunization 
campaigns) at a donor cost of $184/death averted, making measles 
mortality reduction one of the most cost-effective public health 
interventions.
    Nearly all the measles vaccination campaigns have been able to 
reach more than 90 percent of their target populations. Countries 
recognize the opportunities that measles vaccination campaigns provide 
in accessing mothers and young children, and ``integrating'' the 
campaigns with other life-saving health interventions has become the 
norm. In addition to measles vaccine, Vitamin A (crucial for preventing 
blindness in under nourished children), de-worming medicine, and 
insecticide-treated bed nets (ITNs) for malaria prevention are 
distributed during vaccination campaigns. The scale of these 
distributions is immense. For example, more than 37 million ITNs were 
distributed in vaccination campaigns in the last few years. The 
delivery of multiple child health interventions during a single 
campaign is far less expensive than delivering the interventions 
separately, and this strategy increases the potential positive impact 
on children's health from a single campaign.
    Countries are well positioned to achieve the 2010 goal and to take 
a bold step toward achievement of the 2015 Millennium Development Goal 
#4 of reducing under 5 child mortality. However, achieving the 2010 
goal will require:
  --Accelerating activities, both campaigns and further efforts to 
        improve routine measles coverage, in India since it is the 
        greatest contributor to the global burden of measles.
  --Sustaining the gains in reduced measles deaths, especially in 
        Africa, by strengthening immunization programs to ensure that 
        more than 90 percent of infants are vaccinated against measles 
        through routine health services before their first birthday as 
        well as conducting timely, high-quality follow-up campaigns.
  --Securing sufficient funding for measles-control activities both 
        globally and nationally. The Measles Initiative faces a funding 
        shortfall of an estimated $100 million for 2010. Implementation 
        of timely follow-up campaigns is increasingly dependent upon 
        countries funding these activities locally. The decrease in 
        donor funds available at global level to support activities to 
        reduce measles mortality makes increased political commitment 
        and country ownership of the activities critical for achieving 
        and sustaining the goal of reducing measles mortality by 90 
        percent.
    If these challenges are not addressed, the remarkable gains made 
since 2000 will be lost and a major resurgence in measles deaths will 
occur.
    By controlling measles cases in other countries, U.S. children are 
also being protected from the disease. Measles can cause severe 
complications and death. A major resurgence of measles occurred in the 
United States between 1989 and 1991, with more than 55,000 cases 
reported. This resurgence was particularly severe, accounting for more 
than 11,000 hospitalizations and 123 deaths. Since then, measles 
control measures in the United States have been strengthened and 
endemic transmission of measles cases have been eliminated here since 
2000. However, importations of measles cases into this country continue 
to occur each year. In 2008, the number of reported measles cases in 
the United States more than doubled and outbreaks are currently on-
going in Virginia, Maryland, Washington, District of Columbia, 
Pennsylvania, California, and Missouri. These outbreaks cause needless 
suffering and accrue public health costs which in the United States are 
upwards of $150,000 to respond to each case.

         THE ROLE OF CDC IN GLOBAL MEASLES MORTALITY REDUCTION

    Since fiscal year 2001, Congress has provided approximately $42 
million annually in funding to CDC for global measles control 
activities. These funds were used toward the purchase of approximately 
415 million doses of measles vaccine for use in large-scale measles 
vaccination campaigns in more than 60 countries in Africa and Asia, and 
for the provision of technical support to Ministries of Health in those 
countries. Specifically, this technical support includes:
  --Planning, monitoring, and evaluating large-scale measles 
        vaccination campaigns;
  --Conducting epidemiological investigations and laboratory 
        surveillance of measles outbreaks; and
  --Conducting operations research to guide cost-effective and high-
        quality measles control programs.
    In addition, CDC epidemiologists and public health specialists have 
worked closely with the WHO, UNICEF, the United Nations Foundation, and 
the American Red Cross to strengthen measles control programs at global 
and regional levels.
    While it is not possible to precisely quantify the impact of CDC's 
financial and technical support to the Measles Initiative, there is no 
doubt that CDC's support--made possible by the funding appropriated by 
Congress--was essential in helping achieve the sharp reduction in 
measles deaths in just 7 years.
    The American Red Cross and the United Nations Foundation would like 
to acknowledge the leadership and work provided by CDC and recognize 
that CDC brings much more to the table than just financial resources. 
The Measles Initiative is fortunate in having a partner that provides 
critical personnel and technical support for vaccination campaigns and 
in response to disease outbreaks. CDC personnel have routinely 
demonstrated their ability to work well with other organizations and 
provide solutions to complex problems that help critical work get done 
faster and more efficiently.
    In fiscal year 2009, Congress has appropriated approximately $41.8 
million to fund CDC for global measles control activities. The American 
Red Cross and the United Nations Foundation thank Congress for the 
financial support that has been provided to CDC in the past and this 
year. We respectfully request a total of $51.8 million for fiscal year 
2010 funding for CDC's measles control activities so that the gains 
made to date can continue and the 2010 goal of a 90 percent reduction 
in measles deaths can be achieved.
    The additional funds we are seeking for CDC are critical for:
  --Sustaining the great progress in measles mortality reduction in 
        Africa by strengthening measles surveillance and strengthening 
        the delivery of measles vaccine through routine immunization 
        services to protect new birth cohorts;
  --Conducting large-scale measles vaccination campaigns in South Asia, 
        especially in India, thus protecting millions of children;
    Your commitment has brought us unprecedented victories in reducing 
measles mortality around the world. In addition, your continued support 
for this initiative helps prevent children from suffering from this 
preventable disease both abroad and in the United States.
    Thank you for the opportunity to submit testimony.
                                 ______
                                 
   Prepared Statement of the Americans for Nursing Shortage Alliance

    The undersigned organizations of the ANSR Alliance greatly 
appreciate the opportunity to submit written testimony on fiscal year 
2010 appropriations for Title VIII--Nursing Workforce Development 
Programs. The Alliance represents a diverse cross-section of health 
care and other related organizations, healthcare providers, and 
supporters of nursing issues that have united to address the national 
nursing shortage. We stand ready to work with the 111th Congress to 
advance programs and policies that will ensure that our Nation has a 
sufficient and adequately prepared nursing workforce to provide quality 
care to all well into the 21st century. The Alliance, therefore, urges 
Congress to:
  --Appropriate $263.4 million in funding in fiscal year 2010 for the 
        Nursing Workforce Development Programs under title VIII of the 
        Public Health Service Act at the Health Resources and Services 
        Administration (HRSA).
  --Fund the Advanced Education Nursing program (section 811) at an 
        increased level on par with the other title VIII programs.

                   THE EXTENT OF THE NURSING SHORTAGE

    Nursing is the largest healthcare profession in the United States. 
According to the National Council of State Boards of Nursing, there 
were nearly 3.4 million licensed registered nurses (RNs) in 2006.\1\ 
Nurses and advanced practice nurses (nurse practitioners, nurse 
midwives, clinical nurse specialists, and certified registered nurse 
anesthetists) work in a variety of settings, including primary care, 
public health, long-term care, surgical care facilities, and hospitals. 
Approximately 59 percent of RN jobs are in hospitals.\2\ A Federal 
report published in 2004 estimates that by 2020 the national nurse 
shortage will increase to more than 1 million full-time nurse 
positions. According to these projections, which are based on the 
current rate of nurses entering the profession, only 64 percent of 
projected demand will be met.\3\ A study, published in March 2008, uses 
different assumptions to calculate an adjusted projected demand of 
500,000 full-time equivalent registered nurses by 2025.\4\ According to 
the U.S. Bureau of Labor Statistics, about 233,000 additional jobs for 
registered nurses will open each year through 2016, in addition to 
about 2.5 million existing positions. Based on these scenarios, the 
shortage presents an extremely serious challenge in the delivery of 
high-quality, cost-effective services, as the Nation looks to reform 
the current healthcare system. Even considering only the smaller 
projection of vacancies, this shortage still results in a critical gap 
in nursing service, essentially three times the 2001 nursing shortage.
---------------------------------------------------------------------------
    \1\ National Council of State Boards of Nursing. (2008). 2006 Nurse 
Licensee Volume and NCLEX Examination Statistics. (Research Brief Vol. 
31). On the Internet at: https://www.ncsbn.org/
08_2006_LicExamRB_Vol31_21208_MW(1).pdf. (Accessed February 3, 2009).
    \2\ Bureau of Labor Statistics, U.S. Department of Labor. 
Occupational Outlook Handbook, 2008-2009 Edition, Registered Nurses. On 
the Internet at: http://www.bls.gov/oco/ocos083.htm (Accessed December 
9, 2008).
    \3\ Health Resources and Services Administration, (2004) What is 
Behind HRSA's Projected Supply, Demand, and Shortage of Registered 
Nurses? On the Internet at: http://bhpr.hrsa.gov/healthworkforce/
reports/behindrnprojections/4.htm. (Accessed December 9, 2008).
    \4\ Buerhaus, P., Staiger, D., Auerbach, D. (2008). The Future of 
the Nursing Workforce in the United States: Data, Trends, and 
Implications. Boston, MA: Jones & Bartlett.
---------------------------------------------------------------------------
          BUILDING THE CAPACITY OF NURSING EDUCATION PROGRAMS

    Nursing vacancies exist throughout the entire healthcare system, 
including long-term care, home care, and public health. Even the 
Department of Veterans Affairs, the largest sole employer of RNs in the 
United States, has a nursing vacancy rate of 10 percent. In 2006, the 
American Hospital Association reported that hospitals needed 116,000 
more RNs to fill immediate vacancies, and that this 8.1 percent vacancy 
rate affects hospitals' ability to provide patient/client care.\5\ 
Government estimates indicate that this situation only promises to 
worsen due to an insufficient supply of individuals matriculating in 
nursing schools, an aging existing workforce, and the inadequate 
availability of nursing faculty to educate and train the next 
generation of nurses. At the exact same time that the nursing shortage 
is expected to worsen, the baby boom generation is aging and the number 
of individuals with serious, life-threatening, and chronic conditions 
requiring nursing care will increase. Consequently, more must be done 
today by the Government to help ensure an adequate nursing workforce 
for the patients/clients of today and tomorrow.
---------------------------------------------------------------------------
    \5\ American Hospital Association, (2007) The State of America's 
Hospitals: Taking the Pulse, Findings from the 2007 AHA Survey of 
Hospital Leader. On the Internet at: http://www.aha.org/aha/content/
2007/PowerPoint/StateofHospitalsChartPack2007.ppt. (Accessed December 
3, 2008).
---------------------------------------------------------------------------
    A particular focus on securing and retaining adequate numbers of 
faculty is essential to ensure that all individuals interested in--and 
qualified for--nursing school can matriculate in the year they are 
accepted. In the 2006-2007 academic years, 99,000 qualified 
applications--or almost 40 percent of qualified applications submitted 
to prelicensure RN programs--were denied due to lack of capacity.\6\ 
Aside from having a limited number of faculty, nursing programs 
struggle to provide space for clinical laboratories and to secure a 
sufficient number of clinical training sites at healthcare facilities.
---------------------------------------------------------------------------
    \6\ National League for Nursing, (2009) Nursing Data Review 2006-
2007: Baccalaureate, Associate Degree, and Diploma Programs. On the 
Internet at: http://www.nln.org/research/slides/index.htm. (Accessed 
March 20, 2009).
---------------------------------------------------------------------------
    ANSR supports the need for sustained attention on the efficacy and 
performance of existing and proposed programs to improve nursing 
practices and strengthen the nursing workforce. The support of research 
and evaluation studies that test models of nursing practice and 
workforce development is integral to advancing healthcare for all in 
America. Investments in research and evaluation studies have a direct 
effect on the caliber of nursing care. Our collective goal of improving 
the quality of patient/client care, reducing costs, and efficiently 
delivering appropriate healthcare to those in need is served best by 
aggressive nursing research and performance and impact evaluation at 
the program level.

        THE IMPACT ON THE NATION'S PUBLIC HEALTH INFRASTRUCTURE

    The National Center for Health Workforce Analysis reports that the 
nursing shortage challenges the healthcare sector to meet current 
service needs. Nurses make a difference in the lives of patients/
clients from disease prevention and management to education to 
responding to emergencies. Chronic diseases, such as heart disease, 
stroke, cancer, and diabetes, are the most preventable of all health 
problems as well as the most costly. Nearly half of Americans suffer 
from one or more chronic conditions and chronic disease accounts for 70 
percent of all deaths. In addition, increased rates of obesity and 
chronic disease are the primary cause of disability and diminished 
quality of life.
    Even though America spends more than $2 trillion annually on 
healthcare--more than any other Nation in the world--tens of millions 
of Americans suffer every day from preventable diseases such as type 2 
diabetes, heart disease, and some forms of cancer that rob them of 
their health and quality of life.\7\ In addition, major vulnerabilities 
remain in our emergency preparedness to respond to natural, 
technological and manmade hazards. An October 2008 report issued by 
Trust for America's Health entitled ``Blueprint for a Healthier 
America'' found that the health and safety of Americans depends on the 
next generation of professionals in public health.\8\ Further, existing 
efforts to recruit and retain the public health workforce are 
insufficient. New policies and incentives must be created to make 
public service careers in public health an attractive professional 
path, especially for the emerging workforce and those changing careers.
---------------------------------------------------------------------------
    \7\ KaiserEDU.org. ``U.S. Health Care Costs: Background Brief.'' 
Kaiser Family Foundation. On the Internet at: http://www.kaiseredu.org/
topics_im.asp?imID=1&parentID=61&id=358 (Accessed November 24, 2008).
    \8\ Trust for America's Health. (2008) Blueprint for a Healthier 
America: Modernizing the Federal Public Health System to Focus on 
Prevention and Preparedness. On the Internet at: http://
healthyamericans.org/report/55/blueprint-for-healthier-america 
(Accessed December 3, 2008).
---------------------------------------------------------------------------
    An Institute of Medicine report notes that nursing shortages in 
U.S. hospitals continue to disrupt hospitals operations and are 
detrimental to patient/client care and safety.\9\ Hospitals and other 
healthcare facilities across the country are vulnerable to mass 
casualty incidents themselves and/or in emergency and disaster 
preparedness situations. As in the public health sector, a mass 
casualty incident occurs as a result of an event where sudden and high-
patient/client volume exceeds the facilities/sites resources. Such 
events may include the more commonly realized multi-car pile-ups, train 
crashes, hazardous material exposure in a building or within a 
community, high-occupancy catastrophic fires, or the extraordinary 
events such as pandemics, weather-related disasters, and intentional 
catastrophic acts of violence.
---------------------------------------------------------------------------
    \9\ Institute of Medicine, Committee on the Future of Emergency 
Care in the United States Health System. (2007) Hospital-Based 
Emergency Care: At the Breaking Point. On the Internet at: http://
www.iom.edu/?id=48896. (Accessed December 3, 2008).
---------------------------------------------------------------------------
    Since 80 percent of disaster victims present at the emergency 
department, nurses as first receivers are an important aspect of the 
public health system as well as the healthcare system in general. The 
nursing shortage has a significant adverse impact on the ability of 
communities to respond to health emergencies, including natural, 
technological and manmade hazards.

                                SUMMARY

    The link between healthcare and our Nation's economic security and 
global competitiveness is undeniable. Having a sufficient nursing 
workforce to meet the demands of a highly diverse and aging population 
is an essential component to reforming the healthcare system as well as 
improving the health status of the Nation and reducing healthcare 
costs. To mitigate the immediate effect of the nursing shortage and to 
address all of these policy areas, ANSR requests $263.4 million in 
funding for the Nursing Workforce Development Programs under title VIII 
of the Public Health Service Act at HRSA in fiscal year 2010. As part 
of this funding, the Advanced Education Nursing training program 
(section 811) should be funded at an increased level on par with the 
other title VIII programs.

                        UNDESIGNED ORAGNIZATIONS

    Academy of Medical-Surgical Nurses; American Academy of Ambulatory 
Care Nursing; American Academy of Nurse Practitioners; American Academy 
of Nursing; American Association of Critical-Care Nurses; American 
Association of Nurse Anesthetists; American Association of Nurse 
Assessment Coordinators; American Association of Nurse Executives; 
American Association of Occupational Health Nurses; American College of 
Nurse Practitioners.
    American Organization of Nurse Executives; American Psychiatric 
Nurses Association; American Society for Pain Management Nursing; 
American Society of PeriAnesthesia Nurses; American Society of Plastic 
Surgical Nurses; Association for Radiologic & Imaging Nursing; 
Association of Pediatric Hematology/Oncology Nurses; Association of 
periOperative Registered Nurses; Association of Rehabilitation Nurses; 
Association of State and Territorial Directors of Nursing.
    Association of Women's Health, Obstetric & Neonatal Nurses; 
Developmental Disabilities Nurses Association; Emergency Nurses 
Association; Gerontological Advanced Practice Nurses Association; 
Infusion Nurses Society; International Society of Nurses in Genetics, 
Inc.; Legislative Coalition of Virginia Nurses; National Association of 
Clinical Nurse Specialists; National Association of Neonatal Nurses; 
National Association of Neonatal Nurse Practitioners.
    National Association of Nurse Massage Therapists; National 
Association of Nurse Practitioners in Women's Health; National 
Association of Orthopaedic Nurses; National Association of Pediatric 
Nurse Practitioners; National Association of Registered Nurse First 
Assistants; National Black Nurses Association; National Council of 
State Boards of Nursing; National Gerontological Nursing Association; 
National League for Nursing; National Nursing Centers Consortium.
    National Nursing Staff Development Organization; National 
Organization for Associate Degree Nursing; National Organization of 
Nurse Practitioner Faculties; National Student Nurses' Association, 
Inc.; Nurses Organization of Veterans Affairs; Oncology Nursing 
Society; Pediatric Endocrinology Nursing Society; RN First Assistants 
Policy & Advocacy Coalition; Society of Gastroenterology Nurses and 
Associates, Inc.; Society of Pediatric Nurses; Society of Trauma 
Nurses; Wound, Ostomy and Continence Nurses Society.
                                 ______
                                 
    Prepared Statement of the Americans for Nursing Shortage Relief 
                                Alliance

    The Tri-Council for Nursing, a long-standing alliance focused on 
leadership and excellence in the nursing profession, is composed of the 
American Association of Colleges of Nursing, the American Nurses 
Association, the American Organization of Nurse Executives, and the 
National League for Nursing. The collaborative leadership of these four 
professional organizations impacts the breadth of nursing practice, 
including nurse executives, educators, researchers, and nurses 
providing direct patient care. The Tri-Council asks the subcommittee to 
provide $215 million in fiscal year 2010 for the Nursing Workforce 
Development Programs under title VIII of the Public Health Service Act, 
administered by the Health Resources and Services Administration 
(HRSA).
    In light of the economic challenges facing our country today, the 
Tri-Council urges the subcommittee to focus on the larger context of 
building the capacity needed to meet the increasing health care demands 
of our Nation's population. Such public policy will require sustained 
investments aimed at refocusing the current health care system toward 
promoting health, while simultaneously improving value for our dollars. 
The title VIII Nursing Workforce Development Programs are proven policy 
instruments that help assure an adequately prepared nursing workforce. 
These programs--
  --Increase access to healthcare in underserved areas through improved 
        composition, diversity, and retention of the nursing workforce;
  --Advance quality care by strengthening nursing education and 
        practice; and
  --Develop the identification and use of data, program performance 
        measures, and outcomes to make informed decisions on nursing 
        workforce matters.
    The Tri-Council applauds the subcommittee for the emergency 
supplement provided across all the health professions programs via the 
American Recovery and Reinvestment Act (Public Law 111-5). We also 
value the enacted fiscal year 2009 omnibus appropriations bill (Public 
Law 111-8) providing $171.031 million specifically for the title VIII 
Nursing Workforce Development Programs. These investments are a 
critical component supporting our healthcare infrastructure.
    Examining the broad context, the healthcare industry remains the 
largest industrial complex in the United States. Studies of the 
Nation's gross domestic product (GDP) show healthcare spending 
achieving a relatively high rate of real growth, with the portion of 
GDP devoted to healthcare growing from 8.8 percent in 1980 to 16.2 
percent of GDP in 2007. While healthcare spending demands greater 
efficiencies, it also has helped to sustain our Nation's sagging 
economy.
    Since 2001, healthcare is virtually the only sector that added jobs 
to the economy on a net basis. In March 2009, the U.S. Bureau of Labor 
Statistics (BLS) reported continued growth in the healthcare sector, 
despite our economy's freefall in a down cycle with unemployment 
reaching 8.1 percent in February 2009. With that month's job loss of 
681,000 realized in nearly all major industries, BLS also reported the 
addition of 27,000 new jobs at hospitals, long-term care facilities, 
and other ambulatory care settings.
    As the predominant occupation in the healthcare industry, the nurse 
workforce likely is filling most of the noted job openings. Nurses are 
the front line of healthcare delivery throughout the Nation, and the 
BLS numbers support that description showing the nurse workforce at 
well over four times the size of the medical workforce. Increased 
fiscal year 2010 investments in title VIII will help counterbalance the 
economic meltdown threatening nursing programs operating in 
congressional districts and serving communities by supporting nursing 
education--providing title VIII loans, scholarships, traineeships, and 
programmatic funding.

              NURSING SHORTAGE OUTPACES CAPACITY-BUILDING

    The Tri-Council contends that an episodic increased funding of 
title VIII will not fully fill the gap generated by an 11-year nursing 
shortage felt throughout the entire U.S. health system and projected to 
continue. The BLS projections estimate that RNs will have the greatest 
growth rate of all U.S. occupations in the period spanning 2006-2016, 
with more than 1 million new and replacement nurses needed by 2016. 
Despite this projected expansion in the profession, numerous other 
studies anticipate a growing national nurse workforce shortage to 
intensify as the baby boomer cohort ages, the current nurse workforce 
retires, and the demand for healthcare accrues.
    Funding levels for the HRSA Title VIII Nursing Workforce Programs 
are failing to support the numerous qualified applicants seeking 
assistance from these programs. In the last 3 years, virtually flat 
title VIII funding, along with inflation and increased educational and 
administrative costs, has decreased purchasing power. According to HRSA 
statistics, in fiscal year 2006 the title VIII programs directly or 
indirectly supported 91,189 nurses and nursing students. In fiscal year 
2007, the number of grantees dropped by 21 percent and in 2008 the 
grantees dropped by 28 percent to support only 51,657 nurses and 
nursing students.
    Additionally, schools of nursing continue to suffer from a growing 
shortage of faculty, a troubling infrastructure trend that exacerbates 
the nurse workforce demand-supply gap. According to a study conducted 
by the American Association of Colleges of Nursing (AACN) in 2008, 
schools of nursing turned away 49,948 qualified applicants to 
baccalaureate and graduate nursing programs. The top reasons cited for 
not accepting these potential students was a lack of qualified nurse 
faculty and resource constraints. Without faculty, nursing education 
programs are prevented from admitting many qualified students who are 
applying to their programs. (Data are Internet accessible at http://
www.aacn.nche.edu/Media/NewsReleases/ 2009/workforcedata.html.)
    The AACN survey results are reinforced by the National League for 
Nursing's (NLN) study of all types of prelicensure RN programs, which 
prepare students to sit for the RN licensing exam (i.e., baccalaureate, 
associate, and diploma degree). The NLN statistics indicate more than 
1,900 unfilled full-time faculty positions existed nationwide in 2007, 
affecting more than one-third (36 percent) of all schools of nursing. 
Significant recruitment challenges were found with 84 percent of 
nursing schools attempting to hire new faculty in 2007-2008, more than 
three-quarters (79 percent) reporting recruitment as ``difficult'' and 
almost 1 in 3 schools found it ``very difficult.'' The two main 
difficulties cited were ``not enough qualified candidates'' (cited by 
46 percent of schools), followed by inability to offer competitive 
salaries--cited by 38 percent. (Data are Internet accessible at 
www.nln.org/research/slides/index.htm.)

                          THE FUNDING REALITY

    If the United States is to reverse the eroding trends in the nurse 
and nurse faculty workforce, the Nation must make a significant 
investment in the title VIII programs, which are charged to favor 
institutions educating nurses for practice in rural and medically 
underserved communities. At adequate funding levels the title VIII 
programs supporting the education of registered nurses, advanced 
practice registered nurses, nurse faculty, and nurse researchers have 
demonstrated successful intervention strategies to solving past nursing 
shortages.
    A brief examination of the HRSA title VIII illustrates the robust 
nature of these programs:
    Section 811.--The Advanced Education Nursing (AEN) Program funds 
traineeships for individuals preparing to be nurse practitioners, nurse 
midwives, nurse administrators, public health nurses, and nurse 
educators, among other graduate-level education nursing roles. The AEN 
awards assisted nurse education programs to support 3,419 graduate 
nursing students in fiscal year 2008.
    Section 821.--The Nursing Workforce Diversity Program funds grants 
and contracts to schools of nursing, nurse-managed health centers 
(NMCs), academic health centers, State and local governments, and 
nonprofit entities to increase nursing education opportunities for 
individuals from disadvantaged backgrounds and under-represented 
populations among RNs. This program--of proven intervention 
strategies--supported 18,741 students in fiscal year 2008, seeking to 
ensure a culturally diverse workforce to provide healthcare for a 
culturally diverse patient population.
    Section 831.--The Nurse Education, Practice and Retention Program 
provides support for academic and continuing education projects 
designed to strengthen the nursing workforce. Several of this program's 
priorities apply to quality patient care including developing cultural 
competencies among nurses and providing direct support to establishing 
or expanding NMCs in noninstitutional settings to improve access to 
primary healthcare in medically underserved communities. The program 
also provides grants to improve retention of nurses and enhanced 
patient care. In fiscal year 2008, approximately 6,000 nurses and 
nursing students were supported.
    Section 846.--The Nurse Loan Repayment and Scholarship Programs 
(NELRP) is divided into two primary elements. The NELRP assists 
individual RNs by repaying up to 85 percent of their qualified 
educational loans over 3 years in return for their commitment to work 
at health facilities with a critical shortage of nurses, such as 
departments of public health, community health centers, and 
disproportionate share hospitals. In fiscal year 2008, of the 5,875 
applications reviewed by HRSA, only 435 students (7.4 percent) received 
NELRP awards. Similarly, the Nurse Scholarship Program (NSP) provides 
financial aid to individual nursing students in return for working a 
minimum of 2 years in a healthcare facility with a critical nursing 
shortage. In fiscal year 2008, NSP turned away most of the applicants 
owing to a lack of adequate funding, resulting in the distribution of 
only 169 student awards.
    Section 846A.--The Nurse Faculty Loan Program (NFLP) supports the 
establishment and operation of a loan fund within participating schools 
of nursing to assist RNs to complete their education to become nursing 
faculty. The NFLP grants provide a cancellation provision in which 85 
percent of the loan, plus interest, may be cancelled over 4 years in 
return for serving as full-time faculty in a school of nursing. NFLP 
granted 729 awards in fiscal year 2008.
    Section 855.--The Comprehensive Geriatric Education Grant Program 
focuses on training, curriculum development, faculty development, and 
continuing education for nursing personnel caring for the elderly. In 
fiscal year 2008, 18 awards were made in this program.
    While title VIII is the largest source of Federal funding for 
nursing, the current level of investment falls short of remedying a 
chronic underfunding of the Nursing Workforce Development Programs, 
compared to the existing and imminent shortages these programs address. 
The title VIII authorities are capable of providing flexible and 
effective support to assist students, schools of nursing, and health 
systems in their efforts to recruit, educate, and retain registered 
nurses. Recent efforts have shown that aggressive and innovative 
strategies can help avert the nurse and nurse faculty shortages. The 
Tri-Council for Nursing understands the competing priorities faced by 
this Congress, but we also maintain that title VIII Nursing Workforce 
Development Programs must be funded at an adequate level to begin to 
impact the shortage and to address the complex health needs of the 
Nation. The contributions of nurses in our healthcare system are 
multifaceted, and are impacted directly by the level of Federal funding 
that supports nursing programs.
                                 ______
                                 
            Prepared Statement of America's Promise Alliance

           THE DROPOUT CRISIS: AMERICA'S NEW SILENT EPIDEMIC

    Chairman Inouye, Vice Chairman Cochran, members of the 
subcommittee, thank you for the opportunity to testify on the most 
pressing issue facing our Nation: the high school dropout crisis. 
America's low graduation rate is our most pressing issue as a Nation 
and the culmination of years of failure. Everyone with a stake in the 
future of our children and the Nation--schools, parents, businesses, 
community, and faith-based organizations--have a role to play in the 
resolution of this crisis. We all must work together in new and 
unprecedented ways in support of our children.
    In addition to its significant social implications, the potential 
economic impact of the dropout crisis shows why this issue is our most 
critical national challenge. Today, America is the only industrialized 
nation in the world where children are less likely to graduate from 
high school than their parents. A student drops out of high school 
every 26 seconds, with 1.2 million kids falling through the cracks each 
year. The national dropout crisis has resulted in 3 in 10 students 
failing to graduate with their class, a percentage that doubles for 
minority, urban, and low-income students.
    When President Obama and Secretary Duncan say that a long-term, 
sustainable economic recovery is only possible if we strengthen our 
education system, they are precisely correct. The dropout crisis may 
not be as visible or swift as other important issues problems facing 
this Congress and our new administration, but its implications are just 
as severe and lasting. The dropout crisis, persisting without 
acknowledgment or resolution, has emerged as America's ``silent 
epidemic.'' Although we are working diligently to raise public 
awareness of this issue, it has yet to permeate the national agenda. 
This makes it easier for our actions to be slow, inadequate, or even 
worse, nonexistent.
    Strengthening our graduation rate will take historic focus, 
unprecedented collaboration, and significant resources. The required 
investments in our young people are the most cost-effective investments 
we can make. We must understand that our future is at stake, and we 
must resolve that failure is not an option.

                    MAGNITUDE OF THE DROPOUT CRISIS

    Between 25 to 30 percent of high school students do not graduate on 
time. For young people of color, on-time graduation is a 50-50 
proposition, the flip of a coin. A new report commissioned by America's 
Promise Alliance and developed by the Editorial Projects in Education 
Research Center found that only 53 percent of all young people in the 
Nation's 50 largest cities graduate on time. Despite some progress made 
by several of these cities between 1995 and 2005, the average 
graduation rate of the 50 largest cities is well below the national 
average of 71 percent, and an 18 percentage point urban-suburban gap 
remains.\1\ While the Nation's 50 largest school districts educate 1 
out of 8 high school students; they produce one-quarter of the Nation's 
students who do not graduate on time.\2\
---------------------------------------------------------------------------
    \1\ Christopher Swanson (2009). Cities in Crisis 2009: Closing the 
Graduation Gap: Educational and Economic Conditions in America's 
Largest Cities. Bethesda, Maryland: Editorial Projects in Education 
Research Center.
    \2\ The principal school districts of America's 50 largest cities 
collectively educate 1.7 million public high school students and 
produce 279,000 of the 1.2 million high school students who do not 
graduate on time (Ibid., p. 13).
---------------------------------------------------------------------------
    A significant graduation rate gap exists between urban and suburban 
school districts: 18 percentage points separate the metropolitan areas 
of the 50 largest cities from their suburban counterparts.\3\ Fifty-
nine percent of high school students in urban school districts graduate 
on time from high school versus 77 percent of their suburban 
counterparts. The urban-suburban gap is most prominent in the Northeast 
and Midwest, with Baltimore, Cleveland, Columbus, and Milwaukee 
experiencing the largest differentials.\4\
---------------------------------------------------------------------------
    \3\ Ibid.
    \4\ Ibid.
---------------------------------------------------------------------------
Economic Impact
    The economic significance of the Nation's low graduation rate 
cannot be overstated, as countries that out-educate us today will out-
compete us tomorrow. A report from McKinsey & Company estimated the 
economic impact in 2008 if the United States had closed the achievement 
gap 15 years after A Nation at Risk's 1983 release. Their findings 
amount to nothing less than a multibillion dollar lost opportunity and 
what they term as a ``permanent national recession.'' Closing the 
international achievement, racial, and income gaps would have produced 
up to a 30 percent gain in GDP, or $4.2 trillion.
    On an individual level, high school graduation is a determining 
factor of a student's future income. High school dropouts are less 
likely to be steadily employed and earn less income when they are 
employed compared with those who graduate from high school. Only 37 
percent of high school dropouts nationwide are steadily employed and 
are more than twice as likely to live in poverty.\5\
---------------------------------------------------------------------------
    \5\ Ibid.
---------------------------------------------------------------------------
    High school dropouts account for 13 percent of the adult 
population, but earn less than 6 percent of all dollars earned in the 
United States. In the 50 largest cities, the median income for high 
school dropouts is $14,000, lower than the median income of $24,000 for 
high school graduates and $48,000 for college graduates. The Editorial 
Projects in Education Research Center estimates that earning a high 
school diploma would increase one's annual income by an average of 71 
percent, or $10,000.\6\
---------------------------------------------------------------------------
    \6\ Ibid.
---------------------------------------------------------------------------
                       CONTRIBUTORS TO THE CRISIS

    There are two major influences in students' lives that impact their 
scholastic achievement: what happens inside the school building and 
what happens outside of it. A number of factors contribute to the high 
school dropout crisis, ranging from the quality of standards and rigor 
in our high schools to the issues impacting students before they ever 
step foot into the classroom.
    In 1983, A Nation at Risk recommended that schools, colleges, and 
universities adopt more rigorous, measurable standards for academic 
performance and higher expectations for student conduct. Today, few 
disagree with the need to raise expectations of student performance. We 
must offer our students challenging curricula that are aligned with the 
expectations of college and the needs of our future workforce. We need 
stronger, internationally benchmarked standards, so that students, 
educators, and parents understand the effectiveness of the educational 
system in which they are part.
    Equally important, though not duly recognized, is the importance of 
a student's living and learning environment in affecting how he or she 
performs in the classroom. Schools cannot shoulder the responsibility 
of educating our children and youth on their own. Every year, our 
students spend about 1,150 waking hours in school, and nearly five 
times that number (4,700 waking hours) in their families and 
communities.\7\ Today's teachers have to act as mothers, fathers, 
social workers, and sometimes even police officers, in addition to the 
central task of educating our students.
---------------------------------------------------------------------------
    \7\ David Berliner (2009). Poverty and Potential: Out-of-School 
Factors and School Success. Boulder and Tempe: Education and the Public 
Interest Center and Education Policy Research Unit. Retrieved May 6, 
2009 from http://epicpolicy.org/publication/poverty-and-potential.
---------------------------------------------------------------------------
    In its recent report, Parsing the Achievement Gap II, the 
Educational Testing Service (ETS) outlined 16 factors that correlate 
with student achievement; more than half of these factors are present 
in a child's life before or beyond the classroom, including forced 
mobility, hunger and nutrition, and summer achievement gain and 
loss.\8\ Today's educators must address the confluence of many of these 
factors at the same time, which are disproportionately concentrated in 
the Nation's poorest schools. Less than 4 percent of white students 
attend schools where 70-100 percent of the students are poor. However, 
40 percent of black and Latino students attend such high-poverty 
schools.
---------------------------------------------------------------------------
    \8\ Paul Barton and Richard Coley (2009). Parsing the Achievement 
Gap II. Princeton, New Jersey: Educational Testing Service. Note: This 
report uses the term ``frequent school changes.'' I use the term 
``forced mobility'' because it more accurately describes the living 
circumstances of our most at-risk students that, in turn, causes 
reductions in school performance. For additional information, see 
Duffield and Lovell (endnote 20).
---------------------------------------------------------------------------
    It is important that we have a thorough understanding of the 
prevalence and importance of the larger environmental factors in a 
student's life that influence their academic success. Unless we address 
these foundational issues, not even the best teachers with the highest 
quality curriculum will be able to ensure that every student graduates 
ready for college.

                 THE SOLUTION: A COMPREHENSIVE APPROACH

    The dropout crisis calls for a holistic solution, driven by 
national leadership and local action. Research demonstrates that young 
people need five core resources to be successful in life. We refer to 
them as the ``five promises:'' caring adults, safe places, a healthy 
start, effective education, and opportunities to serve. These promises 
provide a simple but powerful framework for a robust national strategy 
to end the dropout crisis, and they are at the heart of the Dropout 
Prevention Campaign launched by America's Promise Alliance in April 
2008.
America's Promise Alliance Dropout Prevention Campaign
    The campaign begins with high-level summits in all 50 States and 
the 55 cities with the largest dropout rates in order to raise the 
visibility of America's ``silent epidemic.'' Within 60 days of each 
summit, States, and communities are required to develop action plans 
that include a cross section of stakeholders: educators, the business 
community, nonprofit organizations, and students. To date, 36 high-
level summits have been held in cities nationwide--bringing together 
more than 14,000 mayors and Governors, business owners, child 
advocates, school administrators, students, and parents to develop 
workable solutions and action plans.
    Already, cities and States that held summits last year have started 
implementing changes based on the discussions and early results are 
promising. Detroit has set a 10-year goal to graduate 80 percent of its 
youth from the 35 high schools with significant dropout rates and 
created the Greater Detroit Venture Fund, a $10 million effort to 
assist these efforts. Louisville set a 10-year goal to cut dropout 
rates in half, and Tulsa's summit resulted in an innovative career 
exploration program.
Grad Nation
    The Dropout Summits and the action plans they produce are a 
critical first step, but communities also need tools and guidelines for 
sustainably raising their graduation rates. Grad Nation is a first-of-
its-kind research-based toolkit for communities seeking to reduce their 
dropout rate and better support young people through high school 
graduation and beyond. Commissioned by the Alliance and authored by 
Robert Balfanz, Ph.D. and Joanna Honig Fox from the Everyone Graduates 
Center at Johns Hopkins University and John M. Bridgeland and Mary 
McNaught of Civic Enterprises, Grad Nation brings together--in one 
place--the Nation's best evidence-based practices for keeping young 
people in school. Grad Nation gives communities a comprehensive set of 
tools to rally collective support, develop effective action strategies, 
prepare youth for advanced learning, and build strong, lasting 
partnerships around ending the dropout crisis.
The Gallup Student Poll
    The youth voice is often overlooked and not included in the 
national dialogue on dropout prevention. In order to determine 
effective solutions to the crisis, their voices must be heard. 
America's Promise Alliance (APA), along with Gallup and the American 
Association of School Administrators, recently launched the Gallup 
Student Poll, the largest-ever survey of students in grades 5-12. The 
poll measures three key metrics--hope, engagement, and well-being--that 
research has shown have a meaningful impact on educational outcomes and 
more importantly, can be improved through deliberate action by 
educators, school administrators, community leaders.
    The March 2009 polling brought in nearly 71,000 responses from 
students in 18 States, 58 districts, and more than 330 schools. Half of 
those surveyed (50 percent) reported that they are not hopeful, with 
one-third (33 percent) indicating that they are stuck, while 17 percent 
feel discouraged. Just half (52 percent) said they were treated with 
respect all day. The findings from this and future Gallup Student Polls 
will highlight causes of the dropout crisis from the perspective of 
students themselves. The youth voice is a critical part of the ongoing 
dialogue about dropout prevention, and they can help us develop 
initiatives that sustainably change outcomes for our young people.

                         SERVICE AND ENGAGEMENT

    The recently passed Edward M. Kennedy Serve America Act will boost 
the efforts of our Alliance's service initiatives through the most 
sweeping expansion of our country's service programs in 16 years. APA 
believes service is a bedrock strategy for tackling issues such as the 
high school dropout and college-readiness crises. By affirming the 
power of service to address some of the biggest challenges now facing 
the United States, this landmark piece of legislation will help reverse 
current dropout rates in communities across the country.
    The Serve America Act will update and strengthen national service 
programs, including service-learning, a teaching method that combines 
volunteer service and a rigorous curriculum to engage young people in 
solving community problems. Research has shown that service-learning 
helps students achieve academically, develop civic and career-related 
skills, increase their self-confidence, and heighten their respect for 
diversity. Service-learning is a key component of our objective to help 
communities in this time of need and to ensure brighter futures for our 
children and youth.
    Many students who ultimately drop out of school say they become 
disengaged during the middle-school years. The choices young people 
make at this age could set them on a course for active citizenship and 
engaged learning, or down a path of risky behavior and potential 
failure. Not enough opportunities currently exist for these children to 
engage in active learning through real-world experiences, such as 
school or community-based learning and career-centric activities.
    Our national action strategy, ``Ready for the Real World,'' brings 
together partners from professional societies and businesses looking 
for ways to connect with and prepare their future workforce. By 
designing ``real-world'' experiences relevant to them, the initiative 
exposes youth to service learning and career exploration, increasing 
their motivation to achieve in school, college, and life.
    Through America's Promise, partners provide a range of resources 
and real-life experiences, such as job shadowing and mentoring 
programs. Ready for the Real World established innovative after-school 
and summer programs for youth, which are integrated into school 
curriculums afterwards. This type experiential learning has inspired 
at-risk youth to achieve academically, pursue higher goals, and 
contribute positively to their communities.
                                 ______
                                 
      Prepared Statement of the American Psychological Association

    The American Psychological Association (APA), the largest 
scientific and professional organization representing psychology in the 
United States and the world's largest association of psychologists, 
works to advance psychology as a science, as a profession and as a 
means of promoting human welfare. APA is grateful for the opportunity 
to submit written testimony on goals for the fiscal year 2010 
appropriations bill. Below we enumerate recommendations for specific 
programs.
    Bureau of Health Professions, Graduate Psychology Education 
Program.--The APA requests that the subcommittee include $7 million for 
the Graduate Psychology Education Program (GPE) within the Health 
Resources and Services Administration. This nationally competitive 
grant program provides integrated healthcare services to underserved 
communities--those individuals most in need of mental and behavioral 
health support with the least access to these services, including 
children, older adults, chronically ill persons, and victims of abuse 
or trauma.
    Since 2002, GPE grants have provided interdisciplinary training for 
approximately 2,500 graduate students of psychology and other health 
professions to provide integrated healthcare services to underserved 
populations. There have been 70 grants in 30 States. Students 
benefiting from GPE grants have worked with more than 30 different 
types of health professionals. GPE funding has allowed programs to 
double the number of students they are able to train: and more students 
trained means more impact on underserved populations. The GPE Program 
currently supports training grants at 18 academic institutions and 
training sites (e.g., children's and VA hospitals) throughout the 
Nation. All of the approximately 900 psychology graduate students who 
benefited from GPE funds are expected to work with underserved 
populations and 34-100 percent will be working in underserved areas 
immediately after completing the training.
    Currently authorized under the Public Health Service Act (Public 
Law 105-392, section 755(b)(1)(J)) and funded under the ``Allied Health 
and Other Disciplines'' account in the Labor, Health and Human 
Services, and Education, and Related Agencies appropriations bill, this 
program has proven effective for meeting the growing health needs of 
our Nation's least served communities. This year, specific authorizing 
legislation has been introduced in the U.S. Senate (S. 811) as well as 
in the U.S. House of Representatives (H.R. 2066).
    The GPE program specifically seeks to support our Nation's aging 
and veteran populations. Twenty percent of people older than 55 suffer 
from a mental disorder (2005); mental disorders affect physical health 
and the ability to function (2008); and approximately 70 percent of all 
primary care visits by older adults are driven by psychological 
factors. In addition, older adults with chronic illnesses such as heart 
disease have higher rates of depression than those medically well, and 
depression lowers immunity and may compromise a person's ability to 
fight infection (2008). One in five military personnel returning from 
Iraq and Afghanistan report symptoms consistent with major depression, 
generalized anxiety or post-traumatic stress disorder (PTSD) (2008). 
According to the Pentagon the number of U.S. troops diagnosed by the 
military with PTSD jumped nearly 50 percent from 2006 to 2007 as more 
troops served lengthy and repeated tours in Iraq and Afghanistan 
(2008). Furthermore, the U.S. Army reported in May (2008) that more 
U.S. soldiers committed suicide in 2007 than at any time since the 
first Gulf War.
    Providing $7 million in fiscal year 2010 would allow for 30 
additional GPE grants including those that focus solely on the needs of 
older adults and returning military personnel and their families. There 
are approximately 900 eligible universities, professional schools and 
hospitals in every State nationwide.
   substance abuse and mental health services administration (samhsa)
Garrett Lee Smith Memorial Act Programs--Campus Suicide Prevention 
        Program
    APA encourages the subcommittee to increase funding for the 
programs at SAMHSA authorized by the Garrett Lee Smith Memorial Act, 
especially the Campus Suicide Prevention program.
    The Campus Suicide Prevention program is a small, but important 
program that seeks to assist college and universities raise awareness 
about mental and behavioral health to prevent suicides. By providing 
educational materials and outreach, the Campus Suicide Prevention 
program increases awareness about the signs of and risks of mental 
health problems and ensures greater success in college completion for 
those at risk of school failure because of concerns like stress, 
depression, eating disorders, risk behaviors, and suicidal thoughts.
    There is a special need to increase funds for this program during 
the difficult economic times facing our Nation. A recent APA survey 
found that 18-29 year olds felt the economy added to their stress more 
than other concerns, like relationships or housing, a change from past 
years. The American College Counseling Association's 2008 Survey of 
College Counseling Center Directors found that ``95 percent of 
directors report that the recent trend toward greater number of 
students with severe psychological problems continues to be true on 
their campuses.'' Addressing the mental and behavioral health needs of 
students in college and university settings can mean the difference 
between school failure or graduation on one hand, and life and death on 
the other.
    Center for Mental Health Services, Minority Fellowship Program 
(MFP).--While minorities are projected to comprise 40 percent of the 
U.S. population by 2025, only 23 percent of recent doctorates in 
psychology, social work, and nursing were awarded to minorities. The 
MFP's mission is to address this need by increasing the number of 
minority mental health professionals and by training mental health 
professionals to become culturally competent. APA urges Congress to 
fund the Minority Fellowship Program at $7.5 million for fiscal year 
2010.
    Emergency Mental Health and Traumatic Stress Services Branch: Child 
Trauma.--SAMHSA has made tremendous efforts in this area through the 
outstanding National Child Traumatic Stress Network program. APA urges 
Congress to appropriate full funding for the National Child Traumatic 
Stress Initiative at the originally authorized level of $50 million for 
fiscal year 2010. To ensure continuity of leadership in this program, 
APA recommends the subcommittee encourage SAMHSA to expand the duration 
of NCTSI grant awards from 3 years to 6 years.
    Center for Substance Abuse Prevention (CSAP): Substance Use and 
Mental Disorders of Persons with HIV.--According to recent reports, 
almost half of those with HIV/AIDS screened positive for illicit drug 
use or mental disorders. Unfortunately, healthcare providers fail to 
detect mental disorders and substance use problems in almost half of 
patients with HIV/AIDS. Several diagnostic screening tools are 
available for use by nonmental health staff. APA encourages SAMHSA and 
CDC to collaborate with HRSA to train healthcare providers to screen 
HIV/AIDS patients for mental health and substance use problems.

                DEPARTMENT OF HEALTH AND HUMAN SERVICES

    Lifespan Respite Program Family Caregivers.--Respite can provide 
family caregivers with relief necessary to maintain their own health, 
bolster family stability and well-being, and avoid or delay more costly 
nursing home or foster care placements. Under the Lifespan Respite Care 
Program, funds are available to improve access to respite for family 
caregivers. APA urges Congress to fund the Lifespan Respite Care 
Program at its authorized level of $71.1 million for fiscal year 2010.

            CENTERS FOR DISEASE CONTROL AND PREVENTION (CDC)

    National Center for Injury Prevention and Control: Child 
Maltreatment Prevention at Community Health Centers (CHCs).--APA 
recommends the implementation of at least 10 demonstration projects of 
evidence-based preventative parenting programs through CHCs. Technical 
assistance to demonstration sites should be provided by organizations 
with expertise in parent-child relationships, parenting programs, 
prevention of child maltreatment, and the integration of behavioral 
health in primary and community health center settings. APA recommends 
evaluating the demonstration projects' implementation and outcomes, 
including health and mental health outcomes.
    National Center for Health Statistics (NCHS): Eating Disorders.--
Eating disorders may have serious, chronic effects on one's quality of 
life and often co-occur with significant physical and mental health 
problems. However, the impact of these disorders has not yet been 
appropriately investigated. APA urges the subcommittee to encourage CDC 
to increase support for surveillance and research efforts regarding the 
incidence, morbidity, and mortality rates of eating disorders, 
including anorexia nervosa, bulimia nervosa, binge eating disorder, and 
eating disorders not otherwise specified across age, ethnicity and 
gender subgroups.
    Sexual and Gender Identity Inclusion in Health Data Collection.--
The National Health Interview Survey (NHIS) is the most comprehensive 
and widely referenced Federal health statistics survey, yet currently 
does not include any question concerning sexual orientation and gender 
identity. APA recommends the allocation of an additional $2 million in 
funding for NHIS in the NCHS budget, to enable Government agencies to 
better understand and plan for the unique health needs of lesbian, gay, 
bisexual, and transgender individuals.
    Administration for Children and Families.--Sexualization of Girls. 
Throughout U.S. culture, female children, adolescents, and adults are 
frequently depicted and treated in a sexualized manner that objectifies 
them. Research links sexualization with three of the most common mental 
health problems of female children, adolescents, and adults: eating 
disorders, depression or depressed mood, and low self-esteem. APA 
encourages HHS to fund media literacy and youth empowerment programs to 
prevent and counter the effects of the sexualization of female 
children, adolescents, and adults.
    National Institutes of Health (NIH).--APA supports the request of 
the Ad Hoc Group and Coalition for Health Funding, urging an increase 
of at least 7 percent for the NIH. Years of sub-inflation budgets have 
stressed the NIH research enterprise, and made sharing of resources 
among programs more difficult. The fiscal year 2009 increase provided 
by Congress begins to ameliorate the budget difficulties, but 
scientific research will benefit from a smooth, steady and predictable 
rise in spending.
    APA likewise supports an increase of 7 percent (to $28.61 million) 
for the NIH Office of Behavioral and Social Sciences Research in the 
Office of the Director. This small but important office coordinates 
behavioral and social science research initiatives across Institutes 
and Centers, and helps form partnerships to leverage the intellectual 
and monetary resources that make good science possible.
    The behavioral and social sciences are leading proponents of 
cooperation and cost-sharing in cross-cutting NIH initiatives. APA 
supports NIH's decision to authorize a Basic Behavioral and Social 
Sciences Research ``Blueprint,'' to which several Institutes would 
contribute, to strengthen NIH funding of basic research in the 
behavioral and social sciences. This innovation will build creative 
cooperation and cost-sharing, and help plug gaps in NIH-supported basic 
research.
    A key area of cooperation is in research on obesity. Given the role 
of obesity as a risk factor for the development of cardiovascular 
disease, diabetes, cancer, and arthritis, many of NIH's Institutes are 
collaborating with investigators and other Institutes to develop new 
ways to prevent and treat obesity and overweight as well as fostering 
the adoption of positive health behaviors.
    For example, the Eunice Kennedy Shriver National Institute of Child 
Health and Human Development supports research into physical activity 
and eating behaviors and that examines the impact of family and peer 
support, developmental and social context, school-based interventions, 
which include the use of media and literacy, motivation, and use of 
various behavioral approaches to influence motivation in physical 
activity, food choices, and media use.
    Alcohol and tobacco use are among the leading causes of death and 
disability in the United States, but NIH research funding to prevent, 
understand the etiology of, and treat tobacco and alcohol addiction is 
not commensurate with the public health burden of those diseases. APA 
suggests that as the NIH Scientific Management Review Board (SMRB) 
undertakes its review of the NIH organizational structure to optimize 
the research of substance use, abuse and addiction, that it also 
quantify the amount of NIH research funding dedicated to studies of 
alcohol, tobacco use and illicit substance use. Further, APA recommends 
that the SMRB evaluate the proportion of all substance use research 
funding at NIH compared to CDC estimates of the public health burden of 
disease (and costs to the criminal justice system) and consider a 
reapportionment of NIH funding to Institutes based on those findings.

                        DEPARTMENT OF EDUCATION

    Office of the Director (OD).--Culturally and Linguistically 
Appropriate Education. Ethnically diverse children and American Indian/
Alaska native children are performing at far lower levels than other 
students. APA urges the subcommittee to increase support for 
educational systems and the strengthening of programs that meet the 
unique cultural, linguistic and educational needs of ethnic minority 
and AI/AN students from pre-school to graduate-level education.
    Office of Safe and Drug-free Schools: Bullying Prevention.--
Bullying directly affects about one-third of American school children 
in a given semester. APA urges appropriate Federal funding to support 
the implementation of effective, research-based, and comprehensive 
bullying prevention programs.
    National Institute on Disability and Rehabilitation Research: 
Disability Research.--APA recommends that NIDRR pursue mental health-
related research proposals through its investigator-initiated and other 
grants programs, and sponsor studies on the impacts of socio-emotional, 
behavioral, and attitudinal aspects of disability.

           ELEMENTARY AND SECONDARY SCHOOL COUNSELING PROGRAM

    APA requests that the subcommittee increase funds for the 
Elementary and Secondary School Counseling program. Authorized by the 
Elementary and Secondary Education Act's Fund for the Improvement of 
Education, this program increases the range, availability, quantity, 
and quality of counseling services in the elementary and secondary 
schools across the country.
                                 ______
                                 
      Prepared Statement of the American Public Power Association

    The American Public Power Association (APPA) is the national 
service organization representing the interests of more than 2,000 
municipal and other State and locally owned utilities throughout the 
United States (all but Hawaii). Collectively, public power utilities 
deliver electricity to 1 of every 7 electricity consumers 
(approximately 45 million people), serving some of the Nation's largest 
cities. However, the vast majority of APPA's members serve communities 
with populations of 10,000 people or less.
    We appreciate the opportunity to submit this statement supporting 
funding for the Low-Income Home Energy Production Assistance Program 
(LIHEAP) for fiscal year 2010.
    APPA has consistently supported an increase in the authorization 
level for LIHEAP. The administration's fiscal year 2010 budget requests 
$3.2 billion for LIHEAP. APPA supports a level of $5.1 billion for the 
program.
    APPA is proud of the commitment that its members have made to their 
low-income customers. Many public power systems have low-income energy 
assistance programs based on community resources and needs. Our members 
realize the importance of having in place a well-designed, low-income 
customer assistance program combined with energy efficiency and 
weatherization programs in order to help consumers minimize their 
energy bills and lower their requirements for assistance. While highly 
successful, these local initiatives must be coupled with a strong 
LIHEAP program to meet the growing needs of low-income customers. In 
the last several years, volatile home-heating oil and natural gas 
prices, severe winters, high utility bills as a result of dysfunctional 
wholesale electricity markets and the effects of the economic downturn 
have all contributed to an increased reliance on LIHEAP funds.
    Also when considering LIHEAP appropriations this year, we encourage 
the subcommittee to provide advanced funding for the program so that 
shortfalls do not occur in the winter months during the transition from 
one fiscal year to another. LIHEAP is one of the outstanding examples 
of a State-operated program with minimal requirements imposed by the 
Federal Government. Advanced funding for LIHEAP is critical to enabling 
States to optimally administer the program.
    Thank you again for this opportunity to relay our support for 
increased LIHEAP funding for fiscal year 2010.
                                 ______
                                 
    Prepared Statement of the Association for Psychological Science

                       SUMMARY OF RECOMMENDATIONS

  --As a member of the Ad Hoc Group for Medical Research Funding, 
        Association for Psychological Science (APS) recommends $32.4 
        billion for the National Institutes of Health (NIH) in fiscal 
        year 2010.
  --APS requests subcommittee support for behavioral and social science 
        research and training as a core priority at NIH in order to: 
        better meet the Nation's health needs, many of which are 
        behavioral in nature; realize the exciting scientific 
        opportunities in behavioral and social science research, and; 
        accommodate the changing nature of science, in which new fields 
        and new frontiers of inquiry are rapidly emerging.
  --Given the critical role of basic behavioral science research and 
        training in addressing many of the Nation's most pressing 
        public health needs, we ask the subcommittee to ensure that NIH 
        leadership carries out its plan to create a cross-NIH basic 
        behavioral research funding initiative, and coordinates with 
        all Institutes and Centers to provide support for basic 
        behavioral science research.
  --APS encourages the subcommittee to support behavioral science 
        priorities at individual Institutes. Examples are provided in 
        this testimony to illustrate the exciting and important 
        behavioral and social science work being supported at NIH.
    Mr. Chairman, members of the subcommittee: My name is Dr. Amy 
Pollick, and I am speaking on behalf of the APS. Thank you for the 
opportunity to provide this statement on the fiscal year 2010 
appropriations for the NIH. As our organization's name indicates, APS 
is dedicated to all areas of scientific psychology, in research, 
application, teaching, and the improvement of human welfare. Our 21,000 
members are scientists and educators at the Nation's universities and 
colleges, conducting NIH-supported basic and applied, theoretical and 
clinical research. They look at such things as: the connections between 
emotion, stress, and biology and the impact of stress on health; they 
look at how children grow, learn, and develop; they use brain imaging 
to explore thinking and memory and other aspects of cognition; they 
develop ways to manage debilitating chronic conditions such as diabetes 
and arthritis as well as depression and other mental disorders; they 
look at how genes and the environment influence behavioral traits such 
as aggression and anxiety; and they address the behavioral aspects of 
smoking and drug and alcohol abuse.
    As a member of the Ad Hoc Group for Medical Research Funding, APS 
recommends $32.4 billion for NIH in fiscal year 2010, an increase of 7 
percent more than the fiscal year 2009 appropriations level. This 
increase would halt the erosion of the Nation's public health research 
enterprise, and help restore momentum to our efforts to improve the 
health and quality of life of all Americans.
    Within the NIH budget, APS is particularly focused on behavioral 
and social science research and the central role of behavior in health. 
The remainder of my testimony concerns the status of those areas of 
research at NIH.

      HEALTH AND BEHAVIOR: THE CRITICAL ROLE OF BASIC AND APPLIED 
                         PSYCHOLOGICAL RESEARCH

    Behavior is a central part of health. Many leading health 
conditions--such as heart disease; stroke; lung disease and certain 
cancers; obesity; AIDS; suicide; teen pregnancy; drug abuse and 
addiction; depression and other mental illnesses; neurological 
disorders; alcoholism; violence; injuries and accidents--originate in 
behavior and can be prevented or controlled through behavior.
    As just one example: stress is something we all feel in our daily 
lives, and we now have a growing body of research that illustrates the 
direct link between stress and health problems:
  --Chronic stress accelerates not only the size, but also the strength 
        of cancer tumors;
  --chronic stressors weaken the immune system to the point where the 
        heart is damaged, paving the way for cardiac disease;
  --children who are genetically vulnerable to anxiety and who are 
        raised by stressed parents are more likely to experience 
        greater levels of anxiety and stress later in life;
  --animal research has shown that stress interferes with working 
        memory; and
  -- stressful interactions may contribute to systemic inflammation in 
        older adults, which in turn extends negative emotion and pain 
        over time.
    None of the conditions or diseases described above can be fully 
understood without an awareness of the behavioral and psychological 
factors involved in causing, treating, and preventing them. Just as 
there exists a layered understanding, from basic to applied, of how 
molecules affect brain cancer, there is a similar spectrum for 
behavioral research. For example, before you address how to change 
attitudes and behaviors around AIDS, you need to know how attitudes 
develop and change in the first place. Or, to design targeted therapies 
for bipolar disorder, you need to know how to understand how circadian 
rhythms work as disruptions in sleeping patterns have been shown to 
worsen symptoms in bipolar patients.

    BASIC BEHAVIORAL SCIENCE RESEARCH NEEDS A STABLE INFRASTRUCTURE

    Broadly defined, behavioral research explores and explains the 
psychological, physiological, and environmental mechanisms involved in 
functions such as memory, learning, emotion, language, perception, 
personality, motivation, social attachments, and attitudes. Within 
this, basic behavioral research aims to understand the fundamental 
nature of these processes in their own right, which provides the 
foundation for applied behavioral research that connects this knowledge 
to real-world concerns such as disease, health, and life stages. Basic 
behavioral research continues to fare poorly at NIH, a circumstance 
that jeopardizes the success of the entire behavioral research 
enterprise. Let me remind you of the current situation.
    Traditionally, the National Institute of Mental Health (NIMH) was 
the home for far more basic behavioral science than any other 
Institute. Many basic behavioral and social questions were being 
supported by NIMH, even if their answers could also be applied to other 
Institutes. But NIMH has reduced its support for many areas of the most 
basic behavioral research, in favor of translational and clinical 
research. This means that previously funded areas now are not being 
supported.
    NIMH's abrupt decision to narrow its portfolio came without 
adequate planning and happened at the expense of critical basic 
behavioral research. We favor a broader spectrum of support for basic 
behavioral science across NIH as appropriate and necessary for a vital 
research enterprise. But until other Institutes have the capacity to 
support more basic behavioral science connected to their missions, 
programs of research in fundamental behavioral phenomena such as 
cognition, emotion, psychopathology, perception, and development, will 
continue to languish.
    Current NIH leadership recognizes this gap, and has asked the 
Directors of the National Institute of General Medical Sciences and the 
National Institute of Aging to co-lead a new initiative that supports 
and expands new basic behavioral research throughout NIH. In March 
2009, NIH leadership confirmed its commitment to this Basic Behavioral 
Research Opportunity Network in testimony to this subcommittee, and APS 
asks you to ensure that NIH follows through with the planning and 
execution of this crucial step forward for basic behavioral science at 
NIH and ultimately the health of all Americans.
    Despite the clear central role of behavior in health, behavioral 
research has not received the recognition or support needed to prevent, 
or reverse the effects of, behavior-based health problems in this 
Nation. APS asks that you continue to help make behavioral research 
more of a priority at NIH, both by providing maximum funding for those 
Institutes where behavioral science is a core activity, by encouraging 
NIH to advance a model of health that includes behavior in its 
scientific priorities, and by encouraging stable support for basic 
behavioral science research at NIH.

                  BEHAVIORAL SCIENCE AT KEY INSTITUTES

    In the remainder of my testimony, I would like to highlight 
examples of cutting-edge behavioral science research being supported by 
individual Institutes.
    National Cancer Institute (NCI).--NCI's Behavioral Research Program 
continues to make excellent progress, supporting basic behavioral 
research as well as translational research on the development and 
dissemination of interventions in areas such as tobacco use, dietary 
behavior, sun protection, and decisionmaking. Recently, NCI's 
behavioral research branch has made concerted efforts to incorporate 
innovative social psychological theories into cancer prevention 
research. Basic social psychology provides useful and practical 
approaches for understanding risky health behaviors and tailoring 
interventions to reduce the incidence of cancer. For example, NCI 
funded a research program to assess differential psychological and 
physiological responses to exercise and the possible genetic and 
biological mechanisms of those responses. As a result, we now 
understand the influence of responses to cardiovascular exercise on 
future exercise behavior, and the researchers are evaluating an 
intervention to increase exercise behavior in sedentary participants. 
It is this kind of basic behavioral research that helps us understand 
how people are persuaded to adopt and maintain healthy behaviors. APS 
asks Congress to support NCI's behavioral science research and training 
initiatives and to encourage other Institutes to use these programs as 
models.
    National Institute on Aging (NIA).--NIA's Division of Behavioral 
and Social Research has one of the strongest psychological science 
portfolios in all of NIH, and is supporting wide-ranging and innovative 
work. For example, normal aging may be accompanied by declines not only 
in such cognitive functions, but also in the processes supporting 
social and emotional behavior. However, we currently know little about 
the changes that may occur as we age. NIA-supported research into the 
brain mechanisms and cognitive processes underlying social and 
emotional behaviors in healthy older adults promises to dramatically 
increase our knowledge in this area. Using a combination of behavioral 
and neuroimaging methods to study social and emotional processing in 
normal aging, this research will lead to much greater understanding of 
the nature of aging-related changes in these central human 
characteristics. NIA's commitment to cutting-edge behavioral science is 
further illustrated by the Institute's leadership role in NIH's new 
initiative on the Science of Behavior Change. APS asks the subcommittee 
to support NIA's behavioral science research efforts and to increase 
NIA's budget in proportion to the overall increase at NIH in order to 
continue its high-quality research to improve the health and well being 
of older Americans.
    National Institute on Drug Abuse (NIDA).--By supporting a 
comprehensive research portfolio that stretches across behavior, 
neuroscience, and genetics, NIDA is leading the Nation to a better 
understanding of drug abuse which is key to both prevention and 
treatment. One of the striking things about psychological science 
research is that it often dispels ``common sense'' intuition. For 
example, recent NIDA-supported research has shown that certain anti-
drug media campaigns that include attention-grabbing features such as 
harsh content or strong graphics, have no positive effect, and that in 
fact the campaigns that use fewer such dramatic features actually lead 
to better processing of the public service announcement (PSA). This 
kind of message-framing research will be used to develop and tailor the 
most effective PSAs, such as those that focus on social risk rather 
than physical damage, to curtail use of a wide variety of illicit 
substances. NIDA is also encouraging brain imaging and prevention 
message investigators to work together, fostering increased validation 
of health communication models. APS asks the subcommittee to support 
this and other critical behavioral science research at NIDA, and to 
increase NIDA's budget in proportion to the overall increase at NIH in 
order to reduce the health, social, and economic burden resulting from 
drug abuse and addiction in this Nation.
    Eunice Kennedy Shriver National Institute for Child Health and 
Human Development (NICHD).--Several Institutes recognize the value and 
relevance of basic behavioral research to their mission, and NICHD is 
to be particularly commended for its support of behavioral research on 
important topics such as mechanisms of cognition and learning, 
developmental trajectories of language, and linkages among brain, 
behavior, and genes. For example, studies have shown that caregiver 
behavior can modify genetic influences on social behavior. Children 
with a particular variation of the serotonin gene who live in families 
that provide low levels of social and emotional support were found to 
be at increased risk for extreme shyness and social withdrawal in 
middle school years. But those children whose families provide high 
levels of support, and who have that same genetic variation, didn't 
show the same levels of shyness. Research supported by NICHD's 
behavioral science programs continues to yield fundamental new insights 
into understanding early cognitive and behavioral development that have 
the potential to change how and when medical and psychological 
specialists evaluate typical cognitive, social, and behavioral 
development during infancy. APS asks Congress to support NICHD's 
sustained behavioral science research portfolio and to encourage other 
Institutes to partner with NICHD to maximize the development of 
interventions in early stages of life that have invaluable benefits in 
adulthood.
    It's not possible to highlight all of the worthy behavioral science 
research programs at NIH. In addition to those reviewed in this 
statement, many other Institutes play a key role in the NIH behavioral 
science research enterprise. These include the National Institute of 
Dental and Craniofacial Research, the National Institute of Mental 
Health, the National Institute on Alcohol Abuse and Alcoholism, the 
National Heart, Lung, and Blood Institute, the National Institute of 
Diabetes and Digestive and Kidney Diseases, and the National Institute 
on Neurological Diseases and Stroke. Behavioral science is a central 
part of the mission of these institutes, and their behavioral science 
programs deserve the subcommittee's strongest possible support.
    This concludes my testimony. Again, thank you for the opportunity 
to discuss NIH appropriations for fiscal year 2010 and specifically, 
the importance of behavioral science research in addressing the 
Nation's public health concerns. I would be pleased to answer any 
questions or provide additional information.
                                 ______
                                 
        Prepared Statement of the American Physiological Society

    The American Physiological Society (APS) thanks the Chairman and 
all the members of this subcommittee for their support for the National 
Institutes of Health (NIH). The funds you included in the American 
Recovery and Reinvestment Act of 2009 (ARRA) are providing the NIH with 
a substantial influx of resources at a crucial time. Several 
consecutive years of stagnant budget growth had been eroding the 
scientific capacity painstakingly built up during the doubling. The 
rapid distribution of ARRA funds will allow scientists to explore new 
avenues of promising research through the funding of additional grants, 
which is already building momentum and sparking excitement in the 
research community. The stimulus funds represent a first step toward 
enabling NIH to maintain and to increase employment for highly skilled 
workers, purchase critical equipment and supplies, and enhance research 
capacity at institutions across the country. However, consistent future 
budget growth for NIH will be necessary to sustain this momentum beyond 
the period of stimulus spending and prevent an abrupt halt in these new 
research initiatives after the ARRA. Furthermore, absent a continued 
increase in support for NIH, as many as 20,000 jobs created in the 
biomedical sciences by the stimulus money could be lost. Therefore, the 
APS urges you to make every effort to provide the NIH with a 7 percent 
increase in fiscal year 2010.
    The APS is a professional society dedicated to fostering research 
and education as well as the dissemination of scientific knowledge 
concerning how the organs and systems of the body work. APS was founded 
in 1887 and now has nearly 10,000 member physiologists. APS members 
conduct NIH-supported research at colleges, universities, medical 
schools, and other public and private research institutions across the 
United States. The APS offers these comments on the budget recognizing 
both the enormous financial challenges facing our Nation and the great 
opportunity before us to make progress against disease.
    As a result of improved healthcare, Americans are living longer and 
healthier lives in the 21st century than ever before. However, diseases 
such as heart failure, diabetes, cancer, and emerging infectious 
diseases such as the swine flu continue to inflict a heavy burden on 
our population. The NIH invests heavily in basic research to explore 
the mechanisms and processes of disease. This investment will result in 
new tools and knowledge that can be used to design novel treatments and 
prevention strategies.
    The NIH selects and funds investigator-initiated research of only 
the highest scientific merit through the use of the peer review system. 
Among the breakthroughs in the last year:
  --NIH-funded researchers discovered that people with certain genetic 
        variants are at increased risk for a stroke. This genetic link 
        provides molecular clues to how strokes develop and also moves 
        the field closer to personalized medicine. This work was 
        performed by researchers who collaborated to study large 
        populations of patients over a long period of time, and is an 
        example of research that was supported by multiple institutes 
        within the NIH.\1\
---------------------------------------------------------------------------
    \1\ M. A. Ikram et al, New England Journal of Medicine 360, 1718-
28. (April 23, 2009).
---------------------------------------------------------------------------
  --Scientists recently discovered that adults retain brown fat, a 
        metabolically active type of fat tissue that was previously 
        thought to exist only in infants and children. Because brown 
        fat burns calories and energy, there is hope that this 
        discovery could lead to new treatments for obesity and 
        diabetes.\2\
---------------------------------------------------------------------------
    \2\ A. M. Cypress et al, New England Journal of Medicine 360, 1509-
17. (April 9, 2009).
---------------------------------------------------------------------------
  --Researchers studying obesity and diet in an animal model found that 
        chronic consumption of high levels of fructose leads to excess 
        weight gain and molecular changes when paired with a high-fat, 
        high-calorie diet. Understanding the physiological changes 
        associated with the development of obesity is a first step 
        toward the design of interventions that could prevent the 
        serious health consequences associated with being 
        overweight.\3\
---------------------------------------------------------------------------
    \3\ A. Shapiro et al, American Journal of Physiology--Regulatory, 
Integrative and Comparative Physiology 295, R1370-75. (November, 2008).
---------------------------------------------------------------------------
    Over the past several years, the Office of the Director has 
supplemented existing research programs with new types of awards as 
part of the NIH Roadmap for Medical Research. These include the New 
Innovator, Pioneer and Transformative Research Award Programs. Such 
programs support bold and creative researchers as they engage in high-
risk, high-reward research, thus allowing more flexibility to explore 
novel ideas and challenge existing paradigms. The NIH is also using 
these programs as a model for distributing funds under the ARRA. The 
Research and Research Infrastructure ``Grand Opportunities'' program 
will fund potentially high-impact areas of science that will benefit 
from short-term funding.
    The NIH is also home to the Institutional Development Award (IDeA) 
Program. Established in 1993, the goal of the IDeA program is to 
broaden the geographic distribution of NIH funds by serving researchers 
and institutions in areas that have not historically received 
significant NIH funding. IDeA builds research capacity and improves 
competitiveness in those States through the development of shared 
resources, infrastructure, and expertise. IDeA currently serves 
institutions and investigators in 23 States and Puerto Rico.
    In addition to supporting research, the NIH must also address 
workforce issues to ensure that our Nation's researchers are ready to 
meet the challenges they will face in the future. Recent data from the 
NIH shows that the average age of NIH supported principal investigators 
is now 50.8 years.\4\ This is up nearly 12 years from the average 
principal investigator's age of 39.1 years in 1980. In addition, the 
average age at which a researcher obtains their first major research 
award from NIH has increased to 42.4 years. As the scientific workforce 
continues to age, and more researchers retire, there may be an 
insufficient number of young scientists who are trained to replace 
them. Over the last year, the NIH has put in place policies to help new 
investigators succeed in competing for their first major research 
awards. However, efforts will be successful only if funds are available 
to continue to support the careers of new and young investigators 
beyond the period of their first grant.
---------------------------------------------------------------------------
    \4\ http://grants.nih.gov/grants/new_investigators/
resources.htm#data (accessed April 29, 2009).
---------------------------------------------------------------------------
    The APS joins the Federation of American Societies for Experimental 
Biology (FASEB) and the Ad Hoc Group for Medical Research Funding in 
urging that NIH be provided with a 7 percent increase in fiscal year 
2010 to permit the agency to maintain its current wide-ranging and 
important research efforts.
                                 ______
                                 
     Prepared Statement of the Association of Rehabilitation Nurses

                              INTRODUCTION

    On behalf of the Association of Rehabilitation Nurses (ARN), I 
appreciate having the opportunity to submit written testimony to the 
Senate Labor, Health and Human Services, and Education, and Related 
Agencies Subcommittee regarding funding for nursing and rehabilitation 
related programs in fiscal year 2010. ARN represents professional 
nurses who work to enhance the quality of life for those affected by 
physical disability and/or chronic illness. ARN understands that 
Congress has many concerns and limited resources, but believes that 
chronic illness and physical disability are heavy burdens on our 
society that must be addressed.

            REHABILITATION NURSES AND REHABILITATION NURSING

    Rehabilitation nurses help individuals affected by chronic illness 
and/or physical disability adapt to their disability, achieve their 
greatest potential, and work toward productive, independent lives. They 
take a holistic approach to meeting patients' medical, vocational, 
educational, environmental, and spiritual needs. Rehabilitation nurses 
begin to work with individuals and their families soon after the onset 
of a disabling injury or chronic illness. They continue to provide 
support in the form of patient and family education and empower these 
individuals when they return home, or to work, or school. The 
rehabilitation nurse often teaches patients and their caregivers how to 
access systems and resources.
    Rehabilitation nursing is a philosophy of care, not a work setting 
or a phase of treatment. Rehabilitation nurses base their practice on 
rehabilitative and restorative principles by: (1) managing complex 
medical issues; (2) collaborating with other specialists; (3) providing 
ongoing patient/caregiver education; (4) setting goals for maximal 
independence; and (5) establishing plans of care to maintain optimal 
wellness. Rehabilitation nurses practice in all settings, including 
freestanding rehabilitation facilities, hospitals, long-term subacute 
care facilities/skilled nursing facilities, long-term acute care 
facilities, comprehensive outpatient rehabilitation facilities; and 
private practice, just to name a few.
    To ensure that patients receive the best quality care possible, ARN 
supports Federal programs and research institutions that address the 
national nursing shortage and conduct research on medical 
rehabilitation and nursing and traumatic brain injury. Therefore, ARN 
respectfully requests that the subcommittee provide increased funding 
for the following programs:
nursing workforce and development programs at the health resources and 

                     SERVICES ADMINISTRATION (HRSA)

    ARN supports efforts to resolve the national nursing shortage, 
including appropriate funding to address the shortage of qualified 
nursing faculty. Rehabilitation nursing requires a high-level of 
education and technical expertise, and ARN is committed to assuring and 
protecting access to professional nursing care delivered by highly 
educated, well-trained, and experienced registered nurses for 
individuals affected by chronic illness and/or physical disability.
    According to the Department of Health and Human Services, the 
Federal Nursing Workforce Development program at the Health Resources 
and Services Administration (HRSA), an estimated 36,750 nurses need to 
be recruited, educated, and retained to meet the current demands of the 
healthcare system. Efforts to recruit and educate individuals 
interested in nursing have been thwarted by the shortage of nursing 
faculty. In 2007, due to the nursing faculty shortage, more than 40,000 
qualified applicants were not able to matriculate in nursing school. 
The number of full-time nursing faculty required to ``fill the nursing 
gap'' is approximately 40,000, and, currently, there are less than 
20,000 full-time nursing faculty members. Further exacerbating this 
issue, HRSA predicts that the nursing shortage is expected to grow to 
41 percent by 2020.
    ARN strongly supports the national nursing community's request of 
$263 million in fiscal year 2010 funding for Federal Nursing Workforce 
Development programs at HRSA.

                                 NIDRR

    NIDRR provides leadership and support for a comprehensive program 
of research related to the rehabilitation of individuals with 
disabilities. As one of the components of the Office of Special 
Education and Rehabilitative Services at the U.S. Department of 
Education, NIDRR operates along with the Rehabilitation Services 
Administration and the Office of Special Education Programs.
    The mission of NIDRR is to generate new knowledge and promote its 
effective use to improve the abilities of people with disabilities to 
perform activities of their choice in the community, and also to expand 
society's capacity to provide full opportunities and accommodations for 
its citizens with disabilities. NIDRR conducts comprehensive and 
coordinated programs of research and related activities to maximize the 
full inclusion, social integration, employment and independent living 
of individuals of all ages with disabilities. NIDRR's focus includes 
research in areas such as employment; health and function; technology 
for access and function; independent living and community integration; 
and other associated disability research areas.
    ARN strongly supports the work of NIDRR and encourages Congress to 
provide the maximum possible fiscal year 2010 funding level.

             NATIONAL INSTITUTE OF NURSING RESEARCH (NINR)

    ARN understands that research is essential for the advancement of 
nursing science, and believes new concepts must be developed and tested 
to sustain the continued growth and maturation of the rehabilitation 
nursing specialty. The National Institute of Nursing Research (NINR) 
works to create cost-effective and high-quality health care by testing 
new nursing science concepts and investigating how to best integrate 
them into daily practice. NINR has a broad mandate that includes 
seeking to prevent and delay disease and to ease the symptoms 
associated with both chronic and acute illnesses. NINR's recent areas 
of research focus include the following:
  --End of life and palliative care in rural areas;
  --Research in multi-cultural societies;
  --Bio-behavioral methods to improve outcomes research; and
  --Increasing health promotion through comprehensive studies.
    ARN respectfully requests $178 million in fiscal year 2010 funding 
for NINR to continue its efforts to address issues related to chronic 
and acute illnesses.

                      TRAUMATIC BRIAN INJURY (TBI)

    Approximately 1.5 million American children and adults are living 
with long-term, severe disability, as a result of traumatic brain 
injury (TBI). Moreover, this figure does not include the 150,000 cases 
of TBI suffered by soldiers returning from wars in Iraq and 
Afghanistan.
    The annual national cost of providing treatment and services for 
these patients is estimated to be nearly $60 million in direct care and 
lost workplace productivity. Continued fiscal support of the Traumatic 
Brain Injury Act will provide critical funding needed to further 
develop research and improve the lives of individuals who suffer from 
traumatic brain injury.
    Continued funding of the TBI Act will promote sound public health 
policy in brain injury prevention, research, education, treatment, and 
community-based services, while informing the public of the need 
support for individuals living with TBI and their families.
    ARN strongly supports the current work being done by the Centers 
for Disease Control and Prevention (CDC) and HRSA on TBI programs. 
These programs contribute to the overall body of knowledge in 
rehabilitation medicine.
    ARN urges Congress to support the following fiscal year 2010 
funding requests for programs within the TBI Act: $10 million for CDC's 
TBI registries and surveillance, prevention and national public 
education and awareness efforts; $20 million for the HRSA Federal TBI 
State Grant Program; and $13.3 million for the HRSA Federal TBI 
Protection and Advocacy Systems Grant Program.

                               CONCLUSION

    ARN appreciates the opportunity to share our priorities for fiscal 
year 2010 funding levels for nursing and rehabilitation programs. ARN 
maintains a strong commitment to working with Members of Congress, 
other nursing and rehabilitation organizations, and other stakeholders 
to ensure that the rehabilitation nurses of today continue to practice 
tomorrow. By providing the fiscal year 2010 funding levels detailed 
above, we believe the subcommittee will be taking the steps necessary 
to ensure that our Nation has a sufficient nursing workforce to care 
for patients requiring rehabilitation from chronic illness and/or 
physical disability.
                                 ______
                                 
   Prepared Statement of the Association for Research in Vision and 
                             Ophthalmology

    Association for Research in Vision and Ophthalmology (ARVO) has two 
major requests:
  --For Congress to fund the National Institutes of Health (NIH) in 
        fiscal year 2010 at $32.4 billion (a 7 percent increase more 
        than fiscal year 2009); and
  --For Congress to make vision health a priority in the total funding 
        of NIH by increasing the National Eye Institute (NEI) funding 
        to $736 million (also a 7 percent increase).
    The requested 7 percent increase represents a 3 percent increase 
plus the 2009 biomedical inflation index.
    ARVO commends Congress for actions taken in fiscal year 2008 and 
2009 to fund NIH. This includes the $150 million fiscal year 2008 
supplement for investigator-initiated grants, the $10.4 billion of NIH 
funding included in the American Recovery and Reinvestment Act, and the 
fiscal year 2009 inflationary increase of 3.2 percent. However, ARVO 
still has concerns about long-term, sustained, and predictable funding 
for vision research.
    Vision disorders are the fourth most prevalent disability in the 
United States and the most frequent cause of disability in children.\1\ 
\2\ \3\ \4\ Healthy vision contributes to injury prevention, 
independence, and economic security. Over the next 30 years the elderly 
population of the United States will double and if we fail to take 
action, age-related eye diseases (diabetic retinopathy, glaucoma, 
cataracts, and age-related macular degeneration) will quickly 
overburden our healthcare system. While age-related eye diseases are 
the most common visual impairments in the United States, childhood 
vision loss is also of great concern because of its lifelong economic 
burden.
---------------------------------------------------------------------------
    \1\ Federal Interagency Forum on Aging-Related Statistics. Older 
Americans 2000: key indicators of well-being. Washington, DC: U.S. 
Government Printing Office; 2000 Aug. 114 p.
    \2\ http://www.ncbi.nlm.nih.gov/pubmed/15078664
    \3\ http://www.healthypeople.gov/data/2010prog/focus28/2004fa28.htm
    \4\ http://www.preventblindness.org/vpus/
---------------------------------------------------------------------------
    ARVO requests $32.4 billion of NIH funding for fiscal year 2010. 
This represents a 7 percent increase more than fiscal year 2009.
    This ensures that prior investments in training junior 
investigators and clinician scientists translate to future improvements 
in health and healthcare services.
    If junior investigators are unable to obtain research grants from 
the NIH, then the prior Government investment in their training will 
not translate into future translational medical breakthroughs. These 
scientists will simply transfer acquired skills to other career 
options.\5\
---------------------------------------------------------------------------
    \5\ http://www.the-scientist.com/article/display/16526/
---------------------------------------------------------------------------
    With the doubling of the NIH budget (1993-2003) universities 
increased their infrastructure for training life science Ph.Ds and 
hired more full-time faculty.\6\ NIH funding has since remained flat, 
resulting in decreased rates of grant funding. As a consequence many 
academic scientists have either lost their jobs or taken part-time 
positions.\7\ The current economic crisis has further amplified the 
problem. In recent months, the private sector in the United States laid 
off more than 80,000 scientists.\8\ We think the best solution is to 
maintain sustained and predictable funding for scientists at all 
stages. If the average age when scientists obtain their first source of 
independent NIH funding continues to rise (currently 43 years) and 
funding bodies continue to restrict many postdoctoral funding 
opportunities to 2-5 years, a generation of analytical thinkers will be 
forced to find more realistic career options.\9\
---------------------------------------------------------------------------
    \6\ http://www.sauvonslarecherche.fr/IMG/pdf/the_postdoc_crisis.pdf
    \7\ http://sciencecareers.sciencemag.org/career_magazine/
previous_issues/articles/2007_07_13/caredit.a0700099
    \8\ http://sciencecareers.sciencemag.org/career_magazine/
previous_issues/articles/2009_04_10/caredit.a0900048
    \9\ http://www.brokenpipeline.org/brokenpipeline.pdf
---------------------------------------------------------------------------
    To maintain economic and global competitiveness, research and 
development is essential for the United States to remain competitive in 
a global market. Both corporate and Government support of research has 
been declining. Innovation is crucial for maintaining global 
competitiveness.\10\ Since vision problems are a global economic 
concern, the prevention and treatment of ocular disease contributes to 
the economic well-being of the United States and international economy.
---------------------------------------------------------------------------
    \10\ http://www.nsf.gov/statistics/nsb0803/start.htm#research
---------------------------------------------------------------------------
    NIH and NEI have been leaders in basic research that translates to 
better vision therapies. The NEI Director (Paul Sieving, MD, Ph.D.) has 
reported that 25 percent of all genes identified to date are associated 
with eye disease. Research supported by the NEI is aimed at translating 
these genetic discoveries to improved diagnosis and therapy.\11\ \12\ 
\13\ \14\ \15\ The NEI has worked in association with: (1) the National 
Institute on Aging to better diagnose, prevent, and treat age-related 
macular degeneration, diabetes, and cataract; (2) The National 
Institute of Neurological Disorders and Stroke to protect and 
regenerate cells that die from retinal degeneration and glaucoma; and 
(3) the National Institute of Diabetes and Digestive and Kidney 
Disorders on studies of diabetic retinopathy.
---------------------------------------------------------------------------
    \11\ http://www.v2020.org/page.asp?section=000100010002
    \12\ http://www.v2020eresource.org/newsitenews.aspx?tpath=news22007
    \13\ http://www.healthypeople.gov/HP2020/
    \14\ http://www.nei.nih.gov/resources/strategicplans/neiplan/
frm_cross.asp
    \15\ http://www.nei.nih.gov/amd/
---------------------------------------------------------------------------
    NEI-sponsored research has resulted in improved therapies for age-
related macular degeneration and diabetic retinopathy, a promising gene 
therapy for retinitis pigmentosa, and genetic studies of glaucoma in 
minority populations that have a disproportional higher incidence of 
glaucoma.\16\
---------------------------------------------------------------------------
    \16\ http://www.eyeresearch.org/resources/NEI_factsheet.html ARVO
---------------------------------------------------------------------------
  --To reduce the economic burden of eye disease on the United States 
        healthcare system
    In 2008, 3,638,186 persons in the United States were blind. And 1 
in 28 individuals older than age 40 has a visual disability . . . In 
2010 more than half of baby boomers will be at high risk for developing 
age-related eye diseases. Adequate research funding of studies aimed at 
preventing these age related diseases will reduce future healthcare 
expenditures, particularly to the Medicare and Medicaid programs.\17\ 
\18\ \19\
---------------------------------------------------------------------------
    \17\ http://www.ncbi.nlm.nih.gov/sites/
entrez?cmd=Retrieve&db=pubmed&dopt=AbstractPlus&list_uids=15078664
    \18\ http://www.researchamerica.org/uploads/factsheet16vision.pdf
    \19\ http://www.preventblindness.org/advocacy/Action_Plan.pdf
---------------------------------------------------------------------------
    Treatment of eye diseases in the United States costs $68 billion/
year. Vision impaired adults are employed at 44 percent the rate of 
healthy individuals and earn an average of $10,000 less per year.\20\ 
\21\ \22\ Vision science research leads to therapies that delay, 
prevent and treat blinding ocular disease, leading to increased 
productivity of our work force and savings in the cost of healthcare.
---------------------------------------------------------------------------
    \20\ http://www.nei.nih.gov/
    \21\ http://www.eyeresearch.org/pdf/RA_Vision_08_V5.pdf
    \22\ http://www.ncbi.nlm.nih.gov/sites/entrez
---------------------------------------------------------------------------
                                SUMMARY

    ARVO urges fiscal year 2010 NIH and NEI funding at $32.4 billion 
and $736 million, respectively, reflecting an at least 7 percent 
increase more than fiscal year 2009.
                                 ______
                                 
      Prepared Statement of the American Society for Microbiology

    The American Society for Microbiology (ASM) is pleased to submit 
the following testimony on the fiscal year 2010 appropriation for the 
Centers for Disease Control and Prevention (CDC). The ASM supports the 
fiscal year 2010 funding level of $8.6 billion for CDC recommended by 
the CDC Coalition and the Campaign for Public Health. Funding levels in 
recent years have not adequately supported the CDC mission to protect 
public health through health promotion and disease prevention. The ASM 
appreciates that the administration and Congress have included science 
and public health programs in the American Recovery and Reinvestment 
Act of 2009. It is essential, however, to also provide increased 
funding through the fiscal year 2010 appropriation and future fiscal 
years, at levels that sustain CDC programs to protect public health.
    There are persistent challenges for the Nation's public health 
agencies at the Federal, State, and local levels. Among these are the 
nationwide outbreaks of swine influenza, salmonella food poisoning, and 
upsurges in vaccine preventable diseases such as measles and 
meningitis.
    CDC is instrumental in preventing death and illness caused by 
infectious diseases, contamination of food or water, or release of 
bioterror agents. The recent public health concern surrounding human 
cases of swine influenza A (H1N1) virus infection illustrates the 
importance of CDC's role in the investigation and response to outbreaks 
of infectious diseases. CDC is working closely with officials in States 
where human cases of swine influenza A (H1N1) have been identified, as 
well as with health officials in other countries experiencing outbreaks 
of H1N1. CDC staff are deployed in the United States and 
internationally to provide guidance and technical support in response 
to this emerging health threat. During a rapidly evolving situation, 
CDC is working to reduce transmission and severity of the disease and 
to provide information to healthcare providers, public health 
officials, and the public.

                    CDC COMBATS INFECTIOUS DISEASES

    CDC mission specific components cover a wide spectrum of disease 
control and prevention activities. One of these, the Coordinating 
Center for Infectious Diseases (CCID), oversees national centers 
focused on immunization and respiratory diseases; zoonotic, vector-
borne and enteric diseases; HIV/AIDS, viral hepatitis, sexually 
transmitted diseases and tuberculosis prevention; and healthcare 
associated infections, migration, and quarantine. CCID centers use the 
latest technological tools and scientific information to respond to 
emergent public health challenges as rapidly and effectively as 
possible.
    Emerging Infectious Diseases.--Newly recognized infectious diseases 
attract considerable attention from the public and the research 
community, evidenced by swine influenza A (H1N1) virus infection, H5N1 
avian influenza, severe acute respiratory syndrome (SARS), HIV/AIDS, 
so-called ``mad cow'' disease, West Nile Virus, and methicillin-
resistant Staphylococcus aureus (MRSA) among others. The CDC must 
respond to these and other emerging diseases with scientific 
proficiency and round-the-clock readiness. The National Center for 
Preparedness, Detection, and Control of Infectious Disease's Division 
of Emerging Infections and Surveillance Services recruits partnerships 
across the CDC and with both national and international organizations, 
to track outbreaks and train laboratory scientists from around the 
world in preventing and responding to such threats. The CDC has 
repeatedly taken part in identifying previously unrecognized pathogens 
like the SARS virus. It also participates in relevant field research 
around the world.
    Influenza Preparedness.--The CDC effort against influenza includes 
programs that focus on both seasonal and potential pandemic forms of 
the disease, such as human cases of swine influenza A virus infection. 
Every year, between 5 and 20 percent of the U.S. population gets the 
flu, more than 200,000 are hospitalized, and about 36,000 die. The CDC 
works with U.S. partners in health departments, clinical laboratories, 
vital statistics offices and healthcare providers to assess the annual 
burden of flu. Comprehensive CDC incidence reports use data from nine 
different sources, like the Nationally Notifiable Disease Surveillance 
System and the Emerging Infections Program's Influenza Project. In 
October 2008, the CDC contracted with the American Type Culture 
Collection to implement the CDC Influenza Reagent Resource, which will 
serve as a source of diagnostic material for laboratories in the event 
of an emerging pandemic. The agency also awarded $24 million for 55 
projects at 29 State and local health departments to develop better 
pandemic preparedness models. Last fall, the Food and Drug 
Administration approved a lab test co-developed by CDC that can 
reliably detect flu viruses with results within four hours.
    CDC extensively monitors the avian influenza virus H5N1 that has 
spread throughout Asia, the Middle East, and parts of Europe. 
Recognition that the relatively new virus could cause a human pandemic 
has mobilized public health institutions worldwide. There have been 
only 413 confirmed human cases in 15 countries (by March 30), but the 
sustained 60-plus percent mortality is unprecedented for an influenza 
virus. The CDC developed a measurement tool to help at-risk countries 
assess their ability to respond to an avian influenza pandemic. 
Moreover, it continues its laboratory and field research on H5N1 and 
other flu viruses. CDC scientists reported last year that some avian 
influenza A H7 virus strains have acquired new features that might 
boost their potential to cause human disease.
    HIV/AIDS.--In August 2008, the CDC released its first estimates of 
HIV infections in the United States based on a new CDC-developed 
laboratory assay called serologic testing algorithm for recent HIV 
seroconversion (STARHS). The results, unfortunately, indicate that 
approximately 56,300 new U.S. HIV infections occurred in 2006, about 40 
percent higher than CDC's former estimate. The STARHS technology is the 
basis for the first national surveillance system relying on direct 
measurement of new HIV infections and provides more precise estimates 
of HIV incidence. CDC continually tracks the nation's progress against 
this recalcitrant disease. For example, the CDC and other health 
agencies updated guidelines in March for the prevention and treatment 
of opportunistic infections in HIV-infected people.
    Global Infectious Diseases.--Infectious diseases are responsible 
for 15 million (26 percent) of the 57 million annual deaths worldwide 
and the CDC is a valuable contributor to public health campaigns 
against these diseases. Examples include its vigorous distribution in 
developing countries of Haemophilus influenzae type b (Hib) vaccine. 
One of the leading causes of severe childhood pneumonia and meningitis, 
Hib disease annually causes an estimated 3 million illnesses and 
400,000 deaths worldwide in children 5 years and younger. Hib vaccines 
have been widely used in industrialized countries for nearly 20 years, 
but underused in the poorest countries. The CDC estimates that this 
year use of Hib vaccine in these countries will exceed 80 percent, 
compared to less than 20 percent in 2004.
    CDC funding supports rigorous research on globally significant 
diseases like malaria and tuberculosis, and underwrites incidence data 
gathered from around the world. The CDC is developing a network of 
Global Disease Detection Centers, along with the participating nations' 
ministries of health, academic institutions, the World Health 
Organization, and U.S. Departments of State and Defense. Centers 
currently operational are located in China, Egypt, Guatemala, Kenya, 
Thailand, and, added in 2008, Kazakhstan. They extend the reach of 
three established CDC programs in emerging infections, epidemiology 
training, and influenza. The Coordinating Office for Global Health 
oversees more than 200 CDC staff in more than 50 countries, as first-
responders to disease outbreaks. In 2008, CDC responded to more than 90 
international disease outbreaks and public health events and found 22 
new pathogens.
    An estimated 1.8 million airline passengers cross international 
borders daily, opening multiple routes for disease transmission. The 
CDC maintains a specific branch to deal with global migration and 
quarantine issues, using its GeoSentinel Network Surveillance System to 
collect information from 41 sentinel sites and 200 medical clinics in 
75 countries around the world. CDC personnel now staff U.S. quarantine 
stations at 20 ports of entry and land border crossings. The CDC also 
provides U.S. travelers with health threat alerts; educational efforts 
last year included recommendations to the U.S. Olympic teams traveling 
to China.
    Vaccination Campaigns.--CDC collects vaccine-related information to 
assist Federal, State, and local health officials. The CDC also invests 
considerable resources in educating the public on the importance of 
vaccination as a preventive tool. At times, vaccines can also alleviate 
disease rather than prevent initial infection. Last year, the CDC 
recommended that people age 60 and older be vaccinated against shingles 
to reduce the number of painful episodes, even in those with previous 
cases. The most recent CDC survey of childhood immunization in this 
country found that rates remain at or near record levels, with at least 
90 percent coverage for all but one of the recommended series for young 
children. Still, more measles cases were reported in 2008 than any year 
since 1996 largely due to failure to vaccinate. Another CDC report 
concluded that marked reductions in rotavirus-caused gastroenteritis in 
U.S. infants and young children may be due to a recently introduced 
rotavirus vaccine, recommended by CDC in 2006 for routine immunization 
of infants. Rotavirus is the leading cause of severe gastroenteritis in 
the young, typically causing 55,000-70,000 U.S. hospitalizations and 
about 410,000 physician office visits annually. Every day, rotavirus 
kills about 1,600 children under age 5 worldwide.

     CDC CONFRONTS HEALTHCARE-ASSOCIATED INFECTIONS, ANTIMICROBIAL 
                               RESISTANCE

    Each year, healthcare-associated infections (HAI) account for an 
estimated 1.7 million infections and 99,000 associated deaths in the 
United States. With more than 1 billion hospital and doctor visits made 
by Americans each year, there unfortunately is ample opportunity for 
HAI exposure. A CDC report released in March estimates that the annual 
direct hospital cost of treating HAI ranges from $28.4 billion to $45 
billion, and that improving infection control could save roughly $6 
billion to $32 billion, depending on the percentage of infections 
preventable in healthcare settings. With 2009 healthcare costs expected 
to reach $2.5 trillion, saving resources through CDC-facilitated 
prevention clearly offers a sensible public health strategy.
    CDC works to optimize practices for HAI prevention. For example, 
CDC reports that 85 percent of all invasive infections caused by 
methicillin-resistant Staphylococcus aureus (MRSA) are associated with 
healthcare settings. CDC guidelines help assure best practices in 
healthcare settings. Hospitals in a CDC-supported study reduced 
bloodstream and MRSA infections as much as 70 percent by implementing 
CDC prevention guidelines. Last September, CDC launched a public MRSA 
education campaign.
    Antimicrobial resistance has emerged as a daunting global 
challenge, increasing the lethality of pathogens from extensively drug-
resistant tuberculosis (XDR TB) to this year's flu virus strain highly 
resistant to the most commonly used prescription drug. Last year, 16 
CCID surveillance systems and programs gathered incidence data on 
antimicrobial resistance among bacterial, fungal, parasitic and viral 
agents. CDC scientists are developing laboratory protocols and 
diagnostics for a growing list of drug-resistant pathogens. One example 
is a new protocol for molecular typing of methicillin-resistant S. 
aureus. The CDC's Antimicrobial Resistance Team also recently validated 
tests that will amend 2009 clinical and lab standards in testing 
microbial resistance to mupirocin (used for staph infections) and the 
carbapenem drugs used to treat enteric pathogens resistant to most 
other drugs.

 CDC STRENGTHENS NATIONAL DEFENSES AGAINST BIOTERRORISM, PUBLIC HEALTH 
                                 CRISES

    The CDC's Terrorism, Preparedness and Emergency Response (TPER) 
funds support the Coordinating Office for Terrorism Preparedness and 
Emergency Response objectives. CDC provides science-based strategies 
and tactical coordination during public health events and maintains 
emergency response operations like the Strategic National Stockpile 
(SNS) and the Emergency Operations Center (EOC). The SNS is an 
invaluable national repository of antibiotics, antitoxins and other 
medical supplies that can be mobilized rapidly to augment State and 
local resources during a large-scale health emergency. Opened in 2003, 
the DEOC is staffed with experts 24/7/365, an integral part of the 
country's National Incident Management System.
    The CDC's inaugural annual report on its TPER-funded activities 
released in January enumerates its wide-ranging activities. Activities 
include assessing current administration routes and dosage for anthrax 
vaccine, inspecting 110 research entities registered to possess 
microbes on the Federal select agents list, and mapping the DNA of the 
vaccinia virus (similar to smallpox virus) and tularemia bacteria for 
greater scientific insight into potential bioagents. TPER-funded 
capabilities help CDC respond more aggressively to public health crises 
of all kinds, far beyond the threat of bioterrorism. In fiscal year 
2008, the EOC was activated in response to 55 domestic and 16 
international events, including the floods in the Midwest, multistate 
Salmonella and E.coli 0157 outbreaks, and outbreaks of cholera and 
hemorrhagic fever in Africa.
    The ASM concurs with the recommended level of $8.6 billion, which 
will provide needed new funding for CDC's programs that are so critical 
to protecting people in the United States and worldwide.
                                 ______
                                 
      Prepared Statement of the American Society for Microbiology

    The American Society for Microbiology (ASM) appreciates the 
opportunity to submit a written statement on the fiscal year 2010 
budget for the National Institutes of Health (NIH). The ASM is the 
largest single life science society with more than 42,000 members, many 
of whom receive funding from the NIH. We are grateful for the $10.4 
billion increase in funding for the NIH in the American Recovery and 
Reinvestment Act (ARRA) and the 3.2 percent increase in funding for NIH 
in the fiscal year 2009 Labor, Health and Human Services, and 
Education, and Related Agencies Appropriations Act. The additional ARRA 
funding enables NIH to support the ARRA goals to create and save jobs 
and increase purchasing power, as well as advance scientific research. 
The Nation's biomedical research enterprise will be kept more robust at 
a time when it is experiencing the adverse effects of the economic 
downturn and years of flat funding.
    As Congress considers the fiscal year 2010 appropriation for NIH, 
the ASM recommends a budget of $32.4 billion, a 7 percent increase. The 
recommended funding increase will help NIH keep pace with expanded 
research opportunities and higher costs. It is important for NIH to 
prepare for the poststimulus years, in 2011 and beyond. It is also 
important to resume sustainable NIH funding, avoiding fluctuations for 
research and training programs that can disrupt projects, training, 
careers, and research progress. To perpetuate the benefits of ARRA 
funding, it is vitally important to provide sustained growth for the 
NIH in fiscal year 2010 and beyond.
    More than 83 percent of the NIH budget is awarded through 50,000 
competitive grants awarded to more than 325,000 researchers at more 
than 3,000 universities, medical schools, and other institutions in all 
50 States. About 10 percent of the NIH budget supports research in NIH 
laboratories conducted by nearly 6,000 scientists. Research project 
grants are highly productive in terms of medical advances to benefit 
public health. NIH funding contributes to the Nation's economic 
recovery by stimulating new opportunities and investments in 
biotechnology and related industries, as well as expanding the skilled 
workforce critical to U.S. competitiveness in science and technology. 
NIH funding also impacts allied health workers, technicians, students, 
trade workers, and others who receive the leveraged benefits from NIH 
funding.
    The following describes some of the compelling reasons for 
increased and sustained support for the NIH research mission and its 
proven benefit to technological innovation and public health.

            NIH RESEARCH IS CRITICAL TO SCIENTIFIC PROGRESS

    NIH Institutes and Centers fund research programs that address the 
Nation's challenges of safeguarding public health, security, and the 
economy. The National Institute of Allergy and Infectious Diseases 
(NIAID), for example, focuses on research to understand, treat, and 
prevent infectious, immunologic, and allergic diseases, leading to the 
development of vaccines, therapies and diagnostic tools. The NIAID also 
funds research on medical countermeasures against potential bioterror 
agents. The National Institute of General Medical Sciences (NIGMS) 
supports basic research on life processes in fields such as 
computational biology, genetics, and bioinformatics. NIH resources 
invested in the agency-wide Roadmap initiatives make possible projects 
that hold great potential but might otherwise not be funded due to 
difficulty and scope. Recently funded Roadmap projects include a 
network of nine centers using high-tech screening methods for drug 
discovery.
    The NIH funding to individual researchers and research groups, 
through competitive peer-reviewed grants, is of particular consequence 
to the U.S. research enterprise. More than 120 discoveries made by NIH 
and NIH-supported researchers have garnered Nobel Prizes, and NIGMS has 
funded the Nobel Prize-winning work of 64 scientists. More than three-
fourths of the U.S. recipients of the Nobel Prize in Physiology or 
Medicine received NIH support prior to their award. In fiscal year 2009 
NIH is striving to lower the average age of first-time grant recipients 
to refresh the Nation's scientific investigator pool and help 
revitalize research in the United States. Our national anxiety over 
waning global competitiveness and a shrinking technical workforce 
argues for sustained NIH funding for both new and established 
investigators.
    NIH investigator-initiated grants create new opportunities for 
original biomedical inquiry and expand training environments for 
students in technical fields. Investigator-initiated research projects 
lead to inventive solutions for medical problems. Each year, NIH also 
identifies, in consultation with the extramural research community, 
targeted areas within an emerging need or opportunity, and then 
requests grant applications from U.S. researchers. Focused 
opportunities announced last year by NIAID include studies to advance 
vaccine safety and development of assays for high-throughput drug 
screening. NIGMS-featured areas currently include computational models 
to detect, control, and prevent emerging infectious diseases. NIGMS 
also awards grants for nontraditional research through its Exceptional, 
Unconventional Research Enabling Knowledge Acceleration (EUREKA) 
program. NIH has placed new emphasis on supporting high-impact 
transformative research that might create new disciplines, 
revolutionary technologies, or otherwise radically change biomedical 
research. In 2008, it initiated transformative grant funding to foster 
investigator-initiated work considered high-risk but exceptionally 
promising.

                  NIH RESEARCH YIELDS MEDICAL ADVANCES

   NIH supported research consistently produces significant 
discoveries with both real-world relevance and potential future use 
against emerging health threats. The following are selected examples of 
recently reported research that illustrate the vitality and creativity 
supported by NIH funding.
    Antimicrobial Resistance and Drug Discovery.--Drug resistance 
spreading among microbial pathogens is complicating control of 
infectious diseases and adding to rising healthcare costs. Response by 
U.S. research institutions has been aggressive, including creation of a 
Federal Interagency Task Force co-chaired by NIAID, the Centers for 
Disease Control and Prevention, and the Food and Drug Administration. 
Causes of drug resistance are many, from overuse of prescription drugs 
to natural microbial mutations, and NIAID's research portfolio is 
equally diverse. In fiscal year 2007, the Institute invested more than 
$800 million to support basic and translational research on 
antimicrobials and on drug resistance. Recent results include:
  --Scientists from NIAID, California, and China studied the genetics 
        of the major strain of methicillin-resistant Staphylococcus 
        aureus (MRSA), concluding that a radical shift may be needed in 
        how scientists design MRSA therapeutics. MRSA causes an 
        estimated 94,000 cases of infection annually in the United 
        States, with more than 19,000 deaths.
  --NIGMS-funded researchers are developing a new generation of 
        antibiotic compounds that do not elicit drug resistance. The 
        enzyme-inhibitor compounds interfere with ``quorum sensing''--a 
        process by which bacteria communicate with each other. Those in 
        the current study work against Vibrio cholerae, which causes 
        cholera, and E. coli 0157:H7, the food contaminant that 
        annually causes about 110,000 illnesses in the United States.
    To circumvent antimicrobial resistance, NIH researchers and their 
extramural collaborators are intensifying research strategies better 
suited to rapidly changing pathogens and disease demographics. These 
include state-of-the-art technologies that fuel 21st century drug 
discovery. A recent example is NIGMS-funded research using mass 
spectrometry technology to determine the molecular structure of a class 
of natural compounds called nonribosomal peptides (NRPs), intensely 
studied for their drug potential (penicillin is an NRP). A significant 
advance over previous approaches, it may help reprogram nonpathogenic 
E. coli into NRP minifactories.
    Infectious Diseases.--Infectious diseases remain among the most 
difficult global health challenges, accounting for about one-quarter of 
all deaths and nearly two-thirds in sub-Saharan Africa. At NIAID and 
NIGMS, multiple programs and interdisciplinary strategies target the 
major causes of global death and disability, with cutting-edge tools 
like genomics and nanotechnology.
    Influenza.--Despite the availability of influenza drugs and 
vaccines, seasonal influenza still kills more than 250,000 people 
worldwide each year. Public health officials are now concerned about 
reports that 98 percent of a H1N1 influenza virus strain (1 of 3 
circulating in the 2008-2009 season) are resistant to oseltamivir 
(Tamiflu), the leading influenza drug, compared to 11 percent 
resistance among all viral strains during the 2007-2008 season. The 
possibility of an influenza pandemic caused by the more lethal H5N1 
avian flu virus has mobilized an international response from health 
agencies and medical researchers. In January, the Department of Health 
and Human Services awarded a contract to build the first U.S. 
manufacturing facility for cell-based influenza vaccines, expected to 
increase the Nation's current capacity to make vaccine by at least 25 
percent and much less time. NIH funding contributed to this major 
advance in vaccine production and to other recent advances, such as:
  --NIAID-supported scientists used new monoclonal techniques to create 
        human influenza-fighting antibodies in the laboratory in a 
        matter of weeks, rather than the months previously required. 
        The antibodies have potential for diagnosis and treatment 
        regimens that can respond more quickly to newly emerging 
        strains of influenza.
  --NIGMS-funded researchers used super-computer capabilities to 
        identify more than two dozen new candidate drugs to treat avian 
        influenza (``bird flu''), in preparation for a possible 
        pandemic of drug-resistant H5N1 virus strains.
  --Three research teams and a computer informatics group--part of the 
        NIGMS-funded Models of Infectious Disease Agent Study (MIDAS) 
        Network--modeled pandemic influenza in the United States, 
        concluding mitigation is possible with prompt, coordinated use 
        of social-distancing measures and antiviral treatment until 
        vaccine is available.
    HIV/AIDS.--An estimated 33 million adults and children are living 
with HIV infection worldwide, and about 2 million die each year from 
related causes. In the United States, where nearly 546,000 people have 
died thus far from HIV/AIDS-related illnesses, there currently are an 
estimated 1.1 million infected, with 21 percent unaware of their 
infection. HIV/AIDS as both a domestic and global threat is a high 
priority at NIH. Difficulties in developing preventative vaccines 
prompted a 2008 NIH vaccine summit and subsequent re-examination of 
NIH's research agenda. NIH-supported basic research is steadily adding 
to our understanding of HIV/AIDS, evidenced by recent discoveries in 
mechanisms of HIV protease inhibition and the NIGMS-funded success in 
seeing microscopically for the first time molecules grouping in living 
cells to form single HIV particles. Other recent advances include:
  --A vaginal gel to prevent HIV infection in women has shown 
        encouraging signs of success in a clinical trial in Africa and 
        the United States. This is the first human clinical study to 
        suggest that a microbicide may prevent male-to-female sexual 
        HIV transmission.
  --An extended course of the antiretroviral drug nevirapine helps the 
        breastfeeding babies of HIV-infected mothers remain HIV-
        negative and live longer, according to several new studies. 
        About 150,000 infants worldwide acquire HIV annually through 
        breastfeeding.
  --The incidence of childhood illness and death due to HIV infection 
        can be dramatically decreased by testing very young babies for 
        HIV and giving antiretroviral therapy (ART) immediately to 
        those found infected--giving ART to HIV-infected infants 
        beginning at an average age of 7 weeks made them four times 
        less likely to die in the next 48 weeks.
    Tuberculosis.--One-third of the world's 6.7 billion people are 
thought to be infected by Mycobacterium tuberculosis (Mtb), the microbe 
that causes tuberculosis. An estimated 13.7 million have the active 
form. Each year, about 1.7 million die from this age-old disease that 
has adopted some disturbing modern-day features, striking as co-
infections with the HIV virus and becoming resistant to drug therapies 
used to treat tuberculosis. In 2007, about 9.3 million people developed 
new cases of TB; 1.37 million were also HIV positive. The rapid spread 
of multidrug- and extensively drug-resistant forms (MDR TB/XDR TB) is 
alarming--MDR TB currently accounts for an estimated 5 percent of all 
TB cases and the frequently fatal XDR TB has been detected in 46 
countries thus far. In April 2008, NIAID launched an aggressive 
research agenda against drug-resistant tuberculosis. NIH-supported 
research from the past year includes:
  --NIAID scientists and industry collaborators found that, when the 
        candidate TB drug PA-854 is metabolized inside Mtb bacteria, a 
        lethal dose of nitric oxide gas is produced, killing the 
        pathogen and suggesting new ways to develop drugs capable of 
        killing latent TB bacteria. Currently there are no drugs 
        available to target latent tuberculosis infections.
  --Scientists reported that two FDA-approved drugs work in tandem to 
        kill the tuberculosis pathogen and could help counter drug-
        resistant forms. The drugs are already used to treat other 
        bacterial diseases, but their effectiveness against TB bacteria 
        had not been studied. NIAID is planning a clinical trial this 
        year in patients with MDR TB and XDR TB.
    Malaria.--Nearly half of the world's population is at risk of 
contracting malaria, a preventable and curable mosquito-borne disease 
in more than 100 countries. The World Health Organization (WHO) 
estimates that 300 to 500 million cases of clinical malaria worldwide 
occur each year, killing 1.3 million people. Unfortunately, its impact 
is intensifying with the emergence of drug-resistant parasites and 
insecticide-resistant mosquitoes. In April 2008, NIAID announced its 
new strategic plan to accelerate malaria control and eradication. NIH 
research often involves international partners and encompasses all 
aspects of malaria, including these recent examples:
  --NIGMS funding supported the genetic decoding of the parasite 
        responsible for 40 percent of infections, Plasmodium vivax, 1 
        of 4 malaria parasites that routinely affect humans. The most 
        common species outside Africa (including the United States), P. 
        vivax is increasingly resistant to some antimalarial drugs.
  --The NIAID-funded Malaria Research and Training Center in Mali 
        completed the first clinical trial of a vaccine to block the 
        malaria parasite from entering human blood cells.
  --NIGMS-supported research described how harmless E. coli bacteria 
        can be harnessed to synthesize an antimalarial compound in 
        bulk, far less expensive than the current process.

 INFECTIOUS DISEASE RESEARCH USES INTERDISCIPLINARY STRATEGIES AND NEW 
                              TECHNOLOGIES

    NIAID and NIGMS, like other NIH Institutes and Centers, support 
productive basic research on literally hundreds of diseases, from 
periodic foodborne E. coli or Salmonella outbreaks to isolated cases of 
Ebola fever or anthrax. This enormous responsibility forces constant 
adaptation to new challenges, often through greater reliance on 
interdisciplinary strategies or novel research tools and technologies--
epitomized by the large-scale, genetics-based initiatives made possible 
with today's powerful computing capabilities. In 2008, NIH launched a 
multi-Institute epigenomics initiative to better understand the role of 
the environment in regulating mammalian genes, through genome mapping, 
data analysis, and technology development. NIH also agreed to share 
databases from its Human Microbiome Project in support of the newly 
formed International Human Microbiome Consortium. Characterizing the 
human microbiome, which is the collective DNA of all the microbes 
living in or on the human body, will elucidate the relationship between 
microbes and humans during health and disease. Shared sample 
repositories overseen by databases expedite information exchange among 
scientists. Computerized screening of pathogen genomes similarly 
accelerates the search for treatments, vaccines, and diagnostics.

                               CONCLUSION

    ASM is thankful that Congress recognizes both the medical benefits 
and economic impacts of biomedical research and has provided an 
infusion of funding for the NIH to uncover new knowledge that will 
improve public health. Investing in NIH will impact the health of 
people for years to come and the biomedical community is working to 
ensure wise investment of the new resources in fiscal year 2009. We are 
confident that investments in the NIH will result in new discoveries 
and innovations that can address many of our health and economic 
challenges.
                                 ______
                                 
        Prepared Statement of the American Society for Nutrition

    The American Society for Nutrition (ASN) appreciates this 
opportunity to submit testimony regarding fiscal year 2010 
appropriations for the National Institutes of Health (NIH) and the 
National Center for Health Statistics (NCHS). ASN is the professional 
scientific society dedicated to bringing together the world's top 
researchers, clinical nutritionists, and industry to advance our 
knowledge and application of nutrition to promote human and animal 
health. Our focus ranges from the most critical details of research to 
very broad societal applications. ASN respectfully requests $32.4 
billion for NIH, and we request $137.5 million for NCHS in fiscal year 
2010.
    Basic and applied research on nutrition, nutrient composition, the 
relationship between nutrition and chronic disease and nutrition 
monitoring are critical to the health of all Americans and the U.S. 
economy. Awareness of the growing epidemic of obesity and the 
contribution of chronic illness to burgeoning healthcare costs has 
highlighted the need for improved information on dietary components, 
dietary intake, strategies for dietary change, and nutritional 
therapies. Preventable chronic diseases related to diet and physical 
activity cost the economy more than $117 billion annually, and this 
cost is predicted to rise to $1.7 trillion in the next 10 years. It is 
for this reason that we urge you to consider these recommended funding 
levels for two agencies under the Department of Health and Human 
Services that have profound effects on nutrition research, nutrition 
monitoring, and the health of all Americans--NIH and NCHS.

                                  NIH

    NIH is the Nation's premier sponsor of biomedical research and is 
the agency responsible for conducting and supporting 90 percent (nearly 
$1 billion) of federally funded basic and clinical nutrition research. 
Nutrition research, which makes up about 4 percent of the NIH budget, 
is truly a trans-NIH endeavor, being conducted and funded across 
multiple Institutes and Centers. Some of the most promising nutrition-
related research discoveries have been made possible by NIH support.
    In order to fulfill the extraordinary promise of biomedical 
research, including nutrition research, ASN recommends an fiscal year 
2010 funding level of $32.4 billion for the agency, which is a 7 
percent increase ($2.1 billion) more than fiscal year 2009.
    Over the past 50 years, NIH and its grantees have played a major 
role in the explosion of knowledge that has transformed our 
understanding of human health, and how to prevent and treat human 
disease. Because of the unprecedented number of breakthroughs and 
discoveries made possible by NIH funding, scientists are helping 
Americans to live longer, healthier, and more productive lives. Many of 
these discoveries are nutrition-related and have impacted the way 
clinicians prevent and treat heart disease, cancer, diabetes, and age-
related macular degeneration.
    During the next 25 years, the number of Americans with chronic 
disease is expected to reach 46 million, and the number of Americans 
older than age 65 is expected to be the largest in our Nation's 
history. Sustained support for basic and clinical research is required 
if we are to confront successfully the healthcare challenges associated 
with an older, and potentially sicker, population.
    For several years in a row the NIH budget failed to keep up with 
inflation and subsequently, the percentage of dollars funding 
nutrition-focused projects declined. We applaud Congress' inclusion of 
funds for NIH in H.R. 1, the American Recovery and Reinvestment Act, 
and also the boost provided in the fiscal year 2009 omnibus 
appropriations bill. It is imperative that we continue our commitment 
to biomedical research and to fulfill the hope of the American people 
by making the NIH a national priority. Otherwise, we risk losing our 
Nation's dominance in biomedical research.
    The 7 percent increase we recommend is an important step toward 
President Obama's campaign pledge to double funding for basic research 
over 10 years and is necessary to maintain both the existing and future 
scientific infrastructure. The discovery process--while it produces 
tremendous value--often takes a lengthy and unpredictable path. Recent 
experience has demonstrated how cyclical periods of rapid funding 
growth followed by periods of stagnation is disruptive to training, to 
careers, long-range projects and ultimately to progress. NIH needs 
sustainable and predictable budget growth to achieve the full promise 
of medical research to improve the health and longevity of all 
Americans.

                                CDC NCHS

    NCHS, housed within the Centers for Disease Control and Prevention 
(CDC), is the Nation's principal health statistics agency. The NCHS 
provides critical data on all aspects of our healthcare system, and it 
is responsible for monitoring the Nation's health and nutrition status. 
Nutrition and health data, largely collected through the National 
Health and Nutrition Examination Survey (NHANES), is essential for 
tracking the health and well-being of the American population, and it 
is especially important for observing health trends in our Nation's 
children. Knowing both what Americans eat and how their diets directly 
affect their health provides valuable information to guide policies on 
food safety, food labeling, food assistance, military rations, and 
dietary guidance.
    Over the past few years, flat and decreased funding levels have 
threatened the collection of this important information, most notably 
vital statistics and the NHANES. ASN was pleased to see that Congress 
appropriated an additional $11 million to the agency--for nearly $125 
million total--in fiscal year 2009. This halted what would have been 
the beginning of drastic cuts to the agency's premier health surveys--
NHANES and the National Health Information Survey--that were slated to 
occur should the agency not receive additional funds.
    To continue support for the agency and its important mission, ASN 
recommends an fiscal year 2010 funding level of $137.5 million for the 
agency, which is a $12.5 million increase over fiscal year 2009.
    Current funding levels for NCHS remain precarious. Before the 
recent increase in funds, NCHS had lost $13 million in purchasing power 
since fiscal year 2005 due to years of flat funding, coupled with 
inflation and the increased costs of technology and information 
security. These shortfalls forced the elimination of data collection 
and quality control efforts, threatened the collection of vital 
statistics, stymied the adoption of electronic systems and limited the 
agency's ability to modernize surveys to reflect changes in demography, 
geography, and health delivery.
    Moreover, nearly 30 percent of the funding for NHANES comes from 
other Federal agencies such as the NIH and the Environmental Protection 
Agency. When these agencies face flat budgets or cuts, they withdraw 
much-needed support for NHANES, placing this national treasure in even 
greater jeopardy.
    The obesity epidemic is a case in point that demonstrates the value 
of the work done by NCHS. It is because of NHANES that our Nation 
became aware of this growing public health problem, and as obesity 
rates have increased to 31 percent of American adults (which we know 
because of continued monitoring), so too have rates of heart disease, 
diabetes, and certain cancers. It is only through continued support of 
this program that the public health community will be able to stem the 
tide against obesity. Continuous collection of this data will allow us 
to determine not only if we have made progress against this public 
health threat, but also if public health dollars have been targeted 
appropriately. A recent report from the Institute of Medicine 
recognized the importance of NHANES and called for the enhancement of 
current surveillance systems to monitor relevant outcomes and trends 
with respect to childhood obesity.
    Providing an additional $12.5 million in fiscal year 2010 continues 
the progress on the path to boost funding for the NCHS to $175 million 
by 2013. Reaching this level over 5 years, through annual increases of 
approximately $11-12 million, would allow the agency to reach what its 
supporters call ``blue sky.'' Such an increase would ensure 
uninterrupted collection of vital statistics and sustain over-sampling 
of vulnerable populations.
    ASN thanks your subcommittee for its support of the NIH and NCHS in 
previous years.
                                 ______
                                 
     Prepared Statement of the American Society of Plant Biologists

    On behalf of the American Society of Plant Biologists (ASPB) we 
would like to thank the subcommittee for its extraordinary support of 
the National Institutes of Health (NIH) and ask that the subcommittee 
members encourage increased funding for plant biology research, which 
has contributed in innumerable ways to improving the lives of people 
throughout the world.
    ASPB is an organization of more than 5,000 professional plant 
biologists, educators, graduate students, and postdoctoral scientists. 
A strong voice for the global plant science community, our mission--
which is achieved through engagement in the research, education, and 
public policy realms--is to promote the growth and development of plant 
biology and plant biologists and to foster and communicate research in 
plant biology. The Society publishes the highly cited and respected 
journals Plant Physiology and The Plant Cell, and it has produced and 
supported a range of materials intended to demonstrate fundamental 
biological principles that can be easily and inexpensively taught in 
school and university classrooms by using plants.

              PLANT BIOLOGY RESEARCH AND AMERICA'S FUTURE

    Plants are vital to our very existence. They harvest sunlight, 
converting it to chemical energy for food and feed; they take up carbon 
dioxide and produce oxygen; and they are almost always the primary 
producers in the Earth's ecosystems. Plants and plant-based products 
directly or indirectly provide our food, our shelter, and our clothing.
    Basic plant biology research is making many fundamental 
contributions in vital areas including health and nutrition, energy, 
and climate change. For example, because plants are the ultimate source 
of both human nutrition and nutrition for domestic animals, plant 
biology has the potential to contribute greatly to reducing healthcare 
costs as well as playing an integral role in drug discovery and 
therapies. Although the NIH does offer some funding support to plant 
biology research, with increased funding plant biologists can offer 
much more to advance the missions of the NIH. In the next section, we 
highlight the particular relevance of plant biology research to human 
health.

                       PLANT BIOLOGY AND THE NIH

    The mission of the NIH is to pursue ``fundamental knowledge about 
the nature and behavior of living systems and the application of that 
knowledge to extend healthy life and reduce the burdens of illness and 
disability'' (http://www.nih.gov/about/index.html#mission). Plant 
biology research is highly relevant to this mission.
    Plants are often the ideal model systems to advance our 
``fundamental knowledge about the nature and behavior of living 
systems,'' as they provide the context of multi-cellularity, while 
affording ease of genetic manipulation, a lesser regulatory burden, and 
inexpensive maintenance requirements. Many basic biological components 
and mechanisms are shared by both plants and animals. For example, a 
molecule named cryptochrome that senses light was identified first in 
plants and subsequently found to also function in humans, where it 
plays a central role in regulating our biological clock. Jet lag 
provides one familiar example of what happens to us when our biological 
clock is disrupted, but there are also human genetic disorders that 
have been linked to malfunctioning of the clock. As another example, 
some fungal pathogens can infect both humans and plants.

                          HEALTH AND NUTRITION

    Plant biology research is also central to the application of basic 
knowledge to ``extend healthy life and reduce the burdens of illness 
and disability.'' This connection is most obvious in the inter-related 
areas of nutrition and clinical medicine. Without good nutrition, there 
cannot be good health. One World Health Organization (WHO) study on 
childhood nutrition in developing countries concluded that more than 50 
percent of the deaths of children less than 5 years of age could be 
attributed to malnutrition's effects in exacerbating illnesses such as 
respiratory infections and diarrhea. In other words, those illnesses 
would not have proved fatal had the children simply received proper 
nutrition. Strikingly, most of these deaths were not linked to severe 
malnutrition but only to mild or moderate nutritional deficiencies. 
Plant biology researchers are working today to improve the nutritional 
content of crop plants by, for example, increasing the availability of 
nutrients and vitamins such as iron, vitamin E and vitamin A. (Up to 
500,000 children in the developing world go blind every year as a 
result of vitamin A deficiency).
    By contrast, obesity, cardiac disease, and cancer take a striking 
toll in the developed world. Among many plant biology initiatives 
relevant to these concerns are research to improve the lipid 
composition of plant fats and efforts to optimize concentrations of 
plant compounds that are known to have anti-carcinogenic properties, 
such as the glucosinolates found in broccoli and cabbage.

                             DRUG DISCOVERY

    Plants are also fundamentally important as sources of both extant 
drugs and drug discovery leads. In fact, more than 10 percent of the 
drugs considered by the WHO to be ``basic and essential'' are still 
exclusively obtained from flowering plants. Some historical examples 
are quinine, which is derived from the bark of the cinchona tree and 
was the first highly effective antimalarial drug; and the plant 
alkaloid morphine, which revolutionized the treatment of pain.
    These pharmaceuticals are still in use today. A more recent example 
of the importance of plant-based pharmaceuticals is the anti-cancer 
drug taxol. The discovery of taxol came about through collaborative 
work involving scientists at the National Cancer Institute within NIH 
and plant biologists at the U.S. Department of Agriculture. The plant 
biologists collected a wide diversity of plant materials, which were 
then evaluated for anti-carcinogenic properties. It was found that the 
bark of the Pacific yew tree yielded one such compound, which was 
eventually isolated and named taxol after the tree's Latin name, Taxus 
brevifolia. Originally, taxol could only be obtained from the tree bark 
itself, but basic research led to identification of its molecular 
structure and eventually to its chemical synthesis in the laboratory.
    On the basis of a growing understanding of metabolic networks, 
plants will continue to be sources for the development of new medicines 
to help treat cancer and other ailments. Taxol is just one example of a 
plant secondary compound. Since plants produce an estimated 200,000 
such compounds, they will continue to provide a fruitful source of new 
drug leads, particularly if collaborations such as the one described 
above can be fostered and funded. With additional research support, 
plant biologists can lead the way to developing new medicines and 
biomedical applications to enhance the treatment of devastating 
diseases.

                               CONCLUSION

    Despite the fact that plant biology research underlies so many 
vital practical considerations for our country, the amount invested in 
understanding the basic function and mechanisms of plants is small when 
compared with the impacts of this information on multibillion dollar 
sectors of the economy such as health, energy, and agriculture.
    Clearly, the NIH does recognize that plants are a vital component 
of its mission. However, because the boundaries of plant biology 
research are permeable and because information about plants integrates 
with many different disciplines that are highly relevant to NIH, ASPB 
hopes that the subcommittee will provide additional resources through 
increased funding to NIH for plant biology in order to help pioneer new 
discoveries and new methods in biomedical research.
                                 ______
                                 
    Prepared Statement of the American Society for Pharmacology and 
                       Experimental Therapeutics

    The American Society for Pharmacology and Experimental Therapeutics 
(ASPET) is pleased to submit written testimony in support of the 
National Institutes of Health (NIH) fiscal year 2010 budget. ASPET is a 
4,500-member scientific society whose members conduct basic and 
clinical pharmacological research within the academic, industrial, and 
government sectors. Our members discover and develop new medicines and 
therapeutic agents that fight existing and emerging diseases as well as 
increasing our knowledge regarding how therapeutics work in humans.
    ASPET members recognize the trust and support that Congress 
displayed with the recent $10.4 billion provided to the NIH in the 
American Recovery and Reinvestment Act (ARRA). This was a visionary 
attempt by Congress to stimulate the economy by restoring their 
historic support of the NIH which has lagged over the last 6 years as 
appropriations have failed to adequately fund the NIH to meet 
scientific opportunities and challenges to our public health. Prior to 
ARRA funding, the NIH research portfolio could barely keep pace with 
the inflation rate and the country's leadership in biomedical research 
was in danger. Since the completion of a bipartisan plan to double the 
NIH budget that ended in 2003 and prior to ARRA funding, the NIH budget 
had been going backwards.
    For fiscal year 2010, ASPET urges Congress to increase funding for 
the NIH by 7 percent. This would be the first step toward the 
President's pledge to double funding for basic research over 10 years 
and importantly, would help to maintain existing and future scientific 
infrastructure. Scientific discovery takes time and a 7 percent 
increase in fiscal year 2010 and beyond will help NIH manage its 
research portfolio effectively without necessitating disruptions in 
continuity of existing grants to researchers throughout the country. 
Only through sustainable and predictable funding can NIH continue to 
fund the highest-quality biomedical research to help improve the health 
of all Americans and continue to make significant economic impact in 
many communities across the country. Failing to capitalize upon the 
ARRA investments in fiscal year 2010 and beyond will mean that NIH will 
have to dismantle newly built research capacity and terminate important 
research projects after the ARRA funds have been spent. This would have 
serious consequences for future scientific discovery. Scientific 
discovery takes time and is unpredictable. As recent experience has 
shown from the postdoubling experience, boom and bust cycles of rapid 
funding followed by significant periods of stagnation or retraction in 
the NIH budget diminish scientific process. If NIH cannot sustain its 
recent investments from the ARRA, a rapid diminishment of funding will 
further disrupt scientific careers among promising young and early 
career scientists who see little hope of promising and rewarding 
careers in biomedical research. It is critical to avoid a boom and bust 
cycle for NIH funding. Thus, appropriating NIH a 7 percent increase 
beginning in fiscal year 2010 will help achieve the full promise of 
biomedical research.

          NIH IMPROVES HUMAN HEALTH AND IS AN ECONOMIC ENGINE

    A 7 percent increase in fiscal year 2010 will help to reverse what 
ASPET feels is a wrong signal that has been sent to the best and 
brightest of our students who will not be able to or have chosen not to 
pursue a career in biomedical research. Failing to address the NIH 
scientific and infrastructure needs post-ARRA in 2010 and beyond will 
mean a significant reduction in research grants, jobs lost and the 
resulting phasing-out of research programs. Additionally, there would 
be a loss of scientific opportunities to discover new therapeutic 
targets to develop, and fewer discoveries that produce spin-off 
companies that employ individuals in districts around the country. A 7 
percent increase would provide the Institutes with an opportunity to 
fund more high-quality and innovative research, and provide the 
resources and incentives that will drive more young scientists to 
commit to careers supporting continuing improvements in public health. 
This investment will also go directly into supporting jobs for U.S. 
citizens and residents and will continue to stimulate the economy.
    Many important drugs have been developed as a direct result of the 
basic knowledge gained from federally funded research, such as new 
therapies for breast cancer, the prevention of kidney transplant 
rejection, improved treatments for glaucoma, new drugs for depression, 
and the cholesterol lowering drugs known as statins that prevent 
125,000 deaths from heart attack each year. AIDS-related deaths have 
fallen by 73 percent since 1995 and the 5-year survival rate for 
childhood cancers rose to almost 80 percent in 2000 from under 60 
percent in the 1970s. NIH studies have indicated that adopting 
intensive lifestyle changes delayed onset of type 2 diabetes by 58 
percent and that progesterone therapy can reduce premature births by 30 
percent in women at risk.
    Historically, our past investment in basic biological research has 
led to innovative medicines that have virtually eliminated diphtheria, 
whooping cough, measles and polio in the United States. Eight out of 
ten children now survive leukemia. Death rates from heart disease and 
stroke have been reduced by half in the past 30 years. Molecularly 
targeted drugs such as Gleevec<SUP>TM</SUP> to treat adult leukemia do 
not harm normal tissue and dramatically improve survival rates. NIH 
research has developed a class of drugs that slow the progression of 
symptoms of Alzheimer's disease. The robust past investment in the NIH 
has provided major gains in our knowledge of the human genome, 
resulting in the promise of pharmacogenetics and a reduction in adverse 
drug reactions that currently represent a major worldwide health 
concern.
    But unless NIH can maintain an adequate funding stream scientific 
opportunities will be delayed, lost, or forfeited to biomedical 
research opportunities in other countries and the human and economic 
cost will continue to impact all of us.
    Scientific inquiry leads to better medicine and there remain many 
challenges and opportunities that need to be addressed. Two issues 
specific to ASPET highlight the need for appropriate NIH funding 
levels.
  --The need to increase support for training and research in 
        integrative/whole organ science. This will help to develop 
        skilled scientists trained to understand how drugs act in whole 
        animals, including human beings. Support for training and 
        research in integrative whole organ sciences has been affirmed 
        in the fiscal year 2002 Labor, Health and Human Services, and 
        Education, and Related Agencies Appropriations Report (107-84). 
        The Senate report supports ASPET recommendation that 
        ``Increased support for research and training in whole systems 
        pharmacology, physiology, toxicology, and other integrative 
        biological systems that help to define the effects of therapy 
        on disease and the overall function of the human body.'' These 
        principles and recommendations are also affirmed in the FASEB 
        Annual Consensus Conference Report on Federal Funding for 
        Biomedical and Related Life Sciences Research for fiscal year 
        2002.
  --The need to meet public health concerns over growing consumer use 
        of botanical therapies and dietary supplements. These products 
        have unsubstantiated scientific efficacy and may adversely 
        impact the treatment of chronic diseases, create dangerous 
        interactions with prescription drugs, and may cause serious 
        side effects including death among some users. Through the NIH, 
        research into the safety and efficacy of botanical products can 
        be conducted in a rigorous and high-quality manner. Sound 
        pharmacological studies will help determine the value of 
        botanical preparations and the potential for their interactions 
        with prescription drugs as well as chronic disease processes. 
        This research will allow the FDA to review the available 
        pharmacology and review valid evidence-based reviews to form a 
        valid scientific foundation for regulating these products.

                               CONCLUSION

    NIH and the biomedical research enterprise face a critical moment. 
For the first time in 6 years, NIH has the potential to meet many of 
the more promising scientific opportunities that currently challenge 
medicine. Reversing the trends of the last half decade is only part of 
the solution. In order to help sustain scientific progress it is 
critical that NIH receive 7 percent to continue the progress made under 
the ARRA. A 7 percent increase for the NIH in fiscal year 2010 will 
permit the NIH to make greater strides to prevent, diagnose and treat 
disease, improving the health of our Nation and restoring the NIH to 
its role as a national treasure that attracts and retains the best and 
brightest to biomedical research.
                                 ______
                                 
  Prepared Statement of the American Society of Tropical Medicine and 
                                Hygiene

                                OVERVIEW

    The American Society of Tropical Medicine and Hygiene (ASTMH) 
appreciates the opportunity to submit written testimony to the Senate 
Labor, Health and Human, Services, and Education, and Related Agencies 
Appropriations Subcommittee. With more than 3,300 members, ASTMH is the 
world's largest professional membership organization dedicated to the 
prevention and control of tropical diseases.
    We respectfully request that the subcommittee provide the following 
allocations in the fiscal year 2010 Labor, Health and Human, Services, 
and Education, and Related Agencies Appropriations bill to support a 
comprehensive effort to enhance malaria control programming globally:
  --$18 million to the Centers for Disease and Control and Prevention 
        (CDC) for malaria research, control, and program evaluation 
        efforts with a $6 million set-aside for program monitoring and 
        evaluation;
  --$32.19 billion to National Institutes of Health (NIH);
  --$5.07 billion to the National Institute of Allergy and Infectious 
        Diseases (NIAID); and
  --$73.5 million to the Fogarty International Center (FIC).
    We very much appreciate the subcommittee's consideration of our 
views, and we stand ready to work with the subcommittee members and 
staff on these and other important global health matters.

                                 ASTMH

    ASTMH plays an integral and unique role in the advancement of the 
field of tropical medicine. Its mission is to promote global health by 
preventing and controlling tropical diseases through research and 
education. As such, ASTMH is the principal membership organization 
representing, educating, and supporting tropical medicine scientists, 
physicians, researchers, and other health professionals dedicated to 
the prevention and control of tropical diseases. Our members reside in 
46 States and the District of Columbia and work in a myriad of public, 
private, and nonprofit environments, including academia, the U.S. 
military, public institutions, Federal agencies, private practice, and 
industry.
    ASTMH's long and distinguished history goes back to the early 20th 
century. The current organization was formed in 1951 with the 
amalgamation of the National Malaria Society and the ASTMH. Over the 
years, the Society has counted many distinguished scientists among its 
members, including Nobel Laureates. ASTMH and its members continue to 
have a major impact on the tropical diseases and parasitology research 
carried out around the world.
    ASTMH aims to advance policies and programs that prevent and 
control those tropical diseases which particularly impact the global 
poor. ASTMH supports and encourages Congress to expand funding for--and 
commitments to--national and international malaria control initiatives. 
As part of this effort, ASTMH recently conducted an analysis of 
federally funded tropical medicine and disease programs and developed 
fiscal year 2010 funding requests based on this assessment.

                TROPICAL MEDICINE AND TROPICAL DISEASES

    The term ``tropical medicine'' refers to the wide-ranging clinical, 
research, and educational efforts of physicians, scientists, and public 
health officials with a focus on the diagnosis, mitigation, prevention, 
and treatment of diseases prevalent in the areas of the world with a 
tropical climate. Most tropical diseases are located in either sub-
Saharan Africa, parts of Asia (including the Indian subcontinent), or 
Central and South America. Many of the world's developing nations are 
located in these areas; thus tropical medicine tends to focus on 
diseases that impact the world's most impoverished individuals.
    The field of tropical medicine encompasses clinical work treating 
tropical diseases, work in public health and public policy to prevent 
and control tropical diseases, basic and applied research related to 
tropical diseases, and education of health professionals and the public 
regarding tropical diseases.
    Tropical diseases are caused by pathogens that are prevalent in 
areas of the world with a tropical climate. These diseases are caused 
by viruses, bacteria, and parasites which are spread through various 
mechanisms, including airborne routes, sexual contact, contaminated 
water and food, or an intermediary or ``vector''--frequently an insect 
(e.g. a mosquito)--that transmits a disease between humans in the 
process of feeding.

                                MALARIA

    Malaria is a global emergency affecting mostly poor women and 
children; it is an acute and sometimes fatal disease caused by the 
single-celled Plasmodium parasite transmitted to humans by the female 
Anopheles mosquito.
    Malaria is an acute, often fatal disease caused by a single-celled 
parasite transmitted to humans by the female Anopheles mosquito. 
Malaria can cause anemia, jaundice, kidney failure, and death. Despite 
being treatable and preventable, malaria is one of the leading causes 
of death and disease worldwide. The World Health Organization (WHO) 
estimates there were 350 to 500 million malaria cases in 2000 and at 
least 1 million deaths from malaria, the vast majority of which were 
among young children in Africa. WHO estimates that one-half of the 
world's people are at risk for malaria, and that 109 countries are 
endemic for malaria. Malaria-related illness and mortality not only 
take a human toll, but also severely impact economic productivity and 
growth. The WHO has estimated that malaria reduces sub-Saharan Africa's 
economic growth by up to 1.3 percent per year.
    Fortunately, malaria can be both prevented and treated using four 
types of relatively low-cost interventions: (1) indoor residual 
spraying of insecticide on the walls of homes; (2) long-lasting 
insecticide-treated nets; (3) Artemisinin-based combination therapies; 
and (4) intermittent preventive therapy for pregnant women. However, 
limited resources preclude the provision of these interventions and 
treatments to all individuals and communities in need.
        requested malaria-related activities and funding levels
CDC Malaria Efforts
    ASTMH calls upon Congress to fund a comprehensive approach to 
malaria control, including adequately funding the important 
contributions of CDC. CDC originally grew out of the WWII ``Malaria 
Control in War Areas'' program. Since its founding, the Atlanta-based 
agency has maintained a strong role in efforts to research and mitigate 
malaria. Although malaria has been eliminated as an endemic threat in 
the United States for more than 50 years, CDC remains on the cutting 
edge of global efforts to reduce the toll of this deadly disease.
    CDC efforts on malaria fall into three broad areas--prevention, 
treatment, and vaccines. The agency performs a wide range of basic 
research within these categories, such as--
  --investigation of the biology of host-parasite relationships;
  --immune response to malaria;
  --host genetic factors associated with malaria; parasite genetic 
        diversity and drug resistance;
  --HIV and malaria interaction; the efficacy of insecticide-treated 
        nets in preventing illness and deaths;
  --malaria and pregnancy;
  --public health strategies for improving access to antimalarial 
        treatment and delaying the appearance of antimalarial drug 
        resistance;
  --improved transmission reduction strategies; and
  --vaccine development and evaluation.
    Although endemic malaria has been eradicated in the United States, 
it remains one of world's leading causes of death and disease, and a 
significant proportion of CDC's malaria-focused work involves working 
in and with foreign countries to prevent the spread of malaria, and to 
assist in the treatment of those who have contracted the disease. CDC 
funding in fiscal year 2009 for global malarial activities is 
$9,396,000, which includes CDC's contribution to the $6.2 billion 
President's Malaria Initiative.
    CDC participates in several global efforts, including:
  --The President's Malaria Initiative (PMI).--The PMI is a $6.2 
        billion, 9-year effort led by the U.S. Agency for International 
        Development in conjunction with CDC and other Government 
        agencies to lower the incidence of malaria in 15 targeted 
        countries in sub-Saharan Africa by 50 percent.
  --Amazon Malaria Initiative.--This program works with countries in 
        South America to combat the re-emergence of malaria in that 
        part of the world.
  --West Africa Network Against Malaria During Pregnancy.--CDC works 
        with countries in Francophone West Africa to encourage the use 
        of intermittent preventive treatment with sulfadoxine-
        pyrimethamine (IPTp/SP) to prevent anemia and death in pregnant 
        women and malaria-related low-birthweight in their newborns.
  --Preventing and Controlling Malaria During Pregnancy in Sub-Saharan 
        Africa.--CDC works with many partners to prevent and control 
        malaria among pregnant women and their newborns in sub-Saharan 
        Africa.
  --International Red Cross and the Expanded Program for 
        Immunizations.--CDC works with these groups to implement and 
        evaluate the effectiveness of distributing ITNs during 
        immunization campaigns and during routine vaccine visits.
    CDC collaborations support treatment and prevention policy change 
based on scientific findings; formulation of international 
recommendations through membership on WHO technical committees; and 
work with Ministries of Health and other local partners in malaria-
endemic countries and regions to develop, implement, and evaluate 
malaria programs. In addition, CDC has provided direct staff support to 
the WHO; UNICEF; the Global Fund to Fight AIDS, Tuberculosis, and 
Malaria; and the World Bank--all stakeholders in the Roll Back Malaria 
Partnership.

                          NIH MALARIA PROGRAMS

    As the premier biomedical research agency for the United States and 
the world, the NIH and its Institutes and Centers play an essential 
role in the development of new anti-malarial drugs, better diagnostics, 
and an effective malaria vaccine. NIH estimates that its fiscal year 
2009 spending on malaria research will total $111 million while malaria 
vaccine efforts will receive $35 million. ASTMH urges that NIH malaria 
research portfolio and budget be increased by at least 6.6 percent in 
fiscal year 2010. To support a comprehensive effort to control malaria, 
ASTMH respectfully requests the following funding:
  --$32.9 billion to NIH;
  --$5.07 billion NIAID; and
  --$73.5 million to the FIC for training that supports U.S. efforts 
        targeting malaria and other neglected tropical diseases.
NIAID
    Malaria continues to be among the most daunting global public 
health challenges we face. A long-term investment is needed to achieve 
the drugs, diagnostics and research capacity needed to control malaria. 
NIAID, the lead Institute for malaria research, plays an important role 
in developing the drugs and vaccines needed to fight malaria. ASTMH 
urges the subcommittee to increase NIAID funding so that present 
malaria research efforts be maintained and new areas explored such as:
  --increasing fundamental understanding of the complex interactions 
        among malaria parasites, the mosquito vectors responsible for 
        their transmission and the human host;
  --developing new diagnostics, drugs, vaccines, and vector management 
        approaches; and
  --enhancing both national and international research and research 
        training infrastructure to meet malaria research needs.
FIC
    Although biomedical research has provided major advances in the 
treatment and prevention of malaria, these benefits are often slow to 
reach the people who need them most. Highly effective anti-malarial 
drugs exist; when patients receive these drugs promptly, their lives 
can be saved. FIC plays a critical role in strengthening science and 
public health research institutions in low-income countries. By 
promoting applied health research in developing countries, the FIC can 
speed the implementation of new health interventions for malaria, TB, 
and neglected tropical diseases.
    The FIC works to strengthen research capacity in countries where 
populations are particularly vulnerable to threats posed by malaria and 
neglected tropical diseases. FIC efforts that strengthen the research 
workforce in-country--including collaborations with U.S.-supported 
global health programs--help to ensure the continuous improvement of 
programs, adapting them to local conditions. This maximizes the impact 
of U.S. investments and is critical to fighting malaria and other 
tropical diseases.
    FIC addresses global health challenges and supports the NIH mission 
through myriad activities, including:
  --collaborative research and capacity building projects relevant to 
        low- and middle-income nations;
  --institutional training grants designed to enhance research capacity 
        in the developing world, with an emphasis on institutional 
        partnerships and networking;
  --the Forum for International Health, through which NIH staff share 
        ideas and information on relevant programs and develop input 
        from an international perspective on cross-cutting NIH 
        initiatives;
  --the Multilateral Initiative on Malaria, which fosters international 
        collaboration and co-operation in scientific research against 
        malaria; and
  --the Disease Control Priorities Project, is a partnership supported 
        by FIC, The Bill & Melinda Gates Foundation, the WHO, and the 
        World Bank to develop recommendations on effective healthcare 
        interventions for resource-poor settings.
    ASTMH urges the subcommittee to allocate additional resources to 
the FIC in fiscal year 2010 to increase these efforts, particularly as 
they address the control and treatment of malaria.

                               CONCLUSION

    Thank you for your attention to these important global health 
matters. We know you face many challenges in choosing funding 
priorities, and we hope you will provide the requested fiscal year 2010 
resources to those programs identified above. ASTMH appreciates the 
opportunity to share its views, and we thank you for your consideration 
of our requests.
                                 ______
                                 
          Prepared Statement of the American Thoracic Society

    The American Thoracic Society (ATS) is pleased to submit our 
recommendations for programs in the Labor, Health and Human Services, 
and Education, and Related Agencies Appropriations Subcommittee 
purview. ATS, founded in 1905, is an independently incorporated, 
international education and scientific society that focuses on 
respiratory and critical care medicine. With approximately 18,000 
members who help prevent and fight respiratory disease around the 
globe, through research, education, patient care and advocacy, ATS's 
long-range goal is to decrease morbidity and mortality from respiratory 
disorders and life-threatening acute illnesses.

                     RESPIRATORY DISEASE IN AMERICA

    Respiratory disease is a serious problem in America. Respiratory 
disease is the third leading cause of death, responsible for 1 of every 
7 deaths. Diseases effecting the lungs include chronic obstructive 
pulmonary disease, lung cancer, tuberculosis, influenza, sleep 
disordered breathing, pediatric lung disorders, occupational lung 
disease, sarcoidosis, asthma, and severe acute respiratory syndrome 
(SARS). The death rate due to chronic obstructive pulmonary disease 
(COPD) has doubled within the last 30 years and is still increasing, 
while the rates for the other three top causes of death (heart disease, 
cancer, and stroke) have decreased by more than 50 percent. The number 
of people with asthma in the United States has surged more than 150 
percent since 1980 and the root causes of the disease are still not 
fully known. Cystic fibrosis and pulmonary hypertension, which jointly 
affect nearly 150,000 people in the United States, have no cure.

                  NATIONAL INSTITUTES OF HEALTH (NIH)

    The ATS deeply appreciates the $10 billion in supplemental funding 
provided for the NIH in the American Recovery and Reinvestment Act and 
the 3.2 percent increase provided through the omnibus fiscal year 2009 
appropriations legislation. This funding will allow the NIH to continue 
to fund, rather than curtail, groundbreaking research into diseases 
that affect millions of Americans like COPD, asthma, and tuberculosis. 
It is critical that this urgently needed reinvestment in biomedical 
research is reinforced through annual budget increases that include 
inflationary adjustments. We ask that this subcommittee provide a 7 
percent increase for NIH in fiscal year 2010 so that the institute can 
respond to biomedical research opportunities and public health needs.
    Despite the rising lung disease burden, lung disease research is 
underfunded. In fiscal year 2008, lung disease research represented 
just 20.4 percent of the National Heart Lung and Blood Institute's 
(NHLBI) budget. Although COPD is the fourth leading cause of death in 
the United States, research funding for the disease is a small fraction 
of the money that is invested for the other three leading causes of 
death. In order to stem the devastating effects of lung disease, 
research funding must continue to grow to sustain the medical 
breakthroughs made in recent years.

               CENTERS FOR DISEASE CONTROL AND PREVENTION

    In order to ensure that health promotion and chronic disease 
prevention are given top priority in Federal funding, the ATS supports 
a funding level for the Centers for Disease Control and Prevention 
(CDC) that enables it to carry out its prevention mission, and ensure 
an adequate translation of new research into effective State and local 
public health programs. We also ask that the CDC budget be adjusted to 
reflect increased needs in chronic disease prevention, infectious 
disease control, including TB control to prevent the spread of drug-
resistant TB, and occupational safety and health research and training. 
The ATS recommends a funding level of $8.6 billion for the CDC in 
fiscal year 2010. There are four lung diseases that illustrate the need 
for further investment in research and public health programs: COPD, 
pediatric lung disease, asthma and tuberculosis.

                                  COPD

    COPD is the fourth leading cause of death in the United States and 
the third leading cause of death worldwide. Yet, the disease remains 
relatively unknown to most Americans. COPD is the term used to describe 
the airflow obstruction associated mainly with emphysema and chronic 
bronchitis and is a growing health problem. CDC estimates that 12 
million patients have COPD while an additional 12 million Americans are 
unaware that they have this life threatening disease.
    Today, COPD is treatable but not curable. Medical treatments exist 
to relieve symptoms and slow the progression of the disease. 
Fortunately, promising research is on the horizon for COPD patients. 
Despite these leads, the ATS feels that research resources committed to 
COPD are not commensurate with the impact the disease has on the United 
States and that more needs to be done to make Americans aware of COPD, 
its causes and symptoms. According to the NHLBI, COPD costs the U.S. 
economy an estimated $37 billion per year. We recommend that the 
subcommittee encourage NHLBI and other NIH Institutes to devote 
additional resources to finding improved treatments and a cure for 
COPD. The ATS commends the NHLBI for its leadership on educating the 
public about COPD through the National COPD Education and Prevention 
Program. As this initiative continues, we encourage the NHLBI to 
maintain its partnership with the patient and physician community.
    While additional resources are needed at NIH to conduct COPD 
research, CDC has a role to play as well. To address the increasing 
public health burden of COPD, the ATS encourages the CDC to create a 
COPD program at the Center for Chronic Disease Prevention and Health 
Promotion. We ask that the subcommittee provide an appropriation of $1 
million in fiscal year 2010 for this program. We are hopeful that the 
program will include development of a national COPD response plan, 
expansion of data collection efforts and creation of other public 
health interventions for COPD. The ATS also encourages the CDC to add 
COPD-based questions to future CDC health surveys, including the 
National Health and Nutrition Evaluation Survey (NHANES), the National 
Health Information Survey (NHIS) and the Behavioral Risk Factor 
Surveillance Survey (BRFSS).

                         PEDIATRIC LUNG DISEASE

    Lung disease affects people of all ages. The ATS is pleased to 
report that infant death rates for various lung diseases have declined 
for the past 10 years. However, of the seven leading causes of infant 
mortality, four are lung diseases or have a lung disease component. In 
2005, lung diseases accounted for more than 19 percent of all infant 
deaths under 1 year of age. It is also widely believed that many of the 
precursors of adult respiratory disease start in childhood. The ATS 
encourages the NHLBI to continue with its research efforts to study 
lung development and pediatric lung diseases.

                                 ASTHMA

    The ATS believes that the NIH and the CDC must play a leadership 
role in assisting individuals with asthma. National statistical 
estimates show that asthma is a growing problem in the United States. 
Approximately 22.2 million Americans currently have asthma, of which 
12.2 million had an asthma attack in 2005. African Americans have the 
highest asthma prevalence of any racial/ethnic group. The age-adjusted 
death rate for asthma in the African-American population is three times 
the rate in whites.

                                 SLEEP

    Sleep is an essential element of life, but we are only now 
beginning to understand its impact on human health. Several research 
studies demonstrate that sleep illnesses and sleep disordered breathing 
affect an estimated 50-70 million Americans. A recent study conduced by 
CDC found that roughly 10 percent of Americans had not gotten enough 
rest at any point in the previous 30 days. The public health impact of 
sleep illnesses and sleep disordered breathing is still being 
determined, but is known to include traffic accidents, lost work and 
school productivity, cardiovascular disease, obesity, mental health 
disorders, and other sleep-related comorbidities. Despite the increased 
need for study in this area, research on sleep and sleep-related 
disorders has been underfunded. The ATS recommends a funding level of 
$2 million in fiscal year 2010 to support activities related to sleep 
and sleep disorders at the CDC, including for the National Sleep 
Awareness Roundtable (NSART), surveillance activities, and public 
educational activities. The ATS also recommends an increase of funding 
for research on sleep disorders at the Nation Center for Sleep 
Disordered Research (NCSDR) at the NHLBI.

                              TUBERCULOSIS

    Tuberculosis (TB) is the second leading global infectious disease 
killer, claiming 1.7 million lives each year. It is estimated that 9-14 
million Americans have latent tuberculosis. Drug-resistant TB poses a 
particular challenge to domestic TB control owing to the high costs of 
treatment and intensive health care resources required. Treatment costs 
for multidrug-resistant (MDR) TB range from $100,000 to $300,000, which 
can cause a significant strain on State public health budgets. The 
global TB pandemic and spread of drug resistant TB present a persistent 
public health threat to the United States.
    Despite low rates, persistent challenges to TB control in the 
United States remain. Specifically: (1) racial and ethnic minorities 
continue to suffer from TB more than majority populations; (2) foreign-
born persons are adversely impacted; (3) sporadic outbreaks/clusters 
occur, outstripping local capacity; (4) continued emergence of drug 
resistance threaten our ability to control TB; and (5) there are 
critical needs for new tools for rapid and reliable diagnosis, short, 
safe and effective treatments, and vaccines.
    In recognition of the need to strengthen domestic TB control, the 
Congress passed the Comprehensive Tuberculosis Elimination Act (Public 
Law 110-392) in October, 2008. This historic legislation was based on 
the recommendations of the Institute of Medicine and revitalized 
programs at CDC and the NIH with the goal of putting the United States 
back on the path to eliminating TB. The new law authorizes an urgently 
needed reinvestment into new TB diagnostic, treatment and prevention 
tools. The ATS, in collaboration with Stop TB USA, recommends a funding 
level of $210 million in fiscal year 2010 for CDC's Division of TB 
Elimination, as authorized under the Comprehensive TB Elimination Act.
    The NIH has a prominent role to play in the elimination of 
tuberculosis through the development of new tools to fight the disease. 
We encourage the NIH to expand efforts, as requested under the 
Comprehensive TB Elimination Act, to develop new tools to reduce the 
rising global TB burden, including faster diagnostics that effectively 
identify TB in all populations, new drugs to shorten the treatment 
regimen for TB and combat drug resistance, and an effective vaccine.

           FOGARTY INTERNATIONAL CENTER TB TRAINING PROGRAMS

    The Fogarty International Center (FIC) at NIH provides training 
grants to U.S. universities to teach AIDS treatment and research 
techniques to international physicians and researchers. Because of the 
link between AIDS and TB infection, FIC has created supplemental TB 
training grants for these institutions to train international health 
care professionals in the area of TB treatment and research. These 
training grants should be expanded and offered to all institutions. The 
ATS recommends Congress provide $70 million for FIC in fiscal year 
2010, which would allow the expansion the TB training grant program 
from a supplemental grant to an open competition grant.

          RESEARCHING AND PREVENTING OCCUPATIONAL LUNG DISEASE

    The National Institute of Occupational Safety and Health (NIOSH) is 
the sole Federal agency responsible for conducting research and making 
recommendations for the prevention of work-related diseases and injury. 
The ATS recommends that Congress provide $340.1 million in fiscal year 
2010 for NIOSH to expand or establish the following activities: the 
National Occupational Research Agenda (NORA); tracking systems for 
identifying and responding to hazardous exposures and risks in the 
workplace; emergency preparedness and response activities; and training 
medical professionals in the diagnosis and treatment of occupational 
illness and injury.

                               CONCLUSION

    Lung disease is a growing problem in the United States. It is this 
country's third leading cause of death. Lung disease and breathing 
problems are a leading killer of babies under the age of one year. 
Worldwide, tuberculosis is the second leading infectious disease 
killer. The level of support this subcommittee approves for lung 
disease programs should reflect the urgency illustrated by these 
numbers. The ATS appreciates the opportunity to submit this statement 
to the subcommittee.
                                 ______
                                 
Prepared Statement of the Association of Women's Health, Obstetric and 
                            Neonatal Nurses

    The Association of Women's Health, Obstetric and Neonatal Nurses 
(AWHONN) appreciates the opportunity to provide testimony on fiscal 
year 2010 appropriations for the Department of Health and Human 
Services (HHS).
    AWHONN is a nonprofit membership organization made up of 23,000 
nurses who care for mothers, their newborns, and women of all ages. 
AWHONN members are registered nurses, nurse practitioners, certified 
nurse-midwives, and clinical nurse specialists who work in hospitals, 
independent practices, universities and community clinics throughout 
the United States. Our mission is to promote the health of women and 
newborns.
    Nurses are typically the first and most consistent point of contact 
in the healthcare setting. Evidence suggests that they spend more time 
with patients--up to four times on average--than any other healthcare 
provider. As such, nurses have a unique perspective on the healthcare 
system and the public health programs and agencies funded under HHS.
    We thank the subcommittee for providing generous funding in past 
years and we are truly appreciative for the public health funding 
included in the American Recovery and Reinvestment Act of 2009. 
Recognizing the challenges the subcommittee will face in fiscal year 
2010 in reconciling various expenditures in the face of overall budget 
deficits, please find our funding recommendations for fiscal year 2010 
below.

          HEALTH RESOURCES AND SERVICES ADMINISTRATION (HRSA)

    As a member of the Friends of the Health Resources and Services 
Administration coalition, AWHONN recommends $8.5 billion for HRSA in 
fiscal year 2010.
    HRSA programs support health professions education, healthcare 
services for underserved populations, programs to address the special 
needs of mothers and children, and more. For several years, HRSA has 
suffered from relatively level funding. In light of these difficult 
economic times, support for the Nation's safety net system is 
especially critical.
    One of the most important aspects of HRSA's mission is to ensure a 
healthcare workforce that is sufficient to meet the needs of patients 
and communities.
Nursing Workforce Development Programs, title VIII of the Public Health 
        Service Act
    Along with the Nursing Community coalition, AWHONN recommends $215 
million for title VIII programs in fiscal year 2010. An adequate supply 
of nurses is essential to ensuring that all Americans receive quality 
healthcare. Title VIII programs help to address the Nation's ongoing 
nursing and nurse faculty shortage by providing scholarships and loan 
repayment programs to nursing students, recent graduates and nursing 
school faculty. Title VIII also provides grants to schools of nursing 
and health centers to foster greater diversity and improved retention 
rates in the nursing workforce.
Maternal and Child Health (MCH) Block Grant, Title V of the Social 
        Security Act
    AWHONN recommends $850 million for the MCH Block Grant in fiscal 
year 2010. The MCH Block Grant, the only Federal program of its kind, 
is devoted to improving the health of women and children. For more than 
70 years, the program has provided a source of flexible funding for 
States and territories to address their unique needs related to 
improving the health of mothers and children. Today, this program 
provides prenatal services to more than 2 million mothers--almost half 
of all mothers who give birth annually--and primary and preventive care 
to more than 17 million children, including almost 1 million children 
with special needs. Fully funding the MCH block grant will enable 
States to expand critical health services.
    We recommend $30 million for newborn screening activities, which 
are currently funded under the MCH block grant Special Projects of 
Regional and National Significance. Newborn screening is a vital public 
health activity used to identify and treat genetic, metabolic, 
hormonal, and functional conditions in newborns. Screening detects 
disorders in newborns that, if left untreated, can cause disability, 
mental retardation, serious illnesses or even death. While nearly all 
babies born in the United States undergo newborn screening for genetic 
birth defects, the number and quality of these tests vary from State to 
State.

                  NATIONAL INSTITUTES OF HEALTH (NIH)

    AWHONN, along with others in the science advocacy community, 
support increased funding for NIH in fiscal year 2010. Scientific 
research done at the NIH is leading to better patient care. In fact, 
federally funded research is responsible for nearly every major medical 
advancement in the last 50 years. While AWHONN supports the NIH in its 
entirety, several Institutes are especially important to the 
advancement of nursing and the health of women and newborns.
The Eunice Kennedy Shriver National Institute of Child Health and Human 
        Development (NICHD)
    The rate of preterm birth has increased 20 percent since 1990. The 
NICHD supports critical research into the causes and treatments for 
preterm birth.
    AWHONN, along with the March of Dimes, recommends that Congress 
provide at least a 7 percent increase for NICHD in fiscal year 2010, a 
portion to be used to begin establishing transdisplinary research 
centers that focus on preterm birth. NICHD needs additional resources 
to expand research on the underlying causes of preterm birth taking 
into account the recommendations of the experts who participated in the 
Surgeon General's Conference on Preterm Birth in the summer of 2008.
National Institute of Nursing Research (NINR)
    AWHONN, along with the American Nurses Association and the American 
Association of Colleges of Nursing, recommends $178 million for NINR in 
fiscal year 2010.
    NINR supports nurse-led research that contributes to advancing 
high-quality, evidence-based care across the lifespan. Research at NINR 
has targeted, among other topics, health disparities, risk reduction, 
chronic illnesses, and care for rural and underserved populations. NINR 
promotes a uniquely important nursing perspective, as there is no 
caregiver that interacts with patients more or is more trusted by 
patients than nursing professionals. There is no other body that funds 
important nursing research similarly in this country, and NINR research 
has contributed measurably to more efficient and effective healthcare 
as our Nation struggles to fill continuing staffing shortages and gaps 
in healthcare services.

            CENTERS FOR DISEASE CONTROL AND PREVENTION (CDC)

    The CDC is dedicated to protecting health and promoting quality of 
life through the prevention and control of disease, injury, and 
disability. While AWHONN supports the CDC in its entirety, several 
agencies and programs are especially important to the advancing the 
health of women and newborns.
Safe Motherhood/Infant Health
    The Safe Motherhood/Infant Health program works to promote infant 
and reproductive health. AWHONN is especially concerned with issues 
associated with prematurity. Preterm birth is the leading cause of 
neonatal death in the United States. In 2006, more than half a million 
babies--1 in 8 babies--were born prematurely in the United States.
    In 2005, AWHONN launched its Late Preterm Initiative to address the 
special needs of infants born between 34 and 36 completed weeks of 
gestation. While many late preterm infants may appear healthy at birth, 
they are at risk for prematurity-related complications, increased 
morbidity and mortality and have an increased rate of rehospitalization 
in the first month of life.
    Currently, the CDC is partnering with a number of universities and 
organizations to support research related to preterm birth and the 
reasons for disparities between racial and ethnic groups. AWHONN 
recommends a $6 million increase in the preterm birth line fiscal year 
2010. This funding will allow the CDC to expand epidemiological work to 
evaluate the social, biological, and medical factors associated with 
preterm birth as authorized in the PREEMIE Act of 2006 (Public Law 109-
450).
National Center on Health Statistics (NCHS)
    NCHS is the Nation's principal health statistics agency, providing 
critical data on all aspects of the U.S. healthcare system. The agency 
provides data on healthcare trends, information that is essential for 
public health planning. However, current funding levels are threatening 
the collection of vital information, especially complete data on 
maternity and infant health status.
    AWHONN, along with the Friends of NCHS, recommends at least $137.5 
million for NCHS in fiscal year 2010. Additionally, we urge Congress to 
allocate $15 million bolus funding to support States and territories as 
they implement the 2003 birth certificates and electronic systems to 
collect these data.
                                 ______
                                 
           Prepared Statement of the Animal Welfare Institute

    The Animal Welfare Institute (AWI) respectfully requests that the 
subcommittee include the following report language regarding the 
funding of research involving the use of dogs and/or cats:

    None of these funds shall be used for the purchase of, or research 
on, dogs or cats obtained from those USDA licensed Class B dealers who 
acquire dogs or cats from third parties (i.e., individuals, dealers, 
breeders, and animal pounds) and resell them.

    In response to the request included in last year's appropriation 
bill, the National Academy of Sciences (NAS) established a committee in 
the summer of 2008 to assess if there is a scientific rationale for 
relying on dogs and cats obtained from United States Department of 
Agriculture (USDA) licensed Class B dealers. Information on the 
Committee on Scientific and Humane Issues in the Use of Random-source 
Dogs and Cats for Research (ILAR-K-08-01-A) can be found at: http://
www8.nationalacademies.org/cp/projectview.aspx?key=48974. The results 
of its deliberations are expected to be public later this month.
    Based on our review of the data submitted to the NAS Committee, the 
presentations given during those portions of the meetings that were 
open to public, and our own extensive experience regarding Class B-
licensed dealers, we anticipate findings in keeping with the proposed 
report language above.
    According to USDA, of the nearly 95,000 total dogs and cats used in 
research, 2,863 dogs and 267 cats were supplied by random source 
dealers during fiscal year 2007. There are a mere 10 Class B dealers 
currently licensed by USDA and selling live random source dogs and cats 
for experimentation. One other dealer is presently under a 5-year 
license suspension. These dealers are notorious for selling to 
laboratories animals who have been acquired illegally and for their 
widespread failure to comply with other minimum requirements under the 
Animal Welfare Act. In fact, at this time, half of the remaining 10 
dealers are under investigation by USDA for apparent violations of the 
Animal Welfare Act (AWA), and USDA is pursuing seven separate 
investigations regarding apparent supply violations identified during 
tracebacks conducted of dealer records.
    Data from USDA inspection reports reveal myriad problems with 
licensed Class B dealers (we can supply copies of these inspection 
reports if they are of interest): Needed veterinary care is lacking for 
many random source animals. Hookworm and mange are a widespread problem 
as is heartworm, particularly in the South. An Ohio dealer had a dog 
with mange on his head, around the eyes, ears and neck. Another dog had 
enlarged pupils and bulging eyes, and a third had dried loose dark 
stool. An Indiana dealer was cited by USDA for dogs suffering from 
``loose stool with some blood,'' ``loose stool with a drop of blood,'' 
``infected or irritated eye,'' ``mange-like lesions,'' ``ring-worm like 
lesions,'' ``sore on left carpus which was red and warm to the touch,'' 
and an animal with ``a bite wound to the right front foot.'' At another 
inspection, this dealer had two animals who were limping; one had a 
large tumor on his foot. A third animal had a bite laceration on his 
face. Another record notes a chronic cough in an underweight dog and a 
dog with a purulent discharge from his nose. In most cases there is no 
record of any veterinary care, and after being cited by USDA 
inspectors, given the poor status of the animals, they are typically 
killed. An Illinois dealer was cited by USDA for ``euthanizing dogs 
with truck exhaust and tying sick dogs out at the corner of the 
property where they would die.'' Later he shifted to use of an electric 
current administered via clips.
    Research institutions may reject animals delivered by a dealer 
because of the poor condition of the dogs and cats, leaving them to be 
hauled from location to location in search of a taker. If not, the 
animal may be taken back and left to die or may simply be shot. Some at 
research institutions have let USDA know of their concerns. One such 
email identified a cat ``in very poor condition: cache[c]tic, severely 
matted hair coat and a severe case of ear mites.'' It went on to note:

    ``Many of the cats that we receive are wild or are almost wild. I 
do not understand where these cats come from and how they are examined 
for health certificates. I thought the animals had to come from someone 
who had raised and bred the animals on their property or from a 
specific shelter.''

    The conditions for housing, feeding, and care can be problematic as 
well. An Ohio dealer was cited by USDA inspectors for contaminated 
straw, wet with urine and excessive feces. Excessive flies. Water 
receptacles contaminated with black and green algae--a thick layer. A 
dealer in Indiana had dogs unable to avoid contact with excreta. 
Another dealer's inspection report notes, ``Some 70-75 percent dogs 
have water and bread and little bits of dog food floating in water. 
There were some dogs that had only bread and water. Some had dog food 
floating in water. Most of dogs had not eaten the watery food blend. 
About 70 percent of the total dogs had nonpotable water. Water was 
mixed with bread and dog food and sitting in the direct sun.''
    In addition, there are widespread problems with record-keeping and 
acquiring animals from illegal sources. Further, dealers commonly 
network with each other; that is, animals are sold from buncher (an 
unlicensed dealer) to dealer to another dealer before being sold for 
research. Also, typically, the buncher is immune from prosecution until 
he is caught by USDA and warned not to sell more than 25 animals in a 
year without a license again. Then he drops down to selling fewer 
animals so he is exempt from licensure, he sells some of the animals 
using the name of someone else he knows, or he steps forward and gets 
licensed for a while, makes a lot of money and then when USDA appears 
to be catching up with him, he turns in his license.
    One example is the case of Clayton McDowell, a buncher with hunting 
dog kennels who didn't let the fact that he had no license stop him 
from selling 60 dogs to a USDA licensed Class B dealer in Illinois. 
According to USDA, he ``knew about USDA licensing requirements. He 
stated he would quit selling dogs to B dealers. He stated there was too 
much hassle with identification, record keeping.'' McDowell received a 
Letter of Warning from USDA, and he addressed the matter by getting 
licensed. Ultimately, he decided to quit operating as a licensed Class 
B dealer, though he continued selling hunting dogs, claiming he would 
only sell the dogs retail for hunting purposes.
    Then there's a Kentucky dealer cited by a USDA inspector who 
repeatedly failed to include essential details on the acquisition 
sheets, such as the seller's address, driver's license number, and 
vehicle tag number. He was found to have failed to collect this 
information on 3 different dates regarding 13 animals. And a Michigan 
dealer was cited for receiving stray cats from the city of Howard City. 
The city has no pound, but the licensed dealer was willing to step in 
and collect cats. An Illinois dealer was cited on at least three 
separate occasions for his failure to maintain complete records.
    A veterinarian at a research facility expressed concern in an email 
to USDA that the animals it received from a dealer appeared to be 
``companion animals.'' A neutered male Airedale, an intact male 
Weimeriner and a male chocolate Labrador all were affectionate and 
obeyed commands. Similarly, the cats received by the facility were 
``some of the most obedient and affectionate cats that we ever met.''
    Another common pattern is for individuals to pass the business on 
to other members of the family after carefully showing them the ropes. 
Sometimes a former employee of a dealer, who has also learned how to 
work the system, may go off on his own and get licensed as well. Though 
it's not a formal program, in essence some dealers offer an 
apprenticeship.
    Brothers living in Missouri ran their licensed Class B dealer 
operation as a team, then one of them retired and the other's wife 
joined him in running the business. USDA finally caught up with the 
pair, and they were charged with a laundry list of violations, 
including failure to maintain records that fully and correctly disclose 
the identities and other required information of the persons from whom 
dogs were acquired on 51 separate occasions, including one incident 
that pertained to 43 dogs. Further, they were charged with failing to 
provide complete certifications on seven separate occasions, including 
one that pertained to 195 dogs. The husband died before the case was 
resolved and though the wife was fined $107,250, the judge suspended 
$100,000 of it. The story doesn't end here. The couple's son and 
daughter-in-law, after helping mom close down her business, set up 
their own Class B dealer operation.
    During a House Agriculture Subcommittee hearing held back in 1996, 
then Assistant Secretary of Agriculture Michael Dunn described his 
frustration with random source dealers: ``Every time we develop a new 
way to look for something, they develop a new way to hide it.'' An 
insurmountable hurdle for USDA is that the AWA allows anyone who claims 
to have bred and raised an animal to profit by selling the animal to a 
random source dealer--and how can USDA be expected to disprove it? In 
addition, with animals transported back and forth across the country, 
how on earth is USDA supposed to keep up with the movement of animals? 
USDA has spent years inspecting random source dealers four times a year 
instead of once a year as is done with all other licensees and 
registrants under the AWA. In the meantime, unlike any other licensees 
covered under the AWA, this one group of licensees--Class B dealers 
selling dogs and cats for research--have a long-standing problem 
maintaining complete and accurate records.
    The Animal Welfare Act was passed in 1966 to address the illegal 
supply of dogs and cats to laboratories, and here we are 43 years 
later, and these problems are still widespread. What has changed 
significantly over this lengthy period of time is the availability of 
animals from sources other than random source dealers. Given the 
problems inherent in the use of licensed Class B dealers, researchers 
have increasingly and successfully shifted to acquiring most of their 
dogs and cats from licensed Class A breeders--and by using these 
dealers instead, the researchers will receive animals who have been 
raised under controlled conditions, and the health and vaccination 
status and the genetic background on each individual animal will be 
known. In addition, some dogs and cats are being bred for 
experimentation at registered research facilities, and in some cases, 
inexpensive random type animals are purchased directly from animal 
pounds.
    NIH has told this subcommittee that it is ``committed to ensuring 
the appropriate care and use of animals in research.'' However, NIH has 
left the decision of whether or not to buy dogs and cats from random 
source dealers ``to the local level on the basis of scientific need.'' 
NIH defends the use of licensed Class B dealers, arguing that these 
dealers are needed to obtain ``animals that may not be available from 
other sources, such as genetically diverse, older, or larger animals.'' 
In fact, in the rare circumstance that a researcher asserts the need 
for such animals, they can be obtained directly from pounds, as noted 
previously.
    The distinction between nonpurpose-bred animals from pounds versus 
licensed Class B dealers must be made. By using licensed Class B 
dealers (middlemen) instead of pounds, researchers are contributing to 
the problem. In their search to fill researchers' demands for 
``genetically diverse, older or larger animals,'' random source dealers 
and their suppliers may be stealing pets from backyards and farms or 
they may be acquiring them from individuals who did not breed and raise 
them as required by the AWA.
    All animals used in research should be obtained from lawful 
sources. Taxpayer dollars, in the form of NIH extramural grants, must 
not continue to fund research using dogs and cats from dealers whose 
modus operandi is illegal acquisition of animals, fraudulent or 
incomplete records, and other illicit activities. Proper oversight of 
NIH's dispersal of extramural grants to those engaged in research using 
dogs and/or cats is urgently needed.
                                 ______
                                 
       Prepared Statement of Big Brothers Big Sisters of America

    Big Brothers Big Sisters of America (BBBSA) supports $17 million in 
fiscal year 2010 for the Department of Education's Mentoring programs, 
$50 million for the Mentoring Children of Prisoners program and $50 
million for the Volunteer Generation Fund.
    Chairman Harkin and Ranking Member Cochran, thank you for the 
opportunity to submit this testimony for the subcommittee's record.
    BBBSA is the Nation's oldest and largest mentoring organization. We 
have grown over the last 105 years to serve more than 250,000 at-risk 
youth in communities across the Nation. Our 392 agencies are located in 
all 50 States, Guam, and Puerto Rico. We match at-risk youth with a 
caring adult in a one-to-one mentoring relationship. These matches make 
a significant difference in the life of a child and are the foundation 
for developing the full potential of boys and girls as they grow to 
become competent, confident, and caring men and women. BBBSA offers an 
array of programs and services that focus on promoting positive youth 
development, helping each child discover his or her full potential.
    With 17 million at-risk children growing up in America, the need 
for a proven strategy to reverse the statistics and to support their 
successful development has never been more critical. We believe that 
BBBS mentoring provides a significant return on investment, 
particularly compared to the consequences of social and educational 
failure. According to Independent Sector, the value of volunteer work 
was estimated at $20.25 per hour in 2008. Last year, our Bigs 
contributed more than 13 million volunteer hours at an estimated value 
of $676 million.
    BBBSA original, core program model is its community-based match. 
Bigs are matched with Littles referred to the program by a parent, and 
typically a match will spend about 3 hours per week together. 
Professional case-management staff at each local agency guide Bigs and 
provide them with the support necessary to ensure a healthy and lasting 
relationship with their Littles. It is through the relationship with 
these committed adults that at-risk children can to begin to gain their 
own sense of self-confidence and develop healthy aspirations for the 
future.
    Research has shown that BBBS mentoring works as a strategy to 
support at-risk youth. In 1995, Public/Private Ventures released its 
landmark impact study, which found that children matched with a Big 
Brother or Big Sister were:
  --46 percent less likely to begin using illegal drugs;
  --27 percent less likely to begin using alcohol;
  --52 percent less likely to skip school;
  --37 percent less likely to skip a class;
  --more confident of their performance in schoolwork; and
  --getting along better with their families.

         SCHOOL-BASED MENTORING (MENTORING FOR SUCCESS GRANTS)

    Our mentoring programs have grown exponentially over the last 10 
years. A major source of this growth is the expansion of BBBSA school-
based program model. Locating our service in schools has offered a 
strong complement to the traditional community-based approach and has 
resulted in a significant increase in volunteer recruitment. Further, 
because children are referred by teachers, it connects the positive 
impact of the BBBSA relationships directly with the educational 
enrichment for each matched child.
    The President's fiscal year 2010 budget outline for the Department 
of Education has recommended that the Department's mentoring program be 
eliminated. This recommendation was made in follow-up to a Federal 
study examining outcomes for school-based mentoring. The findings of 
the study are generating important and welcome dialogue. BBBSA 
appreciates the focus on quality programs and has reached out to the 
administration to offer our input in finding the most effective way to 
achieve positive outcomes for children.
    We believe that well-run school based mentoring programs can and do 
have real impact. We have both the local and national evidence to prove 
this, including a more recent evaluation by P/PV. In fact, findings 
from the P/PV study led us to adopt significant changes to the way we 
run our own school-based programs in order to ensure longer and 
stronger matches that lead to concrete and measurable outcomes for the 
young people we serve. As a learning organization, we take seriously 
our responsibility to respond to research and continually improve our 
service delivery.
    In 2003, with support from Atlantic Philanthropies, BBBSA began a 
comprehensive study of our school-based mentoring program and evaluated 
impacts on randomly selected mentored youth compared to nonmentored 
youth in a control group. The scope of the study paralleled the BBBS 
Impact Study of Community-Based Mentoring conducted by P/PV in the 
1990s and was the first nationwide, randomized study of school-based 
mentoring ever undertaken.
    Among the findings:
  --Three factors lead to better outcomes--
    --Socio-emotional match activities;
    --Matches that met more often and for longer periods; and
    --A strong school environment and involvement by teachers and 
            principals;
  --School-based mentoring has positive academic outcomes during the 
        first year of the match, including higher grades, higher 
        feelings of academic competence, greater number of assignments 
        completed, fewer serious school infractions, and less skipping 
        of school;
  --But largely because so many matches did not continue into the 
        second year, these outcomes were for the most part not 
        sustained in the second year;
  --Training, supervision, and school support are critical in fostering 
        stronger and longer relationships; and
  --The cost of school-based mentoring is only slightly less than 
        community-based mentoring.
    The challenge was clear: longer matches and closer relationships 
meant stronger impacts and so how were we going to create longer 
matches and their corresponding increased, longer-lasting outcomes? The 
recommendations, coming out of the Study, of our internal School-Based 
Mentoring Task Force were:
  --Start matches as early in the school year as possible;
  --Ensure that volunteers provide at least one school year of 
        mentoring;
  --Build programs in feeder schools to sustain matches and provide 
        youth with consistency through school transitions;
  --Select supportive schools for program involvement and continually 
        foster these partnerships;
  --Explore ways to bridge the summer gap such as taking school-based 
        mentoring out of the school year and increasing match contacts 
        and treating school-based mentoring as a year-round program 
        with strong match support;
  --Develop indices of match length that reflect the summer break and, 
        in this way, are more sensitive predictors of impacts; and
  --Explore more ways to provide volunteers (particularly young 
        volunteers) with the support and ongoing training they need to 
        create high-quality, effective mentoring relationships.
    While BBBSA supports the administration's position of only funding 
effective programs going forward, we have proposed partnering with the 
Department of Education to ensure that existing grantees do not have to 
prematurely close any current mentoring relationships. We understand 
that the cost of honoring the last class of grants which were awarded 
in fiscal year 2008 would require Congress to provide $17 million for 
the program in fiscal year 2010.

                AMACHI (MENTORING CHILDREN OF PRISONERS)

    An estimated 2.4 million children have an incarcerated parent--and 
BBBS' Amachi program addresses this critical need. The goal of Amachi 
is to demonstrate that the best way to stop the vicious cycle of 
substance abuse, delinquency, and incarceration among children of 
incarcerated parents is to give the children what they need the most--a 
supportive and stable adult who will help them discover their own 
strengths, abilities, and resistance skills. Volunteers for the program 
are recruited through their congregations and matched with at-risk 
children and youth, spending time each week with the child to gradually 
build a supportive relationship. Research has shown that children and 
youth of incarcerated parents are at higher risk of child abuse, 
neglect, illiteracy, drug and alcohol abuse, crime, violence, and 
premature death than are their peers. A BBBS mentor in the life of an 
at-risk child can dramatically reduce a child's chance of falling prey 
to these risks. We respectfully request level funding for the 
``Mentoring Children of Prisoners'' program in fiscal year 2010.

      VOLUNTEER GENERATION FUND (CORPORATION FOR NATIONAL SERVICE)

    In the wake of President-elect Obama's ``call to service'' in 
January, also known as National Mentoring Month, BBBSA saw a 
significant increase in volunteer applications. As the economic crisis 
deepens, these Big Brothers and Big Sisters will be helping to meet the 
critical demand our disadvantaged youth have for friendship, especially 
during these challenging times. There is an interest among Americans to 
serve the community and BBBSA is anxious to harness this hope. The 
bipartisan citizen service legislation signed in to law by President 
Obama on April 21 will expand opportunities for citizens to serve, will 
direct this service toward the Nation's most urgent challenges, and 
provides Congress the change to invest in new and innovative solutions 
to our most persistent social problems. In particular, BBBSA 
respectfully requests that $50 million for the Volunteer Generation 
Fund in fiscal year 2010 to spur innovation in volunteer recruitment 
and management.
    As we all work to change how our children grow up in America, BBBSA 
is your proud partner.
                                 ______
                                 
          Letter From the Brain Injury Association of America
                                                       May 6, 2009.
Hon. Tom Harkin,
Chairman, Senate Appropriations Subcommittee on Labor, Health and Human 
        Services, and Education, and Related Agencies, Washington, DC.
Hon. Thad Cochran,
Ranking Member, Senate Appropriations Subcommittee on Labor, Health and 
        Human Services, and Education, and Related Agencies, 
        Washington, DC.
    Dear Mr. Chairman Harkin and Ranking Member Cochran: Thank you for 
the opportunity to submit this written testimony with regard to the 
fiscal year 2010 Labor, Health and Human Services, and Education, and 
Related Agencies appropriations bill. My testimony is on behalf of the 
Brain Injury Association of America (BIAA), our national network of 
State affiliates, and hundreds of local chapters and support groups 
from across the country.
    A traumatic brain injury (TBI) is a blow or a jolt to the head that 
temporarily or permanently disrupts brain function--i.e., who we are 
and how we think, act, and feel. In the civilian population alone every 
year, more than 1.5 million people sustain brain injuries from falls, 
car crashes, assaults and contact sports. Males are more likely than 
females to sustain brain injuries. Children, teens, and seniors are at 
greatest risk.
    And now we are seeing an increasing number of servicemembers 
returning from the conflicts in Iraq and Afghanistan with TBI, which 
has been termed one of the signature injuries of the war. A recent 
study conducted by the RAND Corporation found that 320,000 troops, or 
19 percent of all service members, returning from Operations Enduring 
Freedom and Iraqi Freedom may have experienced a TBI during deployment. 
Many of these returning servicemembers are undiagnosed or misdiagnosed 
and subsequently they and their families will look to community and 
local resources for information to better understand TBI and to obtain 
vital support services to facilitate successful reintegration into the 
community.
    For the past 12 years Congress has provided minimal funding through 
the Health Resources and Services Administration (HRSA) Federal TBI 
Program to assist States in developing services and systems to help 
individuals with a range of service and family support needs following 
their loved one's TBI. Similarly, the grants to State Protection and 
Advocacy Systems to assist individuals with traumatic brain injuries in 
accessing services through education, legal, and advocacy remedies are 
woefully underfunded. Rehabilitation, community support, and long-term 
care systems are still developing in many States, while stretched to 
capacity in others. Additional numbers of individuals with TBI as the 
result of war-related injuries only adds more stress to these 
inadequately funded systems.
    BIAA respectfully urges you to provide States with the resources 
they need to address both the civilian and military populations who 
look to them for much needed support in order to live and work in their 
communities.
    With broader regard to all of the programs authorized through the 
TBI Act, BIAA specifically requests:
  --$11 million for the Centers for Disease Control and Prevention 
        (CDC) TBI Registries and Surveillance, Prevention and National 
        Public Education/Awareness;
  --$20 million for the HRSA Federal TBI State Grant Program; and
  --$6 million for the HRSA Federal TBI Protection & Advocacy (P&A) 
        Systems Grant Program.
    The TBI Act Amendments of 2008, authorizes the Department of Health 
and Human Services, HRSA to award grants to (1) States, American Indian 
Consortia, and territories to improve access to service delivery and to 
(2) State P&A Systems to expand advocacy services to include 
individuals with TBI. For the past 12 years the HRSA Federal TBI State 
Grant Program has supported State efforts to address the needs of 
persons with TBI and their families and to expand and improve services 
to underserved and unserved populations including children and youth; 
veterans and returning troops; and individuals with co-occurring 
conditions
    In fiscal year 2009, HRSA reduced the number of State grant awards 
to 15, in order to increase each monetary award from $118,000 to 
$250,000. This means that many States that had participated in the 
program in past years have now been forced to close down their 
operations, leaving many unable to access TBI care.
    Increasing the program to $20 million will provide funding 
necessary for each State including the District of Columbia, the 
American Indian Consortium to sustain and expand State service 
delivery; and to expand the use of the grant funds to pay for such 
services as Information & Referral (I&R), service coordination and 
other necessary services and supports identified by the State.
    Similarly, the HRSA TBI P&A Program currently provides funding to 
all State P&A systems for purposes of protecting the legal and human 
rights of individuals with TBI. State P&As provide a wide range of 
activities including training in self-advocacy, outreach, I&R, and 
legal assistance to people residing in nursing homes, to returning 
military seeking veterans benefits, and students who need educational 
services.
    Effective Protection and Advocacy services for people with a TBI 
leads to reduced government expenditures and increased productivity, 
independence, and community integration. However, advocates must 
possess specialized skills, and their work is often time-intensive. A 
$6 million appropriation would trigger a formula that would ensure that 
each P&A can provide a significant PATBI program with appropriate staff 
time and expertise.
    Funding for the TBI Model Systems is urgently needed to ensure that 
the Nation's valuable TBI research capacity is not diminished, and to 
maintain and build upon the 16 TBI Model Systems research centers 
around the country.
    The TBI Model Systems of Care program represents an already 
existing vital national network of expertise and research in the field 
of TBI, and weakening this program would have resounding effects on 
both military and civilian populations. The TBI Model Systems are the 
only source of nonproprietary longitudinal data on what happens to 
people with TBI. They are a key source of evidence-based medicine, and 
serve as a ``proving ground'' for future researchers.
    In order to make this program more comprehensive, Congress should 
provide $13.3 million in fiscal year 2010 funding for the National 
Institute on Disability and Rehabilitation Research's TBI Model Systems 
of Care Program, in order to add four new centers and two collaborative 
research projects. In addition, given the national importance of this 
research program, the TBI Model Systems of Care program should receive 
``line-item'' status within the broader NIDRR budget.
    We ask that you consider favorably these requests for the HRSA 
Federal TBI Program, NIDRR TBI Model Systems Program, and for CDC to 
gather needed data, shepherd public awareness, education, and 
prevention programs; as well as the sustain and bolster TBI Model 
Systems that conduct vital research.
            Sincerely,
                                          Susan H. Connors,
                                                     President/CEO.
                                 ______
                                 
  Prepared Statement of the Crohn's and Colitis Foundation of America

    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to submit testimony on behalf of the 1.4 million Americans 
living with Crohn's disease and ulcerative colitis. My name is Gary 
Sinderbrand and I have the privilege of serving as the Chairman of the 
National Board of Trustees for the Crohn's and Colitis Foundation of 
America (CCFA). CCFA is the Nation's oldest and largest voluntary 
organization dedicated to finding a cure for Crohn's disease and 
ulcerative colitis--collectively known as inflammatory bowel diseases 
(IBD).
    Let me say at the outset how appreciative we are for the leadership 
this subcommittee has provided in advancing funding for the National 
Institutes of Health (NIH). Hope for a better future for our patients 
lies in biomedical research and we are grateful for the recent 
investments that you have made in this critical area.
    Mr. Chairman, Crohn's disease and ulcerative colitis are 
devastating inflammatory disorders of the digestive tract that cause 
severe abdominal pain, fever and intestinal bleeding. Complications 
include arthritis, osteoporosis, anemia, liver disease and colorectal 
cancer. We do not know their cause, and there is no medical cure. They 
represent the major cause of morbidity from digestive diseases and 
forever alter the lives of the people they afflict--particularly 
children. I know, because I am the father of a child living with 
Crohn's disease.
    Seven years ago, during my daughter, Alexandra's sophomore year in 
college, she was taken to the ER for what was initially thought to be 
acute appendicitis. After a series of tests, my wife and I received a 
call from the attending GI who stated coldly: Your daughter has Crohn's 
disease, there is no cure and she will be on medication the rest of her 
life. The news froze us in our tracks. How could our vibrant, beautiful 
little girl be stricken with a disease that was incurable and has 
ruined the lives of countless thousands of people?
    Over the next several months, Alexandra fluctuated between good 
days and bad. Bad days would bring on debilitating flares which would 
rack her body with pain and fever as her system sought equilibrium. Our 
hearts were filled with sorrow as we realized how we were so incapable 
of protecting our child.
    Her doctor was trying increasingly aggressive therapies to bring 
the flares under control.
    Asacol, Steroids, Mercaptipurine, Methotrexate, and finally 
Remicade. Each treatment came with its own set of side effects and 
risks. Every time A would call from school, my heart would jump before 
I picked up the call in fear of hearing that my child was in pain as 
the flares had returned. Ironically, the worst call came from one of 
her friends to report that A was back in the ER and being evaluated by 
a GI surgeon to determine if an emergency procedure was needed to clear 
an intestinal blockage that was caused by the disease. Several hours 
later, a brilliant surgeon at the University of Chicago, removed over a 
foot of diseased tissue from her intestine. The surgery saved her life, 
but did not cure her. We continue to live every day knowing that the 
disease could flare at any time with devastating consequences.
    From the point of hearing the news, I refused to accept the fact 
that this disease could not be cured. As I studied all the relevant 
data I could find, I reached out to the organization that seemed to be 
repeatedly mentioned, The CCFA. This organization is leading the fight 
in research, education and support on behalf of the 1.4 million 
Americans that suffer from these illnesses.
    I made a pest of myself at the national office seeking knowledge 
about how the fight was being staged. The more I learned the more I 
believed that we could do better. I was invited to join the national 
board and 6 years later, I have the privilege of leading an 
extraordinary staff of professionals and a network of volunteers across 
our entire country.
    We are making dramatic progress that is the result of the 
scientific excellence of our funded researchers and our volunteer 
scientific leadership as well as the rapid advancement of available 
technology. It is now not ``if'' we will cure IBD, but ``when.''
    Mr. Chairman, I will focus the remainder of my testimony on our 
appropriations recommendations for fiscal year 2010.

                  RECOMMENDATIONS FOR FISCAL YEAR 2010

NIH
    Throughout its 40-year history, CCFA has forged remarkably 
successful research partnerships with the NIH, particularly the 
National Institute of Diabetes and Digestive and Kidney Diseases 
(NIDDK), which sponsors the majority of IBD research, and the National 
Institute of Allergy and Infectious Diseases (NIAID). CCFA provides 
crucial ``seed-funding'' to researchers, helping investigators gather 
preliminary findings, which in turn enables them to pursue advanced IBD 
research projects through the NIH. This approach led to the 
identification of the first gene associated with Crohn's--a landmark 
breakthrough in understanding this disease.
    To further accelerate genetic research and advance understanding of 
IBD, NIDDK issued a research solicitation to establish an IBD Genetics 
Consortium approximately 8 years ago. This effort was informed by 
recommendations from external experts. Funding for the Consortium's six 
centers began in 2002, and intensive data and sample collection, 
genetic analysis, and recruitment of new patients and their families 
have been under way. In 2006, the Consortium published the major 
discovery of a new IBD gene. Some sequence variations in this gene, 
called IL23R, were found to increase susceptibility to IBD, while 
another variant actually confers protection. This gene was known 
previously to be involved in inflammation, and its newly discovered 
association with IBD may lead to the development of better therapies 
for IBD. In recognition of the success of the Consortium's large-scale 
collaborative effort, NIDDK decided to continue support for the program 
beyond its initial 5-year period which was slated to end in fiscal year 
2007.
    Renewed funding in fiscal year 2008 has enabled the Consortium to 
continue its genetic studies and recruit additional patients and 
relatives (as well as subjects without IBD for comparison). This 
expansion will facilitate the identification of additional predisposing 
genes and enable genetic analyses of certain patient subgroups, such as 
those from minority populations or those who experience an early onset 
form of IBD. These findings may then be used to pursue genetically 
based diagnostic tests that allow for earlier diagnosis and treatment 
intervention. In addition, the data can be used to identify new 
molecular targets for therapeutic development that are specifically 
targeted to a unique subset of patients.
    Mr. Chairman, we are grateful for the leadership of Dr. Stephen 
James, Director of NIDDK's Division of Digestive Diseases and 
Nutrition, for pursuing this and other opportunities in IBD research 
aggressively. Fortunately, the field of IBD is widely viewed within the 
scientific community as one of tremendous potential. CCFA's scientific 
leaders, with significant involvement from NIDDK, have developed an 
ambitious research agenda entitled ``Challenges in Inflammatory Bowel 
Diseases'' that seeks to address many opportunities that currently 
exist. We look forward to working with NIDDK and the subcommittee to 
pursue these research goals in the coming years.
    For fiscal year 2010, CCFA joins with other patient and medical 
organizations in recommending a 7 percent increase in funding for the 
NIH. We specifically encourage the subcommittee to support the 
invaluable work of the NIDDK and NIAID.

            CENTERS FOR DISEASE CONTROL AND PREVENTION (CDC)

IBD Epidemiology Program
    Mr. Chairman, as I mentioned earlier CCFA estimates that 1.4 
million people in the United States suffer from IBD, but there could be 
many more. We do not have an exact number due to these diseases' 
complexity and the difficulty in identifying them.
    We are extremely grateful for your leadership in providing funding 
over the past 5 years for an epidemiology program on IBD at CDC. This 
program is yielding valuable information about the prevalence of IBD 
and increasing our knowledge of the demographic characteristics of the 
IBD patient population. If we are able to generate an accurate analysis 
of the geographic makeup of the IBD patient population, it will provide 
us with invaluable clues about the potential causes of IBD.
    I should note that the latest phase of this project focuses on 
Rhode Island. The ``Ocean State Crohn's & Colitis Area Registry'' is 
identifying each new case of inflammatory bowel disease diagnosed in 
the State. The result will be a unique, population-based cohort of 
newly diagnosed patients to be followed prospectively over time--the 
first of its kind in the United States, and one of very few such 
cohorts in the world. The goals of the study include: (1) describing 
the incidence rates of Crohn's disease and ulcerative colitis; (2) 
describing disease outcomes; and (3) identifying factors that predict 
disease outcomes. To date more than 85 newly diagnosed patients of all 
ages have been enrolled into the study.
    Mr. Chairman, to continue this important epidemiological work in 
fiscal year 2010, CCFA recommends a funding level of $700,000, an 
increase of $16,000 more than fiscal year 2009.

                     PEDIATRIC IBD PATIENT REGISTRY

    Mr. Chairman, the unique challenges faced by children and 
adolescents battling IBD are of particular concern to CCFA. In recent 
years we have seen an increased prevalence of IBD among children, 
particularly those diagnosed at a very early age. To combat this 
alarming trend CCFA, in partnership with the North American Society for 
Pediatric Gastroenterology, Hepatology and Nutrition, has instituted an 
aggressive pediatric research campaign focused on the following areas:
  --Growth/Bone Development.--How does inflammation cause growth 
        failure and bone disease in children with IBD?
  --Genetics.--How can we identify early onset Crohn's disease and 
        ulcerative colitis?
  --Quality Improvement.--Given the wide variation in care provided to 
        children with IBD, how can we standardize treatment and improve 
        patients' growth and well-being?
  --Immune Response.--What alterations in the childhood immune system 
        put young people at risk for IBD, how does the immune system 
        change with treatment for IBD?
  --Psychosocial Functioning.--How does diagnosis and treatment for IBD 
        impact depression and anxiety among young people? What 
        approaches work best to improve mood, coping, family function, 
        and quality of life.
    The establishment of a national registry of pediatric IBD patients 
is central to our ability to answer these important research questions. 
Empowering investigators with HIPPA compliant information on young 
patients from across the Nation will jump-start our effort to expand 
epidemiologic, basic and clinical research on our pediatric population. 
We encourage the subcommittee to support our efforts to establish a 
Pediatric IBD Patient Registry with the CDC in fiscal year 2010.
    Once again Mr. Chairman, thank you very much for the opportunity to 
be with you today. I look forward to any questions you may have.
                                 ______
                                 
   Prepared Statement of the Children's Environmental Health Network

    The Children's Environmental Health Network (the Network) 
appreciates this opportunity to comment on the fiscal year 2010 
appropriations to the Departments of Health and Human Services and 
Education for activities that protect children from environmental 
hazards. The Network appreciates the wide range of priorities that you 
must consider for funding. We urge you to give priority to those 
programs that directly protect and promote children's environmental 
health. In so doing, you will improve not only our children's health, 
but also their educational outcomes and their future.
    The Network is a national organization whose mission is to promote 
a healthy environment and to protect the fetus and the child from 
environmental health hazards. We recognize that children, in our 
society, have unique moral standing. The Children's Environmental 
Health Network was created to promote the incorporation of basic 
pediatric facts such as these in policy and practice:
  --Children's bodies and behaviors differ from adults. In general, 
        they are more vulnerable than adults to toxic chemicals.
  --Children are growing. Pound for pound, children eat more food, 
        drink more water and breathe more air than adults. Thus, they 
        are likely to be more exposed to substances in their 
        environment than are adults. Children are different from adults 
        in how their bodies absorb, detoxify, and excrete toxicants.
  --Children's systems, such as their nervous, reproductive, and immune 
        systems, are developing. This process of development creates 
        periods of vulnerability when toxic exposures may result in 
        irreversible damage when the same exposure to a mature system 
        may result in little or no damage.
  --Children behave differently than adults, leading to a different 
        pattern of exposures to the world around them. For example, 
        because of their hand-to-mouth behavior, they ingest whatever 
        may be on their hands, toys, household items, and floors. 
        Children play and live in a different space than do adults. For 
        example, very young children spend hours close to the ground 
        where there may be more exposure to toxicants in dust and 
        carpets as well as low-lying vapors such as radon or 
        pesticides.
  --Children have a longer life expectancy than adults; thus they have 
        more time to develop diseases with long latency periods that 
        may be triggered by early environmental exposures, such as 
        cancer or Parkinson's disease.
    Clear, sound science underlies these principles. A solid consensus 
in the scientific community supports these concepts. The world in which 
today's children live has changed tremendously from that of previous 
generations. There has been a phenomenal increase in the substances to 
which children are exposed. According to the Environmental Protection 
Agency (EPA), more than 83,000 industrial chemicals are currently 
produced or imported into the United States. Traces of hundreds of 
chemicals are found in all humans and animals. Every day, children are 
exposed to a mix of chemicals, most of them untested for their effects 
on developing systems.
    We urge the subcommittee to provide the necessary resources for the 
Federal programs and activities that help to protect children from 
environmental hazards. The key programs in your jurisdiction are below.

   CENTERS FOR DISEASE CONTROL AND PREVENTION (CDC) AND THE NATIONAL 
                   ENVIRONMENTAL HEALTH CENTER (NEHC)

    The Network strongly supports the work of the CDC and the NEHC, 
especially NEHC's efforts to continue and expand its biomonitoring 
program and to continue its national report card on exposure 
information, using the highly respected National Health and Nutrition 
Examination Survey. A vital CDC responsibility in pediatric 
environmental health is to assist in filling the major information gaps 
that exist about children's exposures.
    The Network supports a funding level of $8.6 billion for CDC's core 
programs in fiscal year 2010. The Network urges the subcommittee to 
provide an additional $19.6 million for CDC's Environmental Health 
Laboratory in fiscal year 2010. The Network believes it is especially 
critical for the NEHC to gather and publish expanded information in the 
report card on children's exposures.

                         PUBLIC HEALTH TRACKING

    The CDC's National Environmental Public Health Tracking Program 
helps to track environmental hazards and the diseases they may cause, 
coordinating and integrating local, State, and Federal health agencies' 
collection of critical health and environmental data. We urge the 
subcommittee to provide $50 million for the tracking network in fiscal 
year 2010 to expand it to additional States and support the continued 
development of a sustainable, nationwide Network.
    Additionally, data on children's ``real world'' exposure and 
disease are critically needed. Since children spend hours every day in 
school and child care, we urge you to direct the Tracking Program to 
include grants for pilot methods for tracking children's health in 
schools and child care settings.

                         GLOBAL CLIMATE CHANGE

    We strongly urge the subcommittee to designate $50 million for the 
CDC to help the public prepare for and adapt to the potential health 
effects of global climate change in fiscal year 2010.
    Global climate change presents major challenges to public health. 
Children, as a vulnerable subpopulation, are among those at greatest 
risk of harm. Children in communities that are already disadvantaged 
will be the most harmed. Recent studies have detailed how children's 
physical and social health may be harmed, ranging from respiratory 
diseases and melanoma (due to atmospheric changes), to gastrointestinal 
diseases (due to increased water contamination), to an increased range 
for some diseases (malaria, dengue, encephalitides, Lyme disease), to 
increased rates of malnutrition (due to severe drought and severe 
precipitation), to the harm caused by displacement, water and food 
insecurity, and forced migration (caused by drought, increased rain and 
severe storms, and rising sea levels) and the resulting international 
conflict and political unrest.
    It is imperative that the Federal Government undertake efforts to 
mitigate and adapt to climate change. Providing funding to the CDC for 
preparing for the potential health effects of global climate change is 
an important step.

    NATIONAL INSTITUTE OF ENVIRONMENTAL HEALTH SCIENCES (NIEHS) AND 
     CHILDREN'S ENVIRONMENTAL HEALTH RESEARCH CENTERS OF EXCELLENCE

    NIEHS is a vital institution in our efforts to understand how to 
protect children, whether it is identifying and understanding the 
impact of substances that are endocrine disruptors, or better 
understanding childhood exposures that may not affect health until 
decades later, or seeking answers to many other important questions.
    The Children's Environmental Health Research Centers, funded by 
NIEHS and the EPA, play a key role in protecting children from 
environmental hazards. With budgets of $1 million per year per center 
(unchanged over more than 10 years), this program generates valuable 
research. A unique aspect of this program is the requirement that each 
Center actively involves its local community in a collaborative 
partnership, leading both to community-based participatory research 
projects and to the translation of research findings into child-
protective programs and policies. Researchers have embraced this 
funding mechanism because of the ability it gives them to do 
interdisciplinary research and to be involved in the community--things 
that are not easy to do using other grant mechanisms. The scientific 
output of these centers has been outstanding. For example, four of the 
Centers had findings that clearly showed that prenatal exposure to a 
widely used pesticide affected developmental outcomes at birth and 
early childhood. Another recent example is the finding of a biomarker 
in newborns for childhood leukemia, firmly establishing the important 
role of prenatal environment factors in causation of this disease.
    Unfortunately, almost all of the existing 12 centers are currently 
operating on no-cost extensions. We strongly support the center concept 
and the network of centers. We also support current efforts by NIEHS 
and the EPA to competitively renew and to expand this valuable program 
by adding four formative centers. However, only five of the existing 
centers are to be renewed. If centers are shuttered, we will lose 
access to valuable populations such as urban children with asthma or 
children in farm communities exposed to pesticides. We will lose the 
ability to learn about issues like early puberty concerns, exposures in 
school settings, and pre-adolescent and adolescent outcomes.
    Thus, we urge the subcommittee to appropriate at least $15 million 
for the NIEHS share of funding so that, in concert with the EPA 
contribution, an adequate number of centers (old and new) will have 
funding in fiscal year 2010.
    In addition, the Network urges the subcommittee to support NIEHS by 
increasing its overall budget, and that of the Superfund research 
program, by 5 percent more than last year's level and directing that 
included in this increase would be a $5 million increase specifically 
for research on children's environmental health issues. The Superfund 
research program has supported some vital children's research but 
funding has been level over the last 4 years.

                    NATIONAL CHILDREN'S STUDY (NCS)

    The NCS is examining the effects of environmental influences on the 
health and development of more than 100,000 children in 105 communities 
across the United States, following them from before birth until age 
21. The NCS will be one of the richest research efforts ever geared 
toward studying children's health and development and will form the 
basis of child health guidance, interventions, and policy for 
generations to come. The NCS will provide a better understanding of how 
children's genes and their environments interact to affect their health 
and development, thus improving the health and well-being of all 
children.
    Enrollment in the NCS began this January, after 8 years of planning 
and development. The Network urges the subcommittee to continue its 
enthusiastic support for the NCS in this and future years, including 
full funding of $195 million in fiscal year 2010. The Network also asks 
the subcommittee to direct the National Institute of Child Health and 
Human Development to assure that protocols are in place for measuring 
exposures in the child care and school settings. The Network believes 
it is critically important to understand how school and child care 
exposures differ from home exposures very early in the NCS.

         PEDIATRIC ENVIRONMENTAL HEALTH SPECIALTY UNITS (PEHSU)

    A key, but dramatically underfunded, program is the PEHSU network. 
Funded by the Agency for Toxic Substances and Disease Registry and the 
EPA, the PEHSUs form a network with a center in each of the U.S. 
Federal regions, plus one center in Canada and one in Mexico. PEHSU 
professionals provide quality medical consultation for health 
professionals, parents, caregivers, and patients. Last year, the entire 
program, covering the 10 U.S. centers, received less than $2 million. 
These centers have done tremendous work on these small budgets. We urge 
the subcommittee to provide funding for this program in fiscal year 
2010 at the level of $200,000 per center (compared to the $120,000 for 
each center last year).

                      SCHOOL ENVIRONMENTAL HEALTH

    Each school day, about 54 million children and 7 million adults 
spend a full week inside schools. Unfortunately, many of the Nation's 
public and private school facilities are shoddy or even ``sick'' 
buildings whose environmental conditions harm children's health and 
undermine attendance, achievement, and productivity. In 1996, GAO 
reported that more than 13 million children were compelled to be in 
schools that threatened their health and safety. Two Federal statutes 
that would create a foundation for healthy schools are already in 
place, authorizing the U.S. Department of Education and the EPA to 
address school environments. Unfortunately, to date neither of these 
programs have been funded.
    We strongly urge the subcommittee to provide the $25 million 
authorized by the Healthy and High Performance Schools Act (Public Law 
107-110) to the grant program for State agencies to develop and 
disseminate information and assistance on high performance school 
design standards. The subcommittee should also direct the Department of 
Education to conduct a National Priority Study, as required under HHPS, 
on the impacts of decayed facilities on children and to report to 
Congress. To date, Education has only produced a brief review of the 
scientific literature.
    These programs and activities are especially vital in light of the 
``stimulus'' funds for school modernization or renovation. The stimulus 
bill does not require consideration of environmental health or 
children's health and safety. Yet, without specific consideration of 
health, steps to ``green'' a school--such as increasing insulation at a 
school to improve energy efficiency--can have unintended harmful side 
effects, such as creating or exacerbating indoor air quality problems.

                    CHILD CARE ENVIRONMENTAL HEALTH

    Thirteen million preschoolers--60 percent of young children--are in 
child care. Millions of preschoolers--our youngest and most vulnerable 
population--enter care as early as 6 weeks of age and can be in care 
for more than 40 hours per week. Yet little is known about the 
environmental health status of our child care centers nor how to assure 
that they are protecting this important group of children. The Network 
is working to correct these gaps.
    We ask the subcommittee to direct the Department of Health and 
Human Services Assistant Secretary for Children and Families to report 
on the Administration for Children and Families activities that protect 
children from environmental hazards in childcare settings, especially 
in the Office of Head Start.
    In conclusion, investments in programs that protect and promote 
children's health will be repaid by healthier children with brighter 
futures, an outcome we can all support. That is why the Network asks 
you to give priority to these programs. Thank you for the opportunity 
to testify on these critical issues.
                                 ______
                                 
          Prepared Statement of the Cystic Fibrosis Foundation

                  NATIONAL INSTITUTES OF HEALTH (NIH)

    On behalf of the Cystic Fibrosis Foundation (CFF), and the 30,000 
people with cystic fibrosis (CF), we are pleased to submit the 
following testimony regarding fiscal year 2010 appropriations for CF-
related research at NIH and other agencies.

                                ABOUT CF

    CF is a life-threatening genetic disease for which there is no 
cure. People with CF have two copies of a defective gene, known as 
CFTR, which causes the body to produce abnormally thick, sticky mucus 
that clogs the lungs and results in fatal lung infections. The thick 
mucus in those with CF also obstructs the pancreas, making it difficult 
for patients to absorb nutrients from food.
    Since its founding, CFF has maintained its focus on promoting 
research and improving treatments for CF. More than thirty drugs are 
now in development to treat CF, some which treat the basic defect of 
the disease, while others target its symptoms. Through the research 
leadership of CFF, the life expectancy of individuals with CF has been 
boosted from less than 6 years in 1955 to 37 years in 2007. This 
improvement in the life expectancy for those with CF can be attributed 
to research advances and to the teams of CF caregivers who offer 
specialized care. Although life expectancy has improved dramatically, 
we continue to lose young lives to this disease.
    The promise for people with CF is in research. In the past 5 years, 
the CFF has invested more than $660 million in its medical programs of 
drug discovery, drug development, research, and care focused on life-
sustaining treatments and a cure for CF. A greater investment is 
necessary, however, to accelerate the pace of discovery and development 
of CF therapies. This testimony focuses on the investment required to 
more rapidly and efficiently discover and develop new CF treatments 
aimed at controlling or curing CF.

        SUSTAINING THE FEDERAL INVESTMENT IN BIOMEDICAL RESEARCH

    This subcommittee and Congress are to be commended for their 
steadfast support for biomedical research, and their commitment to the 
National Institutes of Health (NIH), particularly the effort to double 
the NIH budget between fiscal year 1999 and fiscal year 2003 as well as 
the significant investment provided by the American Recovery and 
Reinvestment Act (ARRA). These increases in funding brought a new era 
in drug discovery that has benefited all Americans. Congress must 
adequately fund the NIH so that it can capitalize on scientific 
advances in order to maintain the momentum that the doubling and the 
infusion of funds from ARRA generated.
    The flat-funding of the NIH since 2003 has decreased purchasing 
power, limiting the pursuit of critical research. CFF joins the 
Coalition for Health Funding to recommend increasing the budget for all 
health discretionary spending by 13 percent in fiscal year 2010, or 
$7.4 billion over the fiscal year 2009 Omnibus. This increased 
investment will help maintain the NIH's ability to fund essential 
biomedical research today that will provide tomorrow's care and cures. 
If the subcommittee is not able to recommend funding at this level, 
Congress should advise the NIH to focus on contributing funds to 
research partnerships that will accelerate therapeutic development to 
improve peoples' lives.

           STRENGTHEING OUR NATION'S RESEARCH INFRASTRUCTURE

    Because CF is a disease that impacts several systems in the body, 
several Institutes at the NIH share responsibility for CF research. We 
urge the NIH to pay special attention to advances in treatment methods 
and mechanisms for translating basic research across Institutes into 
therapies that can benefit patients across Institutes. CFF has been 
recognized for its own research approach that encompasses basic 
research through phase III clinical trials, and has created the 
infrastructure required to accelerate the development of new CF 
therapies. As a result, we now have a pipeline of more than 30 
potential therapies that are being examined to treat people with CF.

          THE CLINICAL AND TRANSLATIONAL SCIENCE AWARDS (CTSA)

    CTSA program was a key component of the NIH's Roadmap initiative. 
The program is designed to transform how clinical and translational 
research is conducted, ultimately enabling researchers to provide new 
treatments more efficiently to patients. Tremendous effort brought 
institutions together to rally around this program, yet current funding 
levels make it difficult for the 39 programs (out of a planned 60) to 
succeed.
    Key to the success of the CTSAs is the development of cost-sharing 
for use of infrastructure services. An example of this mechanism is the 
General Clinical Research Centers (GCRC), which allowed Institutes to 
reduce their research budgets by having investigators use the GCRC when 
clinical care such as inpatient stays, lab tests, nursing staff, was 
made available at no additional cost. Today, individual investigators 
must provide funds for clinical care cost-sharing from grants funded 
from other NIH Institutes. As research becomes more expensive and 
private capital dries up, it becomes even more critical to ensure 
support for translational research, that is, research that moves a 
potential therapy from development to the market. In order to maximize 
the potential of the CTSA, multiple Institutes within NIH must be able 
to provide financial resources for this critical program.
Supporting Clinical Research
    A significant discrepancy persists between the funding awarded to 
clinical and basic laboratory investigators for first awards. The 
difference is even greater for second awards and prolonged funding of 
clinical investigators. The NIH must maintain support for translational 
research and the investigators piloting those projects. Without this 
support, the NIH stands to lose an entire generation of clinically 
trained individuals committed to clinical research. The ``generation 
gap'' that would be created by the loss of these clinical researchers 
would affect the ability of the NIH to conduct world-class clinical 
investigation and jeopardize the standing of the United States as the 
world's premiere source for biomedical research.

          FACILITATING CLINICAL RESEARCH AND DRUG DEVELOPMENT

    CFF applauds the NIH's efforts to encourage greater efficiency in 
clinical research. CFF has been a leader in creating a clinical trials 
network to achieve greater efficiency in clinical investigation. 
Because the CF population is so small, a more significant portion of 
people with the disease must partake in clinical trials than in most 
other diseases. This unique challenge prompted CFF to streamline our 
clinical trials processes. Research conducted by CFF is more efficient 
than ever before and we are a model for other disease groups.
The Model of the Cystic Fibrosis Therapeutics Development Network
    CFF's established clinical research program, the Therapeutics 
Development Network (TDN), plays a pivotal role in accelerating the 
development of new treatments to improve the length and quality of life 
for CF patients. Lessons learned from its centralization of data 
management and analysis and data safety monitoring in the TDN will be 
useful in designing clinical trial networks in other diseases. We urge 
the subcommittee to direct the NIH and other agencies to allocate 
additional funds for innovative therapeutics development models like 
the TDN. CFF urges the subcommittee to allocate additional resources 
for clinical research in order meet the demand for testing the 
promising new therapies for CF and other diseases.
Alterative Models for Institutional Review Boards
    We are pleased that the Department of Health and Human Services has 
encouraged the exploration of alternative models of IRBs, including 
central IRBs, by the CTSA. We encourage Congress to urge the Department 
to demonstrate more aggressive leadership in persuading all academic 
institutions to accept review by a central IRB--without insisting on 
parallel and often duplicative review by their own IRB--at least in the 
case of multi-institutional trials in rare diseases. Such oversight 
could help provide greater expertise to improve trial design and enable 
critical research to move forward in a timelier manner without 
undermining patient safety.

      RESEARCH COMPENSATION FOR SUPPLEMENTAL SECURITY INCOME (SSI)

    An additional impediment in our effort to accelerate the 
development of new therapies is the Social Security Administration's 
(SSA) current SSI rules, which count research compensation for 
participation in a clinical drug study as income for determining SSI. 
This policy creates an unnecessary barrier to clinical trial 
participation for a significant number of people with CF, and thus 
severely limits efforts to develop new therapies. We urge the 
subcommittee to direct the SSA to disregard any compensation to an 
individual who is participating in a clinical trial testing rare 
disease treatments that has been reviewed and approved by an 
institutional review board and meets the ethical standards for clinical 
research for the purposes of determining that individual's eligibility 
for the SSI program.
Partnership with the National Center for Research Resources (NCRR)
    The CTSA program, administered by the NCRR, encourages novel 
approaches to clinical and translational research, enhances the 
utilization of informatics, and strengthens the training of young 
investigators. CFF has enjoyed a productive relationship with the NCRR 
to support our vision for improving clinical trials capacity through 
its early financial support of the TDN. Recently, however, the NCRR 
decided to reject funding for disease-specific networks in favor of 
those without a disease focus. As a result of this policy, some of the 
best clinical research consortia are prohibited from competing for NCRR 
grants, including but not limited to the CF TDN. We urge the NCRR to 
reverse this decision.

                       SUPPORTING DRUG DISCOVERY

    CFF's clinical research is fueled by a vigorous drug discovery 
effort; early stage translational research of promising strategies to 
find successful treatments for this disease. Several research projects 
at the NIH will expand our knowledge about the disease, and could 
eventually be the key for controlling or curing CF.
Exploring Protein Misfolding and Mistrafficking
    We applaud the National Heart, Lung and Blood Institute (NHLBI), 
and the National Institute of Diabetes and Digestive and Kidney 
Diseases (NIDDK) for their initiatives that target research on protein 
misfolding, and urge an aggressive commitment to facilitate continued 
exploration in this area to build upon promising discoveries. We urge 
the NIH to continue to devote special attention to research in protein 
misfolding and mistrafficking, an area which could yield significant 
benefits for patients with CF and other diseases where misfolding is an 
issue.
Opportunities In Animal Models
    CFF is encouraged by the NIH's investment in a research program at 
the University of Iowa to study the effects of CF in a pig model. The 
program, funded through research awards from both NHLBI and CFF, bears 
great promise to help make significant developments in the search for a 
cure. While a company has been established to produce the animals, the 
infrastructure and extensive animal husbandry required to keep the 
animals alive and conduct research on them is available at few academic 
institutions. We urge additional funding to create a facility that 
would enable researchers from multiple institutions to conduct research 
with these models.
Facilitating Scientific Data Connections
    An explosion of data is emerging from ``big science'' projects such 
as the Human Genome Project and the International HapMap Project. We 
encourage investments by NIH into the development of systems that 
permit the linkage of gene expression, protein expression and protein 
interaction data from independent laboratories. While construction of 
such an interface would be difficult, it would undoubtedly facilitate 
generations of new ideas and open new areas of medically important 
biology.
Increasing Investment in Inflammatory Response Research
    CF, like diseases such as inflammatory bowel disease, chronic 
bronchitis, and rheumatoid arthritis, cause an intense inflammatory 
response. CFF enthusiastically supports investments by the NIH to gain 
a greater understanding of inflammatory signaling and inflammatory 
cascades, which would lead to improved methods of safely interfering 
with the inflammatory process and contributing to the health and well 
being of the U.S. population.
Supporting High Throughput Screening
    The subcommittee should urge the NIH to continue to fund high 
throughput screening initiatives in keeping with the NIH Roadmap 
suggestions. Support for the follow-up and optimalization of compounds 
identified through this type of screening can help to bridge the 
development gap and bring about more drugs that can make it to 
patients' bedsides.
Funding Systems Biology Platforms
    In order to rapidly accelerate the identification of potential 
biomarkers and understand the mechanisms of action of CFTR function, 
data generated from multiple laboratories and scientific must be 
integrated. To address this, CFF has partnered with a systems biology 
company called GeneGo to generate a CF-focused systems biology platform 
to illustrate the various effects of CFTR dysfunction in multiple cell 
systems. CFF urges NIH to provide additional funding to support 
research efforts aimed at leveraging systems biology platforms to 
integrate multiple disciplines within the CF research community in 
order to accelerate drug development and biomarker validation for CF.
Small Business Innovation Research Program at NIH
    Small Business Innovation Research (SBIR) program grants allocated 
by the NIH have helped many small biotechnology and pharmaceutical 
companies to develop vital treatments for a variety of diseases. 
Several companies developing CF treatments have used SBIR grants to 
fund their development process.
    The SBIR program could provide further support by directing that a 
portion of all grants awarded be used for rare disease research. With 
such a small portion of the population likely to purchase the drugs, 
research to produce drugs to treat rare diseases is often considered 
too large a financial risk to take on. It is important to note, however 
that there are more than 25 million Americans with a rare disease. By 
directing even small dollar grants to develop drugs for these diseases, 
Congress can eliminate some of the risk that keeps biotechnology and 
pharmaceutical companies from developing drugs for rare diseases.
    The NIH has wisely focused on translational research as a 
touchstone for ensuring the relevance of the agency to the American 
public. CFF is the perfect example of this notion, having devoted our 
own resources to developing treatments through drug discovery, clinical 
development, and clinical care. Several of the drugs in our pipeline 
show remarkable promise in clinical trials and we are increasingly 
hopeful that these discoveries will bring us even closer to a cure. 
Encouraged by our successes, we believe the experience of CFF in 
clinical research can serve as a model of drug discovery and 
development for research on other orphan diseases and we stand ready to 
work with NIH and congressional leaders. On behalf of CFF, we thank the 
subcommittee for its consideration.
                                 ______
                                 
       Prepared Statement of the Center for Global Health Policy

    The Center for Global Health Policy of the Infectious Diseases 
Society of America (IDSA) is pleased to submit testimony about the 
urgent need to increase funding for the Department of Health and Human 
Services' programs that address two deadly global pandemics--HIV/AIDS 
and tuberculosis.
    IDSA represents more than 8,000 infectious diseases and HIV 
physicians and scientists devoted to patient care, education, research, 
prevention, and public health. Nested within the IDSA is the HIV 
Medicine Association (HIVMA), representing more than 3,500 physicians, 
scientists, nurse practitioners, and other health professionals working 
in HIV medicine. In 2008, IDSA and HIVMA launched the Infectious 
Diseases Center on Global Health Policy and Advocacy to address global 
HIV/AIDS, tuberculosis, and HIV/TB co-infection. Under the leadership 
of a scientific advisory committee of world-renowned scientific experts 
in these areas, IDSA works to educate policymakers, U.S. Government 
program implementers and the media about evidence-based policies and 
programs and the value of U.S. leadership in combating these deadly and 
synergistic epidemics.

                        GLOBAL HIV/AIDS PANDEMIC

    There are 33 million people living with HIV/AIDS in the world, with 
22 million of them or 67 percent living in sub-Saharan Africa. AIDS 
kills 2 million people annually. U.S. leadership has been the 
catalyzing force for preventing millions of infections, ensuring access 
to lifesaving HIV treatment for 3 million persons in developing 
countries, and providing care and support to millions of additional 
people, including orphans and vulnerable children. Despite tremendous 
progress, only about one-third of persons in developing countries who 
are clinically eligible for antiretroviral therapy are receiving it, 
and an ongoing and robust prevention campaign is essential to reduce 
the more than 7,000 new HIV infections that still occur on a daily 
basis.
    The National Institutes of Health (NIH)-funded HIV research at the 
NIH research led to the development of lifesaving antiretroviral 
therapy, identified the efficacy of antiretroviral therapy during 
pregnancy to prevent mother-to-child transmission, demonstrated the HIV 
prevention benefits of male circumcision, and is paving the road to the 
availability of an effective microbicide. The Centers for Disease 
Control and Prevention (CDC) have been a critical implementing partner 
in the U.S. response to the global HIV epidemic, working with health 
ministries in developing countries to launch HIV prevention and 
treatment programs, conducting public health evaluation research, and 
supporting heavily impacted countries in their efforts to monitor and 
to employ evidence based strategies in response to their particular 
epidemics.

                              TUBERCULOSIS

    Tuberculosis is the second leading global infectious disease 
killer, claiming more than 1.7 million lives annually. Worldwide, one-
third of the world's population is infected with TB and nearly 9 
million people develop active TB disease each year. In recent years, 
highly drug-resistant forms of TB have emerged. Drug-resistant 
tuberculosis is a direct result of human failure--failure to adequately 
detect and treat TB and to develop the necessary tools to effectively 
address this ancient and deadly scourge.
    In 2006, the CDC and the World Health Organization (WHO) reported 
the findings from a survey of TB reference laboratories around the 
world indicating that 20 percent of M. tuberculosis isolates were 
multi-drug resistant (MDR)--that is, TB strains resistant to the two 
most potent drugs in the four-drug TB regimen. Four percent of these 
MDR-TB strains were resistant to multiple second-line drugs and were 
deemed extensively drug-resistant TB or XDR-TB. Mortality from XDR-TB 
can be as high as 85 percent, and close to 100 percent in individuals 
co-infected with HIV/AIDS. The increase in MDR-TB and the advent of 
XDR-TB have triggered grave alarm in the scientific community about the 
potential for an untreatable XDR-TB epidemic. In 2007, WHO estimated 
that there were 500,000 cases of MDR-TB and only 1 percent of these 
cases were treated according to WHO standards.
    The global pandemic and alarming spread of drug-resistant TB 
present a persistent public health threat to the United States. 
Tuberculosis is an airborne infection.
    Drug-resistant TB anywhere in the world easily translates into 
drug-resistant TB everywhere.

                 DEADLY SYNERGY OF HIV/TB CO-INFECTION

    The costly MDR TB epidemic in the United States in the early 1990s 
emerged against a background of HIV infection in high HIV prevalence 
cities like New York City and Miami. Today, HIV-TB co-infection is 
ravaging sub-Saharan Africa. TB is the leading cause of death of 
persons with HIV worldwide. Tuberculosis facilitates HIV disease 
progression, and persons with HIV have poorer TB treatment outcomes 
than their non-HIV-infected counterparts. According to the WHO, in 
2007, there were at least 1.37 million cases of HIV positive TB--nearly 
15 percent of the total incident cases. There were 456,000 deaths among 
this group.

                           CDC--TUBERCULOSIS

    Last year, Congress passed landmark legislation--the Comprehensive 
Tuberculosis Elimination Act of 2008--Public Law 110-873. This bill 
authorizes a number of actions that will shore up State TB control 
programs, enhance United States capacity to deal with the serious 
threat of drug-resistant tuberculosis and escalate our efforts to 
develop urgently needed new ``tools'' in the form of drugs, 
diagnostics, and vaccines. Realizing these goals will require 
additional resources; at a minimum, it is critical that the funding 
authorized for fiscal year 2010 in this important new law--$210 
million--be appropriated for the CDC Division of TB Elimination. While 
this represents an increase more than current funding, the scientific 
community, including the National Coalition for the Elimination of 
Tuberculosis, has estimated that $528 million will be needed annually 
to implement strategies through the CDC that will advance the goal of 
TB elimination.
    Funds are desperately needed to increase the clinical trial 
capacity of the Tuberculosis Trials Consortium (TBTC) to evaluate 
promising new drugs for MDR TB and to support clinical trials for 
vaccine candidates that hold the hope of eliminating the scourge of TB 
from the face of the earth. Additional financial support is also needed 
for the Tuberculosis Epidemiologic Studies Consortium (TBESC)--critical 
partnerships between TB control programs and academic institutions 
aimed at designing, conducting and evaluating programmatically relevant 
research.
    Strengthening CDC's Division of TB Elimination to conduct research 
and support State TB control programs will protect our communities, and 
help ensure that another devastating outbreak of drug-resistant 
tuberculosis that plagued several American cities in the late 1980s 
does not recur. Ultimately, modest Federal investments will prevent the 
necessity to expend huge resources treating MDR-TB and XDR-TB, which 
can cost $468,000 per case to treat.

                     CDC--GLOBAL AIDS PROGRAM (GAP)

    CDC's Global AIDS Program (GAP) helps resource-poor countries 
prevent HIV infection; improve treatment, care, and support for people 
living with HIV; and build healthcare capacity and infrastructure. To 
meet these objectives, CDC sends clinicians, epidemiologists and other 
health professionals to help foreign governments and health 
institutions with a range of prevention, care, and support activities. 
Working closely with health ministries in developing countries, CDC 
helps build sustainable public health capacity in laboratory services 
and systems, including country capacity to design and implement HIV 
surveillance systems and surveys.
    The CDC GAP also plays an important role in helping governments 
monitor and evaluate the impact of HIV prevention, care and treatment 
programs. CDC GAP also works with the Office of the Global AIDS 
Coordinator as the lead on HIV prevention, and also works to evaluate 
the impact of US HIV prevention, treatment and care and support 
funding. For example, CDC GAP is currently conducting a public health 
evaluation (PHE) to assess the impact of PEPFAR funding on developing 
country health systems and access to other healthcare services. A 
funding level for CDC'GAP program of at least $218 million is 
essential.

                                  NIH

    NIH is the world's flagship biomedical research institution, 
supporting basic science research, behavioral research, drug and 
diagnostic development and research training. Unfortunately in recent 
years, NIH funding has eroded, and stagnant funding has resulted in 
decreasing support for original research and cuts in clinical trial 
networks. With only 1 in 4 approved research applications receiving 
funding, the pipeline for critical discoveries is dwindling and young 
scientists are being forced to turn their attention to different 
professional pursuits.
    IDSA is extremely pleased that the recently enacted stimulus bill 
contained an infusion of billions of desperately needed dollars for the 
NIH research enterprise. Congress rightfully acknowledged the role of 
scientific research in stimulating the economy. It is vital, however, 
that the long overdue increases in funding enjoyed by the NIH in the 
economic stimulus bill are maintained and enhanced in this year's 
funding bill--funding that will ultimately translate into improvements 
in individual and public health, both domestically and globally.

                           HIV/AIDS RESEARCH

    The successes of the HIV research investment is a testament to the 
value of research investment. A robust and comprehensive research 
portfolio was responsible for the rapid and dramatic gains in our HIV 
knowledge base, gains that resulted in reductions in mortality from 
AIDS of nearly 80 percent in the United States and in developing 
countries where treatment has been made available. Remarkable 
discoveries helped us to reduce mother-to-child HIV transmission to 
nearly 1 percent in the United States and this intervention has 
prevented HIV infection in hundreds of thousands of children worldwide. 
A continued robust HIV research effort is essential to accelerate our 
progress in developing more effective prevention strategies, and 
supporting the basic research necessary to continue our work developing 
a vaccine that may end the deadliest pandemic in human history. 
Research to improve treatment strategies to aid prevention and to 
maximize the benefits of antiretroviral therapy, especially in 
underserved populations in the United States and in resource-limited 
settings is a high priority.
    The National Institute on Allergies and Infectious Diseases (NIAID) 
is the principal funding resource for basic and clinical HIV research, 
but critical HIV research is conducted through a range of NIH 
Institutes under the leadership of the Office for AIDS Research (OAR).

                         TUBERCULOSIS RESEARCH

    NIAID is also a critical player in tuberculosis research. In 2007, 
NIAID developed a research strategy for drug-resistant tuberculosis, 
but limited resources have slowed implementation of this strategy. 
According to the NIH Research Portfolio Online Reporting Tool, RePORT, 
NIH funding for tuberculosis research, including vaccine research 
totaled $160 million in fiscal year 2008--a modest level for an 
infectious disease that kills millions through a pathogen that is 
showing increasing resistance to available medications. In fact, 
funding for TB research has gone in the wrong direction since NIH spent 
$211 million on TB research in fiscal year 2007. A doubling of funding 
for TB research would be a reasonable response to the world disease 
burden and the current scientific opportunities.
    We must increase our investment in TB research as highlighted in 
the enacted Comprehensive TB Elimination Act of 2008. We must have the 
resources to conduct clinical trials on new therapeutics for both drug-
susceptible and drug-resistant TB, to test new diagnostics in point-of-
care settings, and to evaluate promising TB vaccine candidates. We 
urgently need treatment regimens that are shorter in duration and less 
toxic. Research related to pediatric tuberculosis, including drug 
development, must be stepped up.
    It is also imperative that research activities focused on HIV/TB 
co-infection continue with enhanced funding. Tuberculosis is the 
leading cause of death among persons with HIV/AIDS worldwide. TB is 
more difficult to diagnose in persons with HIV and a number of 
important anti-TB drugs interact with HIV antivirals. Critical 
questions remain about how best to sequence HIV and TB treatment in co-
infected individuals--questions with life and death ramifications for 
millions of individuals, especially those living in sub-Saharan Africa. 
Tuberculosis threatens to undermine the tremendous progress that has 
been made in saving the lives of persons in developing countries 
through the provision of antiretroviral therapy.

          GLOBAL FUND TO FIGHT AIDS, TUBERCULOSIS AND MALARIA

    Historically, one-third of U.S. funding for the Global Fund has 
been appropriated through the NIAID budget and IDSA strongly supports a 
significant U.S. contribution to the Global Fund. U.S. support for the 
Global Fund to Fight AIDS, Tuberculosis and Malaria is a crucial part 
of U.S. global health diplomacy. The Global Fund is a country-led, 
performance-based partnership that embraces transparency and 
accountability, and fosters multilateral cooperation. The Global Fund 
provides a quarter of all international financing for AIDS globally, 
two-thirds for tuberculosis, and three-quarters for malaria. Through 
these efforts, the Global Fund has helped save 3.5 million lives in 140 
countries
    In Pakistan, for example, an American-based international aid group 
called Mercy Corps has, using Global Fund resources, partnered with the 
private sector on a broad TB public education campaign, training 
thousands of health workers, and strengthening lab capacity to test for 
TB. This work has dramatically increased Pakistan's ability to detect 
TB cases, and now Pakistan is counting on the Fund's strong, continued 
support to ensure medication is available to people with TB. Continued 
progress on TB is essential to development in Pakistan, since 80 
percent of Pakistanis afflicted with tuberculosis are in the most 
economically productive years of their lives, and the disease sends 
many self-sustaining families into poverty.
    The Global Fund projects an $8 billion need for new and continuing 
programs in 2010, but only $3 billion in pledges are in place. The 
Labor, Health and Human Services, and Education, and Related Agencies 
budget, through NIH, has been a crucial source of funding for the U.S. 
contribution to the Fund, providing $300 million in fiscal year 2009. 
The Global Fund has requested that the United States triple its total 
contribution for fiscal year 2010. The portion of the U.S. contribution 
provided by NIH should therefore be tripled to $900 million. The 
economic, strategic and moral case for this contribution to the Global 
Fund is clear, and the United States must do its part to help close 
this funding gap.
    The IDSA and the HIVMA have many funding priorities to champion in 
the Labor, Health and Human Services, and Education, and Related 
Agencies appropriations bill including funds to address antimicrobial 
resistance, child and adult immunizations, pandemic influenza, the Ryan 
White CARE Act, and domestic HIV prevention. Thank you for the 
opportunity to highlight our funding priorities for research and 
programs related to global HIV and TB in the Labor, Health and Human 
Services, and Education, and Related Agencies account.
                                 ______
                                 
   Prepared Statement of Children and Adults with Attention-Deficit/
                     Hyperactivity Disorder (CHADD)

                               BACKGROUND

    At the Centers for Disease Control and Prevention (CDC) 1999 
conference titled ``Attention Deficit Hyperactivity Disorder: A Public 
Health Perspective,'' more than 150 experts gathered to discuss the 
public health concerns related to AD/HD and to explore areas for future 
research. The conference developed a public health research agenda 
which included recommendations on the establishment of: a resource for 
both professionals and the public regarding what is known about the 
epidemiology of AD/HD; an avenue of dissemination of educational 
materials related to the diagnosis of and intervention opportunities 
for AD/HD to primary care physicians, nurse practitioners, physicians 
assistants, mental health providers and educators; collaborations with 
other organizations to educate and promote what is known about AD/HD 
interventions, appropriate standards of practice, their effectiveness, 
and their safety; and a resource to the public for accurate and valid 
information about AD/HD and evidence-based interventions.
    Congress responded to this research agenda in fiscal year 2002 by 
providing resources for the CDC to begin a partnership with CHADD \1\ 
to develop the National Resource Center on AD/HD (NRC)--a significant 
development in recognizing the unique challenges faced by individuals 
with AD/HD across the lifespan.
---------------------------------------------------------------------------
    \1\ Children and Adults with Attention-Deficit/Hyperactivity 
Disorder (CHADD) was founded by parents in 1987 in response to the 
frustration and sense of isolation experienced by parents and their 
children. CHADD is the leading national nonprofit organization for 
children and adults with AD/HD, providing the public and providers with 
education, advocacy, and support.
---------------------------------------------------------------------------
    The NRC's goals include improving the health and quality of life of 
individuals with AD/HD and their families; raising awareness and 
facilitating access to scientifically valid information and support 
services; and improving the understanding of the impact of AD/HD among 
healthcare specialists, educators, employers, and individuals with AD/
HD. The NRC fulfills these goals by disseminating evidence-based 
research on AD/HD through a variety of mechanisms, including:
  --a Web site (www.help4adhd.org) receiving on average 129,274 visits 
        each month;
  --a national call center, staffed by five professional health 
        information specialists, including one bilingual health 
        information specialist. The health information specialists 
        responded to 9,051 individual inquiries during the last year on 
        10,018 different topical issues from parents, adults with AD/
        HD, mental health professionals, and educators;
  --partnerships with minority health organizations to reach 
        underserved populations;
  --a series of more than 25 ``What We Know'' fact sheets on AD/HD, in 
        both English and Spanish; and
  --a comprehensive library and online bibliographic database of more 
        than 3,000 evidence-based journal articles and reports on AD/
        HD.
    The overwhelming demand for information and support on AD/HD by the 
public and the professional community has created an unprecedented need 
for additional resources to keep pace with the requests for information 
received by the NRC and to provide outreach and resources to unserved 
and underserved populations.

                             WHAT IS AD/HD?

    A 2005 report by the CDC found that parents reported approximately 
7.8 percent of school-age children (4 to 17 years) had a diagnosis of 
Attention-Deficit/Hyperactivity Disorder (AD/HD).\2\ Other evidence-
based studies have documented that more than 70 percent of children 
with AD/HD will continue to experience symptoms of AD/HD into 
adolescence, and almost 65 percent will exhibit AD/HD characteristics 
as adults.\3\ In addition, up to two-thirds of children with AD/HD will 
have at least one co-occurring disability with 50 percent of these 
children having a co-occurring learning disability.
---------------------------------------------------------------------------
    \2\ Centers for Disease Control and Prevention (2005). Mental 
Health in the United States: Prevalence of Diagnosis and Medication 
Treatment for Attention-Deficit/Hyperactivity Disorder. Retrieved March 
25, 2005, from http://www.cdc.gov/mmwr/preview/mmwrhtml/mm5434a2.htm.
    \3\ Dulcan, M., and the Work Group on Quality Issues. (1997, 
October). AACAP official action: Practice parameters for the assessment 
and treatment of children, adolescents, and adults with Attention-
Deficit/Hyperactivity Disorder. Journal of the American Academy of 
Child and Adolescent Psychiatry, Supplement, 36(10), 85S-121S.
---------------------------------------------------------------------------
    Only half of all children with AD/HD receive the necessary 
treatment, with lower diagnostic and treatment rates among girls, 
minorities, and children in foster care. If untreated or inadequately 
treated, AD/HD can have serious consequences, increasing an 
individual's risk for school failure, unemployment, interpersonal 
difficulties, other mental health disorders, substance and alcohol 
abuse, injury, antisocial and illegal behavior, contact with law 
enforcement, and shortened life expectancy.\4\ The availability of 
appropriate services and access to treatment can help individuals with 
AD/HD avoid negative outcomes and lead successful lives.
---------------------------------------------------------------------------
    \4\ Barkley, R. A. (1997). ADHD and the nature of self-control. New 
York: The Guilford Press.
---------------------------------------------------------------------------
                FISCAL YEAR 2010 APPROPRIATIONS REQUEST

    The NRC has met and continues to meet the goals of improving the 
health and quality of life for individuals with AD/HD and their 
families; raising awareness and facilitating access to evidence-based 
information and support services; and improving the understanding of 
the impact of AD/HD among healthcare specialists, educators, employers, 
and individuals with AD/HD.\5\
---------------------------------------------------------------------------
    \5\ Cuffe, S.P., Moore, C.G., & McKeown, R. (2009). ADHD and health 
services utilization in the National Health Survey. Journal of 
Attention Disorders, 12(4), 330-340.; Chan, E., Zhan, C., & Homer, C.J. 
(2002). Health care use and costs for children with Attention-Deficit/
Hyperactivity Disorder, Archives of Pediatrics & Adolescent Medicine, 
156, 504-511.; Rowland, A.S., Umbach, D.M., Stallone, L., Naftel, J., 
Bohlig, E.M., & Sandler, D. P. (2002). Prevalence of medication 
treatment for Attention Deficit--Hyperactivity Disorder among 
elementary school children in Johnston County, North Carolina, American 
Journal of Public Health, 92(2), 231-234.; Ray, T.G., Levine, P., 
Croen, L.A., Bokhari, F.A.S., Hu., T., & Habel, L.A. (2006). Attention-
Deficit/Hyperactivity Disorder in children, Archives of Pediatrics & 
Adolescent Medicine, 160, 1063-1069.
---------------------------------------------------------------------------
    Both the National Institutes of Health Consensus Conference on AD/
HD (Nov. 1998) and the Centers for Disease Control and Prevention (CDC) 
Conference on Public Health and AD/HD (September 1999) concluded that 
AD/HD is a serious public health concern that needs to be addressed 
because of the potential economic burden associated with AD/HD. 
Numerous peer-reviewed journal articles have documented the significant 
healthcare cost of individuals with AD/HD.
    In ``AD/HD in Adults: What the Science Says,'' Barkley, Murphy & 
Fisher discuss the results of the few empirical studies that have been 
conducted regarding occupational functioning of clinic-referred adults 
with AD/HD. ``Although opinions abound on the topic in trade books on 
ADHD in adults, there is very little research on the occupational 
functioning of clinic-referred adults with ADHD'' (p. 276). One study 
conducted at UMASS found that adults with a diagnosis of AD/HD are more 
likely to self-report and have employers report difficulties with 
occupational functioning than their clinic-referred or community 
counterparts. In addition, the Milwaukee study (2006) found that 
individuals diagnosed as having AD/HD as children that persists until 
age 27 tend to be more severely affected in occupational functioning 
than clinic-referred adults or community counterparts. In addition, 
another study conducted by Biederman & Faraone (2006) concluded that 
individuals with AD/HD are less likely to be employed full time (34 
percent of individuals with AD/HD compared to 59 percent of individuals 
without AD/HD).\7\ In addition, the study found that the household 
incomes of adults older than the age of 25 were significantly lower 
among individuals with AD/HD when compared to individuals without AD/HD 
regardless of academic achievement or personal characteristics. The 
results of these three studies indicate the need for further research 
into the impact of AD/HD on the occupational functioning of adults and 
how best to reasonably accommodate their disability in the workplace 
because more than 30 percent of requested accommodations are at no cost 
to the employer but yet according to Biederman & Faraone the total cost 
of work loss among men and women with AD/HD is $2.6 billion, or 53 
percent of the total $13 billion cost of adult ADHD in the United 
States.
---------------------------------------------------------------------------
    \7\ Biederman, J.,& Faraone, S.V. (2006). The effects of attention-
deficit/hyperactivity disorder on employment and household income. 
MedGenMed, 8(3),12, Retrieved March 25, 2005, from http://
www.medscape.com/viewarticle/536264.
---------------------------------------------------------------------------
    Therefore, we are asking that the National Center on Birth Defects 
and Developmental Disabilities (NCBDDD) AD/HD line item be increased 
from $1.777 million to $2.377 million and that the funding for the NRC 
be increased from $980,000 to $1.280 million. This is a $600,000 
increase in the AD/HD line and $300,000 increase in the NRC line. 
Historically, half of the increase to the AD/HD line item has been used 
to fund research on AD/HD. This increase will allow the NRC to further 
develop its outreach to the African-American and Hispanic-Latino 
communities, restore education campaigns at nurse, educator, and 
related conferences, and most importantly during this current economic 
climate to initiate an employment information specialist service.

             REQUESTED REPORT LANGUAGE FOR FISCAL YEAR 2010

    The subcommittee continues to support the activities of the CDC's 
NCBDDD and the National Resource Center (NRC) on AD/HD and has provided 
$2.377 million to continue this support, including $1.28 million to 
maintain and expand the activities at the NRC as it responds to the 
overwhelming demand for information and support services, reaches 
special populations in need, and educates health and education 
professionals on the impact of AD/HD on the ability individuals with 
AD/HD to lead successful, economically self-sufficient, and independent 
lives integrated into their communities with the necessary 
accommodations and supports.
                                 ______
                                 
    Prepared Statement of the Coalition for Health Services Research

    The Coalition for Health Services Research is pleased to offer this 
testimony regarding the role of health services research in improving 
our Nation's health. The Coalition's mission is to support research 
that leads to accessible, affordable, high-quality healthcare. As the 
advocacy arm of AcademyHealth, the Coalition represents the interests 
of 3,500 researchers, scientists, and policy experts, as well as 150 
organizations that produce and use health services research.
    Healthcare in the United States has the potential to improve 
people's health dramatically, but often falls short and costs too much. 
Health services research is used to understand how to better finance 
the costs of care, measure and improve the quality of care, and improve 
coverage and access to affordable services. Indeed, health services 
research is changing the face of American healthcare, uncovering 
critical challenges facing our Nation's healthcare system. For example, 
the 2000 Institute of Medicine (IOM) report To Err is Human found that 
up to 98,000 Americans die each year from medical errors in the 
hospital. Health services research also uncovered that disparities and 
lack of access to care in rural and inner cities result in poorer 
health outcomes. And, it found that obesity accounts for more than $92 
billion in medical expenditures each year and has worse effects on 
chronic conditions than smoking or problem drinking.
    Health services research does not just lift the veil on problems 
plaguing American healthcare; it also seeks ways to address them. 
Health services research framed the debate over healthcare reform in 
Massachusetts--forming the basis for that State's 2006 health reform 
legislation--and continues to frame the debate on the national stage 
today. It offers guidance on implementing and making the best use of 
health information technology, and getting the best care at the best 
value across a menu of treatment options. And there are increasing 
examples that demonstrate how comparative effectiveness research--an 
emerging science in the broader field of health services research--
provides the scientific basis needed to determine what treatments work 
best, for whom, and in what circumstances.
    Health services research can contribute greatly to better 
healthcare at better value. It is a true public good, providing a basis 
for improvements in our healthcare system that will benefit the general 
public. Americans overwhelmingly agree. A recent opinion survey 
commissioned by Research!America found that 95 percent of Americans say 
it is important to support research focused on how well our healthcare 
system is functioning. After all, the investment in basic research and 
the development of new medicines and equipment is wasted if the health 
system cannot safely and effectively deliver that care.
    For the last 6 years, the Coalition has been collecting data to 
track the Federal Government's expenditures for health services 
research and health data. From information provided to us by these 
funders--including Agency for Healthcare Research and Quality (AHRQ), 
National Institutes of Health (NIH), and the Centers for Disease 
Control and Prevention (CDC)--funding for this field remained 
relatively constant from fiscal year 2003--2008 and did not kept pace 
with inflation. In stark contrast, spending on healthcare overall has 
risen faster than the rate of inflation--from $1.4 trillion in 2000 to 
nearly $2.2 trillion in 2007. The total Federal investment in health 
services research and data by our estimates approaches $1.7 billion in 
fiscal year 2008--representing just 0.074 percent of the $2.2 trillion 
we spend on healthcare annually.
    The Coalition for Health Services Research greatly appreciates the 
subcommittee's recent efforts to increase the Federal investment in 
health services research and comparative effectiveness research through 
the fiscal year 2009 Omnibus Appropriations Act and the American 
Recovery and Reinvestment Act of 2009. This funding provides a new high 
watermark for the field and represents the largest single funding 
increase health services research has experienced. With comprehensive 
health reform on the horizon, we ask that the subcommittee continue to 
strengthen the capacity of the health services research field to 
address the pressing challenges America faces in providing access to 
high-quality, cost-effective care for all its citizens.

                                  AHRQ

    AHRQ is the lead Federal agency charged with supporting unbiased, 
scientific research to improve healthcare quality, reduce costs, 
advance patient safety, decrease medical errors, and broaden access to 
essential services. Steady, incremental increases for AHRQ's Effective 
Health Care Program in recent years, as well as the $300 million 
provided to AHRQ in the American Recovery and Reinvestment Act as a 
down payment on health reform will help AHRQ generate more comparative 
effectiveness research and expand the infrastructure needed to increase 
capacity to produce this evidence. However, funding for AHRQ's broader 
health services research portfolio on health disparities, healthcare 
financing and organization, and access and coverage has languished as 
funding for AHRQ's base has remained relatively flat. Future 
investments should bolster these other important research topics to 
balance the recent investments in comparative effectiveness research. 
Comparative effectiveness research alone will not solve our health 
system challenges; the full spectrum of health services research on 
healthcare costs, quality, and access will be needed to support broader 
health reform efforts.
    In fiscal year 2009, Congress provided AHRQ $13 million to reverse 
a decline in the number of, and funding for, grants that support 
researcher innovation and career development. AHRQ is using this 
funding for investigator initiated research grants to rejuvenate the 
free marketplace of ideas through the agency's new Innovations Research 
Portfolio. We request that Congress provide additional funding to 
sustain and expand investigator initiated grants in fiscal year 2010.
    The Coalition remains concerned about AHRQ's limited investment in 
training grants for young researchers, which hit new lows in fiscal 
year 2009--just 40 awards totaling $5 million--down from nearly double 
that amount just 2 years ago. The Coalition requests that Congress will 
provide AHRQ more funding in fiscal year 2010 for training grants to 
ensure the field's capacity to respond to the growing public and 
private sector demand for health services research.
    While targeted funding increases in recent years have moved AHRQ in 
the right direction, more core funding is needed to help AHRQ fulfill 
its mission. We join the Friends of AHRQ--a coalition of more than 250 
health professional, research, consumer, and employer organizations 
that support the agency--in recommending a fiscal year 2009 base 
funding level of at least $405 million, an increase of $32 million more 
than the fiscal year 2009 level. This investment will allow AHRQ to 
restore its critical healthcare safety, quality, and efficiency 
initiatives; strengthen the infrastructure of the research field; and 
reignite innovation and discovery.

                                  CDC

    Housed within CDC, the National Center for Health Statistics (NCHS) 
is the Nation's principal health statistics agency, providing critical 
data on all aspects of our healthcare system. Thanks to NCHS, we know 
that too many Americans are overweight and obese, cancer deaths have 
decreased, average life expectancy has increased, and emergency rooms 
are overcrowded. We also know how many people are uninsured, how many 
children are immunized, how many Americans are living with HIV/AIDS, 
and how many teens give birth.
    Despite recent funding increases secured through your leadership, 
NCHS continues to feel the effects of long-term underinvestment, 
forcing the agency to eliminate or further postpone the collection of 
such vital information to the point where key data users now question 
whether NCHS itself is in good health. Years of flat funding and budget 
shortfalls forced the elimination of data collection and quality 
control efforts, threaten the collection of vital statistics, stymied 
the adoption of electronic systems, and limited the agency's ability to 
modernize surveys to reflect changes in demography, geography, and 
health delivery.
    The Coalition joins the Friends of NCHS--a coalition of more than 
250 health professional, research, consumer, industry, and employer 
organizations that support the agency--in recommending a base funding 
level of $137.5 million in fiscal year 2010 to ensure uninterrupted 
collection of vital statistics; restore other important data collection 
and analysis initiatives; to revise, pretest, and plan data collection 
activities for future calendar years, and modernize its systems to 
increase efficiency, interoperability, and security. In addition, we 
respectfully request that you provide NCHS $15 million in one-time 
funding to support the States and territories as they implement the 
2003 birth certificates and electronic systems to collect birth data in 
real-time to facilitate public health monitoring and planning. Future 
supplemental funding will be required to implement the 2003 death 
certificates in all States and complete the automation of data 
collection. The Coalition greatly appreciates that through your 
leadership early versions of the American Recovery and Reinvestment Act 
in the House and Senate included $40 million for this infrastructure 
development; we were disappointed that it had to be eliminated from the 
final package.
    While significant funding has been provided to improve the public 
health system's capacity to respond to a terrorist attack or a public 
health crisis such as pandemic flu, insufficient funding has been 
provided to support research that evaluates the effectiveness of our 
preparedness interventions and seeks to improve the delivery of public 
health services. For example, how cost effective are public health and 
prevention programs? How can the medical care and public health 
delivery systems be better linked? CDC's important Public Health 
Research program and Prevention Research Centers-a network of academic 
health centers that conduct public health research-have been flat 
funded since fiscal year 2006 at levels of $31 million and $29 million, 
respectively. The Coalition requests at least $35 million for Public 
Health Research and at least $33 million for Prevention Research 
Centers in fiscal year 2010. The programs seek ways to development, 
translate, and disseminate research to address obesity, diabetes, and 
heart disease, healthy aging and youth development, cancer risk, and 
health disparities.

            CENTERS FOR MEDICARE AND MEDICAID SERVICES (CMS)

    Steady funding decreases for the Office of Research, Development 
and Information, together with an increasingly earmarked budget, has 
hindered CMS' ability to meet its statutory requirements and conduct 
new research to strengthen our public insurance programs--including 
Medicare, Medicaid, and SCHIP--which together provide coverage to 
nearly 100 million Americans and comprise 45 percent of America's total 
health expenditures. At a time when these programs pose significant 
budget challenges for both the Federal and State governments, it is 
critical that we adequately fund research to evaluate these programs' 
efficiency and effectiveness, and seek ways to manage their projected 
spending growth.
    The Coalition supports increasing CMS's discretionary research and 
development budget from $31 million in fiscal year 2009 to a base 
fiscal year 2010 funding level of $45 million--in addition to funding 
for programmatic earmarks--as a critical down payment to help CMS 
recover lost resources and restore research to evaluate their programs, 
analyze pay for performance and other tools to update payment 
methodologies, and to further refine service delivery methods.

                                  NIH

    The NIH reported that it spent $743 million on health services 
research in fiscal year 2008--roughly 2.9 percent of its entire 
budget--making it the largest Federal sponsor of health services 
research. For fiscal year 2010, the Coalition recommends a health 
services research base funding level of at least $940 million--2.9 
percent of the $32 billion the broader health community is seeking for 
NIH in fiscal year 2010. We encourage NIH to increase the proportion of 
their overall funding that goes to health services research from 2.9 to 
5 percent to assure that discoveries from clinical trials are 
effectively translated into health services. We also encourage NIH to 
foster greater coordination of its health services research investment 
across its Institutes.
    In conclusion, the accomplishments of health services research 
would not be possible without the leadership and support of this 
subcommittee. As you know, the best healthcare decisions are based on 
relevant data and scientific evidence. At a time when you, your 
congressional colleagues, and members of the new administration are 
considering major health reform including ways to get more value for 
current expenditures, health services research and health data are 
needed more than ever to yield better information and lead to improved 
quality, accessibility, and affordability. We urge the subcommittee to 
accept our fiscal year 2010 funding recommendations for the Federal 
agencies funding health services research and health data.
                                 ______
                                 
     Prepared Statement of the Coalition of Northeastern Governors

    The Coalition of Northeastern Governors (CONEG) is pleased to 
submit this testimony for the record to the Senate Subcommittee on 
Labor, Health and Human Services, and Education, and Related Agencies 
regarding fiscal year 2010 appropriations for the Low Income Home 
Energy Assistance Program (LIHEAP).
    The governors appreciate the subcommittee's continued support for 
the LIHEAP program, and we thank you for providing the full authorized 
amount of $5.1 billion in fiscal year 2009 LIHEAP funding. The 
governors recognize the considerable fiscal challenges facing the 
subcommittee this year. However, we urge you to maintain the $5.1 
billion level in regular fiscal year 2010 LIHEAP block grant funding as 
well as contingency funds to address unforeseen energy emergencies.
    LIHEAP is a vital safety net for millions of vulnerable low-income 
households--the elderly and disabled living on fixed incomes, the 
working poor, and families with young children. The highest level of 
LIHEAP assistance is provided to households with the lowest incomes 
that pay a high proportion of their income (up to 17 percent) for home 
energy. A December 2007 study by the Oak Ridge National Laboratory 
found that, in recent years, the increase in the cost of home energy 
has far outpaced the rate of inflation and the increase in household 
income. Even with continued belt-tightening, there is just no room in 
the budget of these low-income households to pay for increasing energy 
bills.
    The current economic crisis exerts additional pressures on these 
households, making energy assistance more important now than ever 
before. In 2007, even before the current recession took hold, 8.7 
million residential consumers had their electricity or natural gas 
service terminated for failing to pay their bills, according to a 
survey by the National Association of Regulatory Utility Commissioners 
(December 2008). The same survey found at the end of the 2007-2008 
winter heating season, the number of electricity and natural gas 
residential households with past due accounts had jumped to almost 40 
million consumers, and represented nearly $8.7 billion in past due 
accounts.
    According to the National Energy Assistance Directors' Association, 
the $5.1 billion in fiscal year 2009 LIHEAP funding makes it possible 
for States to serve approximately 7.3 million households this year. 
This record number represents a 25 percent increase more than last year 
and reflects the increased unemployment rate and rise in home energy 
costs. Yet this is only a small portion of the LIHEAP-eligible 
households in today's economy.
    If the $5.1 billion level of LIHEAP funding is not sustained in 
fiscal year 2010, States nationwide will be forced to eliminate more 
than 1.5 million families from the program in order to maintain some of 
the purchasing power of the LIHEAP grant for the program's poorest 
families, or to reduce benefit levels overall. States in the Northeast 
already incorporate various administrative strategies that allow them 
to deliver maximum program dollars to households in need. These include 
using uniform application forms to determine program eligibility, 
establishing a one-stop shopping approach for the delivery of LIHEAP 
and related programs, sharing administrative costs with other programs, 
and using mail recertification. Opportunities to further reduce LIHEAP 
administrative costs are limited, since they are already among the 
lowest of the human service programs.
    In spite of these State efforts to stretch Federal and State LIHEAP 
dollars, the need for the program is far too great. Increased, 
predictable and timely Federal funding is vital for LIHEAP to assist 
the Nation's vulnerable, low-income households faced with exorbitant 
home energy bills. The CONEG governors urge the Subcommittee to provide 
$5.1 billion in regular block grant funding for LIHEAP in fiscal year 
2010 as well as contingency funds to address unforeseen energy 
emergencies. This sustained level of funding will help States to 
provide meaningful assistance to households in need as millions of low-
income citizen's struggle with simply unaffordable home energy bills. 
LIHEAP can continue to provide a vital safety net protecting these 
vulnerable households from the potentially deadly heat and cold.
                                 ______
                                 
       Prepared Statement of the Council on Social Work Education

    On behalf of the Council on Social Work Education (CSWE), I am 
pleased to offer this written testimony to the Senate Appropriations 
Subcommittee on Labor, Health and Human Services, and Education, and 
Related Agencies for inclusion in the official subcommittee record. I 
will focus my testimony on the importance of fostering a skilled, 
sustainable and diverse social work workforce through training and 
financial support programs at the Department of Health and Human 
Services and the Department of Education.
    CSWE is a nonprofit national association representing more than 
3,000 individual members as well as 650 graduate and undergraduate 
programs of professional social work education. Founded in 1952, this 
partnership of educational and professional institutions, social 
welfare agencies, and private citizens is recognized by the Council for 
Higher Education Accreditation as the sole accrediting agency for 
social work education in the United States. Social work education 
focuses students on leadership and direct practice roles helping 
individuals, families, groups, and communities by creating new 
opportunities that empower people to be productive, contributing 
members of their communities.
    Vulnerable populations from all walks of life--defined here as 
children and adults with physical or mental disabilities, those living 
in poverty, trauma victims, aging individuals, returning veterans, 
individuals under stress or facing coping challenges both temporary and 
permanent, and segments of society needing assistance to adjust to 
changing circumstances or overcome injustices--are faced with hurdles 
which for some cannot be overcome alone. Social workers help vulnerable 
populations in society be as healthy and productive as possible by 
working with them to navigate societal and personal challenges. Social 
workers are employed in schools, hospitals, VA facilities, 
rehabilitation centers, social service locations, child welfare 
organizations, assisted living centers, nursing homes, and faith-based 
organizations.

     TRAINING OPPORTUNITIES AND DEBT LOAD RELIEF FOR SOCIAL WORKERS

    Recruitment and retention pose the most significant challenge to 
the success of the social work profession. This is true across all 
sectors (public and private), at all levels (from BSW to the doctoral 
level), and in all fields of practice (child welfare, public health, 
mental health, geriatrics, veterans, etc.).
    The Nation needs a workforce that is skilled, diverse, and able to 
keep pace with demand. In 2004, the Bureau of Labor Statistics (BLS) 
reported that by 2012 a total of 209,000 social workers will be needed 
in the fields of child, family, and school social work; medical and 
public health social work; and mental health and substance abuse social 
work. In 2006, the BLS estimated there would be a total of 258,000 job 
openings for social workers due to growth and net replacement between 
2006 and 2016 in the same fields.
    While recruitment and retention can be a significant challenge for 
many professions, especially those dealing with public health and the 
delivery of social services, the problem is exceptionally widespread 
for social work. Recruitment into the social work profession faces many 
obstacles, the most prevalent being low wages.
    As we look toward reforming the American healthcare system, we must 
consider the needs of the workforce that will be responsible for 
ensuring the health of the population. The recommendations for fiscal 
year 2010 would help to ensure that we are fostering a sustainable, 
skilled, and diverse workforce that will be able to keep up with the 
increasing demand.

             DEPARTMENT OF HEALTH AND HUMAN SERVICES (HHS)

    The various agencies within the HHS provide training and fellowship 
opportunities for social workers, as well as loan forgiveness programs 
to help social workers stay in the field. CSWE urges the subcommittee's 
support of the following HHS programs; this is not an exhaustive list:
    Minority Fellowship Program, Substance Abuse and Mental Health 
Services Administration (SAMHSA).--The goal of the SAMHSA Minority 
Fellowship Program (MFP), which is administered through the Center for 
Mental Health Services, is to achieve greater numbers of minority 
doctoral students preparing for leadership roles in the mental health 
and substance abuse field. According to SAMHSA, ``Minorities make up 
approximately one-fourth of the population, but only about 10 percent 
of mental health providers are ethnic minorities.'' CSWE has been a 
grantee of this critical program for years, administering funds to 
exceptional minority social work students. Together with a program at 
the National Institute of Mental Health (NIMH), CSWE has supported more 
than 500 minority fellows since the program's inception, with about 
two-thirds of those students having gone on to receive their doctoral 
degrees. For fiscal year 2010, CSWE urges the subcommittee to fund the 
SAMHSA Minority Fellowship Program at $7.5 million. This program has 
suffered from flat and declining budgets over the last several years. 
Thankfully, due to congressional support, it has been restored year 
after year, despite efforts by the Bush administration to cancel it. 
President Obama's fiscal year 2010 budget request includes level 
funding for the MFP at about $4 million. Funding the MFP at $7.5 
million would directly encourage more social workers of minority 
background to pursue doctoral degrees in mental health and substance 
abuse and will turnout minority mental health professionals equipped to 
provide culturally competent, accessible mental health and substance 
abuse services to diverse populations.
    Institutional Research Training Program in Social Work (T32), 
NIMH.--NIMH within the National Institutes of Health (NIH) initiated a 
training program in the 1970s that sought to increase the number of 
minority doctoral students focusing their research in mental health. 
Like the SAMHSA program mentioned above, CSWE has ably administered a 
grant from NIMH for many years, which provides mentored training 
opportunities to minority social work researchers. The social work 
profession depends on culturally competent and culturally relevant 
research to assess the circumstances facing vulnerable populations and 
the needs of those populations to succeed in their circumstances; 
evaluate the accessibility to and effectiveness of existing social 
services; and determine best practices for social work educators and 
practitioners for serving the community. While this program has been 
successful in enhancing diversity among social workers conducting 
mental health research and has allowed more underrepresented social 
work researchers to be brought into the fold as NIH investigators, NIMH 
recently announced its plan to cancel the program in 2010 and 
transition the funds to support the traditional, nondiversity-focused 
T32 training program at NIMH. CSWE is very concerned about the 
implications of this decision, both on the diversity of researchers at 
NIMH and what we feel could lead to an absence of social work research 
at NIMH. We hope the subcommittee will encourage NIMH to take the 
necessary steps to enhance diversity of the NIH/NIMH grant pool and 
express to NIMH the value and importance of social work research to the 
study of mental health.
    Title VII Health Professions Programs, Health Resources and 
Services Administration (HRSA).--The title VII health professions 
programs at HRSA provide financial support for education and 
development of the healthcare workforce. The emphasis of these programs 
is on improving the quality, diversity, and geographic distribution of 
the health professions workforce, and is currently the only Federal 
program to do so. These programs provide loans, loan guarantees and 
scholarships to students and grants to institutions of higher education 
and nonprofit organizations to help build and maintain a robust 
healthcare workforce. Social work students and practioners are eligible 
for title VII funding. We thank you for recognizing the value of these 
programs by providing $200 million in stimulus funding to the title VII 
and title VIII (nursing) programs in the American Recovery and 
Reinvestment Act of 2009 (Public Law 111-5). CSWE urges the 
subcommittee to provide $330 million for the title VII health 
professions programs for fiscal year 2010.
    Loan Repayment Program, Indian Health Service (IHS).--The Loan 
Repayment Program at IHS offers repayment of health professions 
educational loans in exchange for a commitment to work at an IHS or 
other Indian health program priority site for a minimum of 2 years. 
Social workers are eligible to participate in this program, as defined 
in section 4(n) of the Indian Health Care Improvement Act (Public Law 
94-437). With appropriate funding, this program can serve as an 
effective recruitment tool. However, the program has been grossly 
underfunded for a number of years. For example, last year IHS denied 
funding to 231 healthcare professionals already working in IHS as well 
as 95 recruits, due to a lack of resources. CSWE, a member of the 
Friends of Indian Health Coalition, urges the subcommittee to provide 
an additional $18.5 million above fiscal year 2009 funding for the IHS 
Loan Repayment Program for fiscal year 2010 in order to address the 
critical recruitment needs of the agency.

                        DEPARTMENT OF EDUCATION

    The last few years have seen the creation of a number of loan 
forgiveness and training programs for which social work would benefit, 
if adequately funded. CSWE urges the subcommittee to support the 
following programs at the Department of Education:
    Graduate Assistance in Areas of National Need (GAANN) Program.--The 
GAANN program provides graduate traineeships in critical fields of 
study. Currently, social work is not defined as an area of national 
need for this program; however it was recognized by Congress as an area 
of national need in the Higher Education Opportunity Act of 2008 as 
discussed below. We are hopeful that the Department of Education will 
recognize the importance of including social work in the GAANN program 
in future years. Inclusion of social work would help to significantly 
enhance graduate education in social work, which is critically needed 
in the country's efforts to foster a sustainable health professions 
workforce. CSWE supports a budget of at least $41 million for GAANN in 
fiscal year 2010. However, if social work were to be added by the 
Department as a new area of national need, additional resources would 
need to be provided so as not to take funding away from the already 
determined areas of national need.
    Loan Forgiveness for Service in Areas of National Need Program.--
The Higher Education Opportunity Act of 2008 (Public Law 110-315) 
created the Loan Forgiveness for Service in Areas of National Need 
program. This program applies to full-time workers who are employed in 
areas of national need, such as social workers working in public or 
private child welfare agencies or mental health professionals with at 
least a master's degree in social work. CSWE urges full funding for 
this new program for fiscal year 2010.
    In addition to these discretionary programs, a number of mandatory 
programs were created in the College Cost Reduction Act of 2007 (Public 
Law 110-84). We look forward to working with the Department of 
Education as these programs are implemented. Among the programs that 
include social work education are:
    Income-based Repayment (IBR)Program.--IBR program will begin 
operation in July 2009. This new program caps Federal student loan 
payments at a reasonable percentage of income and cancels most 
remaining balances of student loans after 25 years. CSWE will be 
monitoring the implementation of this new program to assess the extent 
to which it is assisting social workers address their debt load 
reduction needs.
    Income Contingent Payment for Public Sector Employment Program 
(Public Service Loan Forgiveness).--The College Cost Reduction Act of 
2007 revised the Income Contingent Payment for Public Sector Employment 
program, which previously allowed a borrower who works in public 
service to pay their loans more than 25 years after which their debt 
would be forgiven. The law now states that public service workers 
working for an eligible nonprofit can cancel their loans after 10 years 
of service for loans taken out after October 1, 2007. Like the IBR 
program, CSWE plans to monitor the implementation of this program to 
assess its success in assisting social workers address high educational 
debt load.
    We hope the subcommittee will take these points into consideration 
as you move forward in the fiscal year 2010 appropriations process.
                                 ______
                                 
            Prepared Statement of Central Technical Services

            SUMMARY OF RECOMMENDATIONS FOR FISCAL YEAR 2010

    Continue the Commitment to Providing the National Institutes of 
Health (NIH) and the National Library of Medicine (NLM) with meaningful 
funding increases on an annual basis. Continue to support and defend 
the NIH's public access policy, which requires that all final, peer-
reviewed manuscripts are made available through NLM's pubmed central 
database within 12 months of publication. Continue to support the 
medical library community's important role in NLM's outreach, 
telemedicine, disaster preparedness and health information technology 
(health IT) initiatives.
    On behalf of the Medical Library Association (MLA) and the 
Association of Academic Health Sciences Libraries (AAHSL), thank you 
for the opportunity to present testimony regarding fiscal year 2010 
appropriations for the NLM.
    MLA is a nonprofit, educational organization with more than 4,000 
health sciences information professional members worldwide. Founded in 
1898, MLA provides lifelong educational opportunities, supports a 
knowledge base of health information research, and works with a global 
network of partners to promote the importance of quality information 
for improved health to the healthcare community and the public.
    AAHSL is comprised of the directors of the libraries of 142 
accredited American and Canadian medical schools belonging to the 
Association of American Medical Colleges. AAHSL's goals are to promote 
excellence in academic health sciences libraries and to ensure that the 
next generation of health professionals is trained in information-
seeking skills that enhance the quality of healthcare delivery.
    Together, MLA and AAHSL address health information issues and 
legislative matters of importance through a joint legislative task 
force and a Government Relations Committee.

           THE IMPORTANCE OF ANNUAL FUNDING INCREASES FOR NLM

    I thank the subcommittee for its leadership and hard work on the 
American Recovery and Reinvestment Act of 2009 (Public Law 111-5), the 
economic stimulus package. As you know, the important mission of NIH 
and the important role that NLM plays in fulfilling that mission were 
hampered by past-years of near level funding. The investment in NIH and 
NLM provided by the stimulus package will not only create meaningful 
employment opportunities, it will also revitalize NLM's programs, which 
are focused on improving the public health.
    We are pleased that the recently passed fiscal year 2009 omnibus 
appropriations package contains funding increases for NIH and NLM that 
will bolster their baseline budgets. We hope that this funding is an 
indication of the subcommittee's intention to provide annual, 
meaningful increases for NIH and NLM in the coming years.
    I am confident that the recovery funding and the fiscal year 2009 
budget increases will stimulate the economy, stimulate biomedical 
research, and in the case of NLM, improve the dissemination of health 
information to researchers, practitioners, and the general public. 
Moving forward, it will be critical to provide NIH's baseline budget 
with the funding increases necessary to allow the short-term growth 
generated by the stimulus to become a long-term investment towards 
improved public health through bolstered health information programs.
Building and Facility Needs
    NLM has had tremendous growth in its basic functions related to the 
acquisition, organization, and preservation of an ever-expanding 
collection of biomedical literature. It also has been assigned a 
growing set of set of responsibilities related to the collection, 
management, and dissemination genomic information, clinical trials 
information, and disaster preparedness and response. As a result, NLM 
faces a serious shortage of space, for staff, library materials, and 
information systems. Digital archiving--once thought to be a solution 
to the problem of housing physical collections--has only added to the 
challenge, as materials must often be stored in multiple formats 
(physical and digital) and as new digital resources demand increasing 
amounts of storage space. As a result, the space needed for computing 
facilities has also grown. In order for NLM to continue its mission as 
the world's premier biomedical library, a new facility is urgently 
needed. The NLM Board of Regents has assigned the highest priority to 
supporting the acquisition of a new facility. Further, Senate Report 
108-345 that accompanied the fiscal year 2005 appropriations bill 
acknowledged that the design for the new research facility at NLM had 
been completed, and the subcommittee urged NIH to assign a high 
priority to this construction project so that the information-handling 
capabilities and biomedical research are not jeopardized.
The Growing Demand for NLM's Basic Services
    As the world's foremost digital library and knowledge repository in 
the health sciences, NLM provides the critical infrastructure in the 
form of data repositories and integrated services such as GenBank and 
PubMed that are helping to revolutionize medicine and advance science 
to the next important era--individualized medicine based on an 
individual's unique genetic differences.
    NLM's clinical trials database, ClinicalTrials.gov, which was 
launched in February 2000 and lists registration information on more 
than 70,000 U.S. and international trials for a wide range of diseases, 
also now serves as a repository for summary results information. The 
expanded system serves not only as a free, but invaluable resource for 
patients and families who are interested in participating in trials of 
new treatments for a wide range of diseases and conditions, but also as 
an important source of information for clinicians interested in 
understanding new treatments and for those involved in evidence-based 
medicine and comparative effectiveness research.
    As the world's largest and most comprehensive medical library, 
services based on NLM's traditional and electronic collections continue 
to steadily increase each year.
    These collections stand at more than 11.4 million items--books, 
journals, technical reports, manuscripts, microfilms, photographs, and 
images. By selecting, organizing and ensuring permanent access to 
health science information in all formats, NLM is ensuring the 
availability of this information for future generations, making it 
accessible to all Americans, irrespective of geography or ability to 
pay, and ensuring that each citizen can make the best, most-informed 
decisions about their healthcare. Without NLM our Nation's medical 
libraries would be unable to provide the quality information services 
that our Nation's health professionals, educators, researchers, and 
patients have all come to expect.

                          DEFEND PUBLIC ACCESS

    The Appropriations Committee has shown unprecedented foresight and 
leadership by using the annual spending bills as the vehicle to 
establish a public access policy at the NIH. The current policy 
requires that all NIH-funded researchers deposit their final, peer-
reviewed manuscripts in NLM's PubMed Central database within 12 months 
of publication. This policy will not only help NIH better manage its 
portfolio of research, but will contribute to the development of a 
biomedical informatics infrastructure that will stimulate further 
discovery by enabling a much greater and tighter interlinking of 
information from NLM's wide-ranging set of databases. It also 
contributes to outreach initiatives by providing much-needed access to 
health literature to those without direct access to medical libraries. 
While the fiscal year 2009 omnibus package made this policy permanent 
moving forward, challenges remain and we urge the subcommittee to 
continue to defend this policy.

    SUPPORT AND ENCOURAGE NLM PARTNERSHIPS WITH THE MEDICAL LIBRARY 
                               COMMUNITY

Outreach and Education
    NLM's outreach programs are of particular interest to both MLA and 
AAHSL. These activities are designed to educate medical librarians, 
health professionals and the general public about NLM's services. NLM 
has taken a leadership role in promoting educational outreach aimed at 
public libraries, secondary schools, senior centers and other consumer-
based settings. Furthermore, NLM's emphasis on outreach to underserved 
populations assists the effort to reduce health disparities among large 
sections of the American public. One example of NLM's leadership is the 
``Partners in Information Access'' program, which is designed to 
improve the access of local public health officials to information 
needed to prevent, identify and respond to public health threats. With 
nearly 6,000 members in communities across the country, the National 
Network of Libraries of Medicine (NNLM) is well-positioned to ensure 
that every public health worker has electronic health information 
services that can protect the public's health.
    With help from Congress, NLM, NIH and the Friends of NLM, launched 
NIH MedlinePlus Magazine in September 2006. This quarterly publication 
is distributed in doctors' waiting rooms, and provides the public with 
access to high-quality, easily understood health information. 
Collaborating with the National Alliance for Hispanic Health, a Spanish 
version is now available, NIH MedlinePlus Salud. NLM also continues to 
work with medical librarians and health professionals to encourage 
doctors to provide MedlinePlus ``information prescriptions'' to their 
patients. This initiative also encourages genetics counselors to 
prescribe the use of NLM's Genetic Home Reference Web site.
    ``Go Local'' is another exciting service that engages health 
sciences libraries and other local and State agencies in the creation 
of Web sites that link from MedlinePlus to relevant information on 
local pharmacies, hospitals, doctors, nursing homes, and other health 
and social services. In Iowa, for example, University of Iowa 
librarians developed an Iowa Go Local site that enables users to find 
local health resources by Iowa county or city. It allows Iowa citizens 
to link directly from a MedlinePlus health topic, for example asthma, 
to local services, such as clinics, pulmonary specialists, and support 
groups in the geographic area selected. By collecting such information 
in one place, Go Local also provides a platform for enhancing access to 
the information needed to prepare for and respond to disasters and 
emergencies.
    MLA and AAHSL applaud the success of NLM's outreach initiatives, 
particularly those initiatives that reach out to medical libraries and 
health consumers. We ask the subcommittee to encourage NLM to continue 
to coordinate its outreach activities with the medical library 
community in fiscal year 2010.

                  EMERGENCY PREPAREDNESS AND RESPONSE

    MLA and AAHSL are pleased that NLM has established a Disaster 
Information Management Research Center to expand NLM's capacity to 
support disaster response and management initiatives, as recommended in 
the NLM Board of Regents Long Range Plan for 2006-2016. We ask the 
subcommittee to show its support for this initiative, which has a major 
objective of ensuring continuous access to health information and 
effective use of libraries and librarians when disasters occur. 
Following Hurricane Katrina, for example, NLM worked with health 
sciences libraries across the country to provide health professionals 
and the public with access to needed health and environmental 
information by: (1) quickly compiling web pages on toxic chemicals and 
environmental concerns; (2) rapidly providing funds, computers and 
communication services to assist librarians in the field who were 
restoring health information services to displaced clinicians and 
patients; and (3) rerouting interlibrary loan requests from the 
afflicted regions through the NNLM. Presently, libraries are a 
significant, but underutilized resource for community disaster planning 
and management efforts, which NLM can help to deploy. With assistance 
from its NNLM, NLM is working with health sciences libraries to develop 
continuity of operations and backup plans and is exploring the role 
that specially trained librarians--disaster information specialists--
can play in providing information services to emergency personnel 
during a crisis. MLA and AAHSL see a clear role for NLM and the NNLM in 
the Nation's disaster preparedness and response activities.

                      HEALTH IT AND BIOINFORMATICS

    NLM has played a pivotal role in creating and nurturing the field 
of biomedical informatics. Not only has NLM developed key biomedical 
databases, but for nearly 35 years, NLM has supported informatics 
research and training and the application of advanced computing and 
informatics to biomedical research and healthcare delivery including a 
variety of telemedicine projects. Many of today's informatics leaders 
are graduates of NLM-funded informatics research programs at 
universities across the country. Many of the country's exemplary 
electronic health record systems benefited from NLM grant support.
    A leader in supporting, licensing, developing, and disseminating 
standard clinical terminologies for free U.S.-wide use (e.g., SNOMED), 
NLM works closely with the Office of the National Coordinator for 
Health Information Technology (ONCHIT) to promote the adoption of 
interoperable electronic records.
    MLA and AAHSL encourage the subcommittee to continue its strong 
support of NLM's medical informatics and genomic science initiatives, 
at a point when the linking of clinical and genetic data holds 
increasing promise for enhancing the diagnosis and treatment of 
disease. MLA and AAHSL also support health information technology 
initiatives in ONCHIT and the Agency for Healthcare Research and 
Quality that build upon initiatives housed at NLM.
                                 ______
                                 
             Prepared Statement of the Close Up Foundation

    Mr. Chairman, my name is Timothy S. Davis, President and CEO of the 
Close Up Foundation and I submit this testimony in support of our $5 
million appropriations request for the Close Up Fellowship Program.
    Close Up Foundation is a nonprofit, nonpartisan civic education 
organization dedicated to the idea that, within a democracy, informed, 
active citizens are essential to a responsive Government. Close Up's 
mission is to inform, inspire, and empower students and their teachers 
to exercise their rights and accept the responsibilities of citizens in 
a democracy. Close Up's experiential methodology emphasizes that 
democracy is not a spectator sport, and provides young people with the 
knowledge and skills to participate in the democratic process. Our 
students are a diverse group--coming from every State and beyond and 
from all walks of life. More than 650,000 have graduated from our 
experiential programs.
    Three core principles of Close Up are: (1) family income should not 
be a barrier to a students' participation, (2) commitment to 
diversity--outreach should reach a broad cross section of young people, 
and (3) enrollment should be open to all students, not just student 
leaders or high academic achievers.
    The Close Up Fellowship Program provides financial assistance to 
economically disadvantaged students and their teachers to participate 
on week-long Close Up Washington civic education programs. The 
Fellowship Program, authorized in Federal law since 1972 and currently 
authorized under section 1504 of the No Child Left Behind Act, has been 
continuously funded by a Congressional appropriation, through a U.S. 
Department of Education grant, for more than 35 years. Close Up makes 
every effort to ensure the participation of students from rural, small 
town, and urban areas and gives special consideration to students with 
special educational needs, including students with disabilities, ethnic 
minority students, and students with migrant parents. Student 
fellowships recipients are selected by their schools and must qualify 
according to the income eligibility guidelines.
    As in most years, funding for the Close Up Fellowship Program was 
not included in the President's budget submitted to Congress. Close Up 
respectfully requests that Congress again include funding for this 
important program through the appropriations process. I also wish to 
address some of the arguments made by the administration for 
eliminating the Close Up Fellowship Program.
    The administration's claim that peer organizations of Close Up 
provide scholarships to participants without Federal assistance is 
misleading. The average family income of a Close Up Fellowship 
recipient is approximately $24,000. To the extent that other nonprofit 
civic education organizations claim to provide scholarships, they 
usually are provided only to high academic achievers and certainly not 
on the scale and volume provided by Close Up. None of these 
organizations reach the numbers of economically disadvantaged students 
and teachers from under-resourced schools as Close Up does. Twenty-five 
percent of Close Up participants each year receive fellowship support 
provided through a mix of Federal funds and contributions raised from 
private sources by the Close Up Foundation.
    Close Up is also concerned with the administration's statement that 
our private fundraising efforts would allow our civic education program 
to continue. The statement misses the point. The result of elimination 
of the Close Up Fellowship Program would immediately deny participation 
to deserving and diverse students who, but for the fellowship program, 
would be unable to attend. In turn, this would make Close Up's student 
composition dramatically less diverse. While Federal funding represents 
a small portion of Close Up's revenue, it is a critical portion of our 
funding that permits us to reach as many economically disadvantaged 
students as we do.
    Finally, the administration wrongly asserted that it had minimal 
evidence that Close Up had a positive impact on the participating 
students and teachers. Close Up measures impact in four principle ways:
    Qualitative Data (some of our findings include):
    --97 percent of teachers said the program helped their students 
            understand the role of a citizen in a democracy; 94 percent 
            of students agreed.
    --94 percent of teachers said the program helped their students 
            understand current policy issues facing the United States; 
            94 percent of students agreed.
    --91 percent of teachers said the program complements what they 
            teach in school.
    --95 percent of students said the program helped them understand 
            that other students have views other than their own.
    --78 percent of students said that the program inspired them to 
            become more involved in activities in civic activities when 
            they return home.
    Qualitatively Data:
    --Close Up conducts weekly focus groups with students and teachers 
            about their program experience and its impact on their 
            lives.
    --Close Up assembles anecdotal information from teachers regarding 
            the performance of their students and their community 
            action projects.
    College Credit:
    --The University of Virginia and the University of Indiana, after a 
            comprehensive evaluation of the academic value of the Close 
            Up civic education programs, grant the opportunity for 
            Close Up participants to receive undergraduate credit 
            (students) and graduate credit (teachers), respectively.
    Local Support:
    --Thousands of schools organize and fundraise each year to send 
            their young people on a Close Up program. Approximately 
            18,000 students and teachers participate annually.
    --Local education officials have concluded that Close Up is of such 
            value as to permit students and teachers to sacrifice a 
            week of school and absence from all of their classes to 
            participate.
    --Many school systems contribute scarce budget dollars to help 
            students attend while most others provide resources for 
            substitute teachers.
    Close Up Fellowship recipients add diversity to the student body on 
Close Up programs. The fellowship program thus benefits not only the 
recipient but all Close Up student program participants.
    Close Up is grateful to the United States Congress for its long-
standing support of the Close Up Fellowship Program through the 
appropriations process. Tens of thousands of young people have been 
able to participate on Close Up Washington civic education programs as 
a result of the Federal funding.
    Close Up's fiscal year 2010 request is based on its desire to 
significantly increase the number of economically disadvantaged young 
people who participate on Close Up Washington civic education programs. 
The funds, which assist the disadvantaged and provide seed money for 
at-risk schools and communities to participate on these life 
transforming programs, are more important now than ever. Given the 
current economic climate, it will be more challenging for communities 
to raise the necessary funds for participation on Close Up programs. 
The Federal funding bridges that gap and Close Up feels that with 
aggressive outreach into economically distressed communities we can 
continue to provide these experiences to our young people.
    Close Up's appropriations request reflects the increasing cost of 
providing these important Washington programs. The cost of airfare, 
accommodations, food and local transportation skyrocketed during the 
decade that Close Up Fellowship funding remained flat at just under 
$1.5 million. The increase in the appropriations amount to $1.942 
million in fiscal year 2008 has helped combat a small portion of those 
increased costs but still results in a sharp decrease in the number of 
economically disadvantaged students that Close Up has been able to 
serve. We believe that during hard economic times it is even more 
imperative for the Federal Government to invest in the civic education 
of young people. And, by investing in a Close Up education, the 
Government also supports the suffering transportation and hospitality 
economic sectors.
    Senators have the opportunity to meet with Close Up groups from 
their States during Close Up ``Capitol Hill Day''. They see the 
excitement and pride as our students gain the confidence to express 
their views on the public policy issues that most directly affect their 
lives. Through workshops, seminars and the experience of being in 
Washington, Close Up instills these students with the knowledge and 
skills to become active citizens in our democracy.
    Many of your constituents would not be able to participate in this 
life altering program without the benefit of the Close Up Fellowship 
Program. There is no better investment that we can make in our Nation's 
future than building educated and responsible citizens, one person at a 
time.
    Close Up respectfully requests that the Senate Appropriations 
Subcommittee on Labor, Health and Human Services, and Education, and 
Related Services appropriate $5 million for the Close Up Fellowship 
Program.
                                 ______
                                 
          Letter From the Digestive Disease National Coalition
                                      Washington, DC, May 22, 2009.
Hon. Tom Harkin,
Chairman, Subcommittee on Labor, Health and Human Services, and 
        Education, and Related Agencies, Washington, DC.
Hon. Thad Cochran,
Ranking Member, Subcommittee on Labor, Health and Human Services, and 
        Education, and Related Agencies, Washington, DC.
    Dear Senators Harkin and Cochran: Thank you very much for your 
continued leadership in advancing healthcare policy.
    The Digestive Disease National Coalition (DDNC) is an advocacy 
organization comprised of the major national voluntary and professional 
societies concerned with digestive diseases. The DDNC focuses on 
improving public policy related to digestive diseases and increasing 
public awareness with respect to the many diseases of the digestive 
system. The DDNC works cooperatively to improve access to and the 
quality of digestive disease healthcare in order to promote the best 
possible medical outcome and quality of life for current and future 
patients with digestive diseases.
    In this capacity, the DDNC applauds the long-range research agenda 
as stated in the March 2009 publication Opportunities and Challenges in 
Digestive Diseases Research: Recommendations of the National Commission 
on Digestive Diseases by the National Institute of Diabetes, and 
Digestive, and Kidney Diseases (NIDDK). The DDNC requests that the 
subcommittee consider the following recommendations for the fiscal year 
2010 Labor, Health and Human Services, and Education, and Related 
Agencies appropriations bill:
  --A 6.5 percent funding increase for the National Institutes of 
        Health, with a proportional increase for the NIDDK; and
  --An increase of $75 million for the VA Medical and Prosthetic 
        Research Program for a total of $555 million.
    Thank you for the opportunity to present the views of the digestive 
disease community. Please do not hesitate to contact me if there is any 
more information you would like us to provide for your consideration.
            Sincerely,
                                           Dr. Peter Banks,
                                                         President.
                                           Linda K. Aukett,
                                                             Chair.
                                 ______
                                 
     Prepared Statement of the Dystonia Medical Research Foundation

            SUMMARY OF RECOMMENDATIONS FOR FISCAL YEAR 2010

    Provide a funding increase of at least 7 percent for the National 
Institutes of Health (NIH) and its Institutes and Centers.
    Urge the National Institute on Neurological Disorders and Stroke 
(NINDS), the National Institute on Deafness and Other Communication 
Disorders (NIDCD), and the National Eye Institute (NEI) to expand their 
research portfolios on dystonia.
    Urge the NIH Office of Rare Diseases (ORD) to explore opportunities 
to partner with the Dystonia Medical Research Foundation (DRMF) and 
advance dystonia research.
    Dystonia is a neurological movement disorder characterized by 
powerful and painful involuntary muscle spasms that cause the body to 
twist, repetitively jerk, and sustain postural deformities. There are 
several different variations of dystonia, including; focal dystonias, 
which affect specific parts of the body, and generalized dystonia, 
which affect many parts of the body at the same time. Some forms of 
dystonia are genetic and others are caused by injury or illness. 
Dystonia does not affect a person's consciousness or intellect, but is 
chronic and progressive. In North America alone, conservative estimates 
indicate that between 300,000 and 500,000 individuals suffer with 
dystonia. Currently, there is no known cure and treatment options 
remain limited.
    While the underlying mechanisms of dystonia remain a mystery and 
the onset of symptoms can occur for a number of reasons, two therapies 
have emerged with proven health benefits to the dystonia patient 
community. Botulinum toxin injections and deep brain stimulation have 
shown varying degrees of success, depending on the individual, in 
alleviating a dystonia patient's symptoms. More research is needed to 
fully understand how to combat and cure dystonia, and in the mean time, 
maintaining patient access to life-improving therapies remains 
critical.

                     DEEP BRAIN STIMULATIONS (DBS)

    DBS is a surgical procedure that was originally developed to treat 
Parkinson's disease, but is now being applied to severe cases of 
dystonia. A neurostimulator, or brain pacemaker, is surgically 
implanted and delivers electrical stimulation to the areas of the brain 
that control movement. While the exact reasons for effectiveness are 
unknown, the electrical stimulation blocks abnormal nerve signals that 
cause abnormal muscle spasms and contractions.
    Since DBS was approved for use by dystonia patients in 2003, it has 
drastically improved the lives of many individuals. Results have ranged 
from quickly regaining the ability to walk and speak, to regaining 
complete control over ones body and returning to an independent life as 
an able-bodied person. DBS is currently used to treat severe cases of 
generalized dystonia, but its promising role in treating focal 
dystonias is being explored and requires continuous support. Surgical 
interventions are a crucial and active area of dystonia research and 
may continue to lead to the development of promising treatment options.

               BOTULINUM TOXIN INJECTIONS (BOTOX/MYOBLOC)

    The introduction of botulinum toxin as a therapeutic tool in the 
late 1980s revolutionized the treatment of dystonia by offering a new, 
localized method to significantly relieve symptoms for many people. 
Botulinum toxin, a biological product, is injected into specific 
muscles where it acts to relax the muscles and reduce excessive muscle 
contractions.
    Botulinum toxin is derived from the bacterium Clostridium 
botulinum. It is a nerve ``blocker'' that binds to the nerves that lead 
to the muscle and prevents the release of acetylcholine, a 
neurotransmitter that activates muscle contractions. If the message is 
blocked, muscle spasms are significantly reduced or eliminated.
    Injections of botulinum toxin should only be performed by a 
physician who is trained to administer this treatment. The physician 
needs to know the clinical features and study the involuntary movements 
of the person being treated. The physician doing the treatment may 
palpate (touch) the muscles carefully, trying to ascertain which 
muscles are over-contracting and which muscles may be compensating. In 
some instances, such as in the treatment of laryngeal dystonia, a team 
approach including other specialists may be required.
    For selected areas of the body, and particularly when injecting 
muscles that are difficult or impossible to palpate, guidance using an 
electromyograph (EMG) may be necessary. For instance, when injecting 
the deep muscles of the jaw, neck, or vocal cords, an EMG-guided 
injection may improve precision since these muscles cannot be readily 
palpated. An EMG measures and records muscle activity and may help the 
physician locate overactive muscles.
    Injections into the overactive muscle are done with a small needle, 
with one to three injections per muscle. Discomfort at the site of 
injections is usually temporary, and a local anesthetic is sometimes 
used to minimize any discomfort associated with the injection. Many 
dystonia patients frequently rely on botulinum toxins injections to 
maintain their improved standard of living due to the fact that the 
benefits of the treatment peak in approximately 4 weeks and lasts just 
3 or 4 months. Currently, FDA-approved forms of botulinum toxin include 
Botox and Myobloc.

                            DYSTONIA AND NIH

    Currently, three Institutes at NIH conduct medical research into 
dystonia. They are NINDS, NIDCD, and NEI.
    NINDS has released important Program Announcements in recent years 
to study the causes and mechanisms of dystonia. These awards cover a 
wide range of research areas, which included gene discovery, the 
genetics and genomics of dystonia, the development of animal models of 
primary and secondary dystonia, molecular and cellular studies 
inherited forms of dystonia, epidemiology studies, and brain imaging. 
DMRF often works with NINDS to support as much critical research as 
possible and advance understating of dystonia.
    NIDCD has funded many studies on brainstem systems and their role 
in spasmodic dysphonia. Spasmodic dysphonia is a form of focal 
dystonia, and involves involuntary spasms of the vocal cords causing 
interruptions of speech and affecting voice quality. Our understanding 
of spasmodic dysphonia has been greatly enhanced by research 
initiatives at NIDCD, like the brainstem systems studies.
    NEI focuses some of its resources on the study of blepharospasm. 
Blepharospasm is an abnormal, involuntary blinking of the eyelids from 
an unknown cause that is associated with abnormal function of the basal 
ganglion. The condition can progress to the point where facial spasms 
develop. Presently, NEI is conducting a study entitled, Mexiletine for 
the Treatment of Focal Dystonia and a Doxilr Blepharospasm Treatment 
Trial, both of which have the potential to significantly improve 
treatment options for blepharospasm patients.
    An emerging area of NIH that has the potential to stimulate 
important, new research into dystonia is ORD housed in the Office of 
the Director. ORD can facilitate research networks into certain rare 
conditions by pulling together resources housed at other NIH Institutes 
and Centers. Given the prevalence of dystonia, the DMRF would like to 
work more closely with ORD to stimulate and support new research 
opportunities.
    DMRF also supports many extramural researchers studying dystonia. 
Research includes: exploring improved clinical rating scales for 
dystonia, elevations of sensory motor training, utilizing Botox as a 
possible treatment for focal hand dystonia, characterization of 
abnormalities in sensory regions of the brain, treatments for spasmodic 
dysphonia, DBS (the direct electrical stimulation of specific brain 
targets), noninvasive transcranial brain stimulation, anatomy imaging 
of the effect of dystonia on brain activity, and exploring the link 
between laryngitis and spasmodic dysphonia.
    Recent years of near level-funding at NIH have negatively impacted 
the mission of its Institutes and Centers. For this reason, DMRF 
applauds initiatives like Senator Arlen Specter's (D-PA) successful 
effort to provide NIH with $10.4 billion in stimulus funds. IFFGD urges 
this subcommittee to show strong leadership in pursuing substantial 
funding increase through the regular appropriations process in fiscal 
year 2010.
    For fiscal year 2010, DMRF recommends a funding increase of at 
least 7 percent for NIH and its Institutes and Centers.
    For fiscal year 2010, DMRF recommends that NINDS, NIDCD, and NEI be 
urged to increase their research activities regarding dystonia and 
partner with voluntary health organizations to promote dystonia 
research and awareness.
    For fiscal year 2010, DMRF asks the subcommittee to urge ORD to 
consider ways it can partner with DMRF and support dystonia research.

                                  DMRF

    DMRF was founded more than 30 years ago and has been a membership-
driven organization since 1993. Since our inception, the goals of DMRF 
have remained: to advance research for more effective treatments of 
dystonia and ultimately find a cure; to promote awareness and 
education; and support the needs and well being of affected individuals 
and their families.
    Thank you for the opportunity to present the views of the dystonia 
community.
                                 ______
                                 
    Prepared Statement of the Federation of American Societies for 
                          Experimental Biology

    The Federation of American Societies for Experimental Biology 
(FASEB), respectfully requests a funding increase of at least 7 percent 
above the fiscal year 2009 baseline level for the National Institutes 
of Health (NIH) in fiscal year 2010. This funding level is an important 
step toward President Obama's campaign pledge to double funding for 
basic research over 10 years and is necessary to maintain both the 
existing and future scientific infrastructure. We are in a crucial time 
for science in the United States. After years of stagnant funding for 
research, Congress has recently made significant new investments in 
NIH. The scientists and researchers represented by FASEB are sincerely 
grateful to Congress for your faith in the research community and your 
generosity in providing the resources that are essential for progress 
in science.
    As a Federation of 22 professional scientific societies, FASEB 
represents nearly 90,000 life scientists, making us the largest 
coalition of biomedical research associations in the Nation. FASEB's 
mission is to advance health and welfare by promoting progress and 
education in biological and biomedical sciences, including the research 
funded by NIH, through service to its member societies and 
collaborative advocacy. FASEB enhances the ability of biomedical and 
life scientists to improve--through their research--the health, well-
being, and productivity of all people.
    We especially thank and commend Congress for including the 
extraordinary investment in medical research at NIH that was included 
as part of in the American Recovery and Reinvestment Act (ARRA, Public 
Law 111-5) as well as the $938 million increase in NIH funding in the 
Omnibus Appropriations Act for fiscal year 2009 (Public Law 111-8). In 
particular, we are deeply grateful to the chairman and this 
subcommittee for your long-standing leadership in support of NIH. These 
are difficult times for our Nation and for people all around the globe, 
but the affirmation of science is the key to a better future is a 
strategic step forward.
    The recent history of the NIH budget has hindered scientific 
discovery and limited the capacity of a key engine for today's 
innovation-based economy. The additional funding in the ARRA and the 
fiscal year 2009 omnibus are critical first steps to returning the NIH 
to a course for even greater discovery. These investments give 
patients, their families and researchers renewed hope for the future, 
and will help ensure the success of America's medical research 
enterprise and leadership.
    The funding increases in the ARRA and the fiscal year 2009 omnibus 
will provide an immediate infusion of funds into the Nation's proven 
and highly competitive medical research enterprise to sustain the 
pursuit of improved diagnostics, better prevention strategies and new 
treatments for many devastating and costly diseases as well as support 
innovative research ideas, state-of-the-art scientific facilities and 
instrumentation, and the scientists, technicians, laboratory personnel, 
and administrators necessary to maintain the enterprise. These funds 
will are also reinvigorating this Nation's ability to produce the human 
and intellectual capital that will continue to drive scientific 
discovery, transform health, and improve the quality of life for all 
Americans. Moreover, we see this as the first step in renewing a 
national commitment to sustained, predictable growth in NIH funding, 
which we believe is an essential element in restoring and sustaining 
both national and local economic growth and vitality as well as 
maintaining this Nation's prominence as the world leader in medical 
research.
    As a result of this subcommittee's prior investment in NIH, we have 
made critical advances in understanding basic science, saved and 
improved the lives of millions of Americans and provided doctors with 
tools to prevent and treat costly and devastating diseases including:
  --Cardiovascular Disease.--New results from multiple studies provided 
        the strongest evidence to date that a simple blood test for 
        high-sensitivity C-reactive protein (hsCRP), whose 
        characterization was funded by NIH, is a useful marker for 
        cardiovascular disease. Furthermore, scientists have discovered 
        that a daily dose of a commonly used statin, rosuvastatin 
        (Crestor), reduced the risk of heart attack, stroke, and death 
        by nearly half (44 percent) in individuals with high levels of 
        hsCRP but with normal or low levels of low density lipoprotein 
        (LDL), the so-called ``bad cholesterol.'' These developments 
        show great promise in helping clinicians better identify and 
        treat individuals at risk for cardiovascular disease--
        potentially saving millions more lives.
  --Cancer.--For the first time in a decade, incidence rates for all 
        cancers combined are decreasing, driven largely by declines in 
        some of the most common types of cancer, including breast 
        cancer (2.2 percent decline among women) and prostate cancer 
        (4.4 percent decline). Death rates declined for 10 of the top 
        15 causes of cancer death among both men and women.
  --Alzheimer's.--Researchers isolated a toxic substance that appears 
        to be a key to understanding Alzheimer's disease, suggesting a 
        possible new target for developing drug therapies to combat the 
        irreversible and progressive disorder. In addition, further 
        insights into the early stages of Alzheimer's may answer 
        questions not only about the disease, but also about age-
        related memory impairments.
  --Type 2 Diabetes.--An international team that included NIH-funded 
        scientists identified six new genetic variants associated with 
        increased risk of type 2 diabetes. By pinpointing particular 
        pathways involved in diabetes risk, this discovery can empower 
        new approaches to understanding environmental influences and to 
        the development of better, more precisely targeted drugs.
     investment in nih is critical to taking advantage of emerging 

                        SCIENTIFIC OPPORTUNITIES

    Prior investment in NIH has begun to unlock the secrets of the 
human genome and allowed scientists to gain new insight into how 
disease works at the most basic levels within our bodies. Scientists 
are working tirelessly to translate research results into interventions 
for our most debilitating medical conditions. NIH also serves an 
invaluable role in communicating research findings to patients and 
their families, healthcare providers, and the general public in 
critical areas such as increasing knowledge about infectious diseases, 
improving cognitive health, and reducing health disparities.

           THE CONSEQUENCES OF STAGNANT FUNDING FOR RESEARCH

    The re-emergence of previously eradicated diseases such as mumps, 
the development of new health threats, a rapidly aging population, and 
significant increases in longevity lends a sense of urgency to the need 
to expedite scientific discovery. Yet even as our need to prevent 
disease becomes greater and the opportunities to succeed become more 
numerous, our national commitment to medical research has stagnated:
  --``Success rates'' dropped to an estimated 18 percent in fiscal year 
        2009. This means that more than 80 percent of the highly 
        qualified, peer-reviewed research proposals go unfunded. With 
        every unfunded idea, we risk missing or delaying critical 
        discoveries leading to therapies for our most debilitating 
        health conditions.
  --The competition for funding is coming at a time when both the 
        interest in careers in the science field and the number of 
        newly trained researchers entering the workforce is increasing. 
        Doctorates in the critical fields of engineering and biological 
        sciences increased 10 percent and 11 percent respectively, in 1 
        year.\1\
---------------------------------------------------------------------------
    \1\ Council of Graduate Schools. 2008. Graduate Enrollment and 
Degrees: 1997-2007. http://www.cgsnet.org/portals/0/pdf/N_pr_ED2007.pdf
---------------------------------------------------------------------------
  --The medical schools, teaching hospitals, universities, and research 
        institutes where NIH research takes place are among the largest 
        employers in their respective communities. In fiscal year 2007, 
        NIH grants and contracts created and supported more than 
        350,000 jobs that generated wages in excess of $18 billion in 
        the 50 States.\2\
---------------------------------------------------------------------------
    \2\ Families USA. 2008. In your own backyard: How NIH funding helps 
your state's economy. http://www.familiesusa.org/assets/pdfs/global-
health/in-your-own-backyard.pdf
---------------------------------------------------------------------------
     THE IMPORTANCE OF SUSTAINED, PREDICTABLE FUNDING FOR RESEARCH

    The research engine needs a predictable, sustained investment in 
science to maximize our return on investment. The discovery process--
while it produces tremendous value--often takes a lengthy and 
unpredictable path. Recent experience has demonstrated how cyclical 
periods of rapid funding growth followed by periods of stagnation is 
disruptive to training, to careers, long-range projects, and ultimately 
to progress. NIH needs sustainable and predictable budget growth to 
achieve the full promise of medical research to improve the health and 
longevity of all Americans. We must ensure that after the stimulus 
money is spent we do not have to dismantle our newly built capacity and 
terminate valuable, on-going research.
    The fiscal year 2009 omnibus and the ARRA provided $38.5 billion 
for NIH to provide more than 16,000 new research grants for live-saving 
research into diseases such as cancer, diabetes, and Alzheimer's. 
Keeping up with the rising cost of medical research in the 2010 
appropriations will help NIH begin to prepare for the ``post-stimulus'' 
era. In 2011 and beyond we need to make sure that the total funding 
available to NIH does not decline and that we can resume a steady, 
sustainable growth that will enable us to complete the President's 
vision of doubling our investment in basic research. Consistent with 
the President's proposal, we respectfully urge this subcommittee to 
increase funding for NIH in fiscal year 2010 by at least 7 percent more 
than the fiscal year 2009 level.
    The Federal commitment to biomedical research is profoundly 
transforming medical practice, preventing disease, and creating better 
therapies but additional resources are needed to pursue the historic 
level of scientific opportunity that is available today. We recognize 
this subcommittee has the especially difficult task of providing 
funding for a wide range of critical human service programs and thank 
you for recognizing that prosperity and quality of life are 
increasingly shaped by investments in science and technology.
                                 ______
                                 
Prepared Statement of the Friends of the Health Resources and Services 
                             Administration

    The Friends of the Health Resources and Services Administration 
(HRSA) is a nonprofit and nonpartisan alliance of more than 140 
national organizations, collectively representing millions of public 
health and healthcare professionals, academicians, and consumers. The 
coalition's principal goal is to ensure that HRSA's broad health 
programs have continued support in order to reach the populations 
presently underserved by the Nation's patchwork of health services.
    Through its programs in every State and thousands of communities 
across the country, HRSA is a national leader in providing a health 
safety net for medically underserved individuals and families, 
including 86.7 million Americans who were uninsured for some or all of 
2007-2008; 50 million Americans who live in neighborhoods where primary 
health services are scarce; more than 1 million people living with HIV/
AIDS, and 34 million vulnerable mothers and children, including 
children with special health needs. In the best professional judgment 
of the members of the Friends of HRSA, to respond to this challenge, 
the agency will require an overall funding level of at least $8.5 
billion for fiscal year 2010.
    For several years, HRSA has suffered from relatively level funding, 
undermining the ability of its successful programs to grow. Our request 
reflects the minimum amount necessary for HRSA to adequately meet the 
needs of the populations they serve in fiscal year 2010, especially 
during these difficult economic times that are causing an increase in 
demand for HRSA programs and funding. Much more is needed for the 
agency to achieve its ultimate mission of ensuring access to culturally 
competent, quality health services for all; eliminating health 
disparities; and rebuilding the public health and healthcare 
infrastructure.
    The coalition is very appreciative of the $2.5 billion HRSA 
received in the American Recovery and Reinvestment Act of 2009 for 
community health centers and health professions workforce development 
to prepare our health infrastructure for health system reform. This 
investment recognizes the critical role HRSA plays in building the 
foundation for health service delivery. However, we urge the 
subcommittee to support adequately funding all of HRSA's broad health 
programs and ensure that vulnerable populations transition smoothly 
into a new health system and receive continued, quality health 
services. By supporting, planning for and adapting to change, we can 
build on the successes of the past and address the new gaps that emerge 
as a result of health system reform.
    Our $8.5 billion funding request is based on recommendations 
provided by coalition members for the various programs they focus on. 
It includes $2.602 billion for the Health Centers program, the fully 
authorized level under the Health Care Safety Net Act of 2008, as part 
of a long-term plan to provide care to 30 million Americans by 2015. 
Thanks to the leadership of the subcommittee, more than 7,000 health 
centers in every State and territory provide a healthcare home for more 
than 18 million medially underserved and low-income patients, and 
demand for their services continues to grow. The Health Centers program 
targets populations with special needs, including migrant and seasonal 
farm workers, homeless individuals and families, and those living in 
public housing. Health centers provide access to high-quality, family-
oriented, culturally and linguistically competent primary care and 
preventive services, including mental and behavioral health, vision, 
and dental services. While recent growth in the health centers program 
has been substantial, a significant need remains in underserved 
communities across the country. We strongly encourage the subcommittee 
to continue its support of existing health centers and efforts to 
expand the reach and scope of the Health Centers program into new 
communities.
    Coalition members recommend $235 million for the National Health 
Service Corps (NHSC), the amount authorized under the Health Care 
Safety Net Amendments of 2002. Approximately 50 million Americans live 
in communities with a shortage of health professionals, lacking 
adequate access to primary care. The Corps supports the recruitment and 
retention of primary care clinicians to practice in underserved 
communities in exchange for scholarships and loan repayment. The Corps 
supports more than 4,000 clinicians, with over half working in 
community health centers. Growth in the Health Centers program must be 
complemented with growth in the recruitment and retention of primary 
care clinicians to ensure adequate staffing.
    Coalition members recommend $550 million for health professions 
programs under title VII and VIII of the Public Health Service Act. 
These programs are an essential component of America's health safety 
net and work in concert with the Health Centers Program and National 
Health Service Corps to enhance the supply, distribution and diversity 
of the health professions workforce. They are the only Federal programs 
that support the education and training of primary care providers in 
interdisciplinary settings to work in underserved communities and 
increase minority representation in the health professions workforce. 
Through loans, scholarships, and grants to academic institutions and 
nonprofit organizations, these programs provide support for the 
training of primary care physicians, nurses, dentists, optometrists, 
physician assistants, nurse practitioners, public health personnel, 
mental and behavioral health professionals, pharmacists, health 
educators, and other allied health providers. Adequate funding will 
reduce provider shortages in rural, medically underserved and federally 
designated health professions shortage areas and strengthen the 
pipeline of new providers that Health Centers and other safety-net 
health facilities need to meet the long-term needs of underserved 
communities. In addition, we recommend funds be appropriated to re-
establish the National Center for Health Workforce Analysis to conduct 
and support statistical and epidemiological activities for assessing 
and improving decisionmaking to enhance the supply, distribution, 
diversity, and development of the current and future public health 
workforce. Finally, we urge the subcommittee to provide funding for the 
grant program under section 758 of the Public Health Service Act to 
develop interdisciplinary training and education programs on domestic 
violence and other types of violence and abuse as authorized by the 
Violence Against Women and Department of Justice Reauthorization Act of 
2005.
    We recommend $330 million for the Children's Hospital Graduate 
Medical Education (GME) Program, the amount authorized under the 
Children's Hospital GME Support Reauthorization Act of 2006. This 
program provides funds to freestanding children's hospitals to support 
the training of pediatric and other residents in GME programs. This 
program ensures that pediatric hospitals receive Federal funding 
comparable to other types of hospitals. We also request a significant 
investment in the Patient Navigator program that places navigators in 
underserved communities to help people with cancer and/or other chronic 
diseases make their way through the health systems and utilize 
community services that will help them beat chronic disease for longer, 
healthier lives.
    We recommend $850 million for the Maternal and Child Health (MCH) 
block grant, the fully authorized level under title V of the Social 
Security Act. For more than 70 years, the MCH block grant has provided 
a source of flexible funding for States and territories to address 
their unique needs related to improving the health of mothers, infants, 
children, adolescent, and children with special healthcare needs. 
Today, this program provides prenatal services to more than 2 million 
mothers--almost half of all mothers who give birth annually--and 
primary and preventive care to more than 17 million children, including 
almost 1 million children with special needs. Fully funding the MCH 
block grant will enable States to expand critical health services and 
cope with ever increasing medical costs.
    Newborn screening is a vital public health activity used to 
identify and treat genetic, metabolic, hormonal, and functional 
conditions in newborns. Screening detects heritable disorders in 
newborns that, if left untreated, can cause disability, mental 
retardation, serious illnesses, or even death. While nearly all babies 
born in the United States undergo newborn screening for genetic birth 
defects, the number of these tests varies from State to State. We 
recommend $30 million for the Heritable Disorders Program to support 
State efforts to improve programs, to acquire innovative testing 
technologies, and to increase capacity to reach and educate health 
professionals and parents on newborn screening programs and follow-up 
services. These activities and the funding level are authorized by the 
Newborn Screening Saves Lives Act.
    We recommend $16 million for the Traumatic Brain Injury (TBI) 
program in order to better serve the 5.3 million Americans with a long-
term or lifelong need for help to perform daily activities as a result 
of a TBI, including many of our returning war veterans. The TBI Program 
provides grants to States to coordinate, expand, and enhance service 
delivery systems in order to improve access to services and support for 
persons with TBI and their families. The TBI program also provides 
funds to State protection and advocacy programs that work to ensure 
that people with TBI get access to the supports and services they need.
    We recommend $25 million for the Emergency Medical Services for 
Children (EMSC) program to address significant shortcomings in 
pediatric emergency care. The EMSC program is a national initiative 
designed to reduce child and youth disability and death due to severe 
illness and injury. EMSC grants provide funding for States and 
territories to improve existing emergency medical services systems and 
develop better procedures and protocols for treating children. 
Additional funding is needed to maintain and improve the program's 
activities, take advantage of important opportunities and address 
emerging threats such as terrorism.
    We recommend $2.816 billion for the Ryan White HIV/AIDS programs, 
which is the estimated amount necessary to provide health services to 
all eligible individuals. The Ryan White programs provide the largest 
source of Federal discretionary funding to support health services for 
more than 500,000 low-income, uninsured, and underinsured people living 
with HIV/AIDS. Through grants to State and local governments and 
community-based organizations, the Ryan White HIV/AIDS programs support 
comprehensive care, drug assistance and support services for people 
living with HIV/AIDS; provide training for health professionals 
treating people with HIV/AIDS; provide assistance to metropolitan and 
other areas most severely affected by the HIV/AIDS epidemic; and 
address the disproportionate impact of HIV/AIDS on women and 
minorities. A significant funding increase is needed to meet growing 
medical costs and incidence of HIV, particularly among underserved 
populations.
    The Office of Rural Health Policy promotes better health services 
for the 60 million Americans who live in rural communities. These 
communities suffer from inadequate access to quality health services 
and experience the higher rates of illness associated with lower 
socioeconomic status. Rural Health Outreach and Network Development 
Grants, and other programs are designed to support community-based 
disease prevention and health promotion projects, help rural hospitals 
and clinics implement new technologies and strategies, and build health 
system capacity in rural and frontier areas. In addition, Rural Health 
Research Centers help policymakers better understand the challenges 
that rural communities face in assuring access to health services and 
improving the health of their residents. Finally, the Rural and 
Community Access to Emergency Devices Program provides States with 
grants to train lay rescuers and first responders to use automated 
external defibrillators (AEDs) and purchase and place them in public 
areas where sudden cardiac arrests are likely to occur. We encourage 
the subcommittee to adequately fund these important programs that 
address the many unique health service needs of rural communities.
    We recommend $700 million for the Family Planning programs under 
title X of the Public Health Service Act. Title X programs provide 
comprehensive, voluntary, and affordable family planning services to 
nearly 5 million low-income women at more than 4,500 clinics 
nationwide. Title X funded clinics help improve access to 
contraceptives, which help women plan the number and timing of their 
pregnancies, improve maternal and infant health, and help to prevent 
approximately 1.94 million unintended pregnancies each year, including 
nearly 400,000 teenage pregnancies. The Guttmacher Institute estimates 
that unintended pregnancies prevented each year would have resulted in 
810,000 abortions and without publicly funded family planning programs, 
the U.S. abortion rate would be nearly two-thirds higher than the 
current level. Family planning is also cost-saving and for every public 
dollar invested in family planning, $3.80 is saved in costs associated 
with unintended births to women who are eligible for Medicaid. Today, 
almost 17 million women need publicly supported contraceptive care--a 
number which continues to grow. Title X programs require a substantial 
increase in investment to meet the growing demand.
    The Healthcare Systems Bureau provides national leadership on the 
transplantation of organs, bone marrow and cord blood. The recently 
passed Budget Resolution Conference Agreement calls for increased 
funding for ``the organ transplant program.'' Coalition members 
recommend $35 million for the Division of Transplantation in order to 
meet the Office of Management and Budget's goal of doubling the number 
of transplants by 2013 and reduce the waiting list of 101,951 people in 
need of a life saving organ transplant. We recommend $38 million for 
the C.W. Bill Young Cell Transplantation Program, the amount authorized 
by the Stem Cell Therapeutic and Research Act of 2005. This program 
helps patients who need a potentially life-saving bone marrow or cord 
blood transplant, including patients with diseases like leukemia, 
lymphoma, sickle cell anemia, or other inherited metabolic or immune 
system disorders. We also recommend the fully authorized $15 million 
for the National Cord Blood Inventory, which collects and maintains 
high-quality cord blood units and makes them available for 
transplantation through the C.W. Bill Young Cell Transplantation 
Program.
    Poison Control Centers, also administered by the Healthcare Systems 
Bureau, are a critical resource for people, health professionals, and 
organizations. Poisoning can happen to anyone, at anytime in any place 
and can lead to serious illness or even death. Each year, more than 2 
million possible poisonings are reported to the nation's poison 
centers. On average, poison centers handle one possible poisoning every 
13 seconds. These critical centers cannot afford to lose any resources 
and we encourage the subcommittee to fully fund this program.
    Finally, we recommend a significant funding increase for HRSA's 
program management and staffing needs. Since 2001, HRSA has experienced 
a decline of almost 600 full-time equivalent employees. While HRSA has 
continued to administer its many programs effectively, the agency if 
facing ever growing demands as a result of the economic crisis and a 
changing health system. We strongly urge the subcommittee to increase 
program management funds to provide the agency with the necessary human 
and other resources to ensure the programs it administers are effective 
and improve the health of the American public.
    We appreciate the subcommittee's hard work in advocating for HRSA's 
programs in a climate of competing priorities. The members of the 
Friends of HRSA thank you for considering our fiscal year 2010 request 
for $8.5 billion for HRSA and are grateful for this opportunity to 
present our views to the subcommittee.
    We the undersigned organizations, thank you for your attention to 
this matter.
                    Academic Pediatric Association; Advocates for 
                            Youth; AIDS Action; AIDS Alliance for 
                            Children, Youth and Families; AIDS 
                            Foundation of Chicago; AIDS Project Los 
                            Angeles; The Alan Guttmacher Institute; 
                            Allergy and Asthma Network Mothers of 
                            Asthmatics; Alliance for Academic Internal 
                            Medicine; American Academy of Family 
                            Physicians.
                    American Academy of Nurse Practitioners; American 
                            Academy of Nursing; American Academy of 
                            Ophthalmology; American Academy of 
                            Pediatrics; American Academy of Physician 
                            Assistants; American Association of 
                            Colleges of Podiatric Medicine; American 
                            Association for Dental Research; American 
                            Association of Colleges of Nursing; 
                            American Association of Colleges of 
                            Osteopathic Medicine; American Association 
                            of Colleges of Pharmacy; American 
                            Association of Family and Consumer 
                            Services.
                    American Association of Nurse Anesthetists; 
                            American Association of Orthopedic 
                            Surgeons; American Association on 
                            Intellectual and Developmental 
                            Disabilities; American Cancer Society; 
                            American College of Nurse-Midwives; 
                            American College of Obstetricians and 
                            Gynecologists; American College of 
                            Physicians; American College of 
                            Preventative Medicine; American Counseling 
                            Association; American Dental Association.
                    American Dental Education Association; American 
                            Dental Hygienists' Association; American 
                            Dietetic Association; American Federation 
                            of State, County and Municipal Employees; 
                            American Foundation for AIDS Research; 
                            American Heart Association; American 
                            Hospital Association; American Medical 
                            Student Association; American Medical 
                            Women's Association; American Nephrology 
                            Nurses' Association.
                    American Nurses Association; American Occupational 
                            Therapy Association; American Optometric 
                            Association; American Pediatric Society; 
                            American Physical Therapy Association; 
                            American Podiatric Medicine Association; 
                            American Psychiatric Association; American 
                            Psychological Association; American Public 
                            Health Association; American Red Cross.
                    American School Health Association; American 
                            Society for Microbiology; American Society 
                            for Reproductive Medicine; Americans for 
                            Democratic Action; The Arc; Asian and 
                            Pacific Islander American Health Forum; 
                            Association for Prevention Teaching and 
                            Research; Association of Academic Health 
                            Centers; Association of American Medical 
                            Colleges; Association of American 
                            Veterinary Medical Colleges.
                    Association of Clinicians for the Underserved; 
                            Association of Departments of Family 
                            Medicine; Association of Family Medicine 
                            Residency Directors; Association of 
                            Maternal and Child Health Programs; 
                            Association of Medical School Pediatric 
                            Department Chairs; Association of Minority 
                            Health Professions Schools; Association of 
                            Organ Procurement Organizations; 
                            Association of Professors of Medicine; 
                            Association of Public Health Laboratories; 
                            Association of Reproductive Health 
                            Professionals.
                    Association of Schools of Allied Health 
                            Professionals; Association of Schools of 
                            Public Health; Association of State and 
                            Territorial Directors of Nursing; 
                            Association of State and Territorial Health 
                            Officials; Association of University 
                            Centers on Disabilities; Association of 
                            Women's Health, Obstetric and Neonatal 
                            Nurses; Avancer Health Policy; CAEAR 
                            Coalition; Catholic Health Association of 
                            the U.S.; Center for Health Policy Research 
                            and Ethics, GMU.
                    Center for the Advancement of Health; Center for 
                            Women Policy Studies; Center on Disability 
                            and Health; Charles Drew University; 
                            Children's Defense Fund; Coalition for 
                            American Trauma Care; Coalition for Health 
                            Funding; Coalition for Health Services 
                            Research; Consortium of Social Science 
                            Associations; Council of Accredited MPH 
                            Programs.
                    Easter Seals; Emergency Nurses Association; 
                            Epilepsy Foundation; Families USA; Family 
                            Violence Prevention Fund; Health and 
                            Medicine Counsel of Washington; HIV 
                            Medicine Association; Human Rights 
                            Campaign; Infectious Diseases Society of 
                            America; Institute for Children's 
                            Environmental Health.
                    Latino Council on Alcohol and Tobacco; Legal Action 
                            Center; March of Dimes; Meharry Medical 
                            College; Morehouse School of Medicine; 
                            NAADAC, the Association for Addiction 
                            Professionals; National AHEC Organization; 
                            National Alliance of State and Territorial 
                            AIDS Directors; National Assembly on 
                            School-Based Health Care; National 
                            Association of Addiction Treatment 
                            Providers; National Association of 
                            Community Health Centers.
                    National Association of Councils on Developmental 
                            Disabilities; National Association of 
                            County and City Health Officials; National 
                            Association of Local Boards of Health; 
                            National Association of People with AIDS; 
                            National Association of Public Health 
                            Statistics and Information Systems; 
                            National Association of Public Hospitals 
                            and Health Systems; National Association of 
                            Rural Health Clinics; National Association 
                            of Social Workers; National Associations of 
                            Children's Hospitals; National Black Nurses 
                            Association.
                    National Coalition for the Homeless; National 
                            Council for Diversity in the Health 
                            Professions; National Council of La Raza; 
                            National Disability Rights Network; 
                            National Episcopal AIDS Coalition; National 
                            Family Planning and Reproductive Health 
                            Association; National Health Care for the 
                            Homeless Council; National Hemophilia 
                            Foundation; National Hispanic Medical 
                            Association; National League for Nursing.
                    National Marrow Donor Program; National Medical 
                            Association; National Minority AIDS 
                            Council; National Network for Youth; 
                            National Rural Health Association; North 
                            American Primary Care Research Group; 
                            Oncology Nursing Society; Organizations of 
                            Academic Family Medicine; Partnership for 
                            Prevention; Planned Parenthood Federation 
                            of America.
                    Sexuality Information and Education Council of the 
                            United States; Society for Adolescent 
                            Medicine; Society for Pediatric Research; 
                            Society for Public Health Education; 
                            Society for the Psychological Study of 
                            Social Issues; Society of General Internal 
                            Medicine; Society of Teachers of Family 
                            Medicine; The AIDS Institute; Trust for 
                            America's Health; U.S. Conference of 
                            Mayors.
                                 ______
                                 
       Letter From The Friends of the National Institute on Aging

    Dear Chairman Harkin and members of the subcommittee: I am writing 
to request the opportunity to testify at the fiscal year 2010 public 
witness hearing on behalf of The Friends of the National Institute on 
Aging regarding the important role that the National Institute on Aging 
(NIA) plays among the National Institutes of Health and the need for 
increased appropriations to ensure sustained, long-term growth in aging 
research in the fiscal year 2010 budget and beyond.
    The Friends of the NIA is a coalition of 50 academic, patient-
centered and not-for-profit organizations that conduct, fund, or 
advocate for scientific endeavors to improve the health and quality of 
life for Americans as we age. We support the continuation and expansion 
of NIA research activities and seek to raise awareness about important 
scientific progress in the area of aging research currently guided by 
the Institute. I serve as Chair of the Friends of the NIA and as such, 
am respectfully requesting permission to testify on behalf of the 
Friends of the NIA before the subcommittee.
    Our testimony highlights the relevance of the work of the NIA to 
each and every American, as well as opportunities for future progress 
that are dependent on Congressional action to build upon the 
unprecedented $10.4 billion in the American Recovery and Reinvestment 
Act for NIH research and training activities in fiscal year 2010. I 
have attached a copy of our testimony for your review.
    Mr. Chairman, The Friends of the NIA thanks you in advance for this 
opportunity to outline the challenges and opportunities that lie ahead 
as you consider the fiscal year 2010 appropriations for the NIH.
            Regards,
                                     Kimberly D. Acquaviva,
                                                             Chair.
                                 ______
                                 
              Prepared Statement of the FSH Society, Inc.
    Mr. Chairman, it is a great pleasure to submit this testimony to 
you today.
    My name is Daniel Paul Perez, of Bedford, Massachusetts, and I am 
testifying today as President and CEO of the FSH Society, Inc. 
(facioscapulohumeral muscular dystrophy) and as an individual who has 
this common and most prevalent form of muscular dystrophy.
    the need for national institute of health (nih) funding for fshd
    My testimony is about the profound and devastating effects of a 
disease known as facioscapulohumeral muscular dystrophy which is also 
known as facioscapulohumeral muscular disease, FSH muscular dystrophy 
or FSHD, and the urgent need for increased NIH funding for research on 
this disorder.
    According to our research, only a limited amount of work is going 
on across all the Institutes at the NIH. In fact, only 3 of the 27 
Institutes at the NIH are funding FSHD research, e.g., the National 
Institute of Neurological Disorders and Stroke (NINDS), the National 
Institute of Arthritis, Musculoskeletal and Skin Disease (NIAMS), and 
the Eunice Kennedy Shriver National Institute of Child Health and Human 
Development (NICHD). Currently, the level of funding from NINDS, NICHD, 
and NIAMS for FSHD research is approximately $3,093,269.
    Since 1994, I have submitted testimony before both House and Senate 
Appropriations Committees' Subcommittee on Labor, Health and Human 
Services, and Education and Related Agencies which stated that NIH and 
Congress with modest investments could help bring about a significant 
research and scientific opportunity which would benefit hundreds of 
thousands of people worldwide.
    Today, I am asking Congress to communicate to the Public Health 
Service and National Institutes of Health the need for research funding 
on the FSHD disorder at a level of $10,000,000 annually in fiscal year 
2010.

                            LIVING WITH FSHD

    As a man with facioscapulohumeral muscular dystrophy, I will tell 
you that it is a hard way to live, and that FSHD is a strong fort--it 
will last a lifetime. Unless Congress mandates that the NIH ensure that 
it receives sufficient grant applications of highest quality on FSHD 
and to spend an equitable ratio of NIH muscular dystrophy dollars on 
FSHD, which is now conservatively $10 million.
    At 47 years of age, I consider myself a lifelong survivor of the 
severe trauma and tension of FSHD, and I do not say this lightly. I 
have dealt with the continuing, unrelenting, and unending loss caused 
by FSHD from the first second, into the first minute, hour, day, week, 
over the months and through the years. Not for a moment is there a 
reprieve from continual loss of my physical ability; not for a moment 
is there a time for me to mourn; not for a moment is there relief from 
the physical and mental pain that is a result of this disease. There is 
no known treatment and no known cause for this disease.
    Look at what this disease does to people. Look at me. Look at what 
I see--a child with a profound hearing loss, the broken innocence of a 
child, alienation at an early age, a decision not to marry, a decision 
not to have biological children, disability in the prime of life, 
incapacitation in middle age, the guilt of a parent, a lifetime of 
physical challenge, a suicide, a premature death, anxiety caused by 
uncontrollable loss, decades spent somewhere between the able and the 
disabled, the loss of ambulating, the unstoppable atrophy and loss of 
muscle and the humiliation endured in the process.
    For men, women, and children the major consequence of inheriting 
the most prevalent form of muscular dystrophy, FSHD, is a lifelong 
progressive and severe loss of all skeletal muscles. FSHD is a 
terrible, crippling and life shortening disease. No one is immune, it 
is genetically and spontaneously (by mutation) transmitted to children 
and it affects entire family constellations.

     THE MOST PREVALENT FORM OF MUSCULAR DYSTROPHY IS NOW MARKEDLY 
                           UNDERFUNDED AT NIH

    It is a fact that FSHD is now published in the scientific 
literature as the most prevalent muscular dystrophy in the world. The 
incidence of the disease is conservatively estimated to be 1 in 14,285. 
The prevalence of the disease, those living with the disease ranges to 
two or three times as many as that number based on our increasing 
experiences with the disease and more available and accurate genetic 
diagnostic tests.
    The French Government research agency INSERM (Insitut National de 
la Sante et de la Recherche Medicale) is comparable to the NIH, and it 
recently published prevalence data for hundreds of diseases in Europe. 
Notable is the ``Orphanet Series'' reports covering topics relevant to 
all rare diseases. The ``Prevalence or reported number of published 
cases listed in alphabetical order of disease''. This update contains 
new epidemiological data and modifications to existing data for which 
new information has been made available. This new information ranks 
facioscapulohumeral muscular dystrophy (FSHD) as the most prevalent 
muscular dystrophy followed by Duchenne (DMD) and Becker Muscular 
dystrophy (BMD) and then, in turn, myotonic dystrophy (DM). FSHD is 
historically presented as the third-most prevalent muscular dystrophy 
in the Muscular Dystrophy Community Assistance, Research and Education 
Amendments of 2001 and 2008 (the MD-CARE Act). This new data ranks FSHD 
as the first and most prevalent.

------------------------------------------------------------------------
                  Estimated prevalence                     Cases/100,000
------------------------------------------------------------------------
Facioscapulohumeral muscular dystrophy (FSHD)...........       7/100,000
Duchenne (DMD) and Becker Muscular dystrophy (BMD) types       5/100,000
Steinert myotonic dystrophy (DM)........................     4.5/100,000
------------------------------------------------------------------------

 NIH MUSCULAR DYSTROPHY FUNDING HAS TRIPLED SINCE THE INCEPTION OF THE 
                MD CARE ACT ($21 MILLION TO $56 MILLION)

    Between fiscal year 2006 and 2007, NIH overall funding for muscular 
dystrophy increased from $39,913,000 to $47,179,000, an 18 percent 
increase.
    Between fiscal year 2007 and 2008, NIH overall funding for muscular 
dystrophy decreased as shown in the ``Estimates of Funding for Various 
Research, Condition, and Disease Categories (RCDC)'' report on the new 
Research Portfolio Online Reporting Tool (RePORT) from $58 million to 
$56 million, a 3 percent decrease. These figures are from the new 
``2007/2008 NIH Revised Method'' columns. The same RCDC RePORT system 
report shows $47 million as the 2007 figure under the ``2007 NIH 
Historical Method'' column, a 23 percent increase and restatement when 
converting to the new system.
    Figures from the RCDC RePORT and the NIH Appropriations History for 
Muscular Dystrophy report historically provided by NIH/Office of the 
Director (OD) Budget Office and NIH OCPL show that from the inception 
of the MD CARE Act 2001, funding has nearly tripled from $21 million to 
$56 million for muscular dystrophy.

NIH FSHD FUNDING HAS REMAINED LEVEL SINCE THE INCEPTION OF THE MD CARE 
                      ACT ($3 MILLION/$56 MILLION)

    Between fiscal year 2006 and 2007, NIH funding for FSHD increased 
from $1,732,655 to $4,108,555. In fiscal 2007, FSHD was 8.7 percent of 
the total muscular dystrophy funding ($4.109 million/$47.179 million).
    Between fiscal year 2007 and 2008, NIH funding for FSHD decreased 
from $4,108,555 to $3 million under the ``2007 and 2008 NIH Revised 
Method.'' The ``2007 NIH Historical Method'' was restated to $3 
million. In fiscal 2008 under ``NIH Revised Method,'' FSHD was 5.3 
percent of the total muscular dystrophy funding ($3 million /$56 
million). The previous years 2006/2007 figures are revised and restated 
under ``2007 NIH Historical Method'' as ($3 million/$58 million) which 
is 5.1 percent of the total muscular dystrophy funding. FSHD funding 
has merely kept its ratio in the NIH funding portfolio and has not 
grown in the last 7 years.
    We highly commend the Director of the NIH on the ease of use and 
the accuracy of the Research Portfolio Online Reporting Tool (RePORT) 
report ``Estimates of Funding for Various Research, Condition, and 
Disease Categories (RCDC)'' with respect to reporting projects on 
facioscapulohumeral muscular dystrophy.

       NATIONAL INSTITUTES OF HEALTH (NIH) APPROPRIATIONS HISTORY
                          [Dollars in millions]
------------------------------------------------------------------------
                                                               FSHD
                                           FSHD research   percentage of
               Fiscal year                    dollars        muscular
                                                             dystrophy
------------------------------------------------------------------------
2002....................................            $1.3               5
2003....................................             1.5               4
2004....................................             2.2               6
2005....................................               2               5
2006....................................             1.7               4
2007....................................               3               5
2008....................................               3               5
------------------------------------------------------------------------

    The MD CARE Act 2008 mandates the NIH Director to intensify efforts 
and research in the muscular dystrophies, including FSHD, across the 
entire NIH. It should be very concerning that in the last 7 years 
muscular dystrophy has tripled to $56 million and that FSHD has 
remained at 5 percent of the NIH muscular dystrophy portfolio or $3 
million. Only three of the Institutes at the NIH are funding FSHD. OD, 
National Heart, Lung, and Blood Institute, National Institute of 
General Medical Sciences, National Institute of Biomedical Imaging and 
Bioengineering, National Institute on Deafness and Other Communication 
Disorders, National Human Genome Research Institute , NEI, National 
Institute on Aging, National Cancer Institute, and National Center for 
Research Resources are all aware of the high impact each could have on 
FSHD. FSHD is certainly still far behind when we look at the breadth of 
research coverage NIH-wide.
    Now, FSHD is published as the most prevalent muscular dystrophy, 
and given the extraordinary interest of the scientific and clinical 
communities in its unique disease mechanism, it defies gravity that it 
still remains the most prevalent and one of the most underfunded 
dystrophies at the NIH and in the Federal research agency system 
(Centers for Disease Control and Prevention, Department of Defense, and 
Food and Drug Administration). In 2008, the third most prevalent 
dystrophy, Duchenne (DMD) and Becker Muscular dystrophy (BMD) type, 
received $22 million from NIH. In 2008, the second most prevalent 
dystrophy myotonic dystrophy (DM), received $9 million from NIH. In 
2008, the most prevalent dystrophy, FSHD, received $3 million from NIH. 
It is now time to flip the stack and to make sure that FSHD with its 
equal burden of disease and highest prevalence gets more funding, 
stimulus and that NIH program staff initiates request for applications 
specifically in FSHD. It is crystal clear, if not completely black and 
white, that the open mechanism program announcement and investigator 
driven model are not achieving the goal mandated by the MD CARE Acts 
2001/2008 and by the NIH Action Plan for the Muscular Dystrophies as 
submitted to the Congress by the NIH. Efforts of excellent program 
staff and leadership at NIH, excellent reviewers and study sections, 
excellent and outstanding researchers working on FSHD and submitting 
applications to the NIH, and extraordinary efforts of the volunteer 
health agencies working in this area have not yet enabled FSHD funding 
to increase at the NIH. It is time for NIH requests, contracts, and 
calls for researcher proposals on FSHD to bootstrap existing FSHD 
research worldwide.
    I am here once again to remind you that FSHD is taking its toll on 
your citizens. FSHD illustrates the disparity in funding across the 
muscular dystrophies and recalcitrance in growth over 20 years despite 
consistent pressure from appropriations language and Appropriations 
Committee questions, and an authorization and a reauthorization from 
Congress mandating research on FSHD.

           OUR REQUEST TO THE NIH APPROPRIATIONS SUBCOMMITTEE

    We request this year in fiscal year 2010, immediate help for those 
of us coping with and dying from FSHD. We ask NIH to fund research on 
FSHD at a level of $10 million in fiscal year 2010.
    We implore the Appropriations Committee to request that the 
Director of NIH, the chairman/chairwoman, and executive secretary of 
the Federal advisory committee Muscular Dystrophy Coordinating 
Committee mandated by the MD CARE Act of 2008, to increase the amount 
of FSHD research and projects in its portfolios using all available 
passive and pro-active mechanisms and interagency committees. Given the 
knowledge base and current opportunity for breakthroughs in treating 
FSHD it is inequitable that only 3 of the 12 NIH Institutes covering 
muscular dystrophy have a handful of research grants for FSHD. We 
request that the Director of the NIH be more proactive in facilitating 
grant applications (unsolicited and solicited) from new and existing 
investigators and through new and existing mechanisms, special 
initiatives, training grants and workshops--to bring knowledge of FSHD 
to the next level.
    Thanks to your efforts and the efforts of your subcommittee, Mr. 
Chairman, the Congress, the NIH and the FSH Society are all working to 
promote progress in FSHD. Our successes are continuing and your support 
must continue and increase.
    We ask you to fund NIH research on FSHD at a level of $10 million 
in fiscal year 2010.
    Mr. Chairman, thank you for this opportunity to testify before your 
subcommittee.
                                 ______
                                 
       Prepared Statement of the Family Violence Prevention Fund

    The Family Violence Prevention Fund (FVPF) works to end violence 
against women and children around the world, because every person has 
the right to live free of violence. The FVPF's National Health Resource 
Center on Domestic Violence provides critical information to thousands 
of healthcare providers, institutions, domestic violence service 
providers, Government agencies, researchers, and policy makers each 
year. Its public education campaigns, conducted in partnership with The 
Advertising Council, have shaped public awareness and changed social 
norms for 15 years.

 STRENGTHENING THE HEALTHCARE SYSTEM'S RESPONSE TO DOMESTIC VIOLENCE, 
             DATING VIOLENCE, SEXUAL ASSAULT, AND STALKING

    Through our work as the National Health Resource Center on Domestic 
Violence, I know the critical role healthcare providers can play in 
preventing and responding to violence against women and children, 
particularly during this difficult economic time when rates of abuse in 
families seem to be rising. But it is not simply a moral imperative 
that we try to reduce violence and abuse in this country; it is an 
economic necessity that Congress supports prevention and intervention 
efforts in the healthcare system. The Centers for Disease Control and 
Prevention (CDC) classifies violence and abuse as a ``substantial 
public health problem in the United States,'' noting the long-term 
impact of violence and abuse has huge implications for health outcomes 
and costs.
    Children who experience childhood trauma, including witnessing 
incidents of domestic violence, are at a greater risk of having serious 
adult health problems including tobacco use, substance abuse, cancer, 
heart disease, depression and a higher risk for unintended pregnancy. 
Twenty years of research links childhood exposure to violence with 
chronic health conditions including obesity, asthma, arthritis, and 
stroke. It is worth noting that victims, particularly of sexual 
violence, are linked with obesity. A meta-analysis of research on the 
impact of adult intimate partner violence finds that victims of 
domestic violence are at increased risk for conditions such as heart 
disease, stroke, hypertension, cervical cancer, chronic pain including 
arthritis, neck and pain, and asthma. In addition to injuries, adult 
intimate partner violence also contributes to a number of mental health 
problems including depression and PTSD, risky health behaviors such as 
smoking, alcohol and substance abuse, and poor reproductive health 
outcomes such as unintended pregnancy, pregnancy complications, 
postpartum depression, poor infant health outcomes and sexually 
transmitted infections including HIV.
    According to a CDC survey, women who have experienced domestic 
violence are 80 percent more likely to have a stroke, 70 percent more 
likely to have heart disease, 60 percent more likely to have asthma and 
70 percent more likely to drink heavily than women who have not 
experienced intimate partner violence.
    When Congress joined together to reauthorize the Violence Against 
Women Act (VAWA) of 2005 (Public Law 109-162), the law included new 
provisions to educate and train healthcare providers and public health 
professionals on how to safely screen and intervene in cases of 
domestic and sexual violence. These provisions were added after years 
of work by medical associations, health professionals, advocates and a 
National Health Care Standards Campaign on Domestic Violence funded by 
the U.S. Department of Health and Human Services. These collaborations 
successfully developed strategies, tools, and policies to identify and 
help victims in health settings.
    We know that most women seek healthcare services regularly, either 
for routine, emergency, perinatal, or pediatric care. As a result, 
healthcare providers are in a unique position to identify and reach out 
to victims of violence, long before they may seek help from a domestic 
violence shelter, rape crisis center, law enforcement agency, or family 
member. However, fewer than 10 percent of primary care physicians 
routinely screen patients for domestic violence during regular office 
visits, according to a study published by the Journal of the American 
Medical Association.
    Research on the most effective interventions in the healthcare 
setting and prevention messages would have significant public health 
benefits and cost savings to the healthcare system. While we do not 
know the full cost of violence and abuse to the healthcare system, 
previous studies have shown that those who experience abuse access 
healthcare 2 to 2.5 times more frequently than those without that 
history. Research shows that intimate partner violence alone costs a 
health plan $19.3 million each year for every 100,000 women between the 
ages of 18 and 64 enrolled.
    Far more important is the cost of violence and abuse over time. 
Even 5 years after abuse has ended, healthcare costs for women with a 
history of intimate partner violence remain 20 percent higher than 
those for women with no history of violence. A study by the CDC in 2003 
estimated the direct medical costs of only injuries and mental health 
services related to intimate partner violence at $4.1 billion alone, 
this does not include any evaluation of costs associated with chronic 
health issues or reproductive health issues discussed above and known 
to be highly prevalent among victims of abuse. A recent report by the 
Academy on Violence and Abuse estimated the actual cost to the 
healthcare system of violence and abuse may be nearly 17 percent of the 
total healthcare dollar or $333 billion in 2008.
    But early identification and treatment of victims can financially 
benefit the healthcare system. Initial and unpublished findings from 
one study found that hospital-based domestic violence interventions may 
reduce healthcare costs by at least 20 percent. Preventing abuse or 
associated health risks and behaviors clearly could have long term 
implications for decreasing chronic disease and costs. Because of the 
long-term impact of abuse on a patient's health, I recommend 
integrating assessment for current and lifetime physical or sexual 
violence exposure and interventions into routine care. Regular, face-
to-face screening of women by skilled healthcare providers markedly 
increases the identification of victims of intimate partner violence 
(IPV), as well as those who are at risk for verbal, physical, and 
sexual abuse. Routine inquiry of all patients, as opposed to indicator-
based assessment, increases opportunities for both identification and 
effective interventions, validates IPV as a central and legitimate 
healthcare issue, and enables providers to assist both victims and 
their children.
    When victims or children exposed to IPV are identified early, 
providers may be able to break the isolation and coordinate with 
domestic violence (DV) advocates to help patients understand their 
options, live more safely within the relationship, or safely leave the 
relationship. Expert opinion suggests that such interventions in adult 
health settings may lead to reduced morbidity and mortality. Assessment 
for exposure to lifetime abuse has major implications for primary 
prevention and early intervention to end the cycle of violence.
    Just as the healthcare system has always played an important role 
in identifying and preventing other serious public health problems, I 
believe it can and must play a pivotal role in domestic and sexual 
violence prevention and intervention. It is clear that by funding these 
innovative and life-saving health provisions established by title V in 
VAWA 2005, we can help save the lives of victims of violence and 
greatly reduce healthcare expenses.
    In order to advance necessary and needed health goals, I urge you 
to provide $13 million to the Department of Health and Human Services 
to fully fund the Violence Against Women Act's Health Care Programs for 
fiscal year 2010, and specifically fund the following Labor, Health and 
Human Services, and Education, and Related Agencies programs 
accordingly:
  --Training and Education of Health Professionals Program.--$3 million 
        to train healthcare providers and students in health 
        professional schools how to identify and screen victims of 
        domestic and sexual violence; ensure immediate safety; document 
        their injuries; and refer them to appropriate services;
  --Fostering Public Health Responses.--$5 million to promote public 
        health programs that integrate domestic and sexual violence 
        assessment and intervention into basic care, as well as 
        encourage collaborations between healthcare providers, public 
        health programs, and domestic and sexual violence programs; and
  --Research on Effective Interventions.--$5 million to support 
        research and evaluation on effective interventions in the 
        healthcare setting to improve abused women's health and safety 
        and prevent initial victimization.

                PROTECT NONABUSIVE PARENTS AND CHILDREN

    Another area of concern is the intersection of domestic violence 
and child abuse, which often occur in the same family. Approximately 45 
percent of female caregivers of children reported for child 
maltreatment have experienced intimate partner violence in their 
lifetime and 29 percent in the past year. In a study of families 
investigated for child maltreatment, 31 percent of female caregivers 
reported experiencing intimate partner violence in the past year; 
however child welfare workers only identified this abuse in 12 percent 
of the families.
    When child welfare agencies work alone in responding to child 
maltreatment, they may not understand the complexity of the domestic 
violence situation and ``pre-emptively'' remove the child without 
offering services to the adult victim. This can have a devastating 
result for both the child and the nonabusive caretaker. In addition, 
the opposite approach may also be taken. Frequently, the child 
protective system fails to take seriously the threat posed by an 
abusive husband or partner and fails to take any action to support the 
mother's efforts to keep her and her children safe and hold him 
accountable for his actions.
    By supporting agencies in cooperative efforts to provide services 
to victims--both children and their nonabusive caretakers--it is 
possible to keep families safe and united during the difficult process 
of ending abuse.

 THE SOLUTION: IMPROVE COOPERATION BETWEEN CHILD WELFARE AND DOMESTIC 
                           VIOLENCE ADVOCATES

    Building on what was commonly known as the ``Greenbook Project,'' a 
federally funded demonstration grant program, VAWA 2005 authorized a 
program to create grants for training and collaboration on the 
intersection between domestic violence and child maltreatment. The 
intent is to ensure that nonabusive family members receive the services 
they need to keep their families safe, and community services can deal 
with both problems simultaneously, allowing for a better use of our 
limited resources. As the two problems often occur together, dealing 
with one problem and not the other is at the peril of our children.
    I urge you to fully fund Training and Collaboration on the 
Intersection Between Domestic Violence and Child Maltreatment Program 
at $5 million to help serve families experiencing violence.
    In addition, I ask that you continue to support full funding for 
the Family Violence Prevention and Services Act, the Nation's only 
designated Federal funding source for domestic violence shelters and 
services. As leaders committed to both the prevention of intimate 
partner violence and to the health and safety of victims, I urge you to 
fund these critical programs.
                                 ______
                                 
           Prepared Statement of the HIV Medicine Association

    The HIV Medicine Association (HIVMA) of the Infectious Diseases 
Society of America (IDSA) represents more than 3,600 physicians, 
scientists, and other healthcare professionals who practice on the 
frontline of the HIV/AIDS pandemic. Our members provide medical care 
and treatment to people with HIV/AIDS throughout the United States, 
lead HIV prevention programs and conduct research to develop effective 
HIV prevention and treatment options. As medical providers and 
researchers dedicated to the field of HIV medicine, we work in 
communities across the country and around the globe. We appreciate the 
fiscal challenges that you currently face, but the state of the economy 
makes it imperative that our Nation has a strong healthcare safety net, 
effective programs for preventing infectious diseases like HIV and a 
vibrant scientific research agenda.
    The U.S. investment in HIV/AIDS programs has revolutionized HIV 
care globally making HIV treatment one of the most effective medical 
interventions available. A robust research agenda and rapid public 
health implementation of scientific findings have transformed the HIV 
epidemic reducing morbidity and mortality due to HIV disease by nearly 
80 percent in the United States. The Ryan White program has played a 
critical role in ensuring that many low-income people with HIV have 
access to lifesaving HIV treatment. However, the impact of our 
diminished investment in public health and research programs over the 
last several years has taken its toll in communities across the 
country. HIV clinics are cutting hours and services while new HIV cases 
are increasing by at least 15 percent.
    We face a critical juncture when we must either shore up our 
healthcare safety net, public health infrastructure, and research 
programs or risk serious regression in our fight against this deadly 
disease. The funding requests in our testimony largely reflect the 
consensus of the Federal AIDS Policy Partnership (FAPP) a coalition of 
HIV organizations from across the country, and are estimated to be the 
amounts necessary to sustain and strengthen our investment in combating 
HIV disease.

 CENTER FOR DISEASE CONTROL AND PREVENTION'S (CDC) NATIONAL CENTER FOR 
      HIV/AIDS, VIRAL HEPATITIS, STD, AND TB PREVENTION (NCHHSTP)

    HIVMA strongly supports an increase of $1.27 billion in funding for 
the CDC's NCHHSTP with an increase of $878 million for HIV prevention 
and surveillance, an increase of $31.7 million for viral hepatitis and 
$66.1 million for Tuberculosis prevention.
    Every 9\1/2\ minutes a new HIV infection happens in the United 
States with more than 60 percent of new cases occurring among African 
Americans and Hispanic/Latinos. While new HIV cases have increased, the 
CDC's HIV prevention budget has declined 19 percent compared to 
inflation since 2002. A failure to invest now in HIV prevention will be 
costly. The CDC estimates that the 56,300 new HIV infections each year 
in the United States may result in $56 billion in medical care and lost 
productivity.
    We strongly support the CDC initiative to integrate HIV screening 
into medical care and remain seriously concerned about the lack of 
Federal resources available to State health departments, medical 
institutions, community health centers, and other community-based 
organizations for implementing these programs. Increased HIV screening 
with linkage to care and treatments will help lower HIV incidence and 
prevalence in the United States. Effective treatment reduces the virus 
to very low levels in the body and greatly reduces the risk of HIV 
transmission. Furthermore through education, counseling and treatment, 
individuals who are aware that they have HIV are less likely to 
transmit the virus. The transmission rates among people who know their 
status is 1.7 percent to 2.4 percent compared to transmission rates of 
8.8 percent to 10.8 percent for those who are unaware they are infected 
with HIV.
    Despite the known benefit of effective treatment, 21 percent of 
people living with HIV in the United States are still not aware of 
their status and as many as 36 percent of people newly diagnosed with 
HIV progress to AIDS within 1 year of diagnosis. Identifying people 
with HIV earlier through routine HIV testing and linking them to HIV 
care saves lives and is more cost effective for the healthcare system. 
One study found that people living with HIV disease receiving care at 
the later stages of the disease expended 2.6 times more in healthcare 
dollars than those receiving treatment according to the standard of 
care recommended in the Federal HIV treatment guidelines.
    An infusion of HIV prevention funding is critical to restore and 
enhance HIV prevention cooperative agreements with State and local 
health departments; to optimize core surveillance cooperative 
agreements with health departments and to expand HIV testing in key 
healthcare venues by funding testing infrastructure, the purchase of 
approved testing devices, including rapid HIV tests and confirmatory 
testing.
    Finally, we also must increase support for science-based, 
comprehensive sex education programs. We strongly urge Congress to 
discontinue funding for unproven abstinence-only sex education programs 
and shift these funds to support comprehensive, age-appropriate sex 
education programs.

                           CDC--TUBERCULOSIS

    Tuberculosis is the major cause of AIDS-related mortality 
worldwide. Congress passed landmark legislation--the Comprehensive 
Tuberculosis Elimination Act of 2008--Public Law 110-873 last year that 
authorizes a number of actions that will shore up State TB control 
programs, enhance U.S. capacity to deal with the serious threat of 
drug-resistant tuberculosis and escalate our efforts to develop 
urgently needed new ``tools'' in the form of drugs, diagnostics, and 
vaccines. It is critical that the $210 million in funding authorized 
for fiscal year 2010 in this important new law is appropriated for the 
CDC Division of TB Elimination. This represents an increase of $66.1 
million more than current funding levels. Funding to support the 
prevention, control, and elimination of tuberculosis must increase 
substantially if we are going to make headway against this deadly 
disease and to address the emerging threat of highly drug resistant 
tuberculosis.

                          CDC--VIRAL HEPATITIS

    Funds are urgently needed to provide core public health services 
and to track chronic cases of hepatitis. Hepatitis is a serious co-
infection for nearly one-third of our HIV patients. We strongly urge 
you to boost funding for viral hepatitis at the CDC by $31 million for 
a total funding of $50 million.

  HIV/AIDS BUREAU OF THE HEALTH RESOURCES AND SERVICES ADMINISTRATION

    We strongly urge you to increase funding for the Ryan White program 
by $577 million in fiscal year 2010 with at least an increase of $68.4 
million for part C for a total appropriation of $270,254,000. We also 
strongly support the $4 million included in the President's budget to 
support in-depth, long-term HIV training opportunities for primary care 
clinicians.
    Ryan White part C funds comprehensive HIV care and treatment--the 
services that are directly responsible for the dramatic decreases in 
AIDS-related mortality and morbidity over the last decade. While the 
patient load in part C programs has been rising in number, funding for 
part C has effectively decreased. Part C programs expect a continued 
increase in patients due to higher diagnosis rates and declining 
insurance coverage. During this economic downturn people with HIV 
across the country will rely on part C comprehensive services more than 
ever. An increase in funding is critical to ensure that clinics are 
able to prevent staffing cuts, as well as, to ensure the public health 
of our communities. Part C of the Ryan White program has been under-
funded for years, but new pressures are creating a crisis in 
communities across the country. The HIV medical clinics funded through 
part C have been in dire need of increased funding for years. Years of 
near flat funding, combined with large increases in the patient 
population, are negatively impacting the ability of part C providers to 
serve their patients.
    With the rapid cost increases in all aspects of healthcare 
delivery, despite small funding increases, programs are still operating 
at a funding deficit because they are serving more patients than ever. 
In 2008, part C programs will treat an estimated 248,070--a dramatic 30 
percent increase in less than 10 years. Part C clinics are laying off 
staff, discontinuing critical services such as laboratory monitoring, 
creating waitlists, and operating on a 4-day work week just to get by. 
HIVMA strongly supports the effort led by the Ryan White Medical 
Providers Coalition to double funding for Ryan White part C programs by 
fiscal year 2012. These funds are urgently critical to meet the needs 
of HIV patients served by part C around the country.
    The $4 million proposed in the President's budget to support 
longer-term training opportunities in HIV medicine or clinical HIV 
fellowships for primary care practitioners is vital to drawing 
clinicians into the field of HIV medicine and ensuring new HIV 
clinicians have the skills and expertise to provide effective HIV care. 
More that a one-quarter of a century into the HIV epidemic, we are 
seeing the graying of our Nation's HIV clinical workforce, and we have 
serious concerns about ensuring a new generation of HIV medical 
providers to care for Americans with HIV. In a recent survey of Ryan 
White part C clinics--nearly 70 percent reported difficulty recruiting 
and retaining HIV clinicians. One of the top barriers identified to 
retention and to recruitment was lack of a qualified workforce. We must 
promptly and swiftly address this issue before its effects are felt in 
increases in morbidity and mortality from HIV and the proposed $4 
million for more intensive training in HIV medicine would be an 
important first step.
    We also respectfully urge you to include at least $1 million in 
this year's Labor, Health and Human Services, and Education, and 
Related Agencies appropriations bill for a study to evaluate the 
capacity of the HIV medical workforce as well as potential strategies 
to increase the numbers of young physicians, nurse practitioners and 
physician assistants entering HIV medicine.

      NATIONAL INSTITUTES OF HEALTH (NIH)--OFFICE OF AIDS RESEARCH

    HIVMA strongly supports an increase of at least $3.7 billion for 
all research programs at the NIH, including at least a $500 million 
increase for the NIH Office of AIDS. This level of funding is vital to 
sustain the pace of research that will improve the health and quality 
of life for millions of Americans.
    HIVMA strongly supported the infusion of NIH research dollars 
included in the economic recovery bill. The desperately needed funding 
came at a critical time to sustain our Nation's scientific research 
capacity while stimulating the economy in communities across the 
country.
    Prior to the boost in NIH funding, the declining U.S. investment in 
biomedical research had taken its toll in deep cuts to clinical trials 
networks and significant reductions in the numbers of high-quality, 
investigator-initiated grants that were approved. With only 1 in 4 
research applications receiving funding, the pipeline for critical 
discoveries and HIV scientists has been dwindling and our role as a 
leader in biomedical research is at serious risk.
    Our past investment in a comprehensive portfolio was responsible 
for the dramatic gains that we made in our HIV knowledge base, gains 
that resulted in reductions in mortality from AIDS of nearly 80 percent 
in the United States and in other countries where treatment is 
available. Gains that also helped us to reduce the mother to child HIV 
transmission rate from 25 percent to nearly 1 percent in the United 
States and to very low levels in other countries where treatment is 
available.
    A continued robust AIDS research portfolio is essential to sustain 
and to accelerate our progress in offering more effective prevention 
technologies; developing new and less toxic treatments; and supporting 
the basic research necessary to continue our work developing a vaccine 
that may end the deadliest pandemic in human history. The sheer 
magnitude of the number of people affected by HIV--more than 1 million 
people in the United States; more than 33 million people globally--
demands a continued investment in AIDS research if we are going to 
truly eradicate this devastating disease. We believe a high priority 
should be research to discover novel prevention strategies, to improve 
available treatment strategies, to aid prevention and to maximize the 
benefits of antiretroviral therapy, especially in the populations 
disproportionately affected by HIV in the United States and in 
resource-limited settings.
    We also continue to support the NIH's Fogarty International Center 
(FIC) and recommend an expansion of its programs and funding. The FIC 
training programs play a critical role in developing self-sustaining 
healthcare infrastructures in resource-limited countries. These 
important programs offer invaluable training and mentoring to 
indigenous physicians from the countries hardest hit by the HIV 
pandemic and other deadly infectious diseases, such as malaria and 
tuberculosis. Physicians trained through the FIC are able to develop 
research programs that more effectively address the healthcare, 
cultural and resource needs of their country's residents while also 
fostering the development of ongoing, robust research and clinical 
programs.
    Historically, our Nation has made significant strides in responding 
to the HIV pandemic here at home and around the world, but we have lost 
ground in recent years, particularly domestically, as funding 
priorities have shifted away from public health and research programs. 
We appreciate the many difficult decisions that Congress faces this 
year but urge you to recognize the importance of investing in HIV 
prevention, treatment, and research now to avoid the much higher cost 
that individuals, communities, and broader society will incur if we 
fail to sustain these programs now. We have the opportunity to limit 
the toll of this deadly infectious disease on our planet and to save 
the lives of millions who are infected or at risk of infection here in 
the United States and around the globe.
                                 ______
                                 
                    Letter From the HIV Law Project
                                        New York, NY, May 22, 2009.
Hon. Tom Harkin,
Chairman, Subcommittee on Labor, Health, and Human Services, and 
        Education, and Related Agencies, Washington, DC.
    Dear Chairman Harkin: We respectfully request that you eliminate 
all funding for abstinence-only-until-marriage programs (in particular 
the Community-Based Abstinence Education Program as well as the Title V 
Abstinence Education Programs), and instead fund programs that provide 
medically accurate, age-appropriate comprehensive sex education.
    President Obama has recently released a budget that zeroes out 
these funding streams for abstinence-only-until-marriage programs. We 
applaud his leadership in stopping the flow of dollars that has funded 
these ineffective and inaccurate programs for too long. Yet the 
President's budget proposes to replace these programs with a new Teen 
Pregnancy Prevention Initiative that falls short of the needed 
comprehensive sexuality education programming, and opens the door to 
again funding ineffectual abstinence-only programs with new dollars.
    Moving forward, we ask that you follow President Obama's lead in 
advancing public health over ideology by embracing evidence- and 
science-based educational programs through the elimination of funding 
for abstinence-only programs. But we believe that new funds to protect 
the sexual and reproductive health of adolescents through educational 
programming must be comprehensive in nature, and not limited to the 
single issue of teen pregnancy prevention.

               WHAT IS COMPREHENSIVE SEXUALITY EDUCATION?

    Comprehensive sexuality education programs include age-appropriate, 
medically accurate information on a wide range of topics related to 
sexuality including relationships, decisionmaking, abstinence, 
contraception, and disease prevention. They provide students with 
opportunities for developing interpersonal and relationship skills as 
well as learning accurate information. Comprehensive sexuality 
education programs help young people exercise responsibility regarding 
sexual relationships by addressing abstinence, pressures to engage in 
sexual intercourse prematurely, and the use of contraception. 
Comprehensive sexuality education also addresses prevention against the 
triple threats of unwanted teen pregnancies, sexually transmitted 
infections, and HIV in order to preserve the sexual and reproductive 
health of our young people.

        ABSTINENCE-ONLY PROGRAMS ARE INEFFECTIVE AND INACCURATE

    Contrary to the claims of abstinence-only proponents, these 
programs have had no positive impact on teen sexuality. A study 
commissioned by the U.S. Department of Health and Human Services found 
that youth who participated in abstinence-only programs were no more 
likely than their peers to abstain from sex, and participants reported 
having similar numbers of sexual partners and having initiated sex at 
the same average age as their counterparts who did not participate in 
the programs.\1\
---------------------------------------------------------------------------
    \1\ Trenholm, Christopher, Barbara Devaney, Ken Fortson, et al. for 
Mathematica Policy Research. ``Impacts of Four Title V, Section 510 
Abstinence Education Programs. Final Report.'' April 2007. Available at 
http://www.mathematica-mpr.com/publications/PDFs/impactabstinence.pdf
---------------------------------------------------------------------------
    Teaching abstinence is appropriate if discussed as one among many 
possible approaches to staying healthy, and avoiding unintended 
pregnancy. The problem is teaching abstinence only. Abstinence-only-
until-marriage programs are prohibited from teaching about 
contraceptives, except to emphasize their failure rates. Many of the 
most popular federally funded, abstinence-only curricula are rife with 
false and misleading information, including that condoms fail to 
prevent the spread of HIV approximately 31 percent of the time in 
heterosexual sex, and that HIV is spread through sweat and tears. By 
their very definition, abstinence-only programs perpetuate ignorance as 
well as homophobia by teaching that a mutually faithful monogamous 
relationship in the context of marriage is the expected standard of 
sexual activity, and that sexual activity outside of the context of 
marriage is likely to have harmful psychological and physical effects.

        COMPREHENSIVE SEXUALITY EDUCATION PROGRAMS ARE EFFECTIVE

    A rigorous review of 48 studies evaluating the efficacy of domestic 
comprehensive sexuality education programs found numerous positive 
outcomes, and debunked all the myths that serve to hamper governmental 
support of comprehensive sexuality education:\2\
---------------------------------------------------------------------------
    \2\ Douglas Kirby, Ph.D. et al. ``Emerging Answers 2007: Research 
Findings on Programs to Reduce Teen Pregnancy and Sexually Transmitted 
Diseases.'' November 2007. Available at http://
www.thenationalcampaign.org/EA2007/EA2007_full.pdf
---------------------------------------------------------------------------
  --Comprehensive sexuality education program participants were found 
        to delay sexual initiation in 40 percent of the programs 
        reviewed, and no study found that comprehensive sexuality 
        education programs hasten the initiation of sex.
  --Of the studies that measured the programs' impact on frequency of 
        sexual activity among participants, 30 percent found that 
        programs reduced the frequency of sexual activity, and none 
        found an increase in frequency.
  --A decrease in the number of sexual partners was documented by 41 
        percent of those studies measuring for this.
  --An increase in condom use among program participants was found by 
        41 percent of the studies.
  --56 percent of the programs found that sexuality and STD/HIV 
        education programs significantly reduced sexual risk-taking. 
        Reducing risk-taking reduces the transmission of STIs and HIV, 
        and helps to prevent unwanted pregnancies. None of the programs 
        increased sexual risk-taking.
  --One of the studies estimated the cost-effectiveness of a sex 
        education program, and found that for every $1 invested in the 
        comprehensive sexuality program studied, $2.65 was saved in 
        medical and social costs, attributable to pregnancy prevention 
        and prevention of the transmission of sexually transmitted 
        infections, including HIV.

            THE PUBLIC SUPPORTS COMPREHENSIVE SEX EDUCATION

    A 2004 poll by Harvard's Kennedy School of Government, the Kaiser 
Family Foundation, and National Public Radio found that 77 percent of 
Americans believe that giving teens information about how to obtain and 
use condoms makes it more likely that teens will practice safe sex now 
or in the future. Further, a mere 7 percent of Americans said sex 
education should not be taught in schools.\3\
---------------------------------------------------------------------------
    \3\ National Public Radio, Kaiser Family Foundation, and Kennedy 
School of Government, ``Sex Education in America: General Public/
Parents Survey.'' January 2004. Available at http://www.kff.org/
newsmedia/upload/Sex-Education-in-America-Summary.pdf
---------------------------------------------------------------------------
                       YOUTH ARE SEXUALLY ACTIVE

    One of the fundamental problems with abstinence-only programs is 
that they ignore the reality of teenage sexuality. According to the 
Centers for Disease Control and Prevention, in 2007, 47 percent of high 
school students had sex at some time. In addition, nearly 15 percent of 
students had sex with four or more sexual partners.\4\ Further, that 
same year 38 percent of high school students who were then sexually 
active had not used a condom during last sexual intercourse. In other 
words, sexually active youth are engaging in risky sexual behaviors.
---------------------------------------------------------------------------
    \4\ Centers for Disease Control and Prevention. ``Youth Risk 
Behavior Surveillance--United States, 2007''. June 6, 2008. Available 
at: http://www.cdc.gov/mmwr/preview/mmwrhtml/ss5704a1.htm
---------------------------------------------------------------------------
           negative health outcomes are prevalent among youth
  --Almost half of all new STD infections are among youth aged 15 to 
        24.
  --Approximately 14 percent of the persons diagnosed with HIV/AIDS in 
        2006 were young people, between the ages of 13 and 24.
  --In 2002, there were approximately 757,000 pregnancies among 
        adolescents aged 15-19.\5\
---------------------------------------------------------------------------
    \5\ Centers for Disease Control and Prevention, ``Sexual Risk 
Behaviors''. Available at http://www.cdc.gov/healthyyouth/
sexualbehaviors/index.htm
---------------------------------------------------------------------------
    Comprehensive sex education has great potential to influence safer 
sexual behavior among youth and reduce the risk of HIV and STI 
transmission, as well as prevent unwanted pregnancies. Yet many young 
people still lack both the knowledge and the skills to minimize their 
risk. Prevention is not possible without knowledge of risk and 
appropriate risk-reduction strategies.

 SCHOOLS ARE FAILING TO EDUCATE STUDENTS ABOUT SEXUAL AND REPRODUCTIVE 
                                 HEALTH

    Unfortunately, recent history indicates that young people are 
becoming less able to protect themselves due to their schools' failure 
to provide comprehensive sexuality education. In 2006, only 38.5 
percent of high schools provided students with information regarding 
proper condom use,\6\ a decrease from 2000 when 55.1 percent of high 
schools provided this information.\7\ Additionally, while 96 percent of 
States provided funding for or offered staff development on HIV 
prevention to health educators in 2000, only 84 percent did so in 
2006.\8\
---------------------------------------------------------------------------
    \6\ SHPPS 2006. ``HIV Prevention''. Available at: http://
www.cdc.gov/HealthyYouth/SHPPS/2006/factsheets/pdf/
FS_HIVPrevention_SHPPS2006.pdf
    \7\ SHPPS 2000. ``Fact Sheet: HIV Prevention''. Available at: 
http://www.cdc.gov/HealthyYouth/SHPPS/2000/factsheets/pdf/hiv.pdf
    \8\ SHPPS 2006. ``HIV Prevention''.
---------------------------------------------------------------------------
    In sum, young people need prevention information and skills in 
order to make healthy decisions. Funding for abstinence-only 
programming, which has been proven ineffective, must be eliminated and 
replaced with funds for comprehensive sexuality education. We cannot 
afford to continue to spend money on ineffective programs. Our young 
people deserve, and it is Government's obligation to provide, programs 
that give them the information they need to make responsible decisions 
to maintain their own sexual and reproductive health.
            Sincerely yours,
                    ADAP Advocacy Association; African Services 
                            Committee; AIDS Alabama; AIDS Alliance for 
                            Children, Youth and Families; AIDS Law 
                            Project of Pennsylvania; Alliance of AIDS 
                            Services--Carolina; Cascade AIDS Project; 
                            Center for HIV Law & Policy; Center for 
                            Women & HIV Advocacy at HIV Law Project; 
                            CHAMP.
                    Christie's Place; Colorado AIDS Project; Community 
                            Access National Network; Global Life Works; 
                            HIVictorious, Inc.; Housing Works; Positive 
                            Women's Network; Latino Commission on AIDS; 
                            Lifelong AIDS Alliance; National Alliance 
                            of State and Territorial AIDS Directors.
                    New York City AIDS Housing Network (NYCAHN); 
                            Sisterlove; SMART (Sisterhood Mobilized for 
                            AIDS/HIV Research & Treatment); The Women's 
                            Collective; Women's HIV Collaborative of 
                            New York; Women's Initiative to Stop HIV--
                            NY of the Legal Action Center; Women's 
                            Lighthouse Project; Women Organized to 
                            Respond to Life-Threatening Diseases 
                            (WORLD); Young Women of Color HIV/AIDS 
                            Coalition.
                                 ______
                                 
                    Prepared Statement of HONOReform

    Mr. Chairman and members of the subcommittee: As president and 
cofounder of Hepatitis Outbreaks National Organization for Reform 
(HONOReform), I want to take this opportunity to thank you for the 
leadership role this subcommittee has played on healthcare acquired 
infections (HAIs). HONOReform is a nonprofit foundation that advances 
the lessons learned in hepatitis outbreaks and seeks to prevent future 
healthcare-associated hepatitis epidemics through education and policy 
reform.
    The Centers for Disease Control and Prevention (CDC) estimates 
there are 1.7 million infections resulting in approximately 99,000 
deaths annually in the United States, making HAIs the fourth-leading 
cause of death. Beyond the human toll, there is an enormous financial 
burden to our healthcare system.
    We are deeply concerned with the rise in the number of disease 
outbreaks related to the reuse of syringes and misuse of multidose 
vials in the outpatient setting. In the January 2009 edition of the 
Annals of Internal Medicine, an article by the CDC, revealed the 
occurrence of 33 outbreaks of viral hepatitis in healthcare settings 
over the last decade. All of these documented outbreaks occurred in 
nonhospital settings and involved failure on the part of healthcare 
providers to adhere to basic infection control practices, most notably 
by reusing syringes and other equipment intended for single use.
    I am a victim of what was the largest single source outbreak of 
Hepatitis C in U.S. history, until last year's Las Vegas, Nevada 
outbreak that potentially exposed more than 63,000 patients to 
hepatitis C. In 2001, I contracted hepatitis C through an oncology 
clinic (nonhospital setting), in Fremont, Nebraska as I was fighting to 
survive breast cancer for the second time. Ninety-eight other patients 
from the oncology clinic became infected with hepatitis C. The nurse 
would reuse the syringe for port flushes, which would then contaminated 
a 500cc saline bag. The saline bag was used for other patients, which 
in turn became the source of infection for multiple cancer patients. 
This improper practice was repeated on a regular basis over a 2-year 
period.
    I utilized my malpractice settlement to establish HONOReform in 
2007 to put an end to these completely preventable outbreaks. More than 
100,000 patients seeking healthcare and treatment have received letters 
notifying them of potential exposure to hepatitis and HIV due to 
improper injection practices in the last 10 years. In April 2009, two 
outbreaks in New Jersey--a cancer clinic and hospital--and an outbreak 
at a South Dakota outpatient urology clinic, conducted large patient 
notifications which further illustrates that this problem requires 
immediate action to protect the citizens that are accessing our 
healthcare system each day.
    Moreover, these hepatitis outbreaks are entirely preventable when 
healthcare providers adhere to proper infection control procedures. A 
2002 study by the American Association of Nurse Anesthetists (AANA) 
found that 1 percent of practitioners felt it was acceptable to reuse a 
syringe for multiple patients and more than 30 percent of healthcare 
providers believed it was acceptable to reuse a syringe on the same 
patient if the needle is changed.
    Mr. Chairman, beyond the significant risk posed to the physical 
health of patients, even the receipt of a notification of potential 
exposure can cause significant mental anguish and lead to an even 
greater danger--a loss of faith in the medical system by the public. 
Victims feel that they have been personally violated and betrayed by 
those to whom they entrusted their health. We, as a Nation, can not 
afford to ignore the issue and hope it goes away.
    Through its foundation, HONOReform has joined forces with the 
Accreditation Association for Ambulatory Health Care, AANA, Association 
for Professionals in Infection Control and Epidemiology, Ambulatory 
Surgery Foundation, Becton, Dickinson and Company, CDC, CDC Foundation, 
Nebraska Medical Association, and the Nevada State Medical Association, 
to establish the One & One Campaign. The One & Only Campaign is an 
effort aimed at re-educating healthcare providers that syringes and 
other medical equipment must not be reused and empowering patients to 
ask the right questions when seeking healthcare. If patients are 
knowledgeable about injection safety, they will be empowered to speak 
up in their provider's office to ask if they are getting ``One Needle, 
One Syringe, and Only One Time.
    In fiscal year 2009, the CDC received $2.5 million to establish a 
pilot campaign in Nevada for the launch of the One & Only Campaign, 
which we hope will be expanded to the national campaign with your 
support for continued and expanded funding in fiscal year 2010.
    Each of these requests will have a profound impact on all patients 
and consumers. They are aimed at reducing the knowledge gap for 
providers, empowering patients, tracking HAIs to limit the spread of 
disease, and improving the quality and standards of care in our 
Nation's ambulatory care facilities. By focusing on prevention, this 
subcommittee can realize savings for healthcare systems and promote 
increased patient safety for all Americans.
    Mr. Chairman, we respectfully request that the subcommittee 
continue supporting prevention efforts at CDC, HHS, and the Agency for 
Healthcare Research and Quality (AHRQ) to help prevent future hepatitis 
and HIV outbreaks through the following fiscal year 2010 appropriations 
requests:
    HONOReform requests $26 million for CDC's Division of Healthcare 
Quality and Promotion to build infrastructure for complete and 
consistent adherence to injection safety and infection control 
guidelines in the delivery of outpatient care.
    As you know, the migration of healthcare delivery from primarily 
acute care hospitals to other nonhospital settings (e.g., home care, 
ambulatory care, free-standing specialty care sites, long-term care, 
etc.) requires that common principles of infection control practice be 
applied to the spectrum of healthcare delivery settings. The CDC needs 
additional resources to use the knowledge gained through these 
activities to detect infections and develop new strategies to prevent 
healthcare-associated transmission of blood borne pathogens. This 
request includes the following elements:
  --Provider Education and Awareness.--Nine million dollars to be used 
        to support CDC's efforts around provider education and patient 
        awareness activities. Currently, the CDC along with patient 
        advocacy organizations, foundations, provider associations and 
        societies and industry partners have established the Safe 
        Injection Practices Coalition. The requested funding would be 
        used to roll out a national public health campaign focused on 
        safe injection practices. Additionally, funds will be used to 
        develop and disseminate safe practice materials and develop 
        related tools designed for inpatient and outpatient settings. 
        Innovative tools will be developed in conjunction with key 
        partners and stakeholders for use by providers and healthcare 
        personnel, including training tools to be used by professional 
        organizations and accreditation and licensing groups to 
        increase adherence to recommendations
  --Engineering and Innovation.--Eight million dollars would be used to 
        support CDC in promoting private-sector healthcare solutions to 
        injection safety and infection control problems by engage and 
        incentivizing the private sector to innovate and create fast 
        track engineering solutions to injection safety and infection 
        control problems through the development of innovative products 
        to reduce infection transmission for inpatient and outpatient 
        healthcare settings. With this funding, CDC will convene a 
        roundtable with industry, conduct a study on available 
        technology, assess opportunities for investment in research and 
        development, and examine incentives required for adoption of 
        equipment designed with engineering controls (e.g., sharps 
        disposal containers, self-sheathing needles, safer medical 
        devices, such as sharps with engineered sharps injury 
        protections and needless systems, etc.). CDC will also pursue 
        mechanisms such as grants or CRADAs with industry to accelerate 
        the development of products that have the potential for 
        eliminating the opportunity for human error from process of 
        administering injections.
  --Detection and Tracking.--Nine million dollars would be used for 
        detection and tracking in order to enable States to investigate 
        outbreaks of hepatitis and other potential pathogens related to 
        injection safety. In addition, this funding would provide 
        support to CDC for emergency response to assist States in 
        responding to hepatitis outbreaks (i.e., Nevada), including 
        genetic sequencing tests. Funding would support efforts 
        including training at health departments related to safe 
        injection practices and recognition of errors, and to enable 
        rapid investigation and intervention when errors are detected. 
        The funding would also support the augmentation of survey 
        capacity in outpatient settings to strengthen State capacity to 
        detect infections that indicate systemic patient safety errors. 
        The funding will enable CDC to provide support to States by 
        providing training tools for surveyors, health department staff 
        and epidemiologists to improve methods of monitoring adherence 
        to correct practices and to provide tools for investigation, 
        response and intervention strategies. Funds will also enable 
        CDC to provide data analysis and feedback to States.
    HONOReform requests $1 million for the Department of Health and 
Human Services (HHS) to expand its current focus for reducing 
healthcare acquired infections (HAIs) from hospitals to all healthcare 
settings, including outpatient facilities. We are deeply concerned with 
the number of HAIs occurring in office-based settings, such as 
ambulatory care centers, infusion centers, and endoscopy clinics, due 
to a lack of adherence to basic infection control procedures. In the 
past year, more than 100,000 patients across the country have been 
exposed to hepatitis and HIV from healthcare providers failing to 
adhere to proper safe injection practices and infection control.
    HONOReform requests $10 million in general patient safety funds for 
the AHRQ's Ambulatory Patient Safety Program. While much is known about 
risk and hazards in the hospital setting, the same cannot be said of 
ambulatory care setting. Few safety practices have been identified, and 
there is limited data on the nature of risk and hazards to patients and 
the threat to quality in the ambulatory care setting. As part of the 
overall AHRQ patient safety and quality improvement efforts, the 
identification, assessment, and modeling of risk and hazards prior to 
designing or implementing intervention strategy in ambulatory care is 
critical. In light of the growing number of incidents involving syringe 
reuse and hepatitis C transmission, this funding would enable AHRQ to 
expand its ambulatory safety and quality program ``to identify the 
inherent risks in ambulatory settings and to develop potential 
solutions for protecting patients.''
    Mr. Chairman, on behalf of HONOReform, I would like to express my 
appreciation for this opportunity to present written testimony before 
the subcommittee. The growing number of incidents involving syringe 
reuse and hepatitis C transmission in non-hospital settings across the 
country highlights the need for enhancing education, awareness and 
public health activities related to proper infection control and safe 
injection practices.
                                 ______
                                 
  Prepared Statement of the Health Professions and Nursing Education 
                               Coalition

    The members of the Health Professions and Nursing Education 
Coalition (HPNEC) are pleased to submit this statement for the record 
in support of $550 million in fiscal year 2010 for the health 
professions education programs authorized under titles VII and VIII of 
the Public Health Service Act and administered through the Health 
Resources and Services Administration (HRSA). HPNEC is an informal 
alliance of more than 60 national organizations representing schools, 
programs, health professionals, and students dedicated to ensuring the 
healthcare workforce is trained to meet the needs of our diverse 
population.
    As you know, the title VII and VIII health professions and nursing 
programs are essential components of the Nation's healthcare safety 
net, bringing healthcare services to our underserved communities. These 
programs support the training and education of healthcare providers to 
enhance the supply, diversity, and distribution of the healthcare 
workforce, filling the gaps in the supply of health professionals not 
met by traditional market forces. Through loans, loan guarantees, and 
scholarships to students, and grants and contracts to academic 
institutions and nonprofit organizations, the title VII and VIII 
programs are the only Federal programs designed to train providers in 
interdisciplinary settings to meet the needs of special and underserved 
populations, as well as increase minority representation in the 
healthcare workforce.
    We are thankful to the subcommittee for the $200 million provided 
for the health professions programs in the American Recovery and 
Reinvestment Act (Public Law 111-5). We also greatly appreciate that 
the recently enacted fiscal year 2009 Omnibus Appropriations bill 
(Public Law 111-8) provides some increases for most title VII and VIII 
programs. These investments provide a crucial springboard to begin to 
wholly reverse chronic underfunding of these programs and address 
existing and looming shortages of health professionals.
    According to HRSA, an additional 30,000 health practitioners are 
needed to alleviate existing health professional shortages. Combined 
with faculty shortages across health professions disciplines, racial/
ethnic disparities in healthcare, and a growing, aging population, 
these needs strain an already fragile healthcare system. Because of the 
time required to train health professionals, we must make appropriate 
investments today. Yet, despite some increases in recent years, many of 
the health professions programs remain well below their comparable 
fiscal year 2005 funding levels. HPNEC's $550 million recommendation 
will help sustain the health workforce expansion supported by funding 
in the recovery package. Further, this appropriation will restore 
funding to critical programs that sustained drastic funding reductions 
in fiscal year 2006 and remain well below fiscal year 2005 levels.
    We are grateful to President Obama for highlighting the need to 
strengthen the health professions workforce as a national priority. 
This strategy is in line with numerous recent, highly regarded 
recommendations. In a December 2008 Institute of Medicine (IOM) report, 
HRSA's health professions programs were characterized as ``an 
undervalued asset'' and the Department of Health and Human Services was 
encouraged to support additional investments in the programs. Another 
IOM report on the future workforce for older Americans from April 2008 
also called for increased funding for the health professions programs. 
The November 2008 issue of the peer-reviewed journal Academic Medicine 
chronicles the effectiveness of the programs, and the primary care 
programs in particular, while the December 2008 issue of the Mt. Sinai 
Journal of Medicine highlights the impact of the diversity programs. 
These most recent publications showcase the network of title VII and 
VIII initiatives across the country supporting the education and 
training of the full range of health providers. Together, the programs 
work in concert with other programs at the Department of Health and 
Human Services--including the National Health Service Corps and 
Community Health Centers (CHCs)--to strengthen the health safety net 
for rural and medically underserved communities.
    The Health Professions Education Partnerships Act of 1998 (Public 
Law 105-392) consolidated the programs into seven general categories:
  --The purpose of the Minority and Disadvantaged Health Professionals 
        Training programs is to improve healthcare access in 
        underserved areas and the representation of minority and 
        disadvantaged healthcare providers in the health professions. 
        Minority Centers of Excellence support programs that seek to 
        increase the number of minority health professionals through 
        increased research on minority health issues, establishment of 
        an educational pipeline, and the provision of clinical 
        opportunities in community-based health facilities. The Health 
        Careers Opportunity Program seeks to improve the development of 
        a competitive applicant pool through partnerships with local 
        educational and community organizations. The Faculty Loan 
        Repayment and Faculty Fellowship programs provide incentives 
        for schools to recruit underrepresented minority faculty. The 
        Scholarships for Disadvantaged Students (SDS) make funds 
        available to eligible students from disadvantaged backgrounds 
        who are enrolled as full-time health professions students. 
        Nurses received $15.1 million in fiscal year 2007 from SDS 
        grants, 32 percent of funds appropriated for SDS.
  --The Primary Care Medicine and Dentistry programs, including General 
        Pediatrics, General Internal Medicine, Family Medicine, General 
        Dentistry, Pediatric Dentistry, and Physician Assistants, 
        provide for the education and training of primary care 
        physicians, dentists, and physician assistants to improve 
        access and quality of healthcare in underserved areas. Two-
        thirds of all Americans interact with a primary care provider 
        every year. Approximately one- half of primary care providers 
        trained through these programs go on to work in underserved 
        areas, compared to 10 percent of those not trained through 
        these programs. The General Pediatrics, General Internal 
        Medicine, and Family Medicine programs provide critical funding 
        for primary care training in community-based settings and have 
        been successful in directing more primary care physicians to 
        work in underserved areas. They support a range of initiatives, 
        including medical student training, residency training, faculty 
        development and the development of academic administrative 
        units. The General Dentistry and Pediatric Dentistry programs 
        provide grants to dental schools and hospitals to create or 
        expand primary care dental residency training programs. 
        Recognizing that all primary care is not only provided by 
        physicians, the primary care cluster also provides grants for 
        Physician Assistant programs to encourage and prepare students 
        for primary care practice in rural and urban Health 
        Professional Shortage Areas. Additionally, these programs 
        enhance the efforts of osteopathic medical schools to continue 
        to emphasize primary care medicine, health promotion, and 
        disease prevention, and the practice of ambulatory medicine in 
        community-based settings.
  --Because much of the Nation's healthcare is delivered in areas far 
        removed from health professions schools, the Interdisciplinary, 
        Community-Based Linkages cluster provides support for 
        community-based training of various health professionals. These 
        programs are designed to provide greater flexibility in 
        training and to encourage collaboration between two or more 
        disciplines. These training programs also serve to encourage 
        health professionals to return to such settings after 
        completing their training. The Area Health Education Centers 
        (AHECs) provide clinical training opportunities to health 
        professions and nursing students in rural and other underserved 
        communities by extending the resources of academic health 
        centers to these areas. AHECs, which have substantial State and 
        local matching funds, form networks of health-related 
        institutions to provide education services to students, faculty 
        and practitioners. Geriatric Health Professions programs 
        support geriatric faculty fellowships, the Geriatric Academic 
        Career Award, and Geriatric Education Centers, which are all 
        designed to bolster the number and quality of healthcare 
        providers caring for our older generations. Given America's 
        burgeoning aging population, there is a need for specialized 
        training in the diagnosis, treatment, and prevention of disease 
        and other health concerns of the elderly. The Quentin N. 
        Burdick Program for Rural Health Interdisciplinary Training 
        places an emphasis on long-term collaboration between academic 
        institutions, rural healthcare agencies, and providers to 
        improve the recruitment and retention of health professionals 
        in rural areas. This program has received no funding since 
        fiscal year 2006. The Allied Health Project Grants program 
        represents the only Federal effort aimed at supporting new and 
        innovative education programs designed to reduce shortages of 
        allied health professionals and create opportunities in 
        medically underserved and minority areas. Health professions 
        schools use this funding to help establish or expand allied 
        health training programs. The need to address the critical 
        shortage of certain allied health professionals has been 
        acknowledged repeatedly. For example, this shortage has 
        received special attention given past bioterrorism events and 
        efforts to prepare for possible future attacks. The Graduate 
        Psychology Education Program provides grants to doctoral, 
        internship and postdoctoral programs in support of 
        interdisciplinary training of psychology students with other 
        health professionals for the provision of mental and behavioral 
        health services to underserved populations (i.e., older adults, 
        children, chronically ill, and victims of abuse and trauma, 
        including returning military personnel and their families), 
        especially in rural and urban communities.
  --The Health Professions Workforce Information and Analysis program 
        provides grants to institutions to collect and analyze data on 
        the health professions workforce to advise future 
        decisionmaking on the direction of health professions and 
        nursing programs. The Health Professions Research and Health 
        Professions Data programs have developed a number of valuable, 
        policy-relevant studies on the distribution and training of 
        health professionals, including the Eighth National Sample 
        Survey of Registered Nurses, the Nation's most extensive and 
        comprehensive source of statistics on registered nurses. 
        However, the Workforce Information and Analysis program has 
        received no appropriation since fiscal year 2006.
  --The Public Health Workforce Development programs are designed to 
        increase the number of individuals trained in public health, to 
        identify the causes of health problems, and respond to such 
        issues as managed care, new disease strains, food supply, and 
        bioterrorism. The Public Health Traineeships and Public Health 
        Training Centers seek to alleviate the critical shortage of 
        public health professionals by providing up-to-date training 
        for current and future public health workers, particularly in 
        underserved areas. Preventive Medicine Residencies, which 
        receive minimal funding through Medicare GME, provide training 
        in the only medical specialty that teaches both clinical and 
        population medicine to improve community health. Dental Public 
        Health Residency programs are vital to the Nation's dental 
        public health infrastructure. The Health Administration 
        Traineeships and Special Projects grants are the only Federal 
        funding provided to train the managers of our healthcare 
        system, with a special emphasis on those who serve in 
        underserved areas. However, the traineeships have received no 
        appropriation since fiscal year 2006.
  --The Nursing Workforce Development programs under title VIII provide 
        training for entry-level and advanced degree nurses to improve 
        the access to, and quality of, healthcare in underserved areas. 
        These programs provide the largest source of Federal funding 
        for nursing education, providing loans, scholarships, 
        traineeships, and programmatic support to 51,657 nursing 
        students and nurses in fiscal year 2008. Healthcare entities 
        across the Nation are experiencing a crisis in nurse staffing, 
        caused in part by an aging workforce and capacity limitations 
        within the educational system. Each year, nursing schools turn 
        away between 50,000 and 88,000 qualified applications at all 
        degree levels due to an insufficient number of faculty, 
        clinical sites, classroom space, clinical preceptors, and 
        budget constraints. At the same time, the need for nursing 
        services and licensed, registered nurses is expected to 
        increase significantly over the next 20 years. Congress 
        responded to this dire national need by passing the Nurse 
        Reinvestment Act (Public Law 107-205) in 2002, which increases 
        nursing education, retention, and recruitment. The Advanced 
        Education Nursing program awards grants to train a variety of 
        advanced practice nurses, including nurse practitioners, 
        certified nurse-midwives, nurse anesthetists, public health 
        nurses, nurse educators, and nurse administrators. For example, 
        this funding has been instrumental in doubling nurse anesthesia 
        graduates in the last 8 years. However, even though the number 
        of graduates doubled, the vacancy rate for nurse anesthetists 
        has remained the same at 12 percent, due to a retiring nursing 
        profession and an aging population requiring more care. 
        Workforce Diversity grants support opportunities for nursing 
        education for disadvantaged students through scholarships, 
        stipends, and retention activities. Nurse Education, Practice, 
        and Retention grants are awarded to help schools of nursing, 
        academic health centers, nurse-managed health centers, State 
        and local governments, and other healthcare facilities to 
        develop programs that provide nursing education, promote best 
        practices, and enhance nurse retention. The Loan Repayment and 
        Scholarship Program repays up to 85 percent of nursing student 
        loans and offers full-time and part-time nursing students the 
        opportunity to apply for scholarship funds. In return these 
        students are required to work for at least 2 years of practice 
        in a designated nursing shortage area. The Comprehensive 
        Geriatric Education grants are used to train RNs who will 
        provide direct care to older Americans, develop and disseminate 
        geriatric curriculum, train faculty members, and provide 
        continuing education. The Nurse Faculty Loan program provides a 
        student loan fund administered by schools of nursing to 
        increase the number of qualified nurse faculty.
  --The loan programs under Student Financial Assistance support needy 
        and disadvantaged medical and nursing school students in 
        covering the costs of their education. The Nursing Student Loan 
        (NSL) program provides loans to undergraduate and graduate 
        nursing students with a preference for those with the greatest 
        financial need. The Primary Care Loan (PCL) program provides 
        loans covering the cost of attendance in return for dedicated 
        service in primary care. The Health Professional Student Loan 
        (HPSL) program provides loans covering the cost of attendance 
        for financially needy health professions students based on 
        institutional determination. The NSL, PCL, and HPSL programs 
        are funded out of each institution's revolving fund and do not 
        receive Federal appropriations. The Loans for Disadvantaged 
        Students (LDS) program provides grants to health professions 
        institutions to make loans to health professions students from 
        disadvantaged backgrounds.
    These programs work collectively to fulfill their unique, three-
pronged mission of improving the supply, diversity, and distribution of 
the health professions workforce. HPNEC members respectfully urge 
support for funding of at least $550 million for the title VII and VIII 
programs, an investment essential not only to the development and 
training of tomorrow's healthcare professionals but also to our 
Nation's efforts to provide needed healthcare services to underserved 
and minority communities. We greatly appreciate the support of the 
subcommittee and look forward to working with Members of Congress and 
the new administration to reinvest in the health professions programs 
in fiscal year 2010 and into the future.
                                 ______
                                 
             Prepared Statement of the Home Safety Council

                              INTRODUCTION

    Chairman Harkin, Ranking Member Cochran, and members of the 
subcommittee, thank you for the opportunity to submit testimony on the 
fiscal year 2010 appropriations for the Centers for Disease Control and 
Prevention's (CDC) National Center for Injury Prevention and Control 
(NCIPC).
    I am Patricia Adkins, chief operating office and director of public 
policy for the Home Safety Council which is located in Washington, DC.

                  ABOUT THE HOME SAFETY COUNCIL (HSC)

    The mission of the HSC is to help prevent and reduce the nearly 
20,000 deaths and 21 million medical visits each year from such hazards 
as falls, poisoning, fires and burns, choking and suffocation, and 
drowning. Through national programs, partnerships and the support of 
volunteers, HSC educates people of all ages to help keep them safer in 
and around their homes.
    Our vision for our Nation is safer homes that provide the 
opportunity for all individuals to lead healthy, active, and fulfilling 
lives.

                   INCREASED FUNDING FOR CDC'S NCIPC

    CDC's NCIPC has the mission of preventing injuries and violence, 
and reducing their consequences. It strives to help every American live 
his or her life to its fullest potential. Funds are utilized by NCIPC 
for intramural and extramural research and in assisting State and local 
health agencies in implementing injury prevention programs.
    HSC and a coalition of 30 like-minded nonprofit organizations are 
requesting an increase of $10 million to the ``Unintentional Injury 
Prevention'' account to begin to comprehensively address the large-
scale growth of older adult falls.
    Ultimately, success in reducing the number and severity of older 
adult falls will be reached through partnerships with Federal, State, 
and local agencies along with the cooperation of many nongovernmental 
organizations.

    WHY INJURY PREVENTION IS A CRITICAL ELEMENT OF HEALTHCARE REFORM

    In 1998, the National Academy of Sciences stated, ``Injury is 
probably the most under-recognized public health threat facing the 
nation today.''
    Each year, injuries resulting from a wide variety of physical and 
emotional causes--motor vehicle crashes, sports trauma, violence, 
poisoning, fires, and falls--keep millions of children and adults from 
achieving their goals and making the most of their talents and 
abilities.
    This is what we know:
  --Nationally and in every State in the United States, injuries are 
        the leading cause of death in the first 44 years of a person's 
        life.
  --In a single year, more than 50 million injuries required medical 
        attention, with an estimated total lifetime cost of $406 
        billion.
  --This total lifetime cost includes $80 billion in medical care costs 
        and $326 billion in productivity losses, including lost wages 
        and benefits and the inability to perform normal household 
        functions.
    These three statistics clearly show the consequences of injuries 
and its major burden on the healthcare system.
    Fortunately, injury research has proven that there are steps that 
can be taken to prevent injuries and increase the likelihood for full 
recovery when they do occur. By incorporating these strategies into our 
communities and everyday activities, we can help to ensure that 
Americans remain healthy and live their lives to the fullest potential.

                  PROTECTING OLDER ADULTS FROM INJURY

    We all want a society where people, including our older citizens, 
can live healthy and productive lives. A key component of achieving 
this is helping older adults avoid injuries. There are actions we can 
take to prevent injuries and premature death to our parents, 
grandparents, and friends. Some of the most important include 
preventing older adults from falling and being injured in fires or 
motor vehicle crashes.
    One of the injuries affecting the quality of life for older adults 
is falls. Falls are the leading cause of fatal and nonfatal injuries 
for those 65 and older. Each year, 1.8 million older adults are treated 
in emergency departments. Every day, 5,000 adults 65 and older are 
hospitalized due to fall-related injuries, and every 35 minutes, an 
older adult dies from a fall-related injury.
    We know one of the greatest financial challenges facing the U.S. 
Government, its citizens, and their employers is the rising cost of 
healthcare services needed by older Americans. CDC reports that $80.2 
billion is spent annually for medical treatment of injuries, of which 
fully $19.2 billion ($12 billion for hospitalization, $4 billion for 
emergency department visits, and $3 billion for outpatient care) is for 
treating older adults injured by falls. That's almost one-quarter of 
all healthcare expenses for injuries each year spent on older adult 
falls and the majority of these expenses are paid by CMS through 
Medicare. If we cannot stem this rate of increase, it is projected that 
the direct treatment costs will reach $54.9 billion annually in 2020, 
at which time the cost to Medicare would be $32.4 billion.
    While falls are a threat to the health and independence of older 
adults and can significantly limit their ability to remain self-
sufficient, the opportunity to reduce falls among older adults has 
never been better. Today there are proven interventions and strategies 
that can reduce falls and in turn help older adults live better and 
longer. Studies show that prescription medications have an effect on 
balance. A medication review and adjustment is a simple, cost-effective 
way to help prevent a fall. Additionally, older adults who actively 
participate in physical exercise and receive vision exams are at a 
lower risk for falling. These evidence-based interventions can help 
save healthcare costs and greatly improve the lives of older adults. 
The costs are small compared to the potential for savings. For every $1 
invested in a comprehensive falls prevention program for an older 
adult, it returns close to a $9 benefit to society.

                         HOW CONGRESS CAN HELP

    Congress took a major step forward in preventing older adult falls 
with passage of the Safety of Seniors Act of 2007 (S. 845 and Public 
Law 110-202) which authorized increased research, education, and 
demonstration projects. Further evidence of support included the 
passage of S. Res. 674 and the introduction of H. Res. 1478 for the 
first National Falls Prevention Awareness Day in September 2008. For 
the good intentions of Congress to bear fruit, an appropriation of $10 
million is needed for fiscal year 2010 for CDC's NCIPC.
    NCIPC's funding in this area is severely inadequate to address the 
scale of human suffering and the impact of falls on our healthcare 
system. Additional funding would enable NCIPC to expand research, 
evaluation of demonstrations, public education, professional education, 
and policy analysis. At present, CDC can only allocate $2 million per 
year to address a problem costing $19.2 billion a year. The benefits of 
increased funding would be enormous, vastly improving the quality of 
life for those 65 and older and greatly reducing healthcare costs for 
falls and related disabilities.
    Increased funding for older adult falls prevention efforts is 
supported by a broad-based coalition of nonprofit organizations and a 
growing number of State falls prevention coalitions that are dedicated 
to improving the safety and health of older Americans.

          CDC ACTIVITY IN FALLS PREVENTION AMONG OLDER ADULTS

    If the CDC NCIPC's falls prevention budget is increased by $10 
million, the next steps would be to:
  --Develop additional program demonstrations to test and replicate the 
        most cost effective interventions to reduce the risk of falls;
  --Undertake additional extramural research into the causes of falls; 
        and
  --Develop more public education programs to raise awareness about 
        falls and what individuals, family members, professionals, 
        nonprofit organizations, and the private sector can do to 
        reduce them.
    On behalf of HSC and our supporting organizations, thank you for 
the opportunity to share our fiscal year 2010 appropriations request 
for the CDC NCIPC on the very costly, but often preventable problem of 
falls among older adults.
                                 ______
                                 
       Prepared Statement of The Humane Society Legislative Fund

    The Humane Society Legislative Fund (HSLF) supports a strong 
commitment by the Federal Government to research, development, 
standardization, validation, and acceptance of nonanimal and other 
alternative test methods. We are also submitting our testimony on 
behalf of The Humane Society of the United States and Doris Day Animal 
League, representing more than 11 million members and supporters. Thank 
you for the opportunity to present testimony relevant to the fiscal 
year 2010 budget request for the National Institute of Environmental 
Health Sciences (NIEHS) for activities of the National Toxicology 
Program Center for the Evaluation of Alternative Toxicological Test 
Methods (NICEATM), the support center for the Interagency Coordinating 
Committee for the Validation of Alternative Test Methods (ICCVAM).
Function of the ICCVAM
    The ICCVAM performs a valuable function for regulatory agencies, 
industry, public health and animal protection organizations by 
assessing the validation of new, revised, and alternative toxicological 
test methods that have interagency application. After appropriate 
independent peer review of the test method, the ICCVAM recommends the 
test to the Federal regulatory agencies that regulate the particular 
endpoint the test measures. In turn, the Federal agencies maintain 
their authority to incorporate the validated test methods as 
appropriate for the agencies' regulatory mandates. This streamlined 
approach to assessment of validation of new, revised, and alternative 
test methods has reduced the regulator burden of individual agencies, 
provided a ``one-stop shop'' for industry, animal protection, public 
health, and environmental advocates for consideration of methods and 
set uniform criteria for what constitutes a validated test methods. In 
addition, from the perspective of animal protection advocates, ICCVAM 
can serve to appropriately assess test methods that can refine, reduce 
and replace the use of animals in toxicological testing. This function 
will provide credibility to the argument that scientifically validated 
alternative test methods, which refine, reduce or replace animals, 
should be expeditiously integrated into Federal toxicological 
regulations, requirements, and recommendations.
History of the ICCVAM
    The ICCVAM is currently composed of representatives from the 
relevant Federal regulatory and research agencies. It was created from 
an initial mandate in the NIH Revitalization Act of 1993 for NIEHS to 
``(a) establish criteria for the validation and regulatory acceptance 
of alternative testing methods, and (b) recommend a process through 
which scientifically validated alternative methods can be accepted for 
regulatory use.'' In 1994, NIEHS established the ad hoc ICCVAM to write 
a report that would recommend criteria and processes for validation and 
regulatory acceptance of toxicological testing methods that would be 
useful to Federal agencies and the scientific community. Through a 
series of public meetings, interested stakeholders, and agency 
representatives from all 14 regulatory and research agencies, developed 
the National Institutes of Health (NIH) Publication No. 97-3981, 
``Validation and Regulatory Acceptance of Toxicological Test Methods.'' 
This report, and subsequent revisions, has become the sound science 
guide for consideration of new, revised, and alternative test methods 
by the Federal agencies and interested stakeholders.
    After publication of the report, the ad hoc ICCVAM moved to 
standing status under the NIEHS' NICEATM. Representatives from Federal 
regulatory and research agencies and their programs have continued to 
meet, with advice from the NICEATM's Advisory Committee and independent 
peer review committees, to assess the validation of new, revised and 
alternative toxicological methods. Since then, several methods have 
undergone rigorous assessment and are deemed scientifically valid and 
acceptable.
Request for Committee Report Language
    In 2006, the NICEATM/ICCVAM at the request of the U.S. Congress 
began a process of developing a 5-year roadmap for assertively setting 
goals to prioritize ending the use of antiquated animal tests for 
specific endpoints. The HSLF and other national animal protection 
organizations provided extensive comments on the process and priorities 
for the roadmap.
    While the stream of methods forwarded to the ICCVAM for assessment 
has remained relatively steady, it is imperative that the ICCVAM take a 
more proactive role in isolating areas where new methods development is 
on the verge of replacing animal tests. These areas should form a 
collective call by the Federal agencies that compose
    ICCVAM to fund any necessary additional research, development, 
validation, and validation assessment that is required to eliminate the 
animal methods. We also strongly urge the NICEATM/ICCVAM to closely 
coordinate research, development, and validation efforts with its 
European counterpart, the European Centre for the Validation of 
Alternative Methods (ECVAM) to ensure the best use of available funds 
and sound science. This coordination should also reflect a willingness 
by the Federal agencies comprising ICCVAM to more readily accept 
validated test methods proposed by the ECVAM to ensure industry has a 
uniform approach to worldwide chemical safety evaluation.
    We respectfully request the subcommittee consider the following 
report language for the fiscal year 2010 Senate Labor, Health and Human 
Services, and Education, and Related Agencies appropriations bill:

    ``The Committee acknowledges the publication of the NICEATM/ICCVAM 
Five-Year Plan but remains concerned by the slow pace at which federal 
agencies have moved to adopt regulations that would replace, reduce or 
refine the use of animals in testing. The Committee therefore requests 
that NICEATM/ICCVAM hold an initial workshop, based upon input received 
from a workshop steering committee with representation of scientists 
from academia, federal government, animal welfare organizations and 
industry, on ``Challenges to Incorporating Alternative Methods into US 
Federal Agency Programs.'' The Committee also requests that NICEATM/
ICCVAM convene a workshop in fiscal year 2010 to assess the difficulty 
of obtaining high-quality relevant data for validating alternative 
methods, which is a significant barrier to validation and acceptance. 
NICEATM/ICCVAM are also urged to establish timetables for completion of 
all validation reviews that are currently under way.''

National Institutes of Health Support for--``Toxicity Testing in the 
        21st Century: A Vision and a Strategy''
    NIH has launched an ambitious collaboration with the Environmental 
Protection Agency (EPA) to dramatically transform the way drugs, 
consumer products, pesticides, and other chemicals are assessed for 
safety. The new approach will use isolated cells, molecular targets, 
and lower organisms such as roundworms, instead of laboratory animals. 
According to the NIH, the research collaboration is expected ``to 
generate data more relevant to humans; expand the number of chemicals 
that are tested; and reduce the time, money and number of animals 
involved in testing.''
    The tripartite arrangement is designed to capitalize on the NIH 
Chemical Genomics Center's high-speed, automated screening robots to 
test compounds for toxicity; the experimental toxicology expertise of 
the National Toxicology Program, which is headquartered at the NIH's 
NIEHS; and the computational toxicology capabilities at the EPA's 
National Center for Computational Toxicology.
    The Government collaboration seeks to implement a June 2007 report 
by the National Research Council (NRC) entitled Toxicity Testing in the 
21st Century: A Vision and a Strategy, which calls for a sustained, 
well-funded effort across the toxicology community to shift the 
traditional toxicity-testing paradigm away from its heavy reliance on 
animal testing and towards high-throughput systems that monitor 
perturbations in toxicity pathways.
    The Government project could be seen as a successor, with equally 
visionary possibilities for biology, to Dr. Collins and NHGRI's highly 
successful Human Genome Project. In order for the new vision to be 
fully realized within a decade, what is needed is a well-funded 
Government effort that would attract additional partners and resources 
from interested industries and overseas governments. We urge the 
subcommittee to support the efforts of the NIH to implement the NRC 
report.
                                 ______
                                 
     Prepared Statement of The Humane Society of the United States

    On behalf of The Humane Society of the United States (HSUS) and our 
11 million supporters nationwide, we appreciate the opportunity to 
provide testimony on our top funding priority for the Labor, Health and 
Human Services, and Education, and Related Agencies Appropriations 
Subcommittee in fiscal year 2010. We are also submitting our testimony 
on behalf of The Humane Society Legislative Fund (HSLF) and the Doris 
Day Animal League. Thank you for the opportunity to present testimony 
relevant for the fiscal year 2010 budget request.
    The HSUS requests that no Federal funding be appropriated for (1) 
the breeding of chimpanzees for research, or (2) the transfer of 
Government-owned chimpanzees to private hands (including endowments for 
their maintenance) unless for retirement to appropriate sanctuary. The 
basis of our request can be found below.

                  BREEDING OF CHIMPANZEES FOR RESEARCH

    The National Center for Research Resources (NCRR) of the National 
Institutes of Health (NIH), responsible for the oversight and 
maintenance of federally owned chimpanzees, has announced a permanent 
end to funding the breeding of federally owned and supported 
chimpanzees primarily due to the excessive costs of lifetime care of 
chimpanzees in laboratory settings. We recently discovered that the 
Government has provided millions of dollars in recent years for 
chimpanzee breeding. Therefore, we seek to ensure that neither the NIH 
nor any other Federal agency provides funding for breeding of 
Government-owned chimpanzees due to the future financial implications 
to the Government and taxpayers of continuing to do so, particularly 
during this difficult economic time.
    The cost of maintaining chimpanzees in laboratories is exorbitant, 
totaling up to $8.5 million each year for the current population of 
approximately 500 federally owned or supported chimpanzees 
(approximately $54 per day per chimpanzee; more than $1,000,000 per 
chimpanzee's 60-year lifetime). Breeding of additional chimpanzees into 
laboratories will only perpetuate a number of burdens on the 
Government.
    The United States currently has a surplus of chimpanzees available 
for use in research due to overzealous breeding for HIV research and 
subsequent findings that they are a poor HIV model.\1\
---------------------------------------------------------------------------
    \1\ NRC (National Research Council) (1997) Chimpanzees in research: 
strategies for their ethical care, management and use. National 
Academies Press: Washington, D.C.
---------------------------------------------------------------------------
    Expansion of the chimpanzee population in laboratories only creates 
more concerns than presently exist about their quality of care.
    Use of chimpanzees in research raises strong public concerns.

         TRANSFER OF OWNERSHIP OF GOVERNMENT-OWNED CHIMPANZEES

    If the Government-owned and supported chimpanzees leave the Federal 
system and are transferred into private hands with an accompanying 
federally funded endowment, their lifetime support will not be 
guaranteed as required now by the CHIMP Act and their transfer to a 
suitable sanctuary will be highly unlikely. These chimpanzees will 
instead of warehoused and/or used for research for their entire 
lifetime--with the backing of the Government through an endowment. This 
will surely lead to a public outcry.
  --If private industry breeds and uses chimpanzees in invasive 
        research with Federal endowment money, the private sector would 
        be unfairly, and perhaps illegally, benefiting from federally 
        owned ``resources'' meant for the betterment of the American 
        public, not for the profit of private industry.
  --To date, the private sector has been less than fiscally responsible 
        for the lifetime care of chimpanzees who they have used for 
        private profit. Even in the situations where they eventually 
        retire their chimpanzees, private users rarely offer financial 
        compensation for their chimpanzees' lifetime care and on the 
        few occasions that they have offered some financial 
        compensation, it falls far short of what is actually needed.
    We instead urge the Government to transfer all 500 Government-owned 
chimpanzees to the national sanctuary system and appropriate a portion 
of the funding currently being given to chimpanzee laboratories to the 
sanctuary system. A transfer of the chimpanzees to sanctuary would: (1) 
consolidate and lessen chimpanzee maintenance costs, (2) provide the 
chimpanzees with better care, and (3) offer the public the humane 
solution they are asking for.

                         BACKGROUND AND HISTORY

    Beginning in 1995, the National Research Council (NRC) confirmed a 
chimpanzee surplus and recommended a moratorium on breeding of 
federally owned or supported chimpanzees \1\, who now number 
approximately 500 of the more than 1,000 total chimpanzees available 
for research in the United States. On May 22, 2007, the NCRR of NIH 
announced a permanent end to the funding of chimpanzee breeding, which 
applies to all federally owned and supported chimpanzees as well as 
NIH-funded research. Further, it has also been noted that ``a huge 
number'' of chimpanzees are not being used in active research protocols 
and are therefore ``just sitting there.'' \2\ If no breeding is 
allowed, it is projected that the Government will have almost no 
financial responsibility for the chimpanzees it owns within 30 years 
due to the age of the population--any breeding today will extend this 
financial burden to 90 years.
---------------------------------------------------------------------------
    \2\ Cohen, J. (2007) Biomedical Research: The Endangered Lab Chimp. 
Science. 315:450-452.
---------------------------------------------------------------------------
    There is no justification for breeding of additional chimpanzees 
for research; therefore lack of Federal funding for breeding will 
ensure that no breeding of federally owned or supported chimpanzees for 
research will occur in fiscal year 2010.

           CONCERNS REGARDING CHIMPANZEE CARE IN LABORATORIES

    A 9-month undercover investigation by the HSUS at University of 
Louisiana at Lafayette New Iberia Research Center (NIRC)--the largest 
chimpanzee laboratory in the world--revealed some chimpanzees living in 
barren, isolated, conditions and documented more than 100 alleged 
violations of the Animal Welfare Act at the facility in regards to 
chimpanzees. The U.S. Department of Agriculture (USDA) and NIH's Office 
of Laboratory Animal Welfare (OLAW) have since launched formal 
investigations into the facility and NIRC was cited for several 
violations of the Animal Welfare Act during an initial site visit.
    Aside from the HSUS investigation, inspections conducted by the 
USDA demonstrate that basic chimpanzee housing requirements are often 
not being met. Inspection reports for two other federally funded 
chimpanzee facilities reported housing of chimpanzees in less than 
minimal space requirements, inadequate environmental enhancement, and/
or general disrepair of facilities. These problems add further argument 
against the breeding of even more chimpanzees.

   CHIMPANZEES HAVE OFTEN BEEN A POOR MODEL FOR HUMAN HEALTH RESEARCH

    The scientific community recognizes that chimpanzees are poor 
models for HIV because chimpanzees do not develop AIDS. Similarly, 
chimpanzees do not model the course of the human hepatitis C virus yet 
they continue to be used for this research, adding to the millions of 
dollars already spent without a sign of a promising vaccine. According 
to the chimpanzee genome, some of the greatest differences between 
chimpanzees and humans relate to the immune system,\3\ calling into 
question the validity of infectious disease research using chimpanzees.
---------------------------------------------------------------------------
    \3\ The Chimpanzee Sequencing and Analysis Consortium/Mikes, TS, et 
al.,(1 September 2005) Initial sequence of the chimpanzee genome and 
comparison with the human genome, Nature 437, 69-87.
---------------------------------------------------------------------------
         ETHICAL AND PUBLIC CONCERNS ABOUT CHIMPANZEE RESEARCH

    Chimpanzee research raises serious ethical issues, particularly 
because of their extremely close similarities to humans in terms of 
intelligence and emotions. Americans are clearly concerned about these 
issues: 90 percent believe it is unacceptable to confine chimpanzees 
individually in Government-approved cages (as we documented during our 
investigation at NIRC); 71 percent believe that chimpanzees who have 
been in the laboratory for more than 10 years should be sent to 
sanctuary for retirement;\4\ and 54 percent believe that it is 
unacceptable for chimpanzees to ``undergo research which causes them to 
suffer for human benefit.'' \5\
---------------------------------------------------------------------------
    \4\ 2006 poll conducted by the Humane Research Council for Project 
Release & Restitution for Chimpanzees in laboratories.
    \5\ 2001 poll conducted by Zogby International for the Chimpanzee 
Collaboratory.
---------------------------------------------------------------------------
    We respectfully request the following bill or subcommittee report 
language:

    ``The Committee directs that no funds provided in this Act be used 
to support the breeding of chimpanzees for research, research that 
requires breeding of chimpanzees, or the transfer of ownership of 
federally owned chimpanzees to private entities, including endowments 
for their maintenance, with the exception of a transfer to an 
appropriate sanctuary that meets the national chimpanzee sanctuary 
system standards.''

    We appreciate the opportunity to share our views for the Labor, 
Health and Human Services, and Education, and Related Agencies 
Appropriations Act for fiscal year 2010. We hope the subcommittee will 
be able to accommodate this modest request that will save the 
Government a substantial sum of money, benefit chimpanzees, and allay 
some concerns of the public at large. Thank you for your consideration.
                                 ______
                                 
  Prepared Statement of the Harlem United Community AIDS Center, Inc.

                        FUNDING REQUEST OVERVIEW

    Harlem United Community AIDS Center, Inc. (Harlem United) 
appreciates the opportunity to submit written comments for the record 
regarding fiscal year 2010 funding for HIV/AIDS related programs. 
Harlem United was founded in 1988 as a community-based, nonprofit 
organization providing comprehensive, integrated care in a healthy and 
healing environment. We serve individuals and families living with HIV 
and AIDS in the greater Harlem and South Bronx neighborhoods of New 
York City. Touching the lives of more than 6,000 people each year 
through our programs, Harlem United offers its clients an array of 
evidence-based, outcomes-driven, culturally sensitive medical and 
support services, including: primary healthcare and dental care; mental 
health and substance use counseling; individual psychotherapy and case 
management; and supportive housing.
    For far too long, Federal funding for domestic HIV/AIDS programs 
has been inadequate, leaving communities struggling to meet the 
prevention, care, and treatment needs of people at risk for and living 
with HIV/AIDS. Harlem United values working with policymakers at the 
local, State, and Federal levels to advance policies and programs that 
support HIV prevention, care, and treatment. We respectfully request 
the subcommittee provide the following allocations in fiscal year 2010 
to promote HIV prevention and HIV related research and treatment 
innovations:
  --$1.57 billion for HIV prevention and surveillance at the Centers 
        for Disease Control and Prevention (CDC) to help stem the tide 
        of the Nation's HIV/AIDS epidemic, particularly among 
        individuals and communities of color.
  --At least $2.81 billion in overall funding for the Ryan White 
        Program, including the AIDS Drug Assistance Program, to provide 
        essential services for more than 530,000 uninsured and 
        underinsured low-income individuals and families impacted by 
        HIV/AIDS.
  --A minimum of $610 million for the Minority AIDS Initiative, which 
        funds programs across 8 Federal agencies to address HIV 
        infection-related disparities among racial and ethnic groups.
  --At least $34 billion for the National Institutes of Health (NIH), 
        with $3.35 billion allocated to HIV/AIDS research to help 
        identify and deliver new therapies.

                       INTRODUCTION AND OVERVIEW

    Despite ongoing prevention efforts, approximately 56,300 new HIV 
infections occur each year, and an estimated 21 percent of infected 
individuals are unaware of their HIV status. Moreover, CDC estimates 
that there are 430,000 people with HIV in the United States, who are 
not currently receiving HIV-related medical care. In 2004, the 
Institute of Medicine estimated that more than 50 percent of Americans 
living with HIV had no reliable access to the care they needed to stay 
alive. Evidence has shown that new infections have been driven in large 
part by (1) people who were unaware of their status and unwittingly 
transmitted the virus, and (2) individuals who were diagnosed, but who 
were not treatment eligible and who were engaging in risk behaviors.\1\ 
Prevention programs, routine HIV testing and universal access to care 
are essential to stemming the tide of the HIV/AIDS epidemic nationwide.
---------------------------------------------------------------------------
    \1\ Federal guidelines do not allow for treatment until an 
individual's viral load reaches 350 or lower.
---------------------------------------------------------------------------
    To prevent the incidence of HIV and ensure that all people living 
with HIV/AIDS have access to comprehensive and quality care that they 
need and deserve, Harlem United advocates ongoing and significant 
Federal funding for domestic HIV/AIDS programs.

          BOLSTER CDC HIV PREVENTION AND SURVEILLANCE EFFORTS

    The CDC estimates that there are more than 1.1 million people 
living with HIV/AIDS in the United States and an estimated 56,300 new 
infections occur each year. With these staggering statistics, it 
becomes clear that a sustained Federal investment in and commitment to 
HIV/AIDS initiatives are essential to advancing efforts to prevent and 
treat HIV infections. However, over the past 6 years, as the number of 
people living with HIV/AIDS has increased, Federal funding for HIV 
prevention programs at CDC has decreased by 19.3 percent. In fiscal 
year 2009, CDC HIV related prevention and surveillance programs were 
flat-funded after facing a $3.5 million cut in fiscal year 2008. Harlem 
United calls upon the subcommittee to provide a specific allocation of 
$1.57 billion, an increase of $877 million, for HIV prevention efforts 
at CDC.
    The current body of knowledge and research surrounding HIV 
prevention provides evidence for effective interventions, yet CDC and 
State and local public health departments do not always have the 
resources to implement them. With increased Federal funding, gaps in 
resources and fiscal needs will be alleviated and prevention efforts 
can be scaled up. Specifically, additional funding will allow CDC to 
expand HIV testing efforts and prevention outreach, particularly among 
high-risk populations and communities of color, where the epidemic is 
disproportionately concentrated. CDC also would be able to assist State 
and local health departments fund prevention programs that go beyond 
just testing for HIV. Furthermore, additional funding would allow CDC 
to continue to build the capacity of community-based organizations to 
implement evidenced-based interventions and provide technical 
assistance, Lastly, CDC would also be able to improve HIV monitoring 
and surveillance activities to ensure that accurate data on the disease 
is captured.

PRESERVE ACCESS TO HIV TREATMENT FOR LOW-INCOME INDIVIDUALS THROUGH THE 
                           RYAN WHITE PROGRAM

    Each year, the Ryan White Program provides care and treatment to 
more than half a million low-income individuals living with HIV/AIDS. 
This program is vital to those who have no medical coverage or face 
coverage limits, as it steps in as the ``payer of last resort.'' While 
the Ryan White Program was initially implemented as an emergency 
measure, it has become an integral part of the Nation's response to 
HIV, providing treatment for individuals who would otherwise not have 
access to care.
    The AIDS Drug Assistance Program (ADAP), a critical component of 
the Ryan White Program that exists under part B, provides HIV 
medications to program participants and funds for purchasing health 
insurance for eligible participants and services that enhance drug 
treatment therapies.
    Unfortunately, growing caseloads and costs of treatment have left 
current funding levels inadequate. As such, Harlem United calls upon 
the subcommittee to allocate at least $2.81 billion in overall funding 
for the Ryan White Program, including the AIDS Drug Assistance Program.

                STRENGTHEN THE MINORITY AIDS INITIATIVE

    The HIV/AIDS epidemic in the United States has hit racial and 
ethnic minority communities hard. While only 12 percent of the U.S. 
population is African American, this racial group accounts for 49 
percent of all new AIDS cases. Hispanics account for 19 percent of new 
AIDS diagnoses, yet comprise only 12 percent of the total U.S. 
population. Combined, minorities represent 71 percent of new AIDS 
cases, 67 percent of all people living with HIV/AIDS, and 70 percent of 
deaths caused by AIDS. These grim statistics demonstrate the critical 
need for the Minority AIDS Initiative (MAI).
    MAI provides funding to community-based organizations and 
healthcare providers to implement prevention and treatment programs 
specifically tailored to racial and ethnic minority populations. The 
Initiative, designed to complement other HIV efforts, strengthens the 
capacity of organizations serving communities of color to implement 
culturally appropriate HIV prevention programs and treatment services, 
in order to reduce the incidence of HIV and improve HIV related health 
outcomes among these communities.
    Given the urgent need to reduce HIV/AIDS disparities among racial 
and ethnic communities in the United States, Harlem United urges the 
subcommittee to allocate a minimum of $610 million for the Minority 
AIDS Initiative.

            ENHANCE HIV TREATMENT AND THERAPEUTICS RESEARCH

    Despite breakthroughs in HIV treatment and prevention research, 
currently, no vaccine or cure exists for HIV/AIDS. With approximately 
56,300 new HIV cases each year, it is crucial that the United States 
increase its commitment to research aimed at the prevention and 
treatment of this disease.
    The NIH is the global leader in AIDS research. It conducts research 
on drug therapies, vaccines, and evidenced-based behavior and 
biomedical prevention interventions. Previous breakthroughs in NIH AIDS 
research include advances in antiretroviral therapy and drug regimens 
that have decreased HIV-related morbidity and mortality and reduced the 
risk of mother-to-child transmission of HIV. While NIH research has 
significantly contributed to HIV prevention and treatment programs that 
have improved the quality-of-life for many, additional and on-going 
research is needed to advance existing HIV/AIDS treatments. Therefore, 
Harlem United calls upon the subcommittee to allocate at least $34 
billion for NIH, with $3.35 billion allocated to HIV/AIDS research.

                               CONCLUSION

    Harlem United maintains a strong commitment to working with Members 
of Congress, other community-based organizations, and stakeholders to 
curtail the HIV epidemic and ensure that individuals living with HIV/
AIDS have access to quality care and treatment. By providing the fiscal 
year 2010 funding levels detailed above, we believe the subcommittee 
will be taking the necessary steps towards accomplishing the goals of 
HIV prevention and universal access to care, ensuring that this disease 
will no longer threaten our Nation.
                                 ______
                                 
           Letter From The Interstitial Cystitis Association
                                                      May 22, 2009.
Hon. Tom Harkin,
Chairman, Subcommittee on Labor, Health and Human Services, and 
        Education, and Related Agencies, Washington, DC.
Hon. Thad Cochran,
Ranking Member, Subcommittee on Labor, Health and Human Services, and 
        Education, and Related Agencies, Washington, DC.
    Dear Senator Harkin and Cochran: Thank you very much for your 
continued leadership in advancing healthcare policy.
    Interstitial cystitis (IC) is pelvic pain, pressure, or discomfort 
related to the bladder typically associated with high urinary frequency 
and urgency, in the absence of infection or other pathology. IC is also 
called chronic pelvic pain syndrome, painful bladder syndrome (PBS), 
and bladder pain syndrome (BPS).
    The Interstitial Cystitis Association (ICA) is a nonprofit 
organization committed to finding more effective treatments and a cure 
for interstitial cystitis. ICA promotes IC research; educates the 
medical community and public; advocates for IC patients, healthcare 
providers and researchers; and offers support for IC patients and their 
families. In this capacity the ICA requests the following funding 
considerations for the fiscal year 2010 Labor, Health and Human 
Services, and Education, and Related Agencies bill:
  --A 7 percent increase for the National Institutes of Health (NIH) 
        for fiscal year 2010. A 7 percent increase will allow NIH to 
        continue to expand basic biomedical research on all diseases, 
        and take advantage of the explosion of opportunities that exist 
        in reducing suffering from debilitating medical disorders.
  --A 7 percent increase for the National Institute of Diabetes and 
        Digestive and Kidney Diseases (NIDDK). NIDDK is the key NIH 
        agency funding research on interstitial cystitis (IC). ICA 
        urges that NIDDK continue to expand the research portfolio on 
        IC, so millions of American women and men can benefit from 
        advances and breakthroughs in medical care and treatments. 
        NIDDK supports the Multidisciplinary Approach to Chronic Pelvic 
        Pain clinical trial-a critical priority of ICA.
  --A 7 percent increase for the NIH Office of Research on Women's 
        Health. Located in the NIH Office of the Director, the NIH 
        Office of Women's Health supports research and program 
        activities that contribute to the understanding of interstitial 
        cystitis which primarily affects women.
  --$1 million for the Centers for Disease Control and Prevention (CDC) 
        interstitial cystitis program. A funding level of $1 million 
        will allow the modest expansion of IC program activities at CDC 
        and continue the critical CDC/ICA cooperative agreement on 
        public and professional awareness on interstitial cystitis.
    Thank you for the opportunity to present the views of the IC 
community. Please do not hesitate to contact me if there is any more 
information you would like us to provide for your consideration.
            Sincerely,
                                            Barbara Gordon,
                                                Executive Director.
                                 ______
                                 
    Prepared Statement of the Infectious Diseases Society of America

    The Infectious Diseases Society of America (IDSA) appreciates this 
opportunity to speak in support of Federal efforts to prevent, detect, 
and respond to infectious diseases in the United States and abroad as 
part of the fiscal year 2010 funding cycle. IDSA represents more than 
8,500 infectious diseases physicians and scientists devoted to patient 
care, prevention, public health, education, and research. Our members 
care for patients of all ages with serious infections, including 
meningitis, pneumonia, tuberculosis (TB), antibiotic-resistant 
bacterial infections such as methicillin-resistant Staphylococcus 
aureus (MRSA), and those with cancer or transplants who have life-
threatening infections caused by unusual microorganisms, food 
poisoning, and HIV/AIDS, as well as emerging infections like the 2009 
H1N1 virus (swine influenza) and severe acute respiratory syndrome 
(SARS).

2009 H1N1 Virus (Swine Influenza)
    IDSA's leadership strongly commends the administration's efforts to 
date in managing and responding to the 2009 H1N1 outbreak. Of critical 
importance, experts and scientists are driving key decisions. The 
leadership of the Centers for Disease Control and Prevention (CDC) and 
the Department of Health and Human Services (HHS) has been strong, and 
their coordination with other Federal, State, and local governments is 
clear. Undeniably, the investments and subsequent preparations the 
country has made since the National Strategy for Pandemic Influenza was 
issued in November 2005 are paying off. As the 2009 H1N1 virus outbreak 
unfolds, we are witnessing firsthand the important role a robust public 
health infrastructure plays in rapidly detecting and containing disease 
outbreaks. Yet, additional resources are needed to adequately respond 
to the 2009 H1N1 outbreak as well as to continue to prepare our Nation 
for other bioemergencies.
    We thank the subcommittee for providing funding for pandemic 
influenza preparedness and response activities in the recent fiscal 
year 2009 supplemental bill. IDSA supports a funding level of $2.05 
billion to complete the funding to implement the National Strategy for 
Pandemic Influenza, as well as to develop a 2009 H1N1 virus vaccine and 
replenish the Strategic National Stockpile, support grants to State and 
local health departments so they may adequately prepare for and respond 
to the 2009 H1N1 virus and other infectious diseases outbreaks, and 
provide additional funding for global pandemic preparedness activities. 
IDSA further believes that funding is needed annually to adequately 
maintain State and local pandemic preparedness activities. IDSA also 
strongly supports strengthening funding for ongoing pandemic influenza 
preparedness activities at CDC, the Food and Drug Administration (FDA), 
National Institutes of Health (NIH), and HHS' Office of the Secretary.
    Congress also must fully fund the Biomedical Advanced Research and 
Development Authority (BARDA) within HHS so that the United States can 
begin to realize goals envisioned under the Pandemic and All-Hazards 
Act enacted in 2006 to address a broad spectrum of biological threats 
in addition to pandemic influenza. IDSA recommends that $1.7 billion of 
multi-year appropriations be allocated to BARDA in fiscal year 2010 to 
fund biological therapeutics, diagnostics, vaccines, and other 
technologies. Such funding would help ensure the availability of 
resources throughout the stages of development and the flexibility for 
BARDA to partner effectively with industry.

CDC
    A strong CDC is essential to the United States' efforts to rapidly 
detect and control infectious diseases as witnessed by the current H1N1 
outbreak. CDC is the primary Federal agency responsible for conducting 
and supporting public health protection through health promotion, 
prevention, preparedness, and research. IDSA recommends increasing 
funding for CDC's core programs to $8.6 billion, to enable it to 
maintain a strong public health infrastructure and protect Americans 
from public health threats and emergencies.
    IDSA is especially concerned about CDC's Infectious Diseases 
program budget, which supports critical management and coordination 
functions for infectious diseases science, program, and policy, 
including related specific epidemiology and laboratory activities. IDSA 
recommends an fiscal year 2010 funding level of $2.7 billion for CDC's 
Infectious Diseases programs.
    Within the Infectious Disease programs' proposed budget, the 
agency's already severely strapped Antimicrobial Resistance budget 
stands at $16.9 million. This vital program is necessary to help combat 
the rising tide of drug resistance, a critical medical problem marked 
most publicly by the upsurge in methicillin-resistant Staphylococcus 
aureus (MRSA) and other drug-resistant bacterial infections. 
Antimicrobial resistance also has serious implications for our 
collective response to the 2009 H1N1 virus. Viruses are unpredictable, 
and should the 2009 H1N1 virus develop resistance to oseltamivir and 
zamamir, our ability to respond effectively to the influenza outbreak 
will significantly diminish. For these reasons, IDSA recommends 
increasing fiscal year 2010 funding for resistance programs at CDC by 
$48 million, to a total of $65 million. Such funding increases will 
enable CDC to more effectively gather morbidity and mortality data 
related to resistance, track the development of dangerous resistant 
bugs as they develop, educate physicians, patients and the public about 
the need to protect the long-term effectiveness of antimicrobial drugs, 
and strengthen infection control activities across the United States. 
This recommended level coincides well with an internal CDC professional 
judgment prepared last year which, unfortunately, was not provided to 
Congress.
    The Emerging Infectious Diseases (EI) budget line boosts the 
agency's capacity to nimbly identify and respond to emerging 
infections, such as the 2009 H1N1 virus. Much of CDC's infectious 
diseases funding is highly disease-targeted, making it difficult to 
fund cross-cutting or emergent needs. Unique in its flexibility, the EI 
line supports dozens of research and surveillance programs that address 
new and unpredictable threats. Such threats have included rabies, 
rotavirus, food-borne diseases, Ebola and SARS. Inadequate funding 
would severely affect CDC's laboratory capacity, research grants to 
academic partners, and support for State public health departments and 
public health laboratories and would reduce CDC's flexibility in 
setting priorities and taking action against new infections that may 
emerge throughout the year. IDSA recommends, at a minimum, that the 
Other Emerging Infectious Diseases line item be increased to $160 
million for fiscal year 2010.
    Immunizing our population against vaccine--preventable diseases is 
one of our country's greatest public health achievements. Through CDC's 
Section 317 Program, which funds State and local immunizations efforts, 
the United States has made significant progress toward eliminating 
vaccine-preventable diseases among children. IDSA applauds the actions 
by the Congress over the past year to increase funding for this program 
in the American Recovery and Reinvestment Act and in the fiscal year 
2009 omnibus appropriations bill. At a time when new CDC-recommended 
vaccines are available and a greater commitment to immunizations for 
both children and adults is necessary, we need to continue to increase 
access to this critical intervention that saves lives and millions of 
dollars in unnecessary medical spending. To build on this important 
effort, IDSA recommends a funding level for the Section 317 Program of 
$802 million in fiscal year 2010.
    IDSA also supports changes which will significantly strengthen the 
Section 317 Program's support for adult and adolescent immunization. 
Each year, more than 46,000 adults die of vaccine-preventable diseases. 
Costs related to illnesses from adult vaccine-preventable diseases are 
approximately $10 billion. IDSA recommends the establishment of 
distinct funding floors for adult vaccine purchase and infrastructure 
in amounts sufficient to cover immunization of the majority of under-
insured and uninsured adults with all CDC-recommended vaccines.
    Last year, Congress passed landmark legislation in the 
Comprehensive Tuberculosis Elimination Act of 2008. This bill 
authorizes a number of actions that will shore up State TB control 
programs, enhance U.S. capacity to deal with the serious threat of 
drug-resistant tuberculosis, and escalate our efforts to develop 
urgently needed ``tools,'' such as drugs, diagnostics, and vaccines. 
Realizing these goals will require additional resources. At a minimum, 
it is critical that the funding authorized for fiscal year 2010 in this 
important law--$210 million--be appropriated for the CDC Division of TB 
Elimination. The bill also separately authorized $100 million for 
development of TB diagnostics, treatments and prevention tools, which 
IDSA also supports for inclusion in fiscal year 2010 appropriations.
    HIV prevention and surveillance activities at CDC are critical to 
reducing the number of new cases occurring annually in the United 
States. Sufficient resources must be devoted to HIV prevention to 
support CDC's portfolio of prevention programs, including the 
initiative to identify people with HIV/AIDS earlier through routine HIV 
screening. This program will lead to lifesaving care sooner and will 
help to prevent further transmissions. IDSA supports funding in the 
amount of $1.57 billion for these programs in fiscal year 2010. We also 
support funding of $2.81 billion for the Ryan White CARE Act programs 
within the Health Resources and Services Administration and urge you to 
increase funding for critical part C medical care by $68.4 million, to 
a total of $270.3 million for part C programs. Ryan White programs 
provide a vital link in our healthcare safety net and are currently 
struggling to meet the need for HIV services in communities across the 
country.
NIH
    NIH is the single-largest funding source for infectious diseases 
research in the United States and the life-source for many academic 
research centers. The NIH-funded work conducted at these centers lays 
the groundwork for advancements in treatments, cures, and other medical 
technologies. Between 2003 and 2009, NIH lost 13 percent of its 
purchasing power due to the rate of biomedical research inflation and 
stagnating annual budgets. Because of the flat budget, 3 out of 4 
research proposals submitted to NIH were not funded. Peer reviewers 
were forced to become more risk averse, leading to a narrowing of 
scientific vision and a diminishing rate of medical advancement. 
Without medical advancements, thousands of Americans will have to wait 
longer for the cures they need.
    IDSA is extremely pleased that the recently enacted American 
Recovery and Reinvestment Act provided $10 billion in additional 
funding to support NIH's research efforts in 2009 and 2010. Congress 
rightfully acknowledged the role of scientific research in stimulating 
the economy. It is vital, however, that this long overdue increase in 
funding be sustained and become part of NIH's baseline. Making this 
increase permanent ultimately will translate into long-term 
improvements in human health, both domestically and globally.
    NIH's Fogarty International Center is at the forefront of global 
health and is a leader in extending the U.S. Federal biomedical 
enterprise abroad. It taps innovative thinking from all parts of the 
world and fosters important scientific partnerships. Through Fogarty, 
the United States has supported research and research training programs 
conducted by both U.S. and foreign investigators across a wide range of 
infectious diseases and needs, including HIV/AIDS, malaria, and 
tuberculosis. The Center's efforts have led to improved local health 
outcomes--but so much more can be done. For this reason, IDSA strongly 
supports increasing Fogarty's funding level in fiscal year 2010 to $100 
million--an increase of $31.3 million. These additional resources will 
enable Fogarty to increase research training initiatives, forge new 
partnerships between U.S. and foreign research institutions, and 
conduct much-needed implementation research to increase the 
effectiveness of international programs.
    IDSA also urges the National Institute of Allergies and Infectious 
Diseases (NIAID) at NIH to increase its antimicrobial resistance 
research funding by $100 million in fiscal year 2010, bringing overall 
funding in this area to $271 million. This will allow NIAID to 
strengthen clinical research and establish a clinical trials network to 
study resistant infections as well as antibacterial use and 
development. Well-designed, multi-center, randomized, controlled trials 
would create an excellent basis of evidence from which coherent and 
defensible recommendations could be developed.
FDA
    Additionally, in the Agriculture Appropriations bill, IDSA supports 
a strengthening of antimicrobial resistance efforts at FDA. 
Specifically we support a $20 million increase in antimicrobial 
resistance funding for FDA in fiscal year 2010, bringing the agency's 
resistance funding to $44 million. This will allow FDA to establish and 
periodically update antibiotic susceptibility breakpoints based on 
testing and data collection, including through the purchase of vendor 
data; fund Critical Path initiatives for antibiotics; more aggressively 
review the safety of antibiotic use in food animals; and quicken its 
pace in developing critical guidance for industry on antibiotic 
clinical trial designs.
    Today's investment in infectious diseases research, prevention, and 
treatments will pay significant dividends in the future by dramatically 
reducing healthcare costs and improving the quality of life of millions 
of Americans and others. It also will continue to enable Federal 
agencies to respond effectively and efficiently to the 2009 H1N1 virus 
and other potentially devastating outbreaks.
                                 ______
                                 
   Prepared Statement of the International Foundation for Functional 
                       Gastrointestinal Disorders

            SUMMARY OF RECOMMENDATIONS FOR FISCAL YEAR 2010

    Provide a funding increase of at least 7 percent for the National 
Institutes of Health (NIH) and its Institutes and Centers.
    Urge the National Institute of Diabetes and Digestive and Kidney 
Diseases (NIDDK) to prioritize and implement the recently released 
research recommendations of the National Commission on Digestive 
Diseases.
    Urge NIH And NIDDK to expand the research portfolio on functional 
gastrointestinal and motility disorders, such as Irritable Bowel 
Syndrome (IBS).
    Thank you for the opportunity to present this written statement 
regarding the importance of functional gastrointestinal and motility 
disorders research.
    Since our establishment in 1991, the International Foundation for 
Functional Gastrointestinal Disorders (IFFGD) has been dedicated to 
increasing awareness of functional gastrointestinal and motility 
disorders among the public, health professionals, and researchers. We 
also work to bolster digestive disease research and generate new 
treatment option for patients. For example, IFFGD worked with the 
NIDDK, the National Institute of Child Health and Human Development 
(NICHD), and the Office of Medical Applications of Research (OMAR) to 
facilitate an NIH State-of-the-Science Conference on the Prevention of 
Fecal and Urinary Incontinence in Adults, which was held in December of 
2007. Furthermore, I served on the National Commission on Digestive 
Diseases (NCDD) which recently released a long-range road map for 
digestive disease research, entitled Opportunities and Challenges in 
Digestive Diseases Research: Recommendations of the National Commission 
on Digestive Diseases
    The majority of diseases and disorders we address have no cure and 
treatment options are often limited. We have yet to completely 
understand the mechanisms of the underlying conditions. Patients face a 
life of learning to manage a chronic illness that is accompanied by 
pain and an unrelenting myriad of gastrointestinal symptoms. The 
medical and indirect costs associated with these diseases are enormous; 
estimates range from $25 billion-$30 billion annually. Economic costs 
spill over into the workplace, and are reflected in work absenteeism 
and lost productivity. Furthermore, the human toll is not only on the 
individual but also on the family. In essence, these diseases account 
for lost opportunities for the individual and society.

                                  IBS

    IBS strikes people from all walks of life. It affects 30 million to 
45 million Americans and results in significant human suffering and 
disability. This chronic disease is characterized by a group of 
symptoms, which include abdominal pain or discomfort associated with a 
change in bowel pattern, such as diarrhea and/or constipation. Although 
the cause of IBS is unknown, we do know that this disease needs a 
multidisciplinary approach in research and treatment.
    IBS can be emotionally and physically debilitating. Due to 
persistent pain and bowel unpredictability, individuals who suffer from 
this disorder may distance themselves from social events, work, and 
even may fear leaving their home.
    Numerous research recommendations regarding IBS were included as 
components of the NCDD's Long-Range Research Plan for Digestive 
Diseases. For fiscal year 2010, IFFGD urges Congress to review the 
NCDD's Report, and provide NIH and NIDDK with the resources necessary 
to adequately implement the plan's recommendations.

                           FECAL INCONTINENCE

    At least 12 million Americans suffer from fecal incontinence. 
Incontinence is neither part of the aging process nor is it something 
that affects only the elderly. Incontinence crosses all age groups from 
children to older adults, but is more common among women and in the 
elderly of both sexes. Often it is a symptom associated with various 
neurological diseases and many cancer treatments. Yet, as a society, we 
rarely hear or talk about the bowel disorders associated with spinal 
cord injuries, multiple sclerosis, diabetes, prostate cancer, colon 
cancer, uterine cancer, and a host of other diseases.
    Damage to the anal sphincter muscles; damage to the nerves of the 
anal sphincter muscles or the rectum; loss of storage capacity in the 
rectum; diarrhea; or pelvic floor dysfunction can cause fecal 
incontinence. People who have fecal incontinence may feel ashamed, 
embarrassed, or humiliated. Some don't want to leave the house out of 
fear they might have an accident in public. Most attempt to hide the 
problem for as long as possible. They withdraw from friends and family, 
and often limit work or education efforts. Incontinence in the elderly 
burdens families and is the primary reason for nursing home admissions, 
an already huge social and economic burden in our increasingly aged 
population.
    In November 2002, IFFGD sponsored a consensus conference entitled, 
Advancing the Treatment of Fecal and Urinary Incontinence Through 
Research: Trial Design, Outcome Measures, and Research Priorities. 
Among other outcomes, the conference resulted in six key research 
recommendations including more comprehensive identification of quality 
of life issues; improved diagnostic tests for affecting management 
strategies and treatment outcomes; development of new drug treatment 
compounds; development of strategies for primary prevention of fecal 
incontinence associated with childbirth; and attention to the process 
of stigmatization as it applies to the experience of individuals with 
fecal incontinence.
    In December 2007, IFFGD collaborated with NIDDK, NICHD, and OMAR on 
the NIH State-of-the-Science Conference on the Prevention of Fecal and 
Urinary Incontinence in Adults. The goal of this conference was to 
assess the state-of-the-science and outline future priorities for 
research on both fecal and urinary incontinence; including, the 
prevalence and incidence of fecal and urinary incontinence, risk 
factors and potential prevention, pathophysiology, economic and quality 
of life impact, current tools available to measure symptom severity and 
burden, and the effectiveness of both short and long term treatment. 
For fiscal year 2010, IFFGD urges Congress to review the Conference's 
Report and provide NIH with the resources necessary to effectively 
implement the report's recommendations.

                 GASTROESOPHAGEAL REFLUX DISEASE (GERD)

    Gastroesophageal reflux disease, or GERD, is a common disorder 
affecting both adults and children, which results from the back-flow of 
acidic stomach contents into the esophagus. GERD is often accompanied 
by persistent symptoms, such as chronic heartburn and regurgitation of 
acid. Sometimes there are no apparent symptoms, and the presence of 
GERD is revealed when complications become evident. One uncommon but 
serious complication is Barrett's esophagus, a potentially pre-
cancerous condition associated with esophageal cancer. Symptoms of GERD 
vary from person to person. The majority of people with GERD have mild 
symptoms, with no visible evidence of tissue damage and little risk of 
developing complications. There are several treatment options available 
for individuals suffering from GERD. Nonetheless, treatment response 
varies from person to person, is not always effective, and long-term 
medication use and surgery expose individuals to risks of side-effects 
or complications.
    Gastroesophageal reflux (GER) affects as many as one-third of all 
full term infants born in America each year. GER results from an 
immature upper gastrointestinal motor development. The prevalence of 
GER is increased in premature infants. Many infants require medical 
therapy in order for their symptoms to be controlled. Up to 25 percent 
of older children and adolescents will have GER or GERD due to lower 
esophageal sphincter dysfunction. In this population, the natural 
history of GER is similar to that of adult patients, in whom GER tends 
to be persistent and may require long-term treatment.

                             GASTROPARESIS

    Gastroparesis, or delayed gastric emptying, refers to a stomach 
that empties slowly. Gastroparesis is characterized by symptoms from 
the delayed emptying of food, namely: bloating, nausea, vomiting, or 
feeling full after eating only a small amount of food. Gastroparesis 
can occur as a result of several conditions, including being present in 
30 percent to 50 percent of patients with diabetes mellitus. A person 
with diabetic gastroparesis may have episodes of high and low blood 
sugar levels due to the unpredictable emptying of food from the 
stomach, leading to diabetic complications. Other causes of 
gastroparesis include Parkinson's disease and some medications, 
especially narcotic pain medications. In many patients the cause of the 
gastroparesis cannot be found and the disorder is termed idiopathic 
gastroparesis. Over the last several years, as more is being found out 
about gastroparesis, it has become clear this condition affects many 
people and the condition can cause a wide range of symptom severity.

                        CYCLIC VOMITING SYNDROME

    Cyclic vomiting syndrome (CVS) is a disorder with recurrent 
episodes of severe nausea and vomiting interspersed with symptom-free 
periods. The periods of intense, persistent nausea, vomiting, and other 
symptoms (abdominal pain, prostration, and lethargy) lasts hours to 
days. Previously thought to occur primarily in pediatric populations, 
it is increasingly understood that this crippling syndrome can occur in 
a variety of age groups including adults. Patients with these symptoms 
often go for years without correct diagnosis. The condition leads to 
significant time lost from school and from work, as well as substantial 
medical morbidity. The cause of CVS is not known. Better understanding, 
through research, of mechanisms that underlie upper gastrointestinal 
function and motility involved in sensations of nausea, vomiting and 
abdominal pain is needed to help identify at risk individuals and 
develop more effective treatment strategies.

                     SUPPORT FOR CRITICAL RESEARCH

    IFFGD urges Congress to provide the necessary funding for the 
expansion of the research activities at NIDDK and the Office of 
Research on Women's Health (ORWH) regarding functional gastrointestinal 
disorders and motility disorders. Additional funding will allow 
necessary growth of the research portfolios on functional 
gastrointestinal disorders and motility disorders at NIDDK and ORWH, 
and also facilitate implementation of the NCDD's research 
recommendations.
    Recent years of near level-funding at NIH have negatively impacted 
the mission of its Institutes and Centers. For this reason, IFFGD 
applauds initiatives like Senator Arlen Specter's (R-PA) successful 
effort to provide NIH with $10.4 billion in stimulus funds. IFFGD urges 
this subcommittee to show strong leadership in pursuing substantial 
funding increase through the regular appropriations process in fiscal 
year 2010.
    For fiscal year 2010, IFFGD recommends a funding increase of at 
least 7 percent for NIH and its Institutes and Centers.
                                 ______
                                 
       Prepared Statement of the International Myeloma Foundation

    The International Myeloma Foundation (IMF) appreciates the 
opportunity to submit written comments for the record regarding fiscal 
year 2010 funding for myeloma cancer programs. The IMF is the oldest 
and largest myeloma foundation dedicated to improving the quality of 
life of myeloma patients while working toward prevention and a cure.
    To ensure that myeloma patients have access to the comprehensive, 
quality care they need and deserve, the IMF advocates on-going and 
significant Federal funding for myeloma research and its application. 
The IMF stands ready to work with policymakers to advance policies and 
programs that work toward prevention and a cure for myeloma and for all 
other forms of cancer.

                           MYELOMA BACKGROUND

    Myeloma is a cancer in the bone marrow affecting production of red 
cells, white cells, and stem cells. It is also called ``multiple 
myeloma,'' because multiple areas of bone marrow may be involved. 
Myeloma is the second most common blood cancer after lymphomas, 
affecting an estimated 750,000 people worldwide and its prevalence 
appears to be is increasing significantly.
    No one knows the exact causes of myeloma. Doctors can seldom 
explain why one person develops this disease and another does not. 
Research has shown that people with certain risk factors such as age 
and race are more likely than others to develop myeloma. Growing older 
increases the chance of developing multiple myeloma as most people with 
myeloma are diagnosed after age 65. However, in recent years the 
diagnosis of myeloma in people 40 years of age and younger appears to 
have become more common as our ability to detect and diagnose this 
disease has improved. The risk of myeloma is highest among African 
Americans and lowest among Asian Americans.
    Scientists are studying other possible risk factors for myeloma. 
Toxic chemicals (for example, agricultural chemicals and Agent Orange 
used in Vietnam), radiation (including atomic radiation), and several 
viruses (including HIV, hepatitis, herpes virus 8, and others) are 
associated with an increased risk of myeloma and related diseases.
    According to the American Cancer Society, 19,920 Americans were 
expected to be diagnosed with myeloma and 10,690 would lose their 
battle with this disease in 2008. Even while they live with the 
disease, myeloma patients can suffer debilitating fractures and other 
bone disorders, severe side effects of their treatment, and other 
problems that profoundly affect their quality of life, and 
significantly impact the cost of their healthcare. Despite these grim 
statistics, significant gains in the battle against myeloma have been 
made through our Nation's investment in cancer research and its 
application. Research holds the key to improved myeloma prevention, 
early detection, diagnosis, and treatment, but such breakthroughs are 
meaningless unless we can deliver them to all Americans in need.

            SUSTAIN AND SEIZE CANCER RESEARCH OPPORTUNITIES

    Our Nation has benefited immensely from past Federal investment in 
biomedical research at the National Institutes of Health (NIH). The IMF 
advocates $33.3 billion for NIH in fiscal year 2010. This will allow 
NIH to sustain and build on its research progress resulting from the 
recent doubling of its budget while avoiding the severe disruption to 
that progress that would result from a minimal increase. Myeloma 
research is producing extraordinary breakthroughs--leading to new 
therapies that translate into longer survival and improved quality of 
life for myeloma patients. Although myeloma was once considered a death 
sentence with limited options for treatment, myeloma is an example of 
the progress that can be made and the work that still lies ahead in the 
war on cancer. Many myeloma patients are living proof of what 
innovative drug development and clinical research can achieve--
sequential remissions, long-term survival and good quality of life. But 
these achievements are not a substitute for a cure and therefore the 
IMF calls upon Congress to allocate $6 billion to the National Cancer 
Institute in fiscal year 2010 to continue our battle against myeloma 
and its sequelae.

 BOOST OUR NATION'S INVESTMENT IN MYELOMA PREVENTION, EARLY DETECTION, 
                             AND AWARENESS

    As the Nation's leading prevention agency, the Centers for Disease 
Control and Prevention (CDC) plays an important role in translating and 
delivering at the community level what is learned from research. 
Therefore, the IMF joins with our partners in the cancer community--
including One Voice Against Cancer--in calling on Congress to provide 
additional resources for the CDC to support and expand much-needed and 
proven efforts in such areas as cancer prevention, early detection, and 
risk reduction. Specifically, the IMF advocates the appropriation of 
$471 million in fiscal year 2010 for CDC's cancer prevention and 
control initiatives.
    Within that allocation, the IMF specifically advocates $6 million 
for the Geraldine Ferraro Blood Cancer Program. Authorized under the 
Hematological Cancer Research Investment and Education Act of 2002, 
this program was created to provide public and patient education about 
blood cancers, including myeloma.
    With grants from the Geraldine Ferraro Blood Cancer Program, the 
IMF has successfully promoted awareness of myeloma, particularly in the 
African-American community and other underserved communities. IMF 
accomplishments include the production and distribution of more than 
4,500 copies of an informative video which addresses the importance of 
myeloma awareness and education in the African-American community to 
churches, community centers, inner-city hospitals, and Urban League 
offices around the country, increased African-American attendance at 
IMF Patient and Family Seminars (these seminars provide invaluable 
treatment information to newly diagnosed myeloma patients), increased 
calls by African-American myeloma patients, family members, and 
caregivers to the IMF myeloma hotline, and the establishment of 
additional support groups in inner city locations in the United States 
to assist underserved areas with myeloma education and awareness 
campaigns. Furthermore, the more than 90 IMF-affiliated patient support 
groups in the United States also made this effort their main goal 
during ``Myeloma Awareness Week'' in October 2005.
    An allocation of $6 million in fiscal year 2010 will allow this 
important program to continue to provide patients--including those 
populations at highest risk of developing myeloma--with educational, 
disease management and survivorship resources to enhance treatment and 
prognosis.
\
                               CONCLUSION

    The IMF stands ready to work with policymakers to advance policies 
and support programs that work toward prevention and a cure for 
myeloma. Thank you for this opportunity to discuss the fiscal year 2010 
funding levels necessary to ensure that our Nation continues to make 
gains in the fight against myeloma.
                                 ______
                                 
          Prepared Statement of the Jeffrey Modell Foundation

    Thank you for the opportunity to present to you our testimony 
concerning the activities of the Jeffrey Modell Foundation (JMF) 
dedicated to Primary Immunodeficiency (PI). As you know, most of our 
programs are conducted in partnership with various governmental 
agencies under the jurisdiction of this subcommittee. We very much 
appreciate the support, generosity, and kindness of spirit that we have 
received from the members and staff of this subcommittee and look 
forward to continuing to work together closely in the future.
    As a baseline, Mr. Chairman, please let me make clear the following 
four fundamental points:
  --JMF programs always include our own investment of funds and 
        resources, thereby assuring accountability.
  --JMF programs improve patients' quality of life issues through 
        prevention and earliest possible diagnosis.
  --JMF programs, therefore, lower healthcare costs.
  --JMF programs save lives as demonstrated in the 2008 Wisconsin 
        newborn screening program.
    All of the data concerning the impact of the education and 
awareness program that this subcommittee has long supported has been 
published in a leading scientific journal, ``Immunologic Research'', 
Humana Press, January 13, 2009 and is entitled, ``From Genotype to 
Phenotype. Further Studies Measuring the Impact of a Physician 
Education and Public Awareness Campaign on Early Diagnosis and 
Management of Primary Immunodeficiencies''.

     PHYSICIAN EDUCATION AND PUBLIC AWARENESS CAMPAIGN ON PRIMARY 
                           IMMUNODEFICIENCIES

    Five years ago, Mr. Chairman, this subcommittee set us on a path to 
work with the Centers for Disease Control and Prevention (CDC) to 
create a physician education and public awareness program. Today, that 
program has far exceeded even our most optimistic dreams.
    JMF has now generated more than $100 million in donated media from 
television, radio, print, Web site, airport, and mall dioramas. This 
translates to more than $18 million annually and represents $7 donated 
to support this campaign for every $1 of Government support 
appropriated by this subcommittee. But all that visibility would be 
meaningless if there were not real impact on the health of these 
patients. And, there are.
    The number of patients referred, tested, diagnosed, and treated has 
more than doubled every year for the past 5 years in which the campaign 
has been conducted.
    The Jeffrey Modell Centers Network of Research, Diagnostic and 
Referral Centers now include 304 physicians, from 138 academic teaching 
hospitals and medical schools. Twenty-three of the 30 ``Best Pediatric 
Hospitals'' in the United States are designated Jeffrey Modell Centers. 
The physician-experts at these centers have provided JMF with data on 
more then 30,000 patients. And we can now pinpoint the specific 
disease, where the patient is treated, who is treating the patient, and 
how the patient is treated. This data can make an enormous contribution 
to registries not only in the United States, but on a global platform.
    After diagnosis and treatment, physicians reported annual decreases 
of more than 70 percent in the number of severe infections, physician, 
hospital, and emergency room visits, pneumonias, school/work days 
missed, days in hospital, acute infections, and days with chronic 
infections.
    The consequences of these changes in patient outcomes were assigned 
economic values. JMF's published study drew from the hospital 
accounting reports at the Centers for Medicare and Medicaid services. 
The specific hospital charges and length of stay data was obtained from 
the Hospital Cost and Utilization Project, Nationwide In-patient 
Sample, under the auspices of the Agency for Healthcare Research and 
Quality.
    The study showed that each undiagnosed patient costs the healthcare 
system $102,736 annually in emergency room visits, hospitalizations, 
and medical treatment for severe complications. It costs $22,696 
annually to treat patients after they have been diagnosed-a savings of 
more than $80,000 per patient per year.
    The National Institutes of Helath (NIH) states that ``while 
individual primary immunodeficiency diseases are somewhat rare, 
affecting 500,000 Americans, this group of diseases may affect 1-2 
percent of the U.S. population or 3 million-6 million Americans.'' 
Using the most conservative estimate, the minimum cost to the U.S. 
healthcare system for undiagnosed PI patients is more than $40 billion 
annually. Ensuring that these patients are properly diagnosed makes 
enormous economic sense, not to mention their improved quality of life.

                    RESEARCH COLLABORATION WITH NIH

    JMF established a $12 million research partnership with four of the 
U.S. National Institutes of Health. The RO1 research grants solicit 
investigations on Primary Immunodeficiency (PI) diseases. JMF also 
established the Robert A. Good/Jeffrey Modell International Fellowship 
Program, funding the brightest young investigators from around the 
world, focused on PI and stem cell transplantation. JMF awarded 4 
Fellowships in 2008 under this program.
    Finally, in 2008, JMF established Endowed Chairs in Pediatric 
Immunology Research at Children's Hospital Boston, Children's Hospital 
Seattle, as well as the Jeffrey Modell Endowed Fellowship in Immunology 
Research at the University of Washington.

            NEWBORN SCREENING FOR PRIMARY IMMUNODEFICIENCIES

    JMF and the State of Wisconsin launched the first newborn screening 
program for Severe Combined Immune Deficiency. Since January 2008, 
every baby born in the State of Wisconsin has been screened. The T Cell 
Receptor Excision Circles assay was utilized and the screening test 
identified a patient with a combined immunodeficiency disease. The baby 
received a life-saving bone marrow transplant. The screening protocol 
has picked up several other newborns with life threatening disorders 
including Complete Di George Syndrome, T-Cell lymphopenia, and a 
disorder where white blood cells are unable to migrate to sites of 
infection. We anticipate that Massachusetts, Illinois, Connecticut, 
Texas, and New York will move forward with pilot programs in 2009.
    At this date, the cost to screen for these life threatening 
diseases is $5 per child. It is anticipated that this cost will 
decrease. There are approximately 4 million newborns per year in the 
United States. Thus, the outside cost to screen every newborn in the 
United States is estimated to be less than $20 million.

SPIRIT--SOFTWARE FOR PRIMARY IMMUNODEFICIENCY RECOGNITION INTERVENTION 
                              AND TRACKING

    JMF brought its 2008 data to the annual meeting of the Managed Care 
Network (MCN). Senior executives and medical directors of private and 
Medicare/Medicaid health plans nationwide, as well as the leadership of 
pharmacy groups representing more than 150 million covered lives, 
attended the 2-day meeting. JMF was asked to develop an early warning 
system software program matching the ICD-9 codes to the 10 Warning 
Signs and Physician Algorithm. This software, known as SPIRIT, is now 
in development and will be piloted with National managed care carriers 
during 2009. The software protocol is being developed by JMF and its 
Medical Advisory Board, and the technology will be produced by Xcenda, 
a division of AmeriSource Bergen Corporation. Besides the listing of 
the ICD-9 codes, the program assigns relative weights for each code, 
identifies each code as a chronic or acute condition, and provides 
specific exclusion criteria.

                                SUMMARY

    Mr. Chairman, I hope you will agree that the many programs run by 
the Jeffrey Modell Foundation are a ``perfect fit'' with the announced 
approach to reforming healthcare articulated by the President and 
currently being addressed by this Congress. Specifically we have 
focused our attention on:
  --Prevention through physician education and public awareness;
  --Quality of care through the JMF Network of specialized centers;
  --Control of healthcare costs through early diagnosis and Newborn 
        Screening; and
  --Use of technology to streamline records and generate electronic 
        data though new software developed by JMF for third-party 
        payers.
    For fiscal year 2010, we bring you what we consider to be a very 
modest agenda:
  --We ask for no new appropriations or programs from the subcommittee.
  --We ask for continuation of the successful programs that we are now 
        operating.
  --We ask for Government encouragement and support for these programs.
    In exchange, we can assure you that we will continue to contribute 
our own funds to every program with which we are involved. We will 
continue to operate these programs by fully exercising good management 
and ever-cognizant of our responsibilities to this subcommittee and to 
the taxpayers who have supplied the funds that you pass on to us.
    Mr. Chairman, we are at a critical time in our Nation's healthcare 
history. JMF is proud of the contributions we have made to the 
healthcare system and look forward to continuing to work with you and 
with all members of Congress to continue to serve the American people.
                                 ______
                                 
           Prepared Statement of the Mentor Consulting Group
          ``It must not for a moment be forgotten that the core of any 
        social plan must be the child.''
                                                President Franklin 
                                                Roosevelt
                                                U.S. Committee on 
                                                Economic Security, 
                                                Report to the 
                                                President, 1935

    Senator Harkin and distinguished members of the subcommittee: 
Mentor Consulting Group (MCG) is pleased to submit testimony for the 
outside witness record to ask the subcommittee to direct its attention 
to the President's fiscal year 2010 proposed budget recommendation 
calling for the elimination of the U.S. Department of Education's (ED) 
mentoring program. MCG is seeking your help in restoring the funding 
for this important and much needed program to enable agencies from 
Storm Lake, Iowa, to McAllen, Texas, from Rhinelander, Wisconsin to 
Starkville, Mississippi, to continue supporting match relationships for 
a third year.
    It is our understanding that the cost of restoring the third year 
of funding for 2008 mentoring program grantees is estimated at $17 
million.
    Mentoring is fundamentally predicated on creating healthy and 
meaningful relationships for youngsters who are in jeopardized 
circumstances with respect to their potential for achieving long-term 
educational and socio-emotional success. Research demonstrates that 
youth who successfully transition from risk-filled backgrounds to 
responsible adulthood are consistently distinguished by the presence of 
a caring adult in their lives. Prematurely ending matches, such as 
those that have been recently established through the mentoring program 
grants, can be potentially harmful to mentees. MCG strongly urges the 
subcommittee to prevent this possibility from turning into a tragic 
reality for thousands of vulnerable children.
    The ED mentoring program, authorized under the No Child Left Behind 
Act (NCLB) of 2002, section 4130, is a competitive Federal grant 
program managed by the Office of Safe and Drug Free Schools (OSDFS). It 
addresses the lack of supportive adults at critical turning points in 
the lives of youngsters in grades 4-8. The funding supports mentoring 
programs operating in local education agencies (LEAs); nonprofit 
community- and faith-based organizations; and partnerships between LEAs 
and local nonprofits. Funded programs are designed to:
  --improve interpersonal relationships with peers, teachers, family 
        members, and other adults;
  --increase personal responsibility and community involvement;
  --discourage the use of drugs and alcohol;
  --discourage the use of weapons;
  --reduce delinquency;
  --improve academic achievement; and,
  --reduce school dropout.
    Since 2004, MCG has worked on-site with 57 ED mentoring program 
grantees serving in the capacity of overall technical assistance 
provider, e.g., mentor/mentee training, mentor recruitment, marketing, 
sustainability planning, and/or as the external evaluator. Our client 
sample is rich with diversity both with respect to the size and scope 
of their grants, e.g., we work with the agency receiving the smallest 
of the 2008 awards, as well as their experience in operating a formal 
mentoring program. Another of our clients, also a 2008 grantee, is 
among the 30 largest school districts in Texas and is working with 17 
partnering school campuses. This grantee exceeded their 1 to 1 match 
goal of 150 matches before the end of the first year of the grant. The 
potential impact on 150 youngsters, in this one community alone, should 
this program be eliminated, is unimaginable.
    A key ``lesson learned'' based on our experience with all of these 
clients is that the complexities of operating a mentoring program 
cannot be overstated. Building safe and secure relationships between 
youngsters and caring adults requires the attention and involvement of 
trained, committed, and competent staff who understand the quality 
assurance standards of the mentoring field.
    Beyond the potential benefits for the youth, the ED mentoring 
program has enabled grantees to forge strategic community partnerships 
between concerned citizens and multiple youth serving organizations to 
maximize the use of community resources. Also negatively affected by 
this proposed termination of funds is those staff hired to work with 
the ED mentoring program who have worked diligently over the past 13 
months to introduce and promote these programs in their community and 
to build these vital new mentor/mentee relationships. Premature 
termination of this grant program would, of course, force layoffs in 
110 communities across the country. By contrast, the economic stimulus 
package is working hard to counter just such layoffs.
    Research over the past decade has demonstrated that mentoring is a 
viable intervention strategy that holds considerable promise. Studies 
of structured mentoring programs, including those that have received 
Federal funding, suggest that the programs are likely to be more 
successful when they include a strong infrastructure and facilitate 
caring relationships. Infrastructure refers to a number of activities 
including identifying the youth population to be served and the 
activities to be undertaken, screening and training mentors, supporting 
and supervising mentoring relationships, collecting data on youth 
outcomes, and creating strategies for long-term sustainability. (Ref. 
Jean Balwin Grossman, ed., Contemporary Issues in Mentoring, Public/
Private Ventures, p.6). The ED mentoring program is providing much 
needed funding to ensure the integrity of the requisite infrastructure 
and facilitation of caring relationships in programs that would 
otherwise be severely marginalized.
    Another signal research finding is that mentoring relationships are 
likely to promote positive outcomes for youth and avoid harm when they 
are close, consistent, and enduring. (Ref. Rhodes and DuBois, 
``Understanding and Facilitating the Youth Mentoring Movement,'' p. 9). 
Closeness is the bond that is created between the youth and mentor. The 
characteristics of the volunteer mentors (no mentors in ED mentoring 
program matches are able to be remunerated) have also proven to be 
important in shaping the relationships and strengthening the bond. For 
example, individuals with prior experience in helping roles or 
occupations, an ability to understand and respect cultural differences, 
and an overall sense of commitment to mentoring all appear to 
contribute positively to the relationship and overall match quality. 
Further, it appears that relationships may be especially beneficial 
when they remain part of the youth's life for multiple years (Klaw, 
Fitzgerald & Rhodes, 2003: McLearn et al., 1998) and have the 
opportunity to facilitate adaptation throughout significant portions of 
their development (DuBois & Silverthorn, 2005b; Werner, 1995). These 
findings are of particular importance to the 4th through 8th grade 
population served by the ED mentoring program.
    The ED mentoring program garnered national attention recently 
following publication of the Impact Evaluation of the U.S. Department 
of Education's Student Mentoring Program report prepared by Abt 
Associates for the Institute of Education Sciences (March 2009). ED 
contracted with Abt in 2005 to conduct the study which used an 
experimental design in which students were randomly assigned to a 
treatment or control group. The study involved 32 ED Mentoring Program 
grantee sites that were funded beginning in 2004 or 2005. Grantees 
selected for participation in the Impact Study were required to meet 
three criteria:
  --Be operational so that it could recruit and match students to 
        mentors in the fall of 2005 for the first group of grantees and 
        fall 2006 for the second group;
  --Able to oversubscribe or identify excess demand supporting 
        experimental study needs for an unserved control group (i.e., 
        able to provide tangible evidence of a pool of 4th through 8th 
        grade students referred to the mentoring program) of adequate 
        size to support study requirements; and
  --Willing and able to cooperate with the data collection and 
        logistical needs of the national evaluation, including random 
        assignment.
    While the findings of the impact evaluation study are indeed mixed, 
MCG is encouraged that this study has captured several of the inherent 
challenges that often confront early cohorts of federally funded 
mentoring initiatives. This study contributes to the growing body of 
research evidence, however, the field warrants additional comparative 
evaluation studies that look at different program models. Each and 
every cohort of a federally funded initiative should be evaluated and 
this study helps to make that very point. More recently funded ED 
mentoring program grantees, including those in 2008, have had the 
benefit of an expanded comprehensive technical assistance package that 
includes conference trainings, webinars, resource materials (available 
online), and site visits designed to help program coordinators with all 
aspects of program implementation, data tracking, and operation. In 
addition, grantees are now trained on specific aspects of program 
sustainability.
    In closing, we would like to share with you a comment from a mentee 
who met with us during a recent site visit. When asked what having a 
mentor meant to him, Isaiah, a fourth grade student replied, ``Having a 
mentor has been the best thing that has happened to me in my whole 
life.''
    MCG fully acknowledges and appreciates the widespread economic and 
social challenges facing our country at this time. However, 
reinstatement of the ED mentoring program funding in the 2010 budget is 
a clarion call for moral policymaking.
    That call is befitting of your role as members of this august body 
and will ensure that youngsters like Isaiah will one day achieve their 
full potential and enjoy their opportunity to sit as a distinguished 
member of Congress.
    Thank you for the opportunity to submit this testimony.
                                 ______
                                 
     Prepared Statement of the Montgomery County Stroke Association

    I am Flora Ingenhousz, a psychotherapist in private practice in 
Silver Spring, Maryland. I have always been in excellent health and 
live an active, healthy lifestyle. Doctors always commented on my low 
blood pressure and my excellent cholesterol numbers. But I suffered a 
stroke 3 years ago. It was a shock to me and my family, friends, and 
clients.
    One morning 3 years ago, when doing a load of laundry, I had no 
idea how to set the dials, despite the fact that I had used them weekly 
for the last 10 years. I stood there for what seemed an eternity before 
I figured out how to set the dials.
    Next, I went to do yoga. In one of the poses, I noticed my right 
arm was hanging limp. When my husband asked me a question, my answer 
was just the opposite of what I wanted to say. I caught my error and 
tried again, but it soon became clear that something was wrong. My 
symptoms kept getting worse.
    When we walked into the emergency room (ER), my right leg was weak, 
and I could not sign my name at the desk. Twelve hours later, I could 
not move my right side, and my speech was reduced to ``yes'' and 
``no''. Not a good thing for a psychotherapist, where language is a 
primary tool.
    In the emergency room, a CT scan showed a hemorrhagic or bleeding 
stroke where an artery burst, destroying millions of brain cells within 
minutes, affecting my speech and my ability to perform activities like 
dressing in the correct order. Also, my right arm and leg were 
extremely weak. However, I could understand everything, and I was never 
completely paralyzed. But, I was scared.
    I was in intensive care for 4 days of observation and lots of 
testing, but the tests provided no answers. Two days after my stroke, 
while still in intensive care, I started occupational, physical, and 
speech therapy. It was extremely challenging to feed myself with my 
right hand, requiring all my concentration. After a meal or brushing my 
teeth, I was exhausted. Speaking was the hardest of all. My brain 
seemed devoid of words.
    After being stabilized, I was transferred to the National 
Rehabilitation Hospital. For a week, I endured speech, physical, 
occupational and recreational therapies.
    Speech therapy was the hardest, but also the most important given 
my profession. Several times, the speech therapist challenged me to the 
brink of tears.
    After a week at the Rehabilitation Hospital, I went home and to 
outpatient therapies. Speech therapy lasted the longest. After being 
discharged from speech therapy, I still had deficits in my 
organizational skills and abstract thinking.
    As I struggled with starting to see my clients again, I slid into a 
deep depression. I was not confident that I could continue to practice. 
For months, I saw no point in living. Recovery from my poststroke 
depression was harder than the recovery of my arms and legs and even 
speech.
    Being a psychotherapist, I know how to treat depression, so I went 
to a psychiatrist who prescribed anti-depressant medication and, I also 
found a psychotherapist.
    After months on anti-depressants and excellent psychotherapy, my 
depression began to lift. I continue on the drugs and to see my 
psychotherapist. Emotionally, the aftermath of my stroke cut deep.
    I am fortunate that 3 years poststroke, I am back to my practice 
full time. I lead support groups for stroke survivors and caregivers 
through the Montgomery County Stroke Association and served on its 
Board. I now lecture on stroke, stroke prevention and stroke recovery. 
I founded ``hope for stroke''--individual and family counseling for 
stroke survivors and caregivers. And I have developed, together with a 
colleague, a seminar for professionals in the stroke field on the role 
of mental health providers in stroke recovery. In addition, I have 
participated in a National Institutes of Health (NIH) study about 
stroke recovery.
    Once again, I am in excellent health and have resumed my active 
lifestyle. I thank my brain for having the capacity to work around the 
dead cells. But most of all, I thank my therapists for my recovery. 
Their ability to zero in so effectively would not have been possible 
without NIH research.
    Because stroke is a leading cause of death and disability and major 
cost to society, I urge you to provide stroke research with a 
significant funding increase. I am concerned that NIH continues to 
invest only 1 percent of its budget in stroke research.
    Thank you.
                                 ______
                                 
                      Prepared Statement of MENTOR

    Chairman Harkin and Ranking Member Cochran, we thank you for the 
opportunity on behalf of MENTOR to submit written testimony in support 
of resources for youth mentoring.
    Primarily, this includes $100 million in Federal funding for youth 
mentoring--$50 million for the Department of Health and Human Services' 
Mentoring for Children of Prisoners program and $50 million for the 
Department of Education's Mentoring Programs grants. MENTOR has 
appreciated the support of the subcommittee in previous years, in 
funding these programs at these levels since fiscal year 2004.
    Mentoring has been recognized as an important form of service by 
the Obama administration and the 111th Congress, given its inclusion in 
several portions of the recently signed Edward M. Kennedy Serve America 
Act. The act, in its wide-ranging call to significantly increase 
service opportunities, will also augment the pool of volunteers who can 
become mentors to young people.
    We would like to appeal that the Serve America Act be fully funded 
in fiscal year 2010 to ensure that this historical boost in national 
and community service is allowed to occur. We also are recommending 
that Congress continue to provide $50 million each for the U.S. 
Department of Education Mentoring Programs grants and the U.S. 
Department of Health and Human Services' Mentoring for Children of 
Prisoners program.
    Background on MENTOR and Youth Mentoring.--MENTOR is the Nation's 
leading advocate and resource for mentoring, delivering the research, 
policy recommendations, advocacy, and practical performance tools that 
facilitate the expansion of mentoring initiatives. We believe that, 
with the help and guidance of an adult mentor, each child can unlock 
his or her potential.
    For nearly two decades, MENTOR has worked to expand the world of 
quality mentoring. In cooperation with a national network of Mentoring 
Partnerships and with more than 4,100 mentoring programs nationwide, 
MENTOR helps connect young Americans who want and need caring adults in 
their lives with the power of mentoring.
    We build the infrastructure that enables mentoring programs to 
flourish, and we leverage resources and provide tools that local 
mentoring programs need to operate high-quality mentoring. We also 
assist mentoring programs nationwide in building greater awareness of 
the need for mentors, and raising the profile of mentoring among 
corporate leaders, foundation executives, policymakers and researchers.
    Three million young people are currently benefiting from the 
guidance of caring adult mentors under our system. And through the 
combined efforts of the mentoring field, we seek to close the mentoring 
gap so that the 15 million children who currently need mentors also can 
benefit from caring mentors.
    It is on behalf of these 4,100 mentoring programs, the national 
network of mentoring partnerships and 15 million children who need 
mentors all across our country that we submit this testimony today.
    Benefits of Mentoring.--Youth mentoring is a simple, yet powerful 
concept: an adult provides guidance, support and encouragement to help 
a young person achieve success in life. Mentors serve as role models, 
advocates, friends and advisors.
    Mentoring today offers many options--the traditional one-to-one 
format, team and group mentoring, peer mentoring, and even online 
mentoring. And mentoring programs are run by nonprofit community-based 
organizations, schools, faith-based organizations, local government 
agencies, workplaces, and more.
    Numerous program evaluations have demonstrated that high-quality 
mentoring relationships can lead to a range of positive outcomes. A 
meta-analysis of 55 mentoring program evaluations found benefits of 
participation in the areas of emotional/psychological well-being, 
involvement in problem/high-risk behavior and academic outcomes. 
Looking at a broader range of outcomes, conducted a meta-analysis of 40 
youth mentoring evaluations, and found that youth in mentoring 
relationships fared significantly better than nonmentored youth. 
Likewise, a recent, large randomized evaluation of Big Brothers Big 
Sisters of America's newer, school-based mentoring revealed 
improvements in mentored youth's academic performance, perceived 
scholastic efficacy, school misconduct, and attendance relative to a 
control group of nonmentored youth. In short, mentoring is an effective 
strategy that addresses both the academic and nonacademic needs of 
struggling young people. It can help ensure that students come to 
school and are ready and able to learn.

         HIGH-QUALITY MENTORING GENERATES THE STRONGEST IMPACT

    Like any youth-development strategy, mentoring works best when 
measures are taken to ensure quality and effectiveness. Money, 
personnel and resources are required to initiate and support quality 
mentoring relationships. The average per-child expenditure for a 
mentoring match that adheres to The Elements of Effective Mentoring 
Practice<SUP>TM</SUP>--the mentoring industry standard--is between 
$1,000 and $1,500 per year, depending on the program model.
    Successful mentoring programs must have well-trained staff familiar 
with the needs of the community. One-third of mentoring programs 
indicate that hiring and retaining quality staff can be a challenge due 
to low salaries. A recruitment campaign must be conducted to attract 
volunteers, as many programs have young people on their waiting lists 
for mentors.
    Program staff must interview each potential volunteer, check 
references, and perform criminal background checks. Thorough background 
checks alone can cost as much as $50-$90 per volunteer. Once the 
screening process is complete, each mentor must receive first-rate 
training before being matched with a mentee. The work of the mentoring 
program does not end with the first meeting of the mentor and young 
person--both require ongoing support, monitoring, and guidance.
    All of these elements are critical because research clearly links 
program quality with positive outcomes. According to Dr. Jean Rhodes, 
professor of psychology at University of Massachusetts at Boston, 
careful screening, training and ongoing support are essential to the 
longevity of mentoring relationships and to the ultimate success of 
mentoring relationships.
    Rhodes also found that the longer a mentoring relationship lasts, 
the greater the positive, long-lasting effect it has on a young person. 
Other researchers in the field have substantiated her findings. In 
essence, when properly prepared and supported, a mentor is more likely 
to connect with the young person and to stick with the relationship 
when times get hard.
    Need for Federal Dollars.--The mentoring field needs continued 
access to Federal funds if we are to be able to serve more children, 
and serve them well. Once again, America has a wide mentoring gap of 
nearly 15 million young people. The demand for mentoring far exceeds 
the current capacity of local mentoring programs and the number of 
adults who volunteer as mentors, and thousands of children sit on 
waiting lists for mentors. As noted above, it takes financial resources 
to be able to adhere to mentoring best practices and provide quality 
mentoring experiences to young people.
    Since fiscal year 2004, Congress has devoted approximately $100 
million annually for youth mentoring, split evenly between two critical 
grant programs:
  --Department of Education, Mentoring Programs Grants.--These grants 
        go to local mentoring organizations to establish or expand 
        their mentoring program. It can support recruiting, screening, 
        and training of mentors, as well as hiring and professional 
        development of mentoring coordinators and support staff. 
        Community-based organizations, faith-based organizations, and 
        schools are eligible to apply for funding.
  --Department of Health and Human Services, Mentoring for Children of 
        Prisoners.--This program provides funding to organizations that 
        match mentors with young people whose parents are incarcerated. 
        It also is open to community-based and faith-based 
        organizations.
    Both of these programs provide much-needed Federal dollars to help 
mentoring programs get established or to expand to serve more children. 
Both programs are competitive grant programs, with all funding being 
awarded to local organizations. The request for proposals for both 
programs require applicants to detail how they will be able to carry 
out key mentoring best practices. Since 2004, coinciding with this 
significant increase in Federal support, we have seen the number of 
young people in mentoring relationships grow from 2.5 million to the 
current level of 3 million. Clearly, this funding is having an impact 
on the mentoring gap.
    President Obama stated in remarks about his fiscal year 2010 budget 
February 26, 2009, ``Education Secretary Duncan is set to save tens of 
millions of dollars more by cutting an ineffective mentoring program 
for students, a program whose mission is being carried out by 100 other 
programs in 13 other agencies.'' Once again, we are not certain that 
this means the total elimination of school-based mentoring programs in 
the Department of Education, but even in the absence of a detailed 
budget justification, we feel that comment is warranted.
    We understand that this decision may rest in large part on a recent 
evaluation that showed that school-based mentoring, as practiced by 
many programs around the country, failed to increase grades or test 
scores. However, just 2 years ago, another rigorous evaluation of 
school-based mentoring found that teachers reported the quality of the 
mentored students' school work improved.
    To understand these apparently contradictory findings, it is 
important to note that the earlier evaluation answered the question, 
``What effect does a well-run, school-based mentoring program have?'' 
The more recent evaluation answered the question, ``What effect does 
the average school-based mentoring program have?'' Findings from both 
studies reveal that strong programs can improve academic performance, 
while programs that do not incorporate best practices cannot. 
Interestingly, both types of programs have increased attendance.
    School-based mentoring was never designed to be a program that 
primarily improved academic achievement. Mentoring aims more broadly to 
keep children on a constructive, responsible path (such as encouraging 
behaviors like coming to school and following the rules). Mentors are 
not supposed to be teachers, but friends and role models. Even so, the 
earlier evaluation did show that well-run programs improved academic 
performance and behavior by the end of the school year.
    Mentoring addresses a particular challenge facing our Nation today: 
the high rate at which young people drop out of high school. Nearly 
one-third of all high school students drop out before receiving their 
diploma, a rate which approaches 50 percent for minority students. 
Research on the dropout rate shows that young people can fail to 
graduate for a wide variety of reasons, including: lack of connection 
to the school environment, lack of motivation or inspiration, chronic 
absenteeism, lack of parental involvement, personal reasons such as 
teen pregnancy, and failing in school.
    We know that young people who drop out will face a future of 
unemployment, Government assistance, and even criminal involvement. We 
need to help these young people before they reach the point of dropping 
out of high school. Fortunately, youth mentoring can play in important 
role in addressing the issues young people face within the learning 
environment. Research demonstrates that many of the impacts of 
mentoring can directly address the underlying causes of our Nation's 
dropout crisis. Specific impacts of mentoring include:
  --Mentored youth feel greater competence in completing their 
        schoolwork, which is linked to higher levels of classroom 
        engagement and higher grades.
  --School-based mentoring enhances connectedness to schools, peers and 
        society, and mentored youth have more positive attitudes toward 
        school and teachers;
  --Evaluations of mentoring programs indicated that both one-to-one 
        mentoring and group mentoring result in better school 
        attendance for mentored youth;
  --Mentored youth experience improvements in parental relationships 
        and their own sense of self-worth; and
  --Mentored youth are significantly less likely to participate in 
        high-risk behaviors, including substance abuse, carrying a 
        weapon, unsafe sex, and violent behaviors.
    Mentoring is an important tool to help address dropout risk factors 
and help ensure that young people are supported in their effort to 
graduate from high school and make a successful transition to 
adulthood.
    These are tough economic times that warrant tough decisions. 
However, rather than eliminating or cutting funding for school-based 
mentoring, Congress and the administration could restrict the funding 
to programs that truly incorporate best practices--the kind of programs 
that have been shown to produce results. MENTOR recommends that the 
request for proposals issued for the program be revisited to ensure 
that it focuses on the key functions mentoring programs must perform 
and their adherence to The Elements of Effective Mentoring Practice--
research-based industry standards now in their third edition. These 
standards work to ensure that programs do their utmost to ensure that 
mentoring does, in fact, work for America's young people by providing 
the best mentoring experience possible. Within the Elements, Program 
Design and Planning includes comprehensive guidelines to launch an 
effective new mentoring initiative. Program Management and Program 
Operations contain guidelines for managing and implementing the many 
elements of a new program or fine-tuning certain elements for an 
established program. Program Evaluation provides guidance for analyzing 
a program to ensure it is safe, effective and able to meet its goals. 
It is important to ensure that funding is going to high-quality 
programs with real potential to make a difference, rather than 
dismantle a strong infrastructure for service that is now in place in 
thousands of American schools.
    Thus, MENTOR recommends that $50 million once again be provided to 
the Department of Education's Mentoring Programs grants in fiscal year 
2010. Some of this funding is needed to simply support commitments 
already made to existing grantees. All grants awarded under this 
program are 3-year projects and require continued appropriations. We 
also expect new grants to be made out of fiscal year 2009 funding, 
approved at $48.5 million. Those organizations that see their funding 
terminate early would likely have to downsize or even close. This would 
likely result in the premature end to hundreds--if not thousands--of 
mentoring relationships. Research shows that when mentoring 
relationships terminate unexpectedly, it can have a detrimental impact 
on the child.
    Besides the immediate 1-year impact, the elimination of this 
program will mean the end of the only authorized Federal program 
specifically focused on providing mentors for young people at risk of 
failing academically--this is not a function that is duplicated in many 
programs more than 13 different agencies as the President mentioned in 
February. In the 7 years the program has been in existence, more than 
600 grants have been awarded to local mentoring programs in every 
State, including rural, suburban, and urban settings. These grants have 
totaled nearly $300 million. At the average per-child mentoring cost of 
$1,500 per year, this means that approximately 200,000 young people are 
benefiting from a mentoring relationship that otherwise likely would 
not have been possible.
    To conclude this portion of my testimony, we respectfully request 
that Congress provide $50 million each for the Department of Education 
Mentoring Programs grants and the Department of Health and Human 
Services Mentoring Children of Prisoners program.
    The Call to Fund Service.--MENTOR joined the strong ranks of 
community organizations delighted when the Edward M. Kennedy Serve 
America Act became law last week. With significant, bi-partisan 
support, this legislation provides for the largest expansion of 
national and community service since the 1930s and expands major 
initiatives, such as AmeriCorps and the Retired Senior Volunteer 
Program, which emerged during the course of the past 20 years. The 
legislation also includes key new provisions that recognize mentoring 
as an important form of national and community service and support its 
growth.
    As enacted, the Serve America Act provides many more opportunities 
to support quality mentoring. For example, mentoring is an eligible 
activity for those engaged in the newly expanded AmeriCorps, Volunteers 
In Service To America (VISTA) and Retired and Senior Volunteer 
Programs, as well as the newly created Education Corps and Veterans' 
Corps. In addition, mentoring partnerships, which support the expansion 
of quality mentoring in many States throughout the country, are now 
eligible for funding through the National Service Trust Program and 
Volunteer Generation Fund.
    Now that it is authorized, it is doubly important that the act's 
provisions be funded properly in fiscal year 2010 and beyond. mentoring 
programs and our national network of Mentoring Partnerships already 
rely on the tremendous contributions that AmeriCorps and VISTA 
volunteers make, as mentors to youth in need and staff support at those 
organizations. The boost in service represented by the Serve America 
Act would allow programs and Partnerships to make an even more 
meaningful impact in our communities and help us close the gap of 15 
million young people who want and need high-quality mentoring 
relationships.

                               CONCLUSION

    On behalf of the thousands of mentoring programs and millions of 
mentored children across the country, we commend you for your past 
support of mentoring and national and community service funding. We 
strongly encourage you to continue this wise investment in our young 
people and in our country. Thank you for your consideration.
                                 ______
                                 
            Letter Submitted by Maui Family Support Services
                                         Wailuku, HI, May 12, 2009.
Hon. Tom Harkin,
Chairman, Subcommittee on Labor, Health and Human Services, and 
        Education, and Related Agencies, Washington, DC.
    I write to express support for increased funding for the Child 
Abuse Prevention and Treatment Act (CAPTA) programs. We propose to 
increase CAPTA basic State grant funding to $84 million, community-
based prevention grants funding to $80 million, and research and 
demonstration grants funding to $37 million in fiscal year 2010.
    CAPTA's title II authorizes grants to States to help develop 
community-based prevention services to support families, including 
parenting education classes, home visiting services, respite care, as 
well as family resource centers to connect families and children to the 
services they need. While we spend billions of dollars every year on 
foster care to protect the children who have been the most seriously 
injured, we can do a much better job at protecting children before the 
damage is so bad that we have no other choice than to remove them from 
their homes. Community prevention services to at-risk families are far 
less costly than the damage inflicted on children from abuse and 
neglect. Increasing for CAPTA prevention grants to $80 million would 
help communities support proven, cost-effective approaches to 
preventing child abuse and neglect.
    It is extremely important that we give the highest priority to the 
children of this Nation for they are the most vulnerable population 
that needs protection and support to grow into a well-balanced, 
healthy, and productive citizenry.
    Thank you for your time and consideration.
                                                  Ave Diaz,
                            Healthy Start Home Visiting Supervisor.
                                 ______
                                 
Prepared Statement of the National Association of Anorexia Nervosa and 
                          Associated Disorders

    Founded in 1976, the National Association of Anorexia Nervosa and 
Associated Disorders (ANAD) is our Nation's first nonprofit 
organization dedicated to education, early detection, and prevention of 
anorexia nervosa, bulimia nervosa, binge eating disorder, obesity, and 
related eating disorders.
    Eating disorders are severe mental illnesses which often have 
significant physical health consequences for their victims, including 
malnutrition, obesity, and diabetes, as well as death due to cardiac 
arrest, organ failure, blood imbalances, and suicide. Anorexia nervosa 
has the highest mortality rate of any mental illness. An estimated 6 
percent of those who have the disease die as a result. These disorders 
also frequently lead to or co-occur with other serious illnesses such 
as severe depression, alcoholism, and drug abuse.
    Eating disorders are at epidemic levels in America. An estimated 7 
million women and 1 million men have eating disorders. These illnesses 
affect all segments of society--the young and old, the rich and poor, 
and all races and ethnicities, including African Americans, Asian 
Americans, Latino Americans, and Native Americans. But this is an 
epidemic that can be averted with education and prevention programs, 
and cured with early diagnosis and appropriate treatment.
    Data from an ANAD survey of 18 middle and high schools in 15 States 
indicates that eating disorders are almost as prevalent as alcohol or 
drug problems among female middle school and high school students. The 
survey also indicates that our schools are spending far less time on 
eating disorder prevention than on alcohol or drug prevention programs. 
Seventeen percent of the schools surveyed spent 1 hour per year on 
eating disorder education. Eleven percent of the schools surveyed had 
no eating disorder prevention program of any kind.
    The failure to fund eating disorder education and prevention in 
schools is especially troubling in light of the fact that eating 
disorders are often accompanied by or lead to alcoholism or drug 
addiction, as well as diabetes, severe depression, and suicide.
    Tens of millions of dollars are spent each year at the local, 
State, and Federal levels to ensure that our children are properly 
educated to the dangers of alcohol and drugs. The value of such 
programs has been proven and accepted in schools throughout the 
country. With eating disorders almost as prevalent as alcohol and drug 
abuse in our schools, it is imperative that we provide more support for 
eating disorder prevention efforts in our middle schools and high 
schools. Millions of our youth can benefit from proven, low-cost 
educational and preventive measures that help faculty and students to 
understand and avoid the dangers of eating disorders.
    Eating disorder research into the underlying causes and risk 
factors associated with eating disorders is just as important as 
education and prevention. As we continue to learn more about underlying 
causes, risk factors and predictors through medical research, it will 
undoubtedly improve the efficacy of our education and prevention 
efforts.
    Based on the foregoing, ANAD respectfully makes this request of the 
subcommittee with regard to funding priorities for fiscal year 2010. 
Millions of our youth can benefit from proven, low-cost services that 
assist students to understand and avoid the dangers of eating 
disorders. Programs, such as those provided by ANAD's Eating Disorders 
and Obesity Education/Prevention Program for Middle and High Schools, 
promote the elements of a healthy lifestyle: self-acceptance, a good 
diet, adequate exercise and sufficient sleep.
    Given the troubling lack of education and prevention in our 
schools, ANAD respectfully requests $4 million or $75.00 per school be 
allocated to place these life-enhancing programs in every middle and 
high school in the United States. This $4 million in funds is above and 
beyond the current request in the administration's proposed budget, for 
the Department of Education's Safe and Drug-Free Schools programs to 
provide grants for eating disorder prevention and education programs in 
our Nation's middle schools and high schools.
    Eating disorders cause serious physical problems that can last a 
lifetime. They rob people of their ability to function as productive 
members of society because, if not properly treated, victims of these 
illnesses find themselves requiring more and more costly medical 
services throughout their lives. With early education and detection, 
eating disorders are treatable and at a much lower economic and 
personal cost to society.

                 SUMMARY OF ANAD EATING DISORDERS STUDY

    Data from a 2005 ANAD study shows that eating disorders are almost 
as prevalent as alcohol or drug problems in middle and high school 
female students. The study also shows that far less time is spent on 
eating disorder prevention than on alcohol or drug prevention programs.
    This is especially significant since eating disorders are often 
accompanied by or lead to severe depression, suicidal tendencies, self-
mutilation, or diabetes. Many victims become alcohol or drug addicted.
    Eating disorders cause great suffering for victims and families and 
are expensive to treat. Anorexia nervosa has the highest mortality rate 
of any mental illness. An estimated 6 percent of all anorexics die from 
an eating disorder or from complications from their disorder. However, 
these very dangerous illnesses can be cured and prevented.
    Eight middle schools and 10 high schools from 15 States were 
surveyed for this study.
Incidence of Alcoholism, Drugs, and Eating Disorders in Schools
    Nine point eight percent of girls have problems with alcohol; 8 
percent of girls have problems with drugs; and 7.8 percent of girls 
have problems with eating disorders.
Time Devoted to Education/Prevention
    Time devoted to Alcohol Education/prevention--12.3 percent; time 
devoted to Drugs Education/Prevention--13.8 percent; and time devoted 
to Eating Disorders Education/prevention--6.2 percent.
    Three schools reported 1 hour per year was spent on eating 
disorders education and two schools reported that they did not have any 
program.
                                 ______
                                 
   Prepared Statement of the National Association of County and City 
                            Health Officials

    The National Association of County and City Health Officials 
(NACCHO) represents the Nation's approximately 2,860 local health 
departments (LHDs). These governmental agencies work every day in their 
communities to prevent disease, promote wellness, and protect health. 
They organize community partnerships and facilitate community 
conversations to create the conditions in which people can be healthy. 
The work of local health departments and NACCHO improves economic well-
being, educational success, and nationwide competitiveness community by 
community.
    The current H1N1 influenza cases in the United States could signal 
the onset of the next pandemic. State and local public health agencies 
are actively engaged in outbreak investigation, control and response 
activities to control the virus' spread and minimize illness and death. 
NACCHO appreciates the past support of the subcommittee for public 
health emergency preparedness and urges the subcommittee to provide the 
necessary resources so that State and local health departments are able 
to respond to all hazards, including a possible resurgence of pandemic 
influenza in the fall.
    LHDs have a unique and distinctive role and set of responsibilities 
in the larger health system and within every community. The Nation 
depends upon the capacity of local health departments to play this role 
well. A LHD is the only local governmental entity that works from a 
population-wide perspective. LHDs have statutory powers which enable 
their role and enshrine a duty to serve every person and household in 
their jurisdiction.
    Funding to local health departments continues to be inadequate and 
many people in the United States suffer from conditions whose causes 
are preventable, whose costs for treatment are unsustainable into the 
future, and whose treatment is of erratic quality, effectiveness and 
efficiency. One clear, measured result is that the United States is not 
the healthiest Nation in the world despite higher per capita 
expenditures than any other Nation.
    The Nation's current recession further diminishes the ability of 
local health departments to measure population-wide illness and death, 
organize efforts to prevent disease and prolong quality of life, and to 
serve the public through organized programs not offered elsewhere. 
Repeated rounds of budget cuts and layoffs in LHDs continue to erode 
capacity. Reductions in local and State tax bases further undermine 
these sources of support. A NACCHO survey found that in 2008, at least 
7,000 LHD jobs were lost in 46 States across the country. Far more are 
expected this year and many LHDs are currently reporting budget cuts in 
the 20 to 40 percent range.
    Protections people take for granted--from enforcement of rules 
requiring safe food in restaurants and schools to early identification 
of disease outbreaks to the expectation that their LHD will examine, 
discover, and take action--are disappearing. In economic hard times, 
people are more dependent than ever on their local health departments. 
Programs offered by LHDs serve as a safety net for people in 
communities where the numbers of unemployed, uninsured, and 
underinsured are growing daily, compounding the numbers of formerly 
working adults who need care.
    NACCHO's recommendations focus on the Centers for Disease Control 
and Prevention (CDC) and the Health Services and Resources 
Administration (HRSA). Consistent funding with growth over time is 
needed. NACCHO recommends an overall funding level for CDC of $8.6 
billion not including funding for Vaccines for Children.

            CHRONIC DISEASE PREVENTION AND HEALTH PROMOTION

Preventive Health and Health Services Block Grant
    NACCHO recommends: Not less than fiscal year 2005 funding of $131 
million. Local public health departments receive approximately 40 
percent of the Preventive Health and Health Services block grant (PHHS) 
nationally. The proportion received by local health departments varies 
among states from less than five percent to almost 100 percent. 
Increasing the availability of flexible funds is particularly important 
as the gaps in public health protections grow.
    PHHS funds enable States to address critical unmet public health 
needs. Improving chronic disease prevention through screening programs 
and programs that promote healthy nutrition and physical activity are 
prime examples of activities to which many jurisdictions devote PHHS 
funds. Population-based strategies which create the conditions in which 
people are more likely to be healthy are also supported with these 
funds. Flexible PHHS funds allow local priorities and unexpected 
problems to be addressed. West Nile virus, a fully preventable disease 
spread to humans by mosquitoes, is one good example. Finally, PHHS 
funds provide leverage for additional support from non-Federal sources.
    NACCHO also recommends that the subcommittee include language with 
the appropriations bill which would require concurrence of LHDs with 
State public health officials in the uses for and distribution of these 
funds. Such language has been instrumental in the effective use of 
preparedness funds, assuring that a reasonable proportion of funds help 
local communities.

                         EMERGENCY PREPAREDNESS

Public Health Emergency Preparedness Cooperative Agreement
    NACCHO recommends not less than fiscal year 2005 funding of $919 
million. Federal funding for improving State and local public health 
emergency preparedness has stalled for the past several years and is 
substantially down from $919 million in fiscal year 2005 to $746 
million in the fiscal year 2009 omnibus appropriations bill. Local 
health departments successfully responded to the outbreak of H1N1 
influenza this spring, but a sustained epidemic would further tax 
resources and stretch the capacity of local health professionals to 
respond adequately to the influenza outbreak as well as other 
responsibilities in the areas of infectious and chronic disease.
    Last year more than 25 percent of LHDs reduced their preparedness 
activities, delayed completion of plans, and/or delayed acquisition of 
equipment and supplies as a result. Constant readiness for both new and 
emerging threats requires staff, plans, training and practice, all of 
which require financial support. The benefits to safety and well-being 
of local communities are clear when LHDs are prepared and work 
effectively with their communities to be prepared for all hazards. 
Reduction in Federal financial support has reduced readiness and the 
capacity to respond to emergencies.

                       ADVANCED PRACTICE CENTERS

    NACCHO recommends level funding of $5.3 million plus inflation 
adjustment. NACCHO appreciates the past support of the subcommittee for 
the Advanced Practice Centers program. The Advanced Practice Center 
(APC) program funded through CDC provides funds to seven local health 
departments to develop innovative field-tested tools and models to help 
other LHDs meet emergency preparedness goals. The APCs are located in 
Santa Clara County, California; Cambridge, Massachusetts; Montgomery 
County, Maryland; Twin Cities Metro, Minnesota; Western New York Public 
Health Alliance; Tarrant County, Texas and Public Health--Seattle and 
King County, Washington. The 70 unique preparedness tools produced to 
date by the APCs have become essential instruments that LHDs nationwide 
routinely employ to assess their vulnerability, strengthen their 
response capacity, and enhance the resilience of their communities and 
workforce. The APC network provides a national learning laboratory that 
creates tools, resources, and technical guidance that can be used for 
all LHDs and that align with public health preparedness priority areas.

                        PUBLIC HEALTH WORKFORCE

    NACCHO recommends $10 million new funding. The shortages in the 
public health workforce have been well-documented, particularly in 
public health nursing, epidemiology, laboratory science, and 
environmental health. The Nation's wellness depends on a continuing 
supply of people for this workforce. Additional funding and leadership 
is required to support a program of training, continuing education, and 
education for the full range of public health professions and community 
workers. Section 765 of the Public Health Service Act authorizes grants 
that would allow State and local health departments to provide training 
and trainee support. Funds have never been appropriated for this 
purpose.

                    EMERGENCY PREPAREDNESS WORKFORCE

    NACCHO recommends $10 million new funding. Workforce shortages also 
exist in the area of public health preparedness. In 2006, the Pandemic 
and All-Hazards Preparedness Act created two new programs within the 
National Health Service Corps (NHSC) in the Health Resources and 
Services Administration, yet no funding was appropriated for these 
programs. Funding would allow expansion of the NHSC on a trial basis to 
include loan repayment for individuals who complete their service in a 
State, local, or tribal health department that serves health 
professional shortage areas or areas at risk of a public health 
emergency. The second program establishes grants to States to create 
loan repayment programs. These programs are essential to ensure a 
workforce trained to carry out specialized tasks in preparedness.
                                 ______
                                 
    Prepared Statement of The National Alliance to End Homelessness

    The National Alliance to End Homelessness (the Alliance) is a 
nonpartisan, nonprofit organization that has several thousand partner 
agencies and organizations across the country. These partners include 
local faith-based and community-based nonprofit organizations and 
public sector agencies that provide homeless people with housing and 
services such as substance abuse treatment, job training, and physical 
health and mental healthcare. The Alliance represents a united effort 
to address the root causes of homelessness and challenge society's 
acceptance of homelessness as an inevitable byproduct of American life.

                    SUMMARY OF APPROPRIATIONS GOALS

    Moving Forward To End Homelessness.--Communities are using Federal, 
State, and local funds to help homeless persons maintain housing. 
Especially during the current economic recession, it is important that 
this progress not be undermined. To this end, the Alliance recommends 
the following:
  --Allocate $120 million for services for people experiencing 
        homelessness within the Programs of Regional and National 
        Significance accounts of both Substance Abuse and Mental Health 
        Services Administration's (SAMHSA) Center for Mental Health 
        Services and Center for Substance Abuse Treatment.
  --Increase funding for the Projects for Assistance in Transition from 
        Homelessness (PATH) program to $75 million.
  --Increase funding for the Runaway and Homeless Youth Act (RHYA) 
        Programs to $165 million.
  --Provide $2.602 billion in the Community Health Center program 
        within the Health Resource Services Administration (HRSA). This 
        would result in $226.3 million for the Health Care for the 
        Homeless (HCH) program, a $36 million increase from fiscal year 
        2009.
  --Fund Education for Homeless Children and Youth (EHCY) services at 
        $210 million.
  --Increase funding for the Homeless Veterans Reintegration Program to 
        $50 million, its authorized level.
Connecting Homeless Families, Individuals, and Youth to Mainstream 
        Services
    People experiencing homelessness also depend on mainstream 
programs. The Alliance recommends the following to meet this goal:
  --Fund the Social Services Block Grant (SSBG) program at $2.3 
        billion.
  --Fund the Community Services Block Grant (CSBG) program at $725 
        million.
  --Appropriate $60 million in education and training vouchers for 
        youth exiting foster care under the Safe and Stable Families 
        Program.
  --Fund the Community Mental Health Services Performance Partnership 
        Block Grant at $486.9, a $66.1 million increase.
  --Fund the Substance Abuse Prevention and Treatment Block Grant at 
        $1.929 billion, a $150 million increase more than fiscal year 
        2009.

                               BACKGROUND

    Our 2009 report, Homelessness Counts: Changes in Homelessness from 
2005 to 2007, estimates that 671,859 people are homeless on any given 
night. This includes 248,511 persons in families and 423,348 
individuals. Eighteen percent of all homeless people are defined as 
chronically homeless; these are people who have a disability and who 
have been homeless repeatedly or continuously for 12 months. These 
numbers are based on homeless counts performed in 2007, prior to the 
current economic recession. Compared to 2005, there were decreases 
across the country resulting in a 10 percent overall decline in 
homelessness. Anecdotal evidence suggests there could be increases in 
homelessness as communities report the results of their 2009 counts. To 
help stave off drastic increases in homelessness, we need Congress to 
invest in what we know works. Successful interventions for all homeless 
populations couple housing with an appropriate level of services for 
the family or individual. We call on Congress to adequately fund 
programs that assist States and local entities in developing permanent 
housing and the necessary social services to end homelessness for all 
Americans.

                     DETAILED PROGRAM DESCRIPTIONS

Goal No. 1--Moving Forward To End Homelessness
            Support Services for Permanent Supportive Housing Projects
    The Alliance recommends allocating $120 million for services in 
permanent supportive housing within SAMHSA's Center for Mental Health 
Services and Center for Substance Abuse Treatment. Years of reliable 
data and research demonstrate that the most successful intervention to 
solve chronic homelessness is linking housing to appropriate support 
services. Current SAMHSA investments in homeless programs are highly 
effective and cost-efficient.

                                  PATH

    The Alliance recommends that Congress increase PATH funding to $75 
million and adjust the funding formula to increase allocations for 
small States and territories.
    PATH provides outreach to eligible consumers and ensures that those 
consumers are connected with mainstream services, such as Supplemental 
Security Income, Medicaid, and welfare programs. Under the PATH formula 
grant, approximately 30 States share in the program's annual 
appropriations increases. The remaining States and territories receive 
the minimum grant of $300,000 for States and $50,000 for territories. 
These amounts have not been raised since the program was authorized in 
1991. To account for inflation, the minimum allocation should be raised 
to $600,000 for States and $100,000 for territories. Amending the 
minimum allocation requires a legislative change. If the authorizing 
committees do not address this issue, we hope that appropriators will 
explore ways to make the change through appropriations bill language.

                             RHYA PROGRAMS

    The Alliance recommends funding the RHYA programs at $165 million. 
RHYA programs support cost effective, community- and faith-based 
organizations that protect youth from the harms of life on the streets. 
The RHYA programs can either reunify youth safely with family or find 
alternative living arrangements. RHYA programs end homelessness by 
engaging youth living on the street with Street Outreach Programs, 
quickly providing emergency shelter and family crisis counseling 
through the Basic Centers, or providing supportive housing that helps 
young people develop lifelong independent living skills through 
Transitional Living Programs. Recently, the Congressional Research 
Service issued a report complimenting the good work of RHYA programs 
but detailing the gaps in services due to limited funding. For example, 
only one-tenth of the youth who connect with a RHYA program are able to 
receive services. It is essential that Congress increase this program.

               COMMUNITY HEALTH CENTERS AND HCH PROGRAMS

    The Alliance recommends $2.602 billion in the Community Health 
Center program within HRSA. This would result in $226.4 million for the 
HCH program, a $36 million increase more than fiscal year 2009. Persons 
living on the street suffer from health problems resulting from or 
exacerbated by being homeless, such as hypothermia, frostbite, and 
heatstroke. In addition, they often have infections of the respiratory 
and gastrointestinal systems, tuberculosis, vascular diseases such as 
leg ulcers, and hypertension. Healthcare for the homeless programs are 
vital to prevent these conditions from becoming fatal. Congress 
allocates 8.7 percent of the Consolidated Health Centers account for 
HCH projects.

            EDUCATION FOR HOMELESS CHILDREN AND YOUTH (EHCY)

    The Alliance recommends funding EHCY at $210 million. The most 
important potential source of stability for homeless children is 
school. The mission of the EHCY program is to ensure that these 
children can continue to attend school and thrive. EHCY, within the 
Department of Education's Office of Elementary and Secondary Education, 
removes obstacles to enrollment and retention by establishing liaisons 
between schools and shelters and providing funding for transportation, 
tutoring, school supplies, and the coordination of statewide efforts to 
remove barriers.

             HOMELESS VETERANS REINTEGRATION PROGRAM (HVRP)

    The Alliance recommends that Congress increase HVRP funding to $50 
million. HVRP, which is within the Department of Labor's Veterans 
Employment and Training Service (VETS), provides competitive grants to 
community-based, faith-based, and public organizations to offer 
outreach, job placement, and supportive services to homeless veterans. 
HVRP is the primary employment services program accessible by homeless 
veterans and is the only targeted employment program for any homeless 
subpopulation. It is estimated that this program only reaches about two 
percent of the overall homeless veteran population. An appropriation at 
the authorized level of $50 million would enable HVRP grantees to reach 
approximately 19,866 homeless veterans.

Goal No. 2--Connecting Homeless Families, Individuals and Youth to 
        Mainstream Services
                   social services block grant (ssbg)
    The Alliance recommends that Congress increase SSBG funding to $2.3 
billion. SSBG funds are essential for programs dedicated to ending 
homelessness. In particular, youth housing programs and permanent 
supportive housing providers often receive State, county, and local 
funds which originate from the SSBG. As the Department of Housing and 
Urban Development has focused its funding on housing, programs that 
provide both housing and social services have struggled to fund the 
service component of their programs. This gap is often closed using 
Federal programs such as SSBG.

                 COMMUNITY SERVICES BLOCK GRANT (CSBG)

    The Alliance recommends that Congress rejects cuts and fund CSBG at 
$725 million. Funding cuts for CSBG will destabilize the progress 
communities have made toward ending homelessness by not only ending 
services directly provided by CSBG funds but limiting a community's 
ability to access other Federal dollars, such as those provided by the 
Department of Housing and Urban Development. Community Action Agencies 
(CAAs), which are the primary local recipients of CSBG funding, are 
directly involved in housing and homelessness services. In several 
communities, CAAs lead the Continuum of Care (CoC). CoCs coordinate 
local homeless service providers and the community's McKinney-Vento 
Homeless Assistance Grant application process with the Department of 
Housing and Urban Development.
    In the fiscal year 2006 Community Services Block Grant Information 
Systems report published by the U.S. Department of Health and Human 
Services, CAAs reported expending approximately $42 million on housing-
related services. In addition, approximately $50 million was spent 
nationwide on youth services, some of which related to housing. States 
reported that 180,000 clients served with CSBG funds were homeless.

              FOSTER YOUTH EDUCATION AND TRAINING VOUCHERS

    The Alliance recommends that Congress appropriate $60 million in 
education and training vouchers for youth exiting foster care under the 
Safe and Stable Families Program. The Education and Training Voucher 
Program offers funds to foster youth and former foster youth to enable 
them to attend colleges, universities, and vocational training 
institutions. Students may receive up to $5,000 a year for college or 
vocational training education. The funds may be used for tuition, 
books, housing, or other qualified living expenses. Given the large 
number of people experiencing homelessness who have a foster care 
history, it is important to provide assistance such as these education 
and training vouchers to stabilize youth, prevent economic crisis, and 
prevent future homelessness.

      COMMUNITY MENTAL HEALTH PERFORMANCE PARTNERSHIP BLOCK GRANT

    The Alliance recommends that Congress appropriate $486.9 million 
for the Community Mental Health Performance Partnership Block Grant. 
The Mental Health Block Grant provides flexible funding to states to 
provide mental health services. Ending homelessness requires Federal, 
State, and local partnerships. Additional mental health funds will give 
States the resources to improve their mental health system and serve 
all people with mental health disorders better, including homeless 
populations. For example, block grant funds can be used to pay for 
services linked to housing for homeless people, thereby meeting the 
match requirements for projects funded through Shelter Plus Care or the 
Supportive Housing Program.

      SUBSTANCE ABUSE PREVENTION AND TREATMENT (SAPT) BLOCK GRANT

    The Alliance recommends that Congress appropriate $1.929 billion 
for the SAPT Block Grant. The SAPT Block Grant is the primary source of 
Federal funding for substance abuse treatment and prevention for many 
low-income individuals, including those experiencing homelessness. 
Studies have shown that half of all people experiencing homelessness 
have a diagnosable substance use disorder. States need more resources 
to implement proven treatment strategies and work with housing 
providers to keep homeless populations, especially chronically homeless 
populations, stably housed.

                               CONCLUSION

    Homelessness is not inevitable. As communities implement plans to 
end homelessness, they are struggling to find funding for the services 
that homeless and formerly homeless clients need to maintain housing. 
The Federal investments in mental health services, substance abuse 
treatment, employment training, youth housing, veterans' services, and 
case management discussed above will help communities create stable 
housing programs and change social systems which will end homelessness 
for millions of Americans.
                                 ______
                                 
Prepared Statement of the National Alliance for Eye and Vision Research

    National Alliance for Eye and Vision Research (NAEVR) requests a 
fiscal year 2010 National Institute of Health (NIH) funding increase of 
at least 7 percent, to a level of $32.4 billion, which represents a 
modest 3 percent increase plus the biomedical inflation rate, estimated 
at 3.8 percent in fiscal year 2009. This increase is necessary to keep 
pace with inflation and rebuild the base, since NIH has lost 14 percent 
of its purchasing power during the past 6 funding cycles.
    NAEVR commends the congressional leadership's actions in fiscal 
year 2008 and 2009 to increase NIH funding, including the $150 million 
in the fiscal year 2008 supplemental dedicated to investigator-
initiated grants, the $10.4 billion in 2-year stimulative NIH funding 
within the American Recovery and Reinvestment Act (ARRA), and the final 
fiscal year 2009 appropriations inflationary increase of 3.2 percent. 
However, NIH needs sustained and predictable funding to rebuild its 
base and support multi-year, investigator-initiated research, which is 
the cornerstone of the biomedical enterprise. Annual increases of at 
least 7 percent put NIH on a pathway to budget-doubling within the next 
10 years. Secure and consistent funding for biomedical research is 
integral to the Nation's economic and global competitiveness. NIH is a 
world-leading institution that must be adequately funded so that its 
research can reduce healthcare costs, increase productivity, and save 
and improve the quality of lives.
    NAEVR requests that Congress make vision health a top priority by 
increasing National Eye Institute (NEI) funding by at least 7 percent, 
to a level of $736 million, in this year that NEI celebrates its 40th 
anniversary. Over the past 6 funding cycles, NEI lost 18 percent of its 
purchasing power. Despite funding challenges, NEI has maintained its 
impressive record of breakthroughs in basic and clinical research that 
have resulted in treatments and therapies to save and restore vision 
and prevent eye disease. NEI will be challenged further, as 2010 begins 
the decade in which more than half of the 78 million baby boomers will 
turn 65 and be at greatest risk for developing aging eye disease. 
Adequately funding the NEI is a cost-effective investment in our 
Nation's health, as it can delay, save, and prevent expenditures, 
especially to the Medicare and Medicaid programs.
    Fiscal year 2010 funding at $736 million enables NEI to expand its 
impressive record of basic and clinical collaborative research that has 
resulted in treatments and therapies to save and restore vision.
    NEI continues to be a leader in basic research--especially that 
which elucidates the genetic basis of ocular disease--and in 
translational research, as those gene discoveries can lead to 
development of diagnostics and treatments. NEI Director Paul Sieving, 
M.D., Ph.D., has reported that one-quarter of all genes identified to 
date through NEI's collaboration with the National Human Genome 
Research Institute (NHGRI) are associated with eye disease/visual 
impairment. Recent examples include:
  --In 2005, NEI reported that gene variants of Complement Factor H 
        (CFH), the protein product of which is engaged in the control 
        of the body's immune response, are associated with increased 
        risk of developing age-related macular degeneration (AMD), the 
        leading cause of vision loss. NEI-funded researchers are now 
        working on potential therapies, including the manufacture and 
        use of a protective version of the CFH protein in an 
        augmentation strategy similar to that of treating diabetes with 
        insulin. This therapy is under development and expected to 
        enter phase I clinical safety trials in summer 2009.
  --In March 2008, NEI-funded researchers announced that damage from 
        both AMD and diabetic retinopathy was prevented and even 
        reversed when the protein Robo4 was activated in mouse models 
        that simulate the two diseases. Robo4 treated and prevented the 
        diseases by inhibiting abnormal blood vessel growth and by 
        stabilizing blood vessels to prevent leakage. Since this 
        research into the ``Robo4 Pathway'' used animal models 
        associated with these diseases that are already used in drug 
        development, the time required to test this approach in humans 
        could be shortened, expediting approvals for new therapies
  --In late April 2008, researchers funded by the NEI and private 
        funding organization Foundation Fighting Blindness reported on 
        their use of gene therapy to restore vision in young adults who 
        were virtually blind from a severe form of the 
        neurodegenerative disease Retinitis Pigmentosa, known as Leber 
        Congenital Amaurosis (LCA). Seven years earlier, the 
        researchers shared on Capitol Hill results of a preclinical 
        study of the same gene therapy, which at the time was 
        successfully giving vision to dogs born blind with LCA. The 
        subsequent human gene therapy trial validated the process of 
        putting genes in the body to restore vision. Although the 
        primary goal of the phase I study was to ensure patient safety, 
        the researchers reported through both objective and subjective 
        testing that the patients were able to read several lines on an 
        eye chart, had better peripheral vision, and better eyesight in 
        dimly lit settings. In further research, the investigators will 
        treat LCA patients as young as 8 years old, since they believe 
        the most dramatic results will be seen in young children.
  --In late 2008, NEI initiated its new NEI Glaucoma Human genetics 
        collaBORation, known as NEIGHBOR, through which seven U.S. 
        research teams will lead genetic studies of the disease. 
        Glaucoma is called the ``stealth robber of vision'' as it often 
        has no symptoms until vision is lost, and anywhere from 50-75 
        percent of individuals with it are undiagnosed. It is also the 
        leading cause of preventable vision loss in African-American 
        and Hispanic populations, which emphasizes the vital nature of 
        determining the genetic basis of this disease.

FISCAL YEAR 2010 FUNDING AT $736 MILLION ENABLES NEI TO FULLY FUND NEW 
          INITIATIVES THAT MORE FULLY CHARACTERIZE EYE DISEASE

    NEI has been a leader in collaborative research, the use of 
networks to study diagnostics and treatments and their use in clinical 
settings, and in ocular epidemiology to characterize the nature and 
frequency of eye disease in diverse populations to better manage pubic 
health. In fiscal year 2008, NEI reported on/launched the initial phase 
of three important new programs to characterize eye disease requiring 
adequate future funding.
  --In early 2009, the NEI and the National Aeronautics and Space 
        Administration (NASA) reported on the use of a compact fiber 
        optic probe developed for the space program that has proven 
        valuable as the first noninvasive early detection device for 
        cataracts, the leading cause of vision loss worldwide. Using a 
        laser light technique called dynamic light scattering (DLS), 
        which was developed to analyze the growth of protein crystals 
        in a zero-gravity environment, the probe measures the amount of 
        light scattering by an anti-cataract protein called alpha-
        crystallin. The probe senses protein damage due to oxidative 
        stress, a key process involved in many medical conditions 
        including age-related cataract and diabetes, as well as 
        Alzheimer's and Parkinson's disease.
  --In late 2008, NEI launched a new research network, the Neuro-
        Ophthalmology Research Disease Investigator Consortium, or 
        NORDIC. It will initially lead multi-site observational and 
        treatment trials, involving nearly 200 community and academic 
        practitioners, to address the risks, diagnosis, and treatment 
        of two ``rare'' diseases: idiopathic intracranial hypertension 
        (visual dysfunction due to increased intracranial pressure) and 
        thyroid eye disease (also called Graves' disease, in which 
        muscles of the eye enlarge and cause bulging of the eyes, 
        retraction of the lids, double vision, decreased vision, and 
        irritation). The NEI and NORDIC's principal investigator have 
        already begun coordinating with the Department of Defense's 
        (DOD) newly established Vision Center of Excellence (VCE) about 
        the applicability of NORDIC research to combat-related eye 
        injuries, especially those associated with Traumatic Brain 
        Injury (TBI).
  --There is currently almost no information on the prevalence, risk 
        factors, and genetic determinants in Asian Americans--one of 
        the fastest growing racial groups in the United States. Studies 
        from East Asia have suggested that Asians have a spectrum of 
        eye diseases different from that of White Americans, African 
        Americans, and Hispanics. In late 2008, NEI launched the 
        Chinese American Eye Study to characterize the extent of eye 
        disease in Chinese Americans, the largest Asian sub-group in 
        the United States. Participants 50 years and older will be 
        evaluated for blindness, visual impairment, and eye disease. 
        These results will add to the expanding body of knowledge about 
        vision health disparities already characterized by NEI in the 
        African-American and Hispanic populations.

  VISION IMPAIRMENT/EYE DISEASE IS A MAJOR PUBLIC HEALTH PROBLEM THAT 
   INCREASES HEALTHCARE COSTS, REDUCES PRODUCTIVITY, AND DIMINISHES 
                            QUALITY OF LIFE

    The NEI estimates that more than 38 million Americans age 40 and 
older experience blindness, low vision, or an age-related eye disease 
such as AMD, glaucoma, diabetic retinopathy, or cataracts. This is 
expected to grow to more than 50 million Americans by year 2020. The 
economic and societal impact of eye disease is increasing not only due 
to the aging population, but to its disproportionate incidence in 
minority populations and as a co-morbid condition of chronic disease, 
such as diabetes.
    Although the NEI estimates that the current annual cost of vision 
impairment and eye disease to the United States is $68 billion, this 
number does not fully quantify the impact of direct healthcare costs, 
lost productivity, reduced independence, diminished quality of life, 
increased depression, and accelerated mortality. The continuum of 
vision loss presents a major public health problem and financial 
challenge to the public and private sectors.
    In public opinion polls over the past 40 years, Americans have 
consistently identified fear of vision loss as second only to fear of 
cancer. As recently as March 2008, the NEI's Survey of Public 
Knowledge, Attitudes, and Practices Related to Eye Health and Disease 
reported that 71 percent of respondents indicated that a loss of their 
eyesight would rate as a ``10'' on a scale of 1 to 10, meaning that it 
would have the greatest impact on their day-to-day life.
    In 2009, the NEI will celebrate its 40th anniversary as the NIH 
Institute that leads the Nation's commitment to save and restore 
vision. During the next decade, more than half of the 78 million baby 
boomers will celebrate their 65th birthday and be at greatest risk for 
developing aging eye disease. As a result, sustained, adequate Federal 
funding for the NEI is an especially vital investment in the health, 
and vision health, of our Nation as the treatments and therapies 
emerging from research can preserve and restore vision. Adequately 
funding the NEI can also delay, save, and prevent health expenditures, 
especially those associated with the Medicare and Medicaid programs, 
and is, therefore, a cost-effective investment.
    NAEVR urges fiscal year 2010 NIH and NEI funding at $32.4 billion 
and $736 million, respectively, reflecting an at least 7 percent 
increase more than fiscal year 2009.
                                 ______
                                 
  Prepared Statement of the National Association of State Alcohol and 
                          Drug Abuse Directors

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Chairman Harkin, Ranking Member Cochran, members of the 
subcommittee, on behalf of the National Association of State Alcohol 
and Drug Abuse Directors (NASADAD), and our component organizations, 
the National Prevention Network, and the National Treatment Network, 
thank you for your leadership on issues related to addiction. I am Flo 
Stein, NASADAD President and member from North Carolina. I am pleased 
to present testimony regarding fiscal year 2010 funding priorities.
    Scope of the Problem.--According to the Substance Abuse and Mental 
Health Services Administration's (SAMHSA) National Survey on Drug Use 
and Health (NSDUH), approximately 23.2 million Americans aged 12 or 
older needed services for an alcohol or illicit drug problem in 2007. 
During the same year, approximately 2.4 million received treatment for 
such a problem at a specialty facility. As a result, approximately 20.8 
million people needed but did not receive services in 2007 in a 
specialty facility.
    Substance Abuse Spending Represents a Tiny Fraction of all Health 
Expenditures.--Substance abuse expenditures represented 1.3 percent of 
all healthcare expenditures in 2003 ($21 billion for substance abuse 
compared to $1,614 billion for all health expenditures). Using 
inflation adjusted terms, the growth rate for all health spending from 
1993 to 2003 was 4.6 percent, while the growth rate for substance abuse 
spending during this same time period was 1.4 percent.
    Yet Addiction is Associated With Many Other Diseases.--In a 2004 
study appearing in the Journal of the American Medical Association 
(JAMA), researchers examined ``actual causes of death'' defined by the 
Centers for Disease Control and Prevention (CDC) as factors that 
contribute to leading killers such as heart disease, cancer and stroke. 
The study identified nine leading ``actual causes of death.'' Tobacco, 
alcohol and illicit drugs--killing 530,000 Americans in 2000--were 3 of 
the top 9. The others were diet/weight; microbial agents; toxic agents; 
motor vehicles; firearms and sexual behaviors.
    Unaddressed Substance Abuse Problems are Costly.--As noted in 
SAMHSA's National Expenditures for Mental Health Services and Substance 
Abuse Treatment, 1993-2003 (2007), when substance abuse spending was 
$15.5 billion in 1998, the total economic costs of alcohol abuse were 
approximately $184.6 billion and the total economic costs for drug 
abuse were $143.4 billion (Harwood, 2000). These costs were linked not 
only to medical consequences of alcohol/drug use, but also crime, lost 
earnings, motor vehicle crashes, and more.
    Financial Investments in Addiction Services Save Taxpayer 
Dollars.--The National Institute on Drug Abuse (NIDA) notes that for 
every $1 spent on addiction treatment programs, there is an estimated 
$4 to $7 reduction in the cost of drug-related crimes. With some 
outpatient programs, total savings can exceed costs by a ratio of 12:1 
(NIDA InfoFacts, 2006).
    Maintain SAMHSA as Strong Agency.--NASADAD supports action to 
ensure that SAMHSA remains a unique, strong and vibrant agency. SAMHSA 
has demonstrated excellent leadership and collaboration--promoting 
innovative strategies to improve our service delivery system. NASADAD 
thanks Dr. Eric Broderick, Acting Administrator of SAMHSA, for his 
work. SAMHSA is to be commended and should be considered a vital voice 
in discussions related to health reform.
    Top Priority for Fiscal Year 2010--Increase Funding for Substance 
Abuse Prevention and Treatment (SAPT) Block Grant.--NASADAD recommends 
$1,928.6 million for the SAPT Block Grant in fiscal year 2010--an 
increase of $150 million more than fiscal year 2009 and more than the 
President's request. Since 2007, as the economy and State budgets 
struggled, unemployment grew by 5.5 million. This is critical news for 
the SAPT Block Grant given that the NSDUH found unemployed persons need 
services at almost twice the rate as those with jobs. An increase in 
SAPT Block Grant funds would help our public treatment system to better 
serve this increased need on the part of the low-income and uninsured 
population.
    Background.--The SAPT Block Grant, a program distributed by formula 
to all States and territories, serves our Nation's most vulnerable, 
low-income populations: those with HIV/AIDS, pregnant and parenting 
women, youth, and others. This vital program helps States and 
communities address their own unique needs--whether the problem is 
alcohol, methamphetamine, and prescription drug abuse or persons using 
multiples substances. The SAPT Block Grant represents approximately 40 
percent of treatment expenditures by State substance abuse agencies 
across the country.
    SAPT Block Grant Funded Services Achieve Results.--The SAPT Block 
Grant is an effective and efficient program that emphasizes 
accountability through the reporting of outcomes data. In particular, 
States have worked diligently with SAMHSA to implement the National 
Outcome Measures (NOMs) initiative. The SAMHSA/State partnership on 
NOMs promotes continuous quality improvement through a more systematic 
approach to data management and reporting. States now measure the 
impact of services on the use of alcohol and other drug use; 
employment; having stable housing; involvement with criminal activity; 
and efforts to live productively in the community. As noted by SAMHSA 
in 2008, SAPT Block Grant funded programs had positive results, where 
``. . . at discharge, clients have demonstrated high abstinence rates 
from both illegal drug (68.3 percent) and alcohol (73.7 percent) use.''
    In my own State of North Carolina, our Division of Mental Health, 
Developmental Disabilities and Substance Abuse Services reported 21,102 
to treatment admissions in State fiscal year 2006/2007. In State fiscal 
year 2006/2007, North Carolina showed the following client outcomes at 
discharge: 82 percent were abstinent from alcohol use; 74 percent were 
abstinent from drug use; and 77 percent were involved in social support 
groups.
    Important Prevention Funding Within SAPT Block Grant.--Twenty 
percent of the SAPT Block Grant is dedicated to funding much needed 
substance abuse prevention programming. In many States set-aside 
funding represents a large source of prevention funds for the agency. 
Overall, SAPT Block Grant funding represents 64 percent of State 
substance abuse agency prevention funding. In 21 States, the set-aside 
represents 75 percent or more of the agency's prevention budget.
    The prevention set-aside has also helped produce demonstrable 
results. The Monitoring the Future (MTF) Survey found a 25 percent 
decline in any illicit drug use in the past month by 8th, 10th, and 
12th graders combined between 2001 and 2008. As a result, there were 
840,000 fewer teens using drugs in 2008 compared to 2001. A strong 
commitment to the SAPT Block Grant will ensure a strong commitment to 
much needed prevention services for our youth.
    Recent History of SAPT Block Grant Funding.--NASADAD is thankful 
for the increase of $19.9 million for the SAPT Block Grant in fiscal 
year 2009. However, the program has suffered over the past few years: 
from fiscal year 2004 to fiscal year 2008, funding was cut by more than 
$20 million. In fact, it is estimated that the 2010 SAPT Block Grant 
appropriation would have to be increased by $403.7 million above the 
2009 appropriation to maintain services at 2004 levels using the CPI-U 
as the proxy (Data courtesy of the New York State Office of Alcoholism 
and Substance Abuse Services (OASAS)]). As a result, NASADAD and others 
view an increase of $150 million as a down payment to make up for lost 
ground.
    Center for Substance Abuse Treatment (CSAT).--NASADAD recommends 
$489.3 million in fiscal year 2010--an increase of $75 million compared 
to fiscal year 2009 and an increase of $29.3 million compared to the 
President's request. NASADAD acknowledges Dr. H. Westley Clark, 
Director of CSAT, for his excellent leadership.
    NASADAD is thankful for the President's proposed $45.7 million 
increase for CSAT in fiscal year 2010. NASADAD is also thankful for an 
increase of $14.5 million for CSAT in fiscal year 2009. This increase 
reversed the previous administration's proposal to cut CSAT by $63 
million. The fiscal year 2009 omnibus bill restored all or a portion of 
a number of NASADAD priority programs that were set to be eliminated.
    Center for Substance Abuse Prevention (CSAP).--NASADAD recommends 
$276.3 million--an increase of $75 million compared to fiscal year 2009 
and an increase of $77.7 million compared to the President's fiscal 
year 2010 request. NASADAD applauds the work of Fran Harding, Director 
of CSAP, for her work and dedication.
    NASADAD appreciates the $6.8 million increase for CSAP in fiscal 
year 2009. Approving the fiscal year 2009 omnibus package restored 
funding for CSAP programs which were slated to be eliminated or reduced 
by the previous administration.
    Safe and Drug Free Schools and Communities--State Grants.--NASADAD 
is extremely concerned with the President's proposal to eliminate or 
zero out the Safe and Drug Free Schools and Communities (SDFSC)--State 
Grants portion in fiscal year 2010.
    NASADAD believes that the SDFSC State Grants program is an 
effective initiative that represents a core component of each State's 
substance abuse prevention system. The efficiency of the program can in 
part be attributed to principles of effectiveness that each grantee 
follows. These principles include (1) an assessment of the problem; (2) 
development of measurable goals and objectives; (3) implementation of 
effective programs and (4) assessment of program outcomes.
    We believe the program also benefits from close collaboration with 
NASADAD members. In particular, certain Governors choose NASADAD 
members as the designee to manage these important funds. This 
designation allows for a more comprehensive and coordinated approach to 
planning and implementing an effective State-wide system of care.
    NASADAD recommends $346.5 million, representing a $51.8 million 
increase more than fiscal year 2009 and representing a $346.5 million 
increase more than the President's fiscal year 2010 request for the 
program.
    National Institute on Drug Abuse (NIDA).--NASADAD recommends 
$1,105.1 million for NIDA, representing a $59.3 million increase 
compared to the President's fiscal year 2010 request and a $72.3 
million increase compared to fiscal year 2009. NASADAD wishes to thank 
Dr. Nora Volkow, Director of NIDA, for her collaboration with State 
substance abuse agencies through its ``Blending Initiative.'' This work 
improves the translation of research into everyday practice.
    National Institute on Alcohol Abuse and Alcoholism (NIAAA).--
NASADAD recommends $481.7 million for NIAAA, which represents a $26.6 
million increase compared to the President's fiscal year 2010 request 
and a $31.5 million increase compared to fiscal year 2009.
                                 ______
                                 
  Prepared Statement of the National Association for State Community 
                           Services Programs

    The National Association for State Community Services Programs 
(NASCSP), the national association representing State administrators of 
the Department of Health and Human Services' Community Services Block 
Grant (CSBG) and State directors of the Department of Energy's Low-
Income Weatherization Assistance Program, would like to thank Congress 
for its continued support of the CSBG and requests an appropriation of 
$800 million for fiscal year 2010. We are requesting $800 million in 
CSBG funding for fiscal year 2010 to ensure the CSBG Network has 
adequate resources to sustain its expanded efforts to address the long-
term needs of those families affected by the current economic recession 
and those transitioning from welfare to work. In addition, increased 
funding would enable the network to continue and strengthen its efforts 
to assist low-income workers in remaining at work through supportive 
services such as transportation and child care. The across the board 
cuts to the CSBG funding in past years have severely decreased the 
ability of the CSBG Network to provide and enhance essential services 
to low-income Americans. It is essential that the CSBG funding be 
increased for fiscal year 2010.

                               BACKGROUND

    The States believe the CSBG is a unique block grant that has 
successfully transferred decisionmaking to the local level. Federally 
funded with oversight at the State level, the CSBG has maintained a 
local network of nearly 1,100 agencies which operate in 99 percent of 
counties in the Nation. This network serves nearly 16.2 million low-
income individuals, members of more than 6.4 million low-income 
families, CSBG eligible entities, largely local Community Action 
Agencies (CAAs), provide States with a stable and guaranteed network of 
designated entities which are mandated to change the conditions that 
perpetuate poverty for individuals, families, and communities. There is 
no other program in the United States mandated by Federal statute to 
respond to poverty. To fulfill that mandate, CAAs provide services 
based on the characteristics of poverty in their communities. For one 
community, this might mean providing job placement and retention 
services; for another, developing affordable housing. In rural areas, 
it might mean providing access to health services or developing a rural 
transportation system.
    Since its inception, the CSBG has shown how partnerships between 
States and local agencies benefit citizens in each State. We believe it 
should be viewed as a model of how the Federal Government can best 
promote self-sufficiency for low-income persons in a flexible, 
decentralized, nonbureaucratic, and accountable way.
    Long before the creation of the Temporary Assistance for Needy 
Families (TANF) block grant, the CSBG set the standard for private-
public partnerships that work to revitalize local communities and 
address the needs of low-income residents. Family oriented, while 
promoting economic development and individual self-sufficiency, the 
CSBG relies on an existing and experienced community-based service 
delivery system of CAAs and other nonprofit organizations to produce 
results for its clients.

                    WHAT DO LOCAL CSBG AGENCIES DO?

    One thing that is common to all CAAs is the goal of self-
sufficiency for all of their clients. But, since CAAs operate in rural 
areas as well as in urban areas, it is difficult to describe a typical 
CAA. Most CAAs will provide some, if not all, of the services listed 
below:
  --a variety of crisis and emergency safety net services;
  --employment and training programs;
  --transportation and child care for low-income workers;
  --individual development accounts;
  --micro business development help for low-income entrepreneurs;
  --local community and economic development projects;
  --housing, transitional housing, and weatherization services;
  --Head Start;
  --energy assistance programs;
  --nutrition programs;
  --family development programs; and
  --senior services.
    CSBG is the core funding which holds together a local delivery 
system able to respond effectively and efficiently, without a lot of 
red tape, to the needs of individual low-income households as well as 
to broader community needs. In addition, CSBG funds many of these 
services directly. Without the CSBG, local agencies would not have the 
capacity to work in their communities developing local funding, private 
donations and volunteer services and running programs of far greater 
size and value than the actual CSBG dollars they receive.
    CAAs manage a host of other Federal, State, and local programs 
which makes it possible to provide a one-stop location for persons 
whose problems are usually multi-faceted. More than half (52 percent) 
of the CAAs manage the Head Start program in their community. Using 
their unique position in the community, CAAs recruit additional 
volunteers, bring in local school district personnel, tap into faith-
based organizations for additional help, coordinate child care and 
bring needed healthcare services to Head Start centers. In many States 
they also manage the Low Income Home Energy Assistance Program 
(LIHEAP), raising additional funds from utilities for this vital 
program. CAAs may also administer the Weatherization Assistance Program 
and are able to mobilize funds for additional work on residences not 
directly related to energy savings that, for example, may keep a low-
income elderly couple in their home. CAAs also coordinate their 
programs with the Community Development Block Grant program to stretch 
Federal dollars and provide a greater return for tax dollars invested. 
They also administer the Women, Infants and Children nutrition program, 
as well as job training programs, substance abuse programs, 
transportation programs, domestic violence and homeless shelters, and 
food pantries.
    For every CSBG dollar they receive, CAAs leverage $5.59 in non-
Federal resources (State, local, and private) to coordinate efforts 
that improve the self-sufficiency of low-income persons and lead to the 
development of thriving communities.

                        WHO DOES THE CSBG SERVE?

    National data compiled by NASCSP show that the CSBG serves a broad 
spectrum of low-income persons, particularly those who are not being 
reached by other programs and are not being served by welfare programs. 
Based on the most recently reported data, from fiscal year 2007 CSBG 
serves:
  --More than 3 million families with incomes at or below the poverty 
        level; of these customer families, 1.4 million are severely 
        poor as they have incomes at or below 50 percent of the poverty 
        guideline.
  --More than 1.3 million families headed by single mothers.
  --More than 1.7 million ``working poor'' families relying on wages or 
        unemployment benefits as income.
  --More than 384,000 TANF participant families, 23 percent of all TANF 
        families nationwide.
  --About 4 million children.
  --Almost 2.7 million people without health insurance.
  --More than 1.7 million adults who had not completed high school.

               MAJOR CHARACTERISTICS OF THE CSBG NETWORK

    Due to the unique structure of the CSBG, the CSBG Network has 
earned a reputation for its:
    Emergency Response.--CAAs are utilized by Federal and State 
emergency personnel as a frontline resource to deal with emergency 
situations such as floods, hurricanes, and economic downturns. They are 
also relied on by citizens in their community to deal with individual 
family hardships, such as house fires or other emergencies. In fact, 
during and after Hurricanes Katrina and Rita, the State CSBG offices 
and local CAAs quickly mobilized to provide immediate and long-term 
assistance to evacuees.
    Leveraging Capacity.--In fiscal year 2007, every CSBG dollar 
leveraged $18.40 from all other sources. Of those leveraged funds, 
$5.59 came from non-Federal resources (State, local, and private) to 
coordinate efforts that improve the self-sufficiency of low-income 
persons and lead to the development of thriving communities.
    Volunteer Mobilization.--CAAs mobilize volunteers in large numbers. 
In fiscal year 2006, the most recent year for which data are available, 
the CAAs elicited more than 46 million hours of volunteer efforts, the 
equivalent of almost 21,857 full-time employees. Using just the minimum 
wage, these volunteer hours are valued at nearly $266 million.
    Adaptability.--CAAs provide a flexible local presence that 
governors have mobilized to deal with emerging poverty issues.
    Moreover, the CSBG Network has also earned a reputation for its:
    Accountability.--The Federal Office of Community Services, State 
CSBG offices, and CAAs have worked closely to develop a results-
oriented management and accountability (ROMA) system. Through this 
system, individual agencies determine local priorities within six 
common national goals for CSBG and report on the outcomes that they 
achieved in their communities.
    Local Direction and Oversight.--Tri-partite boards of directors 
guide CAAs. These boards consist of one-third elected officials, one-
third representatives from the private sector, and not less than one-
third of the members are representative of the low-income persons in 
the neighborhoods served by the CAA. The boards are responsible for 
establishing policy and approving business plans of the local agencies. 
Since these boards represent a cross-section of the local community, 
they guarantee that CAAs will be responsive to the needs of their 
community.
    The statutory goal of the CSBG is to ameliorate the effects of 
poverty. The primary goal of every CAA is self-sufficiency for its 
clients. Helping families become self-sufficient is a long-term process 
that requires multiple resources. This is why the partnership of 
Federal, State, local, and private enterprise has been so vital to the 
successes of the CAAs.

                        EXAMPLES OF CSBG AT WORK

    Since 1994, CSBG has implemented a Results-Oriented Management and 
Accountability (ROMA) system. Through ROMA, the effectiveness of 
programs is captured through the use of goals and outcomes measures. 
Below you will find several of the network's nationally aggregated 
outcomes achieved by individuals, families and communities as a result 
of their participation in innovative CSBG programs during fiscal year 
2007:
  --Increased Economic Asset Enhancement and Utilization.--694,000 low-
        income households achieved an increase in financial assets or 
        financial skills as a result of Community Action assistance.
  --Procured Supports To Reduce or Eliminate Barriers to Employment.--
        1.3 million low-income participants obtained supports which 
        reduced or eliminated barriers to initial or continuous 
        employment through assistance from Community Action.
  --Gained Employment.--193,000 low-income participants in Community 
        Action employment initiatives got a job, obtained an increase 
        in employment income, or achieved ``living wage'' employment 
        and benefits.
  --Improved Child and Family Development.--2.9 million Infants, 
        children, youth, parents, and other adults participated in 
        developmental or enrichment programs facilitated by Community 
        Action and achieved program goals.
  --Secured Independent Living for Low-Income Vulnerable Populations.--
        2 million low-income vulnerable individuals received services 
        from Community Action and maintained an independent living 
        situation as a result.
    At the end of the day, the CSBG Network represents our abiding 
national commitment to care for the less fortunate and in recognition 
that we are stronger when we do so. The CSBG and CSBG Network, in 
addition to other nonprofit faith-based and community-based 
organizations, are a critical complement to the public sector's efforts 
towards helping to lift low-income Americans and their communities out 
of poverty and into self-sufficiency.
    In fiscal year 2007, the CSBG Network assisted approximately 20 
percent of the persons in poverty that year and almost 15 million low-
income individuals who are members of more than 6.4 million low-income 
families. Renewed funding for the CSBG Network is one of the best ways 
to ensure that America has an experienced, guaranteed and trusted 
network to assist its working and vulnerable families in achieving and 
maintaining self-sufficiency. As such, NASCSP requests $800 million in 
CSBG funding for fiscal year 2010.
                                 ______
                                 
 Prepared Statement of the National Association of State Directors of 
                 Career Technical Education Consortium

                     DEPARTMENT OF EDUCATION BUDGET

    In his budget submission to Congress, President Obama has requested 
flat funding for programs funded under the Carl D. Perkins Career 
Technical Education (CTE) Act. If this level of funding holds, this 
will be the third year in a row these programs will have received flat 
funding. These programs are worthy of stronger support because of the 
valuable contributions they make to serving adults and high school 
students in their journey for education and training and eventual entry 
into the workforce. Perkins CTE programs:
  --Provide education that is relevant to students;
  --Are actively reforming high school curriculum;
  --Provide coordination between high schools and community colleges; 
        and
  --Prepare workers for jobs that are in demand.
    We respectfully request that the subcommittee include $1.4 billion 
in support of Perkins programs. The last substantial funding increase 
for Perkins occurred in fiscal year 2002. Since that time funding has 
decreased by $42 million. When factoring in inflation this is the 
equivalent of a reduction of $254 million.
    Perkins includes a ``hold harmless'' provision that protects small 
States from significant losses when there are reductions in Tech Prep 
(title II of Perkins) funding. However, this provision only applies as 
long as the total funding for Tech Prep does not fall below 1998 
levels. Unfortunately, during the fiscal year 2008 appropriations 
cycle, Tech Prep funding fell below this level and in turn, the hold 
harmless provision put in place to protect small States was de-
activated. While most States have taken a loss of Tech Prep funds, the 
small States have felt this cut in funding disproportionately. These 
States have seen their Tech Prep funds reduced between 7 and 56 percent 
below their fiscal year 2007 levels, costing some States hundreds of 
thousands of dollars over the last 2 years. Below is a chart that 
details the States and the approximate amount of funds they have lost 
over the last 2 years. The funding figures are approximated because 
only tentative fiscal year 2009 allocation numbers are available.

------------------------------------------------------------------------
                          State                               Amount
------------------------------------------------------------------------
Alaska..................................................        $221,390
Delaware................................................         426,666
District of Columbia....................................         349,264
Hawaii..................................................         224,508
Montana.................................................         144,226
Nevada..................................................         279,600
New Hampshire...........................................         295,212
North Dakota............................................          50,758
Rhode Island............................................         370,442
South Dakota............................................          92,616
Vermont.................................................         209,334
Wyoming.................................................          86,416
------------------------------------------------------------------------

    Tech Prep funding for the last 2 years was less than $100,000 below 
the fiscal year 1998 hold harmless level of $103 million. If funding 
for Tech Prep is raised ever so slightly to $103 million these States 
will not be so negatively impacted.
Why Career Technical Education?
    Career technical education (CTE) provides students and adults with 
the academic and technical skills, knowledge and training necessary to 
succeed in future careers and develop skills they will use throughout 
their careers. CTE programs have been organized into 16 career 
clusters, or similar occupational groupings, that identify the 
knowledge and skills students need as they follow a pathway to their 
goals. These clusters are: Agriculture, Food, and Natural Resources; 
Architecture and Construction; Arts, A/V Technology and Communications; 
Business Management and Administration; Education and Training; 
Finance; Government and Public Administration; Health Science; 
Hospitality and Tourism; Human Services; Information Technology; Law, 
Public Safety, Corrections, and Security; Manufacturing; Marketing; 
Science, Technology, Engineering and Mathematics; and Transportation, 
Distribution and Logistics.
    CTE prepares students for the world of work by introducing them to 
workplace competencies, and makes academic content accessible to 
students by providing it in a hands-on context.
    CTE programs can be found in comprehensive high schools with career 
technical education programs, as well as high schools solely devoted to 
career technical education. Community colleges, technical institutes, 
and skill centers also offer career technical education at the 
postsecondary level. Nationally, about 60 percent of Perkins funds are 
allocated for secondary school purposes and 40 percent for 
postsecondary programs.
Programs of Study
    The Carl D. Perkins Career and Technical Education Act of 2006 
(Public Law 109-270), which funds CTE programs, requires States to 
develop programs of study to guide students when choosing courses. 
These programs of study include career and technical areas that:
  --Incorporate both secondary and postsecondary education elements;
  --Include rigorous content, challenging academic standards, and 
        relevant career and technical content in a coordinated, 
        nonduplicative series of courses that align secondary and 
        postsecondary education;
  --May allow high school students to participate in dual or concurrent 
        enrollment programs or otherwise acquire postsecondary credit; 
        and
  --Result in an industry-recognized credential or certificate, or 
        associate or baccalaureate degree.
Tech Prep
    Tech Prep is a program in the Perkins Act that links a minimum of 2 
years of secondary school and 2 years of post-secondary school or an 
apprenticeship program, resulting in an associate degree or 
certificate. Tech Prep allows students to begin a sequence of classes 
in a career pathway while still in high school. Students enroll in both 
academic and career and technical classes in the career field of their 
choosing in order to develop the technical skills necessary for future 
employment.
The Benefits of CTE
            Academic
  --Students enrolled in CTE programs are held to the same rigorous 
        academic standards as all students;
  --CTE provides a strong foundation for those pursuing a traditional 
        4-year degree; and
  --CTE students are more interested and motivated in their coursework 
        because of its connection to the real world, and have lower 
        dropout rates than traditional students.
            Economic
  --Many sectors of the economy that require skilled workers report a 
        shortage of qualified applicants to fill these positions. CTE 
        programs prepare individuals for skilled professions that are 
        essential to our Nation's economic recovery.
  --CTE programs prepare students, adults, and displaced workers for 
        entry into high-skill, high-wage, and high-demand careers in 
        every industry sector.
    The Federal role in ``vocational'' education began as a way to 
prepare students for the newly industrialized economy. Over the years, 
the program has evolved to match the needs of the changing economy, 
focusing on postsecondary as well as secondary education while giving 
students skills they can use throughout their careers.
    In 2006, the language ``vocational and technical'' was updated to 
``career and technical'' education. This transition was more than just 
a name change. It represented a fundamental shift in philosophy from 
CTE being for those who were not going to college to a system that 
prepares students for both employment and postsecondary education. The 
integration of academic and technical education programs was 
strengthened, further emphasizing the goal of ensuring that students 
who participate in CTE are taught the same rigorous content aligned 
with challenging academic standards as all other students. With all 
school programs now adhering to the same academic standards, the 
separate ``track'' system that has stigmatized CTE is disappearing. The 
chart that follows summarizes these changes.

------------------------------------------------------------------------
                                              New career and technical
     Traditional vocational education                 education
------------------------------------------------------------------------
For specific students                       For all students
------------------------------------------------------------------------
Limited program areas offered               16 Career Clusters and 79
                                             pathways offered
Separate ``track'' with a focus on          Integrated with academics in
 technical education                         a rigorous and relevant
                                             curriculum
------------------------------------------------------------------------
High school focused                         High school and
                                             postsecondary partnerships
                                             providing pathways to
                                             employment and/or
                                             associate, bachelor's, and
                                             advanced degrees
------------------------------------------------------------------------
Students trained with focus on specific     Progression of foundational,
 occupational skill set                      pathway, occupational, and
                                             21st century skills
------------------------------------------------------------------------

    Career technical education programs have changed with the times and 
are a fundamental piece of the education and training available to 
Americans so that they can get the skills they need in today's economy. 
Today, there are more than 15 million students and displaced workers 
enrolled in CTE programs all across America. An increase in funding 
would enable CTE programs to produce more skilled workers to fill the 
jobs that are crucial to America's economy. Funds for these programs 
will help high schools that are reeling from State and local budget 
reductions and help community colleges accommodate their increasing 
enrollments. We hope that you can provide $1.4 billion for Perkins CTE 
supported programs in the fiscal year 2010 budget.
                                 ______
                                 
 Prepared Statement of the National Alliance of State and Territorial 
                             AIDS Directors

    The National Alliance of State and Territorial AIDS Directors 
(NASTAD) represents the Nation's chief State health agency staff who 
have programmatic responsibility for administering HIV/AIDS and viral 
hepatitis healthcare, prevention, education, and supportive service 
programs funded by State and Federal Governments.
    As you craft the fiscal year 2010 Labor, Health and Human Services, 
and Education, an Related Agencies appropriations legislation, we urge 
you to consider the following critical funding needs of HIV/AIDS, viral 
hepatitis, and sexually transmitted diseases (STD) programs:
  --$1.6 billion for the Ryan White Part B Program, including $514 
        million for the Part B Base and $1.1 billion for the AIDS Drug 
        Assistance Program (ADAP);
  --$1.6 billion for the Centers for Disease Control and Prevention's 
        (CDC) HIV/AIDS Prevention Program, including an additional $249 
        million for State and local health department prevention 
        cooperative agreements to include an additional $49 million for 
        State and local HIV/AIDS surveillance systems, and the 
        expansion of the domestic HIV/AIDS Testing Initiative to 
        additional populations and jurisdictions;
  --$50 million for CDC's Viral Hepatitis Prevention Program, including 
        a doubling of resources for the Adult Viral Hepatitis 
        Prevention Coordinator Program to $10 million.
  --$16 million for hepatitis B vaccination for high-risk adults 
        through the Section 317 Vaccine Program;
  --$451 million for CDC's STD Prevention Program for prevention, 
        treatment and surveillance cooperative agreements with State 
        and local health departments; and
  --$610 million for the Minority AIDS Initiative to enhance capacity 
        in communities of color.
HIV/AIDS Care and Treatment Programs
    The Health Resources and Services Administration administers the 
$2.2 billion Ryan White Program that providing health and support 
services to more than 500,000 HIV-positive individuals. NASTAD 
respectfully requests a minimum increase of $362 million in fiscal year 
2010 for State Ryan White Part B grants, including an increase of at 
least $113 million for the Part B Base and at least $269 million for 
ADAPs. With these funds all States and territories provide care, 
treatment, and support services to persons living with HIV/AIDS. People 
living with HIV need access to trained HIV clinicians, life-saving and 
life-extending therapies, and a full range of support services to live 
as healthy a life as possible and to ensure adherence to complicated 
treatment regimens. All States are reporting to NASTAD that they are 
seeing a significant increase in the number of individuals seeking Part 
B Base and ADAP services--for some States it's a doubling of new 
clients per month from the previous year. This is due to a number of 
factors including, increased testing efforts and unemployment.
    Ryan White Part B Base programs include ambulatory medical 
services, case management, laboratory services, and an array of support 
services. As of October 10, 2008, four States report that 266 
individuals are on either a medical or support service waiting list for 
services that include housing, mental health counseling, specialty 
medical care, and transportation. Five States report that funding is 
insufficient to ensure that all eligible patients attend medical 
appointments every 3 months, which is the standard of care. Eight part 
B programs are also considering cost containment measures for their 
part B services in light of high demand and reduced funding.
    State ADAPs provide medications to low-income individuals with HIV 
disease who have limited or no coverage from private insurance or 
Medicaid. While only three States currently have a waiting list with 53 
individuals, the present fiscal condition of State ADAPs remain 
fragile. In fiscal year 2008, State ADAPs were relatively stable due to 
increased State contributions, increased rebates from drug companies, 
$39.7 million in ADAP Supplemental grants, transfers of Part B Base 
funding into ADAP, and program savings from the Medicare Part D 
Prescription Drug Benefit. The continuing increase in clients and the 
cuts in State contributions to ADAP (one State has cut their ADAP 
contribution by $70 million) render the fiscal future of ADAPs 
uncertain. On average, State spending accounts for 21 percent of the 
total ADAP budget. Additionally, CDC estimates that their on-going 
Domestic HIV/AIDS Testing Initiative will find 20,000 new infections 
over the next year.
    While we are very supportive of the funding increases in recent 
years for the community health center (CHC) program, we want to be 
clear that this hasn't necessarily translated into more care for person 
living with HIV/AIDS. CHCs focus on primary care with most of the HIV/
AIDS care being provided in centers with Ryan White Part C grants.
HIV/AIDS Prevention and Surveillance Programs
    At the request of Congress, the CDC developed a Professional 
Judgment Budget detailing the needed resources to significantly reduce 
the number of Americans becoming infected with HIV each year. CDC 
identified the need for a funding increase of $878 million for total 
funding of $1.6 billion for CDC's HIV prevention program in fiscal year 
2010. As Congress strives to reach the $1.6 billion overall investment 
in HIV prevention, NASTAD respectfully requests an initial increase of 
$249 million in State and local health department HIV prevention and 
surveillance cooperative agreements. This would include an additional 
$49 million for State and local HIV/AIDS surveillance systems and the 
expansion of the Domestic HIV/AIDS Testing Initiative to additional 
populations and jurisdictions.
    An estimated 56,300 new infections occur every year while State and 
local HIV prevention cooperative agreements have been cut by $21 
million between fiscal year 2003 and fiscal year 2008. CDC's 2007 
surveillance reports showed a 15 percent increase in HIV diagnoses in 
the 34 States included in the national database while CDC's HIV 
prevention funding was cut in fiscal year 2008 and flat-funded in 
fiscal year 2009. Additionally, core HIV/AIDS surveillance funding has 
eroded over the last decade, while the importance of this data has 
become paramount for targeting prevention efforts and directing Ryan 
White resources.
    The Nation's prevention efforts must match our commitment to the 
care and treatment of infected individuals. State and local public 
health departments know what to do to prevent new infections, they just 
need the resources. First and foremost we must address the devastating 
impact on racial and ethnic minority communities. We must expand 
outreach and HIV testing efforts targeting high-risk populations 
including gay and bisexual men of all races, racial, and ethnic 
minority communities, substance users, women, and youth. But, testing 
alone can never end the epidemic. All tools in the prevention arsenal 
must be supported. Additional resources must be directed to build 
capacity and provide technical assistance to enable community-based 
organizations and healthcare providers to implement evidence-based 
behavior change interventions, ensure fiscal responsibility and refer 
partners of HIV-positive individuals to counseling and testing 
services.
    The Domestic HIV/AIDS Testing Initiative is an important step to 
increasing knowledge of serostatus, particularly among African 
Americans. Currently 25 jurisdictions (20 States and five cities) 
receive $36 million for the Expanded Testing Initiative (ETI), 
including rapid testing, in clinical settings such as emergency rooms, 
community health centers, correctional health facilities, and STD and 
tuberculosis clinics. Both CDC and NASTAD conducted assessments of year 
1 including progress and challenges faced. Following significant scale-
up efforts in all jurisdictions, 21 of the funded jurisdictions 
conducted 446,503 tests in year 1 of the ETI. Nearly 4,000 new HIV 
infections were identified, 80 percent of which were in clinical 
settings. During the first year, 86 percent of testing occurred in 
clinical settings. Of the total number of tests conducted in the first 
year, 64 percent were administered to African Americans. Seventy 
percent of the newly identified infections were among African 
Americans.
    We are requesting that CDC receive sufficient resources to expand 
the number of jurisdictions participating in the initiative--all 
jurisdictions have a need for increased resources for testing if we are 
to truly commit to providing access to testing for all individuals who 
do not yet know their HIV status. Additional funding would also allow 
the targeting of additional populations such as gay and bisexual men of 
all races and Latinos. Another key component of the initiative to 
expand is identification, notification and counseling of partners of 
persons living with HIV/AIDS. Partner services are time and resource 
intensive but maximize prevention efforts.
    With 21 percent of HIV-infected persons unaware that they have HIV, 
increased funding for testing and partner services will avert millions 
in unnecessary healthcare costs.
    We urge the subcommittee to not include language banning use of 
Federal funds for syringe exchange programs in the fiscal year 2010 
Labor, Health and Human Services, and Education, an Related Agencies 
appropriations bill. Abundant research, endorsed by the findings of 
eight federally commissioned reviews, has conclusively demonstrated 
that syringe exchange is effective in reducing the transmission of HIV 
without increasing drug use. In communities that fund and support 
access to sterile injection equipment using State and local funds, 
transmission of HIV and hepatitis in persons who inject drugs has 
declined as a proportion of all cases by mode of transmission. 
Unfortunately, State and locally funded syringe exchange are only 
reaching a small portion of persons who inject drugs. It's time for the 
Federal Government to use every tool at its disposal to arrest the 
further spread of HIV and hepatitis C.
    We also urge you to eliminate funds for the three separate Federal 
abstinence-only-until-marriage programs. Instead, we request that you 
create a dedicated Federal funding stream of at least $50 million in 
your 2010 budget to fund medically accurate, comprehensive sex 
education programs that teach young people about both abstinence and 
contraception.
    Lastly, we thank you and ask that you continue to limit the funding 
for the duplicative Early Diagnosis Grant Program in Section 209 of the 
Ryan White Treatment Modernization Act of 2006. This program is a carve 
out of limited HIV testing resources when there is already $10 million 
dedicated to perinatal prevention.
Viral Hepatitis Prevention Programs
    NASTAD respectfully requests an increase of $36.4 million for a 
total of $50 million in fiscal year 2010 for the CDC's Division of 
Viral Hepatitis (DVH) to enable State and local health departments to 
provide basic core public health services. DVH currently receives $18.3 
million to address chronic viral hepatitis B and C impacting 6.2 
million Americans. This is $7 million less than its peak funding of $25 
million in fiscal year 2001. Currently CDC addresses viral hepatitis on 
outbreak at a time, which is neither cost-effective nor real 
prevention.
    Of the DVH funding, $5.2 million is used to fund the Adult Viral 
Hepatitis Coordinator Program with an average award to States of 
$90,000. Doubling this program to $10 million would allow States to 
implement a hepatitis prevention strategy. The coordinator position 
receives precious little above personnel costs, leaving little to no 
money for the provision of public health services including public 
education, hepatitis counseling, testing, and hepatitis A and B 
vaccine. In addition, there are no funds for surveillance of chronic 
viral hepatitis, which would allow States to better target their 
limited resources. Given the recent hepatitis public health crises in 
Nevada and New York, the Government has a choice--invest in prevention 
now or wait until public systems are overwhelmed by a lack of 
infrastructure to address future outbreaks.
    The greatest remaining challenge for hepatitis A and B prevention 
is the vaccination of high-risk adults. High-risk adults account for 
more than 75 percent of all new cases of hepatitis B infection each 
year and annually result in an estimated $658 million in medical costs 
and lost wages. In fiscal year 2007, CDC allowed States to use $20 
million of 317 Vaccine funds to vaccinate high-risk adults for 
hepatitis B and $16 million in fiscal year 2008. By targeting high-risk 
adults, including those with hepatitis C, for vaccination, the gap 
between children and adults who have not benefited from routine 
childhood immunization programs can be bridged. NASTAD requests a 
continuation of the $16 million in section 317 Vaccine funds in fiscal 
year 2010 for hepatitis B vaccination for high-risk adults with the 
request that in the future DVH receives dedicated funding for hepatitis 
A and B vaccine for high-risk adults and funding to support the 
infrastructure necessary for vaccine delivery.
STD Prevention Programs
    NASTAD supports an increase of $299 million for a total of $451 
million in fiscal year 2010 for STD prevention, treatment and 
surveillance activities undertaken by State and local health 
departments. STD prevention programs at CDC have been cut by $6 million 
since fiscal year 2004 while the number of persons infected continues 
to climb. The United States has the unwanted distinction of having the 
highest rates of STDs of all industrial nations with 1 in 4 adolescent 
girls in the United States, or more than 3 million, having an STD. The 
rates of syphilis infection have increased for the seventh year in a 
row. In 1 year, our Nation spends more than $8 billion to treat the 
symptoms and consequences of STDS. Additional Federal resources are 
needed to reverse these alarming trends and reduce the Nation's health 
spending.
Minority AIDS Initiative
    NASTAD also supports a $200 million increase for a total of $610 
million for the Minority AIDS Initiative (MAI) in fiscal year 2010. The 
MAI provides targeted resources to four agencies and the Office of the 
Secretary to address the HIV/AIDS epidemic in hard-hit communities of 
color. The data from CDC on the disproportionate impact on African 
Americans and Latinos continues to be alarming. Support for the MAI 
along with the traditional funding streams that serve these populations 
is essential.
    As you craft the fiscal year 2010 Labor, Health and Human Services, 
and Education, an Related Agencies appropriations bill, we ask that you 
consider all of these critical funding needs. National Alliance of 
State and Territorial AIDS Directors thanks the Chairman, Ranking 
Member and members of the subcommittee, for their thoughtful 
consideration of our recommendations. Our response to the HIV, viral 
hepatitis, and STD epidemics in the United States defines us as a 
society, as public health agencies, and as individuals living in this 
country. There is no time to waste in our Nation's fight against these 
infectious and often chronic diseases.
                                 ______
                                 
    Prepared Statement of the National Congress of American Indians

    On behalf of the tribal nations of the National Congress of 
American Indians (NCAI), we are pleased to present our recommendations 
for fiscal year 2010 funding of Indian programs in the Departments of 
Labor, Health and Human Services, and Education, and Related Agencies. 
President Obama released a broad budget plan for fiscal year 2010 and 
from what NCAI has reviewed of the blueprint so far, the new 
administration plans to ensure America's promise extends to the entire 
Nation, including throughout Indian country.
    After tribes witnessed years of declining resources for critical 
Indian programs in the Federal budget, the attention the 
administration's fiscal year 2010 proposed budget has given to tribal 
priorities is a welcome change. The chairman of this subcommittee has 
heard often of the social and economic challenges facing Indian 
country. This subcommittee has also heard that the recent resurgence of 
tribal self-determination has resulted in measurable improvements in 
the poverty, income, and unemployment among Indian people.
    Indian tribes are rebuilding our Nations in ways that honor our 
ancestors and cultures as well as meeting the demands and opportunities 
of living in the modern world. An analysis of socioeconomic change 
between 1990 and 2000 showed that Indian country economies grew at a 
faster pace than the economy as a whole. Although Indian tribes have 
made great strides in addressing the long-accumulated economic deficits 
in our communities, much work remains to be done. Tribes also have a 
critical role to play in the recovery as the Nation pulls out of the 
current destructive recession. As the President and Congress aim to 
invest in people to strengthen the middle class and the drivers of 
economic growth, NCAI looks forward to tribal self-determination 
playing a part in the solution. To ensure tribes continue to make 
progress, sustained investment in tribal governments and programs that 
support self-determination will be critical in fiscal year 2010. With 
the new administration and the fiscal year 2010 budget request, there 
is renewed hope in Indian country.
    The President's fiscal year 2010 budget priorities appear to align 
with many of Indian country's priorities: education, healthcare, 
infrastructure, and clean energy. Below are some budget recommendations 
for the Labor, Health and Human Services, and Education, and Related 
Agencies appropriations bill.

                DEPARTMENT OF HEALTH AND HUMAN SERVICES

    Tragically, over the last year, nearly 3,000 American Indians and 
Alaska natives died of cardiovascular disease, more than 16,500 were 
diagnosed with a sexually transmitted disease, 5,000 were diagnosed 
with diabetes for the first time, more than 22,000 are now living with 
cancer (45 percent of which were diagnosed in the late-stages), and 400 
took their own life.
    These people are our tribal leaders; our daughters and sons; our 
mothers and fathers; and, our brothers and sisters. For more than 100 
years, Native people have experienced inferior health outcomes. Our 
life expectancy is still 5 years less than that of other Americans. 
Adequate funding is needed to end this lasting injustice and uphold the 
Federal trust responsibility of the United States and the Federal 
Government.
    Provide $1 billion overall for Head Start funding. Provide $10 
million for Esther Martinez language programs under the Administration 
for Native Americans. Fifteen million dollars to fund SAMHSA Behavioral 
Health Services Grants for American Indian and Alaska Natives. Increase 
Circles of Care, SAMHSA by $5 million

                ADMINISTRATION FOR CHILDREN AND FAMILIES

    Head Start.--Over the past 40 years, Head Start has played a major 
role in the education of Indian children and in the well-being of many 
tribal communities. However, because of inadequate funding, only about 
16 percent of the age-eligible Indian child population is enrolled in 
Indian Head Start. The comprehensive nature of this program integrates 
education, health, and family services. Since it closely mirrors a 
traditional Indian educational model, it is one of the most successful 
Federal programs operating in Indian country. Despite these successes, 
Head Start funding has declined by 14 percent over the last 6 years, 
after factoring in inflation. Head Start should be funded at a rate 
substantially greater than inflation to make up for prior year cuts and 
also to trigger special Indian expansion funds that Congress provided 
when the Head Start Act was reauthorized in 2007.
  --$1 billion--Head Start funding (overall)

                  ADMINISTRATION FOR NATIVE AMERICANS

    Native Languages.--Throughout Indian country, tribes are combating 
the loss of traditional languages by advocating for and instituting 
language programs within their communities. These language programs 
serve Native communities by preventing the loss of tribal traditions 
and cultures. The tribal students in these language immersion programs 
perform substantially better academically, including on national tests, 
than Native students who have been enrolled in such programs.
  --$10 million--Esther Martinez language programs under the 
        Administration for Native Americans

   SUBSTANCE ABUSE AND MENTAL HEALTH SERVICES ADMINISTRATION (SAMHSA)

    American Indian and Alaska Native Grant Program.--This grant 
program within SAMHSA has been authorized to award grants to Indian 
health programs to provide the following services: prevention or 
treatment of drug use or alcohol abuse, mental health promotion, or 
treatment services for mental illness. To date, these funds have never 
been appropriated.
  --$15 million to fund SAMHSA Behavioral Health Services Grants for 
        American Indian and Alaska natives.
    Circles of Care.--Increase funding to $10 million a year for the 
Circles of Care children's mental health grant program under Programs 
of National and Regional Significance under SAMHSA. This grant program 
has historically been funded at about $5 million a year, which provides 
for approximately seven tribal grants during each 3-year grant cycle. 
The program has been very successful and has spawned several new tribal 
children's mental health programs in Indian country that as a result 
have been self-sustaining.
  --Increase of $5 million

                        DEPARTMENT OF EDUCATION

    The administration intends to make investments in education so all 
Americans can have the chance to receive a world-class education from 
cradle to career. The 2007 National Indian Education Study indicated 
that in reading and math, American Indian and Alaska native students 
scored significantly lower than their peers in both fourth and eighth 
grades. To ensure that Native students--from pre-school to college--
meet the same challenging academic standards as other populations and 
experience the benefits of a quality and supportive education, it is 
imperative that the Federal Government uphold its responsibility for 
the education of Indian people.
    Provide $195.5 million for title VII funding under the No Child 
Left Behind Act. Increase Impact Aid funding 10 percent to adjust for 
inflation and population growth ($1,365 million). Provide $32 million 
for title III, Higher Education Act (HEA). Provide $62 million (one-
time) forward funding for Tribal Colleges and Universities (TCUs). 
Provide $10 million for tribal education departments.
    Title VII Funding.--This funding provides critical support for 
culturally based education approaches for American Indian and Alaska 
native students and addresses the unique educational and cultural needs 
of Native students. It is well-documented that Native students are more 
likely to thrive in environments that support their cultural identities 
while introducing different ideas. Title VII has produced many success 
stories within our communities, but increased funding is critical in 
this area to bridge the achievement gap for Native students.
  --$195.5 million
    Impact Aid Funding.--Impact Aid provides resources to public 
schools whose tax bases are reduced because of Federal activities, 
including the presence of an Indian Reservation. Impact Aid affects 
Native children living on or near tribal lands and children of military 
families living on or near bases. Approximately 95 percent of American 
Indian and Alaska Native youth are educated in public schools. Impact 
Aid funding must be adjusted based on population increases and 
inflation.
  --Increase impact aid funding 10 percent to adjust for inflation and 
        population growth ($1,365 million)
    TCUs.--Titles III and V of the HEA, known as Aid for Institutional 
Development programs, support institutions with a large proportion of 
financially disadvantaged students and low cost-per-student 
expenditures. TCUs fit this definition. The Nation's 36 TCUs serve some 
of the most impoverished areas in the Nation, yet they are the 
country's most poorly funded postsecondary institutions. Congress 
recognized the TCUs as young and struggling institutions and authorized 
a separate section of title III (part A, section 316) specifically to 
address their needs. Additionally, a separate section (section 317) was 
created to address similar needs of Alaska native and Native Hawaiian 
institutions. Section 316 is divided into two competitive grants 
programs: Formula funded basic development grants and competitive 
single-year facilities construction grants. Under the Tribal College 
Act, securing the one-time payment to transition institutional 
operating grants to a forward funded program would finally end the 
cycle of delayed payments, short-term loans, and layoffs that currently 
plague TCUs each year; and, further for the first time, it would 
provide these institutions the resources they need at the start of each 
academic year.
  --$32 million--Title III, HEA
  --$62 million (one-time) forward funding for TCUs
    Tribal Education Departments.--More than 100 Indian tribes have 
started Tribal Education Departments (TED). TEDs develop and administer 
policies, gather and report data and perform critical research to help 
tribal students from early childhood through higher and adult 
education. TEDs serve thousands of tribal students nationwide in BIA, 
tribal, and public schools. They also cultivate leadership skills and 
train a potential workforce. Funding for TEDs has been authorized by 
Congress but never appropriated in either the BIA budget or that of the 
Department of Education. Both of these authorizations are retained in 
the No Child Left Behind Act of 2001. Tribes must have access to 
funding in order to close the achievement gaps so that tribal students 
will be better equipped to perform well in school. We recommend that $5 
million of the funding be directed from the Department of the Interior 
and $5 million of the funding be directed from the Department of 
Education.
  --$10 million--Tribal education departments
                               conclusion
    NCAI realizes Congress must make difficult budget choices this 
year. As elected officials, tribal leaders certainly understand the 
competing priorities that you must weigh over the coming months. 
However, the Federal Government's constitutional and treaty 
responsibility to address the serious needs facing Indian country are 
unique. These responsibilities remain unchanged, whatever the economic 
climate and competing priorities may be. We at NCAI urge you to make a 
strong, across-the-board commitment to meeting the Federal trust 
obligation by fully funding those programs that are vital to the 
creation of vibrant Indian nations. Such a commitment, coupled with 
continued efforts to strengthen tribal governments and to clarify the 
Government-to-government relationship, truly will make a difference in 
helping us to create stable, diversified, and healthy economies in 
Indian country.
                                 ______
                                 
       Prepared Statement of the National Consumer Law Center \1\
---------------------------------------------------------------------------
    \1\ Prepared by Olivia Wein, Staff Attorney, National Consumer Law 
Center (202-452-6252, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="4c233b2925220c222f202f282f62233e2b">[email&#160;protected]</a>).
---------------------------------------------------------------------------
    The Federal Low Income Home Energy Assistance Program (LIHEAP) \2\ 
is the cornerstone of Government efforts to help needy seniors and 
families avoid hypothermia in the winter and heat stress (even death) 
in the summer. LIHEAP is an important safety net program for low-
income, unemployed, and underemployed families struggling in this 
economy. In fiscal year 2009, the program is expected to assist 7.3 
million low-income households afford their energy bills. Residential 
consumers continue to pay much higher heating bills than in the past, 
and depending on the region of the country and the heating fuel, the 
increase in expenditures for heating fuel have been substantial over 
time. In light of the crucial safety net function of this program in 
protecting the health and well-being of low-income seniors, the 
disabled and families with very young children, we respectfully request 
that LIHEAP be fully funded at its authorized level of $5.1 billion for 
fiscal year 2010 and that advance funding of $5.1 billion be provided 
for the program in fiscal year 2011.
---------------------------------------------------------------------------
    \2\ 42 U.S.C. Sec. Sec.  8621 et seq.
---------------------------------------------------------------------------
     HOME ENERGY BILLS REMAIN HIGH AT A TIME WHEN UNEMPLOYMENT AND 
                       UNDEREMPLOYMENT IS GROWING

    Residential heating expenditures remain at high levels. Average 
residential heating expenditures this winter are expected to be about 
38 percent higher for heating oil, 16 percent higher for natural gas, 
42 percent higher for propane, and 24 percent higher for electricity 
when compared to the 5-year average for 2002-2007.\3\ The steady, high 
energy bills are hitting low-income households struggling in this 
economic downturn. According to the Bureau of Labor Statistics, in 
March 2009, the number of unemployed workers was 13.2 million, with 
half the increase in the number of unemployed occurring within the past 
4 months.\4\ According the Economic Policy Institute, the number of 
involuntary part-time workers nearly doubled to more than 8 million in 
the past year, largely due to full-time workers accepting reduced 
hours.\5\ The hardship low-income households face is also apparent in 
the data below on the number of households falling behind.
---------------------------------------------------------------------------
    \3\ Derived from data in the Energy Information Agency, Short-Term 
Energy Outlook (Feb. 2009), Table WF01.
    \4\ US, DOL, Bureau of Labor Statistics, The Employment Situation: 
March 2009 (rel. April 3, 2009).
    \5\ See Ross Eisenbrey and Kathryn Edwards, Downtime: Workers 
forced to settle for fewer hours, Economic Policy Institute (Jan. 14, 
2009).
---------------------------------------------------------------------------
STATES' DATA ON ELECTRIC AND NATURAL GAS DISCONNECTIONS AND ARREARAGES 
              SHOW THAT MORE HOUSEHOLDS ARE FALLING BEHIND

    The steady and dramatic rise in residential energy costs has 
resulted in increases in electric and natural gas arrearages and 
disconnections. For example, in Rhode Island in 2008 there were 8 
percent more service disconnections for nonpayment than in any other 
year on record, and 21 percent of those accounts were not restored.\6\ 
A recent national survey by the National Association of Regulatory 
Utility Commissioners found that almost 40 million electricity and 
natural gas residential consumers held nearly $8.7 billion in past-due 
accounts at the end of the 2007-2008 Winter heating season. The survey 
also concluded that in calendar year 2007, 8.7 million residential 
consumers had their electricity or natural gas service terminated for 
failing to pay their bills, with 3.6 million who remained disconnected 
as of this past May 2008.\7\
---------------------------------------------------------------------------
    \6\ Analysis of John Howat, senior policy analyst at National 
Consumer Law Center (April 2009).
    \7\ Sandra Sloane, Mitchell Miller, Beverly Barker, Lisa Colosimo, 
``2008 Individual State Report by NARUC Consumer Affairs Subcommittee 
on Collections Data Gathering.'' (Approved on Nov. 17, 2008 by the 
NARUC Consumers Affairs Committee).
---------------------------------------------------------------------------
    Although there are winter utility shut-off moratoria in place in 
many States, not every home is protected against energy shut-offs in 
the middle of winter. As we approach the lifting of winter shut-off 
moratoria, we expect to see a wave of disconnections as households are 
unable to afford the cost of the energy bills. Low-income families are 
falling further behind as we endure year after year of rising home 
energy prices. We expect the number of disconnections to grow and the 
gap between disconnections and reconnections to also grow, especially 
in light of the economic challenges faced by the unemployed and 
underemployed workers.
    Iowa.--Iowa has experienced a steady increase in enrollment for the 
regular LIHEAP program from fiscal year 2007 to fiscal year 2009 with 
86,000 households in 2007; 87,000 in 2008 and projects 95,700 in fiscal 
year 2009.\8\ As a testament to the difference LIHEAP can make for low-
income households, in February 2009, the number of Iowa low-income 
households with past-due energy accounts and the total amount of the 
low-income arrears were lower than for the past 3 years at this point 
in time (e.g., February 2006, February 2007, and February 2008). 
Comparatively, when looking at the arrearage data for February over 
time for the total residential gas and electric accounts in arrears and 
the amount of those arrears, those numbers are at historic highs.\9\
---------------------------------------------------------------------------
    \8\ NEADA press releases from April 25, 2008 and January 12, 2009.
    \9\ Based on data provided by the Iowa Bureau of Energy Assistance.
---------------------------------------------------------------------------
    Ohio.--Ohio has experienced a steady and dramatic demand for low-
income energy assistance. The number of households entering into the 
State's low-income energy affordability program, the Percentage of 
Income Payment Program (PIPP), increased 9 percent from January 2008 to 
January 2009. The increase is an even more dramatic 86 percent between 
January 2003 and January 2009. The total dollar amount owed (arrearage) 
by low-income PIPP customers increased 11 percent from January 2008 to 
January 2009 and 52 percent when comparing PIPP customer arrears from 
January 2003 to January 2009.\10\ Ohio has experienced a steady 
increase in enrollment for the regular LIHEAP program (HEAP) from 
fiscal year 2007 to fiscal year 2009 with 360,000 households in 2007; 
370,000 in 2008 and projects 400,000 in fiscal year 2009.\11\
---------------------------------------------------------------------------
    \10\ Public Utilities Commission of Ohio.
    \11\ NEADA press releases from April 25, 2008 and January 12, 2009.
---------------------------------------------------------------------------
    Pennsylvania.--Pennsylvania has also experienced a steady increase 
in enrollment for the regular LIHEAP program from fiscal year 2007 to 
fiscal year 2009 with 367,000 households in 2007; 398,000 in 2008 and 
projects 490,000 in fiscal year 2009.\12\ Utilities in Pennsylvania 
that are regulated by the Pennsylvania Public Utility Commission (PA 
PUC) have established universal service programs that assist utility 
customers in paying bills and reducing energy usage. Even with these 
programs, electric and natural gas utility customers find it difficult 
to keep pace with their energy burdens. The PA PUC estimates that more 
than 17,745 households entered the current heating season without heat-
related utility service--this number includes about 3,373 households 
who are heating with potentially unsafe heating sources such as 
kerosene or electric space heaters and kitchen ovens. In mid-December 
2008, an additional 13,595 residences where electric service was 
previously terminated were vacant and more than 6,442 residences where 
natural gas service was terminated were vacant. In 2008, the number of 
terminations increased 73 percent compared with terminations in 2004. 
As of December 2008, 18.3 percent of residential electric customers and 
16.9 percent of natural gas customers were overdue on their energy 
bills. These 2008 overdue utility bills have increased 9.57 percent 
more than 2007. In addition, in recognition of the increases in media 
reports of deaths of terminated customers the PA PUC implemented a new 
reporting requirement. Utilities in Pennsylvania are now required to 
file reports regarding any incidents involving death at locations where 
residential utility service has been terminated.\13\ The economic 
downturn is putting additional pressures on local human service 
agencies as well. A report on the effect of economy on Pittsburgh, 
Pennsylvania shows a 73.3 percent increase in ``first time'' applicants 
for a range of basic needs assistance, including energy assistance.\14\
---------------------------------------------------------------------------
    \12\ NEADA press releases from April 25, 2008 and January 12, 2009.
    \13\ Pennsylvania Public Utility Commission Bureau of Consumer 
Services.
    \14\ Vivien Luk and Stacy Kehoe, Understanding the Impact of the 
Economic Downturn on Pittsburgh Residents and Human Service Agencies, 
the Forbes Funds (November 2008).
---------------------------------------------------------------------------
    States are Predicting Record LIHEAP Participation.--NEADA reports 
that for fiscal year 2009, 15 States have projected increases in 
participation of at least 21 percent, with Texas estimating a 201 
percent increase; Florida 200 percent; California 162 percent; 
Tennessee 60 percent; Arkansas 50 percent; Arizona 35 percent; Alaska 
34 percent; New Mexico 26 percent; Oregon 26 percent; Alabama 25 
percent; Massachusetts 25 percent; New Hampshire 25 percent; 
Pennsylvania 23 percent; Connecticut 23 percent; and Delaware 21 
percent.\15\ In Arkansas, many of the community action agencies are 
estimating that about 40 percent of the people contacting them for 
services over the past 8 to 10 months are new applicants; 
overwhelmingly, these new applicants are seeking utility 
assistance.\16\ Thus there is great need for a fully funded LIHEAP 
program in the States.
---------------------------------------------------------------------------
    \15\ NEADA press release, Applications for Low Income Energy 
Assistance Reach Record Levels: States Call on Congress to Increase 
Funding for LIHEAP (January 12, 2009).
    \16\ Estimates provided by Arkansas Community Action Agencies 
Association, Inc.
---------------------------------------------------------------------------
 LIHEAP IS A CRITICAL SAFETY NET PROGRAM FOR THE ELDERLY, THE DISABLED 
                   AND HOUSEHOLDS WITH YOUNG CHILDREN

    LIHEAP is Vital to Poor Seniors.--Poor seniors are cutting back on 
energy usage because it is not affordable. In general, elder households 
use less total household energy than nonelderly households, which is 
attributable primarily to the smaller dwelling units. However, poor 
elderly households use markedly less energy than nonpoor elderly 
households. Even worse, poor elderly households, on average, consume 12 
percent more energy per square foot of living space (this measurement 
is also referred to as energy intensity) than non-poor elderly 
households. This disparity is attributable to the poorly weatherized 
living spaces and the use of old, inefficient heating equipment and 
appliances.\17\ LIHEAP is critical for helping low-income seniors 
maintain safe temperatures in their homes.
---------------------------------------------------------------------------
    \17\ NCLC analysis of U.S. Energy Information Administration, 2001 
Residential Energy Consumption Survey data on elderly energy 
consumption and expenditures.
---------------------------------------------------------------------------
    Dire Choices and Dire Consequences.--Recent national studies have 
documented the dire choices low-income households face when energy 
bills are unaffordable. Because adequate heating and cooling are tied 
to the habitability of the home, low-income families will go to great 
lengths to pay their energy bills. Low-income households faced with 
unaffordable energy bills cut back on necessities such as food, 
medicine and medical care.\18\ The U.S. Department of Agriculture has 
released a study that shows the connection between low-income 
households, especially those with elderly persons, experiencing very 
low food security and heating and cooling seasons when energy bills are 
high.\19\ A pediatric study in Boston documented an increase in the 
number of extremely low-weight children, age 6 to 24 months, in the 3 
months following the coldest months, when compared to the rest of the 
year.\20\ Clearly, families are going without food during the winter to 
pay their heating bills, and their children fail to thrive and grow. 
The loss of essential utility services can be devastating, especially 
for poor families that can find themselves facing eviction. A 2007 
Colorado study found that the second leading cause of homelessness for 
families with children is the inability to pay for home energy.\21\
---------------------------------------------------------------------------
    \18\ See e.g., National Energy Assistance Directors' Association, 
2008 National Energy Assistance Survey, Tables in section IV, G and H 
(April 2009) (To pay their energy bills 32 percent of LIHEAP recipients 
went without food, 42 percent went without medical or dental care, 38 
percent did not fill or took less than the full dose of a prescribed 
medicine, 15 percent got a payday loan). Available at http://
www.neada.org/communications/press/2009-04-28.htm.
    \19\ Mark Nord and Linda S. Kantor, Seasonal Variation in Food 
Insecurity Is Associated with Heating and Cooling Costs Among Low-
Income Elderly Americans, The Journal of Nutrition, 136 (Nov. 2006) 
2939-2944.
    \20\ Deborah A. Frank, MD et al., Heat or Eat: The Low Income Home 
Energy Assistance Program and Nutritional and Health Risks Among 
Children Less Than 3 Years of Age, AAP Pediatrics v. 118, no. 5 (Nov. 
2006) e1293-e1302. See also, Child Health Impact Working Group, 
Unhealthy Consequences: Energy Costs and Child Health: A Child Health 
Impact Assessment Of Energy Costs And The Low Income Home Energy 
Assistance Program (Boston: Nov. 2006) and the Testimony of Dr. Frank 
Before the Senate Committee on Health, Education, Labor and Pensions 
Subcommittee on Children and Families (March 5, 2008).
    \21\ Colorado Interagency Council on Homelessness, Colorado 
Statewide Homeless Count Summer, 2006, research conducted by University 
of Colorado at Denver and Health Sciences Center (Feb. 2007).
---------------------------------------------------------------------------
    When people are unable to afford paying their home energy bills, 
dangerous and even fatal results occur. In the winter, families resort 
to using unsafe heating sources, such as space heaters,\22\ ovens and 
burners, all of which are fire hazards. In 2006, 73 percent of home 
heating fire deaths, 43 percent of home heating fire injuries and 51 
percent of property damage from home heating fires involved stationary 
or portable space heaters. In the summer, the inability to keep the 
home cool can be lethal, especially to seniors. According to the CDC, 
older adults, young children and person with chronic medical conditions 
are particularly susceptible to heat-related illness and are at a high 
risk of heat-related death. The CDC reports that 3,442 deaths resulted 
from exposure to extreme heat during 1999-2003.\23\ The CDC also notes 
that air-conditioning is the number one protective factor against heat-
related illness and death.\24\ LIHEAP assistance helps these vulnerable 
seniors, young children and medically vulnerable persons keep their 
homes at safe temperatures during the winter and summer and also funds 
low-income weatherization work to make homes more energy efficient.
---------------------------------------------------------------------------
    \22\ John R. Hall, Jr., Home Fires Involving Heating Equipment: 
Space Heaters (In 2006 there were an estimated 64,100 home fires 
involving space heaters resulting in 540 deaths, 1,400 injuries and 
$943 million in property damage) National Fire Protection Association 
(Jan. 2009).
    \23\ CDC, ``Heat-Related Deaths--United States, 1999-2003'' MMWR 
Weekly, July 28, 2006.
    \24\ CDC, ``Extreme Heat: A Prevention Guide to Promote Your 
Personal Health and Safety'' available at http://emergency.cdc.gov/
disasters/extremeheat/heat_guide.asp.
---------------------------------------------------------------------------
    LIHEAP is an administratively efficient and effective targeted 
health and safety program that works to bring fuel costs within a 
manageable range for vulnerable low-income seniors, the disabled and 
families with young children. LIHEAP must be fully funded at its 
authorized level of $5.1 billion in fiscal year 2010 in light of the 
steady increase in home energy costs and the increased need for 
assistance to protect the health and safety of low-income families by 
making their energy bills more affordable during this economic 
downturn. In addition, fiscal year 2011 advance funding would 
facilitate the efficient administration of the State LIHEAP programs. 
Advanced funding provided certainty of funding levels to states to set 
income guidelines and benefit levels before the start of the heating 
season. States can also plan the components of their program year 
(e.g., amounts set aside for heating, cooling and emergency assistance, 
weatherization, self-sufficiency, and leveraging activities).
                                 ______
                                 
     Prepared Statement of the National Coalition of STD Directors

    The National Coalition of STD Directors (NSCD) is a nonprofit, 
nonpartisan association of public health sexually transmitted (STD) 
program directors in the 65 Centers for Disease Control and Prevention 
(CDC) directly funded project areas, which includes all 50 States, 7 
cities, and 8 U.S. territories. As the only national organization with 
a constituency that provides frontline STD services, NCSD is the 
leading national voice for strengthening STD prevention, research and 
treatment. These efforts include advocating for effective policies, 
strategies, and sufficient resources, as well as increasing awareness 
of the medical and social impact of STDs.
    We appreciate this opportunity to provide the subcommittee with 
information about the health crisis caused by the persistent and 
staggeringly high rates of STDs in the United States and about the 
programs of the CDC that combat these diseases.
    The United States has the highest STD rates in the industrialized 
world, with more than 19 million people contracting an STD annually. In 
1 year, our Nation spends more than $8.4 billion to treat the symptoms 
and consequences of STDs. The indirect costs are higher, including lost 
wages and productivity, as well as human costs such as anxiety, shame, 
anger, depression and the challenges of living with infertility or 
cancer. The health consequences of STDs include: chronic pain, 
infertility, pregnancy complications, pelvic inflammatory disease, 
cervical cancer, birth defects, and increased vulnerability to HIV, the 
virus that causes AIDS. Persons with a pre-existing STD have a three- 
to fivefold increased risk of acquiring HIV through sexual contact. In 
addition, studies have shown that HIV-infected persons who are also 
infected with other STDs are more likely to transmit HIV. Comprehensive 
STD treatment can reduce the likelihood of HIV transmission.
    STDs have a disproportionate impact on young people--women, men who 
have sex with men (MSM), and racial and ethnic minorities. Of the 
approximately 19 million new STD infections each year, nearly half are 
among young people ages 15 to 24. Chlamydia, which leads to 
infertility, is the most frequently reported disease in the United 
States. Nearly 1 million women will have a severe case of pelvic 
inflammatory disease due to STDs. The transmission of STDs to babies--
prenatally, during birth, or after--can cause serious life-long 
complications including physical disabilities, developmental 
disabilities, and death. MSM have historically experienced high rates 
of all STDs, including HIV/AIDS. In 2007, 65 percent of all primary and 
secondary syphilis cases were among MSM. The syphilis rate among males 
is now six times the rate among females, a dramatic disparity that did 
not exist a decade ago, when rates were nearly equivalent between the 
sexes. This trend suggests that the increase in cases among men have 
been primarily among men who have sex with men. Persons of color, 
particularly African-Americans, American Indians/Alaska natives, and 
Hispanics are also at higher risk of contracting STDs. In 2007, the 
rate of chlamydia among African Americans was eight times that of 
whites, for American Indian/Alaska natives it was five times higher 
than whites, and for Hispanics it was three times higher than whites. 
African American women experience syphilis rates 14 times higher than 
white women. Socioeconomic, cultural and linguistic barriers to quality 
healthcare and STD prevention and treatment services have likely 
contributed to a higher prevalence and incidence of STDs among racial 
and ethnic minorities.
    While rates of STDs in this country have continued to skyrocket, 
Federal funding for CDC's Division of STD Prevention has steadily 
declined since fiscal year 2003. For every $1 spent on STD prevention, 
$43 is spent each year on STD-related costs. In addition, for every $1 
spent on research, $92 is spent each year on STD-related costs.
    NSCD requests an fiscal year 2010 funding level of $451.3 million, 
an increase of $299 million, for the STD prevention, treatment, and 
surveillance programs of the CDC. These funds will significantly 
enhance the CDC's ability to reduce STD rates across the country.
Public Health Infrastructure (+$40 Million)
    Federal funding for CDC's Division of STD Prevention has been 
relatively flat for the past 15 years. The combined effect of this, 
along with steadily increasing rates of STDs and more recently, drastic 
State and local budget cuts due to the economic crisis, STD programs 
are in crisis mode and stretched thinner than ever. STD programs have 
had to cut staff, dramatically cut clinical services or close clinic 
doors altogether, and eliminate critical services such as free condom 
distribution programs. The public health infrastructure must be rebuilt 
and modernized. Investments in training, information and surveillance 
systems, public health laboratories, and better diagnostic technologies 
would increase efficiency, ensure program effectiveness, and protect 
the health of future generations.
Public Health Workforce (+$24 Million)
    A critical piece of rebuilding the public health infrastructure is 
scaling up the public health workforce. One-quarter of the current 
public health workforce will be eligible to retire by 2012. We must 
invest now in training and retraining the next generation of public 
health professionals. This is particularly critical for STD programs. 
The underpinning of all STD programs is the Disease Intervention 
Specialist (DIS), who provide partner services to individuals infected 
with STDs, their partners, and to other persons who are at increased 
risk for STD infection. DIS are specially trained public health workers 
who are responsible for locating, counseling, and coordinating the 
testing of individuals exposed to an STD. DIS complete an intensive CDC 
training course, which provides a strong foundation in field 
investigation techniques, both on the ground and on the Internet. In 
some States, DIS also assist in the HIV Partner Services program, by 
assisting newly HIV-infected individuals with informing their partners 
of their status and encouraging those partners to seek HIV counseling, 
testing, and related prevention services. DIS also provide surge 
capacity during an emergency response, such as the current swine flu 
epidemic. The versatile expertise of DIS make them indispensable during 
a public health crisis, and also highlights the need for increased 
resources to support the training and hiring of new DIS. The current 
economic crisis has forced many States to freeze the hiring of new DIS 
and even lay off DIS, in spite of increasing STD cases.
Expand Chlamydia Screening and Infertility Prevention (+$100 Million)
    Chlamydia is the most commonly reported disease in the United 
States, as well as the primary cause of infertility. The Infertility 
Prevention Project (IPP), a collaborative effort between CDC and Office 
of Population Affairs within the Department of Health and Human 
Services, has been working to reduce STD-related infertility for 15 
years. IPP provides funding to screen low-income women for chlamydia 
and gonorrhea in STD and family planning clinics. This project is a 
major success story in STD prevention, having been highly successful in 
reducing new cases of chlamydia and gonorrhea in areas where it has 
been implemented. However, additional resources are needed to bring 
this project to scale and reach a greater number of at-risk women. 
Chlamydia screening has also been shown to be extremely cost effective. 
Among 21 evidence-based clinical services recommended by the U.S. 
Preventive Service Task Force, chlamydia screening for young women 
ranked among the top 5 as having the most health benefits and best 
value for the dollar.
    Additional Federal resources would help support increased chlamydia 
screening in the public sector, expand school-based and correctional-
based screening, as well as initiate a series of demonstration projects 
in the private sector aimed at increasing private sector screening 
rates.
Gonorrhea Control and Health Disparities Reduction (+$78 Million)
    Gonorrhea is the second most commonly reported infectious disease 
in the United States. African Americans are the most heavily impacted 
by this disease, with overall rates 19 times greater than that of 
whites in 2007. African-American men aged 15 to 19 years old experience 
gonorrhea rates 39 times higher than white men in the same age group. 
An increasing issue of concern in the treatment of gonorrhea is 
antimicrobial drug resistance. In 2006, 13.8 percent of all gonorrhea 
cases demonstrated resistance, while 39 percent of the cases 
specifically among MSM demonstrated resistance. In 2007, CDC revised 
its gonorrhea treatment guidelines to include only a single class of 
antibiotics.
    Additional Federal resources would be used to monitor antimicrobial 
resistant gonorrhea and test alternate or new drug regimens, initiate 
culturally competent social marketing campaigns, increase screening and 
partner services in hyperendemic areas, and develop demonstration 
research projects to determine the effectiveness and cost-effectiveness 
of gonorrhea prevention and control interventions.
Syphilis Elimination (+$50 Million)
    The rates of primary and secondary syphilis, the most infectious 
stages of the disease, decreased throughout the 1990s, and in 2000 
reached an all-time low. However, since 2000 as STD funding has 
declined, the syphilis rate in the United States has increased by 76 
percent. Since 1999, the Syphilis Elimination Effort (SEE), a 
collaboration between CDC and State, local, and nongovernmental 
partners, has worked to eliminate syphilis from all areas of the 
country and reduce long-standing health disparities. These strategies 
include: expanded surveillance and outbreak response activities, rapid 
screening and treatment in and out of medical settings, expanded 
laboratory services, strengthened community involvement and agency 
partnerships, and enhanced health promotion. These efforts have been 
shown to be successful, but must be funded adequately. A 2008 study 
suggested that SEE funding in a given year was associated with 
subsequent declines (over the following 2 years) in syphilis rates in a 
given State. The greater a State's per capita syphilis elimination 
funding in a given year, the greater the decline in syphilis rates in 
subsequent years. While the activities of SEE have proven themselves to 
be effective, they must be adequately and consistently funded to 
ultimately eliminate this disease in the United States.
    Additional Federal resources for SEE would be prioritized for 
increased screening, particularly among HIV positive persons and 
pregnant women, the development and evaluation of rapid diagnostic 
tests, implementation of social marketing campaigns targeted towards 
MSM and minority populations, and expanded screening in correctional 
facilities.
Build a Response to Viral STDs (Herpes, HPV, Hepatitis B)
    More than 45 million Americans, almost 26 percent of the U.S. 
population, are infected with herpes simplex virus (HSV), a treatable 
but incurable viral STD. Improved treatment of HSV is fundamental to 
reducing the rates of transmission. Individuals with herpes are more 
susceptible to acquiring HIV. An estimated 20 million Americans are 
infected with human papillomavirus (HPV), the cause of about 90 percent 
of all cervical cancer cases. CDC would utilize additional funds to 
monitor the HPV vaccine introduction and behavioral impact of HPV 
vaccine through demonstration projects and an expansion of an existing, 
multi-level, multi-year behavioral research project. The most common 
source of hepatitis B virus (HBV) infection among adults is sexual 
contact. Funding is needed to expand prevention efforts on HPV and HBV 
and to deliver education on the availability of preventive vaccines.
                                 ______
                                 
        Prepared Statement of the National Down Syndrome Society

    Mr. Chairman and members of the subcommittee: As Chairperson of the 
National Down Syndrome Society, I want to take this opportunity to 
thank you for the leadership role this subcommittee has played over the 
years in supporting and creating awareness on Down syndrome. I am 
pleased to offer the following written testimony regarding 
appropriation requests for Down syndrome in fiscal year 2010.
    There are more than 400,000 people living with Down syndrome in the 
United States, and about 5,000 babies, or 1 in 800, that are born each 
year. Down syndrome occurs in people of all races and economic levels, 
and it is the most frequently occurring chromosomal condition. The 
incidence of births of children with Down syndrome increases with the 
age of the mother. But due to higher fertility rates in younger women, 
80 percent of children with Down syndrome are born to women under 35 
years of age.
    Advancements in the treatment of health problems have allowed 
people with Down syndrome to enjoy fuller and more active lives, and 
become more integrated into the economic and social structures of our 
communities. Unfortunately, while progress has also been made in public 
policies that enhance the lives of individuals with Down syndrome, 
barriers still exist, making it difficult for people to access adequate 
healthcare, housing, employment, and education.
    We have been working with Congress for decades to address these 
challenges and advance public policies that promote the acceptance and 
inclusion of individuals with Down syndrome, and help them to achieve 
their full potential in all aspects of their lives.
    Mr. Chairman, we understand the challenges the subcommittee faces 
in prioritizing requests, we believe that funding the requirements of 
the Prenatally and Postnatally Diagnosed Conditions Awareness Act of 
2007 (Public Law 110-374) is imperative given the significant impact 
Down syndrome has on families and communities across the country and 
the great potential for improvements in quality of life. On behalf of 
the National Down Syndrome Society, we recommend that you appropriate 
$5 million in the fiscal year 2010 to implement the requirements of the 
Prenatally and Postnatally Diagnosed Conditions Awareness Act of 2007.
    As you know, last year, Congress passed the Prenatally and 
Postnatally Diagnosed Conditions Awareness Act of 2007. This new law 
seeks to ensure that pregnant women receiving a positive prenatal 
diagnosis of Down syndrome and parents receiving a postnatal diagnosis 
will receive up-to-date, scientific information about life expectancy, 
clinical course, intellectual and functional development, and prenatal 
and postnatal treatment options. It offers referrals to support 
services such as hotlines, Web sites, informational clearinghouses, 
adoption registries, parent support networks, and Down syndrome and 
other prenatally diagnosed conditions programs. The goal is to create a 
sensitive and coherent process for delivering information about the 
diagnosis across the variety of medical professions and technicians, to 
avoid any conflicting, inaccurate, or incomplete information. Also, the 
legislation would promote the rapid establishments of links to 
community supports and services for parents who choose to take their 
baby with Down syndrome home or for those who choose to have their 
child adopted.
    It is estimated that more than 1,000 prenatal tests are available 
or in development. Included among them are tests for conditions that 
are not life-threatening, could be helped by surgery or medical care, 
or don't appear until adulthood. The prognoses for people with some 
prenatally diagnosable disabilities have been improving markedly in 
recent years, leaving medical professionals scrambling to keep up with 
changing data. By including $5 million in the fiscal year 2010 Labor, 
Health and Human Services, and Education, and Related Agencies 
appropriations bill, the Department of Health and Human Services (HHS) 
will be able to fund its responsibilities to:
  --Collect and distribute information relating to Down syndrome and 
        other prenatally or postnatally diagnosed conditions;
  --Coordinate the provision of supportive services for patients 
        receiving a positive diagnosis of a prenatally or postnatally 
        diagnosed condition; and
  --Oversee the new requirements for healthcare providers established 
        by the law. The funding is also needed to carry out the 
        requirement that the CDC assist State and local health 
        departments to integrate testing results into surveillance 
        systems.
    Mr. Chairman, thank you for your time and attention. Given the 
considerable impact this condition has on families and communities 
across the country, the promise of further assistance and improving 
research outcomes for individuals with Down syndrome is crucial. We are 
thrilled beyond measure that Congress enacted this legislation and hope 
that funding this request will help to shift the way the Nation regards 
individuals with disabilities. Through providing accurate, updated 
information about diagnosable conditions like Down syndrome to pregnant 
women, the expectation is that individuals and families will make 
better, more-informed decisions. But the bigger impact will be better 
understanding on the part of the American people about the nature of 
disability and the value of these citizens to their families, their 
communities and to our country. Should you have any questions or 
require additional information, please feel free to call on me.
                                 ______
                                 
             Prepared Statement of the NephCure Foundation

                           ONE FAMILY'S STORY

    Chairman Cochran and members of the subcommittee thank you for the 
opportunity to provide written testimony today, I am Dee Ryan and my 
husband is Lieutenant Colonel John Kevin Ryan, an Iraq war veteran. I 
would like to tell you about my 6-year-old daughter Jenna's nephrotic 
syndrome (NS), a medical problem caused by rare diseases of the kidney 
filter. When affected, these filters leak protein from the blood into 
the urine and often cause kidney failure requiring dialysis or kidney 
transplantation. We have been told by our physician that Jenna has 1 of 
2 filter diseases called Minimal Change Disease or Focal and Segmental 
Glomerulosclerosis (FSGS). According to a Harvard University report 
there are presently 73,000 people in the United States who have lost 
their kidneys as a result of FSGS. Unfortunately, the causes of FSGS 
and other filter diseases are very poorly understood.
    In October 2007 my daughter began to experience general swelling of 
her body and intermittent abdominal pain, fatigue, and general malaise. 
Jenna began to develop a cough and her stomach became dramatically 
distended. We rushed Jenna to the emergency room where her breathing 
became more and more labored and her pulse raced. She had symptoms of 
pulmonary edema, tachycardia, hypertension, and pneumonia. Her lab 
results showed a large amount of protein in the urine and a low 
concentration of the blood protein albumin, consistent with the 
diagnosis of FSGS. Jenna's condition did not begin to stabilize for 
several frightening days.
    Following her release from the hospital we had to place Jenna on a 
strict diet which limited her consumption of sodium to no more than 
1,000 mg per day. Additionally, Jenna was placed on a steroid regimen 
for the next 3 months. We were instructed to monitor her urine protein 
levels and to watch for swelling and signs of infection, in order to 
avoid common complications such as overwhelming infection or blood 
clots. Because of her disease and its treatment, which requires strong 
suppression of the immune system, Jenna did have a serious bacterial 
infection several months after she began treatment.
    We are frightened by her doctor's warnings that NS and its 
treatment are associated with growth retardation and other medical 
complications including heart disease. As a result of NS, Jenna has 
developed hypercholesterolemia and we worry about the effects the 
steroids may have on her bones and development. This is a lot for a 
little girl in kindergarten to endure.
    Jenna's prognosis is currently unknown because NS can reoccur. Even 
more concerning to us is that Jenna may eventually lose her kidneys 
entirely and need dialysis or a kidney transplant. While kidney 
transplantation might sound like a cure, in the case of FSGS, the 
disease commonly reappears after transplantation. And even with a 
transplant, end stage renal disease caused by FSGS dramatically 
shortens one's life span.
    The NephCure Foundation (NCF) has been very helpful to my family. 
They have provided us with educational information about NS, Minimal 
Change Disease, and FSGS and the organization works to provide grant 
funding to scientists for research into the cause and cure of NS.
    Mr. Chairman, because the causes of NS are poorly understood, and 
because we have a great deal to learn in order to be able to 
effectively treat NS, I am asking you to please significantly increase 
funding for the National Institutes of Health. Also, please support the 
establishment of a collaborative research network that would allow 
scientists to create a patient registry and biobank for NS/FSGS, and 
that would allow coordinated studies of these deadly diseases for the 
first time. Finally, please urge the National Institute of Diabetes and 
Digestive and Kidney Disease (NIDDK) to continue to focus on FSGS/NS 
research in general, consistent with the recent program announcement 
entitled Grants for Basic Research in Glomerular Disease (R01) (PA-07-
367).
    Mr. Chairman, on behalf of the thousands of people suffering from 
NS and FSGS and NCF, thank you for this opportunity to submit this 
testimony to the subcommittee and for your consideration of my request; 
Thank you.

                        MORE RESEARCH IS NEEDED

    We are no closer to finding the cause or the cure of FSGS. 
Scientists tell us that much more research needs to be done on the 
basic science behind the disease.
    NCF, the University of Michigan, and other important university 
research health centers have come together to support the establishment 
of the Nephrotic Syndrome Rare Disease Clinical Research Network. This 
network is a new collaboration between research institutions and NCF 
supporting research on NS and FSGS. This initiative has tremendous 
potential to make significant advancements in NS and FSGS research by 
pooling efforts and resources. The addition of Federal resources to 
this important initiative is crucial to ensuring the best possible 
outcomes for the Nephrotic Syndrome Rare Disease Clinical Research 
Network occur.
    NCF is also grateful to the NIDDK for issuing of a program 
announcement (PA) that serves to initiate grant proposals on glomerular 
disease The PA, issued in March of 2006, is glomerular-disease 
specific. The announcement will utilize the R01 mechanism to award 
researchers funding.
    We ask the subcommittee to encourage the ORD to support the 
Nephrotic Syndrome Rare Disease Clinical Research Network to expand 
FSGS research. We also ask the NIDDK to continue to issue glomerular 
disease program announcements.

              TOO LITTLE EDUCATION ABOUT A GROWING PROBLEM

    When glomerular disease strikes, the resulting NS causes a loss of 
protein in the urine and edema. The edema often manifests itself as 
puffy eyelids, a symptom that many parents and physicians mistake as 
allergies. With experts projecting a substantial increase in nephrotic 
syndrome in the coming years, there is a clear need to educate 
pediatricians and family physicians about glomerular disease and its 
symptoms.
    We also applaud the work of the NIDDK in establishing the National 
Kidney Disease Education Program (NKDEP), and we seek your support in 
urging the NIDDK to make sure that glomerular disease remains a focus 
of the NKDEP.
    We ask the subcommittee to encourage the NIDDK to have glomerular 
disease receive high visibility in its education and outreach efforts, 
and to continue these efforts in conjunction with NCF's work. These 
efforts should be targeted towards both physicians and patients.

            GLOMERULAR DISEASE STRIKES MINORITY POPULATIONS

    Nephrologists tell us that glomerular disease strikes a 
disproportionate number of African Americans. No one knows why this is, 
but some studies have suggested that a genetic sensitivity to sodium 
may be partly responsible. DNA studies of African Americans who suffer 
from FSGS may lead to insights that would benefit the thousands of 
African Americans who suffer from kidney disease.
    I ask that the NIH pay special attention to why this disease 
affects African Americans to such a large degree. NCF wishes to work 
with the NIDDK and the National Center for Minority Health and Health 
Disparities (NCMHD) to encourage the creation of programs to study the 
high incidence of glomerular disease within the African-American 
population.
    There is also evidence to suggest that the incidence of glomerular 
disease is higher among Hispanic Americans than in the general 
population. An article in the February 2006 edition of the NIDDK 
publication Recent Advances and Emerging Opportunities, discussed the 
case of Frankie Cervantes, a 6-year-old boy of Mexican and Panamanian 
descent. Frankie has FSGS received a transplanted kidney from his 
mother. We applaud the NIDDK for highlighting FSGS in their 
publication, and for translating the article about Frankie into both 
English and Spanish. Only through similar efforts at cross-cultural 
education can the African-American and Hispanic-American communities 
learn more about glomerular disease.
    We ask the subcommittee to join with us in urging the NIDDK and 
NCMHD to collaborate on research that studies the incidence and cause 
of this disease among minority populations. We also ask that the NIDDK 
and the NCMHD undertake culturally appropriate efforts aimed at 
educating minority populations about glomerular disease.

                      PATIENT REGISTRY AND BIOBANK

    Experts currently believe glomerular disease is increasing in 
frequency and it is often misdiagnosed or undetected and, as a result, 
is often unreported. Since many cases of glomerular disease are 
unreported, it is difficult to ascertain different aspects of the 
disease and to form more comprehensive data sets on the patient 
population. While databases and registries have helped defeat other 
diseases, one does not exist for FSGS.
    The development of a biobank would be beneficial in understanding 
the genetic components of glomerular disease and their corresponding 
interactions with environmental factors.
    We ask the subcommittee to support the funding of the first-ever 
national database/registry for FSGS within NIDDK. Experts say that the 
incidence of FSGS is increasing and that the disease is often 
misdiagnosed, undetected, or unrecorded. We also ask the subcommittee 
support the development of a biobank as a further means of 
understanding the causes of FSGS, both genetic and environmental.
                                 ______
                                 
Prepared Statement of the National Federation of Community Broadcasters

    Thank you for the opportunity to submit testimony to this 
subcommittee regarding the appropriation for the Corporation for Public 
Broadcasting (CPB). As the President and CEO of the National Federation 
of Community Broadcasters (NFCB), I speak on behalf of 250 community 
radio stations and related individuals and organizations across the 
country. Nearly half our members are rural stations and half are 
controlled by people of color. In addition, our members include many 
Low Power FM stations that are putting new local voices on the 
airwaves. NFCB is the sole national organization representing this 
group of stations which provide independent, local service in the 
smallest communities of this country as well as the largest 
metropolitan areas.
    In summary, the points we wish to make to this subcommittee are 
that NFCB:
  --Requests $542 million in funding for CPB for fiscal year 2012;
  --Supports a $307 million supplemental appropriation in fiscal year 
        2010 to ensure that public broadcasting is not lost to any 
        parts of the country because of the economic crisis;
  --Requests $40 million in fiscal year 2010 for conversion of public 
        radio and television to digital broadcasting;
  --Requests $27 million in fiscal year 2010 for replacement of the 
        radio interconnection system;
  --Requests that advance funding for CPB is maintained to preserve 
        journalistic integrity and facilitate planning and local 
        fundraising by public broadcasters;
  --Supports CPB activities in facilitating programming and services to 
        Native American, African-American, and Latino radio stations;
  --Supports CPB's efforts to help public radio stations utilize new 
        distribution technologies and requests that the subcommittee 
        ensure that these technologies are available to all public 
        radio services and not just the ones with the greatest 
        resources.
    Community Radio fully supports the appropriation of $542 million in 
Federal funding for the Corporation for Public Broadcasting in fiscal 
year 2012. Federal support distributed through CPB is an essential 
resource for rural stations and for those serving communities of color. 
These stations provide critical, life-saving information to their 
listeners and are often in communities with very small populations and 
limited economic bases, thus the community is unable to financially 
support the station without Federal funds. For example, these stations 
offer programming in languages other than English or Spanish, they can 
offer emergency information targeted for a particular geographic area, 
and can offer in-depth programming on public health issues.
    In larger towns and cities, sustaining grants from CPB enable 
community radio stations to provide a reliable source of noncommercial 
programming about the communities themselves. Local programming is an 
increasingly rare commodity in a Nation that is dominated by national 
program services and concentrated ownership of the media. Federal 
funding allows an alternative to exist in these larger markets. And 
with large newspaper shedding journalists, local community radio may be 
one of the only outlets able to pick up the slack in coverage of local 
political matters.
    For more than 30 years, CPB appropriations have been enacted 2 
years in advance. This insulation has allowed pubic broadcasting to 
grow into a respected, independent, national resource that leverages 
its Federal support with significant local funds. Knowing what funding 
will be available in advance has allowed local stations to plan for 
programming and community service and to explore additional 
nongovernmental support to augment the Federal funds. Most important, 
the insulation that advance funding provides ``go[es] a long way toward 
eliminating both the risk of and the appearance of undue interference 
with and control of public broadcasting.'' (House Report 94-245.)
    For the past few years, CPB has increased support to rural stations 
and committed resources to help public radio take advantage of new 
technologies such as the Internet, satellite radio, and digital 
broadcasting. We support these new technologies we can better serve the 
American people, but want to ensure that smaller stations with more 
limited resources are not left behind in this technological transition. 
We ask that the subcommittee include language in the appropriation that 
will ensure that funds are available to help the entire public radio 
system, particularly rural and minority stations, utilize new 
technology.
    NFCB commends CPB for the leadership it has shown in supporting and 
fostering programming services to Latino stations and Native American 
stations. For example, Satelite Radio Bilingue provides 24 hours of 
programming to stations across the United States and Puerto Rico 
addressing issues of particular interest to the Latino population in 
Spanish and English. At the same time, Native Voice One (NV1) is 
distributing politically and culturally relevant programming to Native 
American stations. There are now more than 33 stations in the United 
States controlled by and serving Native Americans.
    Five years ago, CPB funded the establishment of the Center for 
Native American Public Radio (CNAPR). After 4 years in operation, CNAPR 
has assisted with the renewal of licenses and expansion of the 
interconnection system to all Native stations and has advanced the 
opportunity for native nations to own their own, locally controlled 
station. In the process of this work, it was recognized that radio 
would not be available to all native nations and broadband and other 
new technologies would be necessary. CNAPR has been repositioned as 
Native Public Media (NPM) and is working hard to double the number of 
native stations within the next 3 years. These stations are critical in 
serving local, isolated communities (all but one are on Indian 
Reservations) and in preserving cultures that are in danger of being 
lost. CPB's 2003 assessment recognized that ``. . . Native Radio faces 
enormous challenges and operates in very difficult environments.'' CPB 
funding is critical to these rural, minority stations. The funding of 
the Intertribal Native Radio Summit by CPB in 2001 helped to gather 
these isolated stations together into a system of stations that can 
support one another. The CPB assessment goes on to say ``Nevertheless, 
the Native Radio system is relatively new, fragile and still needs help 
building its capacity at this time in its development.'' NPM promises 
to leverage additional new funding to ensure that these stations 
continue providing essential services to their communities.
    CPB also funded a Summit for Latino Public Radio which took place 
in September 2002 in Rohnert Park, California, home of the first Latino 
public radio station. This year, CPB has provided funding to the Latino 
Public Radio Consortium to develop a strategic plan and business model 
to expand the service of public radio to the Latino population. The 
Latino population is growing in this country and requires news services 
geared toward them in order to fully participate in civic life. 
Hispanics were 12.5 percent of the population in 2000, by 2007 they 
were 15 percent, and the number is only growing.\1\
---------------------------------------------------------------------------
    \1\ Pew Hispanic Center, Statistical Portrait of Hispanics in the 
United States, 2007.
---------------------------------------------------------------------------
    CPB plays an extremely important role in the public and Community 
radio system: They convene discussions on critical issues facing us as 
a system. They support research so that we have a better understanding 
of how we are serving listeners. And, they provide funding for 
programming, new ventures, expansion to new audiences, and projects 
that improve the efficiency of the system. This is particularly 
important at a time when there are so many changes in the radio and 
media environment with media consolidation and new distribution 
technologies.
    Community radio supports a $307 million supplemental appropriation 
in fiscal year 2010 to ensure that public broadcasting is not lost to 
any parts of the country because of the economic crisis. Public 
Broadcasting is requesting a one-time investment of Federal resources 
to help stations maintain local service and assist their communities 
cope with the economic crisis and to assure continuity of public 
broadcasting service to the American people. Financial contributions 
from corporations, foundations, institutions are down dramatically and 
listeners contributions, the main source of funding for Community radio 
are beginning to be impacted by the growing unemployment. Community 
stations are critical sources of local information and it is essential 
that they be able to continue to provide their unique local service.
    Community radio supports $40 million in fiscal year 2010 for the 
conversion to digital broadcasting by public radio and television. 
While public television's digital conversion needs are mandated by the 
FCC, public radio is converting to digital to provide more public 
service and to keep up with commercial radio. The Federal 
Communications Commission has approved a standard for digital radio 
transmission that will allow multicasting. CPB has provided funding for 
more than 650 radio transmitters to convert to digital. Of those, 160 
are multicasting two or more streams of programming. The development of 
second and third audio channels will potentially double or triple the 
service that public radio can provide listeners, particularly in un-
served and underserved communities. However, this initial funding still 
leaves nearly 200 radio transmitters that must ultimately convert to 
digital or become obsolete.
    Community radio strongly supports $27 million in fiscal year 2009 
for the public radio interconnection system. Public radio pioneered the 
use of satellite technology to distribute programming. The Public Radio 
Satellite System's recently launched ContentDepot continues this 
tradition of cutting edge technology. Satellite capacity supporting it 
must be renewed and upgrades are necessary at the station and network 
operations levels. Interconnection is vital to the delivery of the 
high-quality programming that public broadcasting provides to the 
American people. This is the last year of a 3-year request for $80 
million to the complete the project.
    We are in a period of tremendous change. ``Radio is well on its way 
to becoming something altogether new--a medium called audio.'' \2\ The 
digital movement is transforming the way we do things; new distribution 
avenues like digital satellite broadcasting and the Internet are 
changing how we define our business; and, the concentration of 
ownership in commercial radio makes public radio in general, and 
Community radio in particular, more important as a local voice than we 
have ever been. New Low Power FM stations are providing local voices in 
their communities an avenue of expression, and many new community 
stations will be going on the air within the next few years. Community 
radio is providing essential local emergency information, programming 
about the local impact of major global events taking place, and 
culturally relevant information and entertainment in native languages, 
as well as helping to preserve cultures that are in danger of dying 
out. During the natural disasters of recent years, radio proved once 
again that it is the most dependable and available medium for getting 
emergency information to the public.
---------------------------------------------------------------------------
    \2\ The State of the News Media, Pew Project for Excellence in 
Journalism, 2008.
---------------------------------------------------------------------------
    During these challenging times, the role of CPB as a convener of 
the system becomes even more important. The funding that it provides 
will allow smaller stations to participate alongside larger stations 
that have more resources as we move into a new era of communications.
                                 ______
                                 
        Prepared Statement of the National Fragile X Foundation

    Mr. Chairman and members of the subcommittee: As President of the 
Board of Directors for the National Fragile X Foundation, I want to 
take this opportunity to thank you for the leadership role this 
subcommittee has played over the years in the fight for Fragile X-
associated Disorders. I am pleased to offer the following written 
testimony regarding appropriation requests in fiscal year 2010.
    Fragile X-associated Disorders are genetic disorders that cause 
behavioral, developmental, and language disabilities across a person's 
lifespan. It is linked to a mutation on the X chromosome, and is the 
most commonly inherited form of intellectual disabilities. Fragile X is 
also linked to reproductive problems in women including early menopause 
Fragile X-associated primary ovarian insufficiency (FXPOI) and, a 
Parkinson's-like condition in older male carriers Fragile X-associated 
tremor/ataxia syndrome (FXTAS). More than 100,000 Americans have 
Fragile X Syndrome and more than 1 million Americans carry a Fragile X 
mutation and either have, or are at risk for developing a Fragile X-
associated disorder.
    These appropriations requests are significant in order to continue 
to build the infrastructure needed and assure continued progress toward 
targeted treatments for Fragile X-associated Disorders. The National 
Fragile X Foundation has invested significantly in the creation of the 
Fragile X Clinical & Research Consortium, a network of 20 clinics 
across the country who collaborate to align data collection efforts, 
participate in clinical trials of new pharmacological agents, share 
research findings and develop consistent best practices and standards 
of care for the treatment of Fragile X-associated Disorders.
    In addition, these appropriations requests would assist in building 
upon important work already initiated by the Federal Government. We 
have been successful at building programs at the Centers for Disease 
Control and Prevention (CDC), National Institutes of Health (NIH), and 
Health Resources and Services Administration (HRSA). The CDC has 
recognized the value of this important collaboration, and has provided 
resources to ensure the continued growth and evolution of the Fragile X 
Clinical & Research Consortium. Previously, the CDC had secured nearly 
$4.5 million in funding since fiscal year 2005 for the CDC Fragile X 
National Public Health Initiative. The program is currently funded at 
just more than $1.8 million annually. Furthermore, the CDC has worked 
with Congress to define the highest impact public health priorities for 
the Fragile X community. These efforts led to:
  --Development of a newborn screening test for fragile X syndrome;
  --Single gene resource network for fragile X syndrome;
  --Fragile X syndrome cascade testing and genetic counseling 
        protocols;
  --Fragile X Family Needs Assessment; and
  --Support for the Fragile X Clinical & Research Consortium.
    Moreover, public efforts, including three National Institute of 
Child Health and Human Development (NICHD)-funded Fragile X Research 
Centers, has proven critically important in the development of 
effective treatments. The development of key therapeutics for Fragile X 
will likely be effective for a much larger population living with 
related autism spectrum disorders. We recognize that in order to 
translate basic science findings into viable treatments for Fragile X, 
additional coordination and resources are required at the NIH.
    The Fragile X community has been working to promote the work of NIH 
to ensure improved coordination among the various Institutes to ensure 
the most effective use of Federal research dollars devoted to Fragile 
X-associated Disorders (i.e., Fragile X Syndrome, Fragile X-associated 
Tremor/Ataxia Syndrome, and Fragile X-associated Primary Ovarian 
Insufficiency). Congress has advocated for greater resources at NIH 
leading to an increase in NIH Fragile X-associated Disorders efforts 
from approximately $12 million annually in 2001 to approximately $27 
million in fiscal year 2009. With this increase, NIH recently awarded 
the largest Fragile X Federal research grant in history, a 5-year, 
$21.8 million grant to a team of researchers at the UC Davis School of 
Medicine and M.I.N.D. Institute.
    As you know, the fiscal year 2008 Departments of Labor, Health and 
Human Services, and Education, and Related Agencies Appropriations Act 
included language directing the NIH, under the leadership of the NICHD 
(Senate Report 110-107) to coordinate, intensify, and expedite research 
efforts related to Fragile X-associated Disorders. The law specifically 
directed the NIH to convene a scientific session in 2008 to develop 
pathways to new opportunities for collaborative, directed research 
across Institutes, and to produce a blueprint of coordinated research 
strategies and public-private partnership opportunities for Fragile X. 
The NICHD was directed to lead this initiative and was urged to 
collaborate with the three existing federally funded Centers of 
Excellence as well as the Fragile X Clinical & Research Consortium.
    In response to this directive, NICHD leadership convened a 2-day 
scientific session and created a rigorous working group infrastructure 
consisting of the world's leading researchers and NIH staff to ensure 
timely development of the NIH Research Blueprint on Fragile-X 
associated disorders. The leadership team at NICHD and three working 
groups prepared a comprehensive blueprint that will provide a clear 
direction for future research activities for Fragile-X associated 
disorders. The final draft of this report was completed in late 2008, 
and will be published by NIH this week.
    Mr. Chairman, we respectfully request Congress to continue its 
support of these ongoing initiatives, and to support increased 
prioritization of Fragile X-associated Disorders at the CDC and NIH in 
order to accelerate the critical work being accomplished through the 
Fragile X Clinical & Research Consortium.
    The National Fragile X Foundation recommends that you appropriate 
the following fiscal year 2010 requests:
  --A $2 million increase in funding from fiscal year 2009 levels, for 
        the National Fragile X Public Health Initiative and other CDC 
        initiatives to:
    --Focus efforts on identifying ongoing needs, effective treatments, 
            and positive outcomes for families by increasing 
            epidemiological research, surveillance, screening efforts, 
            and the introduction of early interventions and supports 
            for individuals living with Fragile X-associated Disorders.
    --Focus on the continued growth and development of initiatives that 
            support health promotion activities and foster rapid, high-
            impact translational research practice for the successful 
            treatment Fragile X-associated Disorders, including ongoing 
            collaborative activities with the Fragile X Clinical & 
            Research Consortium.
  --Report language and increased resources for Fragile X at the NIH 
        to:
    --Support continued implementation of the recommendations outlined 
            in the NIH Fragile X-associated Disorders Research 
            Blueprint as well as increased NIH support for the Fragile 
            X Clinical & Research Consortium.
    --Enhance its efforts across its Institutes to translate basic 
            science findings into viable treatments for Fragile X, and 
            encourage clinical drug trials for this orphan indication.
    --Maximize Fragile X resources by ensuring that appropriate 
            resources and direction is provided to implement the 
            objectives outlined in the Fragile X Research Blueprint.
    --Strengthen and broaden research on Fragile X- associated 
            disorders (i.e., FXTAS and FXPOI).
    Furthermore, as part of our overall to increase support and 
prioritization of Fragile X-associated Disorders at the Federal level, 
the Fragile X community is also working with the Defense Subcommittee 
on Appropriations to include Fragile X-associated Disorders among the 
list of eligible healthcare conditions for targeted biomedical research 
funding through the U.S. Department of Defense. The success from all of 
these intense public and private research efforts, including the NIH 
and CDC, has brought discoveries to bear for Fragile X-associated 
Disorders. However, we feel continued expansion of Federal efforts and 
resources at each of these agencies will be instrumental to conduct 
promising research on Fragile X-associated Disorders.
    Mr. Chairman, thank you for your time and attention. We, at the 
National Fragile X Foundation, believe that continued awareness and 
support for enhancing Fragile X research and translational activities 
is imperative. Given the significant impact this condition has on 
families and communities across the country, the promise of a 
breakthrough for the treatment and cure of this disease is urgent. 
Should you have any questions or require additional information, please 
feel free to call on me.
                                 ______
                                 
Prepared Statement of the National Health Care for the Homeless Council

    The National Health Care for the Homeless Council respectfully asks 
the Senate Committee on Appropriations to strengthen and expand the 
Nation's health centers by appropriating $2.9 billion for the 
Consolidated Health Centers Program in fiscal year 2010.
    The National Health Care for the Homeless Council is a membership 
organization engaged in education and advocacy to improve healthcare 
for homeless persons and all Americans. We represent 111 organizational 
members, including 100 Health Care for the Homeless (HCH) projects, and 
more than 700 individuals who provide care to people experiencing 
homelessness throughout the country.
    Homelessness and Health.--Poverty, lack of affordable housing, and 
the lack of comprehensive health insurance are among the underlying 
structural causes of homelessness. For those struggling to pay for 
housing and other basic needs, the onset of a serious illness or 
disability easily can result in homelessness following the depletion of 
financial resources. The experience of homelessness causes poor health, 
and poor health is exacerbated by restricted access to appropriate 
healthcare--which only prolongs homelessness. Additional barriers to 
healthcare access include lack of transportation, inflexible clinic 
hours, complex requirements to qualify for public health insurance, and 
mandatory unaffordable co-payments for various services.
    Mainstream healthcare safety net providers often fail to meet the 
needs of homeless people. In the absence of universal healthcare, the 
Federal Government supports a separate healthcare system for low-income 
and uninsured people. Community Health Centers and publicly funded 
mental health and addictions programs form the core of this healthcare 
safety net. Unfortunately, limited resources, lack of experience with 
this population, and insufficient linkages to a full range of health 
and supportive services seriously restrict the ability of mainstream 
providers to meet the unique needs of people experiencing homelessness.
    The Federal Health Care for the Homeless Program--administered by 
the Health Resources and Services Administration (HRSA)--currently 
supports 205 HCH projects in all 50 States, the District of Columbia, 
and Puerto Rico. Congress established HCH in 1987 to provide targeted 
services for people experiencing homelessness, including primary and 
behavioral healthcare along with social services, as well as intensive 
outreach and case management to link clients with appropriate 
resources. Approximately 70 percent of those served by HCH projects 
lack comprehensive health insurance. The HCH program has been 
reauthorized three times, most recently in 2008 with passage of the 
Health Care Safety Net Act. HCH projects served 742,588 in 2007--a 
sizable number, but far below the 3.5 million Americans who annually 
experience homelessness. Authorizing language designates 8.7 percent of 
the total Health Center appropriation to support the HCH program.
    Community Health Centers.--Over the past several years, the 
expansion of community health centers has received bipartisan support 
from Members of Congress. Federally-Qualified Health Centers (FQHCs) 
consistently have proven their effectiveness in delivering 
comprehensive medical care to underserved populations. Though health 
centers currently serve more than 16 million people annually, at least 
56 million Americans--both insured and uninsured--face inadequate 
access to primary care due to a shortage of physicians and other 
providers. Without sufficient access to care, the health problems of 
the insured and underinsured are exacerbated, resulting in costly 
treatment, medical complications, and even premature death.
    Within the current economic context, a massive unmet need remains 
for health center resources despite years of incremental expansion 
through the Health Center Growth Initiative. The deteriorating economy 
leaves more Americans unemployed, at risk of homelessness, and in need 
of health services. According to the Department of Labor, unemployment 
jumped to 8.5 percent in March 2009, the highest in 14 years. With 
continued increases in unemployment, more Americans are expected to 
lose health coverage, thus placing additional burden upon community 
health centers.
    Fiscal Year 2010 Appropriations.--In recognition of the growing 
need for primary healthcare services, the Senate Committee on 
Appropriations along with other Members of Congress has been supportive 
of strengthening and expanding community health centers. In the current 
year, Congress appropriated $2.2 billion--$125 million above the fiscal 
year 2008 appropriation. This included $56 million in base grant 
adjustments and provided a total of $191 million (8.7 percent) for the 
HCH program.
    To continue strengthening the Nation's health center 
infrastructure, we encourage the Senate Committee on Appropriations 
Subcommittee on Labor, Health and Human Services, and Education, and 
Related Agencies to appropriate $2.9 billion for the Community Health 
Center program (including $252 million for the HCH program) in fiscal 
year 2010. The National Council's request is consistent with planned 
increases outlined in the Access for All America Act (S. 486). This 
important legislation, introduced by Senator Bernie Sanders, would 
quadruple the amount of funding for community health centers over the 
next 5 years.
    The National Council applauds Congress for its strong support of 
community health centers. We thank Chairman Harkin and the Senate 
Committee on Appropriations Subcommittee on Labor, Health and Human 
Service, and Education, and Related Agencies for your consideration of 
this testimony.
                                 ______
                                 
          Prepared Statement of the National Marfan Foundation

    Mr. Chairman, thank you for the opportunity to submit testimony 
regarding the fiscal year 2010 budget for the National Heart, Lung and 
Blood Institute (NHLBI), the National Institute of Arthritis, 
Musculoskeletal and Skin Diseases (NIAMS), and the Centers for Disease 
Control and Prevention (CDC). The National Marfan Foundation is 
grateful to you and the subcommittee for your strong support of the 
National Institutes of Health and CDC, particularly as it relates to 
life-threatening genetic disorders such as Marfan syndrome. Thanks in 
part to your leadership we are at a time of unprecedented hope for our 
patients.
    It is estimated that 200,000 people in the United States are 
affected by Marfan syndrome or a related condition. Marfan syndrome is 
a genetic disorder of the connective tissue that can affect many areas 
of the body, including the heart, eyes, skeleton, lungs, and blood 
vessels. It is progressive condition and can cause deterioration in 
each of these body systems. The most serious and life-threatening 
aspect of the syndrome is a weakening of the aorta. The aorta is the 
largest artery carrying oxygenated blood from the heart. Over time, 
many Marfan syndrome patients experience a dramatic weakening of the 
aorta which can cause the vessel to dissect and tear.
    Early surgical intervention can prevent a dissection and strengthen 
the aorta and the aortic valves. If preventive surgery is performed 
before a dissection occurs, the success rate of the procedure is more 
than 95 percent. If surgery is initiated after a dissection has 
occurred, the success rate drops below 50 percent. Aortic dissection is 
a leading killer in the United States, and 20 percent of the people it 
affects have a genetic predisposition, like Marfan syndrome, to 
developing the complication.
    Fortunately, new research offers hope that a commonly prescribed 
blood pressure medication might be effective in preventing this 
frequent and devastating event.

                                 NHLBI

Pediatric Heart Network Clinical Trial
    NMF applauds NHLBI for its leadership in advancing a landmark 
clinical trail on Marfan syndrome. Under the direction of Dr. Lynn 
Mahoney and Dr. Gail Pearson, the Institute's Pediatric Heart Network 
has spearheaded a multicenter study focused on the potential benefits 
of a commonly prescribed blood pressure medication (losartan) on aortic 
growth in Marfan syndrome patients.
    NHLBI Director Dr. Elizabeth Nabel describes this promising 
research well:

    ``After the discovery that Marfan syndrome is associated with the 
mutation in the gene encoding a protein called fibrillin-1, researchers 
tried for many years, without success, to develop treatment strategies 
that involved repair of replacement of fibrillin-1. Then a major 
breakthrough occurred with the discovery that one of the functions of 
fibrillin-1 is to bind to another protein, TGF-beta, and regulate its 
effects. After careful analysis revealed aberrant TGF-beta activity in 
patients with Marfan syndrome, researchers began to concentrate on 
treating Marfan syndrome by normalizing the activity of TGF-beta. 
Losartan, which is known to affect TGF-beta activity, was tested in a 
mouse model of Marfan syndrome and the results showed that drug was 
remarkably effective in blocking the development of aortic aneurysms, 
as well as lung defects associated with the syndrome.
    Based on this promising finding, the NHLBI Pediatric Heart Network, 
has undertaken a clinical trial of losartan in patients with Marfan 
syndrome. About 600 patients aged 6 months to 25 years will be enrolled 
and followed for 3 years. This development illustrates the outstanding 
value of basic science discoveries, and identifying new directions for 
clinical applications. Moreover, the ability to organize and initiate a 
clinical trial within months of such a discovery is testimony to 
effectiveness of the NHLBI Network in providing the infrastructure and 
expertise to capitalize on new findings as they emerge.''

    Dr. Hal Dietz, the Victor A. McKusick Professor of Genetics in the 
McKusick-Nathans Institute of Genetic Medicine at the Johns Hopkins 
University School of Medicine, and the director of the William S. 
Smilow Center for Marfan Syndrome Research, is the driving force behind 
this groundbreaking research. Dr. Dietz uncovered the role that 
fibrillin-1 and TGF-beta play in aortic enlargement, and demonstrated 
the benefits of losartan in halting aortic growth in mice. He is the 
reason we have reached this time of such promise and NMF is proud to 
have supported Dr. Dietz's cutting-edge research for many years.
    NMF is also proud to actively support the losartan clinical trial 
in partnership with the Pediatric Heart Network. Throughout the life of 
the trial we will provide support for patient travel costs, coverage of 
select echocardiogram examinations, and funding for ancillary studies. 
These ancillary studies will explore the impact that losartan has on 
other manifestations of Marfan syndrome.
NHLBI ``Working Group on Research in Marfan Syndrome and Related 
        Conditions''
    In April 2007, NHLBI convened a ``Working Group on Research in 
Marfan Syndrome and Related Conditions.'' Chaired by Dr. Dietz, this 
panel was comprised of experts in all aspects of basic and clinical 
science related to the disorder. The panel was charged with identifying 
key recommendations for advancing the field of research in the coming 
decade. The recommendations of the Working Group are as follows:

    ``Scientific opportunities to advance this field are conferred by 
technological advances in gene discovery, the ability to dissect 
cellular processes at the molecular level and imaging, and the 
establishment of multi-disciplinary teams. The barriers to progress are 
addressed through the following recommendations, which are also 
consistent with Goals and Challenges in the NHLBI Strategic Plan.
  --Existing registries should be expanded or new registries developed 
        to define the presentation, natural history, and clinical 
        history of aneurysm syndromes.
  --Biological and aortic tissue sample collection should be 
        incorporated into every clinical research program on Marfan 
        syndrome and related disorders and funds should be provided to 
        ensure that this occurs. Such resources, once established, 
        should be widely shared among investigators.
  --An Aortic Aneurysm Clinical Trials Network (ACTnet) should be 
        developed to test both surgical and medical therapies in 
        patients with thoracic aortic aneurysms. Partnership in this 
        effort should be sought with industry, academic organizations, 
        foundations, and other governmental entities.
  --The identification of novel therapeutic targets and biomarkers 
        should be facilitated by the development of genetically defined 
        animal models and the expanded use of genomic, proteomic, and 
        functional analyses. There is a specific need to understand 
        cellular pathways that are altered leading to aneurysms and 
        dissections, and to develop robust in vivo reporter assays to 
        monitor TGFb and other cellular signaling cascades.
  --The developmental underpinnings of apparently acquired phenotypes 
        should be explored. This effort will be facilitated by the 
        dedicated analysis of both prenatal and early postnatal tissues 
        in genetically defined animal models and through the expanded 
        availability to researchers of surgical specimens from affected 
        children and young adults.''

    We look forward to working closely with NHLBI to pursue these 
important research goals and ask the subcommittee to support the 
recommendations of the Working Group. Mr. Chairman, for fiscal year 
2010 NMF joins with other professional and patient organizations in 
recommending a 7 percent for NHLBI.

                                 NIAMS

    NMF is proud of its longstanding partnership with NIAMS. Dr. Steven 
Katz has been a strong proponent of basic research on Marfan syndrome 
during his tenure as NIAMS Director and has generously supported 
several ``Conferences on Heritable Disorders of Connective Tissue.'' 
Moreover, the Institute has provided invaluable support for Dr. Dietz's 
mouse model studies. The discoveries of fibrillin-1, TGF-beta, and 
their role in muscle regeneration and connective tissue function were 
made possible in part through collaboration with NIAMS.
    As the losartan clinical trail moves forward, we hope to expand our 
partnership with NIAMS to support related studies that fall under the 
mission and jurisdiction of the Institute. One of the areas of great 
interest to researchers and patients is the role that losartan may play 
in strengthening muscle tissue in Marfan patients. We would welcome an 
opportunity to partner with NIAMS in support of this research moving 
forward.
    For fiscal year 2010, NMF recommends a 7 percent increase for 
NIAMS.

                                  CDC

    Mr. Chairman, we are grateful for the subcommittee's encouragement 
in recent years of collaboration between CDC and the Marfan syndrome 
community. One of the most important things we can do to prevent 
untimely deaths from aortic aneurysms is to increase awareness of 
Marfan syndrome and related connective tissue disorders.
    Despite our ongoing efforts to raise awareness among the general 
public and healthcare providers, we know of too many families who have 
lost a loved one because of a missed diagnosis.
    We are very appreciative of CDC's support of our 25th annual 
patient conference taking place in Rochester, Minnesota August 6-9, 
2009. We have also discussed other potential collaborations with the 
National Center on Birth Defects and Development Disabilities focused 
on education and early diagnosis. We ask the subcommittee to continue 
to encourage CDC to work with us to initiate these activities in fiscal 
year 2010.
    For fiscal year 2010, NMF joins with the CDC Coalition in 
recommending an appropriation of $8.6 billion for core CDC programs.
                                 ______
                                 
  Prepared Statement of the National Network to End Domestic Violence

    Chairman Harkin, Ranking Member Cochran, and members of the 
subcommittee, thank you for the opportunity to submit written testimony 
to the Labor, Health and Human Services, and Education, an Related 
Agencies (LHHS) Appropriations Subcommittee. We are grateful to the 
subcommittee for your continued leadership and your investment in 
lifesaving programs that prevent and end domestic violence.
    The National Network to End Domestic Violence (NNEDV) is a 
membership and advocacy organization representing the 56 State and U.S. 
territory domestic violence coalitions. NNEDV provides a national voice 
for the coalitions, their more than 2,000 local domestic violence 
member programs, and the millions of domestic violence survivors who 
turn to them for services. In their work with victims and their 
families, our members see the impact that abuse and violence have on 
the lives of children who are vulnerable both as witnesses to violence 
and as victims themselves.
    Over the last 25 years, millions of victims have found refuge and 
safety through domestic violence programs funded by the Family Violence 
Prevention and Services Act (FVPSA). The success of this LHHS-funded 
program, however, is threatened by budget stagnation and an increasing 
demand for services. Small budget increases, while appreciated, simply 
cannot meet the desperate needs of victims. Now, more than ever, we 
need to increase our country's investment in this vital, cost-effective 
program. Increases to FVPSA funding will help bridge the unconscionable 
gap created by an increased demand and inadequate funding. On behalf of 
the millions of victims and families that our member programs serve 
each year, we urge you to fully fund the FVPSA/Battered Women's Shelter 
Services program (FVPSA) at $175 million, the National Domestic 
Violence Hotline at $3.5 million, and the Community Initiatives to 
Prevent Abuse (DELTA) program at $6 million in the fiscal year 2010 
congressional budget.

                           DOMESTIC VIOLENCE

    Domestic violence is pervasive and life-threatening. According to 
the 2005 Bureau of Justice Statistics' Family Violence Statistics, of 
the total victims of violence between 1998 and 2002, 11 percent were 
victims of family violence.\1\ One in four women has been beaten or 
raped by a husband, boyfriend, or partner in her lifetime.\2\ In 2005 
alone, 1,181 women were murdered by an intimate partner in the United 
States \3\ and approximately one-third of all female murder victims are 
killed by an intimate partner.\4\
---------------------------------------------------------------------------
    \1\ U.S. Department of Justice, Bureau of Justice Statistics, 
Family Violence Statistics: Including Statistics on Strangers and 
Acquaintances, June 2005.
    \2\ Tjaden, Patricia & Thoennes, Nancy. National Institute of 
Justice and the Centers of Disease Control and Prevention, ``Extent, 
Nature and Consequences of Intimate Partner Violence: Findings from the 
National Violence Against Women Survey,'' 2000. The Centers for Disease 
Control (CDC) (2008). Adverse Health Conditions and Health Risk 
Behaviors Associated with Intimate Partner Violence, United States, 
2005.
    \3\ Bureau of Justice Statistics, Homicide Trends in the U.S. from 
1976-2005. US Department of Justice. (2008).
    \4\ Bureau of Justice Statistics, Homicide Trends from 1976-1999. 
U.S. Department of Justice. (2001)
---------------------------------------------------------------------------
    The cycle of intergenerational violence is perpetuated as children 
witness violence. It is estimated that a staggering 15.5 million 
children are exposed to domestic violence every year.\5\ Children who 
are exposed to domestic violence are more likely to exhibit behavioral 
and physical health problems including depression, anxiety, and 
violence towards peers.\6\ They are also more likely to attempt 
suicide, abuse drugs and alcohol, run away from home, engage in teenage 
prostitution, and perpetrate sexual assault.\7\ One study found that 
men exposed to physical abuse, sexual abuse, and adult domestic 
violence as children were almost four times more likely than other men 
to have perpetrated domestic violence as adults.\8\
---------------------------------------------------------------------------
    \5\ McDonald, R., et al. (2006). ``Estimating the Number of 
American Children Living in Partner-Violence Families.'' Journal of 
Family Psychology, 30(1), 137-142.
    \6\ Jaffe, P. and Sudermann, M., ``Child Witness of Women Abuse: 
Research and Community Responses,'' in Stith, S. and Straus, M., 
Understanding Partner Violence: Prevalence, Causes, Consequences, and 
Solutions. Families in Focus Services, Vol. II. Minneapolis, MN: 
National Council on Family Relations, 1995.
    \7\ Wolfe, D.A., Wekerle, C., Reitzel, D. and Gough, R., 
``Strategies to Address Violence in the Lives of High Risk Youth.'' In 
Peled, E., Jaffe, P.G. and Edleson, J.L. (eds.), Ending the Cycle of 
Violence: Community Responses to Children of Battered Women. New York: 
Sage Publications. 1995.
    \8\ Greendfeld, L. A. (1997). Sex Offences and Offenders: An 
Analysis of Date on Rape and Sexual Assault. Washington, DC. Bureau of 
Justice Statistics, U.S. Department of Justice.
---------------------------------------------------------------------------
    Domestic violence is not just a crime; it is a public health crisis 
that leads to chronic health conditions, disabilities, lost work time, 
frequent trips to the emergency room and, all too often, serious injury 
or death.
    In addition to the terrible cost domestic and sexual violence have 
on the lives of individual victims and their families, these crimes 
cost taxpayers and communities. In fact, the cost of intimate partner 
violence exceeds $5.8 billion each year, $4.1 billion of which is for 
direct medical and mental healthcare services.\9\ Research shows that 
for every 100,000 women between 18 and 64 enrolled, intimate partner 
violence costs a health insurance plan $19.3 million each year.\10\ 
Domestic violence costs U.S. employers an estimated $3 to $13 billion 
annually.\11\
---------------------------------------------------------------------------
    \9\ National Center for Injury Prevention and Control. Costs of 
Intimate Partner Violence Against Women in the United States. Atlanta 
(GA): Centers for Disease Control and Prevention; 2003.
    \10\ Ibid.
    \11\ Bureau of National Affairs Special Rep. No. 32, Violence and 
Stress: The Work/Family Connection 2 (1990); Joan Zorza, Women 
Battering: High Costs and the State of the Law, Clearinghouse Rev., 
Vol. 28, No. 4,383,385; Supra note 10.
---------------------------------------------------------------------------
        THE FAMILY VIOLENCE PREVENTION AND SERVICES ACT (FVPSA)

    Despite this grim reality, we know that when immediate, essential 
services are available victims can escape from life-threatening 
violence and begin to rebuild their shattered lives.
    FVPSA has significantly enhanced community-based domestic violence 
intervention and prevention efforts since it was first authorized by 
Congress in 1984. Administered by the Department of Health and Human 
Services Administration on Children and Families through a State 
formula grant, FVPSA provides funding to States, territories and tribes 
to support domestic violence services in their communities using a 
population-based formula. These essential services that are at the core 
of ending domestic violence: emergency shelters, hotlines, counseling 
and advocacy, primary and secondary prevention--immediate crisis 
response and the comprehensive support to help victims put their lives 
back together. FVPSA also authorizes the Community Initiatives to 
Prevent Abuse program (frequently referred to as Domestic Violence 
Prevention Enhancement and Leadership Through Alliances (DELTA) Grants) 
and the National Domestic Violence Hotline. Working together, these 
FVPSA programs have made significant progress toward ending domestic 
violence and keeping families and communities safe. Since its passage 
in 1984, FVPSA remains the only Federal funding directly for shelter 
programs.
    There are approximately 2,000 FVPSA-funded community-based domestic 
violence programs for victims and their children, providing emergency 
shelter to approximately 300,000 victims and offering services such as 
counseling, crisis lines, safety planning, legal assistance, and 
preventative education to millions of adults and children annually.\12\ 
In just 1 day in 2008, 60,799 victims were served by 1,553 domestic 
violence programs. Of the 20,307 victims in emergency shelter that day, 
nearly 50 percent were children.\13\ Programs answered 21,683 hotline 
calls and trained 30,210 community members.
---------------------------------------------------------------------------
    \12\ National Coalition Against Domestic Violence, Detailed Shelter 
Surveys (2001).
    \13\ Domestic Violence Counts 08: A 24-hour census of domestic 
violence shelters and services across the United States. The National 
Network to End Domestic Violence. (Jan. 2009).
---------------------------------------------------------------------------
    These effective programs save and help rebuild lives. A recently 
released multi-State study shows conclusively that the Nation's 
domestic violence shelters are addressing both urgent and long-term 
needs of victims of violence, and are helping victims protect 
themselves and their children.\14\ Research shows that shelter programs 
are among the most effective resources for victims with abusive 
partners \15\ and that staying at a shelter or working with a domestic 
violence advocate significantly reduced the likelihood that a victim 
would be abused again and improved the victim's quality of life.\16\ 
The impact of being and feeling safe cannot be underestimated--when 
asked what he liked best about staying in the shelter, a 10-year-old 
boy in Maryland replied, ``I can sleep at night.''
---------------------------------------------------------------------------
    \14\ Lyon, E., Lane S. (2009). Meeting Survivors' Needs: A Multi-
State Study of Domestic Violence Shelter Experiences. National Resource 
Center on Domestic Violence and UConn School of Social Work. Found at 
http://www.vawnet.org.
    \15\ See: Bennett, L., Riger, S., Schewe, P., Howard, A., & Wasco, 
S. (2004). Effectiveness of hotline, advocacy, counseling and shelter 
services for victims of domestic violence: A statewide evaluation. 
Journal of Interpersonal Violence, 19(7), 815-829; Bowker, L. H., & 
Maurer, L. (1985). The importance of sheltering in the lives of 
battered women. Response to the Victimization of Women and Children, 8, 
2-8; Gordon, J. S. (1996). ``Community services for abused women: A 
review of perceived usefulness and efficacy.'' Journal of Family 
Violence 11(4): 315-329; Sedlak, A. J. (1988). Prevention of wife 
abuse. In V. B. Van Hasselt, R. L. Morrison, A. S. Bellack, & M. Hersen 
(Eds.), Handbook of Family Violence (pp. 319-358). NY: Plenum Press; 
Straus, M. A., Gelles, R. J., & Steinmetz, S. K. (1980). Behind closed 
doors: Violence in the American family. NY: Anchor Press; Tutty, L. M., 
Weaver, G., & Rothery, M. (1999). Residents' views of the efficacy of 
shelter services for assaulted women. Violence Against Women, 5(8), 
898-925.
    \16\ See: Berk, R. A., Newton, P. J., & Berk, S. F. (1986). What a 
difference a day makes: An empirical study of the impact of shelters 
for battered women. Journal of Marriage and the Family, 48, 481-490; 
Bybee, D.I., & Sullivan, C.M. (2002). The process through which a 
strengths-based intervention resulted in positive change for battered 
women over time. American Journal of Community Psychology, 30(1), 103-
132; Constantino, R., Kim, Y., & Crane, P.A. (2005). Effects of a 
social support intervention on health outcomes in residents of a 
domestic violence shelter: A pilot study. Issues in Mental Health 
Nursing, 26, 575-590; Goodkind, J., Sullivan, C.M., & Bybee, D.I. 
(2004). A contextual analysis of battered women's safety planning. 
Violence Against Women, 10(5), 514-533; Sullivan, C.M. (2000). A model 
for effectively advocating for women with abusive partners. In J.P. 
Vincent & E.N. Jouriles (Eds.), Domestic violence: Guidelines for 
research-informed practice (pp. 126-143). London: Jessica Kingsley 
Publishers; Sullivan, C.M., & Bybee, D.I. (1999). Reducing violence 
using community-based advocacy for women with abusive partners. Journal 
of Consulting and Clinical Psychology, 67(1), 43-53.
---------------------------------------------------------------------------
    Once FVPSA appropriations reach $130 million, a portion will be set 
aside solely for children's services. Battered women's shelters and 
domestic violence programs provide safety and support for children, but 
struggle to meet the demand for children's services. They see the needs 
of children who are recovering from the trauma of witnessing or 
experiencing abuse and they are eager to implement new and expanded 
children's programming.
    The Community Initiatives to Prevent Abuse/DELTA Grants program 
supports community-based primary prevention that address the underlying 
causes of domestic violence in order to stop abuse before it starts. 
DELTA is administered by the Centers for Disease Control and 
Prevention, National Center for Injury Prevention and Control, and it 
is one of the few funding sources for primary prevention work. DELTA 
programs use innovative strategies including peer education programs 
for men about family and relationships, community change initiatives 
focused on engaging men in prevention efforts, school-based education 
to prevent youth bullying that often carries into adulthood, and youth-
led initiatives to prevent dating violence and promote healthy 
relationships.
    FVPSA also includes the National Domestic Violence Hotline, a 24-
hour, confidential, toll-free hotline, located in Texas. Since opening 
in 1996, the National Domestic Violence Hotline has received more than 
2 million calls from individuals in need of support and assistance. 
Highly trained hotline advocates provide support, information, 
referrals, safety planning, and crisis intervention to hundreds of 
thousands of domestic violence victims and perpetrators. More than 60 
percent of callers report that their call to the hotline is the first 
time they open up about the abusive relationship.

                            THE FUNDING GAP

    Due to the overwhelming success of Violence Against Women Act 
(VAWA) and FVPSA funded programs, more and more victims are coming 
forward for help each year. This rising demand for services, without a 
concurrent increase in funding, means that many desperate victims are 
turned away from life-saving services. In just 1 day last year, nearly 
9,000 requests for services went unmet across the country due to a lack 
of resources, including 3,286 requests for emergency shelter.\17\ 
Additionally, the National Domestic Violence Hotline was unable to 
answer 42,500 calls (17 percent of the total) because they lacked the 
resources to answer the calls.
---------------------------------------------------------------------------
    \17\ Domestic Violence Counts 08: A 24-Hour census of domestic 
violence shelters and services across the United States. The National 
Network to End Domestic Violence. (Jan. 2009).
---------------------------------------------------------------------------
    The economic crisis further exacerbates the gap created by the 
increasing demand for services and the lack of adequate resources. 
While economic hard times do not cause violence, the economic stresses 
can increase the frequency and level of violence in a home. With fewer 
personal, family, and community resources upon which to rely, more 
victims turn to domestic violence programs for help. A survey of 
domestic violence shelters across the country revealed that 3 out of 4 
domestic violence shelters have seen an increase in women seeking 
assistance from abuse since September 2008, a major turning point in 
the U.S. economy. Just as more victims are seeking services, programs 
are facing cutbacks from State and country funding sources, as well as 
philanthropic dollars. Many programs have been forced to lay off staff 
and cuts services--a number of programs have even been forced to close 
their doors permanently.
    Laurie Schipper, Executive Director of the Iowa Coalition Against 
Domestic Violence explains the stark consequences of this reality, ``If 
women have nowhere to go, especially in rural areas, women and kids are 
going to die. It's difficult to overstate the gravity of this.'' \18\
---------------------------------------------------------------------------
    \18\ Alex, Tom. Wife flees, alleging decades of abuse. 
DesMoinesRegister.com, April 18, 2009. Available at: http://
www.desmoinesregister.com/apps/pbcs.dll/article?AID=/20090418/NEWS01/
904180322.
---------------------------------------------------------------------------
                         FVPSA REAUTHORIZATION

    Due to a busy congressional calendar, FVPSA expired in 2008 and has 
yet to be reauthorized. The Senate HELP Committee is currently working 
to reauthorize FVPSA, along with the Child Abuse Prevention and 
Treatment Act. Advocates remain concerned, however, that while FVPSA 
remains expired programs will be further jeopardized. We call on the 
Senate LHHS Appropriations Subcommittee to include report language in 
the final appropriations bill that acknowledges the vital work of FVPSA 
and directs the funding to be spent in a way consistent with its 
authorization.
    NNEDV chairs a national coalition of FVPSA stakeholders who have 
delineated clear priorities for the FVPSA reauthorization. 
Collectively, we want to see FVPSA continue its success while expanding 
to reach the needs of victims who have historically been underserved. 
These needed improvements will require commitment and investment from 
the Appropriations Committee.

                   INVESTING IN SERVICES SAVES LIVES

    In the fiscal year 2008 congressional budget, FVPSA funding was cut 
by $2.1 million, bringing FVPSA funding to $122.6, which is $52.5 
million below the authorized level of $175 million. We applaud the 
subcommittee's commitment to these programs, evidenced in the modest 
funding increases allocated in fiscal year 2009. FVPSA was funded at 
$127.7 million (a $5 million increase from fiscal year 2008), the 
National Domestic Violence Hotline was funded at $3.2 million (a $0.2 
million increase from fiscal year 2008), and DELTA was funded at $5.5 
million (a $0.5 million increase from fiscal year 2008). While these 
increases will pay dividends over time by preventing other costly 
social ills, in order to meet the ever-growing demand for services, it 
is essential that Congress continue to provide steady increases.
    The President's fiscal year 2010 budget proposal requests level 
funding for all three programs. Yet we know that level funding simply 
will not bridge the gap in funding. Congress should invest in FVPSA not 
only to meet the needs of victims in life-threatening situations but 
also to prevent future social ills.
    Fully funding FVPSA at $175 million, the hotline at $3.5 million 
and DELTA at $5.5 million will allow communities across the country to 
continue to provide critically needed direct services to victims of 
domestic violence and their children, which will help to prevent 
homicides and break the cycle of violence.
    Without effective intervention, domestic violence will repeat 
itself and continue to impact successive generations. FVPSA is a 
critical component in breaking the cycle of violence affecting our 
children, families and communities. FVPSA funding, has begun to make 
our country a safer place for families, victims and communities. Now, 
however, this phenomenal progress is in jeopardy. We have seen a 
reduction in homicides and the incidence of these heinous crimes. Yet 
these tough economic times, combined with funding cuts forcing shelters 
to close, real victims face life-threatening situations with no 
support. Every day shelters and service providers must turn away 
families in danger due to lack of resources. While a tough economy may 
tempt lawmakers to cut or maintain existing funding levels, we cannot 
allow this unmet need to continue.
    By prioritizing these vital, cost-effective funding streams, 
Congress will help to break the cycle of domestic violence in our 
country.
                                 ______
                                 
        Prepared Statement of the National Psoriasis Foundation

    The National Psoriasis Foundation (NPF) appreciates the opportunity 
to submit written testimony for the record regarding Federal funding 
for psoriasis and psoriatic arthritis research for fiscal year 2010. 
NPF serves as the Nation's largest patient-driven, nonprofit, voluntary 
association committed to finding a cure for psoriasis and psoriatic 
arthritis, which affects as many as 7.5 million Americans, and 
eliminating their devastating effects. Psoriasis is among the most 
prevalent autoimmune diseases.
    As part of our mission, we educate health professionals, the public 
and policymakers to increase public awareness and understanding of the 
challenges faced by people with psoriasis and psoriatic arthritis. 
Moreover, NPF maintains a strong commitment to securing public policies 
and programs that support its focus of education, advocacy, and 
research toward better treatments and a cure. NPF specifically seeks to 
advance public and private efforts to improve treatment of these 
diseases, identify a cure and ensure that all people with psoriasis and 
psoriatic arthritis have access to the medical care and treatment 
options they need to live the highest quality of life possible.
    NPF stands ready to partner with policymakers at the local, State, 
and Federal levels to advance policies and programs that will reduce 
and prevent suffering from psoriasis and psoriatic arthritis. 
Specifically, NPF advocates that in fiscal year 2010 the National 
Institutes of Health (NIH) receive an additional $2.1 billion for a 
total allocation of $32.5 billion to support new investigator-initiated 
research grants for genetic, clinical, and basic research related to 
the understanding of the cellular and molecular mechanisms of psoriasis 
and psoriatic arthritis, as well as studies to explore the nascent 
understanding of co-morbidities, such as obesity, depression and heart 
disease that may be associated with inflammation in the skin and 
joints. In addition, we urge that Congress provide $1.5 million in 
fiscal year 2010 to the Centers for Disease Control and Prevention 
(CDC) to support such data collection to increase understanding of the 
comorbidities associated with psoriasis, examine the relationship of 
psoriasis to other public health concerns, such as the high rate of 
smoking and obesity among those with the disease, and gain insight into 
the long-term impact and treatment of these two conditions.

            THE IMPACT OF PSORIASIS AND PSORIATIC ARTHRITIS

    According to the NIH, as many as 7.5 million Americans have 
psoriasis--an immune-mediated, genetic, chronic, inflammatory, painful, 
disfiguring, and life-altering disease that requires life-long 
sophisticated medical intervention and care, and imposes serious 
adverse effects on the individuals and families affected. On average, 
17,000 people with psoriasis live in each Congressional District.
    Psoriasis typically first strikes between the ages of 15 and 25, 
but can occur at any time. It lasts a lifetime. Unfortunately, 
psoriasis often is overlooked or dismissed, because it typically does 
not cause death. It is commonly and incorrectly considered by insurers, 
employers, policymakers, and the public as a mere annoyance--a 
superficial problem, mistakenly thought to be contagious and/or due to 
poor hygiene. Yet, together psoriasis and psoriatic arthritis impose 
significant economic costs on individuals and society. Total direct and 
indirect healthcare costs of psoriasis are calculated at more than 
$11,250,000,000 annually with work loss accounting for 40 percent of 
the cost burden.
    There is mounting evidence that people with psoriasis are at 
elevated risk for myriad other serious, chronic, and life-threatening 
conditions. Although data are still emerging on the relationship of 
psoriasis to other diseases and their ensuing costs to the medical 
system, it is clear that psoriasis goes hand-in-hand with co-
morbidities, such as Crohn's disease, diabetes, metabolic syndrome, 
obesity, hypertension, heart attack, cardiovascular disease, liver 
disease, and psoriatic arthritis--which occurs in up to 30 percent of 
people with psoriasis. Other recent studies have found that people with 
severe psoriasis have a 50 percent higher mortality risk and that these 
patients die 3 to 6 years younger than those who do not have psoriasis. 
Of serious concern is that studies have shown that psoriasis causes as 
much disability as other major chronic diseases, and individuals with 
psoriasis are twice as likely to have thoughts of suicide, as people 
without psoriasis or with other chronic conditions.
    Despite some recent breakthroughs, many people with psoriasis and 
psoriatic arthritis remain in need of improved quality of life and 
effective, safe, and affordable therapies, which could be delivered 
through an increased Federal commitment to genetic, clinical, and basic 
research. Research holds the key to improved treatment of these 
diseases, better diagnosis of psoriatic arthritis and eventually a cure 
for both conditions.

           FEDERAL PSORIASIS AND PSORIATIC ARTHRITIS RESEARCH

    Although overall NIH funding levels improved for psoriasis research 
in fiscal year 2007, 3 out of 5 NIH agencies decreased psoriasis 
funding that same year. NPF is concerned that at the historical and 
current rate of psoriasis funding, NIH funding is not keeping pace with 
research needs, nor is the investment commensurate with the impact of 
the disease. Within the NIH, the National Institute of Arthritis and 
Musculoskeletal and Skin Diseases (NIAMS), the National Center for 
Research Resources, the National Human Genome Research Institute, and 
the National Institute of Allergy and Infectious Diseases are the 
principal Federal Government agencies that currently support psoriasis 
research. Additionally, research activities that relate to psoriasis or 
psoriatic arthritis also have been undertaken at the National Cancer 
Institute. An analysis of longitudinal Federal funding data shows that, 
on average over the past decade, NIAMS has spent less than $1 per 
person with psoriasis per year.
    Adequate investment in psoriasis and psoriatic arthritis in fiscal 
year 2010 and beyond is imperative, because a rare opportunity for 
breakthroughs in both conditions is presenting itself at this time. A 
convergence of findings reached through various types of studies has 
stimulated new ideas about the mechanisms involved in psoriasis.
    It has taken nearly 30 years to understand that psoriasis is not 
solely a disease of the skin, but also of the immune system. Finally, 
scientists are identifying the genes immune cells involved in 
psoriasis--findings that will help improve understanding of which cells 
or molecular processes should be targeted in psoriasis drug 
development. With these important advances, we are poised and 
positioned, as never before, to identify and develop a permanent method 
of control for psoriasis and, eventually, a cure. Greater funding of 
genetics, immunology and clinical research focused on understanding the 
mechanisms of psoriasis and psoriatic arthritis is needed. Key areas 
for additional support and exploration include:
  --Studying the genetic susceptibility of psoriasis;
  --Developing animal models of psoriasis;
  --Identifying the environmental and lifestyle triggers for psoriasis;
  --Studying a number of important epidemiologic issues, such as the 
        risk of heart attack, diabetes, increased mortality, and 
        lymphoma in psoriasis patients;
  --Identifying and examining immune cells and inflammatory processes 
        involved in psoriasis;
  -- Examining the relationship between psoriasis and mental illnesses, 
        such as depression and suicidal ideation; and
  --Elucidating psoriatic arthritis specific genes and other 
        biomarkers.
     the role of cdc in psoriasis and psoriatic arthritis research
    NPF is concerned that there have been very few efforts to collect 
epidemiological and other related data on individuals with psoriasis 
and psoriatic arthritis. Researchers and clinicians continue to be 
limited in their longitudinal understanding of these conditions and 
their effects on individual patients. There are many mysteries related 
to psoriasis and psoriatic arthritis. For example, we know of people 
who never had any evidence of disease who, after falling ill with the 
flu or spiking a fear, wake the next day to be covered in psoriasis 
plaques. Why? A treatment could work well for an individual for years 
and then suddenly become ineffective. Why?
    Researchers agree that collecting data through a patient registry 
would help increase the understanding of: the other chronic conditions 
that co-occur with psoriasis; how factors like age or gender impact the 
course and burden of psoriasis; and how certain environmental exposures 
might contribute to the occurrence and severity of psoriasis and 
psoriatic arthritis. In turn, this information would help improve 
treatments and advance efforts toward a cure. CDC psoriasis and 
psoriatic arthritis data collection efforts would help answer myriad 
questions about these autoimmune conditions, contribute to improved 
disease treatment and management, and further the Nation's efforts to 
find a cure.
    For 3 years, your subcommittee has encouraged CDC to undertake data 
collection, and we very much appreciate your recognition of this much-
needed effort. We have met with CDC staff to offer our assistance and 
expertise, however, it is clear the agency must receive specific, 
dedicated funding so it has the resources necessary to develop a 
registry. To that end, NPF respectfully requests that the subcommittee 
allocate $1.5 million in fiscal year 2010 for the National Center for 
Chronic Disease Prevention and Health Promotion (NCCDPHP) within the 
CDC to examine and develop options and recommendations for the creation 
of a National Psoriasis and Psoriatic Arthritis Patient Registry. A 
national patient registry that collects longitudinal patient data will 
help researchers to learn about key attributes, such as response to 
treatment, substantiating the waxing and waning of psoriasis, 
understanding associated manifestations like nail disease and 
arthritis, and the relationship of psoriasis to other public health 
concerns.

                        FUNDING REQUEST SUMMARY

    NPF recognizes that Congress and the Nation face unprecedented 
fiscal challenges. However, we also believe that greater fiscal year 
2010 investment in biomedical and epidemiologic research at NIH and CDC 
will prove simulative to the economy and bear fruit with regard to the 
development of new, safe, effective, and long-lasting treatments and--
ultimately--a cure for psoriasis and psoriatic arthritis. We thank the 
subcommittee in advance for providing the following allocations:
  --$32.4 billion to NIH and its Institutes and Centers that play an 
        integral role in psoriasis and psoriatic arthritis research and 
        urge them to initiate and/or expand psoriasis and psoriatic 
        arthritis research and;
  --$1.5 million to the NCCDPHP within the CDC to collect data on 
        psoriasis and psoriatic arthritis and begin to establish a 
        patient registry to improve the knowledge base of the 
        longitudinal impact of these diseases on the individuals they 
        affect.

                               CONCLUSION

    On behalf of NPF's Board of Trustees and the as many as 7.5 million 
individual with psoriasis and psoriatic arthritis who we represent, 
thank you for this opportunity to submit written testimony regarding 
the fiscal year 2010 funding levels necessary to ensure that our Nation 
adequately addresses psoriasis and psoriatic arthritis and to make 
gains in improving therapies and eventually attaining a cure. We 
believe that additional research undertaken at the NIH coupled with 
epidemiologic efforts at the CDC together will help advance the 
Nation's efforts to improve treatments and identify a cure for 
psoriasis and psoriatic arthritis. Please feel free to contact us at 
any time; we are happy to be a resource to subcommittee members and 
your staff. We very much appreciate the subcommittee's attention to--
and consideration of--our requests.
                                 ______
                                 
              Prepared Statement of National Public Radio

    Thank you Chairman Inouye and Senator Cochran for the opportunity 
to offer testimony on behalf of National Public Radio (NPR), our more 
than 850 public radio station partners, and for other producers and 
distributors of public radio programming including American Public 
Media, Public Radio International, the Public Radio Exchange, and many, 
many stations, both large and small, that create and distribute content 
through the Public Radio Satellite System (PRSS).
    The state of public radio today is both sobering and heartening. 
While the economic crisis has undermined the financial stability of the 
public radio system, the audience is tuning at record levels. But 
without your help, we will not be able to continue to achieve our 
public service mission, and your expectations.

                  AN ADDITIONAL INVESTMENT IN STATIONS

    Public broadcasting is requesting $307 million--$96 million for 
public radio stations and $211 million for public television stations--
in additional emergency investment funding for the fiscal year 2010 
budget of the Corporation for Public Broadcasting (CPB). This action is 
necessary to offset the tide of losses at public broadcasting stations. 
This one-time investment of Federal resources will help protect 
thousands of station jobs now at risk, and assure continuity in 
services used daily by tens of millions of Americans. These funds are 
in addition to the $420 million that Congress approved 2 years ago as 
part of the advance funding process.
    The funds we are requesting only partially close the expected 2-
year revenue shortfall of almost $170 million at the public radio 
station level, plus an additional $55 million in loses at NPR. The 
remainder will come about as a result of significant cost cutting at 
the local and national levels. Every week brings another announcement 
of a service reduction or employment layoff at public broadcasting 
stations. In fact, a survey last month of locally licensed and operated 
public radio stations projected more than a 46 percent reduction in 
financial support from local and State government agencies, a 23 
percent decline in foundation and philanthropic contributions and a 23 
percent drop in underwriting from local businesses.
    Public broadcasting's contribution to America's democracy is more 
important today than at anytime during our four decades of public 
service. More than 33 million people each week are tuning into public 
radio programming and listening to member stations. Our audience has 
grown 66 percent in the past 10 years, bucking a precipitous decline in 
other media and stands in sharp contrast with the general overall 
decline in radio listening. Consider that public radio programming 
today reaches more people than the circulation of USA Today, the Wall 
Street Journal, the New York Times, Los Angeles Times, the Washington 
Post and the next top 45 newspapers combined.
    Stations in every State have become living embodiments of 
journalistic excellence, providing news, information and cultural 
programming that have become increasingly rare in other media. Public 
radio programming is rooted in the fundamentals of accuracy, 
transparency, independence, balance, and fairness and serves as 
cornerstone of understanding for millions of Americans seeking 
information, context and insight.

                     PUBLIC FUNDS FOR PUBLIC MEDIA

    CPB is the primary public funding mechanism for public radio, 
accounting for roughly 12 percent of an average public radio station's 
annual budget. These funds help public broadcasting stations produce, 
purchase and distribute programming that sparks imagination and kindles 
thought about our world. Several stations specifically serve rural and 
minority communities including numerous African-American, Native 
American, Latino, and multicultural licensees. In many cases, they are 
the sole local broadcasting service available. These critical Federal 
funds allow all stations to continue serving the needs of public 
radio's 33 million weekly listeners, irrespective of their communities' 
location or financial status.
    CPB's general appropriation is allocated according to a 
congressionally set formula that ensures the funds go directly to the 
people and organizations that create and deliver highly valued programs 
and services. The public broadcasting community is urging Congress to 
appropriate $542 million in 2-year advanced funding for fiscal year 
2012 for CPB.

                   THE PUBLIC RADIO SATELLITE SYSTEM

    As the public broadcasting community grapples with the financial 
crisis, we also remain committed to ensuring that the Nation's public 
radio infrastructure continues to be robust and viable. This commitment 
requires a periodic investment by Congress in PRSS. This year, CPB is 
requesting $27 million as the third and final installment of a 3-year 
request to renew and replenish the PRSS.
    This system, originally built in 1979 with funds provided by this 
Committee, distributes 400,000 hours of programming, or 7\1/2\ billion 
listener hours each year. Every minute of every hour of public radio 
programming--from NPR's Morning Edition, and All Things Considered, to 
American Public Media's Marketplace and A Prairie Home Companion, to 
Public Radio International's This American Life and Capitol News 
Connection--is distributed by the PRSS. Quite simply, without the PRSS, 
there would be no public radio in the United States.
    An important mission of the PRSS is to facilitate the cost-
effective and efficient distribution of news, information, cultural, 
and educational programming to this country's increasingly diverse 
population. As part of that mission, the PRSS provides satellite 
transmission services to distribute programming that targets unserved 
or underserved audiences from sources who meet certain criteria 
established by the NPR Board, including demonstrated financial need. 
PRSS is the indispensable distribution backbone for everything heard on 
public radio. On behalf of all in public radio, I ask for your support 
of this critically important funding request.

                       DIGITAL TRANSITION FUNDING

    Change is rapidly occurring in over the air radio broadcasting, the 
last enclave of the old analogue world. As of today, more than 650 
public radio stations had either completed or have nearly completed 
conversion to a digital signal, which improves the overall listener 
experience by enhancing audio quality; eliminating reception 
interference; and utilizing multiple audio programming channels, or 
multicasting. To continue supporting this necessary change in our basic 
broadcast technology, CPB is requesting $40 million as part of its 
fiscal year 2010 budget.
    Digital broadcasting technology has enabled public radio stations 
to increase local services to their communities. More than 160 stations 
are multicasting--doubling and tripling their programming to broaden 
and expand the base of listeners. Many stations have created Spanish 
language channels to provide news, including through BBC Mundo. 
Stations serving Native American communities are providing tribal 
programming over the air and online. Local community events such as 
concerts, town hall meetings, committee hearings, legislative floor 
sessions, and other government programming are broadcast live using HD 
radio technology. Listeners with HD radio receivers may view a variety 
of useful messages that scroll across radio display screens, including 
artist name and song title, emergency alerts, live weather and real-
time traffic updates, local news, school closings, and movie listings.
    Digital technology using the Internet and mobile platforms expands 
public radio programming and community services. Expansion and 
improvement of public radio Web sites and our digital connections with 
audiences remain a major priority. Public radio stations and public 
radio program producers are all expanding to new platforms, and in so 
doing bring broader, deeper and more varied content to our audiences. 
The impact is already being felt. News coverage of the U.S. 
Presidential election resulted in record level traffic to public radio 
station Web sites and NPR.org in terms of both visitors and page views. 
Ten million visitors went each month to NPR.org during October and 
November 2008 to view 115 million pages during the same time period. 
And just this past week, public radios web sites became an essential 
platform for updated information on Swine flu.
    Other Internet and mobile platform program distribution efforts 
using iPhone applications, for example, have gained wide acceptance 
among public radio listeners and brought a new generation of consumers 
to our coverage. Local public radio station and NPR podcasts have 
become very popular, with some 14 million downloads occurring each 
month. Podcasts offered by stations are expanding programming in areas 
such as science, poetry, music, arts, history, politics, international 
affairs, and health. The audience may also now download interactive 
media such as photo slide shows, video, Web streams and audio of local 
news, music, and programming on their local station Web site.
    Audiences are visiting station Web sites with greater frequency for 
local news and community events. Online community calendars posted on 
station Web sites allow local organizations of all sizes and areas to 
list public events and reach a wide audience. Listeners viewing station 
Web sites are connecting with local nonprofit organizations to obtain 
information about special cultural activities, festivals, public health 
fairs, musical events, educational seminars, lectures, classes, and 
workshops. Station Web sites also increasingly have online music play 
lists allowing the audience to find information on music played at 
their local station. Web-based social-networking features are used to 
foster online communities to give listeners the opportunity to connect 
over common interests and passions by engaging in dialogue and sharing 
viewpoints about their lives.
    We are confident in our ability to meet the needs of our audience 
and our ability to emerge from the current economic crisis more 
prepared and better structured. But we cannot do either without your 
help. We ask for your approval of CPB's funding requests, including the 
additional, emergency, one-time investment to stations of $307 million 
in fiscal year 2010.
                                 ______
                                 
        Prepared Statement of National Primate Research Centers

    The Directors of the eight National Primate Research Centers 
(NPRCs) respectfully submit this written testimony for the record to 
the Senate Appropriations Subcommittee on Labor, Health and Human 
Services, and Education, and Related Agencies. The NPRCs appreciate the 
commitment that the members of this subcommittee have made to 
biomedical research through your strong support for the National 
Institutes of Health (NIH), and recommends that you maintain this 
support for NIH in fiscal year 2010 by providing the agency with at 
least a 7 percent increase more than fiscal year 2009. The NPRCs also 
respectfully request that the subcommittee encourage the National 
Center for Research Resources (NCRR), the sponsoring institute of the 
NPRCs within NIH, to carry out the NPRCs 5-year Federal advancement 
initiative, which as explained in this testimony, would help to ensure 
that the NPRCs continue to serve effectively in their role as a vital 
national resource.
    Through passage of the American Recovery and Reinvestment Act 
(ARRA) and the Omnibus Appropriations Act for Fiscal Year 2009, the 
administration and Congress have taken critical steps to jump start the 
Nation's economy. Simultaneously, Congress is advancing and 
accelerating the biomedical research agenda in this country by focusing 
on scientific opportunities to address public health challenges. The 
success of the U.S. Government's efforts, however, is contingent upon 
the quality of research resources that enable and enhance scientific 
research ranging from the most basic and fundamental to the most highly 
applied.
    Biomedical researchers have relied on one such resource--NPRCs--for 
nearly 50 years for research models and expertise with nonhuman 
primates. The NPRCs are highly specialized facilities that foster the 
development of nonhuman primate animal models and provide expertise in 
all aspects of nonhuman primate biology. NPRC facilities and resources 
are currently used by more than 2,000 NIH-funded investigators around 
the country. NCRR provides the NPRCs with an annual base grant (funded 
through NCRR's P51 program) which supports the operational costs of the 
NPRCs. In fiscal year 2009, the 8 NPRCs received $79.235 million from 
NCRR's P51 program.
    The NPRCs also serve an essential role in translating basic 
research toward a clinical outcome. Specifically, the nonhuman primate 
models that are housed at the NPRCs often provide the critical link 
between research with small laboratory animals and studies involving 
humans. As a result, the network of the eight NPRCs is taking a 
leadership role to encourage collaboration among researchers and 
healthcare providers across disciplines and institutions, with the goal 
of advancing biomedical knowledge and improving human health.
    The NPRCs face several serious barriers to successfully supporting 
and advancing nonhuman primate research; specifically, the lack of 
adequate infrastructure to breed and house animals for research, the 
limited number of primates available, and the shortage of properly 
trained staff to handle nonhuman primates and provide sophisticated 
care. The need to address these problems has become even more critical 
due to the additional nonhuman-primate-related grants that will be 
funded as a result of ARRA, the new demands to increase research in 
nonhuman primate challenge models for AIDS, and the need for nonhuman 
primates to enhance our emerging infectious disease and biodefense 
response capabilities.
    NCRR has published on the need for increased primate resources in 
its 2009-2013 Strategic Plan. The plan specifically States that 
nonhuman animal models are indispensable for finding ways to treat and 
prevent cancer, HIV/AIDS, Alzheimer's disease, and Parkinson's disease, 
as well as to develop effective biodefense strategies. The NPRCs have 
been leading the development of new IT approaches, including the 
Biomedical Informatics Research Network (BIRN) for linking brain 
imaging, behavior, and molecular informatics in nonhuman primate 
preclinical and translational models research.
    In an effort to address many of the concerns within the scientific 
community, ranging from the lack of infrastructure improvements to the 
shortage of relevant nonhuman primates to the need for quality, trained 
personnel, the NPRCs have developed a 5-year Federal advancement 
initiative which addresses the necessary program capacity expansions 
and required upgrades. This initiative will help to ensure that the 
NPRCs will continue to serve effectively in their role as a vital 
national resource. As part of the 5-year plan development process, the 
NPRCs calculated the increases in NIH funding dedicated specifically to 
the National Primate Research Centers Program (NCRR's P51 program) 
necessary to achieve their goals. Below is an outline of the plan:
  --Primate Infrastructure Investment.--Request for an additional $90 
        million over 5 years to improve the quality and capacity of 
        primate housing and breeding facilities and ensure availability 
        of related state-of-the-art diagnostic and clinical support 
        equipment at the NPRCs.
    While NIH has been responsive in their actions during the past few 
years to provide funding to the NPRCs for infrastructure improvements, 
the difficulty the National Primate Research Centers Program has in 
meeting even current demands, let alone future increases is inexorably 
linked to the ability to house these animals in the unique living 
environments that they require and to provide specialized facilities 
equipped with state-of-the-art diagnostic and clinical support 
equipment to conduct research. The NPRCs plan to focus on the following 
goals in their effort to comprehensively improve primate 
infrastructure:
  --Bring older primate housing facilities and related equipment up to 
        present-day standards.
  --Construct additional primate housing facilities and acquire related 
        equipment to accommodate the projected increase in breeding 
        colonies.
  --Primate Model Investment.--Request for an additional $75 million 
        over 5 years to enhance the availability of primates for 
        research.
    NCRR's Expert Panels have repeatedly stated that the NPRCs do not 
have the capacity to satisfy the needs of outside investigators, and 
have recommended that the NPRCs program must be responsive to national 
needs for nonhuman primates. Currently, outside investigators who are 
already funded for their studies must sometimes wait a year or more to 
begin their research because of the high demand for the limited number 
of primates. In addition, there are ongoing difficulties associated 
with acquiring certain types of primates from their natural places of 
origin. Accordingly, increasing domestic breeding capabilities and 
developing bridging programs to effectively use other types of primates 
are critical to the success of the NPRCs program.
  --Primate Care and Research Personnel Investment.--Request for an 
        additional $35 million over 5 years to train NPRC personnel in 
        primate care and management.
    Numerous scientific reports have highlighted the vital need for 
experts who are well-trained in laboratory animal medicine and in 
research methodology. Since nonhuman primates represent the most 
sophisticated and relevant animal models, there is a heightened 
responsibility to properly care for and manage these animals. Each NPRC 
requires a primate management team comprised of behaviorists, 
veterinarians, and primate research specialists. As the number of 
primates at the NPRCs grows, the primate management teams must expand 
proportionally.
    Total anticipated cost of the National Primate Research Centers 
Program 5-year Federal Advancement Initiative--$200 million more than 
the current funding that is dedicated specifically to the National 
Primate Research Centers Program during the 5-year period of fiscal 
years 2010-2015.
    Thank you for the opportunity to submit this written testimony and 
for your attention to the critical need for primate research and 
enhancement of the NPRCs P51 base grant, as well as our recommendations 
concerning funding for NIH in the fiscal year 2010 Labor, Health and 
Human Services, and Education, and Related Agencies Appropriations 
bill.
                                 ______
                                 
          Prepared Statement of the National Sleep Foundation

              SUMMARY OF FISCAL YEAR 2010 RECOMMENDATIONS

  --Provide $5 million in funding for sleep activities within the 
        Community Health Promotion account within the Chronic Disease 
        Program at the Centers for Disease Control and Prevention 
        (CDC). Expanded funding for sleep and sleep disorder-related 
        activities would allow the CDC to create targeted public 
        educational initiatives for schools and workplaces; training 
        materials for current and future health professionals; build 
        and test public health interventions; expand surveillance and 
        epidemiological activities; and create fellowship and research 
        opportunities.
  --Encourage the National Institutes of Health (NIH) to conduct multi-
        center clinical trials to evaluate whether healthcare costs and 
        the incidence of stroke, cardiovascular disease and diabetes 
        can be reduced by treating sleep disorders such as obstructive 
        sleep apnea as part of usual care practices.
    Mr. Chairman and members of the subcommittee, thank you for 
allowing me to submit testimony on behalf of the National Sleep 
Foundation (NSF). I am Dr. Frankie Roman, Chair of the NSF's Government 
Affairs Committee and a sleep specialist at Ohio Sleep Disorder 
Centers, in Akron, Ohio. NSF is an independent, nonprofit organization 
that is dedicated to improving public health and safety by achieving 
understanding of sleep and sleep disorders, and by supporting sleep-
related education, research and advocacy. We work with sleep medicine 
and other healthcare professionals, researchers, patients and drowsy 
driving advocates throughout the country as well as collaborate with 
many Government, public and professional organizations with the goal of 
preventing health and safety problems related to sleep deprivation and 
untreated sleep disorders.
    Sleep problems, whether in the form of medical disorders or related 
to work schedules and a 24/7 lifestyle, are ubiquitous in our society. 
It is estimated that sleep-related problems affect 50 to 70 million 
Americans of all ages and socioeconomic classes. Sleep disorders are 
common in both men and women; however, important disparities in 
prevalence and severity of certain sleep disorders have been identified 
in minorities and underserved populations. Despite the high prevalence 
of sleep disorders, the overwhelming majority of sufferers remain 
undiagnosed and untreated, creating unnecessary public health and 
safety problems, as well as increased health care expenses. Annual 
surveys conducted by NSF show that more than 60 percent of adults have 
never been asked about the quality of their sleep by a physician, and 
fewer than 20 percent--have ever initiated such a discussion.
    Additionally, Americans are chronically sleep deprived as a result 
of demanding lifestyles and a lack of education about the impact of 
sleep loss. Sleepiness affects vigilance, reaction times, learning 
abilities, alertness, mood, hand-eye coordination, and the accuracy of 
short-term memory. Sleepiness has been identified as the cause of a 
growing number of on-the-job accidents, automobile crashes and multi-
model transportation tragedies.
    According to the National Highway Traffic Safety Administration's 
2002 National Survey of Distracted and Drowsy Driving Attitudes and 
Behaviors, an estimated 1.35 million drivers have been involved in a 
drowsy driving crash in the previous 5 years. According to NSF's 2009 
Sleep in America poll, 54 percent of people report that they have 
driven drowsy at least once in the past year, with 28 percent reporting 
that they do so at least once a month or more. A large number of 
academic studies and Government reports have linked lost productivity, 
poor school performance, and major public health problems to chronic 
sleep loss and sleep disorders.
    The 2006 Institute of Medicine (IOM) report, Sleep Disorders and 
Sleep Deprivation: An Unmet Public Health Problem, found the cumulative 
effects of sleep loss and sleep disorders represent an under-recognized 
public health problem and have been associated with a wide range of 
negative health consequences, including hypertension, diabetes, 
depression, heart attack, stroke, and at-risk behaviors such as alcohol 
and drug abuse--all of which represent long-term targets of the 
Department of Health and Human Services (HHS) and other public health 
agencies. Moreover, the personal and national economic impact is 
staggering. The IOM estimates that the direct and indirect costs 
associated with sleep disorders and sleep deprivation total hundreds of 
billions of dollars annually.
    Sleep science and Federal reports have clearly detailed the 
importance of sleep to health, safety, productivity and well-being, yet 
studies continue to show that millions of Americans remain at risk for 
serious health and safety consequences of untreated sleep disorders and 
inadequate sleep, due to a lack of awareness, community interventions, 
and inadequate screening. Unfortunately, despite recommendations in 
numerous Federal reports, there is a lack of epidemiological data, 
large clinical trials and no on-going national educational programs 
regarding sleep issues aimed at the general public, healthcare 
professionals, underserved communities or major at-risk groups.
    NSF believes that every American needs to understand that good 
health includes healthy sleep, just as it includes regular exercise and 
balanced nutrition. Sleep must be elevated to the top of the national 
health agenda in order to adequately address other national public 
health problems mentioned above. We need your help to make this happen.
    First, one of the most devastating sleep disorders is obstructive 
sleep apnea (OSA), a sleep-related breathing disorder which affects at 
least 5 percent of adult Americans and is closely related to some of 
America's most pressing health problems, such as obesity, hypertension, 
heart failure, and diabetes. NSF and its partners, including the 
National Center on Sleep Disorders Research at the National Institutes 
of Health, have been working diligently to create better patient and 
primary care physician awareness of sleep apnea. However, despite 
considerable progress, sleep apnea remains woefully underdiagnosed and 
undertreated primarily due to a lack of understanding in the primary 
care community, good epidemiological data, and randomized evidence 
regarding long-term treatment. Therefore, we recommend that the NIH be 
encouraged to conduct multi-center clinical trials to evaluate whether 
treatment of OSA can reduce healthcare costs and the incidence of 
stroke, cardiovascular disease and diabetes.
    Second, our biggest challenge is bridging the gap between the 
established sleep science best practices and the level of knowledge 
about sleep held by healthcare practitioners, educators, employers, and 
the general public. Because resources are limited and the challenges 
great, we think creative and new partnerships are needed to fully 
develop sleep awareness, education and clinical training initiatives. 
Consequently, the NSF has spearheaded important initiatives to raise 
awareness of the importance of sleep to the health, safety, and well-
being of the Nation. One of our most important partnerships in these 
efforts is with the Centers for Disease Control and Prevention (CDC).
    For the last 5 years, Congress has recommended that the CDC support 
activities related to sleep and sleep disorders. As a result, CDC's 
National Center for Chronic Disease Prevention and Health Promotion has 
been collaborating with NSF and more than 20 voluntary organizations 
and Federal agencies to form the National Sleep Awareness Roundtable 
(NSART), which was officially launched in March of 2007. Congress also 
provided specific funding for these efforts for the past 2 years.
    In fiscal year 2008, Congress provided $818,000 for activities 
related to sleep and sleep disorders, including CDC's participation in 
NSART and incorporating sleep-related questions into established CDC 
surveillance systems. With this funding, CDC included one core sleep 
question in its national data collection efforts in 2008 and has 
provided grants to eight States to include an optional sleep module in 
their data collection efforts through the Behavioral Risk Factor 
Surveillance System (BRFSS), which will occur in the summer of 2009. 
CDC also included one question in the Youth Risk Behavior Surveillance 
System (YRBSS). Of note, the YRBSS has already revealed that only one-
third of high school students get 8 or more hours of sleep on an 
average school night, far below the recommended 9.25 hours. This new 
data will provide important information on the prevalence of sleep 
disorders and enable researchers to better address the complex 
interrelationship between sleep loss and comorbid conditions such as 
obesity, diabetes, depression, hypertension, and drug and alcohol 
abuse.
    Additionally, CDC and NSART participated in NSF's national public 
awareness initiatives including National Sleep Awareness Week and 
Drowsy Driving Prevention Week. CDC also launched its own Sleep and 
Sleep Disorders Web site, created a fellowship position to analyze 
sleep and chronic disease data, held a Sleep and Public Health Workshop 
at the CDC campus, and released a number of multi-media health 
marketing materials to promote better sleep.
    In fiscal year 2009, Congress provided $900,000 to the CDC for 
sleep activities. CDC plans to expand the number of States it is able 
to fund for BRFSS data collection and provide support for national 
public and professional awareness initiatives as well as activities of 
the National Sleep Awareness Roundtable.
    NSF and NSART have actively been involved in conducting outreach to 
public health officials and are currently working to develop a national 
action plan. This document will address ways to organize and implement 
effective public and professional awareness and education initiatives 
primarily aimed at the diagnosis and treatment of obstructive sleep 
apnea and the promotion of sleep as a healthy behavior. NSART is 
seeking to expand its membership by reaching out to new organizations 
and State and Federal agencies that are interested in raising awareness 
of sleep issues and implementing NSART initiatives.
    Although the CDC has taken initial steps to begin to consider how 
sleep affects public health issues, the agency needs additional 
resources to take appropriate actions, as recommended by the IOM and 
other governmental reports.
    Expanded funding for sleep and sleep disorder-related activities 
would allow the CDC to create much needed educational programs for 
schools and occupational settings and training materials for current 
and future health professionals; build and test public health 
interventions; expand surveillance and epidemiological activities; and 
create further fellowships and research opportunities. The following 
are detailed scenarios for various funding levels.
  --$2 million:
    --Expand Surveillance on BRFSS.--CDC could double the number of 
            grants it provides to States to use the optional sleep 
            module and include more core questions in the nationwide 
            data collection through the Behavioral Risk Factor 
            Surveillance System. CDC would also expand its 
            participation in and funding of national public and 
            professional initiatives as well as the goals and 
            activities of the National Sleep Awareness Roundtable.
  --$5 million--All activities detailed in the $2 million scenario, 
        plus:
    --Public Education.--CDC could support the development of a 
            national sleep health communications campaign that use 
            targeted approaches for delivering sleep-related messages, 
            especially in public schools and workplaces. Currently, no 
            such programs exist.
    --Training Materials.--Tools and programs could be developed for 
            current and future health professionals, including school 
            nurses, to promote sleep as a healthy behavior and increase 
            the diagnosis and treatment of sleep disorders. Today, most 
            health care professionals receive no such training, which 
            increases the Nation's health burden.
    NSF and members of the National Sleep Awareness Roundtable believe 
that an ongoing partnership with CDC is critical to address the 
enormous public health impact of sleep and sleep disorders. We hope 
that the Committee will provide funding of $5,000,000 to the CDC to 
execute programs as outlined here.
    Thank you again for the opportunity to present you with this 
testimony.
                                 ______
                                 
  Prepared Statement of the National Technical Institute for the Deaf

    Mr. Chairman and members of the subcommittee: I am pleased to 
present the fiscal year 2010 budget request for NTID, 1 of 8 colleges 
of Rochester Institute of Technology (RIT), in Rochester, New York. 
Created by Congress, we provide university technical education, serving 
a total of 1,450 students, including 1,284 deaf and hard-of-hearing 
students from across the Nation and 166 hearing students. NTID students 
live, study, and socialize with more than 15,000 hearing students on 
the RIT campus.
    NTID has fulfilled our mission with distinction for 41 years.

                             BUDGET REQUEST

    This request details the importance of obtaining our full fiscal 
year 2010 request of $71,352,000. We ask for $65,952,000 for continuing 
operations and $5,400,000 for construction to replace aging mechanical 
systems as detailed below. The NTID and President's requests are:

                                            [In millions of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                    Operations     Construction        Total
----------------------------------------------------------------------------------------------------------------
NTID request....................................................          65,952           5,400          71,352
President's request \1\.........................................          63,037           5,400          68,437
                                                                 -----------------------------------------------
      Difference................................................           2,915  ..............           2,915
----------------------------------------------------------------------------------------------------------------
\1\ These numbers are our understanding of what the President will submit to Congress.

    We respectfully request your support of our full appropriation 
request. We do not request new operations funding for additional 
academic programs or headcount; instead, we commit to fund increases, 
if any, through reallocating resources. This commitment continues our 
history of funding changes through internal reallocation. From fiscal 
year 2003 through fiscal year 2007 we documented $6,200,000 in budget 
reductions, including the elimination of 49 headcounts, and increasing 
our revenues. These difficult savings allowed us to improve our 
programs and services while limiting our request for Federal support. 
As one example, we dramatically increased the number of captionists 
employed to deliver in-classroom speech-to-text real-time access 
services to students, without additional funding.
    We are proud of those cost savings and reallocations 
accomplishments.
    Our fiscal year 2010 operations request represents costs driven by 
personnel and health benefits, as well as payment for services provided 
by RIT that are subject to the same inflationary pressures. The 
significant enrollment increases detailed below add proportionally to 
anticipated costs. We do not ask for funds to address program 
modifications; we will reallocate to meet those needs.

                               ENROLLMENT

    As we prepare to enter fiscal year 2010, we do so having attracted, 
in fiscal year 2009, the largest enrollment in our 41-year history. 
Truly a national program, NTID enrolls students from all 50 States. 
Current enrollment of 1,450; in the last 2 years our enrollment has 
increased by 200 students, an increase of 16 percent. For fiscal year 
2010, NTID anticipates maintaining or slightly increasing enrollment. 
Our 5-year enrollment history follows.

                                                           NTID ENROLLMENTS: FIVE-YEAR HISTORY
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                     Deaf/Hard-of-Hearing students                              Hearing students
                                                ---------------------------------------             ----------------------------------------
                  Fiscal year                                                             Subtotal   Interpreting                            Grand total
                                                  Undergrad     Grad RIT       MSSE                     program        MSSE       Subtotal
--------------------------------------------------------------------------------------------------------------------------------------------------------
2005...........................................        1,055           42           49        1,146           100           35          135        1,281
2006...........................................        1,013           53           38        1,104           116           36          152        1,256
2007...........................................        1,017           47           31        1,095           130           25          155        1,250
2008...........................................        1,103           51           31        1,185           130           28          158        1,353
2009...........................................        1,212           48           24        1,284           135           31          166        1,450
--------------------------------------------------------------------------------------------------------------------------------------------------------


                        STUDENT ACCOMPLISHMENTS

    For our graduates, 95 percent have been placed in jobs commensurate 
with the level of their education (using the Bureau of Labor Statistics 
methodology). Of our fiscal year 2007 graduates (the most recent class 
for which numbers are available), 63 percent were employed in business 
and industry, 29 percent in education/nonprofits, and 8 percent in 
Government.
    Graduation from NTID has a significant, positive effect on earnings 
over a lifetime, and results in a noteworthy reduction in dependence on 
welfare programs. In fiscal year 2007, NTID, the Social Security 
Administration, and Cornell University examined approximately 13,000 
deaf and hard-of-hearing individuals who applied and attended NTID over 
our entire history. We learned NTID graduation has significant economic 
benefits. By age 50, deaf and hard-of-hearing baccalaureate graduates 
earned on average $6,021 more per year than those with associate 
degrees, who in turn earned $3,996 more per year on average than those 
who withdraw. Students who withdraw earned $4,329 more than those who 
were not admitted. Students who withdrew experienced twice the rate of 
unemployment as graduates.
    The same studies showed 78 percent of these individuals were 
receiving Supplemental Security Income (SSI) benefits at age 19, but 
when they were 50 years old, only 1 percent of graduates drew these 
benefits, while on average 19 percent of individuals who withdrew or 
were rejected for admission continued to participate in the SSI 
program. Graduates also accessed Social Security Disability Insurance 
(SSDI), an unemployment benefit, at far lesser rates than students who 
withdrew; by age 50, 34 percent of nongraduates were receiving SSDI, 
while only 22 percent of baccalaureate graduates were receiving them 
and only 27 percent of associate graduates were receiving them. 
Considering the reduced dependency on these Federal income support 
programs, the Federal investment in NTID returns significant societal 
dividends.
    NTID clearly makes a significant, positive difference in earnings, 
and in lives.

          NEW ``MILITARY VETERANS WITH HEARING LOSS'' PROGRAM

    In fiscal year 2010, NTID will establish the ``Military Veterans 
with Hearing Loss'' program to enroll veterans who have suffered 
significant hearing loss as a result of their military service. 
Recently returned veterans with hearing loss can earn bachelor or 
graduate-level degrees at RIT with access services--such as real-time 
captioning and notetaking in the classroom--from NTID. Our faculty and 
staff are experienced in helping those with sudden hearing loss, and we 
provide comprehensive services for those with hearing aids or cochlear 
implants.
    The access services provided at NTID are unparalleled. More than 50 
classroom captionists provide real-time captioning to students. More 
than 120 sign language interpreters support students who benefit from 
interpreting.
    As many as 10 veterans could be admitted each year, growing to 50 
veterans over time. (RIT also recently announced it will become a 
``Yellow Ribbon'' institution.)

                              CONSTRUCTION

    For the past 3 years, NTID has informed Congress of on-going 
planning to replace the deteriorating 25 boilers and 23 chillers in 
individual buildings throughout the RIT campus. Existing heating, 
ventilation and air conditioning systems remain from the original 
campus construction more than 40 years ago. Although prudent in 
providing on-going maintenance, RIT/NTID reached a point where normal 
maintenance was no longer feasible and the decision was reached to 
replace the existing system with five new boilers and seven new 
chillers.
    All of the buildings and spaces devoted to NTID programs across the 
RIT campus are connected to this system. An analysis determined the 
square footage used by NTID in each building serviced by the new 
system, and the resulting proportion of the total expenses was 
allocated to NTID. That analysis showed that NTID buildings and other 
spaces utilized 15 percent of the total square footage. With a total 
project cost of $36,000,000, NTID is responsible for $5,400,000 (15 
percent) of the total cost, which we request for fiscal year 2010.
    In addition to discussions with Congress, this request has been 
discussed repeatedly over several years with the U.S. Department of 
Education (ED); presentations and facilities tours were provided during 
oversight visits to NTID. We understand that the President supports 
this request, and we ask that Congress also support this construction 
cost.

                            NTID BACKGROUND

Academic Programs
    NTID offers high-quality, career-focused, associate degree programs 
preparing students for specific well-paying technical careers. A 
cooperative education component ties closely to high-demand employment 
opportunities. Expanding transfer associate degree programs better 
serve the higher achieving segment of our student population who seek 
bachelors and masters degrees in an increasingly demanding marketplace. 
These transfer programs provide seamless transition to baccalaureate 
studies in other colleges of NTID where we support students in 
baccalaureate programs with access services and tutoring. One of NTID's 
greatest strengths is our outstanding track record of assisting high-
potential students gain admission to and graduate from the other 
colleges of RIT at rates that are better than their hearing peers.
Research
    Our research program is guided and organized according to these 
general research areas: language and literacy, teaching and learning, 
sociocultural influences, career development, technology integration, 
and institutional research. All benefit the deaf and hard-of-hearing 
population.
Outreach
    Extended outreach activities to junior/senior high school students, 
expand their horizons regarding a college education. We also serve 
other universities and postcollege adults.
Student Life
    Our activities foster student leadership and community service, and 
provide opportunities to explore other educational interests.

                                SUMMARY

    It is extremely important that our funding be provided at the full 
level requested as we continue our mission to prepare deaf and hard-of-
hearing people to enter the workplace and society.
    Our alumni have demonstrated that they can achieve independence, 
contribute to society, earn a living, and live a satisfying life as a 
result of NTID. Research shows that NTID graduates over their lifetimes 
are employed at a much higher rates, earn substantially more (therefore 
paying significantly more in taxes), and participate at a much lower 
rate in Federal welfare programs than those who withdraw or who apply 
but do not attend NTID.
    We are hopeful that the members of the subcommittee will agree that 
NTID, with its long history of successful stewardship of Federal funds 
and outstanding educational record of service with deaf and hard-of-
hearing people, remains deserving of your support and confidence.
                                 ______
                                 
         Letter From the National Union of Labor Investigators

    Dear Sir or Madam: Before the budget for the Department of Labor, 
Office of Labor-Management Standards (OLMS) is approved, please 
consider the 43 employees who were recently deemed ``unaffordable'' 
because of budget shortfalls, and please consider the OLMS's re-
organization in 2008, a reorganization that now seems morally 
reprehensible. ``Fiscal Year 2010 Budget Shortfalls and Solutions'' was 
presented to OLMS employees on May 8, 2009, and during that 
presentation Deputy Assistant Secretary Andrew Auerbach said that OLMS 
hired just about as many investigators as it could afford because OLMS 
had been criticized for leaving itself understaffed.
    The presentation went on to point out that approximately $4.5 
million cut from the OLMS budget would return OLMS to its 2003 staffing 
level, and that OLMS's mission would not be compromised because 
workload and productivity have remained (relatively) constant since 
2003. The presentation reported 260 full-time employees in fiscal year 
2003, and 303 full-time employees in fiscal year 2009. The result, we 
were told, is that 43 OLMS employees are no longer affordable.
    The tone taken during the presentation was that the result was 
unavoidable. However, OLMS's reorganization in 2008 moved all managers 
to a higher pay grade, and given the current budget shortfalls, and the 
speed with which the reorganization took place, it seems less like a 
move intended to improve OLMS's effectiveness, and more like a case of 
traders with inside information dumping stocks just before the company 
that issued them goes bankrupt. Managers at every level, and in every 
office, warned their investigators of potential budget cuts and of the 
affect they might have on OLMS, and yet management went forward with a 
reorganization that exacerbated OLMS's budget crisis.
    It seems that if an unaltered work load and unaffected productivity 
has been used to defend OLMS's $4.5 million budget cut, the same logic 
should be applied to the reorganization. If their job responsibilities 
have not changed since 2003, why were OLMS managers given a raise in 
pay and grade, and why haven't managers been returned to their 2003 GS 
levels in order to address the budget shortfall? If all OLMS management 
positions were returned to their 2003 pay grade, would (all) 43 
employees have become unaffordable?
    I appreciate your consideration of this matter.
            Sincerely,
                                                     Bennett Allen.
                                 ______
                                 
         Letter From the National Union of Labor Investigators
                                                      May 11, 2009.
Hon. Tom Harkin,
Chairman, Subcommittee on Labor, Health and Human Services, and 
        Education, and Related Agencies,
Washington, DC.
    Dear Subcommittee on Labor, Health and Human Services, and 
Education, and Related Agencies Members: The new budget is out and our 
agency, Office of Labor Management Standards (OLMS), within the 
Department of Labor suffered a severe reduction in our budget. On May 
8, 2009, all employees of OLMS were notified that 43 positions were 
deemed unaffordable by the Employment Standards Administration (ESA), 
which OLMS falls under. As of the same date, 20 employees were 
involuntarily transferred to other agencies. They have 5 days to agree 
to this or lose their job. Though it was repeated this was not a 
Reduction in Force (RIF), this is essentially what has occurred.
    Additionally, the remaining 23 employees/positions have not been 
identified. OLMS is represented by an independent union, created in 
1971, the National Union of Labor Investigators (NULI). Despite an 
official union request seeking documents regarding the reorganization, 
nothing has been provided to NULI that represents all bargaining unit 
employees. Anxiety runs high as OLMS employees cannot know whether they 
are one of the designated 23 employees, and whether they should 
immediately look for work.
    NULI cannot possibly negotiate the impact of a plan that they do 
not have and cannot obtain. OLMS has essentially ignored the collective 
bargaining agreement negotiated by OLMS and NULI; and the right of NULI 
as the sole and exclusive bargaining representative for all unit 
employees. Regardless of the political powers, reasonable notice is 
still warranted. Rights of working people should be respected.
    In 1959, the Labor Management Reporting and Disclosure Act was 
enacted to correct the abuses which had crept into labor and management 
which was revealed during the investigations of the McClellan 
Committee. The Secretary of Labor administers and enforces the act.
    Shortly after the election of President Obama, the AFL-CIO wrote a 
proposal entitled AFL-CIO 2008 Transition Project Recommendations for 
the Obama Administration: Regulations of Union Finances and Elections 
Under the Labor Management and Disclosure Act that was provided to the 
Obama-Biden Transition team. Their recommendations asked for immediate 
revocation of revisions made to union financial disclosures. This was 
essentially enacted. They recommended a scaling back of OLMS' 
enforcement efforts. This, too, was enacted.
    Additionally, the transition team evaluating the OLMS was headed by 
Deborah Greenfield, former AFL-CIO Associate General Counsel. Her first 
stop in that position was to OLMS. Ms. Greenfield was one of the 
attorney's suing OLMS on behalf of the AFL-CIO. According to a recent 
Washington Times article, Ms. Greenfield currently is in charge of the 
Department's Executive Secretariat's office, which handles much of the 
correspondence for Secretary Solis. This appears to be in violation of 
President Obama's pledge to the American public when he said:

    ``No political appointees in an Obama-Biden administration will be 
permitted to work on regulations or contracts directly and 
substantially related to their prior employer for two years.''

    OLMS is not a partisan issue; it is about protecting the money and 
the democratic rights of American workers who engage in legitimate 
union activity. We are the only agency, created by Congress, to oversee 
and protect the rights of union workers. Allowing the budget to pass as 
is, allows for the rights of American workers to be trampled on.
    The rationale and the statistics provided to justify the decrease 
in funding and reduction in staff are gravely misconstrued and 
misleading. The Secretary of Labor has now directed OLMS to reduce the 
number of staff back to the levels when union officers and employees 
rest assured that the Government could not closely monitor or oversee 
their actions. As a society we are aware that when the Government 
cannot monitor, oversee, or enforce Federal law, those affected by 
those laws are left susceptible to violations of the law. What does 
this mean? It simply means that hard-working Americans who are union 
members may be subjected to an increase of theft: theft of their hard-
working union dues and theft of their right to democracy in their 
union.
    I understand that our economy is currently struggling and we all 
need to make sacrifices. Every other agency within the Department of 
Labor has seen an increase in funding, except ours. While I greatly 
applaud the Secretary's efforts to bring back enforcement in areas that 
have been sorely underfunded in recent years, it seems somewhat 
antithetical that the one area that protects a large portion of the 
America's workers are scaled back. Let's not hurt the American workers 
more by allowing their hard earned money to be misused or having their 
democratic rights within the union reduced.
    I write to you not only as an employee but as a union member as 
well. I urge the Subcommittee on Labor, Health and Human Services, and 
Education, and Related Agencies to ask for a full inquiry and 
accounting into the reasoning behind the reductions of the OLMS budget 
and who will truly benefit from the lack of enforcement. I also ask 
that prior to approving the budget to please educate yourself on the 
true role and purpose of OLMS.
    Union rights are human rights. Whether you are for or against labor 
unions, they are an essential component for any true democracy. Cutting 
funding will only make unions weaker by reducing the rank and file's 
faith in their union leadership.
    Thank you for you time and consideration.
            Sincerely,
                                               Elizabeth Messenger.
                                 ______
                                 
         Prepared Statement of the National Wildlife Federation

    Mr. Chairman, members of the subcommittee, on behalf of the 
National Wildlife Federation (NWF), our Nation's largest conservation 
advocacy and education organization, and our more than 4 million 
members and supporters, I thank you for the opportunity to provide 
funding recommendations for the Department of Education, Department of 
Labor (DOL), and the Corporation for National and Community Service 
(CNCS).
    We believe that the overall Federal investment in environmental 
education and sustainability education programs nationwide--pennies per 
capita--is woefully inadequate. While NWF supports numerous programs 
under the jurisdiction of this subcommittee, the purpose of this 
testimony is to recommend levels of funding for specific sustainability 
education, green jobs education and training, and national service 
programs that we believe are vital to NWF's mission to inspire 
Americans to protect wildlife for our children's future. NWF also 
supports climate change education and environmental education programs 
across the Federal agencies at the U.S. Forest Service, Environmental 
Protection Agency, National Science Foundation, National Space and 
Atmospheric Administration, National Oceanic and Atmospheric 
Administration, and U.S. Department of the Interior.

                                           SUMMARY OF RECOMMENDATIONS
----------------------------------------------------------------------------------------------------------------
                                                                    Fiscal year 2010
                Agency                         Program               recommendation       Fiscal year 2009 level
----------------------------------------------------------------------------------------------------------------
Education............................  University               $50 million............  Not authorized in
                                        Sustainability Program.                           fiscal year 2009
Education............................  Healthy High             $25 million............  None
                                        Performance Schools.
Labor................................  Green Jobs Act.........  $125 million...........  Funded at $500 million
                                                                                          total in ARRA
Labor................................  Community Based Jobs     $250 million--green      $125 million
                                        Training Grants.         prior-  ity.
CNCS.................................  Clean Energy Service     $100 million...........  Not authorized in
                                        Corps.                                            fiscal year 2009
----------------------------------------------------------------------------------------------------------------

   THE NEED FOR ENVIRONMENTAL EDUCATION AND SUSTAINABILITY EDUCATION

    As our Nation moves towards a clean energy economy and creates new 
``green jobs,'' we must ensure that our education and training 
infrastructure keeps pace. Congress and President Obama have stated 
their desire to cap global warming pollution this year, a priority that 
NWF strongly supports. To be successful as a Nation under a new cap and 
trade system, we must have an environmentally literate citizenry that 
has the knowledge and skills to find new and innovative solutions to 
protect our planet. While public awareness and concern about global 
warming continues to rise, the vast majority of the public does not 
understand how climate change works, how it impacts their lives and 
careers, and how their decisions and actions contribute to it. Consider 
the following examples:
  --Survey research shows that most Americans do not know what the 
        carbon cycle is or understand what actually causes global 
        warming. They do not know how most electricity is generated or 
        the importance of healthy forests and oceans in generating 
        oxygen and absorbing carbon dioxide.
  --Less than half of the population recognizes that the cars and 
        appliances they use contribute to global warming, and 8 out of 
        10 parents admit that they know ``little'' to ``nothing'' about 
        the specific causes of climate change.
  --The average high school student fails a quiz on the causes and 
        consequences of climate change (nearly 82 percent of 
        participants affirmed, incorrectly, that ``scientists believe 
        radiation from nuclear power plants cause global temperatures 
        to rise'').
    Educating Americans about climate change is a huge opportunity for 
our Nation to prepare today's leaders, and the leaders of tomorrow, to 
implement the solutions created by a cap and trade system. Addressing 
global warming will generate millions of good new jobs and put the 
United States at the exciting forefront of a new clean energy economy. 
The successful transition to this new green economy hinges on education 
and training. This testimony focuses on key programs that educate and 
train Americans at institutions of higher education, through 
conservation corps programs that educate and train at-risk youth for 
careers in clean energy, and through green workforce education and 
training programs through the Department of Labor.

                        DEPARTMENT OF EDUCATION

University Sustainability Program (USP)
    The National Wildlife Federation supports funding the newly 
authorized USP at $50 million in fiscal year 2010. Interest in 
sustainability is exploding on college campuses across the Nation, and 
institutions are making remarkable changes to try to reduce campus 
carbon footprints and energy use. However, despite increasing interest 
and demand from students, sustainability education programs on college 
campuses are on the decline according to a comprehensive study released 
in August 2008 by NWF and Princeton Survey Research Associates 
International, called the ``Campus Environment 2008: A National Report 
Card on Sustainability in Higher Education.'' Environmental curriculum 
requirements are slipping and today's students may be less 
environmentally literate when they graduate than their predecessors.
    Congress authorized a new USP at the Department of Education as 
part U of the recently enacted Higher Education Opportunity Act of 2008 
(H.R. 4137). This program has the potential for high-impact, high-
visibility, broad support within higher education, and is responsive to 
an important national trend in higher education. Sustainability on 
college campuses is critical, from education in the classroom to 
facility operations. Higher education produces almost all of the 
Nation's leaders in all sectors and endeavors, and many college 
campuses are virtually small cities in their size, environmental 
impact, and financial influence. Campuses use vast amounts of energy to 
heat, cool, and light their facilities. In all, the Nation's 4,100 
campuses educate or employ around 20 million individuals and generate 
more than 3 percent of the Nation's GDP. The economic clout of these 
schools is further multiplied by the hundreds of thousands of business 
suppliers, property owners, and other commercial and nonprofit entities 
involved with higher education. Funding for the newly authorized USP is 
critical to help provide difficult-to-get seed funding to launch 
sustainability education programs and to help support mainstream higher 
education associations in including sustainability in their work with 
their member institutions.

                HEALTHY HIGH PERFORMANCE SCHOOLS PROGRAM

    The National Wildlife Federation supports funding the Healthy High 
Performance Schools Program at $25 million in fiscal year 2010. The 
Healthy High Performance Schools Program seeks to facilitate the 
design, construction and operation of high performance schools: 
environments that are not only energy and resource efficient, but also 
healthy, comfortable, well lit, and containing the amenities for a 
quality education. This grant program is critical at a time when energy 
costs for America's elementary and secondary schools are skyrocketing. 
The No Child Left Behind Act (Public Law 107-110, title 5, part D, 
subtitle 18) authorized grants to State education agencies to advance 
the development of ``healthy, high performance'' school buildings. 
States may use the funds to provide information, technical assistance, 
monitor, evaluate, and provide funding to local education agencies for 
healthy, high-performance school buildings. In turn, local agencies may 
use the funding to obtain technical assistance, develop plans that 
address reducing energy and meet health and safety codes, and conduct 
energy audits. Funds may not be used for construction, maintenance, 
repair or renovation of buildings. Research clearly shows that 
improving specific factors such as school indoor environmental quality 
improves attendance, academic performance, and productivity. This 
program has yet to be funded by Congress.
    NWF also supports a priority for funding green Career and Technical 
Education programs and initiatives at the Department of Education.
    While not yet authorized, NWF strongly supports authorization of 
and full funding at $100 million per year for the No Child Left Inside 
(NCLI) Act of 2009, which has the support of more than 1,300 national, 
State, and local organizations representing more than 45 million 
Americans. The central new policy in this legislation is the incentive 
for States to create or update a State Environmental Literacy Plan. 
Environmental Literacy Plans can be developed to meet the needs of each 
State and systemically advance environmental education through the K-12 
education system. These State plans support teacher training and 
professional development and support capacity building for 
environmental education. The House passed a modified version of the 
bill in the 110th Congress by a bipartisan vote of 293-109.

                          DEPARTMENT OF LABOR

    NWF supports a priority for green jobs education and training at 
the Department of Labor though the Workforce Investment Act Adult and 
Youth funding streams, the Energy Efficiency and Renewable Energy 
Worker Training Program, and the Community-Based Job Training program.
Energy Efficiency and Renewable Energy Worker Training Program
    NWF supports funding the Energy Efficiency and Renewable Energy 
Worker Training Program at $125 million in fiscal year 2010. NWF 
greatly appreciates this subcommittee's first-time investment in Green 
Jobs Education and Training in the recent American Recovery and 
Reinvestment Act (ARRA). This unprecedented investment will help 
jumpstart the education and training needed to prepare Americans for 
the clean energy economy. We hope that the subcommittee will fund The 
Green Jobs Act (GJA), title X of the Energy Independence and Security 
Act, which authorizes $125 million per year in grants for an Energy 
Efficiency and Renewable Energy Worker Training Program. NWF is seeking 
$125 million in this fiscal year 2010 bill, recognizing that the 
subcommittee will assess how the investment through ARRA is spent 
before making new funding available. NWF believes it is important to 
make annual investments in this program through the regular 
appropriations process, in addition to necessary infusions of funding 
through stimulus and supplemental bills. This program identifies needed 
skills, develops training programs, and trains workers for jobs in a 
range of green industries, but has a special focus on creating ``green 
pathways out of poverty.'' The program is administered by the 
Department of Labor in consultation with the Department of Energy. ARRA 
responds to already existing skill shortages. The National Renewable 
Energy Lab has identified a shortage of skills and training as a 
leading barrier to renewable energy and energy efficiency growth. This 
labor shortage is only likely to get more severe as baby-boomers 
skilled in current energy technologies retire; in the power sector, for 
example, nearly one-quarter of the current workforce will be eligible 
for retirement in the next 5 to 7 years.
Community-Based Job Training Grants Program
    NWF supports funding the Community-Based Job Training Grants 
Program at $250 million in fiscal year 2010. NWF believes that 
community colleges are critical partners in training and educating the 
next generation of Americans for green jobs. NWF supports a priority 
within this program for green jobs education and training grants. The 
Community-Based Job Training Grants program supports partnerships of 
community colleges, business, and workforce investment boards seeking 
to train workers for high-demand occupations. These competitive grants 
help ensure that efforts funded through the program are well 
coordinated with other local and regional workforce development 
efforts. Community-Based Job Training Grants support workforce training 
for high-growth industries through the Nation's community and technical 
colleges. Their primary purpose is to build community colleges' 
capacity to equip workers with the skills required to succeed in local 
industries.

             CORPORATION FOR NATIONAL AND COMMUNITY SERVICE

Clean Energy Service Corps
    NWF supports funding the Clean Energy Service Corps at $100 million 
in fiscal year 2010. The Clean Energy Service Corps, building on the 
legacy of the depression-era Civilian Conservation Corps and modeled 
after today's Service and Conservation Corps, will address the Nation's 
energy and environmental needs while providing work and service 
opportunities, especially for disadvantaged youth ages 16-25. In a 
manner similar to the Civilian Conservation Corps of the 1930s, 
disconnected young people may be mobilized through this program to 
retrofit, weatherize, and otherwise improve the energy efficiency of 
residential and public facilities that account for more than 40 percent 
of carbon emissions. Specific projects that are authorized include 
weatherizing and retrofitting housing units for low-income households, 
cleaning and improving rivers, and working with schools and youth 
programs to educate students and youth about ways to reduce home energy 
use and improve the environment.

                               CONCLUSION

    Providing Federal support for environmental education, 
sustainability education, green jobs education and training, and green 
national service programs is critical for securing our new clean energy 
future and preparing the next generation for the challenges and 
opportunities ahead.
                                 ______
                                 
       Prepared Statement of the Ovarian Cancer National Alliance

    On behalf of the Ovarian Cancer National Alliance (the Alliance), 
thank you for this opportunity to submit comments for the record 
regarding the Alliance's fiscal year 2010 funding recommendations. We 
believe these recommendations are critical to ensure advances to help 
reduce and prevent suffering from ovarian cancer. For 12 years, the 
Alliance has worked to increase awareness of ovarian cancer and 
advocated for additional Federal resources to support research that 
would lead to more effective diagnostics and treatments.
    As an umbrella organization with 45 State and local organizations, 
the Alliance unites the efforts of survivors, grassroots activists, 
women's health advocates, and healthcare professionals to bring 
national attention to ovarian cancer. Our sole mission is to conquer 
ovarian cancer.
    According to the American Cancer Society, in 2008, more than 22,000 
American women were diagnosed with ovarian cancer and approximately 
15,000 lost their lives to this terrible disease. Ovarian cancer is the 
fifth leading cause of cancer death in women. Currently, more than half 
of the women diagnosed with ovarian cancer will die within 5 years. 
While ovarian cancer has early symptoms, there is no early detection 
test. Most women are diagnosed in stage III or stage IV, when survival 
rates are low. If diagnosed early, more than 90 percent of women will 
survive for 5 years, but when diagnosed later, less than 30 percent 
will.
    In addition, only a few treatments have been approved by the Food 
and Drug Administration for ovarian cancer treatment. These are 
platinum-based therapies and women needing further rounds of treatment 
are frequently resistant to them. More than 70 percent of ovarian 
cancer patients will have a recurrence at some point, underlying the 
need for treatments to which patients do not grow resistant.
    For all of these problems, we urgently call on Congress to 
appropriate funds to find solutions.
    As part of this effort, the Alliance advocates for continued 
Federal investment in the Centers for Disease Control and Prevention's 
(CDC) Ovarian Cancer Control Initiative. The Alliance respectfully 
requests that Congress provide $10 million for the program in fiscal 
year 2010.
    The Alliance also fully supports Congress in taking action on 
ovarian cancer through its recent passage of Johanna's Law: The 
Gynecologic Cancer Education and Awareness Act (Public Law 109-475). 
The Alliance respectfully requests that Congress provide $10 million to 
implement Johanna's Law in fiscal year 2010.
    Further, the Alliance urges Congress to continue funding the 
Specialized Programs of Research Excellence (SPOREs), including the 
four ovarian cancer sites. These programs are administered through the 
National Cancer Institute (NCI) of the National Institutes of Health 
(NIH). The Alliance respectfully requests that Congress provide $6 
billion to NCI for fiscal year 2010.

                                  CDC

The Ovarian Cancer Control Initiative
    As the statistics indicate, late detection and, therefore, poor 
survival are among the most urgent challenges we face in the ovarian 
cancer field. The CDC's cancer program, with its strong capacity in 
epidemiology and excellent track record in public and professional 
education, is well-positioned to address these problems. As the 
Nation's leading prevention agency, the CDC plays an important role in 
translating and delivering at the community level what is learned from 
research, especially ensuring that those populations disproportionately 
affected by cancer receive the benefits of our Nation's investment in 
medical research.
    Prompted by efforts from leaders of the Alliance and championed by 
Representative Rosa DeLauro--with bipartisan, bicameral support--
Congress established the Ovarian Cancer Control Initiative at the CDC 
in November 1999. Congress' directive to the agency was to develop an 
appropriate public health response to ovarian cancer and conduct 
several public health activities targeted toward reducing ovarian 
cancer morbidity and mortality.
    Through the OCCI, the National Comprehensive Cancer Control Program 
is helping States address issues related to ovarian cancer. The program 
currently funds efforts in California, Florida, Michigan, New York, 
Pennsylvania, Texas, and West Virginia. These projects are working to 
develop ovarian cancer health messages for the general public and for 
healthcare providers.

   JOHANNA'S LAW: THE GYNECOLOGIC CANCER EDUCATION AND AWARENESS ACT

    It is critical for women and their healthcare providers to be aware 
of the signs, symptoms and risk factors of ovarian and other 
gynecologic cancers. Often, women and providers mistakenly confuse 
ovarian cancer signs and symptoms with those of gastrointestinal 
disorders or early menopause. While symptoms may seem vague--bloating, 
pelvic or abdominal pain, increased abdominal size and bloating and 
difficulty, eating or feeling full quickly, or urinary symptoms 
(urgency or frequency)--they can be deadly without proper medical 
intervention.
    In recognition of the need for awareness and education, Congress 
unanimously passed Johanna's Law in 2006, enacted in early 2007. This 
law provides for an education and awareness campaign that will increase 
providers' and women's awareness of all gynecologic cancers including 
ovarian. Together, Johanna's Law and the Ovarian Cancer Control 
Initiative will help increase awareness and understanding of ovarian 
cancer and work to reduce ovarian cancer morbidity and mortality.
    Already, with only a small amount of seed money, the CDC has 
launched the Inside Knowledge: Get the Facts About Gynecologic Cancer 
campaign to raise awareness of the five main types of gynecologic 
cancer: ovarian, cervical, uterine, vaginal, and vulvar. Many fact 
sheets, including the ovarian cancer fact sheet, are already available 
on the CDC's Web site for download. The CDC plans to develop broadcast 
advertisements, posters--such as dioramas for bus stops--and other 
print materials, a comprehensive brochure on gynecologic cancers, and 
materials aimed at healthcare providers.

                                  NCI

SPOREs at NIH
    The Specialized Programs of Research Excellence were created by the 
NCI in 1992 to support translational, organ site-focused cancer 
research. The ovarian cancer SPOREs began in 1999. There are four 
currently funded Ovarian Cancer SPOREs located at the MD Anderson 
Cancer Center, the Fred Hutchinson Cancer Research Center, the Fox 
Chase Cancer Center and the Dana Farber/Harvard Cancer Center.
    These SPORE programs have made outstanding strides in understanding 
ovarian cancer, as illustrated by their more than 300 publications as 
well as other notable achievements, including the development of an 
infrastructure between Ovarian SPORE institutions to facilitate 
collaborative studies on understanding, early detection, and treatment 
of ovarian cancer.
Clinical Trials
    NCI supports clinical research--the only way to test the safety and 
efficacy of potential new treatments for ovarian cancer. Two recent 
studies from NCI clinical trials show the impact of intraperitoneal 
chemotherapy in treating ovarian cancer (when chemotherapy is 
introduced directly into the woman's abdominal cavity, rather than her 
bloodstream) and the importance of ultrasound expertise in properly 
diagnosing the disease.
    NCI supports the Gynecology Oncology Group (GOG), a more than 50-
member collaborative focusing on cancers of the female reproductive 
system. In 2007 alone, GOG published 23 articles about ovarian cancer.

                                SUMMARY

    The Alliance maintains a long-standing commitment to work with 
Congress, the administration, and other policy makers and stakeholders 
to improve the survival rate for women with ovarian cancer through 
education, public policy, research, and communication. Please know we 
appreciate and understand that our Nation faces many challenges and 
Congress has limited resources to allocate; however, we are concerned 
that without increased funding to bolster and expand ovarian cancer 
education, awareness and research efforts, the Nation will continue to 
see growing numbers of women losing their battle with this terrible 
disease.
    On behalf of the entire ovarian cancer community--patients, family 
members, clinicians, and researchers--we thank you for your leadership 
and support of Federal programs that seek to reduce and prevent 
suffering from ovarian cancer. Thank you in advance for your support of 
$10 million in fiscal year 2010 funding for the CDC's Ovarian Cancer 
Control Initiative and $10 million in fiscal year 2010 funding for 
Johanna's Law as well as your continued support of the SPORES program, 
an appropriation of $6 billion to NCI.
                                 ______
                                 
           Prepared Statement of the Oncology Nursing Society

                                OVERVIEW

    The Oncology Nursing Society (ONS) appreciates the opportunity to 
submit written comments for the record regarding fiscal year 2010 
funding for cancer and nursing-related programs. ONS, the largest 
professional oncology group in the United States, composed of more than 
37,000 nurses and other health professionals, exists to promote 
excellence in oncology nursing and the provision of quality care to 
those individuals affected by cancer. As part of its mission, ONS 
honors and maintains nursing's historical and essential commitment to 
advocacy for the public good.
    In 2009, an estimated 1.44 million Americans will be diagnosed with 
cancer, and more than 565,650 will lose their battle with this terrible 
disease; at the same time the national nursing shortage is expected to 
worsen. Overall, age is the number one risk factor for developing 
cancer. Approximately 77 percent of all cancers are diagnosed at age 55 
and older.\1\ Despite these grim statistics, significant gains in the 
war against cancer have been made through our Nation's investment in 
cancer research and its application. Research holds the key to improved 
cancer prevention, early detection, diagnosis, and treatment, but such 
breakthroughs are meaningless, unless we can deliver them to all 
Americans in need. Moreover, a recent survey of ONS members found that 
the nursing shortage is having an adverse impact in oncology physician 
offices and hospital outpatient departments. Some respondents indicated 
that when a nurse leaves their practice, they are unable to hire a 
replacement due to the shortage--leaving them short-staffed and posing 
scheduling challenges for the practice and the patients. These 
vacancies in all care settings create significant barriers to ensuring 
access to quality care.
---------------------------------------------------------------------------
    \1\ American Cancer Society. Cancer Facts and Figures 2008. http://
www.cancer.org/downloads/STT/2008CAFFfinalsecured.pdf.
---------------------------------------------------------------------------
    To ensure that all people with cancer have access to the 
comprehensive, quality care they need and deserve, ONS advocates 
ongoing and significant Federal funding for cancer research and 
application, as well as funding for programs that help ensure an 
adequate oncology nursing workforce to care for people with cancer. ONS 
stands ready to work with policymakers at the local, State, and Federal 
levels to advance policies and programs that will reduce and prevent 
suffering from cancer and sustain and strengthen the Nation's nursing 
workforce. We thank the subcommittee for its consideration of our 
fiscal year 2010 funding request detailed below.

    SECURING AND MAINTAINING AN ADEQUATE ONCOLOGY NURSING WORKFORCE

    Oncology nurses are on the front lines in the provision of quality 
cancer care for individuals with cancer--administering chemotherapy, 
managing patient therapies and side effects, working with insurance 
companies to ensure that patients receive the appropriate treatment, 
providing treatment education and counseling to patients and family 
members, and engaging in myriad other activities on behalf of people 
with cancer and their families. Cancer is a complex, multifaceted 
chronic disease, and people with cancer require specialty-nursing 
interventions at every step of the cancer experience. People with 
cancer are best served by nurses specialized in oncology care, who are 
certified in that specialty.
    As the overall number of nurses is expected to drop precipitously 
in the coming years, we likely will experience a commensurate decrease 
in the number of nurses trained in the specialty of oncology. With an 
increasing number of people with cancer needing high-quality 
healthcare, coupled with an inadequate nursing workforce, our Nation 
could quickly face a cancer care crisis of serious proportion, with 
limited access to quality cancer care, particularly in traditionally 
underserved areas. A study in the New England Journal of Medicine found 
that nursing shortages in hospitals are associated with a higher risk 
of complications--such as urinary tract infections and pneumonia, 
longer hospital stays, and even patient death.\2\ Without an adequate 
supply of nurses, there will not be enough qualified oncology nurses to 
provide the quality cancer care to a growing population of people in 
need, and patient health and well-being could suffer.
---------------------------------------------------------------------------
    \2\ Needleman J., Buerhaus P., Mattke S., Stewart M., Zelevinsky K. 
``Nurse-Staffing Levels and the Quality of Care in Hospitals.'' New 
England Journal of Medicine 346:, (May 30, 2002): 1715-1722.
---------------------------------------------------------------------------
    Of additional concern is that our Nation also will face a shortage 
of nurses available and able to conduct cancer research and clinical 
trials. With a shortage of cancer research nurses, progress against 
cancer will take longer because of scarce human resources coupled with 
the reality that some practices and cancer centers' resources could be 
funneled away from cancer research to pay for the hiring and retention 
of oncology nurses to provide direct patient care. Without a sufficient 
supply of trained, educated, and experienced oncology nurses, we are 
concerned that our Nation may falter in its delivery and application of 
the benefits from our Federal investment in research.
    ONS has joins with President Obama and others in the nursing 
community in advocating $263 million as the fiscal year 2010 funding 
level necessary to support implementation of the Nurse Reinvestment Act 
and the range of nursing workforce development programs housed at the 
U.S. Health Resources and Services Administration (HRSA). Enacted in 
2002, the Nurse Reinvestment Act (Public Law 107-205) included new and 
expanded initiatives, including loan forgiveness, scholarships, career 
ladder opportunities, and public service announcements to advance 
nursing as a career. Despite the enactment of this critical measure, 
HRSA fails to have the resources necessary to meet the current and 
growing demands for our Nation's nursing workforce. For example, in 
fiscal year 2008 HRSA received 6,078 applications for the Nurse 
Education Loan Repayment Program, but only had the funds to award 435 
of those applications.\3\ Also, in fiscal year 2008 HRSA received 4,894 
applications for the Nursing Scholarship Program, but only had funding 
to support 172 awards.\4\
---------------------------------------------------------------------------
    \3\ U.S. Health Resources and Services Administration: Nurse 
Education Loan Repayment Program: http://bhpr.hrsa.gov/nursing/
loanrepay.htm. Accessed April 22, 2009.
    \4\ U.S. Health Resources and Services Administration: Nursing 
Scholarship Program Statistics: http://bhpr.hrsa.gov/nursing/
scholarship/. Accessed April 22, 2009.
---------------------------------------------------------------------------
    A number of years ago, one of the biggest factors associated with 
the shortage was a lack of interested and qualified applicants. Due to 
the efforts of ONS, our nursing community partners, and other 
interested stakeholders, the number of applicants is growing. As such, 
now one of the greatest factors contributing to the shortage is that 
nursing programs are turning away qualified applicants to entry-level 
baccalaureate programs, due to a shortage of nursing faculty. According 
to the American Association of Colleges of Nursing (AACN), U.S. nursing 
schools turned away 50,000 qualified applicants from baccalaureate and 
graduate nursing programs in 2008, due to insufficient number of 
faculty and inadequate resources.\5\ Of those potential students, 
nearly 7,000 were students pursuing a master's or doctoral degree in 
nursing, which is the education level required to teach. Within the 
next decade, it is expected that half of all nurse faculty will reach 
retirement age.\6\ Given the expected wave of retirement among faculty, 
the nurse faculty shortage is only expected to worsen as there are 
insufficient numbers of candidates in the pipeline to take their 
places. The number of full-time nursing faculty required to ``fill the 
nursing gap'' is approximately 40,000, and, currently, there are less 
than 20,000 full-time nursing faculty in the system.
---------------------------------------------------------------------------
    \5\ American Association of Colleges of Nursing ,``2006-2007 
Enrollment and Graduations in Baccalaureate and Graduate Programs in 
Nursing.'' http://www.aacn.nche.edu/IDS/datarep.htm, March 2007.
    \6\ Preliminary Results: ``National Survey of Nurse Educators: 
Compensation, Workload, and Teaching Practices.'' National League of 
Nursing/Carnegie Foundation. (February 7, 2007) http://www.nln.org/
newsreleases/pres_budget2007.htm.
---------------------------------------------------------------------------
    With additional funding in fiscal year 2010, the HRSA Workforce 
Development Programs will have much-needed resources to address the 
multiple factors contributing to the nationwide nursing shortage, 
including the shortage of faculty. Advanced nursing education programs 
play an integral role in supporting registered nurses interested in 
advancing in their practice and becoming faculty. As such, these 
programs must be adequately funded in the coming year.
    ONS strongly urges Congress to provide HRSA with a minimum of $263 
million in fiscal year 2010 to ensure that the agency has the resources 
necessary to fund a higher rate of nursing scholarships and loan 
repayment applications and support other essential endeavors to sustain 
and boost our Nation's nursing workforce. Nurses--along with patients, 
family members, hospitals, and others--have joined together in calling 
upon Congress to provide this essential level of funding. ONS and its 
allies have serious concerns that without full funding, the Nurse 
Reinvestment Act will prove an empty promise, and the current and 
expected nursing shortage will worsen, and people will not have access 
to the quality care they need and deserve.

            SUSTAIN AND SEIZE CANCER RESEARCH OPPORTUNITIES

    Our Nation has benefited immensely from past Federal investment in 
biomedical research at the National Institutes of Health (NIH). ONS has 
joined with the broader health community in advocating a 10 percent 
increase ($33.349 billion) for NIH in fiscal year 2010. This level of 
investment will allow NIH to sustain and build on its research 
progress, while avoiding the severe disruption to advancement that 
could result from a minimal increase. Cancer research is producing 
amazing breakthroughs--leading to new therapies that translate into 
longer survival and improved quality of life for cancer patients. In 
recent years, we have seen extraordinary advances in cancer research, 
resulting from our national investment, which have produced effective 
prevention, early detection, and treatment methods for many cancers. To 
that end, ONS calls upon Congress to allocate $5.957 billion to the 
National Cancer Institute, as well as $227 million to the National 
Center for Minority Health and Health Disparities in fiscal year 2010 
to support the battle against cancer.
    The National Institute of Nursing Research (NINR) supports basic 
and clinical research to establish a scientific basis for the care of 
individuals across the life span--from management of patients during 
illness and recovery, to the reduction of risks for disease and 
disability and the promotion of healthy lifestyles. These efforts are 
crucial in translating scientific advances into cost-effective 
healthcare that does not compromise quality of care for patients. 
Additionally, NINR fosters collaborations with many other disciplines 
in areas of mutual interest, such as long-term care for older people, 
the special needs of women across the life span, bioethical issues 
associated with genetic testing and counseling, and the impact of 
environmental influences on risk factors for chronic illnesses, such as 
cancer. ONS joins with others in the nursing community and NCCR in 
advocating a fiscal year 2010 allocation of $178 million for NINR.

 BOOST OUR NATION'S INVESTMENT IN CANCER PREVENTION, EARLY DETECTION, 
                             AND AWARENESS

    Approximately two-thirds of cancer cases are preventable through 
lifestyle and behavioral factors and improved practice of cancer 
screening. Although the potential for reducing the human, economic, and 
social costs of cancer by focusing on prevention and early detection 
efforts remains great, our Nation does not invest sufficiently in these 
strategies. The Nation must make significant and unprecedented Federal 
investments today to address the burden of cancer and other chronic 
diseases, and to reduce the demand on the healthcare system and 
diminish suffering in our Nation, both for today and tomorrow.
    As the Nation's leading prevention agency, the Centers for Disease 
Control and Prevention (CDC) plays an important role in translating and 
delivering, at the community level, what is learned from research. 
Therefore, ONS joins with our partners in the cancer community in 
calling on Congress to provide additional resources for the CDC to 
support and expand much-needed and proven effective cancer prevention, 
early detection, and risk reduction efforts. Specifically, ONS 
advocates the following fiscal year 2010 funding levels for the 
following CDC programs:
  --$250 million for the National Breast and Cervical Cancer Early 
        Detection Program;
  --$65 million for the National Cancer Registries Program;
  --$25 million for the Colorectal Cancer Prevention and Control 
        Initiative;
  --$50 million for the Comprehensive Cancer Control Initiative;
  --$25 million for the Prostate Cancer Control Initiative;
  --$5 million for the National Skin Cancer Prevention Education 
        Program;
  --$10 million for the Ovarian Cancer Control Initiative; and
  --$6 million for the Geraldine Ferraro Blood Cancer Program.

                               CONCLUSION

    ONS maintains a strong commitment to working with Members of 
Congress, other nursing and oncology societies, patient organizations, 
and other stakeholders to ensure that the oncology nurses of today 
continue to practice tomorrow, and that we recruit and retain new 
oncology nurses to meet the unfortunate growing demand that we will 
face in the coming years. By providing the fiscal year 2010 funding 
levels detailed above, we believe the subcommittee will be taking the 
steps necessary to ensure that our Nation has a sufficient nursing 
workforce to care for the patients of today and tomorrow and that our 
Nation continues to make gains in our fight against cancer.
                                 ______
                                 
Prepared Statement of the Population Association of America/Association 
                         of Population Centers

Introduction
    Thank you, Mr. Chairman Harkin, Mr. Ranking Member Cochran, and 
other distinguished members of the subcommittee, for this opportunity 
to express support for the National Institutes of Health (NIH), the 
National Center for Health Statistics (NCHS), and Bureau of Labor 
Statistics (BLS).
Background on the Population Association of America (PAA)/Association 
        of Population Centers (APC) and Demographic Research
    The Population Association of America (PAA) is a scientific 
organization comprised of more than 3,000 population research 
professionals, including demographers, sociologists, statisticians, and 
economists. The Association of Population Centers (APC) is a similar 
organization comprised of 40 universities and research groups that 
foster collaborative demographic research and data sharing, translate 
basic population research for policy makers, and provide educational 
and training opportunities in population studies. Population research 
centers are located at public and private research institutions, 
including, for example, the University of Wisconsin--Madison, RAND 
Corporation, State University New York Albany, Brown University, Ohio 
State University, University of North Carolina--Chapel Hill, and 
Pennsylvania State University.
    Demography is the study of populations and how or why they change. 
Demographers, as well as other population researchers, collect and 
analyze data on trends in births, deaths, and disabilities as well as 
racial, ethnic, and socioeconomic changes in populations. Major policy 
issues population researchers are studying include the demographic 
causes and consequences of population aging, trends in fertility, 
marriage, and divorce and their effects on the health and well being of 
children, and immigration and migration and how changes in these 
patterns affect the ethnic and cultural diversity of our population and 
the Nation's health and environment.
    The NIH mission is to support research that will improve the health 
of our population. The health of our population is fundamentally 
intertwined with the demography of our population. Recognizing the 
connection between health and demography, the NIH supports extramural 
population research programs primarily through the National Institute 
on Aging (NIA) and the Eunice Kennedy Shriver National Institute of 
Child Health and Human Development (NICHD).
NIA
    According to the Census Bureau, by 2029, all of the baby boomers 
(those born between 1946 and 1964) will be age 65 years and older. As a 
result, the population age 65-74 years will increase from 6 percent to 
10 percent of the total population between 2005 and 2030. This 
substantial growth in the older population is driving policymakers to 
consider dramatic changes in Federal entitlement programs, such as 
Medicare and Social Security, and other budgetary changes that could 
affect programs serving the elderly. To inform this debate, 
policymakers need objective, reliable data about the antecedents and 
impact of changing social, demographic, economic, and health 
characteristics of the older population. The NIA Division of Behavioral 
and Social Research (BSR) is the primary source of Federal support for 
research on these topics.
    In addition to supporting an impressive research portfolio, that 
includes the prestigious Centers of Demography of Aging and Roybal 
Centers for Applied Gerontology Programs, the NIA BSR program also 
supports several large, accessible data surveys. One of these surveys, 
the Health and Retirement Study (HRS), has become one of the seminal 
sources of information to assess the health and socioeconomic status of 
older people in the United States. Since 1992, the HRS has tracked 
27,000 people, providing data on a number of issues, including the role 
families play in the provision of resources to needy elderly and the 
economic and health consequences of a spouse's death. HRS is 
particularly valuable because its longitudinal design allows 
researchers: (1) the ability to immediately study the impact of 
important policy changes such as Medicare Part D; and (2) the 
opportunity to gain insight into future health-related policy issues 
that may be on the horizon, such as HRS data indicating an increase in 
pre-retirees self-reported rates of disability. In 2009 and 2010, HRS 
is seeking to increase its minority sample size and collect unique, 
enhanced data on the effects of the current economic downturn on older 
people.
    With additional support in fiscal year 2010, the NIA BSR program 
could fully fund its existing centers programs and support its ongoing 
surveys without resorting to cost cutting measures, such as cutting 
sample size. Currently, the Demography of Aging and Roybal Centers 
programs are recompeting their 5-year awards. Additional funding may 
give the Institute resources it needs to award more center grants. NIA 
could also use additional resources to improve its funding payline and 
sustain training and research opportunities for new investigators.
NICHD
    Since its establishment in 1968, the NICHD Center for Population 
Research has supported research on population processes and change. 
Today, this research is housed in the Center's Demographic and 
Behavioral Sciences Branch (DBSB). The Branch encompasses research in 
four broad areas: family and fertility, mortality and health, migration 
and population distribution, and population composition. In addition to 
funding research projects in these areas, DBSB also supports a highly 
regarded population research infrastructure program and a number of 
large database studies, including the Fragile Families and Child Well 
Being Study, New Immigrant Study, and National Longitudinal Study of 
Adolescent Health.
    NIH-funded demographic research has consistently provided critical 
scientific knowledge on issues of greatest consequence for American 
families: work-family conflicts, marriage and childbearing, childcare, 
and family and household behavior. However, in the realm of public 
health, demographic research is having an even larger impact, 
particularly on issues regarding adolescent and minority health. 
Understanding the role of marriage and stable families in the health 
and development of children is another major focus of the NICHD DBSB. 
Consistently, research has shown children raised in stable family 
environments have positive health and development outcomes. 
Policymakers and community programs can use these findings to support 
unstable families and improve the health and well-being of children.
    One of the most important programs the NICHD DBSB supports is the 
Population Research Infrastructure Program (PRIP). Through PRIP, 
research is conducted at private and public research institutions 
nationwide. The primary goal of PRIP is ``to facilitate 
interdisciplinary collaboration and innovation in population research, 
while providing essential and cost-effective resources in support of 
the development, conduct, and translation of population research.'' 
Population research centers supported by PRIP are focal points for the 
demographic research field where innovative research and training 
activities occur and resources, including large-scale databases, are 
developed and maintained for widespread use.
    With additional support in fiscal year 2010, NICHD could restore 
full funding to its large-scale surveys, which serve as a resource for 
researchers nationwide. Furthermore, the Institute could apply 
additional resources toward improving its funding payline, which has 
been as low as the 10th percentile prior to the recent infusion of ARRA 
funds. Additional support could be used to support and stabilize 
essential training and career development programs necessary to prepare 
the next generation of researchers and to support and expand proven 
programs, such as PRIP.
NCHS
    Located within the Centers for Disease Control (CDC), NCHS is the 
Nation's principal health statistics agency, providing data on the 
health of the U.S. population and backing essential data collection 
activities. Most notably, NCHS funds and manages the National Vital 
Statistics System, which contracts with the States to collect birth and 
death certificate information. NCHS also funds a number of complex 
large surveys to help policy makers, public health officials, and 
researchers understand the population's health, influences on health, 
and health outcomes. These surveys include the National Health and 
Nutrition Examination Survey (NHANES), National Health Interview Survey 
(HIS), and National Survey of Family Growth. Together, NCHS programs 
provide credible data necessary to answer basic questions about the 
state of our Nation's health.
    Despite a funding increase last year, NCHS continues to feel the 
effects of long-term funding shortfalls, compelling the agency to 
undermine, eliminate, or further postpone the collection of vital 
health data. For example, in 2009, sample sizes in HIS and NHANES have 
been cut, while other surveys, most notably the National Hospital 
Discharge Survey, are not being fielded. In addition, in 2009, NCHS has 
proposed purchasing only ``core items'' of vital birth and death 
statistics from the States (starting in 2010), effectively eliminating 
three-fourths of data routinely used to monitor maternal and infant 
health and contributing causes of death.
    The administration recommends NCHS receive $138 million in fiscal 
year 2010. PAA and APC, as members of The Friends of NCHS, support the 
administration's request, but also hope Congress will give the agency 
an additional $15 million in fiscal year 2010. The additional $15 
million should be designated specifically for supporting the States so 
they can modernize their vital statistics systems and make all 
collections electronic according to the 2003 birth and death 
certificates. If NCHS receives this funding, they can abandon their 
proposal to collect core vs. enhanced vital statistics data as well and 
focus on improving the current system. The underlying fiscal year 2010 
budget request should be targeted at precluding further cuts in key 
surveys and collecting the full panel of vital statistics data.
    If Congress fails to, at a minimum, provide the administration's 
fiscal year 2010 request, NCHS will be forced to eliminate over-
sampling of minority populations in NHANES, which will compromise our 
understanding of health disparities at a time when our society is 
becoming increasingly diverse. Further, we will lose insurance coverage 
information on who's covered and who's not (particularly within 
minority populations), how people are covered and why they're not--at a 
time when Congress and the administration are debating healthcare 
reform. Finally, we will lose vital statistics, adversely affecting the 
amount of data researchers and health practitioners alike need to be 
effective in identifying trends and developing interventions.
BLS
    During these turbulent economic times, data produced by BLS are 
particularly relevant and valued. PAA and APC members have relied 
historically on objective, accurate data from the BLS. In recent years, 
our organizations have become increasingly concerned about the state of 
the agency's funding.
    We are pleased the administration has requested BLS receive a total 
of $611,623,000 in fiscal year 2010, an increase of $14,441,000 more 
than the 2009 enacted level. According to the agency, this funding 
level would enable BLS to meet its highest-priority goals and 
objectives in 2010. Ideally, the agency will receive enough funding not 
only in 2010, but also in future years to invest in research and assure 
continuous improvement of its measures, including the Consumer Price 
Index. We also hope BLS receives sufficient funds to maintain, or 
increase, the sample sizes of key surveys, such as the Current 
Population Survey. It is imperative sample sizes be increased to ensure 
surveys are accurate and providing adequate detail. We also hope fiscal 
year 2010 marks the beginning of a steady, predicable growth trend in 
the BLS budget.
Summary of Fiscal Year 2010 Recommendations
    Despite the generous, short-term funding the NIH received from the 
American Recovery and Reinvestment Act (ARRA), the agency faces 
``falling off the cliff'' in 2011 when ARRA funds expire. Thus, PAA and 
APC, as members of the Ad Hoc Group for Medical Research Funding, are 
asking Congress to provide NIH with and appropriation of $32.4 billion 
in fiscal year 2010, an increase of 7 percent more than the fiscal year 
2009 appropriation. This funding level would put NIH on a stable 
course, ensuring the agency receives an inflationary increase plus 
enough money to support the best research projects, including new and 
innovative projects, and stabilize research training programs in fiscal 
year 2010.
    As part of the NIH request, we also urge the subcommittee to 
appropriate $194.4 million for the National Children's Study (NCS) in 
fiscal year 2010 through the NIH Office of the Director, as proposed by 
the President's budget. This funding will allow for the completion of 
the pilot phase of the NCS.
    PAA and APC, as members of the Friends of NCHS, ask that NCHS 
receive $138 million in fiscal year 2010, with an additional $15 
million set aside for vital statistics infrastructure development. This 
funding is needed to maintain and improve the Nation's vital statistics 
system and to sustain and update the agency's major health survey 
operations.
    Finally, we ask you to support the administration's request, $611.6 
million, for the BLS, in fiscal year 2010.
    Thank you for considering our requests and for supporting Federal 
programs that benefit the field of demographic research.
                                 ______
                                 
 Prepared Statement of the Program for Appropriate Technology in Health

                                OVERVIEW

    Program for Appropriate Technology in Health (PATH) appreciates the 
opportunity to submit written testimony to the Senate Labor, Health and 
Human Services, Education, and Related Agencies Appropriations 
Subcommittee. PATH is a U.S.-based, international nonprofit 
organization that creates sustainable, culturally relevant solutions 
that enable communities worldwide to break longstanding cycles of poor 
health. By collaborating with diverse public- and private-sector 
partners, we help provide appropriate health technologies and vital 
strategies that change the way people think and act. Our work improves 
global health and well-being.
    The broad, ongoing, and successful struggle to improve global 
health relies on the availability of health interventions and 
technologies designed to prevent, diagnose, and treat disease. Although 
some effective interventions already exist, many more will be necessary 
if existing gains against infectious disease and other global health 
burdens are to be maintained and expanded. The drugs currently 
available for use against diseases that disproportionately impact the 
developing world are often too expensive for use in the developing 
world, and are also subject to disease resistance. Vaccines for many of 
these infectious diseases do not yet exist and diagnostic equipment, 
vaccine delivery devices, microbicides, contraceptives, and other 
health technologies appropriate for the developing world are in many 
cases not available or affordable. Achieving sustainable progress in 
the struggle to improve global health will require developing new 
health technologies, and creating or strengthening infrastructures that 
facilitate their availability to those who need them most.
    Several programs funded in the Labor, Health and Human Services, 
and Education appropriations bill make a particularly critical 
contribution to point-of-care diagnostics, a research area that is key 
to improving health in the developing world. In low-resource settings, 
where many diagnostic tests are difficult to perform and laboratories 
are often inaccessible, there is a great opportunity to make 
significant improvements to global health through the development and 
use of appropriate point-of-care diagnostics. In poor countries, 
healthcare facilities can be far away, serving widely dispersed 
populations. Specialized equipment, personnel, and safe waste disposal 
systems are often not available. Without diagnostic testing, healthcare 
professionals have to rely on just evaluating symptoms to diagnose and 
treat illness--an imperfect method given the similarity of symptoms 
between many diseases. This lack of clarity puts individuals, 
communities, and the world in danger. Incorrect diagnoses can harm 
people and even cost lives. And from a global perspective, 
ineffectively treated disease can become a starting point for epidemic 
or pandemic outbreaks.
    Fortunately, there is an array of promising new tests in the 
pipeline--inexpensive, portable, easy-to-use diagnostics that are 
practical at even small, local health centers, and which can deliver 
results the same day. Some are new takes on established technologies 
like the home pregnancy test. Others are exciting scientific advances. 
Effective diagnosis at, or near, the point of care enables better 
application of available treatment, avoids overuse of antibiotics that 
can promote resistant strains of pathogens, and allows healthcare 
workers to track outbreaks and mobilize resources quickly.
    The National Institutes of Health (NIH) and the Centers for Disease 
Control and Prevention (CDC) continue to make significant contributions 
to the development of new health technologies. Generally speaking, NIH 
carries out the critical basic and preclinical research that provides 
the foundation for new product discovery and development, supports and 
conducts clinical trials of promising products, and develops the in-
country research capacity of developing world partners. CDC monitors 
and tracks infectious diseases worldwide, provides those involved in 
the control and prevention of these diseases with the critical 
intelligence they need to implement their programs effectively, 
supports researchers in their work by helping to direct their efforts 
towards the areas with the greatest potential for benefit, and warns 
researchers when new trends or disease strains emerge.
    Point-of-care diagnostics are one of the most critical global 
health technologies whose development of testing is supported by NIH 
and CDC. One example of this support is the ongoing and successful 
partnership between the NIH's National Institute of Biomedical Imaging 
and Bioengineering (NIBIB) and PATH. Working together with an 
investment from NIH/NIBIB, PATH formed the Center for Point-of-Care 
Diagnostics for Global Health (GHDx Center), a diagnostics research, 
development, testing, needs assessment and training program that works 
to improve the availability, accessibility, and affordability of 
essential point-of-care diagnostic tests for use in low-resource 
settings around the world. The GHDx Center, managed by PATH in 
collaboration with its partners at the University of Washington, is on 
the cutting edge of developing new diagnostic tools that can be used in 
developing countries to quickly and accurately diagnose diseases that 
disproportionately impact the developing world, but which until now 
have been difficult to accurately diagnose without laboratory 
facilities or extensively trained medical workers.
    The GHDx Center focuses its work on four main areas that encompass 
the breadth of the health technology product development cycle. The 
GHDx Center performs and supports clinical needs assessments that help 
diagnostics developers target the most pressing global health 
challenges and increase the likelihood of product success. It supports 
exploratory technology projects that could have a significant positive 
impact on public health outcomes. It conducts laboratory and field-
based clinical testing of prototype point-of-care diagnostics. Finally, 
the GHDx Center--in a program led by the University of Washington 
Department of Global Health and Department of Medicine (Division of 
Infectious Diseases)--trains individuals with varied experience and 
backgrounds from the fields of assay and device development, clinical 
laboratories, and disease specialties, with the objective of creating a 
networked group of researchers trained in state-of-the-art technology 
that address the challenges for global health in low-resource settings.
    This extraordinarily promising new program would not have been 
possible without NIH support, and PATH thanks the subcommittee for its 
wise investments in NIH. Without robust funding for NIH and CDC, much 
of the cutting-edge research and development being performed on point-
of-care diagnostics for the developing world would not be taking place. 
While many commercial and nonprofit groups are working on diagnostic 
technologies, they are not necessarily doing so with an eye toward the 
developing world. For example, their efforts often target diseases that 
mainly concern wealthier countries, or they assume that sophisticated 
laboratories and trained personnel will be available to complement and 
operate their diagnostics. In contrast, diagnostic technologies for 
malaria, enteric diseases, hepatitis b, and other conditions whose 
heaviest burden falls on the developing world, or which can be used in 
resource--poor conditions where laboratory equipment are scarce, do not 
have a significant commercial market that incentivizes research and 
development. Without investment by the U.S. Government, efforts to 
develop these diagnostic technologies--and by doing so improve care and 
reduce the development of drug resistance--would be hindered 
significantly. Expanding funds for these agencies would provide a 
powerful boost to point-of-care diagnostic development and 
availability.
    Another area where agencies funded by this subcommittee are making 
a significant contribution to global health is in the ongoing effort to 
develop and test malaria vaccines. Malaria is a devastating parasitic 
disease transmitted through the bite of infected Anopheles mosquitoes. 
More than one-third of the world's population is at risk of malaria, 
with approximately 250 million cases and 1 million deaths per year, the 
vast majority of which occur among African children under the age of 5. 
A malaria vaccine is desperately needed to confront this deadly disease 
and its impact in the developing world. While consistent use of 
effective insecticides, insecticide-treated nets, and malaria medicines 
saves lives, eradicating or even significantly reducing the impact of 
malaria will require additional interventions, including vaccines. 
Immunization is one of the most effective health interventions 
available. Just as it was necessary to use vaccines to control polio 
and measles in the United States, vaccines are needed as part of an 
effective control strategy for malaria.
    Several Federal agencies are involved in the research and 
development of malaria interventions such as vaccines, as is the PATH 
Malaria Vaccine Initiative (MVI). Indeed, many promising vaccine 
concepts would never have emerged from the laboratory without the 
research performed by Government scientists. Government-sponsored 
research is also critical to eliminating from consideration less 
promising approaches. Unfortunately, funding for this critical research 
at NIH and CDC has been relatively flat for several years. By 
increasing investments in NIH and CDC, Congress can help advance the 
day when a highly effective malaria vaccine is available, thereby 
saving many lives.
    Continued progress in our Nation's effort to improve global health 
requires the development of new tools and technologies. Point-of-care 
diagnostics and, eventually, malaria vaccines, are important components 
of the portfolio of needed tools and technologies, and the development 
of those tools and technologies is heavily reliant on Federal support. 
For this reason, we respectfully request that the subcommittee expand 
funding for research and development at NIH and CDC. We very much 
appreciate the subcommittee's consideration of our views, and we stand 
ready to work with subcommittee members and staff on these and other 
important tropical disease matters.
                                 ______
                                 
            Prepared Statement of Prevent Blindness America

                        FUNDING REQUEST OVERVIEW

    Prevent Blindness America (PBA) appreciates the opportunity to 
submit written testimony for the record regarding fiscal year 2010 
funding for vision-related programs. As the Nation's leading nonprofit, 
voluntary organization dedicated to preventing blindness and preserving 
sight, PBA maintains a long-standing commitment to working with 
policymakers at all levels of government, organizations, and 
individuals in the eye care and vision loss community, and other 
interested stakeholders to develop, advance, and implement policies and 
programs that prevent blindness and preserve sight. PBA respectfully 
requests that the subcommittee provide the following allocations in 
fiscal year 2010 to help promote eye health and prevent eye disease and 
vision loss:
  --$4.5 million for the Vision Health Initiative at the Centers for 
        Disease Control and Prevention (CDC);
  --$32.4 billion for the National Institutes of Health (NIH) to 
        support biomedical research; and
  --$736 million for the National Eye Institute (NEI).

                       INTRODUCTION AND OVERVIEW

    Vision-related conditions affect people across the lifespan from 
childhood through elder years. Good vision is an integral component to 
health and well-being, affects virtually all activities of daily 
living, and impacts individuals physically, emotionally, socially, and 
financially. Loss of vision can have a devastating impact on 
individuals and their families. An estimated 80 million Americans have 
a potentially blinding eye disease, 3 million have low vision, more 
than 1 million are legally blind, and 200,000 are more severely 
visually blind. Vision impairment in children is a common condition 
that affects 5 to 10 percent of preschool age children. Vision 
disorders (including amblyopia (``lazy eye''), strabismus (``cross 
eye''), and refractive error are the leading cause of impaired health 
in childhood.
    Of serious concern is that the NEI reports ``the number of 
Americans with age-related eye disease and the vision impairment that 
results is expected to double within the next three decades.'' \1\ 
Among Americans age 40 and older, the four most common eye diseases 
causing vision impairment and blindness are age-related macular 
degeneration (AMD), cataract, diabetic retinopathy, and glaucoma.\2\ 
Refractive errors are the most frequent vision problem in the United 
States--an estimated 150 million Americans use corrective eyewear to 
compensate for their refractive error.\3\ Uncorrected or undercorrected 
refractive error can result in significant vision impairment.\4\
---------------------------------------------------------------------------
    \1\ ``Vision Problems in the U.S.: Prevalence of Adult Vision 
Impairment and Age-Related Eye Disease in America,'' Prevent Blindness 
America and the National Eye Institute, 2008.
    \2\ Ibid.
    \3\ Ibid.
    \4\ Ibid.
---------------------------------------------------------------------------
    While half of all blindness can be prevented through education, 
early detection, and treatment, it is estimated that the number of 
blind and visually impaired people will double by 2030, if nothing is 
done to curb vision problems. To curtail the increasing incidence of 
vision loss in America, PBA advocates sustained and significant Federal 
funding for vision research and application, as well as resources for 
programs that help promote eye health and prevent eye disease, vision 
loss, and blindness. We thank the subcommittee for its consideration of 
our specific fiscal year 2010 funding requests, which are detailed 
below.

  CDC'S VISION HEALTH INITIATIVE: HELPING TO SAVE SIGHT AND SAVE MONEY

    The financial costs of vision impairment to our country's fiscal 
health are staggering. PBA estimates that the annual costs of adult 
vision problems in the United States are approximately $51.4 
billion.\5\ The annual cost of untreated amblyopia--reduced vision in 
an eye that has not received adequate use during early childhood--is 
approximately $7.4 billion in lost productivity.\6\ NEI estimates that 
in 2003 the total direct and indirect costs of visual disorders and 
disabilities in the United States were approximately $68 billion, and 
with each passing year these costs continue to escalate.\7\ Vision care 
services consistently have been found to help prevent blindness, reduce 
vision loss, improve quality of life and well-being, increase 
productivity, and reduce costs and burdens on the Nation's healthcare 
system. Therefore, the Nation must increase access to--and awareness of 
the importance of--vision screenings and linkage to appropriate care 
for at-risk and underserved populations, as is provided by the CDC's 
Vision Health Initiative.
---------------------------------------------------------------------------
    \5\ ``The Economic Impact of Vision Problems,'' Prevent Blindness 
America, 2007.
    \6\ ``Our Vision for Children's Vision: A National Call to Action 
for the Advancement of Children's Vision and Eye Health, Prevent 
Blindness America,''Prevent Blindness America, 2008.
    \7\ Ellwein Leon. Updating the Hu 1981 Estimates of the Economic 
Costs of Visual Disorders and Disabilities.
---------------------------------------------------------------------------
    The CDC reports that ``vision disability is one of the top 10 
disabilities among adults 18 years and older and the single most 
prevalent disabling condition among children.'' \8\ Effective public 
health initiatives can dramatically decrease the number of Americans 
who have vision loss or low vision. Initially funded by Congress in 
fiscal year 2003, the CDC's Vision Health Initiative program has worked 
in a cost-effective way to identify, screen, and link to appropriate 
care individuals at risk for vision loss. This public-private 
partnership combines the resources of the CDC, chronic disease 
directors, State and local Agencies on Aging, and nonprofit 
organizations such as PBA. Highlights of the significant work of the 
CDC's Vision Health Initiative include:
---------------------------------------------------------------------------
    \8\ ``Improving the Nation's Vision Health: A Coordinated Public 
Health Approach,'' Centers for Disease Control, 2006.
---------------------------------------------------------------------------
  --Support for the eye evaluation component of the National Health and 
        Nutrition Examination Survey (NHANES) that provides current, 
        nationally representative data and help assess progress for 
        vision objectives contained within Healthy People 2010 and the 
        future efforts for Healthy People 2020.
  --Development of the first optional Behavioral Risk Factor 
        Surveillance System (BRFSS) vision module and introducing it 
        into State use in 2005 to gather information about access to 
        eye care and prevalence of eye disease and eye injury. Five 
        States implemented the module in 2005, and 11 States began 
        using the module in 2006.
  --Utilization of applied public health research to address the 
        economic costs of vision disorders and develop cost-
        effectiveness models for eye diseases among various 
        populations. Estimating the true economic burden is essential 
        for informing policymakers and for obtaining necessary 
        resources to develop and implement effective interventions.
  --Providing data analyses and a systematic review of interventions to 
        promote screening for diabetic retinopathy and reviewing access 
        to and utilization of vision care in the United States.
  --Developing best practices for the integration of vision care 
        services with community health centers, as well as methods for 
        linking clients to appropriate and needed care.
  --Aiding in the translation of science into programs, services, and 
        policies and in coordinating service activities with partners 
        in the public, private, and voluntary sectors.
    In fiscal year 2009, PBA requested $4.5 million to sustain and 
expand the Vision Health Initiative. In the final fiscal year 2009 
Omnibus Appropriations Act, Congress allocated $3.222 million. PBA 
understands the budgetary challenges facing Congress and the Nation 
and, as such, appreciates this much-needed funding. However, with the 
demographics of eye disease, we strongly feel that a greater investment 
in the Vision Health Initiative must be made, so we can mount an 
adequate effort to address the growing public health threat of 
preventable vision loss among older Americans, low-income, and 
underserved populations.
    To that end, PBA again respectfully requests the subcommittee 
provide a $4.5 million allocation for the Vision Health Initiative. 
Increased fiscal year 2010 funding for this important program will 
support additional vision screenings, increased public awareness 
efforts regarding risk of vision loss, develop best practices for 
linkage to care, and the expansion of eye disease surveillance and 
evaluation systems, which will help ensure our Nation has much-needed 
epidemiological data regarding overall burden and high-risk 
populations, so we can best formulate and assess strategies to prevent 
and reduce the economic and social costs associated with vision loss 
and eye diseases.

            ADVANCE AND EXPAND VISION RESEARCH OPPORTUNITIES

    Our Nation has benefited from past Federal investment in biomedical 
research at the NIH. Unfortunately, due to flat funding over the past 
six appropriations cycles, NIH has lost 14 percent of its purchasing 
power. While we commend Congress for the $10.4 billion in funding 
provided in the American Recovery and Reinvestment Act, PBA joins the 
broader vision community in advocating a 7 percent increase ($32.4 
billion) for NIH in fiscal year 2010. This level of investment will 
allow NIH to sustain and expand its research progress and avoid the 
potential disruption of vital research that could result from a minimal 
increase.
    PBA also calls upon the subcommittee to provide a specific 
allocation of $736 million for the NEI to bolster its efforts to 
identify the underlying causes of eye disease and vision loss, improve 
early detection and diagnosis of eye disease and vision loss, and 
advance prevention and treatment efforts. Celebrating 40 years of 
service this year, NEI is a leading Institute in translating basic 
research into clinical practice. Just as NIH has seen a decline in 
purchasing power, so too has the NEI, an overall decrease of 18 percent 
in the last 6 appropriations cycles. In fiscal year 2009, NEI's funding 
level of $688 million reflected just 1 percent of the estimated $68 
billion annual costs of eye disease and vision impairment. Despite 
significant funding challenges, NEI has maintained its impressive 
record of breakthroughs in basic and clinical research that have 
resulted in treatments and therapies to save and restore vision and 
prevent eye disease. However, NEI will be challenged further, as 2010 
begins the decade in which more than half of the 78 million Baby 
Boomers will turn 65 and be at greatest risk for developing aging eye 
disease. Adequate funding to NEI is a cost-effective investment in our 
Nation's health, as it can delay, save, and prevent eye disease-related 
expenditures, especially to the Medicare and Medicaid programs.

    INVESTING IN THE VISION OF OUR NATION'S MOST VALUABLE RESOURCE--
                                CHILDREN

    While the risk of eye disease increases after the age of 40, eye 
and vision problems in children are of equal concern, due to the fact 
that, if left untreated, they can lead to permanent and irreversible 
visual loss and/or cause problems socially, academically, and 
developmentally. Although more than 12.1 million school-age children 
have some form of a vision problem, only one-third of all children 
receive eye care services before the age of 6.\9\ Approximately 80 
percent of what a child learns is done so visually.\10\ As such, good 
vision is essential for educational progress, proper physical 
development and athletic performance, and healthy self-esteem in 
growing children. Yet, according to a CDC report, only 1 in 3 children 
in America has received eye care services before the age of 6.
---------------------------------------------------------------------------
    \9\ ``Our Vision for Children's Vision: A National Call to Action 
for the Advancement of Children's Vision and Eye Health, Prevent 
Blindness America,'' Prevent Blindness America, 2008.
    \10\ Ottar WL, Scott WK, Holgado SI. Photoscreening for amblyogenic 
factors. J Pediatr Ophthalmol Strabismus. 1995; 32:289-295.
---------------------------------------------------------------------------
    Vision screening is an appropriate and essential element of a 
strong public health approach to children's vision care; the sooner 
vision problems are identified, the faster they can be addressed. As 
you know, the Maternal and Child Health Bureau (MCHB) oversees the 
Maternal and Child Health Services State title V (Title V) Block Grant 
program. As a condition of funding under title V, States are required 
to report on certain measures to the MCHB. PBA urges the subcommittee 
to support the development and implementation of a nationwide title V 
core performance measure related to vision screening. A core 
performance measure regarding vision screening will help ensure that 
more children receive comprehensive eye examinations at a young age and 
provide specific information to MCHB and other public health officials 
regarding the progress of the programs and identify areas where 
improvement can be made to provide better vision care to children 
served by the title V program. Specifically, we hope the subcommittee 
will include language in the report accompanying the fiscal year 2010 
Labor, Health and Human Services, and Education, an Related Agencies 
appropriations measure that expresses support for MCHB's work in this 
area.
    We are pleased that the Head Start program currently requires 
children to be screened for vision problems. Unfortunately, there are 
no procedures for training, tracking, or even conducting the screening. 
As such, without a national uniform standard, many Head Start enrollees 
are falling through the cracks and vision problems are not being 
identified in this already often underserved and at-risk population. 
PBA stands ready to work with Head Start, the Congress, and other 
stakeholders to ensure that all Head Start enrollees receive vision 
screening services and other related resources available to them in 
their community. PBA respectfully requests that the subcommittee 
include language in the report accompanying the fiscal year 2010 Labor, 
Health and Human Services, and Education, an Related Agencies 
appropriations measure that encourages collaborations and initiatives 
within the Head Start program to ensure that such screenings are 
delivered and provided in a manner that promotes consistency and 
quality in protocol and administration.

                               CONCLUSION

    On behalf of PBA, our board of directors, and the millions of 
people at risk for vision loss and eye disease, we thank you for the 
opportunity to submit written testimony regarding fiscal year 2010 
funding for the CDC's Vision Health Initiative, NIH, and NEI. Please 
know that PBA stands ready to work with the subcommittee and other 
Members of Congress to advance policies that will prevent blindness and 
preserve sight.
                                 ______
                                 
       Prepared Statement of the Pancreatic Cancer Action Network

    Mr. Chairman and members of the subcommittee: You may recall that 
last year you received testimony from Dr. Randy Pausch, a computer 
science professor at Carnegie Mellon University, author of the widely 
acclaimed ``Last Lecture'', which was released on YouTube and later as 
a book, and at that time, a pancreatic cancer survivor.
    Last year, Randy in his frank and humorous manner, told you that it 
was unlikely that he would survive until Father's Day and that his 
widow, Jai, and three beautiful children, Dillon, Logan, and Chloe 
would have to mark that holiday without him.
    Approximately 76 percent of pancreatic cancer patients die within 
the first year of diagnosis. Randy used to call himself a ``Pancreatic 
Cancer Rock Star'' given that he had already survived 18 months when he 
provided his testimony to you. While I am very happy to report that 
Randy did indeed survive long enough to spend Father's Day with his 
family, he unfortunately passed soon after on July 25, 2008. With his 
passing, we lost a dear friend to the pancreatic cancer community, and 
as I'm sure you would all attest to, a phenomenal pancreatic cancer 
advocate.
    Much has changed in the last year, including some of the 
statistics. According to the American Cancer Society's recently 
released Cancer Facts & Figures 2009, the projected incidence for 
pancreatic cancer rose 12 percent in the last year. Pancreatic cancer 
is now the 10th most commonly diagnosed cancer in both men and women.
    Unfortunately, the survival rate has not changed. Pancreatic cancer 
is still one of the most deadly cancers and is still the fourth-leading 
cause of cancer-related death. It is still true that 95 percent of all 
pancreatic cancer patients die within 5 years of diagnosis, a fact that 
has changed little in the last 30 years. The new statistics show that 
75 percent of these patients die within the first year of diagnosis. 
There are still no early detection or treatment tools for this disease. 
And while pancreatic cancer funding did increase last year, it is also 
still true that pancreatic cancer research is not funded at a level 
that will likely change this picture any time soon.
    The news gets worse as we look to the future. According to an 
article recently released in the Journal of Clinical Oncology,\1\ a 55 
percent increase in pancreatic cancer incidence is expected by 2030. 
This would be among the top five most significant increases across all 
forms of cancer. According to the authors, ``Alarmingly, certain cancer 
sites with particularly high mortality rates, such as liver, stomach, 
pancreas, and lung, will be among those with the greatest relative 
increase in incidence. Therefore, unless substantial improvements in 
cancer therapy and/or prevention strategies emerge, the number of 
cancer deaths may also grow dramatically over the next 20 years.'' We 
simply cannot afford to keep the status quo in terms of funding levels 
or scientific approaches for pancreatic cancer in the face of these 
statistics. We must make finding early detection tools and effective 
treatments for pancreatic cancer and the other highest mortality 
cancers an immediate priority.
---------------------------------------------------------------------------
    \1\ Benjamin D. Smith, Grace L. Smith, Arti Hurria, Gabriel N. 
Hortobagyi, and Thomas A. Buchholz, ``Future of Cancer Incidence in the 
United States: Burdens Upon an Aging, Changing Nation,'' Journal of 
Clinical Oncology 27 (April 2009), 4.
---------------------------------------------------------------------------
    Admittedly, part of the problem has been the recent flat or 
declining biomedical research budgets. Adjusting for inflation, the 
National Cancer Institute's (NCI) budget has decreased by nearly $639 
million (13.9 percent) since fiscal year 2003. However, it is also 
clear that NCI is not making pancreatic cancer a research priority. In 
fact, the NCI currently allocates just $87 million for pancreatic 
cancer research, a mere 2 percent of its total budget. A percentage 
that is also unchanged from last year.
    We, like many in the cancer and biomedical research communities, 
worked hard to secure funding increases for the National Institute of 
Health (NIH) in the fiscal year 2009 Omnibus Appropriations bill and in 
the American Recovery and Reinvestment Act and we are grateful to you 
for granting the community's requests and providing increases through 
these bills. The Pancreatic Cancer Action Network took part in these 
efforts because we believed that increasing funding through these bills 
would lead to increased funding for pancreatic cancer research. 
Unfortunately, it does not appear that this hope is turning into a 
reality.
    As the National Institute of Health (NIH) was preparing the 
Challenge Grants, we were excited about the potential that these grants 
might bring to the most deadly diseases such as pancreatic cancer. 
Unfortunately, once we had an opportunity to review the Requests for 
Applications (RFAs), we realized that few if any of the grants were 
actually applicable to pancreatic cancer.
    We have also been looking forward to learning more about how NCI 
plans to use their remaining portion of the stimulus funds. Our hope is 
that Dr. Niederhuber will dedicate some portion of the funds for the 
cancers with the highest mortality, defined as those cancers with 5-
year survival rates of 50 percent or less. Currently, just 8 cancers 
(ovarian, brain, myeloma, stomach, esophageal, lung, liver, and 
pancreatic) account for 50 percent of all cancer deaths. For some of 
these, such as pancreatic and lung cancer, there has been little 
movement in survival rates in the last 30 years.
    As you may know, NIH Director, Dr. Raynard Kington recently asked 
Dr. Niederhuber and Dr. Steve Katz, Director of National Institute of 
Arthritis and Musculoskeletal and Skin Diseases to co-chair a task 
force to develop an NIH-wide cancer research plan in response to the 
President's call to double cancer research funding in 8 years. Ideally, 
this plan would include some defined focus on steps that should be 
taken to reduce mortality for the deadliest cancers. Unfortunately, 
while we have not yet seen the actual plan, based on the NCI's 
statement about it on April 20, 2009 \2\ and based on conversations we 
have had with Dr. Niederhuber earlier this week, we are concerned that 
again, our hopes may not turn into a reality.
---------------------------------------------------------------------------
    \2\ National Cancer Institute, National Cancer Institute's Plan to 
Accelerate Cancer Research Announced, http://www.cancer.gov/newscenter/
pressreleases/AccelerateResearch (April 22, 2009).
---------------------------------------------------------------------------
    The mission of the Pancreatic Cancer Action Network is based on 
hope and on action, so it is in the spirit of both that I am today 
submitting testimony. I am not only asking that you significantly 
increase funding for the NCI, but that you also take steps to ensure 
that NCI places special emphasis on the most deadly cancers, including 
pancreatic cancer.
    While I realize that Congress is reluctant to direct how NCI 
allocates research dollars, I would argue that something is wrong when 
one of the deadliest types of cancer receives so little attention. In 
fact, pancreatic cancer research receives the least amount of NCI 
funding of any of the top cancer killers.
    One of our most significant issues in addition to the overall 
funding level, is that there are relatively few researchers studying 
pancreatic cancer--including both young investigators and more 
experienced investigators. While the NCI's commitment to young 
investigators has increased from 2007 when it awarded zero Career 
Development Awards (K awards) or Research Training Awards (F and T 
awards), it still has a long way to go. For example, last year, NCI 
made nearly 180 awards to young breast cancer researchers and more than 
70 K, T, or F awards to young researchers in fields of each of the 
other top 5 cancer killers (lung, colon, and prostate); only 32 were 
awarded to young pancreatic cancer researchers. We can and must do 
better.
    The story is much the same for experienced investigators. In 2008, 
only 32 pancreatic cancer projects were funded at $500,000 or above, 
and only 11 projects received at least $1 million. In contrast, the 
number of projects funded at $500,000 or above was 109 for lung, 114 
for colon, 237 for breast, and 105 for prostate.
    Further, though the pool of researchers that the NCI has funded to 
conduct pancreatic cancer has expanded, it is still a very small pool, 
especially when compared to the numbers of researchers funded in the 
other leading cancer fields. In fact, by way of comparison, in 2008 the 
NCI funded close to 1,600 different investigators in breast cancer 
research, of whom 231 received multiple awards. As many as 91 of these 
researchers received an aggregate of $1 million in funding for their 
research. By comparison, NCI funded 327 different investigators in 
pancreatic cancer research last year, of whom 41 received multiple 
awards and just 13 received an aggregate of $1 million for their 
research.
    Given that the current 5-year survival rate for breast cancer is 
nearly 90 percent, it is clear that a similar pipeline of committed and 
federally funded scientists is needed in pancreatic cancer to help 
speed advances and medical breakthroughs if we are to hope to finally 
increase survival beyond 5 percent.
    The fact is that the number of new pancreatic cancer cases and 
deaths are increasing--not decreasing. The projected number of new 
pancreatic cancer cases is expected to reach 70,000 by 2040. As stated 
above, while overall cancer death rates have significantly declined, 
the 5-year survival rates for pancreatic cancer have remained largely 
unchanged in the last 30 years. If we do not take steps to address this 
issue now, 95 percent of these patients will continue to hear their 
diagnosis expressed as a death sentence.
    Sadly, it is also a fact that for too long, the broader scientific 
research community has faced the challenge of doing more with less. 
While they have achieved some important successes, the funding crisis 
has fostered an environment of focusing on ``safe bets.'' Compared to 
most other cancers, we know relatively little about pancreatic cancer. 
More research is needed in the basic biology of the disease to 
understand how it starts and why it spreads so rapidly. Therefore, 
pancreatic cancer research does not fall into a ``safe bet'' category. 
It falls into the category of high risk/high reward.
    The time has come to not only fund new progress and give our 
researchers the opportunity to do more with more, but to also find new 
ways to encourage the research community to tackle the hardest and most 
complex problems. As Randy mentioned in his testimony last year, it is 
by solving the hardest problems that we will likely see the greatest 
rewards for the entire field. On behalf of the tens of thousands of 
pancreatic cancer patients who die without a chance, including Dr. 
Randy Pausch, I am asking that you not only inject significant new 
funding into the cancer research community, but that you also issue a 
challenge to the NCI to focus on the hardest problems by placing 
special emphasis on finding answers for the most deadly cancers, 
including pancreatic. Doing so will not only fuel progress, but will 
also generate jobs and stem the current trend of losing American-
trained researchers to other countries more willing to invest in 
scientific research.
    We therefore join with our partners in the One Voice Against Cancer 
coalition to ask that you provide $5.96 billion in funding for the NCI 
in fiscal year 2010--an increase of $993 million (20 percent) more than 
fiscal year 2009. We recognize that this is a significant request. 
However, the reality is that this is the minimum amount needed to make 
true progress on all forms of cancer, including pancreatic and the 
other cancers for which we have yet to see significant improvement in 
survival.
    We also respectfully request that you work with us to ensure that 
NCI creates a strategic plan for the highest mortality cancers, defined 
as those with 5 survival rates below 50 percent, and that the NIH-wide 
cancer research plan that is currently under development also includes 
these cancers as a specific area of focus.
                                 ______
                                 
      Prepared Statement of the Pulmonary Hypertension Association

    Mr. Chairman, thank you for the opportunity to submit testimony on 
behalf of the Pulmonary Hypertension Association (PHA).
    I would like to extend my sincere thanks to the subcommittee for 
your past support of pulmonary hypertension (PH) programs at the 
National Institutes of Health (NIH), Centers for Disease Control and 
Prevention (CDC), and Health Resources and Services Administration 
(HRSA). These initiatives have opened many new avenues of promising 
research, helped educate hundreds of physicians in how to properly 
diagnose PH, and raised awareness about the importance of organ 
donation and transplantation within the PH community.
    In addition, I want to commend the subcommittee for actively 
addressing the current backlog in Social Security Disability 
applications at the Social Security Administration. Many PH patients 
end up applying for disability coverage, and streamlining the benefits 
process would go a long way toward improving the quality of life for 
our most in-need families.
    I am honored today to represent the hundreds of thousands of 
Americans who are fighting a courageous battle against a devastating 
disease. PH is a serious and often fatal condition where the blood 
pressure in the lungs rises to dangerously high levels. In PH patients, 
the walls of the arteries that take blood from the right side of the 
heart to the lungs thicken and constrict. As a result, the right side 
of the heart has to pump harder to move blood into the lungs, causing 
it to enlarge and ultimately fail.
    PH can occur without a known cause or be secondary to other 
conditions such as: collagen vascular diseases (i.e., scleroderma and 
lupus), blood clots, HIV, sickle cell, or liver disease. PH does not 
discriminate based on race, gender, or age. Patients develop symptoms 
that include shortness of breath, fatigue, chest pain, dizziness, and 
fainting. Unfortunately, these symptoms are frequently misdiagnosed, 
leaving patients with the false impression that they have a minor 
pulmonary or cardiovascular condition. By the time many patients 
receive an accurate diagnosis, the disease has progressed to a late 
stage, making it impossible to receive a necessary heart or lung 
transplant.
    PH is chronic and incurable with a poor survival rate. Fortunately, 
new treatments are providing a significantly improved quality of life 
for patients with some managing the disorder for 20 years or longer.
    Nineteen years ago, when three PH patients found each other, with 
the help of the National Organization for Rare Diseases, and founded 
the PHA, there were less than 200 diagnosed cases of this disease. It 
was virtually unknown among the general population and not well known 
in the medical community. They soon realized that this was 
unacceptable, and formally established PHA, which is headquartered in 
Silver Spring, Maryland.
    I am pleased to report that we are making good progress in our 
fight against this deadly disease. Six new therapies for the treatment 
of PH have been approved by the FDA in the past 10 years.
    Today, PHA includes:
  --More than 10,000 patients, family members, and medical 
        professionals as members and an additional 34,000 supporters 
        and friends.
  --A network of more than 200 patient support groups.
  --An active and growing patient-to-patient telephone helpline.
  --Three research programs that, through partnerships with the 
        National Heart, Lung and Blood Institute (NHLBI) and the 
        American Thoracic Society, have committed more than $7.5 
        million toward PH research as of December 2008.
  --Numerous electronic and print publications, including the first 
        medical journal devoted to PH--published quarterly and 
        distributed to all cardiologists, pulmonologists, and 
        rheumatologists in the United States.
    A Web site dedicated to providing educational and support resources 
to patients, medical professionals, and the public. Thanks to support 
from CDC, PHA's online resources now include the PHA Online University 
which provides PH-specific continuing education opportunities to 
medical professionals.

                            THE PH COMMUNITY

    Mr. Chairman, I am privileged to serve as the president of the PHA 
and to interact daily with the patients and family members who are 
seeking to live their lives to the fullest in the face of this deadly, 
incurable disease.
    Carl Hicks is a former Army Ranger and a retired Colonel who lead 
the first battalion into Iraq during the first Iraq war. Every member 
of his family was touched by pulmonary hypertension after the diagnosis 
of his daughter Meghan in 1994. I share their story here, in Carl's own 
words:

    ``We're sorry Colonel Hicks, your daughter Meaghan has contracted 
primary pulmonary hypertension. She likely has less than a year to live 
and there is nothing we can do for her. Those words were spoken in the 
spring of 1994 at Walter Reed Army Medical Center. They marked the 
start down the trail of tears for a young military family that, only 
hours before, had been in Germany. My family's journey down this trail 
hasn't ended yet, even though Meaghan's fight came to an end with her 
death on January 30th, 2009. She was 27.
    Pulmonary hypertension struck our family, as it so often does, 
without warning. One day, we had a beautiful, healthy, energetic 12-
year old gymnast, the next, a child with a death sentence being robbed 
of every breath by this heinous disease. The toll of this fight was 
far-reaching. Over the years, every decision of any consequence in the 
family was considered first with regards to its impact on Meaghan and 
her struggle for breath.
    The investment made by our country in my career was lost, as I left 
the service to stay nearer my family. The costs for Meaghan's medical 
care, spread over the nearly 14 years of our fight, ran well into the 7 
figures. Meghan even underwent a heart and dual-lung transplant These 
challenges, though, were nothing compared to the psychological toll of 
losing Meaghan who had fought so hard for something we all take for 
granted, a breath of air.''

    Over the past decade, treatment options, and the survival rate, for 
PH patients have improved significantly. As Meaghan's story 
illustrates, however, courageous patients of every age lose their 
battle with PH each day. There is still a long way to go on the road to 
a cure and biomedical research holds the promise of a better tomorrow.
    Thanks to congressional action, and to advances in medical research 
largely supported by the NHLBI and other Government agencies, PH 
patients have an increased chance of living with their PH for many 
years. However, additional support is needed for research and related 
activities to continue to develop treatments that will extend the life 
expectancy of PH patients beyond the NIH estimate of 2.8 years after 
diagnosis.

            FISCAL YEAR 2010 APPROPRIATIONS RECOMMENDATIONS

NHLBI
    Recently, the World Health Organization's Fourth World Symposium on 
Pulmonary Hypertension brought together PH experts from around the 
world. According to these leading researchers, we are on the verge of 
significant breakthroughs in our understanding of PH and the 
development of new and advanced treatments. Fifteen years ago, a 
diagnosis of PH was essentially a death sentence, with only one 
approved treatment for the disease. Thanks to advancements made through 
the public and private sector, patients today are living longer and 
better lives with a choice of six FDA approved therapies. Recognizing 
that we have made tremendous progress, we are also mindful that we are 
a long way from where we want to be in (1) the management of PH as a 
treatable chronic disease, and (2) a cure.
    One crucial step in continuing the progress we have made in the 
treatment of PH is the creation of a pulmonary hypertension research 
network. Such a network would link leading researchers around the 
United States, providing them with access to a wider pool of shared 
patient data. In addition, the network would provide researchers with 
the opportunities to collaborate on studies and to strengthen the 
interconnections between basic and clinical science in the field of 
pulmonary hypertension research. Such a network is in the tradition of 
the NHLBI, which, to its credit and to the benefit of the American 
public, has supported numerous similar networks including the Acute 
Respiratory Distress Syndrome Network and the Idiopathic Pulmonary 
Fibrosis Clinical Research Network.
    In order to maintain the important momentum in pulmonary 
hypertension research that has developed over the past few years, and 
to create a much needed pulmonary hypertension research network, the 
Pulmonary Hypertension Association encourages the subcommittee to 
provide the NIH, particularly the NHLBI, with a 7 percent increase in 
funding in fiscal year 2010.
CDC
    PHA applauds the subcommittee for its leadership over the years in 
encouraging CDC to initiate a Pulmonary Hypertension Education and 
Awareness Program. We know for a fact that Americans are dying due to a 
lack of awareness of PH, and a lack of understanding about the many new 
treatment options. This unfortunate reality is particularly true among 
minority and underserved populations.
    Mr. Chairman, we are grateful to the Congress for providing 
$238,000 in support of a pulmonary hypertension awareness program in 
fiscal year 2009. By educating physicians and patients about pulmonary 
hypertension, this funding will save lives. We encourage the 
subcommittee to continue its support for PH awareness activities 
through the CDC in fiscal year 2010.
``Gift of Life'' Donation Initiative at HRSA
    Mr. Chairman, PHA applauds the success of HRSA's ``Gift of Life'' 
Donation Initiative. This important program is working to increase 
organ donation rates across the country. Unfortunately, the only 
``treatment'' option available to many late-stage PH patients is a 
lung, or heart and lung, transplantation. This grim reality is why PHA 
established ``Bonnie's Gift Project.''
    ``Bonnie's Gift'' was started in memory of Bonnie Dukart, one of 
PHA's most active and respected leaders. Bonnie battled with PH for 
almost 20 years until her death in 2001 following a double lung 
transplant. Prior to her death, Bonnie expressed an interest in the 
development of a program within PHA related to transplant information 
and awareness. PHA will use ``Bonnie's Gift'' as a way to disseminate 
information about PH, transplantation, and the importance of organ 
donation, as well as organ donation cards, to our community.
    PHA has had a very successful partnership with HRSA's ``Gift of 
Life'' Donation Program in recent years. Collectively, we have worked 
to increase organ donation rates and raise awareness about the need for 
PH patients to ``early list'' on transplantation waiting lists. For 
fiscal year 2010, PHA recommends an appropriation of $30 million for 
this important program.
                                 ______
                                 
 Prepared Statement of the Religious Coalition for Reproductive Choice

    Mr. Chairman and members of the subcommittee: The Religious 
Coalition for Reproductive Choice (RCRC) appreciates this opportunity 
to submit testimony. We strongly support President Obama's proposal to 
eliminate the dedicated funding streams for abstinence-only programs 
and to support proven teen pregnancy prevention programs.
    RCRC is an interfaith alliance of national mainstream religious 
organizations dedicated to ensuring access to reproductive healthcare 
and achieving reproductive justice. For more than 35 years, RCRC has 
brought together 40 national religious and religiously affiliated 
organizations from 15 denominations and traditions. Our membership 
includes the Episcopal Church, the Presbyterian Church (USA), the 
United Church of Christ, the United Methodist Church (General Board of 
Church and Society and Women's Division, General Board of Global 
Ministries), the Unitarian Universalist Association of Congregations; 
and Reform, Reconstructionist and Conservative Judaism.
    As faith communities, we are committed to sex education in our 
public schools that empowers and protects young people, honors diverse 
values, and promotes the highest ethical standards. Religious Americans 
overwhelmingly favor responsible sex education that is complete, age 
appropriate and includes accurate information about abstinence and 
contraception.
    Abstinence-only-until-marriage programs cannot offer this and 
moreover they are ineffective. These programs often are dishonest and 
scientifically inaccurate. There is no justification for endangering 
the health and well-being of the young people of our Nation for the 
sake of a very parochial moral vision.
    In fact, while there certainly is great value in adolescents 
postponing sex until they are mature, Federal policies that withhold 
important life saving information about STDs or HIV/AIDS or other 
aspects of reproductive health raise serious moral and ethical 
questions. Young people have a basic human right to complete and 
accurate HIV/AIDS and sexual health information. Without it they will 
be unable to realize the highest attainable standard of health and for 
some, their futures will be compromised with disease or unintended 
pregnancy.
 support of religious communities for comprehensive sexuality education
    Major faith traditions representing millions of Americans support 
comprehensive sex education. In keeping with our Nation's 
constitutional guarantee of freedom of religion, they oppose civil laws 
that would impose specific religious views about sexuality education on 
all Americans.
    These faith communities take seriously their duty to instill a set 
of religious and moral values that will help guide young people to 
responsible life choices. They believe that it is the role of 
Government to ensure that the Nation's youth receive the facts--
unblemished by ideology--that will protect them from disease and 
unintended pregnancy.
    RCRC has compiled excerpts of official statements of religious 
denominations and traditions on the importance of sexuality education. 
We have attached a copy of the complete document, Religious Communities 
and Sexuality Education: In the Home, In the Congregation, In the 
Schools, for your review. But to give you a brief taste of these 
statements, please consider the following:
    United Methodist Church
  --``Children, youth and adults need opportunities to discuss 
        sexuality and learn from quality sex education materials in 
        families, churches and schools.''
    United Synagogue of Conservative Judaism
  --``. . . supports comprehensive sex education . . . calls upon the 
        U.S. Congress to cease funding of abstinence only education.''
    Presbyterian Church (U.S.A.)
  --``. . . supports . . . comprehensive school health education that 
        includes age and developmentally appropriate sexuality 
        education in all grades . . .''
    Muslim Women's League
  --``Sex education can be taught in a way that informs young people 
        about sexuality in scientific and moral terms.''
    Episcopal Church
  --``. . . we encourage the members of this Church to give strong 
        support to responsible local public and private school programs 
        of education in human sexuality.''

                NEED FOR ATTENTION TO DISEASE PREVENTION

    Although the President's budget does not link the issues of teen 
pregnancy prevention and disease prevention, we know that the most 
effective programs are comprehensive and do connect the two. According 
to the American Social Health Association, each year 9 million new 
cases of STDs occur among young people aged 15-24. Sexually active 
youth have the highest STD rates of any age group in the country. Young 
people are at greatest risk for STDs because, as a group, they are more 
likely to have unprotected sex.
    The health consequences of STDs include chronic pain, infertility, 
cervical cancer and increased vulnerability to HIV, the virus that 
causes AIDS. The transmission of STDs to babies--prenatally, during 
birth or after--can cause serious life-long complications and even 
death.
    We urge the Appropriations Committee to include language that 
expands the requirement for funded programs to include disease 
prevention.
    How did you learn about sex?
    This past year, RCRC put out a request to ``tell us your story: how 
did you learn about sex?'' We received well more than 400 responses 
from individuals around the country age 17 through 94. These replies 
offer thoughtful reflections and often intimate, sometimes painful, 
glimpses into personal lives.
    Among other things, we found that what you learn--or don't learn--
as a young person can have life-long repercussions. And abstinence-only 
programs, by their design, leave out important health information.

    ``If I had known what sex was, I would have understood what was 
happening to me when I was molested by a male relative beginning at age 
8.''----Deborah, 45
    ``I wish I'd learned what intercourse was and how easy it is to get 
pregnant.''----Anonymous, 79
    ``I wish I'd learned about STDs and the way in which they can be 
transmitted. I was under the impression that oral sex was safe, since 
you couldn't get pregnant from it.''----Miranda, 26
    ``The good girl/bad girl images prevalent when I was young only 
served to instill a great deal of fear in me, which negatively impacted 
on my marriage for years.''----Anonymous, 57

                          COMMUNITIES OF COLOR

    According to former Surgeon General Joycelyn Elders, the black 
community's ``problem with sexuality has contributed more to the 
poverty in the black community than anything else in our society. A 
pregnant teenager who does not finish high school or marry has an 80 
percent likelihood of being poor.'' She challenged Congress to ``stop 
legislating morals and start teaching responsibility.'' Abstinence-only 
education has been proved through studies and in harsh reality to be a 
horrible failure. A low-income woman is four times as likely to have an 
unintended pregnancy, five times as likely to have an unintended birth 
and more than four times as likely to have an abortion as her higher-
income counterpart. It is the poor and communities of color who suffer 
from illogical and ineffective public policy. The denominations and 
people of faith that comprise RCRC agree with Dr. Elders that ``If I 
could make any changes at all to the current health care system, you 
know I would start with education, education, education. You can't 
educate people that are not healthy. But you certainly can't keep them 
healthy if they're not educated.''
    RCRC addresses these issues through our National Black Church 
Initiative, a program begun in 1997 to ``break the silence'' about sex 
and sexuality in the African American community. The initiative assists 
Black clergy and laity in addressing teenage pregnancy, sexuality 
education and reproductive health within the context of African 
American religion and culture. We have worked in more than 700 churches 
providing our ``Keeping It Real!'' faith based sexuality education 
curriculum to more than 7,000 young men and women. We have a similar 
faith based initiative, La Iniciativa Latina (LIL), which provides 
model programs on sexuality and reproductive health for Latino youth, 
adults and clergy in the context of Latino values, religion and 
culture.
    But the answer to the Nation's high rate of unintended pregnancy 
and pandemic of sexually transmitted diseases does not rest with 
churches and nonprofit organizations alone. Public schools must be part 
of the solution. We are morally compelled to empower our young people 
with the knowledge to make responsible decisions. As Dr. Elders so 
succinctly stated, ``Vows of abstinence break more easily than latex 
condoms.'' According to the CDC's National Center for Health 
Statistics, in 2002, the pregnancy rates for black and Hispanic 
teenagers were each more than two and one-half times the rate for white 
teenagers. This is the reality.
    One of the most compelling arguments for comprehensive sexuality 
education was made by a member of our youth program, a proud 
Pentecostal Christian from rural Mississippi. In a meeting with her 
Member of Congress, she explained that there was no sex education in 
her high school and a lot of girls in her class got ``knocked up.'' 
They did not graduate from high school. They did not marry. Their 
futures were compromised. But the impact of these unintended 
pregnancies goes well beyond the lives of these young women and their 
children. They contribute to the economic depression of their 
communities.

                               CONCLUSION

    Let's be real and make a real difference. We know that 95 percent 
of Americans will have sex before they marry; therefore programs need 
to teach about abstinence and also about contraception, relationships 
and disease prevention. We must empower youth with the knowledge to 
make responsible decisions.
    We believe that being of faith means being engaged in the world. 
And like it or not, the facts are clear: more than 80 percent of the 
750,000 teen pregnancies each year are unintended and 25 percent of 
American teens contract an STD. We want our young people to be safe. 
For that to happen, they must be informed by comprehensive sex 
education. Offering them anything less is irresponsible and dangerous.
                                 ______
                                 
          Prepared Statement of the Railroad Retirement Board

    Mr. Chairman and members of the committee: We are pleased to 
present the following information to support the Railroad Retirement 
Board's (RRB) fiscal year 2010 budget request.
    The RRB administers comprehensive retirement/survivor and 
unemployment/sickness insurance benefit programs for railroad workers 
and their families under the Railroad Retirement and Railroad 
Unemployment Insurance Acts. The RRB also has administrative 
responsibilities under the Social Security Act for certain benefit 
payments and Medicare coverage for railroad workers. During fiscal year 
2008, the RRB paid $10.1 billion in retirement/survivor benefits and 
vested dual benefits to about 598,000 beneficiaries. We also paid $80 
million in net unemployment/sickness insurance benefits to about 30,000 
claimants.

               PROPOSED FUNDING FOR AGENCY ADMINISTRATION

    The President's proposed budget would provide $109,073,000 for 
agency operations, which would enable us to maintain a staffing level 
of 920 full-time equivalent staff years in 2010. The proposed budget 
would also provide about $1,651,000 for information technology (IT) 
investments. This includes $615,000 for costs related to information 
security and privacy, and for continuity of operations in the event of 
an emergency. The remaining IT funds will be used for E-Government 
initiatives, systems modernization, infrastructure needs and system 
support.

                            AGENCY STAFFING

    The RRB's dedicated, experienced employees have been the foundation 
for our tradition of excellence in customer service and satisfaction. 
And, we have an ongoing need and responsibility to effectively manage 
our human capital resources. This is particularly important given the 
number of RRB employees who are eligible for retirement and those who 
soon will be. We are developing a long-range approach to workforce 
planning that will position the agency for continued success in 
administering our programs. This includes a detailed analysis of the 
demographic features of the RRB workforce and the skills needed to 
fulfill our mission. It will also establish a procedural framework for 
recruiting, training, and developing talented employees.
    Like many agencies, the RRB has an aging workforce. About 30 
percent of our workforce is currently eligible to retire, and more than 
50 percent will be eligible by fiscal year 2012. In response to this 
trend, we have placed added emphasis on filling entry-level positions, 
focusing on front-line service employees and claims examiners to the 
extent possible. In anticipation of an increase in the agency attrition 
rate as more employees become eligible to retire, these new employees 
will be key to effectively administering the RRB's programs and 
continuing to provide excellent service over the long term.

                          SERVICE IMPROVEMENTS

    In fiscal year 2009, we have implemented nationwide, toll-free 
telephone service, which enables us to dynamically route phone calls 
among our offices based on logical business rules and customer needs. 
In addition to providing our customers with faster response times, the 
toll-free service allows agency management to more effectively balance 
and share workloads among offices. We plan to continue expanding the 
functionality and services offered through the toll-free number (1-877-
772-5772 or 1-877-RRB-5RRB). Enhancements will focus on new self-
service options available through the toll-free system.
    The RRB's long-term information technology strategy also calls for 
expanded use of the Internet to provide services to our customers. We 
plan to use contractor services to augment agency staff to expand the 
electronic services available to the railroad public via the RRB's 
website. As part of this strategy, we are continuing to work on the 
Employer Reporting System to increase the amount of information related 
to railroad compensation, employment and service that employers can 
transmit to the RRB through the Internet. In fiscal year 2010, we plan 
to expand services to provide additional notifications to rail 
employers and enable employers to correct data through the system.

                         SYSTEMS MODERNIZATION

    Over the last few years, we have undertaken a series of strategic 
measures to improve computer processes and better position the RRB for 
the future. First, the agency moved to a relational database 
environment, and then optimized the data that reside in the legacy 
databases. Our next steps involve modernizing the agency's computer 
processes.
    Many of the RRB's existing systems are old, complex, and require a 
large investment in maintenance. As projected staff attrition occurs, 
we will be losing both experienced technical staff and some of the 
business subject-matter experts who now support our legacy systems. The 
modernization process will enable us to maintain the capability of our 
business function in the face of expected staff turnover, and to 
upgrade our systems based on the improvements that we have already 
completed. Through these initiatives, we will eliminate or reduce 
unnecessary or redundant activities, improve the accuracy and security 
of our systems and their transactions, make the systems more user-
friendly for agency employees and our customers, improve the 
interoperability and flexibility of systems, and improve the RRB's 
ability to collaborate with agency partners. These improvements will 
ultimately decrease the time and cost to develop and operate RRB 
systems and allow an increased focus on new initiatives.
    We plan to begin this process in fiscal year 2009, with selection 
of the agency's first system to modernize and development of a project 
plan. The selected system will serve as a pilot for further 
modernization. In fiscal year 2010, we will use contractor services to 
evaluate the pilot project's business requirements, identify possible 
solutions, analyze them, and recommend one for implementation.
    The President's proposed budget includes $64 million to fund the 
continuing phase-out of vested dual benefits, plus a 2 percent 
contingency reserve, $1,280,000, which ``shall be available 
proportional to the amount by which the product of recipients and the 
average benefit received exceeds the amount available for payment of 
vested dual benefits.''
    In addition to the requests noted above, the President's proposed 
budget includes $150,000 for interest related to uncashed railroad 
retirement checks.

                  FINANCIAL STATUS OF THE TRUST FUNDS

    Railroad Retirement Accounts.--The RRB continues to coordinate its 
activities with the National Railroad Retirement Investment Trust 
(Trust), which was established by the Railroad Retirement and 
Survivors' Improvement Act of 2001 (RRSIA) to manage and invest 
railroad retirement assets. Pursuant to the RRSIA, the RRB has 
transferred a total of $21.276 billion to the Trust. All of these 
transfers were made in fiscal years 2002 through 2004. The Trust has 
invested the transferred funds, and the results of these investments 
are reported to the RRB and posted periodically on the RRB's website. 
The market value of Trust-managed assets on September 30, 2008, was 
approximately $25.3 billion. Trust-managed assets have declined as a 
result of the general economic downturn in 2008 and the early part of 
2009. The Trust reported that Trust-managed assets amounted to $19.1 
billion as of March 31, 2009. The Trust has transferred to the RRB for 
payment of railroad retirement benefits approximately $7.3 billion 
since the inception of the Trust.
    In June 2008, we released the annual report on the railroad 
retirement system required by section 22 of the Railroad Retirement Act 
of 1974, and section 502 of the Railroad Retirement Solvency Act of 
1983. The report, which reflects changes in benefit and financing 
provisions under the RRSIA, addressed the 25-year period 2008-2032 and 
contained generally favorable information concerning railroad 
retirement financing. The report included projections of the status of 
the retirement trust funds under three employment assumptions. These 
indicated that, barring a sudden, unanticipated, large decrease in 
railroad employment or substantial investment losses, the railroad 
retirement system would experience no cash flow problems throughout the 
projection period. Our next report, which will be released in June 
2009, will include updated projections reflecting the economic events 
of the past year.
    Railroad Unemployment Insurance Account.--The equity balance of the 
Railroad Unemployment Insurance Account at the end of fiscal year 2008 
was $99.9 million, a decrease of $0.8 million from the previous year. 
The RRB's latest annual report on the financial status of the railroad 
unemployment insurance system was issued in June 2008. The report 
indicated that even as maximum daily benefit rates rise 47 percent 
(from $59 to $87) from 2007 to 2018, experience-based contribution 
rates maintain solvency. The report did not recommend any financing 
changes. We will update this analysis in our next annual report on the 
system, which will be released in June 2009.
    In conclusion, we want to stress the RRB's continuing commitment to 
improving our operations and providing quality service to our 
beneficiaries. Thank you for your consideration of our budget request. 
We will be happy to provide further information in response to any 
questions you may have.
                                 ______
                                 
          Prepared Statement of the Railroad Retirement Board

    Mr. Chairman and members of the subcommittee: My name is Martin J. 
Dickman and I am the Inspector General for the Railroad Retirement 
Board (RRB). I would like to thank you, Mr. Chairman, and the members 
of the subcommittee for your continued support of the Office of 
Inspector General (OIG).

               BUDGET REQUEST AND BACKGROUND INFORMATION

    I wish to describe our fiscal year 2010 appropriations request and 
our planned activities. The OIG respectfully requests funding in the 
amount of $8,186,000 to ensure the continuation of its independent 
oversight of the RRB.
    The RRB's central mission is to pay accurate and timely benefits. 
During fiscal year 2008, the RRB paid approximately $10.1 billion in 
retirement and survivor benefits to 598,000 beneficiaries. The RRB also 
paid $80 million in net unemployment and sickness insurance benefits to 
almost 30,000 claimants during the benefit year ending June 30, 2008.
    The RRB contracts with a separate Medicare Part B carrier, Palmetto 
GBA, to process Railroad Medicare Part B claims. As of September 30, 
2008, there were 469,442 Railroad Medicare Part B beneficiaries and 
during fiscal year 2008 Palmetto GBA paid more than $844 million in 
medical insurance benefits on their behalf.
    During fiscal year 2010, the OIG will focus on areas affecting 
program performance; the efficiency and effectiveness of agency 
operations; and areas of potential fraud, waste, and abuse.

                          OFFICE OF AUDIT (OA)

    The mission of the OA is to (1) promote economy, efficiency, and 
effectiveness in the administration of RRB programs, and (2) detect and 
prevent fraud and abuse in such programs. To accomplish its mission OA 
conducts financial, performance and compliance audits and evaluations 
of RRB programs. In addition, OA develops the OIG's response to audit-
related requirements and requests for information.
    During fiscal year 2010, OA will focus on areas affecting program 
performance, the efficiency and effectiveness of agency operations and 
areas of potential fraud, waste, and abuse. OA will continue its 
emphasis on long-term systemic problems and solutions, and will address 
major issues that affect the RRB's service to rail beneficiaries and 
their families. OA has identified four broad areas of potential audit 
coverage:
  --Financial accountability;
  --Railroad Retirement Act & Railroad Unemployment Insurance Act 
        Benefit Program Operations;
  --Railroad Medicare program operations; and
  --Security, privacy, and information management.
    During fiscal year 2010, OA must accomplish the following mandated 
activities with its own staff:
  --Audit of the RRB's financial statements pursuant to the 
        requirements of the Accountability of Tax Dollars Act of 2002; 
        and
  --Evaluation of information security pursuant to the Federal 
        Information Security Management Act (FISMA).
    During fiscal year 2010, OA will complete the audit of the RRB's 
fiscal year 2009 financial statements and begin its audit of the 
agency's fiscal year 2010 financial statements. OA contracts with a 
consulting actuary for technical assistance in auditing the RRB's 
``Statement of Social Insurance'' which became basic financial 
information effective for fiscal year 2006.
    In addition to performing the annual evaluation of information 
security, OA also conducts audits of individual computer application 
systems which are required to support the annual FISMA evaluation. Our 
work in this area is targeted toward the identification and elimination 
of security deficiencies and system vulnerabilities, including controls 
over sensitive personally identifiable information.
    OA undertakes additional projects with the objective of allocating 
available audit resources to areas in which they will have the greatest 
value. In making that determination, OA considers staff availability, 
current trends in management, congressional and Presidential concerns.

                     OFFICE OF INVESTIGATIONS (OI)

    The OI focuses its efforts on identifying, investigating and 
presenting benefit fraud cases for prosecution. OI conducts 
investigations, throughout the United States, relating to the 
fraudulent receipt of RRB disability, unemployment, sickness, 
retirement/survivor, and Railroad Medicare benefits. OI investigates 
railroad employers and unions when there is an indication that they 
have submitted false reports to the RRB. OI also investigates 
allegations regarding agency employee misconduct and threats against 
RRB employees. Investigative efforts can result in criminal 
convictions, administrative sanctions, civil penalties and/or the 
recovery of program benefit funds.
    OI initiates cases based on information from a variety of sources. 
The agency conducts computer matching of employment and earnings 
information reported to State governments with RRB benefits paid. 
Referrals are made to OI if a match is found. OI also receives 
allegations of fraud through the OIG Hotline, contacts with State, 
local and Federal agencies, and information developed through audits 
conducted by the OIG's OA.
    OI's investigative results from October 1, 2008 through March 31, 
2009 are:

----------------------------------------------------------------------------------------------------------------
       Civil judgments          Indictments/information           Convictions           Recoveries/collections
----------------------------------------------------------------------------------------------------------------
12..........................                          16                          29                  $5,125,573
----------------------------------------------------------------------------------------------------------------

    OI anticipates an ongoing caseload of approximately 450 
investigations in fiscal year 2010. At present, OI has cases open in 47 
States, the District of Columbia, and Canada with estimated fraud 
losses totaling almost $16 million.
    OI will continue to concentrate its resources on cases with the 
highest fraud losses. Typically, these cases are related to the RRB's 
disability program. Disability fraud cases currently constitute 
approximately 50 percent of OI's total caseload. These cases involve 
more complicated schemes and result in the recovery of substantial 
funds for the agency's trust funds. They also require considerable time 
and resources such as travel by special agents to conduct sophisticated 
investigative techniques such as surveillance and witness interviews. 
These fraud investigations are extremely document-intensive and involve 
complicated financial analysis.
    Since March 2008, OI has added Railroad Medicare fraud 
investigations to its caseload and has identified 35 cases which 
involve losses to the Railroad Medicare program. Similar to the 
disability fraud matters, Medicare fraud cases are extremely complex in 
nature and often involve extensive document/data reviews that demand 
significant resources.
    OI will continue to investigate fraud violations of railroad 
employees collecting unemployment or sickness insurance benefits while 
working and receiving wages from an employer. OI will also investigate 
retirement fraud and will continue to use the Department of Justice's 
Affirmative Civil Enforcement Program to recover trust fund monies from 
cases that do not meet U.S. Attorney's guidelines for criminal 
prosecution.
    OI will also investigate complaints involving administrative 
irregularities and any alleged misconduct by agency employees.
    In fiscal year 2010, OI will continue to coordinate its efforts 
with agency program managers to address vulnerabilities in benefit 
programs that allow fraudulent activity to occur and will recommend 
changes to ensure program integrity. OI plans to continue proactive 
projects to identify fraud matters that are not detected through the 
agency's program policing mechanisms.

               REQUESTED CHANGE IN OPERATIONAL AUTHORITY

Oversight of the National Railroad Retirement Investment Trust
    The National Railroad Retirement Investment Trust (NRRIT) was 
established by the Railroad Retirement and Survivors' Improvement Act 
of 2001 (RRSIA) to manage and invest Railroad Retirement assets. As of 
February 28, 2009, the RRB's investments in the NRRIT were valued at 
approximately $18.3 billion. Although the Trust is a tax-exempt entity 
independent of the Federal Government, RRSIA requires the Trust to 
report to the RRB. This office has previously reported its concerns 
about the RRB's passive relationship with the NRRIT and has identified 
the RRB's oversight in this area as a critical issue. However, the 
RRSIA does not provide the OIG with oversight authority to conduct 
audits and investigations of the NRRIT. This office believes that 
independent oversight of the Trust's operations is necessary to ensure 
that sufficient reporting mechanisms are in place and to ensure that 
the Trustees are fulfilling their fiduciary responsibilities. The OIG 
respectfully requests oversight and enforcement authority to conduct 
audits and investigations of the NRRIT.

                                SUMMARY

    In fiscal year 2010, the OIG will continue to focus its resources 
on the review and improvement of RRB operations and will conduct 
activities to ensure the integrity of the agency trust funds. This 
office will continue to work with agency officials to ensure the agency 
is providing quality service to railroad workers and their families. 
The OIG will also aggressively pursue all individuals who engage in 
activities to fraudulently receive RRB funds. The OIG will continue to 
keep the subcommittee and other members of Congress informed of any 
agency operational problems or deficiencies. The OIG sincerely 
appreciates it cooperative relationship with the agency and the ongoing 
assistance extended to its staff during the performance of their audits 
and investigations. Thank you for your consideration.
                                 ______
                                 
    Prepared Statement of the Ryan White Medical Providers Coalition

    Dear Chairman and Ranking Member: I am Dr. Kathleen Clanon, an HIV 
physician and director of the Tri-City Health Center's HIVACCESS 
program in Oakland, California. I am submitting public testimony on 
behalf of the Ryan White Medical Providers Coalition (RWMPC). I 
appreciate the opportunity to discuss the important HIV/AIDS care 
conducted at Ryan White Part C funded programs around the country and 
to request a dramatic increase in funds. Specifically, we recommend a 
$68.4 million increase for part C for fiscal year 2010 resulting in a 
total appropriation of $270,254,000.
    Our coalition was formed in 2006 to be a voice for medical 
providers across the Nation delivering quality care to their patients 
through part C of the Ryan White program. We represent every kind of 
program from small and rural to large urban sites in every region in 
the country. Our membership has rapidly increased as word spread that 
an advocacy group was forming to speak on behalf of the needs of part C 
programs.
    Ryan White Part C funds comprehensive HIV care and treatment--the 
services that are directly responsible for the dramatic decreases in 
AIDS-related mortality and morbidity over the last decade. We speak for 
those who often cannot speak for themselves and we advocate for a full 
range of primary care services for this unique population. Sufficient 
funding for part C is essential for the work that we do in service of 
those living with HIV/AIDS.
    While the patient load in our programs is rising in number, funding 
for part C has effectively decreased. At the same time, we expect a 
continued increase in patients due to higher diagnosis rates and 
declining insurance coverage. The Centers for Disease Control and 
Prevention (CDC) reports that the number of HIV/AIDS cases increased by 
15 percent from 2004 to 2007 in 34 States.\1\ Our patients struggle in 
times of plenty; during this economic downturn they will rely on our 
comprehensive services more than ever. An increase in funding is 
critical to ensure that we are able to sustain and improve our current 
staffing levels, which is important to ensure access to healthcare for 
our patients, as well as, to provide security to our community. Part C 
of the Ryan White program has been under-funded for years, but new 
pressures are creating a crisis in our community. The HIV medical 
clinics funded through part C have been in dire of increased funding 
for years. An infusion of new funding would offer much needed 
assistance. Years of near flat funding, combined with large increases 
in the patient population, are negatively impacting the ability of part 
C providers to serve their patients.
---------------------------------------------------------------------------
    \1\ Centers for Disease Control and Prevention. HIV/AIDS 
Surveillance Report, 2007. Vol. 19. U.S. Department of Health and Human 
Services, Centers for Disease Control and Prevention; 2009:5 
www.cdc.gov/hiv/topics/surveillance/resources/reports.
---------------------------------------------------------------------------
    With the rapid cost increases in all aspects of healthcare 
delivery, despite small funding increases programs are still operating 
at a funding deficit because we are serving more patients than ever. In 
2008, part C programs will treat an estimated 248,070--a dramatic 30 
percent increase in less than 10 years. Our clinics are laying off 
staff, discontinuing critical services such as laboratory monitoring, 
creating waitlists, and operating on a 4-day work week just to get by. 
All of this at a time when the new data reporting requirements 
resulting from the 2006 reauthorization of Ryan White are requiring 
even more staff and administrative time than the 10 percent allocation 
permitted.
    Frankly, we can do better than this and the HIV/AIDS population 
served through part C deserves more support. I have included the 
following graph in my testimony to demonstrate the growing disparity 
between funding for part C and our patient population. I call the gap 
between funding and patients the ``Triangle of Misery'' because it 
represents the thousands of patients who deserve more than we can offer 
them and the part C programs around the Nation who are struggling to 
serve them with rapidly shrinking resources.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The purpose of my testimony is to urge you to respond to this 
crisis and ask that you commit to doubling funding for Ryan White Part 
C programs by fiscal year 2012. Through a careful process that 
determined the actual cost of our care for our patients, the Ryan White 
Medical Providers Coalition worked collaboratively with the CAEAR 
Coalition and the American Academy of HIV Medicine to calculate the 
funding demands for Ryan White Part C. We unanimously agreed that a 
Federal appropriation of $407,300,078 is needed for part C.
    These are challenging fiscal times, and we recognize the multiple 
fiscal constraints you face as you determine how to allocate limited 
Federal dollars. That is why we are not asking for $407.3 million for 
Ryan White Part C for fiscal year 2010. Rather, we join with our 
partners in asking you to commit to doubling our funding by fiscal year 
2012. Such an agreement would result in an increase of $68.4 million 
for part C for each year: fiscal years 2010, 2011, and 2012. We believe 
this is a reasonable approach to meeting the needs of HIV/AIDS patients 
served by part C around the country.
    It is important for you to understand how we developed our request 
number. It is based on the following calculations:
  --We assumed that 1,381,418 will be the number of people living with 
        HIV/AIDS in 2012 based on the Centers for Disease Control and 
        Prevention, New Estimates of HIV Prevalence, 2006. The estimate 
        equals the CDC's 2006 estimated cases multiplied by their 
        annual estimated prevalence increases for the years 2007-2012.
  --Using data from the HRSA HIV/AIDS Bureau we estimated that 248,070 
        uninsured people living with HIV/AIDS were served by part C 
        programs in 2008.
  --Using data from a report by Julie Gerberding, MD, MPH and Elizabeth 
        Duke, Ph.D. to the Honorable Henry Waxman (http://
        oversight.house.gov/story.asp?ID1675) we estimated that 168,688 
        PLWHA who were underinsured were served by part C programs in 
        2008.
  --We estimate the cost of care per patient at $3,501 per year. 
        (Gilman, BH, Green, JC. Understanding the variation in costs 
        among HIV primary care providers. AIDS Care. 2008:20;1050-6.)
  --We calculated the cost of providing care to uninsured part C 
        patients to be $277,916,382 per year (79,382 patients  $3,501 
        cost of care).
  --We calculated the costs of providing care to underinsured part C 
        patients to be $129,383,696 per year (168,688 patients  $767 
        cost of care). The cost of care for underinsured patients is a 
        conservative estimate based on Institute of Medicine figures.
  --The total cost of care for all part C patients will be $407,300,078 
        in fiscal year 2012.
    Our data demonstrate the undeniable. Our patient load is increasing 
as is the cost of their care. A substantial Federal investment is 
necessary to support part C sites around the country in their efforts 
to provide the comprehensive care that we know HIV/AIDS patients 
deserve and from which both they and our communities benefit.
    I thank you for your attention to our request and urge you to 
commit to doubling the funding for Ryan White Part C in 3 years. We 
request a $68.4 million increase for part C for fiscal year 2010 
resulting in a total appropriation of $270,254,000. By working 
together, we are hopeful that in fiscal year 2012 the full 
appropriation for Ryan White Part C will be $407,300,078.
                                 ______
                                 
  Prepared Statement of the Spina Bifida Association and Spina Bifida 
                               Foundation

                        FUNDING REQUEST OVERVIEW

    The Spina Bifida Association (SBA) and the Spina Bifida Foundation 
(SBF) respectfully request that the subcommittee provide the following 
allocations in fiscal year 2010 to help improve quality-of-life for 
people with Spina Bifida:
  --$7 million for the National Spina Bifida Program at the National 
        Center on Birth Defects and Developmental Disabilities at the 
        Centers for Disease Control and Prevention (CDC) to support 
        existing program initiatives and allow for the further 
        development of the National Spina Bifida Patient Registry.
  --$4.818 million for the CDC's national folic acid education and 
        promotion efforts to support the prevention of Spina Bifida and 
        other neural tube defects.
  --$25.623 million to strengthen the CDC's National Birth Defects 
        Prevention Network.
  --$77.059 million for the CDC's National Center on Birth Defects and 
        Developmental Disabilities.
  --$405 million for the Agency for Healthcare Research and Quality 
        (AHRQ).
  --$33.349 billion for the National Institutes of Health (NIH) to 
        support biomedical research.

                       BACKGROUND ON SPINA BIFIDA

    On behalf of the more than 185,000 \1\ individuals and their 
families who are affected by Spina Bifida--the Nation's most common, 
permanently disabling birth defect--SBA and SBF appreciate the 
opportunity to submit written testimony for the record regarding fiscal 
year 2010 funding for the National Spina Bifida Program and other 
related Spina Bifida initiatives. SBA is a national voluntary health 
agency working on behalf of people with Spina Bifida and their families 
through education, advocacy, research and service. The Spina Bifida 
Foundation assists SBA in its fundraising and advocacy efforts. SBA and 
SBF stand ready to work with Members of Congress and other stakeholders 
to ensure our Nation mounts and sustains a comprehensive effort to 
reduce and prevent suffering from Spina Bifida.
---------------------------------------------------------------------------
    \1\ At the First World Congress on Spina Bifida Research and Care 
in March 2009 representatives from the CDC reported on new data 
indicating that there are an estimated 185,000 individuals living with 
Spina Bifida in the United States.
---------------------------------------------------------------------------
    Spina Bifida, a neural tube defect, occurs when the spinal cord 
fails to close properly within the first few weeks of pregnancy and 
most often before the mother knows that she is pregnant. Over the 
course of the pregnancy--as the fetus grows--the spinal cord is exposed 
to the amniotic fluid, which increasingly becomes toxic. It is believed 
that the exposure of the spinal cord to the toxic amniotic fluid erodes 
the spine and results in Spina Bifida. There are varying forms of Spina 
Bifida occurring from mild--with little or no noticeable disability--to 
severe--with limited movement and function. In addition, within each 
different form of Spina Bifida the effects can vary widely. 
Unfortunately, the most severe form of Spina Bifida occurs in 96 
percent of children born with this birth defect.
    The result of this neural tube defect is that most people with it 
suffer from a host of physical, psychological, and educational 
challenges--including paralysis, developmental delay, numerous 
surgeries, and living with a shunt in their skulls, which seeks to 
ameliorate their condition by helping to relieve cranial pressure 
associated with spinal fluid that does not flow properly. As we have 
testified previously, the good news is that after decades of poor 
prognoses and short life expectancy, children with Spina Bifida are now 
living into adulthood and increasingly into their advanced years. These 
gains in longevity, principally, are due to breakthroughs in research, 
combined with improvements generally in healthcare and treatment. 
However, with this extended life expectancy, our Nation and people with 
Spina Bifida now face new challenges--education, job training, 
independent living, healthcare for secondary conditions, and aging 
concerns, among others. Individuals and families affected by Spina 
Bifida face many challenges--physical, emotional, and financial. 
Fortunately, with the creation of the National Spina Bifida Program in 
2003, individuals and families affected by Spina Bifida now have a 
national resource that provides them with the support, information, and 
assistance they need and deserve.
    As is discussed below, the daily consumption of 400 micrograms of 
folic acid by women of childbearing age prior to becoming pregnant and 
throughout the first trimester of pregnancy can help reduce the 
incidence of Spina Bifida, by up to 70 percent. However, 1,500 babies 
are still born each year with Spina Bifida, and, as such, with the 
aging of the Spina Bifida population and a steady number of affected 
births annually, the Nation must take additional steps to ensure that 
all individuals living with this complex birth defect can live full, 
healthy, and productive lives.

                          COST OF SPINA BIFIDA

    It is important to note that the lifetime costs associated with a 
typical case of Spina Bifida--including medical care, special 
education, therapy services, and loss of earnings--are as much as $1 
million. The total societal cost of Spina Bifida is estimated to exceed 
$750 million per year, with just the Social Security Administration 
payments to individuals with Spina Bifida exceeding $82 million per 
year. Moreover, tens of millions of dollars are spent on medical care 
paid for by the Medicaid and Medicare programs. The emotional, 
financial, and physical toll and costs of Spina Bifida on the 
individuals and families affected are extraordinary. Efforts to reduce 
and prevent suffering from Spina Bifida will help to not only save 
money, but will also save--and improve--lives.

  IMPROVING QUALITY-OF-LIFE THROUGH THE NATIONAL SPINA BIFIDA PROGRAM

    SBA has worked with Members of Congress to help improve our 
Nation's efforts to prevent Spina Bifida and diminish suffering--and 
enhance quality-of-life--for those currently living with this 
condition. With appropriate, affordable, and high-quality medical, 
physical, and emotional care, most people born with Spina Bifida likely 
will have a normal or near normal life expectancy. The CDC's National 
Spina Bifida Program works on two critical levels--to reduce and 
prevent Spina Bifida incidence and morbidity and to improve quality-of-
life for those living with Spina Bifida. The program seeks to ensure 
that what is known by scientists is practiced and experienced by the 
individuals affected by Spina Bifida. Moreover, the National Spina 
Bifida Program works to improve the outlook for a life challenged by 
this complicated birth defect--principally, identifying valuable 
therapies from in-utero throughout the lifespan and making them 
available and accessible to those in need.
    The National Spina Bifida Program serves as a national center for 
information and support to help ensure that individuals, families, and 
other caregivers, such as health professionals, have the most up-to-
date information about effective interventions for the myriad primary 
and secondary conditions associated with Spina Bifida. Among many other 
activities, the program helps individuals with Spina Bifida and their 
families learn how to treat and prevent secondary health problems, such 
as bladder and bowel control difficulties, learning disabilities, 
depression, latex allergies, obesity, skin breakdown and social and 
sexual issues. Children with Spina Bifida often have learning 
disabilities and may have difficulty with paying attention, expressing 
or understanding language, and grasping reading and math. All of these 
problems can be treated or prevented, but only if those affected by 
Spina Bifida--and their caregivers--are properly educated and taught 
what they need to know to maintain the highest level of health and 
well-being possible. The National Spina Bifida Program's secondary 
prevention activities represent a tangible quality-of-life difference 
to the 185,000 individuals living with Spina Bifida with the goal being 
living well with Spina Bifida.
    One way to enhance the knowledge base of Spina Bifida, improve 
quality of care, and save precious resources is to establish a patient 
registry for Spina Bifida. Plans are underway to create the National 
Spina Bifida Patient Registry. This registry is intended to determine 
the best clinical practices and the most cost-effective treatment for 
Spina Bifida, as well as, support the creation of quality measures to 
improve overall care. It is only through clinical research towards 
improved care that we can truly save lives, while also realizing a 
significant cost savings.
    In fiscal year 2009, SBA requested $7 million be allocated to 
support and expand the National Spina Bifida Program. In the final 
fiscal year 2009 Omnibus Appropriations Act, Congress provided $5.468 
million for this program, following 3 years of essentially flat 
funding. SBA understands that the Congress and the Nation face 
unprecedented budgetary challenges and, as such, appreciates this 
modest increase. However, the progress being made by the National Spina 
Bifida Program must be sustained and expanded to ensure that people 
with Spina Bifida--over the course of their lifespan--have the support 
and access to quality care they need and deserve. To that end, SBA 
respectfully urges the subcommittee to Congress allocate $7 million in 
fiscal year 2010 to the program so it can continue and expand its 
current scope of work; further develop the National Spina Bifida 
Patient Registry; and sustain the National Spina Bifida Resource 
Center. Increasing funding for the National Spina Bifida Program will 
help ensure that our Nation continues to mount a comprehensive effort 
to prevent and reduce suffering from--and the costs of--Spina Bifida.

                        PREVENTING SPINA BIFIDA

    While the exact cause of Spina Bifida is unknown, over the last 
decade, medical research has confirmed a link between a woman's folate 
level before pregnancy and the occurrence of Spina Bifida. Sixty-five 
million women of child-bearing age are at-risk of having a child born 
with Spina Bifida, and each year approximately 3,000 pregnancies in 
this country are affected by Spina Bifida, resulting in an estimated 
1,500 births. As mentioned above, the daily consumption of 400 
micrograms of folic acid prior to becoming pregnant and throughout the 
first trimester of pregnancy can help reduce the incidence of Spina 
Bifida, by up to 70 percent. There are few public health challenges 
that our Nation can tackle and conquer by nearly three-fourths in such 
a straightforward fashion. However, we must still be concerned with 
addressing the 30 percent of Spina Bifida cases that cannot be 
prevented by folic acid consumption, as well as ensuring that all women 
of childbearing age--particularly those most at-risk for a Spina Bifida 
pregnancy--consume adequate amounts of folic acid prior to becoming 
pregnant.
    The good news is that progress has been made in convincing women of 
the importance of folic acid consumption and the need to maintain a 
diet rich in folic acid. Since 1968, the CDC has led the Nation in 
monitoring birth defects and developmental disabilities, linking these 
health outcomes with maternal and/or environmental factors that 
increase risk, and identifying effective means of reducing such risks. 
This public health success should be celebrated, but still too many 
women of childbearing age consume inadequate daily amounts of folic 
acid prior to becoming pregnant, and too many pregnancies are still 
affected by this devastating birth defect. The Nation's public 
education campaign around folic acid consumption must be enhanced and 
broadened to reach segments of the population that have yet to heed 
this call--such an investment will help ensure that as many cases of 
Spina Bifida can be prevented as possible.
    SBA is the managing agent for the National Council on Folic Acid, a 
multi-sector partnership reaching more than 100 million people a year 
with the folic acid message. The goal is to increase awareness of the 
benefits of folic acid, particularly for those at elevated risk of 
having a baby with neural tube defects (those who have Spina Bifida 
themselves, or those who have already conceived a baby with Spina 
Bifida). With additional funding in fiscal year 2010, CDC's folic acid 
awareness activities could be expanded to reach the broader population 
in need of these public health education, health promotion, and disease 
prevention messages. SBA advocates that Congress provide additional 
funding to CDC to allow for a targeted public health education and 
awareness focus on at-risk populations (e.g., Hispanic-Latino 
communities) and health professionals who can help disseminate 
information about the importance of folic acid consumption among women 
of childbearing age.
    In addition to a $7 million fiscal year 2010 allocation for the 
National Spina Bifida Program, SBA urges the subcommittee to provide 
$4.818 million for the CDC's national folic acid education and 
promotion efforts to support the prevention of Spina Bifida and other 
neural tube defects; $25.623 million to strengthen the CDC's National 
Birth Defects Prevention Network; and a total of $77.059 million for 
the National Center on Birth Defects and Developmental Disabilities.

         IMPROVING HEALTHCARE FOR INDIVIDUALS WITH SPINA BIFIDA

    As you know, AHRQ's mission is to improve the outcomes and quality 
of healthcare, reduce healthcare costs, improve patient safety, 
decrease medical errors, and broaden access to essential health 
services. AHRQ's work is vital to the evaluation of new treatments, 
which helps ensure that individuals living with Spina Bifida continue 
to receive state-of-the-art care and interventions. To that end, we 
request a $405 million fiscal year 2010 allocation for AHRQ, so it can 
continue to provide guidance and support to the National Spina Bifida 
Patient Registry.

         SUSTAIN AND SEIZE SPINA BIFIDA RESEARCH OPPORTUNITIES

    Our Nation has benefited immensely from our past Federal investment 
in biomedical research at the NIH. SBA joins with other in the public 
health and research community in advocating that NIH receive $33.349 
billion in fiscal year 2010. This funding will support applied and 
basic biomedical, psychosocial, educational, and rehabilitative 
research to improve the understanding of the etiology, prevention, cure 
and treatment of Spina Bifida and its related conditions. In addition, 
SBA respectfully requests that the subcommittee include language in the 
report accompanying the fiscal year 2010 Labor, Health and Human 
Services, and Education, and related Agencies appropriations measure:
  --Urging the National Institute of Child Health and Human Development 
        to continue to support--and expand--a more comprehensive Spina 
        Bifida research portfolio that focuses on addressing the myriad 
        secondary effects and conditions associated with Spina Bifida;
  --Commending the National Institute of Diabetes and Digestive and 
        Kidney Diseases for its interest in exploring issues related to 
        the neurogenic bladder and to encourage the Institute to forge 
        ahead with its work in this important topic area; and
  --Encouraging the National Institute of Neurological Diseases and 
        Stroke to continue and expand its research related to the 
        treatment and management of hydrocephalus.

                               CONCLUSION

    Please know that SBA and SBF stand ready to work with the 
subcommittee and other Members of Congress to advance policies and 
programs that will reduce and prevent suffering from Spina Bifida. 
Again, we thank you for the opportunity to present our views regarding 
fiscal year 2010 funding for programs that will improve the quality-of-
life for the 185,000 Americans and their families living with Spina 
Bifida.
                                 ______
                                 
            Prepared Statement of the Scleroderma Foundation

    Mr. Chairman, I am Cynthia Cervantes, I am 12 and in the ninth 
grade. I live in southern California and in October 2006 I was 
diagnosed with scleroderma. Scleroderma means ``hard skin'' which is 
literally what scleroderma does and, in my case, also causes my 
internal organs to stiffen and contract. This is called diffuse 
scleroderma. It is a relatively rare disorder effecting only about 
300,000 Americans.
    About 2 years ago I began to experience sudden episodes of 
weakness, my body would ache and my vision was worsening, some days it 
was so bad I could barely get myself out of bed. I was taken to see a 
doctor after my feet became so swollen that calcium began to ooze out. 
It took the doctors (period of time) to figure out exactly what was 
wrong with me, because of how rare scleroderma is.
    There is no known cause for scleroderma, which affects three times 
as many women as men. Generally, women are diagnosed between the ages 
of 25 and 45, but some kids, like me, are affected earlier in life. 
There is no cure for scleroderma, but it is often treated with skin 
softening agents, anti-inflammatory medication, and exposure to heat. 
Sometimes a feeding tube must be used with a scleroderma patient 
because their internal organs contract to a point where they have 
extreme difficulty digesting food.
    The Scleroderma Foundation has been very helpful to me and my 
family. They have provided us with materials to educate my teachers and 
others about my disease. Also, the support groups the foundation helps 
organize are very helpful because they help show me that I can live a 
normal, healthy life, and how to approach those who are curious about 
why I wear gloves, even in hot weather. It really means a lot to me to 
be able to interact with other people in the same situation as me 
because it helps me feel less alone.
    Mr. Chairman, because the causes of scleroderma are currently 
unknown and the disease is so rare, and we have a great deal to learn 
about it in order to be able to effectively treat it. I would like to 
ask you to please significantly increase funding for the National 
Institute of Health (NIH) so treatments can be found for other people 
like me who suffer from scleroderma. It would also be helpful to start 
a program at the Centers for Disease Control and Prevention to educate 
the public and physicians about scleroderma.

         OVERVIEW OF THE SCLERODERMA FOUNDATION AND SCLERODERMA

Scleroderma Foundation
    The Scleroderma Foundation is a nonprofit organization based in 
Danvers, Massachusetts with a three-fold mission of support, education, 
and research. The Foundation has 21 chapters nationwide and more than 
175 support groups.
    The Scleroderma Foundation was established on January 1, 1998 
through a merger between two organizations, one on the west coast and 
one on the east coast, which can trace their beginnings back to the 
early 1970s. The Foundation's mission is to provide support for people 
living with scleroderma and their families through programs such as 
peer counseling, doctor referrals, and educational information, along 
with a toll-free telephone helpline for patients and a quarterly 
magazine, The Scleroderma Voice.
    The Foundation also provides education about the disease to 
patients, families, the medical community, and the general public 
through a variety of awareness programs at both the local and national 
levels. More than $1 million in peer-reviewed research grants are 
awarded annually to institutes and universities to stimulate progress 
in the search for a cause and cure for scleroderma. Building awareness 
of the disease to patients, families, the medical community, and the 
general public to not only generate more funding for medical research, 
but foster a greater understanding of the complications faced by people 
living with the disease is a further major focus.
    Among the many programs arranged by the Foundation is the Annual 
Patient Education Conference held each summer. The conference brings 
together an average of 500 attendees and experts for a wide range of 
workshops on such topics as the latest research initiatives, coping and 
disease management skills, caregiver support, and exercise programs.
Scleroderma Overview
    Scleroderma is an autoimmune disease which means that it is a 
condition in which the body's immune system attacks its own tissues. In 
autoimmune disorders, this ability to distinguish foreign from self is 
compromised. As immune cells attack the body's own tissue, inflammation 
and damage result. Scleroderma (the name means ``hard skin'') can vary 
a great deal in terms of severity. For some, it is a mild condition; 
for others it can be life threatening. Although there are medications 
to slow down disease progression and help with symptoms, there is as 
yet no cure for scleroderma.
Who Gets Scleroderma?
    There are many clues that define susceptibility to develop 
scleroderma. A genetic basis for the disease has been suggested by the 
fact that it is more common among patients whose family members have 
other autoimmune diseases (such as lupus). In rare cases, scleroderma 
runs in families, although for the vast majority of patients there is 
no other family member affected. Some Native Americans and African 
Americans get worse scleroderma disease than Caucasians.
    Women are more likely to get scleroderma. Environmental factors may 
trigger the disease in the susceptible host. Localized scleroderma is 
more common in children, whereas scleroderma is more common in adults. 
However, both can occur at any age.
    There are an estimated 300,000 people in the United States who have 
scleroderma, about one-third of whom have the systemic form of 
scleroderma. Diagnosis is difficult and there may be many misdiagnosed 
or undiagnosed cases as well.
    Scleroderma can develop and is found in every age group from 
infants to the elderly, but its onset is most frequent between the ages 
of 25 to 55. There are many exceptions to the rules in scleroderma, 
perhaps more so than in other diseases. Each case is different.
Causes of Scleroderma
    The cause is unknown. However, we do understand a great deal about 
the biological processes involved. In localized scleroderma, the 
underlying problem is the overproduction of collagen (scar tissue) in 
the involved areas of skin. In systemic sclerosis, there are three 
processes at work: blood vessel abnormalities, fibrosis (which is 
overproduction of collagen) and immune system dysfunction, or 
autoimmunity.

                                RESEARCH

    Research suggests that the susceptible host for scleroderma is 
someone with a genetic predisposition to injury from some external 
agent, such as a viral or bacterial infection or a substance in the 
diet or environment. In localized scleroderma, the resulting damage is 
confined to the skin. In systemic sclerosis, the process causes injury 
to blood vessels, or indirectly perturbs the blood vessels by 
activating the immune system.
    Research continues to assemble the pieces of the scleroderma puzzle 
to identify the susceptibility genes, to find the external trigger and 
cellular proteins driving fibrosis, and to interrupt the networks that 
perpetuate the disease.

                          TYPES OF SCLERODERMA

    There are two main forms of scleroderma: systemic (systemic 
sclerosis, SSc) that usually affects the internal organs or internal 
systems of the body as well as the skin, and localized that affects a 
local area of skin either in patches (morphea) or in a line down an arm 
or leg (linear scleroderma), or as a line down the forehead 
(scleroderma en coup de sabre). It is very unusual for localized 
scleroderma to develop into the systemic form.
Systemic Sclerosis
    There are two major types of systemic sclerosis (SSc)--limited 
cutaneous SSc and diffuse cutaneous SSc. In limited SSc, skin 
thickening only involves the hands and forearms, lower legs, and feet. 
In diffuse cutaneous disease, the hands, forearms, the upper arms, 
thighs, or trunk are affected.
    The face can be affected in both forms. The importance of making 
the distinction between limited and diffuse disease is that the extent 
of skin involvement tends to reflect the degree of internal organ 
involvement.
    Several clinical features occur in both limited and diffuse 
cutaneous SSc. Raynaud's phenomenon occurs in both. Raynaud's 
phenomenon is a condition in which the fingers turn pale or blue upon 
cold exposure, and then become ruddy or red upon warming up. These 
episodes are caused by a spasm of the small blood vessels in the 
fingers. As time goes on, these small blood vessels become damaged to 
the point that they are totally blocked. This can lead to ulcerations 
of the fingertips.
    People with the diffuse form of SSc are at risk of developing 
pulmonary fibrosis (scar tissue in the lungs that interferes with 
breathing, also called interstitial lung disease), kidney disease, and 
bowel disease.
    The risk of extensive gut involvement, with slowing of the movement 
or motility of the stomach and bowel, is higher in those with diffuse 
rather than limited SSc. Symptoms include feeling bloated after eating, 
diarrhea, or alternating diarrhea and constipation.
    Calcinosis refers to the presence of calcium deposits in, or just 
under, the skin. This takes the form of firm nodules or lumps that tend 
to occur on the fingers or forearms, but can occur anywhere on the 
body. These calcium deposits can sometimes break out to the skin 
surface and drain whitish material (described as having the consistency 
of toothpaste).
    Pulmonary Hypertension (PH) is high blood pressure in the blood 
vessels of the lungs. It is totally independent of the usual blood 
pressure that is taken in the arm. This tends to develop in patients 
with limited SSc after several years of disease. The most common 
symptom is shortness of breath on exertion. However, several tests need 
to be done to determine if PH is the real culprit. There are now many 
medications to treat PH.
Localized Scleroderma
            Morphea
    Morphea consists of patches of thickened skin that can vary from 
one-half inch to 6 inches or more in diameter. The patches can be 
lighter or darker than the surrounding skin and thus tend to stand out. 
Morphea, as well as the other forms of localized scleroderma, does not 
affect internal organs.
            Linear scleroderma
    Linear scleroderma consists of a line of thickened skin down an arm 
or leg on one side. The fatty layer under the skin can be lost, so the 
affected limb is thinner than the other one. In growing children, the 
affected arm or leg can be shorter than the other.
            Scleroderma en coup de sabre
    Scleroderma en coup de sabre is a form of linear scleroderma in 
which the line of skin thickening occurs on the forehead or elsewhere 
on the face. In growing children, both linear scleroderma and en coup 
de sabre can result in distortion of the growing limb or lack of 
symmetry of both sides of the face.
            fiscal year 2010 appropriations recommendations
    A 7 percent overall increase for NIH.
    A 7 percent increase for the National Institute of Arthritis and 
Musculoskeletal and Skin Diseases (NIAMS) at the NIH.
    A subcommittee recommendation encouraging NIAMS to support a State 
of the Science Conference on Scleroderma in fiscal year 2010.
    Subcommittee recommendation encouraging the Centers for Disease 
Control and Prevention to partner with the Scleroderma Foundation to 
promoting increased awareness of scleroderma among the general public 
and healthcare providers.
                                 ______
                                 
   Prepared Statement of the Society for Healthcare Epidemiology of 
                                America

    Society for Healthcare Epidemiology of America (SHEA) was founded 
in 1980 to advance the application of the science of healthcare 
epidemiology. SHEA works to achieve the highest quality of patient care 
and healthcare personnel safety in all health care settings by applying 
epidemiologic principles and prevention strategies to a wide range of 
quality-of-care issues. SHEA is a growing organization, strengthened by 
its membership in all branches of medicine, public health, and 
healthcare epidemiology.
    SHEA and its members are committed to implementing evidence-based 
strategies to prevent healthcare-associated infections (HAIs). SHEA 
members have scientific expertise in evaluating potential strategies 
for eliminating preventable HAIs. We collaborate with a wide range of 
infection prevention and infectious disease societies, specialty 
medical societies in other fields, quality improvement organizations, 
and patient safety organizations in order to identify and disseminate 
evidence-based practices.
    Our principal partners in the private sector are sister societies 
such as the Infectious Diseases Society of America and the Association 
of Professionals in Infection Control and Epidemiology. The Centers for 
Disease Control and Prevention (CDC), its Division of Healthcare 
Quality Promotion (DHQP) and the Federal Healthcare Infection Practices 
Advisory Committee (HICPAC), and the Council of State and Territorial 
Epidemiologists have been invaluable Federal partners in the 
development of guidelines for the prevention and control of HAIs and in 
their support of translational research designed to bring evidence-
based practices to patient care. Further, collaboration between experts 
in the field (epidemiologists and infection preventionists), CDC and 
the Agency for Healthcare Research and Quality (AHRQ) plays a critical 
role in defining and prioritizing the research agenda. More recently, 
SHEA has aligned with the Joint Commission and the American Hospital 
Association to produce and promote the implementation of evidence-based 
recommendations in the Compendium of Strategies to Prevent Healthcare-
Associated Infections in Acute Care Hospitals (http://www.shea-
online.org/about/compendium.cfm). The organization also contributes 
expert scientific advice to quality improvement organizations such as 
the Institute for Healthcare Improvement (IHI), the National Quality 
Forum, and State-based task forces focused on infection prevention and 
public reporting issues.
    The current swine flu emergency and the Obama administration's 
request for an additional $1.5 billion to address the situation 
highlights the need for ongoing congressional support of a national 
prevention strategy and dedicated funding stream for core public health 
programs. It is our hope that health reform can serve as an opportunity 
to strengthen our public health infrastructure and reorient our health 
system towards prevention and preparedness.
    SHEA applauds the Congress for its support of HAI prevention and 
reduction activities through the American Recovery and Reinvestment Act 
(ARRA) and the fiscal year 2009 Omnibus Appropriations bill. The 
Society is collaborating with the Department of Health and Human 
Services (HHS) and the CDC to translate agency goals and objectives for 
these funds into actions at the bedside that can achieve meaningful 
reductions in preventable HAIs. However, SHEA believes that this level 
of funding is substantially insufficient to address a problem estimated 
by CDC to be one of the top 10 causes of death in the Nation and one 
that poses a significant economic burden on the Nation's healthcare 
system.
    SHEA supports the conclusions of last year's GAO report on 
coordination among HHS agencies related to HAI prevention. We believe 
that coordinated action among CDC, the Centers for Medicare and 
Medicaid Services (CMS) and AHRQ is critical. CDC and its DHQP should 
function as the lead agency in surveillance and prevention activities 
related to HAIs at the Federal level because of its historic and 
successful role in this area. CDC has had an enviable track record of 
prevention and its development and management of the foremost 
surveillance system of its kind, the National Healthcare Safety Network 
(NHSN) has created a national resource that many States have now 
mandated as their public reporting tool. Furthermore, guidelines 
developed by the HICPAC are widely regarded as the standards for the 
field. Coordinated activity among the agencies can lead to better 
informed public policy and payment reform.
    Clearly, the CDC plays a critical role in public health protection 
through its health promotion, prevention, preparedness, and research 
activities. As you consider fiscal year 2010 funding levels for the 
CDC, SHEA urges your support of at least $8.6 billion for CDC's ``core 
programs'' (not including the mandatory funding provided for the 
Vaccines for Children Program) to ensure that the agency is able to 
carry out its prevention mission and to assure an adequate translation 
of new research into effective State and local programs. In addition to 
maintaining a strong public health infrastructure and protecting 
Americans from public health threats and emergencies, SHEA strongly 
believes that CDC programs play a vital role in reducing healthcare 
costs and improving the public's health.
    Within this total, SHEA recommends a fiscal year 2010 funding level 
of $2.4 billion for CDC's Infectious Diseases program budget which 
supports vital management and coordination functions for infectious 
disease science, program, and policy, including infectious disease 
specific epidemiology and laboratory activities. In particular, SHEA 
believes that protecting and improving resources for implementation of 
programs that standardize measurement of appropriate HAI outcomes and 
performance measures should be a priority. Our most valuable resource 
in this regard is NHSN, a voluntary, secure, Internet-based 
surveillance system that integrates and expands patient and healthcare 
personnel safety surveillance systems. Many States consider NHSN to be 
the best option for implementing standardized reporting of HAI data. 
NHSN has now been adopted by 19 States and more than 2,100 U.S. 
hospitals for the surveillance and reporting of HAIs. It is an 
enormously important national resource and effective funding and 
support is essential to expand its implementation. Further, recognizing 
that multiple States mandate the use of NHSN for State public 
reporting, immediate efforts should be made to enable interfaces 
between electronic health records and NHSN. In this way, additional 
burdens are not placed upon healthcare entities from either an 
infection prevention and control or information technology perspective 
as the desirability for national database integration proceeds.
    As already noted, SHEA believes that additional Federal dollars 
should be appropriated for HAI prevention and reduction to build upon 
the investment already made through the ARRA and fiscal year 2009 
omnibus appropriations bill. It is SHEA's perspective that additional 
funding in this area will have the greatest impact when prioritized in 
the following ways:
  --SHEA strongly encourages an emphasis on implementation of evidence-
        based practices, as supported by guidelines (CDC-HICPAC) and 
        evidence-based recommendations (Compendium of Strategies to 
        Prevent Healthcare-Associated Infections in Acute Care 
        Hospitals). Protecting the health of our patients and 
        preventing HAIs in the settings where healthcare is delivered 
        in the United States will require a multi-faceted approach that 
        includes identification and widespread adoption of evidence-
        based best practices. Where evidence does not exist, uniformity 
        in practice should be adopted and studied to determine 
        effectiveness. Failed practices should be discarded and 
        successes widely disseminated. Prevention and control of HAIs 
        also will require better tools in the form of new and novel 
        antimicrobial agents, better knowledge of strategies to effect 
        implementation and adherence to proven prevention methods, and 
        accountability for performance.
  --SHEA supports investment in training and education programs for 
        both hospital-wide personnel, local public health personnel and 
        patients/families in evidence-based prevention practices and 
        development of educational materials /tools for patients and 
        families with respect to HAI and multiple drug resistant 
        organisms (MDRO).
  --SHEA supports a broad context for use of dollars for HAIs rather 
        than pathogen-specific targets or mandates (e.g., on MRSA or C. 
        difficile). Ideally, funding should be tied to locally 
        identified priorities emphasizing that implementation of best 
        practice bundles for catheter-associated bloodstream infections 
        (CLA-BSI), ventilator-associated pneumonia and catheter-
        associated urinary tract infection (CA-UTI) will have a greater 
        impact on prevention of HAIs, including those due to MDRO, than 
        pathogen-specific practices. This approach recognizes the 
        influence of local conditions on the control of healthcare-
        associated infections, and allows rapid modification of 
        strategies as new knowledge is gained. As an example, SHEA and 
        CMS emphasize that a risk assessment must be the first step in 
        any epidemiologic study or infection prevention and control 
        program in order to target preventive efforts effectively. We 
        are pleased that the Joint Commission supports this critical 
        step by developing it into a basic infection prevention 
        standard. SHEA believes that this strategy allows healthcare 
        facilities to use local information to develop and implement 
        optimal and individualized prevention plans designed to reduce 
        healthcare-associated infections that are identified as local 
        problems. Goals should be written in such a way to allow 
        hospitals the flexibility to identify and target their own 
        safety threats within the domains that are considered critical, 
        and healthcare facilities should be expected to be able to 
        justify their infection prevention program based on local risk 
        assessments.
  --SHEA supports investment in hospital infrastructure and qualified 
        personnel for infection prevention and control including 
        epidemiologists, infection prevention and control 
        professionals, NHSN implementation, and adequate microbiology/
        lab diagnostic capability as dictated by locally derived needs 
        assessment and priority.
  --SHEA believes that funds made available through CDC and AHRQ should 
        be used, in part, for translational research projects that can 
        allow more rapid integration of science into practice. As an 
        example, this could involve use of funds to support positions 
        through which large collaboratives could be supported in States 
        not currently part of AHRQ or HRET projects (for example PHRI 
        and Keystone, which have achieved successful reductions in 
        device-associated infections). Experts in the field 
        (Epidemiologists and Infection Preventionists), in 
        collaboration with CDC and the AHRQ, should be engaged in order 
        to further define and prioritize the research agenda. As we 
        strive to eliminate all preventable HAIs, we need to identify 
        the gaps in our understanding of what is actually preventable. 
        This distinction is critical to help guide subsequent research 
        priorities and to help set realistic expectations. SHEA 
        believes in the importance of conducting basic, epidemiological 
        and translational studies (to fill basic and clinical science 
        gaps). While health services research (i.e., successful 
        implementation of strategies already known or suspected to be 
        beneficial) may provide some immediate short-term benefit, to 
        achieve further success, a substantial investment in basic 
        science, translational medicine, and epidemiology is needed to 
        permit effective and precise, interventions that prevent HAIs.
  --SHEA strongly favors local decision-making about priorities for use 
        of funds; however, State efforts should be aligned with CDC 
        priorities and should be carried out through collaboration with 
        key stakeholders such as State hospital associations and local 
        experts. CDC should lead the effort to measure and report on 
        the success of State prevention efforts to HHS.
    With respect to the National Institutes of Health (NIH), SHEA is 
very pleased that the ARRA infused the Institutes with billions of 
dollars for research projects that will enable growth and investment in 
biomedical research and development, public health and healthcare 
delivery. The NIH is the single-largest funding source for infectious 
diseases research in the United States and the life-source for many 
academic research centers. The NIH-funded work conducted at these 
centers lays the ground work for advancements in treatments, cures, and 
medical technologies. We applaud Congress for acknowledging the impact 
of scientific research in stimulating the economy.
    SHEA believes that any national effort designed to address the 
problem of HAIs should begin with the following principles: scrutiny of 
the science base; development of an aggressive, prioritized research 
agenda; the conduct of studies that address the identified questions; 
creation and deployment of guidelines based on the outcomes of these 
studies, followed by studies that assess the efficacy of the 
intervention.
    In order to determine the preventability of infections, we first 
need to understand how and why these infections occur. A comprehensive 
national research agenda on HAIs must include at least three major 
categories of research: pathogenesis, epidemiology, and infection 
prevention strategies. A fourth area of, perhaps, even greater 
importance is the development and use of improved approaches to the 
design of healthcare epidemiology studies. Carefully designed 
multicenter prospective clinical trials are needed to establish the 
effectiveness of prevention and control strategies.
    Unfortunately, support for basic, translational, and 
epidemiological research on HAIs has not been a priority of major 
funding bodies. Despite the fact that HAIs are among the top 10 annual 
causes of death in the United States, scientists studying these 
infections have received relatively less funding than colleagues in 
many other disciplines. In 2008, NIH estimated that it spent more than 
$2.9 billion dollars on funding for HIV/AIDS research, about $2 billion 
on cardiovascular disease research, about $664 million on obesity 
research and, by comparison, National Institute of Allergy and 
Infectious Diseases provided $18 million for MRSA research. SHEA 
believes that as the magnitude of the HAI problem becomes part of the 
dialogue on healthcare reform, it is imperative that the Congress and 
funding organizations put significant resources behind this momentum.
    The limited availability of Federal funding to study HAIs has the 
effect of steering young investigators interested in pursuing research 
on HAIs toward other, better-funded fields. While industry funding is 
available, the potential conflicts of interest, particularly in the 
area of infection-prevention technologies, make this option seriously 
problematic. These challenges are limiting professional interest in the 
field and hampering the clinical research enterprise at a time when it 
should be expanding.
    Our discipline is faced with the need to bundle, implement, and 
adhere to interventions we believe to be successful while 
simultaneously conducting basic, epidemiological, pathogenetic, and 
translational studies that are needed to move our discipline to the 
next level of evidence-based patient safety. The current convergence of 
scientific, public, and legislative interest in reducing rates of HAIs 
can provide the necessary momentum to address and answer important 
questions in HAI research. SHEA strongly urges you to enhance NIH 
funding for fiscal year 2010 to ensure adequate support for the 
research foundation that holds the key to addressing the multifaceted 
challenges presented by HAIs.
    SHEA thanks for the subcommittee for this opportunity to share our 
priorities with respect to fiscal year 2010 funding for HHS, CDC, and 
the NIH. SHEA is pleased to serve as a resource to the subcommittee 
going forward on issues related to healthcare epidemiology.
                                 ______
                                 
     Prepared Statement of the Society for Maternal-Fetal Medicine

    Mr. Chairman and members of the subcommittee: The Society for 
Maternal-Fetal Medicine (SMFM) is pleased to have the opportunity to 
submit testimony in support of the fiscal year 2010 budget for the 
National Institute of Child Health and Human Development (NICHD).
    Established in 1977, SMFM is dedicated to improving maternal and 
child outcomes; and raising the standards of prevention, diagnosis, and 
treatment of maternal and fetal disease.

                                 ISSUE

    Preterm birth is a major public health priority and a major 
research priority for NICHD.
  --Nearly 500,000 babies born in the United States (1 of every 8 
        births) are preterm and the number continues to rise.
  --The annual cost due to preterm birth in the United States is 
        estimated to be $26 billion.
  --These infants are at high risk for a variety of disorders including 
        mental retardation, cerebral palsy and vision impairment.
  --They are also at high risk for long-term health issues including 
        heart attack, stroke, and diabetes.
    NICHD has been given the mandate of supporting almost all research 
into maternal, child, and fetal health problems. In 1986, the NICHD 
established the Maternal Fetal Medicine Units Network to achieve a 
greater understanding and pursue development of effective treatments 
for the prevention of preterm births, intrauterine fetal growth 
disorders, and medical complications during pregnancy. The Network 
currently funds 14 university-based clinical centers and one data 
coordinating center, located around the country. Each site is funded 
for 5 years and is renewed by open competition. The advantages of doing 
clinical trials within the Network include: having large populations 
with which to conduct studies (there are approximately 120,000 births 
per year within the Network); provides diverse populations across an 
array of ethnic and socioeconomic backgrounds--as a result, the study 
outcomes are more likely to prove effective in real-world clinical 
practice.
    The Network has made a number of landmark contributions to 
obstetric practice. In particular, NICHD-supported research identified 
progesterone as a medication that can reduce premature deliveries 
significantly, and now patients are benefiting from this treatment. 
Another major advance is the use of magnesium sulfate--a common 
treatment to delay labor--to reduce the risk of cerebral palsy in 
preterm infants.
    Building on information gathered in previous Network studies, the 
Network is currently addressing whether progesterone will also prevent 
preterm birth in first pregnancies found to have a short cervix. We 
have learned that:
  --one of the largest segments of women at risk for preterm births are 
        those having their first child.
  --when an ultrasound exam shows a short cervix (the opening of a 
        woman's uterus), the risk of preterm birth is much higher.
  --progesterone injections reduce the risk for those women with a 
        prior preterm birth.
    If benefit can be shown, progesterone will then be an intervention 
for prematurity prevention to apply to the largest segment of pregnant 
women at risk for preterm birth.
    While we are making progress, there are still many areas about 
maternal health, pregnancy, fetal well-being, labor, and delivery and 
the developing child that NICHD investigators must understand better. 
For example:
  --Steroids for the prevention of respiratory distress syndrome (RDS) 
        and neonatal complications in the late preterm infant (34-37 
        weeks).
  --Evaluation of the STAN monitor as an adjunct to intrapartum fetal 
        monitoring to improve outcome of labor.
    However these areas are not being pursued due to a projected 
limited budget.
    We urge the subcommittee, as you move forward with your 
deliberations on the fiscal year 2010 budget, to provide greater 
resources to National Institutes of Health and in particular to the 
NICHD. Without a substantial increase and sustained investment in the 
critical medical research being conducted by the NICHD, therapies and 
preventive strategies that have a significant impact on the health of 
mothers and their babies will be delayed.

                             RECOMMENDATION

    SMFM recommends that Congress provide at least a 7 percent increase 
more than the fiscal year 2009 budget for NICHD in fiscal year 2010.
    Within the funds appropriated to the NICHD, SMFM urges Congress to 
instruct NICHD to adequately fund the Maternal Fetal Medicine Units 
Network.
    Thank you for the opportunity to submit our concerns to the 
subcommittee.
                                 ______
                                 
    Prepared Statement of the Society of Teachers of Family Medicine

    Mr. Chairman, the Society of Teachers of Family Medicine, the 
Association of Departments of Family Medicine, the Association of 
Family Medicine Residency Directors, and the North American Primary 
Care Research Group thank you for the opportunity to provide this 
testimony in support of funding for family medicine training in health 
professions training, the Agency for Healthcare Research and Quality 
(AHRQ) and the National Institutes of Health (NIH).
       healthcare reform requires a robust primary care workforce
    Healthcare reform without measures to address the need for more 
primary care physicians will never be comprehensive or effective; it 
will not be able to help the most vulnerable populations, and it will 
not address the significant cost and quality issues currently so 
problematic in the United States. Increased access for patients in 
terms of insurance coverage is critical, but not sufficient to resolve 
the growing shortage of primary care physicians. In fact increased 
coverage, without increased numbers of primary care physicians, is a 
recipe for disaster.
    Solving the problem of the primary care crisis requires a multi-
faceted solution. One key element is to increase the value of primary 
care, both in terms of payment rates and loan forgiveness, and through 
other avenues to make primary care an attractive specialty choice for 
medical students. A second is to change the incentives and rules 
surrounding training under the Medicare graduate medical education 
system. A third is to increase funding of programs that are effective 
in producing more primary care physicians, such as the primary care 
medicine and dentistry cluster of the health professions training 
programs. And the fourth is to support research regarding the clinical 
needs of most people seeking care, relating to the most common acute, 
chronic, and comorbid conditions routinely cared for by primary care 
physicians.
    It is the latter two building blocks: funding for primary care 
physician training programs and funding for primary care research that 
come under this subcommittee's jurisdiction and that this testimony 
addresses
Health Professions: Primary Care Medicine and Dentistry (title VII, 
        section 747)
    We recommend that Congress build on the investment in primary care 
medicine training made in the American Recovery and Reinvestment Act 
(ARRA) by providing an appropriation of $215 million for primary care 
medicine and dentistry health professions training grants. The fiscal 
year 2009 omnibus appropriations bill only provided $500,000 more for 
these programs than in fiscal year 2008. This funding level ($48.4 
million) is less than half of the funding these programs received in 
fiscal year 2003. We appreciate your efforts in that the House had 
proposed to double that account in the ARRA. We applaud the $300 
million included for the National Health Service Corps, but we do not 
know how the remaining $200 million in workforce funds will be 
distributed between the many other workforce programs included in the 
ARRA.

       KEY ADVISORY COMMITTEES KNOW THESE PROGRAMS ARE EFFECTIVE

    The Institute of Medicine (IOM) calls the title VII program an 
``undervalued asset.'' Title VII, section 747, administered by HRSA, is 
the only program aimed directly at training primary care physicians. On 
December 12, 2008, the Institute of Medicine released ``HHS in the 21st 
Century: Charting a New Course for a Healthier America,'' which points 
to the drastic decline in title VII funding. Within that report, the 
IOM terms title VII an ``undervalued asset.
    The HRSA Advisory Committee on Training in Primary Care Medicine 
and Dentistry \1\ recommends an annual minimum level of $215 million 
for the title VII, section 747 grant program. The Committee reasoned 
that:
---------------------------------------------------------------------------
    \1\ The Role of Title VII, Section 747 in Preparing Primary Care 
Practitioners to Care for the Underserved and Other High-Risk Groups 
and Vulnerable Populations. Sixth Annual Report to the Secretary of the 
U.S. Department of Health and Human Services and to Congress.

    Title VII funds are essential to support major primary care 
training programs that train the providers who work with vulnerable 
populations . . . additional funding is also necessary to prepare 
current and future primary care providers for their critical role in 
responding to healthcare challenges including demographic changes in 
the population, increased prevalence of chronic conditions, decreased 
access to care, and a need for effective first-response strategies in 
---------------------------------------------------------------------------
instances of acts of terrorism or natural disasters.

    The Congressional Research Service also found that reduced funding 
for the primary care medicine and dentistry cluster had a deleterious 
impact on the effectiveness of these programs--at a time when more, 
rather than less primary care is needed. For example, ``In fiscal year 
2006, the program supported a total of 17,870 individuals in clinical 
training in underserved areas, a decrease from the support of 31,153 
individuals in fiscal year 2005.'' \2\ This is a decrease of almost 43 
percent, in only 1 year.
---------------------------------------------------------------------------
    \2\ CRS Report to Congress. February 7, 2008 Title VII Health 
Professions Education and Training: Issues in Reauthorization (Order 
Code RL32546).
---------------------------------------------------------------------------
    A study in the Annals of Family Medicine (September/October 2008) 
shows that medical schools that receive primary care training dollars 
produce more physicians who work in Community Health Centers (CHCs) and 
serve in the National Health Service Corps compared to schools without 
title VII primary care funding. In spite of an effort to double the 
capacity of CHCs between 2002 and 2006, CHCs have found it difficult to 
recruit a sufficient number of primary care physicians and have 
hundreds of vacant positions.

    PROGRAMS ARE ECONOMIC DRIVERS OF COST-SAVINGS AND HIGHER QUALITY

    A Health Affairs (April 2004) article found a lower quality of care 
in States with higher levels of Medicare spending. The authors from the 
Dartmouth Center for the Evaluative Clinical Sciences found that States 
with more specialists and fewer primary care physicians had 
significantly higher costs and lower quality. A small increase in the 
number of primary care physicians in a State was associated with a 
large boost in that State's quality ranking. Indeed, States at the 75th 
percentile in number of primary care physicians per capita recorded 
Medicare costs $1,600 less per Medicare beneficiary per year and 
higher-quality indicators than States at the 25th percentile. If all 
States were to move to this level of primary care services, higher-
quality care could be delivered at a savings of $60 billion or more per 
year for Medicare patients alone. Increased funding for title VII, 
section 747 could train more family doctors to be available to provide 
this much needed high-quality, lower-cost care.
    The Government Accountability Office (GAO) and the Medicare Payment 
Advisory Commission have noted research indicating that access to 
primary care is associated with better health outcomes and lower 
healthcare costs. The GAO states ``Ample research in recent years 
concludes that the nation's over reliance on specialty care services at 
the expense of primary care leads to a healthcare system that is less 
efficient. At the same time, research shows that preventive care, care 
coordination for the chronically ill, and continuity of care--all 
hallmarks of primary care medicine--can achieve improved outcomes and 
cost savings.'' \3\
---------------------------------------------------------------------------
    \3\ Testimony before the Committee on Health, Education, Labor, and 
Pensions, U.S. Senate. Primary Care Professionals: Recent Supply 
Trends, Projections and Valuation of Services. Statement of A. Bruce 
Steinwald, Director Health Care, United States Accountability Office. 
February 12, 2008 GAO-08-472T.
---------------------------------------------------------------------------
    According to a report prepared by the National Association of 
Community Health Centers, The Robert Graham Center, and Capitol 
Link,\4\ ``There is a growing consensus among the Nation's political 
and industry leaders that the U.S. health care crisis has shifted from 
the realm of the poor and disenfranchised, to the doorstep of middle-
class America.'' Additionally, they cite the following:
---------------------------------------------------------------------------
    \4\ Access Granted: The Primary Care Payoff, August 2007, National 
Association of Community Health Centers, The Robert Graham Center, 
Capitol Link (pgs 1-2).

    ``If every American made use of primary care, the healthcare system 
would see $67 billion in savings annually. This reflects not only those 
who do not have access to primary care, but also those who rely 
extensively on costly specialists for most of their care, leading to 
inefficiencies in the system. More specifically, the expansion of 
Medical homes can even more dramatically facilitate effective use of 
health care, improve health outcomes, minimize health disparities, and 
---------------------------------------------------------------------------
lower overall costs of care.''

    Another study by the Robert Graham Center,\5\ found that the 
economic impact of one family physician to his or her community was 
just more than $900,000 annually. Family physicians are the specialty 
most widely distributed throughout the United States. Using the data 
from their study on the economic impact of family physicians in their 
communities, they estimate that family physicians generate a nationwide 
economic impact of more than $46 billion per year. This is a 
conservative estimate, and does not include a number of intangible and 
other tangible economic benefits of family physicians, such as their 
contribution to the generation of income for other local healthcare 
organizations such as hospitals and nursing homes. In addition, while 
most medical specialties tend to cluster in urban areas and near 
academic health centers, family physicians are the specialists that are 
most likely to work in the poorest rural and urban areas. These 
underdeveloped geographies are also the ones most likely to be 
medically underserved.
---------------------------------------------------------------------------
    \5\ The Family Physician as Economic Stimulus, http://www.graham-
center.org/online/graham/home/tools-resources/directors-corner/dc-
economic-stimulus.html.
---------------------------------------------------------------------------
    Multiple studies from the Johns Hopkins Bloomberg School of Public 
Health have demonstrated that disparities in healthcare outcomes due to 
income inequality and socioeconomic status are reduced when there is an 
adequate supply of primary care.
    AHRQ and NIH--Health Care Reform Requires New Areas of Endeavor 
Research related to the most common acute, chronic, and comorbid 
conditions that primary care clinicians care for on a daily basis is 
currently lacking. Primary care physicians are in the best position to 
design and implement research of the common clinical questions 
confronted in practice. Funding should be increased both for the 
training of primary care researchers and for this type of clinical 
research. Such training is necessary to impart critical research skills 
to the primary care workforce and to contribute to the body of 
knowledge necessary to put primary care on similar footing with other 
specialties that have established research infrastructures. We are 
pleased with the infusion of funding through the ARRA for comparative 
effectiveness research, but there is a need to provide new funding 
directly toward specific clinical and translational endeavors.

                                  AHRQ

    AHRQ supports research to improve healthcare quality, reduce costs, 
advance patient safety, decrease medical errors, and broaden access to 
essential services. While targeted funding increases in recent years 
have moved AHRQ in the right direction, more core funding is needed to 
help AHRQ fulfill its mission. We support the request of the Friends of 
AHRQ which recommends an fiscal year 2010 base funding level of $405 
million, an increase of $32 million over the fiscal year 2009 level. 
This increase will preserve AHRQ's current initiatives and get the 
agency on track to a base budget of $500 million by 2013.
    IOM's report, Crossing the Quality Chasm: A New Health System for 
the 21st Century (2001) recommended a much larger investment in AHRQ. 
It recommended $1 billion a year for AHRQ to ``develop strategies, 
goals, and action plans for achieving substantial improvements in 
quality in the next 5 years.'' AHRQ is critical to retooling the 
American healthcare system.
    One of the hallmarks of the Patient-Centered Medical Home is 
evidence-based medicine. Comparative effectiveness clinical research, 
compares the impact of different options for treating a given medical 
condition, and is vital to improving the quality of healthcare. Studies 
comparing various treatments (e.g., competing drugs) or differing 
approaches (e.g., surgery vs. drug therapy) can inform clinical 
decisions by analyzing not only costs, but the relative medical 
benefits and risks for particular patient populations.

                                  NIH

    Historically, the NIH has placed little emphasis on the research 
questions asked by primary care physicians and in primary care 
settings. We have been encouraged by the development of the NIH Roadmap 
and the Clinical and Translational Science Awards (CTSA), along with 
the establishment, in statute, of a funding stream that would make NIH 
more relevant to where most people receive care. We support an increase 
in NIH funding. In addition, we would like to see some report language 
that would help NIH ensure that the promise of ``bench to bedside'' 
research truly becomes ``bench to bedside to community''--and community 
to bedside to bench.
    We support the inclusion of the following language in the report to 
accompany the Labor, Health and Human Services, and Education, and 
Related Agencies appropriations bills for fiscal year 2010:

    ``Translational Research has been identified by the former Director 
of the National Institutes of Health (NIH) as a road map initiative. 
The committee supports this effort and encourages NIH to integrate such 
research as a permanent component of the research portfolio of each 
institute and center. The committee urges NIH to work with the primary 
care community to determine how best to facilitate progress in 
translating existing research findings and to disseminate and integrate 
research findings into community practice. Translational research 
should also include the discovery and application of knowledge within 
the practice setting using such laboratories as practice-based research 
networks. This research spans biological systems, patients, and 
communities, and arises from questions of importance to patients and 
their physicians, particularly those practicing primary care. The 
committee requests that the Director of NIH include a progress update 
in next year's Budget Justification.''

                               CONCLUSION

    As the United States moves toward major healthcare reform, we urge 
the subcommittee to support programs needed to ensure the proper supply 
of primary care physicians and the type of research that will work 
together to improve healthcare outcomes, enhance equity in care, and 
lower healthcare costs. We support increases in these three important 
programs: health professions primary care medicine and dentistry 
training, AHRQ, and NIH.
                                 ______
                                 
   Prepared Statement of the State and Territorial Injury Prevention 
                         Directors Association

    Thank you for the opportunity to offer written testimony to the 
Senate Appropriations Subcommittee on Labor, Health and Human Services, 
and Education and Related Agencies regarding the critical need for 
investments in State and territorial injury and violence prevention 
programs. It is well-recognized that injury and violence are a 
significant public health problem in terms of risk and costs to 
society. Injuries are the leading cause of death among persons 1-44 
years of age, and a major cause of death, disability, and 
hospitalization for all age group. There are more than 170,000 injury-
related deaths each year in the United States and approximately 30 
million people seek emergency treatment as a result of injuries and 
violence annually.\1\ Injury is the most common cause of premature 
deaths before age 65, accounting for 30 percent of years of potential 
life lost. In 2004, 1 in 14 deaths was caused by an injury, including 3 
out of 4 deaths for adolescents and young adults.\2\
---------------------------------------------------------------------------
    \1\ National Center for Health Statistics. (2005). Deaths, Leading 
Causes. Center for Disease Control and Prevention. Retrieved December 
2, 2008 from http://www.cdc.gov/nchs/FASTATS/lcod.htm.
    \2\ Injury in the United States: 2007 Chartbook.. U.S. Department 
of Health and Human Services, Centers for Disease Control and 
Prevention, National Center for Health Statistics. March 2008.
---------------------------------------------------------------------------
    In 2000 alone, Americans suffered injuries resulting in more than 
$117 billion in medical costs and an estimated $289 billion in 
productivity losses, approximately 10 percent of total U.S. medical 
expenditures.\3\ Long-term disabilities from brain, spinal cord, and 
burn injuries, and fall-related hip fractures, frequently result in 
high costs for continued, long-term care. Additionally injuries, 
especially fractures, for persons age 65 and older make up a 
substantial proportion of Medicare expenditures. As the U.S. population 
continues to age, this problem will be an even more significant burden 
on the Medicare system.
---------------------------------------------------------------------------
    \3\ Zaloshnja, E., Miller, T. R., Lawrence, B. A., & Romano, E. 
(2005). The costs of unintentional home injuries. Am J Prev Med, 28: 
88-94.
---------------------------------------------------------------------------
    Despite the enormous toll of injury and violence, dedicated and 
ongoing Federal or State funding to respond to these problems does not 
exist as it does for other major public health priorities. State 
governments have a responsibility to protect the public's health and 
safety. A comprehensive injury and violence prevention program at the 
State health department provides focus and direction, coordinates and 
finds common ground among the many prevention partners, and makes the 
best use of limited injury and violence prevention resources. State 
public health injury and violence prevention programs apply the public 
health approach to help understand, predict and prevent injuries and 
use a population-based approach to extend the benefits of prevention 
beyond individuals.
    State and Territorial Injury Prevention Directors Association 
(STIPDA) believes that all State and territorial health departments in 
the United States must have a comprehensive injury surveillance and 
prevention programs. These programs must be adequately staffed and 
funded commensurate with the magnitude of the burden of injury and 
violence in each State. They must have programs and expertise to 
address the leading causes of unintentional and violent injuries; and 
have disaster and terrorism epidemiology and injury mitigation 
programs. State public health departments bring significant leadership 
to reduce injuries and injury-related healthcare costs by:
  --Informing the development of public policies through data and 
        evaluation.
  --Designing, implementing, and evaluating injury and violence 
        prevention programs in cooperation with other agencies and 
        organizations.
  --Collaborating with partners in healthcare and the community.
  --Collecting and analyzing injury and violence data from a variety of 
        sources to identify high-risk groups and geographic locations.
  --Providing technical support and training to injury prevention 
        partners.
    State injury and violence prevention programs use surveillance data 
to determine how injuries occur, who is most at risk, and what other 
factors contribute to whether or not an individual will be injured and 
to what degree. State programs have come a long way in understanding of 
how to prevent injuries and look beyond just the personal behaviors 
that lead to an injury. They also investigate the products that people 
use, the physical and social environment, and how organizational and 
governmental policies affect the safety of our environments.
    State programs have also contributed to the dissemination of 
effective practices through partnerships with injury control research 
centers, local health departments, local coalitions and other 
organizations. To ensure the widespread adoption of these 
interventions, State programs provide training and technical assistance 
to local injury prevention efforts every day and often financial and 
in-kind support, as well as implement interventions.
    The following are some examples of how State public health 
departments have contributed to the declines we have seen in deaths due 
to injuries in this country:
  --Washington State's Injury and Violence Prevention Program has seen 
        a decline in youth suicide while the U.S. rates have remained 
        static. Washington found that on average 2 young people were 
        dying of suicide per week with another 16 attempts that 
        required hospitalization. The program estimated that a 50 
        percent reduction in youth suicidal behavior would result in 
        $12 million in healthcare savings alone. The program 
        implemented a comprehensive prevention program including 
        gatekeeper training, public awareness and strengthening 
        community safety nets for youth.
  --The Georgia State Injury and Violence Prevention Program have been 
        able to document at least 56 lives potentially saved through a 
        unique partnership with Emergency Medical Services since 2006 
        through a child safety seat education and distribution program 
        for low-income families in 109 of 169 counties throughout the 
        State.
  --The New York Injury and Violence Prevention Program was able to 
        document reductions in bicycle-related injuries and traumatic 
        brain injuries following the implementation of a statewide 
        comprehensive bicycle helmet program that culminated in a 
        bicycle helmet law passing easily through the State 
        legislature.
  --The Oklahoma Injury Prevention Service was able to identify a high-
        risk area in Oklahoma City for house-related fire injuries. In 
        response, they conducted a smoke alarm distribution program. 
        After the program, Oklahoma saw an 81 percent decline in 
        residential fire injury-related deaths in the target population 
        while rates declined only 7 percent in the rest of Oklahoma 
        during the same time period.
  --After finding that its drowning rate was ten times the national 
        average, Alaska's Department of Health and Human Services 
        formed a unique partnership with the U.S. Coast Guard, State 
        Office of Boating Safety, Alaska Safe Kids to develop the 
        ``Kids Don't Float'' program. Following extensive analysis of 
        the problem, the coalition found that 90 percent of fatality 
        victims were not wearing a life jacket (personal flotation 
        device), more than half occurred in lakes and rivers, and that 
        children younger than 18 make up a significant proportion of 
        the victims. The program consists of adult and youth education 
        (including peer-to-peer education for teens) and a life jacket 
        loaner program. At least 5 documented lives have been saved 
        through this program that is now implemented in 200 locations 
        throughout the State.
  --California's Epidemiology and Prevention for Injury Control Branch-
        funded and -evaluated a statewide social marketing campaign 
        designed to engage high school age males as allies in 
        preventing sexual violence through a message ``My Strength is 
        Not for Hurting.'' Through media efforts and ``Men of Strength 
        (MOST)'' clubs in six pilot sites, California found that 
        campaign appear promising, particularly when it involves MOST 
        clubs, for favorably influencing high-school age males towards 
        more respectful attitudes and affecting a healthier social 
        climate in high schools.
    When evidence-based injury prevention strategies are implemented, 
the estimated return on investment is substantial. For instance, home 
visitation programs have been demonstrated to be particularly effective 
in reducing child abuse and injury, and provide a cost savings of 
nearly $2.88 to $5.70 per $1 spent. Other proven cost-effective injury 
prevention strategies include:

------------------------------------------------------------------------
                                                          Total benefits
           Intervention                 Cost per unit     to society \1\
------------------------------------------------------------------------
Booster seat......................              $31/seat          $2,200
Child bicycle helmet..............            $11/helmet            $570
Motorcycle helmets................           $240/helmet          $4,300
Sobriety checkpoints..............     $9,600/checkpoint         $73,000
Midnight curfew and provisional               $74/driver            $600
 licensing for teen drivers.......
Smoke alarm purchases.............       $33/smoke alarm            $940
Fall prevention for high-risk              $1,250/person         $10,800
 elderly..........................
Youth suicide prevention, native              $175/youth         $6,700
 american.........................
------------------------------------------------------------------------
\1\ The total benefit to society is defined as the amount injury
  prevention interventions saved by preventing injuries, including
  medical costs, other resource costs (police, fire services, property
  damages, etc.), work loss, and quality of life costs. These benefits
  are calculated in 2004 dollars.

    Currently, the National Center for Injury Prevention and Control 
(NCIPC)provides very minimal funding to 30 States through the Public 
Health Injury Surveillance and Prevention Program (PHISPP). According 
to STIPDA's 2007 State of the States survey, States with PHISPP funding 
were more likely to have a centralized program, a full-time director, 
and greater access to key injury data sets. They were also more likely 
to provide support to local injury efforts and provide surveillance 
data and technical assistance to inform public policy related to injury 
and violence. States with PHISPP funding are well-positioned to 
leverage additional resources, implement interventions for major injury 
issues, evaluate interventions, gain political support for specific 
injury topics, and raise awareness of injury trends.
    We are asking the Senate to provide an additional $10 million to 
the NCIPC at the Centers for Disease Control and Prevention to 
supplement current investments for State injury and violence prevention 
programs. This funding would allow for:
  --Expansion and stabilization of resources for State injury and 
        violence prevention programs;
  --Strengthening the ability of States to improve the collection and 
        analysis of injury data, build coalitions and establish 
        partnerships to promote programs and policies; and
  --Disseminating proven injury and violence prevention strategies, 
        with a focus on persons at highest risk.
    Preventable injuries exact a heavy burden on Americans through 
premature deaths and disabilities, pain and suffering, healthcare 
costs, rehabilitation costs, disruption of quality of life for families 
and disruption of productive for employers. Strengthening the 
investments made to public health injury and violence prevention 
programs is a critical step to keep Americans safe and productive for 
the 21st century.

                              ABOUT STIPDA

    Formed in 1992, STIPDA, is the only organization that represents 
public health injury prevention professionals in the United States. 
STIPDA has a membership of more than 300 professionals committed to 
strengthening the ability of State, territorial, and local health 
departments to reduce death and disability associated with injuries and 
violence. STIPDA engages in activities to increase awareness of injury, 
including violence, as a public health problem and works to enhance the 
capacity of public health agencies to conduct injuries and violence 
prevention.
                                 ______
                                 
 Prepared Statement of the Society for Women's Health Research and the 
                   Women's Health Research Coalition

    On the behalf of the Society for Women's Health Research and the 
Women's Health Research Coalition, we are pleased to submit the 
following testimony in support of Federal funding of biomedical 
research, and in particular women's health research.
    The Society for Women's Health Research is the Nation's only 
nonprofit organization whose mission is to improve the health of all 
women through advocacy, research, and education. Founded in 1990, the 
Society brought to national attention the need for the appropriate 
inclusion of women in major medical research studies and the need for 
more information about conditions affecting women exclusively, 
disproportionately, or differently than men. The Society advocates 
increased funding for research on women's health; encourages the study 
of sex differences that may affect the prevention, diagnosis and 
treatment of disease; promotes the inclusion of women in medical 
research studies; and informs women, providers, policy makers and media 
about contemporary women's health issues. In 1999, the Women's Health 
Research Coalition was created by the Society as a grassroots advocacy 
effort consisting of scientists, researchers, and clinicians from 
across the country that are concerned and committed to improving 
women's health research.
    The Society and Coalition are committed to advancing the health of 
women through the discovery of new and useful scientific knowledge. We 
believe that sustained funding for biomedical and women's health 
research programs conducted and supported across the Federal agencies 
are absolutely essential if we are to meet the health needs of the 
population and advance the Nation's research capability.

                  NATIONAL INSTITUTES OF HEALTH (NIH)

    Congressional investment and support for NIH continues to make the 
United States the world leader in biomedical research and has provided 
a direct and significant impact on women's health research and the 
careers of women scientists over the last decade. Great strides and 
advancements were made through the doubling of the NIH budget from 
$13.7 billion in 1998 to $27 billion in 2003, though the momentum 
driving new research in recent years was eroded under budgetary 
constraints. The 111th Congress saw the importance of increasing funds 
to NIH in the fiscal year 2009 omnibus bill providing the NIH with 
$30.317 billion, $937.5 million over fiscal year 2008, (a 3.2 percent 
increase.) Thankfully, Congress also sought fit to include the NIH in 
the American Recovery and Reinvestment Act of 2009 (Public Law 111-5) 
(ARRA) providing it with an infusion of short-term funding of $10.4 
billion. This funding will have and is having an enormous impact on 
research and research facilities throughout the United States, creating 
new jobs, new innovations and improved technologies.
    Without a robust budget, NIH has shown that it is forced to reduce 
the number of grants it is able to fund. The number of new grants 
funded by NIH has dropped steadily since fiscal year 2003 and this 
trend must stop. This shrinking pool of available grants has a 
significant impact on scientists who depend upon NIH support to cover 
their salaries and laboratory expenses to conduct high-quality 
biomedical research. Failure to obtain a grant results in reduced 
likelihood of achieving tenure. This means that new and less 
established researchers are forced to consider other careers, the end 
result being the loss of the critical workforce so desperately needed 
to sustain America's cutting edge in biomedical research.
    In order to continue the momentum of scientific advancement and 
expedite the translation of research findings from the laboratory to 
the patients who depend on these advances for improved health and 
welfare, the Society proposes a 10 percent increase more than fiscal 
year 2009, and establishing a goal of reaching an annual appropriation 
of $40 billion in the next 3 years. In addition, we request that 
Congress strongly encourage the NIH to utilize ARRA funding as well as 
appropriated dollars to assure that women's health research receives 
resources sufficient to meet the health needs of all women. Further, 
the Society recommends that NIH support the advances being discovered 
in sex-based biology research.
    Scientists have long known of the anatomical differences between 
men and women, but only within the past decade have they begun to 
uncover significant biological and physiological differences. Sex-based 
biology, the study of biological and physiological differences between 
men and women, has revolutionized the way that the scientific community 
views the sexes.
    Sex differences play an important role in disease susceptibility, 
prevalence, time of onset and severity and are evident in cancer, 
obesity, heart disease, immune dysfunction, mental health disorders, 
and many other illnesses. It is imperative that research addressing 
these important differences between males and females be supported and 
encouraged. Congress clearly recognizes these important sex differences 
and NIH should as well.

              OFFICE OF RESEARCH ON WOMEN'S HEALTH (ORWH)

    The NIH ORWH has a fundamental role in coordinating women's health 
research at NIH, advising the NIH Director on matters relating to 
research on women's health and sex and gender research; strengthening 
and enhancing research related to diseases, disorders, and conditions 
that affect women; working to ensure that women are appropriately 
represented in research studies supported by NIH; and developing 
opportunities for and support of recruitment, retention, re-entry, and 
advancement of women in biomedical careers. ORWH is currently 
implementing recommendations from the NIH working Group on Women in 
Biomedical Careers to maximize the potential of women biomedical 
scientists and engineers in both the NIH and extramural community.
    Two highly successful programs supported by ORWH that are critical 
to furthering the advancement of women's health research are Building 
Interdisciplinary Research Careers in Women's Health (BIRCWH) and 
Specialized Centers of Research on Sex and Gender Factors Affecting 
Women's Health (SCOR). These programs benefit the health of both women 
and men through sex and gender research, interdisciplinary scientific 
collaboration, and provide tremendously important support for young 
investigators in a mentored environment.
    The BIRCWH program is an innovative, trans-NIH career development 
program that provides protected research time for junior faculty by 
pairing them with senior investigators in an interdisciplinary mentored 
environment. It is expected that each scholar's BIRCWH experience will 
culminate in the development of an established independent researcher 
in women's health. The BIRCWH program has released four RFAs (1999, 
2001, 2004, and 2006). Since 2000, 335 scholars have been trained (76 
percent women) in the 24 centers resulting in more than 1,300 
publications, 750 abstracts, 200 NIH grants and 85 awards from industry 
and institutional sources. Each BIRCWH receives approximately $500,000 
a year, most of which comes from the ORWH budget but is also supported 
by many NIH Institutes and Centers.
    The SCOR program was developed by ORWH in 2002. SCORs are designed 
to increase the transfer of basic research findings into clinical 
practice by housing laboratory and clinical studies under one roof. The 
eleven SCOR programs are conducting interdisciplinary research focused 
on major medical problems affecting women and comparing gender 
differences to health and disease. Each SCOR works hard to transfer 
their basic research findings into the clinical practice setting. In 
2007, seven SCORS competed successfully for renewal and four new SCORS 
were added. In 2008, the 11 SCORs report publishing 113 journal 
articles, 144 abstracts, and 30 other publications. Each program costs 
approximately $1 million per year and results in research that would 
not have taken place without this program.
    Advancing Novel Science in Women's Health Research (ANSWHR) was 
created by ORWH in 2007 and funding starting in July 2008 to promote 
innovative new concepts and interdisciplinary research in women's 
health research and sex/gender differences. This program has had broad 
appeal and is evolving into an important scientific tool for both 
early-stage investigators and veteran researchers to test nascent 
scientific concepts relevant to women's health research and the study 
of sex and gender differences. Researchers can apply for support to 
promote innovative, interdisciplinary research to answer unresolved 
questions and expand the knowledge base in a host of areas relevant to 
women's health research. In fiscal year 2009, 13 ICs have one or more 
applications that have been scientifically reviewed and are considered 
competitive for funding. These applications, and the fiscal year 2008 
awards, represent a wide range of scientific areas as well as junior 
investigators and experienced researchers. ANSWHR serves as a way for 
interested researchers to compete for funding that is expanding the 
scientific basis for women's health research and the study of sex and 
gender differences.
    ORWH also has the Research Enhancement Awards Program (REAP) to 
support meritorious research on women's health that just missed the IC 
pay line and a Partnership with the National Library of medicine to 
identify overarching themes, specific health topics, and research 
initiatives into women's health.
    ORWH, through successful collaboration with the NIH ICs provides 
research funding for: breast cancer pharmacogenomics, HPV vaccines, 
uterine leiomyoma, vulvodynia, irritable bowel syndrome, stroke, 
substance abuse, eating disorders including obesity, menopause, 
microbicides, chronic pain syndromes, autoimmune disorders, muscular 
skeletal disorders, and health disparities among many other issues.
    Despite all of ORWH's advancements of women's health research and 
its innovative programs to advance women scientists, the office has 
seen its budget flat lined at $40.9 million for fiscal year 2008 and 
2009 after having also received a cut of $249,000 in fiscal year 2006 
and no additional funding in fiscal year 2007. Flat funding is the same 
as receiving a decrease in budget and must not continue to happen. In 
order for ORWH's programs and research grants to thrive Congress must 
direct that NIH to continue its support of ORWH and provide it with $2 
million budget increase.

             DEPARTMENT OF HEALTH AND HUMAN SERVICES (HHS)

    Under the HHS several agencies have Federal offices on women's 
health, in addition to ORWH described above. Agencies with offices, 
advisors, or coordinators for women's health or women's health research 
are HHS, the Food and Drug Administration, the Centers for Disease 
Control and Prevention, the Agency for Healthcare Quality and Research 
(AHQR), the Indian Health Service, the Substance Abuse and Mental 
Health Services Administration, the Health Resources and Services 
Administration, and the Centers for Medicare and Medicaid Services. It 
is imperative that these offices are funded at levels adequate for them 
to perform their assigned missions. We ask that the Committee Report 
clarify that Congress supports the permanent existence of these various 
Federal women's health offices and recommends that they are 
appropriately funded to ensure that their programs can continue and be 
strengthened in the coming fiscal year.

                      HHS OFFICE OF WOMEN'S HEALTH

    The HHS Office of Women's Health (OWH) is the Government's champion 
and focal point for women's health issues. It works to redress 
inequities in research, healthcare services, and education that have 
historically placed the health of women at risk. The OWH coordinates 
women's health efforts in HHS to eliminate disparities in health status 
and supports culturally sensitive educational programs that encourage 
women to take personal responsibility for their own health and 
wellness. OWH has a central role in communicating the appropriate 
messages to patients and healthcare providers, helping to move forward 
recent research discoveries. Without OWH's actions the task of 
translating research into practice would and will be only more 
difficult and delayed.
    Over the years OWH has been active in various efforts such as: 
joining with NIH to launch the ``The Heart Truth'' campaign, a 
prevention and awareness campaign concerning heart disease and women; 
leading a series of Women's Heart Health Fairs nationwide; partnering 
with the Lupus Foundation of America and the Advertising Council to 
launch a new lupus public awareness campaign targeted toward young 
minority women of childbearing age who are at most risk for developing 
the disease to identify early warning signs.
    OWH created a new training program ``Body Works'' for parents and 
caregivers designed to improve family eating and activity habits and is 
available in both English and Spanish. They collaborated with other 
organizations to lead a conference on ``Charting New Frontiers in Rural 
Women's Health,'' as well as hosting the third Minority Women's Health 
Summit to address the unique health issues many women of color 
experience. In addition, OWH has continued its efforts to improve the 
health of young women by providing information on their Web site to 
address eating disorders and HIV/AIDS prevention for adolescent girls, 
in conjunction with conducting their HIV/AIDS National Awareness Day. 
Further, OWH is leading efforts to improve breastfeeding information 
available to women of all cultures by offering multilingual Web sites 
and help-lines.
    This year marks the 10th anniversary of the launch of the 
womenshealth.gov Web site and care center and National Women's Health 
Week. As part of the annual celebration, OWH is sponsoring many events 
with communities, businesses and other governmental and health 
organizations to educate women on how they can improve their physical 
and mental health. Further, this year OWH is celebrating the 
publication of ``The Healthy Women'' a book with wonderful health 
information and tips for women of all ages.
    It is only through continued and increased funding that the OWH 
will be able to achieve its goals. While the budget for fiscal year 
2008 increased the OWH budget by $2 million to a total of $30 million, 
its budget was flat lined for fiscal year 2009. This is, in essence, a 
decrease due to inflation. Considering the amount and impact of women's 
health programs from OWH, we urge Congress to provide an increase of $2 
million for the HHS OWH for fiscal year 2010.

                                  AHQR

    AHQR is the lead public health service agency focused on healthcare 
quality, including coordination of all Federal quality improvement 
efforts and health services research. AHRQ's work serves as a catalyst 
for change by promoting the results of research findings and 
incorporating those findings into improvements in the delivery and 
financing of healthcare. This important information provided by AHRQ is 
brought to the attention of policymakers, healthcare providers, and 
consumers all of whom make a difference in the quality of healthcare 
women receive. Through AHRQ's research projects and findings, lives 
have been saved and underserved populations have been treated. For 
example, women treated in emergency rooms are less likely to receive 
life-saving medication for a heart attack. AHRQ funded the development 
of two software tools, now standard features on hospital 
electrocardiograph machines, which have improved diagnostic accuracy 
and dramatically increased the timely use of ``clot-dissolving'' 
medications in women having heart attacks.
    While AHRQ has made great strides in women's health research, its 
budget has been dismally funded for years though targeted funding 
increases in recent years for dedicated projects are moving AHRQ in the 
right direction. However, more core funding is needed to help AHRQ 
fulfill its mission. AHRQ's budget for fiscal year 2009 was $372 
million. This must change for fiscal year 2010. The Society recognizes 
that AHRQ received a dramatic boost under ARRA of $400 million of 
dedicated stimulus funding for the comparative effectiveness project 
this amount does not add to AHRQ's base numbers. This Agency has been 
operating under a major shortfall for years. Decreased funding 
seriously jeopardizes the research and quality improvement programs 
that Congress mandates from AHRQ.
    We recommend Congress fund AHRQ at $405 million for fiscal year 
2010, an increase of $32 million more than the fiscal year 2009 level. 
This will ensure that adequate resources are available for high-
priority research, including women's healthcare, sex and gender-based 
analyses, Medicare, and health disparities.
    In conclusion, Mr. Chairman, we thank you and this subcommittee for 
its strong record of support for medical and health services research 
and its unwavering commitment to the health of the Nation through its 
support of peer-reviewed research. We look forward to continuing to 
work with you to build a healthier future for all Americans.
                                 ______
                                 
          Prepared Statement of the Trust for America's Health

    My name is Jeff Levi, and I am Executive Director of Trust for 
America's Health (TFAH), a nonprofit, nonpartisan organization 
dedicated to saving lives by protecting the health of every community 
and working to make disease prevention a national priority. I am 
grateful for the opportunity to submit testimony to the subcommittee 
about public health appropriations.
    Americans deserve a well-financed, modern, and accountable public 
health system. Funding for public health and disease prevention is a 
down payment toward reducing healthcare costs over the long term. As 
you craft the fiscal year 2010 Labor, Health and Human Services, and 
Education, and Related Agencies appropriations bill, I hope that you 
will include robust funding for prevention and preparedness programs at 
the Centers for Disease Control and Prevention (CDC) and the Office of 
the Assistant Secretary for Preparedness and Response (ASPR) in order 
to promote health and help protect Americans from natural and manmade 
threats and disasters.

                            CASE FOR SUPPORT

    There is increasing evidence that community level interventions, 
the kind of programs that CDC funding supports, make a difference in 
health outcomes and costs. In 2008, TFAH released a report, Prevention 
for a Healthier America: Investments in Disease Prevention Yield 
Significant Savings, Stronger Communities, which examines how much the 
country could save by strategically investing in community-based 
disease prevention programs. The report concludes that an investment of 
$10 per person per year in proven community-based programs to increase 
physical activity, improve nutrition, and prevent smoking and other 
tobacco use could save the country more than $16 billion annually 
within 5 years. This is a return of $5.60 for every $1 spent. The 
findings are based on a model developed by researchers at the Urban 
Institute and a review of evidence-based studies conducted by the New 
York Academy of Medicine. The evidence shows that implementing these 
programs in communities reduces rates of type 2 diabetes and high blood 
pressure by 5 percent within 2 years; reduces heart disease, kidney 
disease, and stroke by 5 percent within 5 years; and reduces some forms 
of cancer, arthritis, and chronic obstructive pulmonary disease by 2.5 
percent within 10 to 20 years, which, can save money through reduced 
health care costs to Medicare, Medicaid and private payers.

                            CHRONIC DISEASES

    Chronic diseases, most of which are preventable, account for 70 
percent of deaths in the United States and approximately 75 percent of 
healthcare spending. CDC's Division of Nutrition, Physical Activity, 
and Obesity (DNPAO) provides funding to States to create, implement, 
and monitor a nutrition, physical activity, and obesity State plan. In 
the previous grant cycle, 28 grantees were supported, but CDC is only 
able to award funds to 25 States in fiscal year 2009. The Division of 
Adolescent and School Health's (DASH) Coordinated School Health Program 
assists States in improving the health of children through a program 
that engages families and communities and develops healthy school 
environments. The President's fiscal year 2010 budget proposes to 
increase funding for DASH by $5 million to fund 10 additional State 
educational agencies to assist them in meeting the needs of their K-12 
children. TFAH strongly supports this request. In the coming years, we 
will ultimately need chronic disease prevention and promotion programs 
in all 50 States. That will require $90 million for DNPAO to fund all 
approved States at the level at which they applied for funds and at 
least an additional $20 million for DASH's School Health program to 
fund all States that have been approved.
    Another important anti-obesity program is the Healthy Communities 
Program. Healthy Communities grants support communities, cities, 
States, and tribal entities to implement health promotion programs and 
community initiatives. TFAH supports at least $30 million for the 
Healthy Communities Program. Yet, funding for this program has 
decreased dramatically over recent years, from $43 million in fiscal 
year 2007 to $22.7 million in the fiscal year 2009 omnibus 
appropriations bill. We support restoration of Healthy Communities 
funding because action at the local level is essential if we are to 
begin to mitigate the obesity epidemic.

                PREPARING FOR PUBLIC HEALTH EMERGENCIES

    In December of last year, TFAH released its annual ``Ready or Not'' 
report on the Nation's preparedness for a catastrophic event. 
Unfortunately, there are many areas where the United States remains 
underprepared. Funding for the Public Health Emergency Preparedness 
Cooperative Agreements to States and localities--where public health 
actually happens--has been cut in recent years. With these funds, local 
health departments have enhanced their disease surveillance systems and 
trained their staff in emergency response, including the recent H1N1 
outbreak. More than 90 percent of local health departments have 
developed mass vaccination and prophylaxis planning, conducted all-
hazards preparedness training, and implemented new or improved 
communication systems. All States have established the infrastructure 
necessary to evaluate urgent disease reports and to activate emergency 
response operations 24 hours a day. Yet despite this progress, 
challenges remain. In its 2008 progress report, CDC noted that 31 State 
public laboratories reported difficulty recruiting qualified laboratory 
scientists, and no State public health laboratory can rapidly identify 
priority radioactive materials in clinical samples. To continue our 
commitment to emergency preparedness, sustainable funding is necessary. 
TFAH recommends $1 billion for upgrading State and local capacity, an 
increase of $253 million more than the fiscal year 2009 level. We also 
recommend $596 million for ASPR's Hospital Preparedness Program, an 
increase of $208 million over the fiscal year 2009 level, to improve 
the capacity of our hospitals and other supporting healthcare entities 
to respond to bioterrorist attacks, infectious disease epidemics, and 
other large-scale emergencies by enabling hospitals, EMS, and health 
centers to plan a coordinated response. To begin to build toward these 
funding levels, TFAH is very supportive and appreciative of the $14.5 
million increase included in the President's budget proposal for 
upgrading state and local capacity, as well as for the $32 million 
increase for the Hospital Preparedness Program.
    Another important program for our Nation's preparedness is the 
Biomedical Advanced Research and Development Authority (BARDA). BARDA 
was established in 2006 to help jumpstart innovation in vaccines, 
diagnostics, and therapeutics to combat health threats; yet limited 
funds have prevented BARDA from fulfilling its mission. BARDA provides 
incentives and guidance for research and development of products to 
counter bioterrorism and pandemic flu and manages Project BioShield, 
which includes the procurement and advanced development of medical 
countermeasures for chemical, biological, radiological, and nuclear 
agents. The fiscal year 2009 omnibus appropriations bill provided $275 
million for BARDA, an increase of approximately $173 million more than 
fiscal year 2008 levels. TFAH applauds Congress' commitment to BARDA, 
as well as the President's proposed $30 million increase, but notes 
that a significant increase in funding would be necessary to support 
the successful development of medical countermeasures. TFAH requests 
$500 million for BARDA in fiscal year 2010, with 2 years of fiscal 
availability, noting that over the next few years, higher funding 
levels must be allocated and sustained.

   BOLSTERING THE NATION'S ABILITY TO DETECT AND CONTROL INFECTIOUS 
                  DISEASES SUCH AS PANDEMIC INFLUENZA

    In fiscal year 2006, Congress appropriated $5.6 billion to the 
Department of Health and Human Services (HHS) for emergency and agency 
funding for pandemic preparedness. The funding has been used for 
stockpiling enough antiviral drugs for the treatment of more than 50 
million Americans, licensing a prepandemic influenza vaccine, 
developing rapid diagnostics and completing the sequencing of the 
entire genetic blueprints of 2,250 human and avian influenza viruses. 
The recent H1N1 influenza outbreak clearly demonstrates the importance 
of this investment.
    TFAH was pleased that the fiscal year 2009 omnibus provided $507 
million in no-year funding to be used to build vaccine production 
capacity, maintain a ready supply of eggs for the production of 
vaccine, and enable HHS to purchase medical countermeasures for its 
critical employees and contractors, as well as the Indian Health 
Service population. We are also appreciative that the House and Senate 
versions of the supplemental appropriations legislation include 
significant funding to address the H1N1 outbreak. In light of the 
challenges that could be posed if H1N1 resurfaces this fall, TFAH urges 
you to include $350 million for State and local preparedness 
activities, as proposed by the House, in the final version of the 
supplemental and to continue support for State and local preparedness 
through the annual appropriations process. Additionally, TFAH is 
hopeful that Congress will create a contingency fund to cover the 
production costs for a potential H1N1 vaccine, should health officials 
determine that mass production is necessary.
    In fiscal year 2010, we urge Congress to fully fund the President's 
request for pandemic preparedness activities, including $354 million to 
the Public Health and Social Services Emergency Fund for vaccine, 
antivirals, ventilators, and countermeasures and personal protective 
equipment for HHS clinical and patient populations, and $230 million 
for agency budgets.

                          ENVIRONMENTAL HEALTH

    An additional area of interest for TFAH is the connection between 
our environment and our health. CDC's Environmental Health Laboratory 
performs biomonitoring measurements--the direct measurement of people's 
exposure to toxic substances in the environment. By analyzing blood, 
urine, and tissues, scientists can measure actual levels of chemicals 
in people's bodies, and determine which population groups are at high 
risk for exposure and adverse health effects, assess public health 
interventions, and monitor exposure trends over time. In fiscal year 
2009, the Environmental Health Laboratory was funded at $42.7 million. 
Additional funds are needed to upgrade facilities and equipment and to 
bolster the workforce. Of the suggested $19.6 million increase, $10 
million would be used extramurally to support State public health 
laboratory biomonitoring capabilities. An additional $7.6 million would 
be used for intramural activities, including increasing the number of 
chemicals CDC measures, providing training and quality assurance for 
State laboratories; and increasing the number of studies used to assess 
health effects associated with exposure to environmental chemicals. 
Additionally, $2 million would support the National Report on 
Biochemical Indicators of Diet and Nutrition in the U.S. Population.
    TFAH is also concerned about the potential health effects of 
climate change, including injuries and fatalities related to severe 
weather events and heat waves; infectious diseases; allergic symptoms; 
respiratory and cardiovascular disease; and nutritional and water 
shortages. TFAH was appreciative of the $7.5 million included in the 
omnibus for a Climate Change Program at CDC. To expand this program, 
for fiscal year 2010, TFAH recommends $17,500,000 to enable CDC to 
bolster its climate change staff, conduct climate change research and 
begin to work with State and local health departments on capacity 
building for climate change and health preparedness. Ultimately, $50 
million is needed to develop a credible and effective Climate Change 
Program.
    Another important program, the National Environmental Health 
Tracking Network, enhances our understanding of the relationship 
between environmental exposures and the incidence and distribution of 
disease. Health tracking, through the integration of environmental and 
health outcome data, enables public health officials to better target 
preventive services so that health care providers can offer better 
care, and the public will be able to develop a clear understanding of 
what is occurring in their communities and how overall health can be 
improved. Since 2002, Congress has provided funding for pilot programs 
in some States and cities. The National Network is launching in 2009. 
With that in mind, TFAH recommends providing $50 million for CDC's 
Environmental and Health Outcome Tracking Network, an increase of $19 
million more than the fiscal year 2009 level, to expand it to 
additional States and support the continued development of a 
sustainable Network.
    Finally, TFAH supports the expansion of CDC's Global Disease 
Detection (GDD) Program. Despite remarkable breakthroughs in medical 
research and advancements in immunization and treatments, infectious 
diseases are undergoing a global resurgence that threatens health. 
Worldwide, infectious diseases are the leading killer of children and 
adolescents and are one of the leading causes of death for adults. It 
is estimated that newly emerging and re-emerging infectious diseases 
will continue to kill at least 170,000 Americans annually. CDC's GDD 
Program helps recognize infectious disease outbreaks, improve the 
ability to control and prevent outbreaks, and detect emerging microbial 
threats. To address the magnitude and urgency of emerging and resurging 
diseases, TFAH recommends $56 million for the GDD Program, an increase 
of $22 million over the fiscal year 2009 level. Funding will increase 
the number of GDD centers across the globe and bring some existing 
centers to full capacity.
    Mr. Chairman, thank you again for the opportunity to submit 
testimony on the urgent need to enhance Federal funding for public 
health programs which can save countless lives and protect our 
communities and our Nation.
                                 ______
                                 
                 Prepared Statement of the TB Coalition

                              TUBERCULOSIS

    The TB Coalition is a network of public health, research, 
professional, and advocacy organizations working to support policies to 
eliminate tuberculosis (TB) in the United States and around the world. 
The TB Coalition is pleased to submit our recommendations for programs 
in the Labor, Health and Human Services, and Education, and Related 
Agencies Subcommittee purview. The TB Coalition, in collaboration with 
Stop TB USA, recommends a funding level of $210 million in fiscal year 
2010 for CDC's Division of TB Elimination, as authorized under the 
Comprehensive TB Elimination Act.

                              TUBERCULOSIS

    Tuberculosis (TB) is an airborne infection caused by a bacterium, 
Mycobacterium tuberculosis. TB primarily affects the lungs but can also 
affect other parts of the body, such as the brain, kidneys or spine. TB 
is the second leading global infectious disease killer, claiming 1.8 
million lives each year. Currently, about a one-third of the world's 
population is infected with the TB bacterium. It is estimated that 9-14 
million Americans have latent TB. Tuberculosis is the leading cause of 
death for people with HIV/AIDS in the developing world. According to a 
2009 World Health Organization (WHO) report on global TB control, about 
5 percent of all new TB cases are drug resistant. The global TB 
pandemic and spread of drug resistant TB present a persistent public 
health threat to the United States.
    The major factors that have caused the spread of drug resistant 
TB--including multi-drug resistant TB (MDR) and extensively drug 
resistant (XDR) TB--are inadequate attention to and funding for basic 
TB control measures in high TB burden; resource-limited settings, which 
also have high HIV prevalence; as well as the lack of investment in new 
drugs, diagnostics and vaccines for TB. While most TB prevalent today 
is a preventable and curable disease when international prevention and 
treatment guidelines are used, many parts of the world--such as Africa 
and Eastern Europe--are struggling to implement them, giving rise to 
more drug resistant TB and increasingly, XDR-TB.

                    XDR-TB AS A GLOBAL HEALTH CRISIS

    XDR-TB has been identified in all regions of the world, including 
the United States. The strain is resistant to two main first-line drugs 
and to at least 2 of the 6 classes of second-line drugs. Because it is 
resistant to many of the drugs used to treat TB, XDR-TB treatment is 
severely limited and the strain has an extremely high-fatality rate. In 
an outbreak in the Kwazulu-Natal province of South Africa from late 
2005 through early 2006, XDR TB killed 52 out of 53 infected HIV-
infected patients within just 3 weeks of diagnosis. According to the 
CDC, there have been 83 cases of XDR-TB in the United States between 
1998 and 2008. While the treatment success rate for XDR-TB in the 
United States is about 64 percent, the extremely high costs of treating 
XDR-TB, coupled with high fatality rates associated with the strain 
make XDR-TB a significant public health concern for the United States.

                          NEW TB TOOLS NEEDED

    Although drugs, diagnostics, and vaccines for TB exist, these 
technologies are antiquated and are increasingly inadequate for 
controlling the global epidemic. The most commonly used TB diagnostic 
in the world, sputum microscopy, is more than 100 years old and lacks 
sensitivity to detect TB in most HIV/AIDS patients and in children. 
Skin tests used in the United States are more effective at detecting 
TB, but take up to 3 days to complete. Current diagnostic tests to 
detect drug resistance take at least 1 month to complete. Faster drug 
susceptibility tests must be developed to stop the spread of drug 
resistant TB. The TB vaccine, BCG, provides some protection to 
children, but it has little or no efficacy in preventing pulmonary TB 
in adults.
    There is an urgent need for new anti-TB treatments, and 
particularly for a shorter drug regimen. Currently, the drug regime for 
TB treatment is 6-9 months. A shorter drug regimen with new classes of 
drugs active against susceptible and drug-resistant strains would 
increase compliance, prevent development of more extensive drug 
resistance, and save program costs by reducing the time required to 
directly observe therapy for patients. There is also a critical need 
for drugs that can safely be taken concurrently with antiretroviral 
therapy for HIV. The good news is that new drugs in development hold 
the promise of shortening treatment from 6-9 months to 2-4 months.

                        TB IN THE UNITED STATES

    Although the numbers of TB cases in the United States continue to 
decline, with 12,898 new cases reported in 2008, progress towards TB 
elimination has slowed. The average annual percentage decline in the TB 
rate slowed from 7.3 percent per year during 1993-2000 to 3.8 percent 
during 2000-2008. Foreign-born and ethnic minorities bear a 
disproportionate burden of U.S. TB cases. The proportion of TB cases in 
foreign-born people has increased steadily in the last decade, from 27 
percent of all cases in 1992 to 58 percent of all cases in 2008. Border 
States and States with high immigration levels such as California, 
Texas, and New York are among the highest-burdened TB States. U.S.-born 
blacks make up almost half (45percent) of all TB cases among U.S.-born 
persons.
    In the 1970s and early 1980s, the United States began significantly 
reducing the TB control infrastructure. Consequently, the trend towards 
TB elimination was reversed and the Nation experienced an unprecedented 
resurgence of TB, including many MDR-TB cases. There was a 20 percent 
increase in cases reported between 1985 and 1992. In just one city, New 
York City, the cost to regain control of TB was more than $1 billion. 
The 2000 Institute of Medicine (IOM) report, Ending Neglect: the 
Elimination of Tuberculosis in the United States, found that the 
resurgence of TB in the United States between 1985 and 1992 was due in 
large part to funding reductions and concluded that with proper 
funding, organization of prevention and control activities, and 
research and development of new tools, TB could be eliminated as a 
public health problem in the United States.
    Drug-resistant TB poses a particular challenge to domestic TB 
control, owing to the high costs of treatment and intensive healthcare 
resources required. Treatment costs for multidrug-resistant (MDR) TB 
range from $100,000 to $300,000, which can cause a significant strain 
on State public health budgets. Inpatient care has been estimated for 
California XDR TB patients from 1993-2006 at an average of 
approximately $600,000 per patient.

               STRONG STATE AND LOCAL TB CONTROL PROGRAMS

    The best defense against the development of drug-resistant 
tuberculosis is a strong network of State and local public health 
programs and laboratories. State, local, and territorial health 
departments provide important TB control services such as directly 
observed therapy (DOT, a proven method to improve adherence and thus 
prevent drug resistance), laboratory support, surveillance, contact 
tracing, and patient counseling. CDC provides about $100 million 
annually in support to State, local and territorial health departments 
to prevent and control TB.
    According to the National Tuberculosis Controller's Association, 
for every confirmed case of TB, State and local health department must 
identify and test an estimated 14 persons who may have been exposed. 
Yet after almost a decade of stagnant funding, many State TB programs 
have been left seriously under-resourced at a time when TB cases are 
growing more complex to diagnose and treat. The higher percentage of 
foreign-born TB patients adds to the need for specially trained TB 
professionals. According to a recent assessment by CDC's Division of TB 
Elimination, more than 1,077 jobs have been lost in State TB control 
programs over the last 3 years--ranging from doctors and nurses to lab 
personnel and outreach workers.
    Despite low rates, persistent challenges to TB control in the 
United States remain. Specifically: (1) racial and ethnic minorities 
continue to suffer from TB more than majority populations; (2) foreign-
born persons are adversely impacted; (3) sporadic outbreaks/clusters 
occur, outstripping local capacity; (4) continued emergence of drug 
resistance threaten our ability to control TB; and (5) there are 
critical needs for new tools for rapid and reliable diagnosis, short, 
safe, and effective treatments, and vaccines.

                      CONGRESSIONAL RESPONSE TO TB

    In recognition of the need to strengthen domestic TB control, the 
Congress passed the Comprehensive Tuberculosis Elimination Act (CTEA) 
(Public Law 110-392) in October 2008. This historic legislation was 
based on the recommendations of the Institute of Medicine and 
revitalized programs at CDC and the NIH with the goal of putting the 
United States back on the path to eliminating TB. The new law 
authorizes an urgently needed reinvestment into new TB diagnostic 
treatment and prevention tools. The TB Coalition, in collaboration with 
Stop TB USA, recommends a funding level of $210 million in fiscal year 
2010 for CDC's Division of TB Elimination, as authorized under the 
CTEA. The CTEA, as introduced, included a separate authorization of 
$100 million through CDC's TB elimination program for the development 
of urgently needed new TB diagnostic, treatment and prevention tools to 
ease the global TB pandemic. We hope that this unique area of need will 
also be considered in the final fiscal year 2010 funding levels.

                  NATIONAL INSTITUTES OF HEALTH (NIH)

    The NIH has a prominent role to play in the elimination of 
tuberculosis through the development of new tools to fight the disease. 
However, the Coalition is concerned that the NIH has reduced funding 
for TB research from $211 million in 2007 to $160 million in 2008. We 
encourage the NIH to expand efforts, as requested under the 
Comprehensive TB Elimination Act, to develop new tools to reduce the 
rising global TB burden, including faster diagnostics that effectively 
identify TB in all populations, new drugs to shorten the treatment 
regimen for TB and combat drug resistance, and an effective vaccine.

                               CONCLUSION

    The global TB epidemic endangers TB control efforts in the U.S. TB 
case rates in the United States reflect the global situation. The best 
way to prevent the future development of drug-resistant strains of 
tuberculosis is through establishing and supporting effective global 
and domestic tuberculosis control programs and research programs 
through the CDC, NIH, and U.S. Agency for International Development 
(USAID). The TB Coalition appreciates this opportunity to provide 
testimony.
                                 ______
                                 
           Prepared Statement of the Tri-Council for Nursing

    The Tri-Council for Nursing, a long-standing alliance focused on 
leadership and excellence in the nursing profession, is composed of the 
American Association of Colleges of Nursing (AACN), the American Nurses 
Association, the American Organization of Nurse Executives, and the 
National League for Nursing (NLN). The collaborative leadership of 
these four professional organizations impacts the breadth of nursing 
practice, including nurse executives, educators, researchers, and 
nurses providing direct patient care. The Tri-Council asks the 
subcommittee to provide $263.4 million in fiscal year 2010 for the 
Nursing Workforce Development Programs under title VIII of the Public 
Health Service Act, administered by the Health Resources and Services 
Administration (HRSA).
    In light of the economic challenges facing our country today, the 
Tri-Council urges the subcommittee to focus on the larger context of 
building the capacity needed to meet the increasing healthcare demands 
of our Nation's population. Such public policy will require sustained 
investments aimed at refocusing the current healthcare system toward 
promoting health, while simultaneously improving value for our dollars. 
The title VIII Nursing Workforce Development Programs are proven policy 
instruments that help assure an adequately prepared nursing workforce. 
These programs--
  --Increase access to healthcare in underserved areas through improved 
        composition, diversity, and retention of the nursing workforce;
  --Advance quality care by strengthening nursing education and 
        practice; and
  --Develop the identification and use of data, program performance 
        measures, and outcomes to make informed decisions on nursing 
        workforce matters.
    The Tri-Council applauds the subcommittee for the emergency 
supplement provided across all the health professions programs via the 
American Recovery and Reinvestment Act (Public Law 111-5). We also 
value the enacted fiscal year 2009 Omnibus Appropriations bill (Public 
Law 111-8) providing $171.031 million specifically for the title VIII 
Nursing Workforce Development Programs. These investments are a 
critical component supporting our healthcare infrastructure.
    Examining the broad context, the healthcare industry remains the 
largest industrial complex in the United States. Studies of the 
Nation's gross domestic product (GDP) show healthcare spending 
achieving a relatively high rate of real growth, with the portion of 
GDP devoted to healthcare growing from 8.8 percent in 1980 to 16.2 
percent of GDP in 2007. While healthcare spending demands greater 
efficiencies, it also has helped to sustain our Nation's sagging 
economy.
    Since 2001, healthcare is virtually the only sector that added jobs 
to the economy on a net basis. In March 2009, the U.S. Bureau of Labor 
Statistics (BLS) reported continued growth in the healthcare sector, 
despite our economy's freefall in a down cycle with unemployment 
reaching 8.1 percent in February 2009. With that month's job loss of 
681,000 realized in nearly all major industries, BLS also reported the 
addition of 27,000 new jobs at hospitals, long-term care facilities, 
and other ambulatory care settings.
    As the predominant occupation in the healthcare industry, the nurse 
workforce likely is filling most of the noted job openings. Nurses are 
the front line of healthcare delivery throughout the Nation, and the 
BLS numbers support that description showing the nurse workforce at 
well more than four times the size of the medical workforce. Increased 
fiscal year 2010 investments in title VIII will help counterbalance the 
economic meltdown threatening nursing programs operating in 
congressional districts and serving communities by supporting nursing 
education--providing title VIII loans, scholarships, traineeships, and 
programmatic funding.

              NURSING SHORTAGE OUTPACES CAPACITY BUILDING

    The Tri-Council contends that an episodic increased funding of 
title VIII will not fully fill the gap generated by an 11-year nursing 
shortage felt throughout the entire U.S. health system and projected to 
continue. The BLS projections estimate that RNs will have the greatest 
growth rate of all U.S. occupations in the period spanning 2006-2016, 
with more than 1 million new and replacement nurses needed by 2016. 
Despite this projected expansion in the profession, numerous other 
studies anticipate a growing national nurse workforce shortage to 
intensify as the baby boomer cohort ages, the current nurse workforce 
retires, and the demand for healthcare accrues.
    Funding levels for the HRSA title VIII Nursing Workforce Programs 
are failing to support the numerous qualified applicants seeking 
assistance from these programs. In the last 3 years, virtually flat 
title VIII funding, along with inflation and increased educational and 
administrative costs, has decreased purchasing power. According to HRSA 
statistics, in fiscal year 2006 the title VIII programs directly or 
indirectly supported 91,189 nurses and nursing students. In fiscal year 
2007, the number of grantees dropped by 21 percent and in 2008 the 
grantees dropped by 28 percent to support only 51,657 nurses and 
nursing students.
    Additionally, schools of nursing continue to suffer from a growing 
shortage of faculty, a troubling infrastructure trend that exacerbates 
the nurse workforce demand-supply gap. According to a study conducted 
by the AACN in 2008, schools of nursing turned away 49,948 qualified 
applicants to baccalaureate and graduate nursing programs. The top 
reasons cited for not accepting these potential students was a lack of 
qualified nurse faculty and resource constraints. Without faculty, 
nursing education programs are prevented from admitting many qualified 
students who are applying to their programs. (Data are Internet 
accessible at http://www.aacn.nche.edu/Media/NewsReleases/2009/ 
workforcedata.html.)
    The AACN survey results are reinforced by the NLN study of all 
types of prelicensure RN programs, which prepare students to sit for 
the RN licensing exam (i.e., baccalaureate, associate, and diploma 
degree). The NLN statistics indicate more than 1,900 unfilled full-time 
faculty positions existed nationwide in 2007, affecting more than one-
third (36 percent) of all schools of nursing. Significant recruitment 
challenges were found with 84 percent of nursing schools at-tempting to 
hire new faculty in 2007-2008, more than three-quarters (79 percent) 
reporting recruitment as ``difficult'' and almost 1 in 3 schools found 
it ``very difficult.'' The two main difficulties cited were ``not 
enough qualified candidates'' (cited by 46 percent of schools), 
followed by inability to offer competitive salaries--cited by 38 
percent. (Data are Internet accessible at www.nln.org/research/slides/
index.htm.)

                          THE FUNDING REALITY

    If the United States is to reverse the eroding trends in the nurse 
and nurse faculty workforce, the Nation must make a significant 
investment in the title VIII programs, which are charged to favor 
institutions educating nurses for practice in rural and medically 
underserved communities. At adequate funding levels the title VIII 
programs supporting the education of registered nurses, advanced 
practice registered nurses, nurse faculty, and nurse researchers have 
demonstrated successful intervention strategies to solving past nursing 
shortages.
    A brief examination of the HRSA title VIII illustrates the robust 
nature of these programs:
    Section 811.--The Advanced Education Nursing (AEN) Program funds 
traineeships for individuals preparing to be nurse practitioners, nurse 
midwives, nurse administrators, public health nurses, and nurse 
educators, among other graduate-level education nursing roles. The AEN 
awards assisted nurse education programs to support 3,419 graduate 
nursing students in fiscal year 2008.
    Section 821.--The Nursing Workforce Diversity Program funds grants 
and contracts to schools of nursing, nurse-managed health centers 
(NMCs), academic health centers, State and local governments, and 
nonprofit entities to increase nursing education opportunities for 
individuals from disadvantaged backgrounds and under-represented 
populations among RNs. This program--of proven intervention 
strategies--supported 18,741 students in fiscal year 2008, seeking to 
ensure a culturally diverse workforce to provide healthcare for a 
culturally diverse patient population.
    Section 831.--The Nurse Education, Practice and Retention Program 
provides support for academic and continuing education projects 
designed to strengthen the nursing workforce. Several of this program's 
priorities apply to quality patient care including developing cultural 
competencies among nurses and providing direct support to establishing 
or expanding NMCs in noninstitutional settings to improve access to 
primary healthcare in medically underserved communities. The program 
also provides grants to improve retention of nurses and enhanced 
patient care. In fiscal year 2008, approximately 6,000 nurses and 
nursing students were supported.
    Section 846.--The Nurse Loan Repayment and Scholarship Programs is 
divided into two primary elements. The Nursing Education Loan Repayment 
Program (NELRP) assists individual RNs by re-paying up to 85 percent of 
their qualified educational loans over 3 years in return for their 
commitment to work at health facilities with a critical shortage of 
nurses, such as departments of public health, community health centers, 
and disproportionate share hospitals. In fiscal year 2008, of the 5,875 
applications reviewed by HRSA, only 435 students (7.4 percent) received 
NELRP awards. Similarly, the Nurse Scholarship Program (NSP) provides 
financial aid to individual nursing students in return for working a 
minimum of 2 years in a healthcare facility with a critical nursing 
shortage. In fiscal year 2008, NSP turned away most of the applicants 
owing to a lack of adequate funding, resulting in the distribution of 
only 169 student awards.
    Section 846A.--The Nurse Faculty Loan Program (NFLP) supports the 
establishment and operation of a loan fund within participating schools 
of nursing to assist RNs to complete their education to become nursing 
faculty. The NFLP grants provide a cancellation provision in which 85 
percent of the loan, plus interest, may be cancelled over 4 years in 
return for serving as full-time faculty in a school of nursing. NFLP 
granted 729 awards in fiscal year 2008.
    Section 855.--The Comprehensive Geriatric Education Grant Program 
focuses on training, curriculum development, faculty development, and 
continuing education for nursing personnel caring for the elderly. In 
fiscal year 2008, 18 awards were made in this program.
    While title VIII is the largest source of Federal funding for 
nursing, the current level of investment falls short of remedying a 
chronic underfunding of the Nursing Workforce Development Programs, 
compared to the existing and imminent shortages these programs address. 
The title VIII authorities are capable of providing flexible and 
effective support to assist students, schools of nursing, and health 
systems in their efforts to recruit, educate, and retain registered 
nurses. Recent efforts have shown that aggressive and innovative 
strategies can help avert the nurse and nurse faculty shortages. The 
Tri-Council for Nursing understands the competing priorities faced by 
this Congress, but we also maintain that title VIII Nursing Workforce 
Development Programs must be funded at an adequate level to begin to 
impact the shortage and to address the complex health needs of the 
Nation. The contributions of nurses in our healthcare system are 
multifaceted, and are impacted directly by the level of Federal funding 
that supports nursing programs.
                                 ______
                                 
              Prepared Statement of The Endocrine Society

    The Endocrine Society is pleased to submit the following testimony 
regarding fiscal year 2010 Federal appropriations for biomedical 
research, with an emphasis on appropriations for the National 
Institutes of Health (NIH). The Endocrine Society is the world's 
largest and most active professional organization of endocrinologists 
representing more than 14,000 members worldwide. Our organization is 
dedicated to promoting excellence in research, education, and clinical 
practice in the field of endocrinology. The Society's membership 
includes thousands of researchers who depend on Federal support for 
their careers and their scientific advances.
    Since the doubling of its budget, the NIH has received annual 
funding increases below the rate of biomedical inflation. Fiscal year 
2009 appropriations resulted in the first real-dollar increase in NIH 
funding since fiscal year 2003. This decline in useable dollars has 
resulted in a significant decrease in the number of R01 grants funded. 
In 2003, the number of new and continuing R01s was 7,211; the number of 
grants awarded in 2008 dropped to 5,886. As a result of the decreasing 
number of grants awarded, the success rate for new R01 grants dropped 
from 25.5 percent in 1999 to a low of 16.3 percent in 2006 (the 2008 
success rate was 19 percent). Not only does the decline in grants 
affect the number of scientists who are able to continue their research 
and discover new treatments and cures, it also has a significant impact 
on the U.S. economy.
    In fiscal year 2007, every $1 million that the public invested in 
NIH research generated $2.21 million in new business activity across 
the Nation. At a recent House Energy and Commerce Committee hearing, 
Dr. Raynard Kington, Acting Director of the NIH, stated that each NIH 
grant supports seven jobs on average. Since grants are dispersed to all 
50 States and 90 percent of Congressional Districts, increasing funding 
for science will have a significant positive impact on job growth. And 
unlike many other proposals to stimulate the economy, funding NIH 
grants can have an immediate impact on the economy because these grants 
can be funded in a matter of weeks, stimulating local economies through 
salaries and purchase of equipment, laboratory supplies, and vendor 
services.
    Members of Congress and President Obama recognized the positive 
impact that funding NIH research can have on the economy and allocated 
more than $10 billion to the NIH in the American Recovery and 
Reinvestment Act of 2009. These funds will go a long way towards 
increasing the success rate of new R01 applications, keeping scientists 
employed, and creating new jobs. The Endocrine Society thanks Congress 
for the support of biomedical research funding in the ARRA.
    However, the Federal Government needs to make a long-term, 
sustainable commitment to biomedical research funding. The money 
allocated to the NIH in the ARRA is a one-time infusion of money, and 
it is unclear how much NIH's budget will be when the stimulus funds run 
out at the end of fiscal year 2010. These funds will create thousands 
of new jobs, most of which will end when fiscal year 2011 begins if 
Congress does not bring NIH's budget closer to $40 billion than to $30 
billion. The loss of these jobs could have a drastic effect on our 
economy and counteract the benefits realized during fiscal year 2009 
and 2010 as a result of the stimulus funding.
    While the Nation is struggling with a failing economy, health 
reform is also on the top of the minds of Members of Congress and the 
American people. With the aging of the Baby Boomer generation, the 
incidence of costly, chronic conditions will significantly increase, 
and a large portion of the projected increase in healthcare costs will 
be as a result of escalating costs associated with diabetes, obesity, 
hypertension, Alzheimer's disease, muscular dystrophy, cystic fibrosis, 
and stroke. In order to prevent and treat these diseases, and save the 
country billions in healthcare costs, significant investment in 
biomedical research will be needed. For instance, treatments that delay 
or prevent diabetic retinopathy save the country $1.6 billion a year, 
and new treatments that delay the onset and progression of Alzheimer's 
disease by 5 years can save $50 billion a year in healthcare costs.
    The Endocrine Society remains deeply concerned about the future of 
biomedical research in the United States without sustained support from 
the Federal Government. The Society strongly supports the continued 
increase in Federal funding for biomedical research in order to provide 
the additional resources needed to enable American scientists to 
address the burgeoning scientific opportunities and new health 
challenges that continue to confront us. The Endocrine Society supports 
President Obama's campaign pledge to double the NIH budget over 10 
years. We therefore recommend that NIH receive an increase of at least 
7 percent in fiscal year 2010 to prepare for the poststimulus era and 
ensure the steady, sustainable growth necessary to complete the 
President's vision of doubling the investment in basic and clinical 
research.
                                 ______
                                 
         Prepared Statement of The Mended Hearts, Incorporated

    I am Robert A. Scott, National Advocacy Chairman for The Mended 
Hearts, Incorporated, a heart disease support group with more than 300 
chapters across the United States and Canada. In 2008, accredited 
Mended Hearts volunteers visited about 3,000 heart patients in more 
than 400 hospitals throughout the United States.
    As a walking testimony of the benefits of the National Institutes 
of Health (NIH)-supported heart research, I would like to share my 
story. In 1998, at age 48, I suffered my first heart attack while 
playing volleyball. While at Woonsocket, Rhode Island's Landmark 
Medical Center, doctors diagnosed me as suffering a so-called silent 
heart attack. I learned that as many as 4 million Americans experience 
this type of episode--a heart attack with no warning.
    After being stabilized, I was transferred to Roger Williams 
Hospital, in Providence, Rhode Island for a heart catheterization--the 
gold standard for diagnosis of heart problems. The procedure showed 
that I had a blockage in my artery that required a stent to open it. 
Also, it showed that the lower chamber of my heart was damaged, 
resulting in congestive heart failure that could be controlled with 
medicine. A stent was inserted in my artery in Rhode Island Hospital.
    In 1999, I received another heart catheterization in Miriam 
Hospital because of the damage to my heart from the silent heart 
attack. However, this time, I was told that my artery could not be 
repaired with a stent and that I needed heart bypass surgery the next 
morning. Calling me a high-risk patient because of my age and my 
weakened heart, my surgeon encouraged me to find a doctor in Boston 
because my heart might not start again. However, he assured me that if 
this happens they had a device that could keep me alive for only 7 
hours. Thank goodness, he told me that in Boston they had another 
device that could keep me alive for 7 months while they located a 
replacement heart. In less then 10 hours, I went from the possibility 
of needing another stent, heart bypass surgery, and a heart transplant. 
My journey with heart disease continued.
    My next stop was to visit my local cardiologist in Woonsocket who 
estimated my survival rate at 20 percent, but he thought I would 
survive the heart bypass surgery. Thankfully, he was right and I 
survived heart bypass surgery.
    But my journey didn't end there. My congestive heart failure was 
causing my heart to beat irregularly, so an implantable defibrillator 
was inserted to control the problem in 2002. However, this device had 
to be replaced nearly 4 years later. My story continues in 2007 where I 
started experiencing daily chest pain and shortness of breath. Yet 
another heart catheterization showed that I needed an additional stent, 
but this time in Miriam Hospital. After the procedure, the doctor told 
me the original heart bypass surgery was no longer effective. Although 
I was scared, my doctors comforted me by explaining that a new medical 
innovation could save my life-a drug eluting stent. They explained that 
it could open up the original blockage from my silent heart attack. My 
doctor explained that if these state-of-the art stents had been 
available in 1998, I would not have had to have heart bypass surgery.
    Today, heart attack, stroke, and other cardiovascular diseases 
remain our Nation's most costly and No. 1 killer and a major cause of 
disability. Thanks to medical research supported by the NIH, I am alive 
today. I am concerned that NIH continues to invest only 4 percent of 
its budget on heart research and a mere 1 percent on stroke research 
when there are so many people in our country just like I am. Enhanced 
NIH funding dedicated to heart and stroke research will bring us closer 
to a cure for these often deadly and disabling diseases.
                                 ______
                                 
       Prepared Statement of the United Tribes Technical College

    For 40 years, United Tribes Technical College (UTTC) has provided 
postsecondary career and technical education, job training, and family 
services to some of the most impoverished Indian students from 
throughout the Nation. We are governed by the five tribes located 
wholly or in part in North Dakota. We have consistently had excellent 
results, placing Indian people in good jobs and reducing welfare rolls. 
The Perkins funds constitute about half of our operating budget and 
provide for our core instructional programs for many of our Associate 
of Applied Science degrees. We do not have a tax base or State-
appropriated funds on which to rely.
    The request of the UTTC Board is for the following authorized 
programs:
  --$8.5 million or $727,000 above the fiscal year 2009 enacted level 
        for section 117 of the Carl Perkins Act. These funds are shared 
        via a formula by UTTC and Navajo Technical College.
  --Provision of additional funding for title III and title III-A of 
        the Higher Education Act (HEA) that provide construction funds 
        for facilities at institutions of higher education (title III) 
        and at tribally controlled colleges (title III-A). For example, 
        UTTC needs an additional $10.9 million to complete the 
        construction of a new science and technology building towards 
        which UTTC already has obtained $3 million.
    The students who attend UTTC are from Indian reservations from 
throughout the Nation, with a significant portion of them being from 
the Great Plains area. Our students come from impoverished backgrounds 
or broken families. They may be overcoming extremely difficult personal 
circumstances as single parents. They often lack the resources, both 
culturally and financially, to go to other mainstream institutions. 
Through a variety of sources, including funds from section 117 of the 
Carl Perkins Act, UTTC provides a set of family and culturally based 
campus services, including: an elementary school for the children of 
students, housing, day care, a health clinic, a wellness center, 
several on-campus job programs, student government, counseling, 
services relating to drug and alcohol abuse and job placement programs. 
The Carl Perkins funds we receive are essential to our students' 
success.
    Perkins Authorization.--Section 117 of the Carl D. Perkins Career 
and Technical Education Act (20 U.S.C. section 2327) is the source of 
authorization of Perkins funding for UTTC. Section 117 is entitled 
``Tribally Controlled Postsecondary Career and Technical 
Institutions.'' First authorized in 1991, Congress has continued this 
authorization in the subsequent reauthorizations of the Perkins Act. 
Funding under this act has in recent years been distributed on a 
formula basis to UTTC and to Navajo Technical College.
    Despite the explicit congressional authorization for Carl Perkins 
funding for section 117, and despite the administration's requests for 
funding for section 117 in all previous years, the Bush administration 
requested nothing for this program for fiscal year 2009. We are pleased 
that Congress recognized the value of UTTC's programs, and instead gave 
a priority to UTTC and Navajo Technical College by appropriating a 
$227,000 increase for section 117 Perkins in the recently enacted 
Omnibus appropriations bill for fiscal year 2009. However, in the 
process our section 117 program was listed as an earmark, despite the 
authorization for the appropriated amount. As a continuing, authorized 
Native American serving program, we should not be considered an 
earmark.
    UTTC Performance Indicators.--UTTC has:
  --An 80 percent retention rate.
  --A placement rate of 94 percent (job placement and going on to 4-
        year institutions).
  --A projected return on Federal investment of 20 to 1 (2005 study 
        comparing the projected earnings generated over a 28-year 
        period of UTTC associate of applied science and bachelor degree 
        graduates of June 2005 with the cost of educating them).
  --The highest level of accreditation. The North Central Association 
        of Colleges and Schools has accredited UTTC again in 2001 for 
        the longest period of time allowable--10 years or until 2011--
        and with no stipulations. We are also 1 of only 2 tribal 
        colleges accredited to offer accredited on-line (Internet-
        based) associate degrees.
  --More than 20 percent of our graduates go on to 4-year or advanced 
        degree institutions.
    We also note the January 13, 2009, report of the Department of 
Education's Office of Vocational and Adult Education on its recent site 
visit to UTTC (October 7-9, 2008). While some suggestions for 
improvements were made, the Department commended UTTC in many areas: 
for efforts to improve student retention; the commitment to data-driven 
decisionmaking, including the implementation of the Jenzabar system 
throughout the institution; the breadth of course offerings; 
collaboration with 4-year institutions; expansion of online degree 
programs; unqualified opinions on both financial statements and 
compliance in all major programs; being qualified as a low-risk 
grantee; having no reportable conditions and no known questioned costs; 
clean audits; and use of the proposed measurement definitions in 
establishing institutional performance goals.
    The demand for our services is growing and we are serving more 
students. For the 2008-2009 year we enrolled 1,023 students (an 
unduplicated count), nearly four times the number served just 6 years 
ago. Most of our students are from the Great Plains, where the Indian 
reservations have a jobless rate of 76 percent (Source: 2003 BIA Labor 
Force Report), along with increasing populations. These statistics 
dramatically demonstrate the need for our services at increased levels 
for at least the next 10 years.
    In addition, we are serving 141 students during school year 2008-
2009 in our Theodore Jamerson Elementary school and 202 children, birth 
to 5, are being served in our child development centers.
    UTTC course offerings and partnerships with other educational 
institutions. We offer 17 accredited vocational/technical programs that 
lead to 17, 2-year degrees (Associate of Applied Science (AAS)) and 11, 
1-year certificates, as well as a 4-year degree in elementary education 
in cooperation with Sinte Gleska University in South Dakota.
    Licensed Practical Nursing.--This program has one of the highest 
enrollments at UTTC and results in the greatest demand for our 
graduates. Our students have the ability to transfer their UTTC credits 
to the North Dakota higher educational system to pursue a 4-year 
nursing degree.
    Medical Transcription and Coding Certificate Program.--This program 
provides training in transcribing medical records into properly coded 
digital documents. It is offered through the college's Exact Med 
Training program and is supported by Department of Labor funds.
    Tribal Environmental Science.--Our Tribal Environmental Science 
program is supported by a National Science Foundation Tribal College 
and Universities Program grant. This 5-year project allows students to 
obtain a 2-year AAS degree in Tribal Environmental Science.
    Community Health/Injury Prevention/Public Health.--Through our 
Community Health/Injury Prevention Program we are addressing the injury 
death rate among Indians, which is 2.8 times that of the U.S. 
population, the leading cause of death among Native Americans ages 1-
44, and the third leading cause of death overall. This program has in 
the past been supported by the Indian Health Service, and is the only 
degree-granting Injury Prevention program in the Nation. Given the 
overwhelming health needs of Native Americans, we continue to seek new 
resources to increase training opportunities for public health 
professionals.
    Online Education.--Our online education courses provide increased 
opportunities for education by providing web-based courses to American 
Indians at remote sites as well as to students on our campus. These 
courses provide needed scheduling flexibility, especially for students 
with young children. They allow students to access quality, tribally 
focused education without leaving home or present employment. However, 
we also note the lack of on-line opportunities for Native Americans in 
both urban and rural settings, and encourage the Congress to devote 
more resources in this area.
    We offer online fully accredited degree programs in the areas of 
Early Childhood Education, Community Health/Injury Prevention, Health 
Information Technology, Nutrition and Food Service and Elementary 
Education. More than 80 courses are currently offered online, including 
those in the Medical Transcription and Coding program. We presently 
have 50 online students in various courses and 137 online students in 
the Medical Transcription program.
    We also provide an online Indian Country Environmental Hazard 
Assessment program, offered through the Environmental Protection 
Agency. This is a training course designed to help tribes understand 
how to mitigate environmental hazards in reservation communities.
    Computer Information Technology.--This program is at maximum 
student capacity because of limitations on resources for computer 
instruction. In order to keep up with student demand and the latest 
technology, we need more classrooms, equipment and instructors. We 
provide all of the Microsoft Systems certifications that translate into 
higher income earning potential for graduates.
    Nutrition and Food Services.--UTTC helps meet the challenge of 
fighting diabetes and other health problems in Indian Country, such as 
cancer, through education and research. Indians and Alaska natives have 
a disproportionately high rate of type 2 diabetes, and have a diabetes 
mortality rate that is three times higher than the general U.S. 
population. The increase in diabetes among Indians and Alaska natives 
is most prevalent among young adults aged 25-34, with a 160 percent 
increase from 1990-2004. (Source: Fiscal Year 2009 Indian Health 
Service Budget Justification). Our research about native foods is 
helping us learn how to reduce the high levels of diseases in our 
communities.
    As a 1994 Tribal Land Grant institution, we offer a Nutrition and 
Food Services AAS degree in order to increase the number of Indians 
with expertise in nutrition and dietetics. Currently, there are very 
few Indian professionals in the country with training in these areas. 
Our degree places a strong emphasis on diabetes education, traditional 
food preparation, and food safety. We have also established the United 
Tribes Diabetes Education Center that assists local tribal communities, 
our students and staff to decrease the prevalence of diabetes by 
providing educational programs, training and materials. We publish and 
make available tribal food guides to our on-campus community and to 
tribes.
    Business Management/Tribal Management.--Another critical program 
for Indian country is business and tribal management. This program is 
designed to help tribal leaders be more effective administrators and 
entrepreneurs. As with all our programs, curriculum is constantly being 
updated.
    Job Training and Economic Development.--UTTC continues to provide 
economic development opportunities for many tribes. We are a designated 
Minority Business Development Center serving South and North Dakota. We 
administer a Workforce Investment Act program and an internship program 
with private employers in the region.
    South Campus Development.--The bulk of our current educational 
training and student housing is provided in 100-year-old buildings, 
part of a former military base used by UTTC since its founding in 1969 
and donated to us by the United States in 1973. They are expensive to 
maintain, do not meet modern construction and electrical code 
requirements, are mostly not ADA compliant, and cannot be retrofitted 
to be energy efficient.
    As a result, UTTC has developed plans for serving more students in 
new facilities that will provide training and services to meet future 
needs. We are now developing land purchased with a donation that will 
become our south campus. Infrastructure for one-fourth of the new 
campus has been completed, and we have now obtained partial funds for a 
new, and badly needed, science, math, and technology building. We need 
an additional $10.9 million to help complete this building. Our vision 
for the south campus is to serve up to 5,000 students. We expect that 
funding for the project will come from Federal, State, tribal, and 
private sources. Without additional funding for titles III and III-A of 
the HEA, that provide construction funds for campuses such as ours, 
many students will be denied the opportunity for higher education.
    Our Department of Education funds are essential to the operation of 
our campus. Our programs at UTTC continue to be critical and relevant 
to the welfare of Indian people throughout the Great Plains region and 
beyond. Thank you for your consideration of our request.

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
